U.S. Department of Justice




An Investigation into the Removal
 of Nine U.S. Attorneys in 2006




  U.S. Department of Justice           U.S. Department of Justice
Office of the Inspector General   Office of Professional Responsibility




                                              September 2008
                                     TABLE OF CONTENTS

CHAPTER ONE INTRODUCTION ................................................................ 1

I.     Methodology of the Investigation ....................................................... 2

II.    Organization of this Report ............................................................... 4

CHAPTER TWO BACKGROUND.................................................................. 7

I.     U.S. Attorneys .................................................................................. 7

II.    Selection of U.S. Attorneys................................................................ 8

III.   Department Evaluation and Interaction with U.S. Attorneys ............. 9

IV.    Backgrounds of Department Officials.............................................. 10
       A.      Alberto Gonzales ................................................................... 11
       B.      Kyle Sampson ....................................................................... 11
       C.      Monica Goodling ................................................................... 11
       D.      Paul McNulty ........................................................................ 12
       E.      Michael Elston ...................................................................... 12
       F.      David Margolis ...................................................................... 13
       G.      William Mercer ...................................................................... 13

CHAPTER THREE FACTUAL OVERVIEW.................................................. 15

I.     Development of U.S. Attorney Removal Lists ................................... 15
       A.      Genesis of Plan to Remove U.S. Attorneys.............................. 16
       B.      Process to Identify U.S. Attorneys for Removal ....................... 16
       C.      The First List – March 2, 2005............................................... 18
               1.       Input from Comey and Margolis ................................... 21
               2.       Reaction to the List from the Office of the
                        White House Counsel................................................... 22
               3.       Fall 2005 – Further Consultations about the Removal
                        of U.S. Attorneys.......................................................... 23
                        a.      Battle ................................................................. 23
                        b.      Mercer................................................................ 23
                        c.      Comey ................................................................ 24
                        d.      Buchanan .......................................................... 24
       D.      The Second List – January 2006............................................ 25


                                                     i
             1.      Sampson’s January 1, 2006, Draft List ........................ 25
             2.      The January 9, 2006, Memorandum from Sampson
                     to the White House ...................................................... 27
             3.      The First Removal: Todd Graves .................................. 29
      E.     The Third List – April 14, 2006 .............................................. 30
             1.      Heffelfinger .................................................................. 31
             2.      Ryan............................................................................ 32
             3.      The Plan to Replace Cummins with Griffin ................... 33
                     a.      Miers’s Request Regarding Griffin ....................... 33
                     b.      Battle Tells Cummins to Resign .......................... 34
             4.      Sampson Suggests that Patrick Fitzgerald Be Removed 34
      F.     The Fourth List – September 13, 2006................................... 35
             1.      Sampson’s “Consensus” Process in Compiling the List . 37
             2.      The Removal Plan Takes Shape .................................... 39
      G.     Elston’s List – November 1, 2006 ........................................... 40
      H.     The Fifth List – November 7, 2006 ......................................... 42
             1.      Iglesias is Added to the List.......................................... 42
             2.      The Removal Plan ........................................................ 43
             3.      Reaction to the November 7 List and Plan .................... 44
      I.     The Sixth List – November 15, 2006 ...................................... 46
             1.      The Revised Plan.......................................................... 46
             2.      Execution of the Plan is Postponed............................... 47
             3.      The November 27, 2006, Meeting in the
                     Attorney General’s Office.............................................. 48
                     a.      Gonzales’s Recollection of the
                             November 27 Meeting ......................................... 49
                     b.      McNulty Asks to Add Ryan to the List ................. 49
                     c.      White House Approval of the Removal Plan ......... 50
      J.     The Seventh and Final List – December 4, 2006 .................... 50
             1.      The White House Approves the Plan ............................. 50
             2.      The Implementation of the Removal Plan...................... 51

II.   The Aftermath of the Removals ....................................................... 52
      A.     The U.S. Attorneys’ Initial Reactions...................................... 53
      B.     Concern that the Department Intended to Bypass Senate
             Confirmation for Replacement U.S. Attorneys ........................ 54
      C.     The Department Begins to Publicly Respond to Concerns
             About the Removals .............................................................. 55



                                                  ii
     1.      Articles About Cummins’s Removal .............................. 55
     2.      Senators Express Concern About the Removals............ 57
     3.      Sampson’s January 2007 Briefing of Senate Judiciary
             Committee Staff ........................................................... 58
D.   Elston’s Telephone Calls to Charlton and McKay on
     January 17, 2007.................................................................. 61
     1.      Telephone Call to McKay .............................................. 62
     2.      Telephone Call to Charlton........................................... 63
     3.      Elston’s Description of the Telephone Calls .................. 63
E.   Attorney General Gonzales’s January 18, 2007, Testimony
     Before the Senate Judiciary Committee ................................. 64
F.   Cummins Seeks Advice from Elston ...................................... 65
G.   McNulty’s February 6, 2007, Testimony Before the Senate
     Judiciary Committee ............................................................. 65
     1.      McNulty’s Use of the Term “Performance-Related” to
             Describe the Removals ................................................. 65
     2.      Attorney General Gonzales’s Reaction to McNulty’s
             Testimony .................................................................... 67
     3.      U.S. Attorneys’ Reaction to McNulty’s Testimony.......... 68
H.   The February 8 Letter from Several Senators ......................... 68
I.   McNulty’s February 14 Closed Briefing for the
     Senate Judiciary Committee .................................................. 69
     1.      Preparation for the Briefing .......................................... 69
     2.      McNulty’s Briefing for the Senate Judiciary Committee 71
J.   Elston’s Alleged Threat to Cummins ...................................... 73
     1.      Cummins’s Quote in The Washington Post ................... 73
     2.      Elston’s Telephone Call to Cummins ............................ 74
             a.      Cummins’s Account of the Telephone Call .......... 74
             b.      Cummins’s E-mail to Bogden, Charlton, Iglesias,
                     Lam, and McKay about the Telephone Call ......... 75
             c.      Elston’s Account of the Telephone Call ............... 76
K.   The Department’s Response to the Senators’ Letter ............... 77
L.   Events in March 2007 ........................................................... 78
     1.      March 3 Washington Post Article ................................. 78
     2.      House and Senate Hearings ......................................... 78
     3.      Cummins’s February 20 E-mail Surfaces ..................... 79
     4.      Moschella’s Testimony Before the House Judiciary
             Subcommittee.............................................................. 82
             a.      Preparation Sessions .......................................... 82


                                         iii
                        b.       Discussion in Preparation Sessions About White
                                 House Involvement ............................................. 82
                        c.       March 5 Meeting at the White House to Discuss
                                 Moschella’s Testimony ........................................ 84
                        d.       Moschella’s Testimony ........................................ 85
       M.      Attorney General Gonzales’s March 7 Op-Ed Article............... 87
       N.      Additional Documents Come to Light..................................... 89
       O.      Sampson’s Resignation.......................................................... 93
       P.      The Scudder Memorandum ................................................... 93
       Q.      Attorney General Gonzales’s March 13 Press Conference ....... 94
       R.      Attorney General Gonzales Directs an Investigation ............... 95
       S.      Attorney General Gonzales’s Conversation with Goodling....... 95
       T.      Goodling Resigns from the Department ................................. 97
       U.      Subsequent Events ............................................................... 97

CHAPTER FOUR TODD GRAVES ............................................................. 99

I.     Introduction ................................................................................... 99
       A.      Graves’s Background............................................................. 99
               1.       The EARS Evaluation of Graves’s Office.......................100
               2.       Graves’s Status on the Removal lists...........................100
       B.      Reasons Proffered for Graves’s Removal................................101

II.    Chronology of Events Related to Graves’s Removal........................ 102
       A.      The Misconduct Allegations ..................................................102
               1.       Allegations Concerning Graves’s Wife ..........................102
               2.       Anonymous Allegations Regarding Graves ...................104
       B.      Complaints About Graves .....................................................105
               1.       Senator Bond’s Congressional Staff Complain About
                        Graves to White House Staff........................................105
               2.       The Department Learns About Bond’s Staff’s
                        Complaints .................................................................106
       C.      Graves is Told to Resign .......................................................108
       D.      Department Comments About Graves’s Resignation .............110

III.   Analysis........................................................................................ 111

CHAPTER FIVE H.E. “BUD” CUMMINS................................................... 115



                                                     iv
I.     Introduction ................................................................................. 115
       A.      Cummins’s Background .......................................................115
       B.      The EARS Evaluations of Cummins’s Office ..........................116
       C.      Cummins’s Status on the Removal Lists ...............................116
       D.      Reasons Proffered for Cummins’s Removal ...........................116

II.    Chronology of Events Related to Cummins’s Removal ................... 117
       A.      Cummins’s Performance.......................................................117
               1.       Sampson’s Statements................................................117
               2.       Department Managers’ Statements..............................118
       B.      Cummins’s Removal and Griffin’s Appointment ....................119
               1.       Griffin’s Background ...................................................119
               2.       Griffin Learns Cummins’s Name is on the
                        Removal List ...............................................................120
               3.       Griffin Expresses Interest in the U.S. Attorney
                        Position ......................................................................121
               4.       January 2006 Removal List Identifies Griffin as
                        Cummins’s Replacement.............................................124
               5.       Griffin’s Nomination Process .......................................125
                        a.       Allegation that the Department Intended to
                                 Bypass the Senate Confirmation Process ...........126
                        b.       The Pre-Nomination Process ..............................127
                        c.       Indefinite Interim Appointment Proposed for
                                 Griffin ...............................................................128
                        d.       Griffin Returns to Arkansas as a Special
                                 Assistant U.S. Attorney......................................131
       C.      Attorney General Gonzales Appoints Griffin Interim U.S.
               Attorney ...............................................................................131
       D.      Public Concerns About Griffin’s Appointment .......................132
       E.      The Attorney General’s and the Deputy Attorney General’s
               Testimony ............................................................................135
       F.      The Department’s Written Response to Congressional
               Concerns About Griffin’s Appointment..................................137
       G.      Griffin Withdraws.................................................................140
       H.      Taylor’s Comment Concerning Cummins ..............................141

III.   Analysis........................................................................................ 142
       A.      Cummins’s Removal.............................................................142
       B.      Misleading Statements about Cummins’s Removal ...............144


                                                      v
       C.      Interim Appointment of Griffin..............................................145

CHAPTER SIX DAVID IGLESIAS............................................................. 149

I.     Introduction ................................................................................. 149
       A.      Iglesias’s Background...........................................................149
       B.      The EARS Evaluations of Iglesias’s Office..............................150
       C.      Iglesias’s Status on the Removal Lists...................................151
       D.      Reasons Proffered for Iglesias’s Removal ...............................151
       E.      Investigative Limitations.......................................................153

II.    Chronology of Events Related to Iglesias’s Removal ....................... 155
       A.      Alleged Concerns about Iglesias’s Management.....................155
       B.      Voter Fraud and Public Corruption Matters ..........................158
               1.       Initial Complaints of Voter Fraud ................................158
               2.       Representative Wilson’s Complaint Concerning
                        Voter Fraud ................................................................159
               3.       Formation of the Election Fraud Task Force ................160
               4.       Continuing Complaints About Voter Fraud..................161
               5.       Election Fraud Task Force Review of Complaints.........163
               6.       Iglesias’s Meeting with Weh Regarding his Handling
                        of Voter Fraud Complaints ..........................................164
               7.       Complaints to the White House Regarding Iglesias’s
                        Handling of Voter Fraud Cases....................................165
               8.       Complaints Concerning Iglesias’s Handling of Public
                        Corruption Cases ........................................................166
                        a.      The Vigil Case....................................................166
                        b.      The “Courthouse Case” ......................................168
               9.       Senator Domenici’s Calls to Attorney General
                        Gonzales Regarding Iglesias ........................................168
               10.      Complaints to the Department Regarding Voter
                        Fraud and Corruption Cases.......................................170
               11.      Complaints to Senator Domenici .................................172
               12.      Complaints to Karl Rove about Delays in the
                        Courthouse Case ........................................................172
               13.      Senator Domenici’s Telephone Call to Deputy
                        Attorney General McNulty ...........................................174
               14.      White House Communications with Attorney General
                        Gonzales.....................................................................175
               15.      Iglesias’s Meeting with Rogers .....................................176
               16.      Representative Wilson’s Telephone Call to Iglesias.......177
               17.      Senator Domenici’s Telephone Call to Iglesias .............179


                                                    vi
               18.      Allegation Concerning Representative Wilson’s
                        Telephone Call to Harriet Miers ...................................181

III.   Iglesias’s Removal ......................................................................... 182
       A.      Iglesias is Added to Sampson’s List.......................................182
       B.      White House Knowledge of the Decision to Remove Iglesias...185
       C.      Iglesias is Told to Resign ......................................................185

IV.    Analysis........................................................................................ 186
       A.      Iglesias was not Removed Because of Management Issues ....187
       B.      Complaints about Iglesias’s Handling of Voter Fraud
               and Public Corruption Cases ................................................190
       C.      Additional Issues..................................................................194
       D.      Unanswered Questions.........................................................197

CHAPTER SEVEN DANIEL BOGDEN ...................................................... 201

I.     Introduction ................................................................................. 201
       A.      Bogden’s Background...........................................................201
       B.      The EARS Evaluation of Bogden’s Office ...............................201
       C.      Bogden’s Status on the Removal Lists ..................................201
       D.      Reasons Proffered for Bogden’s Removal ...............................202

II.    Chronology of Events Related to Bogden’s Removal ....................... 204
       A.      Obscenity Prosecution..........................................................205
               1.       Obscenity Prosecution Task Force...............................205
               2.       Task Force Request to Bogden and Complaints
                        About His Response ....................................................206
       B.      Bogden’s Alleged Lack of Energy and Leadership ..................209
       C.      Patriot Act Criticism .............................................................211
       D.      McNulty’s Qualms About Removing Bogden..........................212
       E.      Bogden’s Removal and Gonzales’s Concerns .........................214

III.   Analysis........................................................................................ 214

CHAPTER EIGHT PAUL CHARLTON ....................................................... 219

I.     Introduction ................................................................................. 219
       A.      Charlton’s Background.........................................................219


                                                     vii
       B.      The EARS Evaluation of Charlton’s Office .............................219
       C.      Charlton’s Status on the Removal Lists ................................219

II.    Chronology of Events Related to Charlton’s Removal ..................... 220
       A.      Charlton’s Discussions With Senator Kyl ..............................221
       B.      Tape Recording Interrogations ..............................................223
               1.       Department Considers Tape Recording Policy..............223
               2.       Charlton Implements a Taping Policy in His District....224
               3.       Pilot Project for Charlton’s District ..............................225
       C.      The Death Penalty Case........................................................227
               1.       The Department’s Procedure for Death Penalty Cases..227
               2.       The Death Penalty Decision.........................................227
               3.       Charlton Seeks Reconsideration of the Decision ..........229
               4.       Charlton Asks to Speak to Attorney General Gonzales
                        About the Decision......................................................231
               5.       Attorney General Gonzales Denies Charlton’s Request
                        to Reconsider ..............................................................233
               6.       Sampson Places Charlton’s Name on the
                        September 2006 Removal List .....................................234
       D.      Obscenity Prosecutions ........................................................234
               1.       The Obscenity Prosecution Task Force Requests
                        Charlton’s Assistance..................................................235
               2.       Task Force Complaints About Charlton .......................235
       E.      Investigation of Congressman Renzi .....................................238
       F.      Charlton’s Resignation .........................................................240

III.   Analysis........................................................................................ 240
       A.      Renzi Prosecution.................................................................240
       B.      Obscenity Prosecution..........................................................241
       C.      Discussion with Senator Kyl About Resources ......................241
       D.      Tape Recording Policy...........................................................242
       E.      The Death Penalty Case........................................................244

CHAPTER NINE JOHN MCKAY............................................................... 247

I.     Introduction ................................................................................. 247
       A.      McKay’s Background ............................................................247
               1.       The EARS Evaluations of McKay’s Office .....................247
               2.       McKay’s Status on the Removal Lists ..........................247


                                                    viii
       B.      Reasons Proffered for McKay’s Removal ................................248

II.    Chronology of Events Related to McKay’s Removal ........................ 248
       A.      The Wales Murder Investigation............................................248
       B.      The Northwest LInX Project ..................................................251
       C.      The Washington State Gubernatorial Election.......................252
               1.       McKay’s Office Initiates a Preliminary Inquiry .............252
               2.       Telephone Call to McKay from Congressman
                        Hastings’s Chief of Staff ..............................................253
               3.       Complaints About McKay’s Handling of Voter Fraud
                        Allegations ..................................................................255
               4.       Statements of Department Officials .............................257
       D.      2006 LInX Issues .................................................................258
               1.       Contentious Meeting with McNulty and Mercer ...........259
               2.       McKay’s Bid for a Judicial Nomination ........................260
               3.       McKay’s August 30 Letter to McNulty..........................261
               4.       McNulty’s Response to McKay’s letter..........................262
       E.      McKay Appears on the September 2006 Removal List ...........263
       F.      McKay is Told to Resign........................................................264
       G.      Allegation that McKay was Removed Because His District’s
               Sentencing Statistics Were Out of Line .................................264

III.   Analysis........................................................................................ 266
       A.      Voter Fraud Complaints .......................................................266
       B.      Wales Murder Investigation ..................................................267
       C.      Sentencing Statistics ............................................................268
       D.      LInX.....................................................................................269

CHAPTER TEN CAROL LAM ................................................................... 271

I.     Introduction ................................................................................. 271
       A.      Lam’s Background ...............................................................271
       B.      The EARS Evaluation of Lam’s Office ....................................271
       C.      Lam’s Status on the Removal Lists .......................................272
       D.      Reasons Proffered for Lam’s Removal....................................272

II.    Chronology of Events Related to Lam’s Removal............................ 273
       A.      Firearms Cases ....................................................................273



                                                     ix
       B.      Immigration Cases ...............................................................277
       C.      Lam’s Removal .....................................................................283
       D.      Public Corruption Investigations...........................................284

III.   Analysis........................................................................................ 285

CHAPTER ELEVEN MARGARET CHIARA................................................ 289

I.     Introduction ................................................................................. 289
       A.      Background .........................................................................289
       B.      The EARS Evaluation of Chiara’s Office ................................289
       C.      Chiara’s Status on the Removal Lists....................................290
       D.      Reasons Proffered for Chiara’s Removal ................................290

II.    Chronology of Events Related to Chiara’s Removal ........................ 292
       A.      Chiara’s Inclusion on the Removal Lists ...............................292
       B.      Factual Chronology Relating to Conflict in Western District
               of Michigan U.S. Attorney’s Office.........................................293
               1.       U.S. Attorney’s Office ..................................................293
               2.       Senior Management Conflicts in Chiara’s Office ..........293
                        a.       Rumors and Allegations Regarding
                                 Relationship with AUSA and Favoritism.............293
                        (1)      Chiara’s friend is hired ......................................293
                        (2)      Rumors about their relationship ........................295
                        b.       Meyer Confronts Chiara About her
                                 Relationship with the AUSA ...............................299
               3.       Chiara Requests Assistance from EOUSA....................301
               4.       Additional Incidents ....................................................302
               5.       The Relationship Rumors Spread ................................303
               6.       Chiara’s Request for an OPR Investigation...................306
               7.       Chiara is Given Advance Notice of Her Removal...........308
               8.       Chiara’s Removal ........................................................309

III.   Analysis........................................................................................ 309

CHAPTER TWELVE KEVIN RYAN ........................................................... 313

I.     Introduction ................................................................................. 313
       A.      Background .........................................................................313
       B.      The EARS Evaluations of Ryan’s Office .................................313


                                                      x
       C.      Status on the Removal Lists .................................................314
       D.      Reasons Proffered for Ryan’s Removal ..................................315

II.    Chronology of Events Related to Ryan’s Removal........................... 315
       A.      Concerns About Ryan’s Management....................................315
       B.      Sampson’s Discussions About Ryan in Early 2005 ...............316
       C.      Fall 2005 EARS Evaluation is Postponed ..............................317
       D.      Events in 2006 .....................................................................317
               1.       Ryan is on Sampson’s January 9, 2006, List of U.S.
                        Attorneys Recommended for Removal..........................317
               2.       Controversy Concerning the Methodology of the
                        EARS Evaluation ........................................................318
               3.       The March 2006 EARS Evaluation ..............................318
               4.       The Special EARS Evaluation ......................................319
       E.      The Removal Lists ................................................................321

III.   Analysis........................................................................................ 323

CHAPTER THIRTEEN CONCLUSIONS .................................................... 325

I.     Removal Process ........................................................................... 326
       A.      Oversight of the Process .......................................................326
       B.      Implementation of the Removal Plan.....................................328
       C.      Reasons for the Removals of Individual U.S. Attorneys .........331
       D.      Notification to the U.S. Attorneys..........................................336

II.    White House Involvement in the Removal Process ......................... 337

III.   The Attorney General’s Interim Appointment Authority ................. 338

IV.    The Conduct of Senior Department Officials.................................. 339
       A.      Alberto Gonzales ..................................................................339
               1.       Gonzales’s Statements at the March 13 Press
                        Conference..................................................................341
               2.       Gonzales’s Conversation with Goodling .......................342
       B.      Paul McNulty .......................................................................344
       C.      Kyle Sampson ......................................................................346
               1.       Misleading Statements to the White House..................347
               2.       Misleading Statements to Congress .............................348
               3.       Misleading Department Officials..................................349


                                                     xi
     D.      Monica Goodling ..................................................................351
     E.      David Margolis .....................................................................352
     F.      Michael Elston .....................................................................354
     G.      William Moschella ................................................................356

V.   Conclusion ................................................................................... 356




                                                  xii
                                     CHAPTER ONE
                                    INTRODUCTION
       On December 7, 2006, at the direction of senior Department of Justice
(Department) officials, seven U.S. Attorneys were told to resign from their
positions. 1 Two other U.S. Attorneys had been told to resign earlier in 2006. 2
When these removals became public in late 2006 and early 2007, members of
Congress began to raise questions and concerns about the reasons for the
removals, including whether they were intended to influence certain
prosecutions.

       Beginning in March 2007, the Office of the Inspector General (OIG) and
the Office of Professional Responsibility (OPR) conducted this joint investigation
into the removals of these U.S. Attorneys. 3 Our investigation focused on the
reasons for the removals of the U.S. Attorneys and whether they were removed
for partisan political purposes, or to influence an investigation or prosecution,
or to retaliate for their actions in any specific investigation or prosecution. We
also examined the process by which the U.S. Attorneys were selected for
removal, and we sought to identify the persons involved in those decisions,
whether in the Department, the White House, Congress, or elsewhere. In
addition, we investigated whether the Attorney General or other Department
officials made any false or misleading statements to Congress or the public
concerning the removals, and whether they attempted to influence the
testimony of other witnesses. Finally, we examined whether the Attorney
General or others intended to bypass the Senate confirmation process in the
replacement of any removed U.S. Attorney through the use of the Attorney
General’s appointment power for Interim U.S. Attorneys.

       1   The U.S. Attorneys were Daniel Bogden, Paul Charlton, Margaret Chiara, David
Iglesias, Carol Lam, John McKay, and Kevin Ryan.
       On January 24, 2006, Todd Graves was told to resign; on June 14, 2006, H.E. “Bud”
       2

Cummins was told to resign.
        3 In addition, we also conducted joint investigations of three other matters related to

the subject matter of this investigation. We investigated allegations that the Department’s
former White House Liaison, Monica Goodling, and others in the Office of the Attorney General
used political considerations to assess candidates for career positions in the Department, and
on July 28, 2008, we issued a report describing our findings. We also investigated allegations
that officials overseeing the Department’s Honors Program and Summer Law Intern Program
used political considerations in assessing candidates for those programs, and on June 24,
2008, we issued a report describing our findings in that investigation. In addition, we
investigated allegations that former Civil Rights Division Assistant Attorney General (AAG)
Bradley Schlozman and others used political considerations in hiring and personnel decisions
in the Civil Rights Division. We will issue a separate report describing the results of that
investigation.




                                               1
I.     Methodology of the Investigation

       During the course of our investigation, we conducted approximately 90
interviews. 4 Among the witnesses we interviewed were former Attorney General
Alberto Gonzales; former Deputy Attorneys General Paul McNulty, James
Comey, and Larry Thompson; and numerous current and former employees of
the Office of the Attorney General (OAG), the Office of the Deputy Attorney
General (ODAG), and the Executive Office for United States Attorneys (EOUSA).
We interviewed eight of the nine U.S. Attorneys who were removed – Daniel
Bogden, Paul Charlton, Margaret Chiara, Bud Cummins, Todd Graves, David
Iglesias, John McKay, and Carol Lam. The ninth U.S. Attorney, Kevin Ryan,
declined our request for an interview.

      We also attempted to interview Monica Goodling, a former counsel to
Attorney General Gonzales and the Department’s White House Liaison. She
declined to cooperate with our investigation. However, on May 23, 2007,
Goodling testified before the United States House of Representatives Committee
on the Judiciary pursuant to a grant of immunity issued by the United States
District Court for the District of Columbia, and we reviewed the transcript of
that hearing.

       We also attempted to interview White House staff who may have played a
role in the removals of the U.S. Attorneys. We discussed our request with the
Office of Counsel to the President (White House Counsel’s Office), and that
office encouraged current and former White House employees to agree to be
interviewed by us. Several former White House staff members agreed to be
interviewed, including Deputy White House Counsel David Leitch; Director of
Political Affairs Sara Taylor; Deputy Director of Political Affairs Scott Jennings;
Associate White House Counsel Dabney Friedrich, Christopher Oprison, and
Grant Dixton; and Paralegal Colin Newman. However, other former White
House staff, including White House Counsel Harriet Miers, Assistant to the
President and Deputy Chief of Staff and Senior Advisor Karl Rove, Deputy
White House Counsel William Kelley, and Associate White House Counsel
Richard Klingler, declined our request to interview them.

      Miers’s attorney told us that although he understood that considerations
of executive privilege were not an issue between the Department of Justice and
the White House since both are part of the Executive Branch, an interview with
us might undermine Miers’s ability to rely on the instructions she received
from the White House directing her to refuse to appear for Congressional
testimony. Rove’s attorney advised us after consultation with Rove that he


        4 Some of the people we interviewed were also interviewed in connection with our other

joint investigations described in footnote 3.




                                              2
declined our request for an interview. We were informed by the White House
Counsel’s Office that both Kelley and Klingler also declined our request.

       We also interviewed several members of Congress and congressional staff
regarding the removals. We interviewed Congresswoman Heather Wilson in
relation to Iglesias’s removal. We interviewed Congressman “Doc” Hastings and
his former Chief of Staff, Ed Cassidy, in relation to the removal of McKay. We
requested an interview with Senator Christopher S. “Kit” Bond in relation to
Graves’s removal, and he provided us with a written statement.

       We also attempted to interview Senator Pete V. Domenici and his Chief of
Staff, Steven Bell, about the removal of Iglesias and any conversations they had
with the White House or the Department related to the removal. However,
Senator Domenici and Bell declined our requests for an interview. 5

      In our investigation, we also reviewed several thousand electronic and
hard copy documents, including documents the Department produced in
response to Congressional investigations of the U.S. Attorney removals. 6 We
obtained and searched the e-mail accounts of numerous current and former
Department employees in, among other Department components, the Attorney
General’s Office, the Deputy Attorney General’s Office, and EOUSA.

       We also requested and received documents from the White House
showing communications between the White House and outside persons and
entities, including the Department of Justice, related to the removal of the U.S.
Attorneys. However, the White House Counsel’s Office declined to provide
internal e-mails or internal documents related to the U.S. Attorney removals,
stating that these documents were protected from disclosure because,
according to the White House Counsel’s Office, such material “implicate[s]
White House confidentiality interests of a very high order. . . .” The White
House did not formally assert executive privilege as grounds for withholding
the material from us, but asserted that its “internal communications . . . are, in
our judgment, covered by the deliberative process and/or presidential
communications components of executive privilege in the event of a demand for
them by Congress.”

      As we discuss in more detail in Chapter Three, in the course of our
investigation we also learned that in early March 2007 Associate White House
Counsel Michael Scudder had interviewed Department and White House


        5 Domenici declined to be interviewed, but said he would provide written answers to

questions through his attorney. We declined this offer because we did not believe it would be a
reliable or appropriate investigative method under the circumstances.
       6 Some of these documents were produced to Congress in redacted form. However, we

had access to and reviewed these documents in unredacted form.




                                              3
personnel at the request of White House Counsel Fred Fielding in an effort to
understand the circumstances surrounding the U.S. Attorney removals and be
in a position to respond to this issue. 7 Based on his interviews, Scudder
created a memorandum for Fielding containing a timeline of events, which was
provided to the Department of Justice’s Office of Legal Counsel (OLC) and to
the Attorney General. Because the Scudder chronology appeared to contain
information we had not obtained elsewhere in our investigation, we requested
that OLC produce a complete copy of the final Scudder memorandum and all
drafts of the memorandum. OLC declined to produce the document, stating
that the White House Counsel’s Office directed it not to do so. The White
House Counsel’s Office agreed to provide us with one paragraph in the
memorandum related to information about Iglesias’s removal, and two
paragraphs containing information Rove provided to Scudder. White House
Counsel notified us that these paragraphs contained information similar to
previous public statements the White House made in the press. The White
House Counsel’s Office declined to provide to us a full copy of the
memorandum, stating that it has a “very strong confidentiality interest” in not
providing documents that were prepared to advise and assist the President and
his advisors “in response to a public, ongoing, and significant controversy.” 8

      The White House Counsel’s Office eventually provided to us a heavily
redacted version of the document, but the redactions made the document
virtually worthless as an investigative tool. We disagree with the White House’s
rationale for withholding this document, particularly since the document was
shared with OLC and e-mail records also show that drafts had been provided to
former Attorney General Gonzales. We also disagree with the White House
Counsel’s Office decision not to provide us White House internal documents
related to the U.S. Attorney removals and, as we discuss below, believe it
hindered our investigation.


II.    Organization of this Report

      In Chapter Two of this report, we provide background information about
the jurisdiction and duties of U.S. Attorneys, how they are selected and
evaluated, and their position in the Department’s organizational structure.


       7 We learned about this document from the Department’s Office of Legal Counsel. In

response to our document request, OLC had provided to us its final chronology, deleting all
references to the Scudder chronology and all information derived from that document. When
we obtained earlier drafts of the OLC chronology, we saw references to the Scudder
memorandum as support for certain propositions in the chronology, including alleged
communications between a member of Congress and the White House regarding Iglesias.
       8 A copy of a letter from Emmet Flood, Special Counsel to the President, describing the

reasons for the White House’s decision is included in Appendix A.




                                              4
      In Chapter Three, we describe in detail the background leading to the
removal of the U.S. Attorneys in 2006, including the genesis of the plan to
replace them, the various modifications of the plan in 2005 through 2006, and
the involvement of the White House and Department officials in the
development of the plan. We then discuss the removals and events following
the removals, including the initial Congressional and public focus on the
removals, the Department’s efforts to explain the removals, the public
statements and testimony of senior Department officials about the reasons for
the removals, and the Congressional hearings regarding the removals.

      In Chapters Four through Twelve, we discuss in detail the circumstances
surrounding the removal of each of the nine U.S. Attorneys. We examine the
reasons the Department offered for each removal, the process by which the
U.S. Attorneys were selected for removal, the process by which they were
removed, and our conclusions regarding their removal.

       In Chapter Thirteen, we provide our conclusions about the process by
which the U.S. Attorneys were selected for removal and removed, the reasons
proffered for removal, the actions of senior Department leaders in the removal
process, and whether any Department employee made false or misleading
statements to Congress or the public related to the removals. 9




       9  With the exception of the nine U.S. Attorneys who were removed in 2006, we do not
discuss in detail all of the U.S. Attorneys Kyle Sampson or others at the Department may have
considered for removal between 2005 and 2006. However, in describing the removal selection
process, we identify those U.S. Attorneys Sampson specifically mentioned to the White House
in removal lists and e-mail correspondence concerning the removals. We also note what
Department officials told us about why these U.S. Attorneys ultimately were not removed.




                                              5
[PAGE INTENTIONALLY LEFT BLANK]




              6
                                     CHAPTER TWO
                                     BACKGROUND
      In this chapter, we briefly discuss the duties of U.S. Attorneys, how they
are selected and evaluated, and their position in the Department’s
organizational hierarchy.


I.     U.S. Attorneys

       There are 93 U.S. Attorneys throughout the United States, Puerto Rico,
the Virgin Islands, Guam, and the Commonwealth of the Northern Mariana
Islands. Under the supervision of the Attorney General, who has statutory
authority over all litigation in which the United States or any of its agencies is a
party, U.S. Attorneys serve as the federal government’s chief law enforcement
officers in their districts. 10 See U.S. Attorney’s Manual (USAM) § 3-2.100. U.S.
Attorneys must interpret and implement the policies of the Department in the
exercise of their prosecutorial discretion. As stated in the Department’s USAM,
a U.S. Attorney’s “professional abilities and the need for their impartiality in
administering justice directly affect the public’s perception of federal law
enforcement.” USAM § 3-2.140.

      U.S. Attorneys are appointed by the President with the advice and
consent of the Senate. See 28 U.S.C. § 541. Because they are Presidential
appointees and not covered by standard civil service protections, U.S.
Attorneys are subject to removal at the will of the President. 11 U.S. Attorneys
are appointed for 4-year terms, although upon expiration of their 4-year term
they typically remain in office until they choose to leave or there is a change in
Administration. USAM § 3-2.120.

       Prior to March 2006, in the event of a vacancy in a U.S. Attorney’s
position, the First Assistant U.S. Attorney became the Acting U.S. Attorney,
pending confirmation of a Presidential appointee, for a maximum 210-day
period pursuant to 5 U.S.C. § 3345(a)(1). Alternatively, the Attorney General
could appoint an Interim U.S. Attorney for that district to serve for a maximum
of 120 days. 28 U.S.C. § 546(a) and (c). After 120 days, the federal district
court could either reappoint the Interim U.S. Attorney or make its own

       10 One U.S. Attorney is assigned to each of the judicial districts, with the exception of

Guam and the Commonwealth of the Northern Mariana Islands where a single U.S. Attorney
serves both districts.
       11 Presidential discretion under the statute is broad but not unlimited. The President
has the discretion to remove a U.S. Attorney when “he regards it for the public good.” See, e.g.,
Parsons v. United States,167 U.S. 324, 343 (1897). Since a removal for an illegal or improper
purpose would be contrary to the “public good,” it would be impermissible.




                                                7
appointment to serve until the vacancy is filled through Senate confirmation of
a Presidential appointment. See 28 U.S.C. § 546 (c) and (d).

      At the request of the Department, Congress enacted amendments to the
USA Patriot Act in March 2006 which eliminated the district court from the
process, removed the 120-day time limit, and permitted the Interim U.S.
Attorney appointed by the Attorney General to serve until a Presidentially
appointed U.S. Attorney was confirmed. See 28 U.S.C. § 546; Pub.L. 109-177,
§ 502.

       As discussed in Chapter Three, in response to the events described in
this report, in June 2007 Congress repealed this amendment. Therefore,
according to 28 U.S.C. § 546, an Interim U.S. Attorney appointed by the
Attorney General may serve up to 120 days or until the confirmation of a
Presidentially appointed U.S. Attorney. If an Interim U.S. Attorney
appointment expires before a Presidentially appointed U.S. Attorney is
confirmed, the federal district court for that district appoints an Interim U.S.
Attorney to serve until the vacancy is filled. See 28 U.S.C. § 546; see also
USAM at § 3-2.160.


II.   Selection of U.S. Attorneys

       To identify candidates for U.S. Attorney positions, the White House
typically seeks recommendations from political leaders in the various districts
across the country. During the time period under review in this report,
Senators from the President’s party normally submitted recommendations for
U.S. Attorney candidates to the White House Presidential Personnel Office
(PPO) or to staff in the White House Office of Political Affairs (OPA). If no
Republican Senator represented a particular district, White House staff
contacted OPA’s designated “political lead” for that district. After panel
interviews with Department and White House officials, and Deputy Attorney
General and Attorney General concurrence, a candidate’s name was
recommended to the President.

      If the President approved the recommendation, the Federal Bureau of
Investigation (FBI) began a background investigation of the candidate. The
results of the background investigation were forwarded by EOUSA to the
Department’s White House Liaison. After review of the background
investigation, the White House Counsel’s Office would state whether the
candidate was “cleared.” If the candidate was cleared, the White House
informed EOUSA, which sent the nomination paperwork to the White House.
The White House would then publicly announce the President’s “intent to
nominate” the candidate, and the White House would forward the nomination
paperwork to the Senate.




                                        8
      While their nominations were before the Senate, U.S. Attorney
candidates were subject to a “blue slip” process by which their home state
Senators approved or disapproved of the nomination. The blue slip is a form
printed on blue paper that the Senate Judiciary Committee uses to allow the
home state Senators to express their views concerning a presidential nominee.
According to the Congressional Research Service (CRS), by Senate tradition if a
home state Senator indicates disapproval or otherwise fails to note approval on
the blue slip, the chair of the Senate Judiciary Committee normally declines to
take action on the nomination out of deference to the home state Senator. See
CRS Report for Congress, “U.S. Attorneys Who Have Served Less Than Full
Four-Year Terms, 1981-2006,” February 22, 2007, p. 1.


III.   Department Evaluation and Interaction with U.S. Attorneys

      Appendix B contains a chart of the Department’s organizational
structure.

      According to federal regulation, the Attorney General supervises and
directs the administration and operation of the Department of Justice,
including the U.S. Attorneys’ Offices. See 28 C.F.R. § 0.5. The Deputy
Attorney General assists the Attorney General in providing overall supervision
and direction to all organizational units of the Department, including the U.S.
Attorneys’ Offices. See 28 C.F.R. § 0.15. The Deputy Attorney General is
authorized to exercise all the power and authority of the Attorney General,
except where such power or authority is prohibited by law from delegation or
has been delegated to another official. In the absence of the Attorney General,
the Deputy Attorney General acts as the Attorney General. See 28 C.F.R. §
0.15. The Deputy Attorney General oversees the day-to-day operations of the
Department of Justice and is the direct supervisor of U.S. Attorneys.

        The Executive Office for United States Attorneys performs two primary
functions with respect to the U.S. Attorneys’ Offices: (1) evaluating the
performance of the U.S. Attorneys’ Offices, making appropriate reports and
taking corrective action where necessary; and (2) facilitating coordination
between the U.S. Attorneys’ Offices and other organizational units of the
Department of Justice. See 28 C.F.R. § 0.22 (a)(1) and (2). With respect to the
first function, periodic performance evaluations of U.S. Attorneys’ Offices are
conducted by EOUSA’s Evaluation and Review Staff (EARS).

      During EARS reviews, a U.S. Attorney’s Office performance evaluation is
conducted over a period of 1 week by a team of experienced Assistant U.S.
Attorneys (AUSAs) and administrative and financial litigation personnel from
other U.S. Attorneys’ Offices. Each fiscal year, EARS conducts evaluations in
approximately one fourth of the U.S. Attorneys’ Offices. Thus, any given U.S.
Attorney’s Office should be evaluated every 3 to 4 years.



                                       9
      EOUSA’s evaluation program serves various purposes, including
providing on-site management assistance to U.S. Attorneys and assuring
compliance with Department policies and programs. The program also serves
as a mechanism by which evaluators can share ideas and best practices with
the U.S. Attorneys’ Offices.

       According to the Chief of Staff and Deputy Director of EOUSA, the
evaluation program also provides an opportunity for peers to evaluate peers in
an objective manner. The evaluators, who are neither auditors nor inspectors,
also make recommendations for improving the operation of the U.S. Attorney’s
Office.

      Following the on-site EARS evaluation of a U.S. Attorney’s Office, the
EARS team leader prepares a document entitled “Draft Significant
Observations” for the Director of EOUSA, who in turn provides the draft to the
Deputy Attorney General but not to the U.S. Attorney. A “Follow-up Program”
includes follow-up visits to the U.S. Attorney’s Office by evaluators other than
those who participated in the initial evaluation and EOUSA personnel. Follow-
up teams verify corrective actions and provide needed assistance to the offices.

      After completion of the follow-up review, the EARS staff produces a “Final
Evaluation Report,” consisting of a summary of the legal and administrative
reports and the U.S. Attorney’s response to those reports. The Director of
EOUSA provides the Final Evaluation Report to the Deputy Attorney General
and the U.S. Attorney.

       Allegations of misconduct by U.S. Attorneys are generally investigated by
either the OIG or OPR, depending on the nature of the alleged misconduct. 12
As presidential appointees, U.S. Attorneys are not subject to discipline or
removal by the Department without the President’s approval. In cases in which
the Deputy Attorney General and the Attorney General conclude that removal
is warranted, they normally request approval from the White House Counsel to
ask for the U.S. Attorney’s resignation. If the U.S. Attorney refuses to submit a
resignation, the President can dismiss the U.S. Attorney.


IV.    Backgrounds of Department Officials

      In this section, we briefly summarize the backgrounds and duties of
those individuals who had a major role in the removal of the U.S. Attorneys at
issue in this review and in the Department’s response to those removals.

       12  OPR has jurisdiction to investigate allegations against U.S. Attorneys that involve the
exercise of their authority “to investigate, litigate, or provide legal advice.” The OIG has
jurisdiction to investigate all other allegations against U.S. Attorneys. See 5 U.S.C. App. 3 §
8E.




                                               10
      Appendix C identifies the Department’s senior managers at the time of
the events discussed in this report.

      A.    Alberto Gonzales

       Alberto Gonzales graduated from Rice University in 1979 and Harvard
Law School in 1982. He began his legal career in private practice in 1982 at
the law firm of Vinson and Elkins, where he became a partner. In 1994, he
was appointed General Counsel to Governor Bush. In 1997, Gonzales was
appointed Secretary of State for Texas. Gonzales also served as a Justice of the
Supreme Court of Texas from 1999 to until 2001, when he became White
House Counsel to President Bush. Gonzales served as White House Counsel
until February 2005, when he was confirmed as Attorney General of the United
States. Gonzales resigned as the Attorney General on August 27, 2007.

      B.    Kyle Sampson

       Kyle Sampson graduated from Brigham Young University in 1993 and
from the University of Chicago Law School in 1996. After law school, he served
as a federal appellate court clerk, and then worked for 2 years in a private law
firm in Salt Lake City. In 1999, he became a Majority Counsel to the U.S.
Senate Committee on the Judiciary, where, among other things, he worked on
the nominations of candidates for political positions in the Department of
Justice. In 2001, Sampson moved to the White House as Special Assistant to
the President and Associate Director for Presidential Personnel where he
handled, among other duties, presidential appointments at the Department of
Justice. Later in 2001 and continuing until 2003, Sampson served as
Associate Counsel to the President. During that time, Sampson worked on
legislative, policy, and environmental matters.

       In August 2003, Sampson moved to the Department of Justice, where he
first served as Counselor to Attorney General John Ashcroft. In February
2005, Sampson became Deputy Chief of Staff to Attorney General Gonzales,
and in September 2005 he became Chief of Staff to the Attorney General. He
remained in that position until his resignation from the Department in March
2007.

      C.    Monica Goodling

      Monica Goodling graduated from Messiah College in 1995 and from
Regent University School of Law in 1999. From 1999 to February 2002,
Goodling worked at the Republican National Committee as a research analyst,
senior analyst, and deputy director for research and strategic planning.

       In February 2002, Goodling began work in a political position in the
Department’s Office of Public Affairs. In September 2004, Goodling was
detailed for 6 months as a Special Assistant U.S. Attorney in the U.S.


                                       11
Attorney’s Office in the Eastern District of Virginia. In March 2005, Goodling
was appointed as the political Deputy Director in EOUSA. According to her
résumé, her responsibilities at EOUSA included oversight of and coordination
between EOUSA and U.S. Attorneys’ Offices across the country.

       In October 2005, Goodling was appointed as Counselor to Attorney
General Gonzales. In April 2006 she became the Department’s White House
Liaison and Senior Counsel to the Attorney General. Goodling’s major
responsibility as White House Liaison was to interview and process applicants
for political positions in the Department, including U.S. Attorneys. Goodling
remained in that position until she resigned in April 2007.

      D.    Paul McNulty

       Paul McNulty graduated from Grove City College in 1980 and from
Capital University School of Law in 1983. He began his legal career as Counsel
for the House of Representatives’ Committee on Standards of Official Conduct,
where he served from 1983 to 1985. From 1985 to 1987, McNulty was Director
of Government Affairs at the Legal Services Corporation. In 1987, he became
Minority Counsel to the House Subcommittee on Crime.

      McNulty joined the Department of Justice in 1990 as Deputy Director of
the Office of Policy Development, and in 1991 he became the Director of the
Department’s Office of Policy and Communications.

      McNulty worked for a private law firm in Washington from 1993 to 1995.
He returned to work for Congress in 1995 as Chief Counsel to the House
Subcommittee on Crime. He remained in that position until 1999 when he
became Chief Counsel and Director of Legislative Operations for the House
Majority Leader.

       After serving on President Bush’s transition team for the Department of
Justice, McNulty was appointed Principal Associate Deputy Attorney General in
January 2001. In September 2001, he was confirmed to be the U.S. Attorney
for the Eastern District of Virginia. He served as U.S. Attorney until November
2005, when he became the Acting Deputy Attorney General. McNulty was
confirmed as the Deputy Attorney General on March 17, 2006.

      As Deputy Attorney General, McNulty was the U.S. Attorneys’ immediate
supervisor. He served as the Deputy Attorney General until his resignation in
July 2007.

      E.    Michael Elston

      Michael Elston graduated from Drake University in 1991 and Duke
University School of Law in 1994. Following a 2-year federal appellate court
clerkship, Elston went into private practice until 1999, when he became an


                                      12
AUSA in the Northern District of Illinois. Elston subsequently served as an
AUSA in the Eastern District of Virginia from April 2002 until December 2005,
when he became Chief of Staff and Counselor to McNulty. Elston remained
McNulty’s Chief of Staff until his resignation in June 2007.

      F.    David Margolis

       David Margolis is a career Associate Deputy Attorney General and the
highest-ranking career attorney in the Department. Margolis graduated from
Brown University in 1961 and Harvard Law School in 1964. He began his
career with the Department in 1965 as an AUSA in the District of Connecticut.
Beginning in 1969, he held a series of supervisory positions with the Organized
Crime Section of the Criminal Division. In 1990, he became Acting Deputy
Assistant Attorney General in the Criminal Division. In 1993, he was
appointed as an Associate Deputy Attorney General and has remained in that
position since that time.

      Margolis’s informal biography describes his duties as an Associate
Deputy Attorney General to include acting as the liaison for the Deputy
Attorney General with the FBI, the Criminal Division, and the U.S. Attorneys.
Margolis is also normally responsible for recommending the Department’s
response in cases where the OIG or OPR make misconduct findings against
high-level Department officials.

      G.    William Mercer

      William Mercer graduated from the University of Montana in 1984 and
received a master’s degree in Public Administration from the Kennedy School of
Government at Harvard University in 1988. Mercer then was a Presidential
Management Intern in the Treasury Department’s Office of Tax Policy from
1988 to 1989. Between 1989 and 1995, Mercer served in the Department of
Justice as Counselor to the Assistant Attorney General and Senior Policy
Analyst in the Office of Policy Development.

      Mercer received a law degree from George Mason University School of
Law in 1993. From 1994 to 2001, he worked as an AUSA in the District of
Montana. He was confirmed as the U.S. Attorney in Montana in 2001.

      Between June 2005 and July 2006, Mercer was the Principal Associate
Deputy Attorney General while also serving as U.S. Attorney for Montana. In
September 2006, Mercer was nominated to be Associate Attorney General. He
served as Acting Associate Attorney General until June 2007, when he
withdrew from consideration for the nomination. Mercer currently serves as
the U.S. Attorney in Montana.




                                      13
      H. William Moschella

       William Moschella received an undergraduate degree from the University
of Virginia in 1990 and a law degree from George Mason University School of
Law in 1995. During and after law school, Moschella served in a variety of
congressional staff positions, including Counsel to the House Committee on
Government Reform, General Counsel to the House Committee on Rules, Chief
Investigative Counsel to the House Committee on the Judiciary, and Chief
Legislative Counsel and Parliamentarian to the House Committee on the
Judiciary.

      In May 2003, Moschella was confirmed as the Department of Justice’s
Assistant Attorney General for the Office of Legislative Affairs. In October
2006, Moschella was appointed Principal Associate Deputy Attorney General.
He resigned from the Department in January 2008.




                                      14
                                 CHAPTER THREE
                                FACTUAL OVERVIEW
       In this chapter, we provide a detailed chronology leading to the removals
of the U.S. Attorneys, including the genesis of the plan and what we were able
to discover about the White House’s involvement in the plan. We discuss the
selection process, the removal process, the reaction to the removals, and the
Department’s responses.


I.     Development of U.S. Attorney Removal Lists

       As noted in Chapter Two, from January 2001 until October 2003 Kyle
Sampson worked at the White House, first as a Special Assistant to the
President in the Presidential Personnel Office and later as an Associate Counsel
in the White House Counsel’s Office. In his position in the Presidential
Personnel Office, Sampson was responsible for, among other things,
interviewing and recommending candidates for political appointments to
positions in the Department of Justice. Sampson told us that, in that capacity,
he participated in interviewing candidates for virtually all the U.S. Attorney
positions filled during the first 9 months of the Bush Administration.

      After moving to the White House Counsel’s Office in September 2001,
Sampson continued to be directly involved in the selection of U.S. Attorneys.
He served on the interviewing panel for U.S. Attorneys and became the White
House representative for U.S. Attorney appointments. 13 As part of his
responsibilities, Sampson reviewed the résumés and questionnaires of all U.S.
Attorney applicants and the background investigation files for these nominees.

      In October 2003, Sampson joined the Department as Counselor to
Attorney General John Ashcroft. In February 2005, when Attorney General
Gonzales took office, Sampson became his Deputy Chief of Staff and later his
Chief of Staff. Throughout his tenure in the Department, Sampson remained
involved in the selection and appointment of U.S. Attorneys through his
attendance at weekly judicial selection meetings at the White House during
which U.S. Attorney appointments were decided.




       13  Sampson said the interviewing panel for U.S. Attorneys generally included himself,
an Associate White House Counsel with responsibility for the particular geographic area the
potential candidate was being considered for, a person from the Presidential Personnel Office,
David Margolis, the Director of EOUSA, and the Department’s White House Liaison.




                                              15
                                                                                                                                                                                                                                  Nov 27, 2006                                  Dec 4, 2006
                                                                                                                                                                                                                                  Meeting in Gonzales’s conference              White House approves plan. Sampson
                                                                                                                                                                                                                                  room at which the AG approves the             sends seventh and final list to the White
                    U.S. Attorney Removal Overview                                                                                                                                                                                removal list and implementation plan          House with Ryan’s name added



                                                                                                                                                                                                                                                                                                                                 Mar 8, 2007
                                                                                                                                                                                                                             Nov 15, 2006                                          Jan 12, 2007
                                                                                                                                                                                                                                                                                                                                 Sampson retrieves e-mails
                                                                                                                                                                                                                             Sampson sends White House                             Sampson briefs Senate Judiciary               which show that White House
                                                                                                                                                                                                                             his sixth removal list                                counsel about removals and                    was involved in U.S. Attorney
                                                                                                                                                                                                                                                                                   leaves impression that removals               removals more extensively and
                                                                                                                                                                                                                                                                                   were based on EARS evaluations                earlier than McNulty and
                                                                                                                                                                                                                                                                                                                                 Moschella told Congress
                                                                                                                                                                                                                                      Nov 7, 2006
Nov 2004
                                                                                                                                                                                                                                      Sampson creates
                                             Feb 2005
After the Presidential election,                                                                                                                                                                                                      his fifth removal list                                             Jan 18, 2007
Harriet Miers asks Kyle Sampson              Gonzales becomes Attorney    Mar 2, 2005
                                                                                  Jan 9, 2006                                            Apr 14, 2006                                                                                                                                                                                                                  May 14, 2007
                                                                                                                                                                                                                                                                                                         Gonzales testifies               Mar 14, 2007
whether the President should seek            General and endorses
                                                                                                                                                                                                                                                                                                                                                                       McNulty announces his
                                                                                                                                                                                                                                                                                                                                                                                                                   Aug 27, 2007
                                                                          SampsonSampson
                                                                                       sends White
                                                                                                 sends
                                                                                                    House
                                                                                                       White House                       Sampson sends White House                                                Sep 13, 2006                                                                           before Senate
resignations of all U.S. Attorneys.          Sampson’s plan regarding
                                                                                                                                         his third removal list                                                                                                                                          Judiciary about U.S.             Sampson leaves               resignation effective the                   Gonzales announces his
Sampson opposes the idea                     removal of U.S. Attorneys    his first removal
                                                                                      his second
                                                                                             list removal list
                                                                                                                                                                                                                  Sampson sends White House his                                                          Attorney removals                the Department               end of July                                 resignation effective September 17
                                                                                                                                                                                                                  fourth removal list



              Nov 2004         Dec 2004      Jan 2005        Feb 2005    Mar 2005            Jan 2006         Feb 2006        Mar 2006         Apr 2006        May 2006         Jun 2006    Jul 2006   Aug 2006        Sep 2006         Oct 2006               Nov 2006       Dec 2006        Jan 2007          Feb 2007          Mar 2007         Apr 2007         May 2007         Jun 2007           Jul 2007      Aug 2007



                                                                                                                                                                                                                              Dec 2006                                                   Feb 6, 2007                                      Mar 14, 2007                         May 23, 2007
                                                                                    Jan 24, 2006                                                Jun 2006
                           Jan 2005                                                                                                                                                                                                                                                      McNulty testifies before                         Gonzales holds press                 Goodling testifies
                                                                                                                                                                                                                              Cummins leaves office Dec 20 and Griffin
                                                                                    U.S. Attorney Graves, W.D. Mo., is told                     White House approves Griffin’s selection                                                                                                 Senate Judiciary that                            conference and makes                 before House Judiciary
                           Sampson sends e-mail to White House                                                                                                                                                                is appointed Interim U.S. Attorney
                                                                                    to resign, announces resignation on                         to replace Cummins as U.S. Attorney for                                                                                                  U.S. Attorneys were                              statements about his role
                           with proposal to replace a subset of                                                                                 the E. D. Ark.; Cummins is told to resign
                                                                                    March 10, leaves office March 24                                                                                                                                                                     removed for                                      in removals
                           “underperforming” U.S. Attorneys                                                                                     on June 14                                                                                                                               “performance-related”
                                                                                                                                                                                                                                                                                         reasons, with the
                                                                                                                                                                                                                                               Dec 7, 2006                               exception of Cummins
                                                                                                                                                                                                                                                                                                                                Mar 6, 2007
                                                                                                                                                                                                                                               Seven U.S. Attorneys
                                                                                                                                                                                                                                               (Iglesias, Bogden, Charlton,                                                     Moschella testifies before House Judiciary
                                                                                                                                                                                                                                               McKay, Lam, Chiara, Ryan)                                                        about removal of U.S. Attorneys
                                                                                                                                                                                                                                               are instructed to resign


                                                                                                                                                                                                                                                                                                       Feb 14, 2007
                                                                                                                                                                                                                                                                                                       McNulty provides reasons for removal
                                                                                                                                                                                                                                                                                                       of each U.S. Attorney in closed
                                                                                                                                                                                                                                                                                                       Senate Judicary briefing
       A.     Genesis of Plan to Remove U.S. Attorneys

      We determined that the process to remove the U.S. Attorneys originated
shortly after President Bush’s re-election in November 2004.

      In an e-mail on November 4, 2004, Susan Richmond, then the
Department of Justice’s White House Liaison, responded to requests from
various Presidentially appointed personnel in the Department about guidance
regarding the transition to the Bush Administration’s second term. In the e-
mail, which was sent to Department Presidentially appointed officials,
including U.S. Attorneys, Richmond wrote that “the President has decided that
he will not ask for letters of resignation.” (Emphasis in original.) Richmond
reminded the recipients of the e-mail, however, that “each of us serves at the
pleasure of the President.”

       Although Richmond’s November 4 e-mail notified the U.S. Attorneys that
wholesale resignations would not be required, the issue of removal of certain
U.S. Attorneys was being considered by the Administration. According to
Sampson, sometime after the 2004 election White House Counsel Harriet Miers
asked him whether the Administration should seek resignations from all 93
U.S. Attorneys as part of an idea to replace all Administration political
appointees for the President’s second term. Sampson said he told Miers that
he thought it was not a good idea and he told other Department officials he
“beat [it] back.” 14 Sampson said he also told Miers he believed that all U.S.
Attorneys had an expectation that they would at least serve their statutory 4-
year term, and the terms did not begin to expire until fall 2005.

       B.     Process to Identify U.S. Attorneys for Removal

      In an e-mail on January 6, 2005, Deputy White House Counsel David
Leitch forwarded to Sampson an e-mail from Office of White House Counsel
Paralegal Colin Newman. The e-mail from Newman stated that “Karl Rove
stopped by “to ask [Leitch] . . . ‘how we planned to proceed regarding US
Attorneys, whether we are going to allow all to stay, request resignations from
all and accept only some of them, or selectively replace them, etc.’” In his
forwarding e-mail to Sampson, Leitch proposed that they discuss the matter.

       On January 9, 2005, Sampson replied by e-mail to Leitch stating that
Sampson and the “Judge” [Gonzales] had discussed the matter a “couple of
weeks ago.” Sampson then shared with Leitch his “thoughts,” which consisted
of four points on the subject. First, Sampson pointed out that while U.S.

       14  Miers was named by President Bush in November 2004 to succeed Alberto Gonzales
as White House Counsel. Before becoming White House Counsel, Miers served in the
Administration as Assistant to the President and Staff Secretary (2001-2003) and as Deputy
Chief of Staff for Policy (2003-2004).




                                            16
Attorneys serve at the “pleasure of the President,” they are appointed to 4-year
terms. Sampson stated that none of the U.S. Attorneys had yet completed their
4-year terms, and it would be “weird” to ask them to leave before their terms
were completed. Second, Sampson noted the “historical” practice of allowing
U.S. Attorneys to complete their 4-year terms even after a party change in the
Administration, notwithstanding the fact that the first Clinton and Bush
Administrations deviated from that historical practice by removing their
predecessor’s appointees without regard to the completion of their terms.
Third, Sampson stated in the e-mail:

       as an operational matter, we would like to replace 15-20 percent of
       the current U.S. Attorneys – the underperforming ones. (This is a
       rough guess; we might want to consider doing performance
       evaluations after Judge [Gonzales] comes on board.) The vast
       majority of U.S. Attorneys, 80-85 percent, I would guess, are doing
       a great job, are loyal Bushies, etc., etc. Due to the history, it
       would certainly send ripples through the U.S. Attorney community
       if we told folks that they got one term only (as a general matter, the
       Reagan U.S. Attorneys appointed in 1981 stayed on through the
       entire Reagan Administration; Bush41 even had to establish that
       Reagan-appointed U.S. Attorneys would not be permitted to
       continue on through the Bush41 Administration – indeed, even
       performance evaluations likely would create ripples, though this
       wouldn’t necessarily be a bad thing. 15

       Fourth, Sampson predicted that “as a political matter. . . I suspect that
when push comes to shove, home-State Senators likely would resist wholesale
(or even piecemeal) replacement of U.S. Attorneys they recommended. . .if Karl
[Rove] thinks there would be political will to do it, then so do I.”

      Sampson’s initial proposal to remove a percentage of U.S. Attorneys was
not acted upon immediately, since both the White House Counsel’s Office and
the Department of Justice were in transition. We did not find any response
from Leitch to Sampson’s January 9 e-mail. Leitch told us he had no
independent recollection of discussing the matter with Sampson, Rove, or
anyone else before leaving the White House Counsel’s Office around this time.

       However, Sampson’s proposal gained support in late February and early
March 2005 after Gonzales was confirmed as Attorney General and Miers was
installed as White House Counsel. At that time Sampson was appointed to be
Gonzales’s Deputy Chief of Staff, and Gonzales authorized Sampson to proceed

       15  Sampson described to us his thinking on this subject as possibly derived from the
management philosophy of Jack Welch, former General Electric CEO, that the bottom 10
percent of any organization should be changed periodically for the good of the whole.




                                              17
with a review for the purpose of identifying U.S. Attorneys for potential
removal.

      Gonzales told us that he endorsed the concept of evaluating the
performance of U.S. Attorneys to see “where we could do better.” According to
Gonzales, he told Sampson to consult with the senior leadership of the
Department, obtain a consensus recommendation as to which U.S. Attorneys
should be removed, and coordinate with the White House on the process.
Gonzales told us that he did not discuss with Sampson how to evaluate U.S.
Attorneys or what factors to consider when discussing with Department leaders
which U.S. Attorneys should be removed.

       C.     The First List – March 2, 2005

      According to Sampson, sometime in February 2005 White House Counsel
Miers asked him to provide recommendations in the event the Administration
decided to ask for resignations from a “subset” of U.S. Attorneys.

        In response, Sampson annotated a chart that listed all Presidentially
appointed, Senate-confirmed U.S. Attorneys and the date each assumed their
office. 16 On March 2, 2005, Sampson attended a regularly scheduled meeting
of the judicial selection committee at the White House and gave Miers the 6-
page typewritten chart, entitled “United States Attorneys - Appointment
Summary (2/24/05).”

      Many of the names on the chart were either crossed-through or
highlighted in bold. In an e-mail to Miers after the March 2 meeting, Sampson
explained the meaning of the markings on the chart:

       bold = Recommend retaining; strong U.S. Attorneys who have
       produced, managed well, and exhibited loyalty to the President and
       Attorney General.
       strikeout = Recommend removing; weak U.S. Attorneys who have
       been ineffectual managers and prosecutors, chafed against
       Administration initiatives, etc.
       nothing = No recommendation; have not distinguished themselves
       either positively or negatively.




       16 The chart also listed several other districts in which U.S. Attorneys were going

through various stages in the nomination process.




                                               18
                   US Attorney
                Removal List Timeline
                                                                                                                                                              Nov 15, 2006

                                                                                                                                                              List #6
                                                                                                                                                              Charlton
                                                                                                                                                              Lam
                                                                                                                                                              Chiara
                                                                                                                                                              Bogden
 Mar 2, 2005                                                                                                                                                  McKay
                                                                                                                                                              Iglesias
 List #1
 York
 Cummins                                                                                                                    Sep 13, 2006       Nov 7, 2006
                           Jan 9, 2006
 Lam
 Miller                                                                                                                     List #4            List #5                   Dec 4, 2006
 Huber                     List #2
                           Cummins                                                                                          Cummins            Charlton
 Chiara
                           Lam
                                                                Apr 14, 2006                                                Charlton           Lam                       List #7
 Heffelfinger                                                                                                                                  Miller                    Charlton
                           Ryan                                                                                             Lam
 Greenlee                                                       List #3                                                                        Silsby                    Lam
                           Chiara                                                                                           Miller
 Lampton                                                        Chiara                                                                         Chiara                    Ryan
                           Heffelfinger                                                                                     Silsby
 Wagoner                                                        O'Meilia                                                                       Bogden                    Chiara
                           Graves                                                                                           Chiara
 McKay                                                          Cummins                                                                        Marino                    Bogden
                           O'Meilia                                                                                         Bogden
 Warner                                                         Lam                                                                            McKay                     Iglesias
                           Silsby                                                                                           Marino
 Biskupic                                                       Silsby                                                                         Iglesias                  McKay
                           Leone                                                                                            McKay
 Silsby



Mar 2005        Apr 2005      Jan 2006    Feb 2006   Mar 2006        Apr 2006   May 2006   Jun 2006   Jul 2006   Aug 2006    Sep 2006      Oct 2006          Nov 2006        Dec 2006




 Names on lists are in original order                                                                                                           Nov 1, 2006

                                                                                                                                                Elston List
                                                                                                                                                Christie
                                                                                                                                                Connelly
                                                                                                                                                Buchanan
                                                                                                                                                Brownlee
                                                                                                                                                Wood
     On the chart, as indicated by a strikeout of names, Sampson
recommended removing the following U.S. Attorneys: 17

           •   David York (S.D. Ala.);
           •   H.E. “Bud” Cummins (E.D. Ark.);
           •   Carol C. Lam (S.D. Cal.);
           •   Greg Miller (N.D. Fla.);
           •   David Huber (W.D. Ky.);
           •   Margaret M. Chiara (W.D. Mich.);
           •   Jim Greenlee (N.D. Miss.);
           •   Dunn O. Lampton (S.D. Miss.);
           •   Anna Mills Wagoner (M.D. N.C.);
           •   John McKay (W.D. Wash.);
           •   Kasey Warner (S.D. W.Va.); and
           •   Paula Silsby (D. Me.). 18
Later that evening, Sampson e-mailed Miers a revised chart in which he struck
out two additional names:

           •   Thomas B. Heffelfinger (D. Minn.);
           •   Steven Biskupic (E.D. Wis.). 19

        17 As noted below, Sampson said he came up with these 14 names based on his own

“quick and dirty” review of U.S. Attorneys and said he intended that the names would be
subjected to further vetting “down the road.” We did not investigate the circumstances of each
U.S. Attorney who appeared on Sampson’s initial list, and we believe no conclusions can or
should be reached about the performance of these U.S. Attorneys based on Sampson’s
inclusion of their names on his list.
        18 According to Sampson, he did not list Silsby because he considered her a “weak”

U.S. Attorney but because she had never been nominated by the President and was serving as
Interim U.S. Attorney through a court appointment. Attorney General Ashcroft had appointed
her Interim U.S. Attorney in 2001 for a 120-day term, and she was appointed Interim U.S.
Attorney by the federal district court upon the expiration of the 120-day appointment by the
Attorney General. Silsby had served as Interim U.S. Attorney since then with the support of
Maine’s two Republican Senators. However, the White House did not recommend her for the
permanent position, and Sampson wanted to replace her with a Presidentially nominated and
confirmed U.S. Attorney.
        19 We discuss Heffelfinger’s resignation below in Section E.1. of this chapter. As to

Biskupic, as part of our investigation we interviewed him to assess allegations that his
prosecution of a local Democratic elected official played a role in Sampson’s subsequent
deletion of his name from the removal list. Biskupic, who still serves as U.S. Attorney for the
Eastern District of Wisconsin, told us that until the controversy about the removals of the
(Cont’d.)


                                               19
      In the e-mail, Sampson also bolded Matt Orwig, E.D. Texas,
(recommending retention of this U.S. Attorney) “based on some additional
information I got tonight.” Sampson told us that he could not recall who
supplied the new information about Orwig or what the information was.

      All told, Sampson’s chart placed in the “strikeout” category 14 U.S.
Attorneys, including 4 of the 9 who were ultimately told to resign in 2006: Bud
Cummins, Carol Lam, Margaret Chiara, and John McKay. On the other hand,
the chart placed in the “bold” category as “recommend retaining” 26 U.S.
Attorneys, 2 of whom – David Iglesias and Kevin Ryan – were also among the 7
who were told to resign on December 7, 2006. The chart placed in the “no
recommendation” category 39 U.S. Attorneys, 3 of whom – Paul Charlton, Todd
Graves, and Daniel Bogden – were told to resign in 2006.

       According to Sampson, his assessment of U.S. Attorneys reflected in the
chart he e-mailed to Miers on March 2, 2005, was based both on judgments he
formed about these U.S. Attorneys during his work at the White House and the
Department over the previous 4 years and on input from other officials at the
Department. Sampson told congressional investigators that in early 2005 he
had consulted and relied upon several Department officials, including EOUSA
Director Mary Beth Buchanan, Principal Associate Deputy Attorney General
William Mercer, Deputy Attorney General James Comey, and Associate Deputy
Attorney General David Margolis, for recommendations concerning which U.S.
Attorneys to remove. However, Sampson told us that he could not specifically
recall what these individuals said about particular U.S. Attorneys at the time.
Sampson also said he viewed the initial chart as a “quick and dirty” response
to Miers’s inquiry, and as a “preliminary list” that would be subject to “further
vetting . . . down the road” from Department leaders.




other U.S. Attorneys arose, he had no idea that Sampson had ever characterized him as a
“weak” U.S. Attorney or had recommended that he be removed. Biskupic told us that he did
not believe Sampson included him on the first list for reasons related to any public corruption
cases his office was prosecuting. Biskupic also said he had no contact with anyone at the
Department about public corruption prosecutions and that his office did not discuss the cases
with anyone at the Department. Sampson told us he did not know anything about public
corruption cases in Biskupic’s district until after Sampson resigned from the Department.
Sampson said he could not recall why he had included Biskupic on the initial list, but said he
vaguely recalled having a conversation with Deputy Attorney General McNulty much later in
the process in which McNulty noted that Biskupic should not be recommended for removal
because the Department did not want to arouse the ire of Wisconsin Congressman James
Sensenbrenner. However, as we discuss below, we determined that Biskupic’s name was
removed from the list sometime before January 2006, and McNulty did not become aware of
the proposal to remove U.S. Attorneys until late October 2006. Accordingly, even if Sampson
had such a conversation with McNulty, it could not have formed the basis for Sampson taking
Biskupic’s name off the removal list much earlier in the year.




                                              20
      Sampson said he did not share the March 2 chart with Gonzales or any
other Department officials at the time, but believed he briefed Gonzales about
it. Gonzales told us he did not recall seeing the chart or being briefed about
the names on it.

              1.     Input from Comey and Margolis

      We interviewed all the officials with whom Sampson said he consulted
when preparing the March 2 chart. Only Deputy Attorney General Comey and
Associate Deputy Attorney General Margolis said they recalled discussions with
Sampson in early 2005 about this issue.

      Comey said he recalled being consulted by Sampson before Sampson
sent the U.S. Attorney chart to Miers in early March 2005. Based on his
calendar entries, Comey said he met with Sampson on February 28, 2005, 4
days before Sampson e-mailed the chart to Miers. Comey told us that
Sampson had asked for his input on the “weakest” U.S. Attorneys in the event
an opportunity arose to make changes in the U.S. Attorney ranks. Comey said
he was confident he named Kevin Ryan and Dunn Lampton as “weak” U.S.
Attorneys, and he believed he placed Thomas Heffelfinger and David O’Meilia in
that category as well. 20 However, Comey said he was not aware at the time
that Sampson’s inquiry was part of a “process” to identify U.S. Attorneys for
removal and was “close to certain” that Sampson did not attribute any role to
the White House in the matter. Comey also stated that he considered this
aspect of his February 28 meeting to be a “casual” conversation with Sampson
that was raised “offhandedly” as a prelude to a different and more important
subject to be discussed at the meeting – the possible merger of the Attorney
General’s and Deputy Attorney General’s staffs.

      Margolis told congressional investigators that sometime in late 2004 or
early 2005 Sampson broached with him the subject of replacing certain U.S.
Attorneys, although Margolis said he could not recall specifically when he and
Sampson discussed the matter. According to Margolis, Sampson told him
about Miers’s idea of replacing all U.S. Attorneys – an idea both he and
Sampson considered unwise. Margolis said that Sampson believed, however,
that Miers’s idea could be used as a way to replace some weak U.S. Attorneys
and thereby make the U.S. Attorney ranks stronger in the second Bush term.
Margolis said he strongly endorsed the idea of replacing weak or mediocre U.S.
Attorneys. He said that in the past U.S. Attorneys were generally removed only
for misconduct or gross incompetence tantamount to misconduct.

       20  Comey said he was concerned about Ryan’s management of his office and had
concerns about Lampton’s judgment and behavior concerning a case Comey oversaw while he
was U.S. Attorney. In addition, Comey expressed concern about O’Meilia’s judgment regarding
certain office expenditures during a time of budget difficulties. Finally, Comey said he was
concerned that Heffelfinger was overly focused on Indian affairs issues.




                                            21
      Margolis said that when he and Sampson first discussed the issue,
Sampson had a list of all current U.S. Attorneys and asked Margolis for his
views on who the Department should consider removing. Margolis told us he
was firm that two U.S. Attorneys should be removed on performance grounds –
Ryan and Lampton. Margolis told us that he also suggested then (and more
strongly later) that Chiara should be considered for removal. Margolis said he
was aware of management concerns about Ryan and Chiara, and he said he
had serious concerns about Lampton. Margolis also stated that there were
roughly eight additional U.S. Attorneys who warranted a closer look, either
because of general performance, specific conduct, or both. 21

             2.     Reaction to the List from the Office of the White House
                    Counsel

      Sampson said he received no immediate reaction from Miers to the
names he had marked for possible removal on the March 2 chart, and said he
did not discuss the basis for his individual recommendations with Miers. He
said the only comment he recalled Miers making about the chart was that she
was “pleased” to see that Sampson had placed Matt Orwig’s name in bold,
indicating he should be kept. According to Sampson, Miers knew Orwig from
Texas and thought highly of him.

       In approximately February or March of 2005, the White House Office of
Political Affairs was notified about the initiative to remove certain U.S.
Attorneys. White House Political Affairs Director Sara Taylor told us that
shortly after she began as Director of Political Affairs in February 2005, she
became aware that the White House was considering replacing U.S. Attorneys.
Taylor said that Miers and others in both the White House Counsel’s Office and
the Department of Justice had discussed the idea that the advent of the
President’s second term provided an opportunity to replace some of the U.S.
Attorneys.

       On March 23, 2005, Associate White House Counsel Dabney Friedrich,
acting at Miers’s request, sent Sampson an e-mail asking him to confirm
Miers’s understanding that the “plan” for replacing U.S. Attorneys was “to wait
until each has served a four-year term.” Sampson replied that Gonzales,
Miers, Friedrich, and he should discuss the issue, but it was his advice to
replace certain U.S. Attorneys “selectively” (based on the March 2 chart) after
the expiration of their 4-year terms. Sampson expressed concerns that to do
otherwise might create turmoil with home state politicians and within the
Department. Sampson also stressed that these were his views and “should not

      21  Although some of the approximately eight additional names mentioned by Margolis
appeared on subsequent lists prepared by Sampson, none of them were among the final group
of nine U.S. Attorneys who were asked to resign in 2006.




                                           22
be attributed to Judge [Gonzales].” Friedrich replied that she agreed
“completely” with Sampson’s recommendation and would be surprised to hear
differently from either Miers or Gonzales.

       After this e-mail exchange between Sampson and Friedrich in late March
2005, it appears that the U.S. Attorney removal process remained dormant for
several months. Sampson told us that Gonzales agreed with him that nothing
should be done until the U.S. Attorneys had served out their 4-year terms.
Sampson also told us he believed that Miers had adopted his advice to wait
until the U.S. Attorneys had completed their 4-year terms before taking any
action. Because the earliest term-expiration date of any U.S. Attorney on his
chart did not come until November 2005, Sampson said he saw no urgency to
the matter and put the issue on the back burner.

            3.    Fall 2005 – Further Consultations about the Removal of
                  U.S. Attorneys

                  a.     Battle

      In October 2005, Monica Goodling moved from EOUSA to become Senior
Counsel in the Attorney General’s Office. Around this time, Goodling told
Michael Battle, who had succeeded Mary Beth Buchanan as EOUSA Director in
June 2005, that changes could be forthcoming in the U.S. Attorney ranks.
According to Battle, Goodling told him the Administration wanted to give others
an opportunity to serve and asked him if he had concerns about any particular
U.S. Attorneys or “problematic” districts.

       According to Battle, after meeting with Goodling he reviewed a list of U.S.
Attorneys for possible removal. He said no names “jumped out” at him and he
put the matter aside, expecting a follow-up call from Goodling that never came.
Battle said neither Goodling nor Sampson thereafter sought his opinion on
which U.S. Attorneys should be replaced. Battle said he did not hear from
either of them on the subject until late January 2006, when Goodling called
him with specific instructions to ask for the first U.S. Attorney resignation:
Todd Graves.

                  b.     Mercer

       According to Mercer, sometime shortly after the 2004 election Sampson
told him that Miers had proposed replacing all of the U.S. Attorneys, but
Sampson had dissuaded her. Mercer said that sometime during the fall of
2005, Sampson asked for Mercer’s views on the performance of a number of
U.S. Attorneys. Mercer said he did not recall Sampson stating that certain U.S.
Attorneys would be asked to resign, but it was clear to Mercer that that was
Sampson’s purpose in asking for his views.




                                       23
       Mercer said they did not have a formal meeting about the issue, but in
the course of the conversation Sampson indicated that changes might be made
in certain districts with productivity problems or policy compliance issues.
Mercer said he recalled discussing with Sampson concerns about Lam’s
immigration record, and Mercer believed they also discussed concerns about
Ryan’s management. Mercer said he could not recall which other U.S.
Attorneys he and Sampson discussed. Mercer said he had the sense that
Sampson was also consulting with others, but he did not know who. According
to Mercer, he had no further conversations with Sampson about the removal of
U.S. Attorneys until December 2006 when the removal plan took effect.

                     c.     Comey

       In addition to the February 2005 discussion between Sampson and
Comey discussed above, we found e-mail records indicating that Sampson
broached the subject of removing certain U.S. Attorneys with Comey in August
2005, shortly before Comey’s resignation. 22 On August 11, 2005, Sampson
sent Comey an e-mail requesting a brief meeting to “get your assessment of our
current crop of USAs.” In the e-mail, Sampson pointed out that U.S. Attorneys’
4-year terms would begin to expire in September, and expressed the view that
“there will be some sentiment to identify the 5-10 weak sisters, thank them for
their four years of service, and give someone else the opportunity to serve.”
According to an e-mail from Comey to two other Department officials the next
day, Sampson asked him about Chiara, Wagoner, McKay, Sheldon Sperling,
and James Vines. Comey’s e-mail indicated that he agreed with Sampson that
Vines was weak but had no strong views on the others, except McKay who,
Comey told Sampson, had been “great on my information sharing project.”

                     d.     Buchanan

       Buchanan, who served as Director of EOUSA from May 2004 to June
2005, told us that Sampson informed her sometime after the 2004 election that
he was undertaking a review of U.S. Attorneys, that some might be asked to
leave, and that he might ask for her input. Buchanan said that Sampson was
“very interested in management” issues and would occasionally ask her opinion
on the 10 “best” and “worst” U.S. Attorneys, although she said she never
directly answered his question. She told us, however, that she was familiar
with the problems Ryan and Lam were having in their districts and discussed
both of them with Sampson.

      We showed Buchanan Sampson’s March 2005 chart to determine
whether she could recall discussions with Sampson about any of the U.S.
Attorneys on the list whom Sampson had categorized as “weak.” Buchanan

      22   Comey left the Department in mid-August 2005.




                                            24
said that of all the names on the list, Lam’s name stood out because by then
Department officials were concerned about her performance in immigration
and Project Safe Neighborhoods matters. 23 Buchanan also stated that
sometime in the spring of 2005, she and Margolis discussed sending a Special
EARS team to investigate complaints about Ryan’s management of the San
Francisco U.S. Attorney’s Office. Buchanan said she also discussed with
Sampson concerns about Heffelfinger’s focus on Native American issues, but
she said she did not recall expressing any negative views about any other U.S.
Attorney’s performance.

      Buchanan said that before she left EOUSA in June 2005 she probably
discussed with Sampson her concerns about Graves, who first appeared on
Sampson’s January 2006 list. In the spring of 2005, Buchanan said, she
talked to Graves about a Missouri newspaper article reporting that Graves’s
wife was awarded a lucrative non-competitive contract by Missouri Governor
Matt Blunt to manage a local motor vehicle fee office for the state. According to
Buchanan, she “probably would have” discussed that matter with Sampson, as
well as her observation that Graves was not an active member of the Attorney
General’s Advisory Committee (AGAC) during his 2-year stint heading the
AGAC’s Child Exploitation and Obscenity Committee.

      Other than Comey, Margolis, Mercer, Buchanan, and probably Goodling,
we identified no other Department officials who discussed the performance of
U.S. Attorneys with Sampson before January 2006.

       D.     The Second List – January 2006

              1.      Sampson’s January 1, 2006, Draft List

      Sampson drafted a memorandum dated January 1, 2006, to Miers
stating that he was responding to her inquiry concerning “whether President
Bush should remove and replace U.S. Attorneys whose 4-year terms have
expired.” Sampson said he could not remember specifically what prompted
him to send the e-mail in January, and he speculated that it might have been
just because it was the new year.

      Sampson recommended in the memorandum that the Department and
the White House Counsel’s Office “work together to seek the replacement of a
limited number of U.S. Attorneys.” Similar to his e-mail of January 9, 2005, to
Deputy White House Counsel Leitch, Sampson’s 3-page draft memorandum to
Miers in January 2006 cited the statutory authority for U.S. Attorneys’
appointments, term of office, and removal. Sampson’s memorandum also

       23   Project Safe Neighborhoods is a Department initiative that involves collaborative
efforts by federal, state, and local law enforcement agencies, prosecutors, and communities to
prevent and deter gun violence.




                                              25
pointed out “practical obstacles” to removing and replacing U.S. Attorneys,
such as the significant disruption a “wholesale removal” would cause to the
Department’s work, Senator’s opposition to the removal of U.S. Attorneys in
their home districts, and the time-consuming process of finding suitable
replacements who would have to undergo the background investigation
process.

       Sampson’s memorandum proposed that “a limited number of U.S.
Attorneys could be targeted for removal and replacement, mitigating the shock
to the system that would result from an across-the-board firing.” Under his
proposal, EOUSA “could work quietly” with the designated U.S. Attorneys to
“encourage them to leave government service voluntarily,” thereby giving them
time to find work in the private sector and allowing them to “save face.”
Sampson proposed that after the targeted U.S. Attorneys announced their
resignations, the White House Counsel’s Office could work with the political
leadership of the affected states to obtain recommendations for permanent
replacements. Sampson also proposed that the eventual nominee for each
vacated office could be appointed as an Interim U.S. Attorney by the Attorney
General, pending Senate confirmation. In the January 1, 2006, memorandum
to Miers, Sampson identified nine U.S. Attorneys with expiring terms who
should be considered for removal:

          •   H.E. “Bud” Cummins (E.D. Ark.);

          •   Kevin V. Ryan (N.D. Cal.);

          •   Carol C. Lam (S.D. Cal.);

          •   Margaret M. Chiara (W.D. Mich.);

          •   Thomas B. Heffelfinger (D. Minn.);

          •   Dunn O. Lampton (S.D. Miss.);

          •   Todd P. Graves (W.D. Mo.);

          •   Anna Mills S. Wagoner (M.D. N.C.) 24; and

          •   David O’Meilia (N.D. Okla.)

      Sampson also recommended the removal and replacement of two U.S.
Attorneys who were serving in an “acting” capacity: Paula Silsby (D. Me.) and
William Leone (D. Colo.). 25

       24 We were unable to determine why Sampson listed Wagoner other than that he

believed she was a weak U.S. Attorney.




                                           26
      For the first nine named U.S. Attorneys, Sampson noted the term
expiration date and the names of the home-state Senators. For six of the nine,
Sampson also suggested replacement candidates, including Tim Griffin for the
Eastern District of Arkansas, who we discuss in Chapter Five. 26

      Sampson shared his draft memorandum with Goodling, who suggested
some changes. She disagreed with two of Sampson’s recommendations,
Wagoner and Lampton. Goodling wrote on the draft that she “would keep”
Lampton based on his performance in the aftermath of Hurricane Katrina. As
to Wagoner, Goodling noted that she “would not put her on this list” based on
Wagoner’s performance in Project Safe Neighborhood (PSN) and her cooperation
on “Patriot [Act matters] + AG visits, etc.”

       Goodling also noted two other categories: (1) “other problem districts,”
under which she named Paul Charlton (D. Ariz.); and (2) “Quiet/not sure
about,” under which she named Daniel Bogden (D. Nev.) and Tom Marino (M.D.
Pa.), all of whom appeared on subsequent lists. Shortly thereafter, Sampson
also created a draft of a 3-tier list containing 14 names, including Charlton
(Tier 1), Bogden (Tier 2), and Marino (Tier 3).

      We found no one else who said they saw the January 1, 2006, draft
before it was revised and sent by e-mail to Miers. Attorney General Gonzales
told us he did not see it at the time and did not recall discussing it with
Sampson or Goodling.

                2.    The January 9, 2006, Memorandum from Sampson to
                      the White House

      On January 9, 2006, Sampson sent Miers an e-mail which essentially
incorporated his draft memorandum with Goodling’s suggested modifications.
Based on Goodling’s recommendations, Sampson removed Wagoner’s and
Lampton’s names from the list, thereby reducing to nine, including Silsby and
Leone, the number of U.S. Attorneys recommended for removal. The nine U.S.
Attorneys on the January 9 list were:

            •   H.E. “Bud” Cummins (E.D. Ark.);


       25 Leone became the First Assistant U.S. Attorney in Colorado in 2001 and was

appointed Interim U.S. Attorney in December 2004. He served as Interim U.S. Attorney until
the confirmation of Troy Eid in August 2006. We found no evidence that Leone’s replacement
by a Presidentially appointed U.S. Attorney was unusual or improper.
       26   Most of the replacement candidates for the other five districts were current or former
political appointees in the Department. Other than Griffin, only one suggested replacement on
this list, John Wood, currently the U.S. Attorney for the Western District of Missouri, was
ultimately nominated and confirmed.




                                               27
         •   Carol C. Lam (S.D. Cal.);

         •   Kevin V. Ryan (N.D. Cal.);

         •   Margaret M. Chiara (W.D. Mich.);

         •   Thomas B. Heffelfinger (D. Minn.);

         •   Todd P. Graves (W.D. Mo.);

         •   David O’Meilia (N.D. Okla.);

         •   Paula Silsby (D. Me.); and

         •   William Leone (D. Colo.).

      In his e-mail to Miers, Sampson proposed a 2-step removal process. He
wrote that first, there needed to be agreement on the “target list” of U.S.
Attorneys, and second, EOUSA needed to explore with the designated U.S.
Attorneys their “intentions” and to indicate to them that they “might want to
consider looking for other employment.”

       After naming the nine U.S. Attorneys recommended for removal,
Sampson described the basis on which he arrived at his recommendations: “I
list these folks based on my review of the evaluations of their offices conducted
by EOUSA and my interviews with officials in the Office of the Attorney
General, Office of the Deputy Attorney General, and the Criminal Division.”

     Sampson’s mention of “evaluations conducted by EOUSA” referred to
EARS evaluations, the periodic evaluations of U.S. Attorneys’ Offices conducted
by EOUSA. These reviews, which are typically conducted by a team of
supervisory AUSAs selected from other districts, are described in more detail in
Chapter Two of this report.

      Notwithstanding Sampson’s representation in his e-mail to Miers, his
recommendations were not based on his review of the pertinent EARS
evaluations. Sampson admitted to us that he did not personally review EARS
evaluations. Instead, Sampson told us that he had talked to Margolis
“generally” about how various U.S. Attorneys were doing, and he “understood”
that Margolis had reviewed EARS evaluations. Margolis confirmed that he
reviews all EARS reports, but told us that the vast majority are favorable.
According to Margolis, EARS evaluations are designed to help a U.S. Attorney
manage his or her office, not to “help me decide who to fire.” Margolis said that
he would only give serious weight and consideration to an EARS evaluation in
the rare instance it was negative. In such an instance, Margolis told us, he
would deliver a copy of the EARS report to the Principal Associate Deputy
Attorney General or the Deputy Attorney General’s Chief of Staff (not the


                                          28
Attorney General’s Chief of Staff) with a note that there was a serious problem
in the district.

      With one exception, Margolis told us that he recalled no such problem in
any of the districts where Sampson recommended a change in leadership. The
lone exception was the Northern District of California, where Kevin Ryan was
the U.S. Attorney. 27 Moreover, as discussed in the chapters describing the
reasons proffered for removal of the individual U.S. Attorneys, we found that
EARS evaluations did not support most of the recommendations that Sampson
made.

      Sampson acknowledged to us that the representation in his e-mail to
Miers that his recommendations were premised on his review of EARS
evaluations was not accurate. Sampson said that it would have been better if
he had said that it was based on his understanding of somebody else’s
understanding of the reviews of the offices.

        With respect to his reference to “interviews” of Department officials,
Sampson testified to Congress that he had spoken with Goodling (from the
Attorney General’s Office), and Margolis (from the Deputy Attorney General’s
Office). However, contrary to the statement in his January 9 e-mail, he
testified that he did not believe he had spoken to anyone in the Criminal
Division except “in the most general terms.” In addition, Sampson testified
that he spoke with Buchanan and Comey. Sampson acknowledged that he did
not conduct formal interviews with anyone, but rather said he “was aggregating
views from different people” and did so by sounding people out in an informal
setting in order to get their “frank assessments” of U.S. Attorneys. Sampson
said he may have been clearer with some than with others as to the purpose for
which he was gathering their views.

              3.     The First Removal: Todd Graves

      After sending his January 9, 2006, e-mail to Miers, Sampson did not
receive an immediate response to his proposal, and no action was taken on his
overall proposal for several months. Nevertheless, shortly after Sampson’s
January 9 proposal, action was taken to seek the resignation of Todd Graves,
the U.S. Attorney for the Western District of Missouri.

       On January 19, 2006, Sampson sent an e-mail to EOUSA Director Battle
asking him to call when he had a few minutes to discuss Graves. Several days
later (apparently before Battle spoke to Sampson), Goodling called Battle and

       27 A Special EARS evaluation was commissioned by EOUSA in the fall of 2006 (at
Margolis’s urging) based on the results of the regular EARS evaluation in March 2006 and on
numerous complaints made about Ryan’s performance as U.S. Attorney. The special
evaluation was intended to be an evaluation not only of the USAO but also of Ryan.




                                             29
told him to call Graves to request his resignation. Goodling instructed Battle to
tell Graves only that the Administration had decided to make a change, that
his service was appreciated, and that the request was not based on any
misconduct by Graves but simply to give someone else a chance to serve.

      Shortly thereafter, on January 24, 2006, Battle called Graves and
communicated the message as instructed by Goodling. Graves said he was
“stunned” and “shocked” by the call, and said Battle would not explain why his
resignation was sought. Graves subsequently complied with the instruction
and on March 10, 2006, announced his resignation, effective March 24.

       Although Graves was not originally identified in the 2007 congressional
hearings as one of the U.S. Attorneys who was asked to resign in 2006 as a
result of the “process” initiated by Sampson, we considered him part of that
group. He was targeted for removal on Sampson’s January 9, 2006, list, and
the script Battle followed in seeking Graves’s resignation was identical to the
one he followed in conversations with the other eight U.S. Attorneys who were
later told to resign.

       However, as we discuss in greater detail in Chapter Four of this report,
no Department employee involved in the process could explain why Graves was
told to resign. Battle, who placed the call at Goodling’s direction, said he was
not given the reasons. Goodling, who directed Battle to call Graves, stated in
her congressional testimony that she would have done so only on instruction
from Sampson. Sampson told congressional investigators that he had no
recollection of the matter, believed that Goodling had handled it, and assumed
that it was based on a finding of misconduct by Margolis. Margolis told us that
there was no misconduct finding against Graves and expressly denied playing
any role in Graves’s removal. Gonzales told us that he had no recollection
about being consulted about Graves’s removal.

       We also found no documentation within the Department describing the
reasons that Graves was told to resign. However, we found that the White
House Counsel’s Office played a role in his resignation. Although Sampson
told congressional investigators that he had no recollection as to why he placed
Graves’s name on the January 9 removal list and disclaimed any involvement
in the January 24 resignation request to Graves, Sampson acknowledged to us
that he discussed with the White House Counsel’s Office that the staff of
Missouri’s Republican Senator Christopher Bond was urging the White House
Counsel’s Office to remove Graves. We describe this issue, and the White
House’s role in the removal of Graves, in more detail in Chapter Four.

      E.    The Third List – April 14, 2006

      The proposal advanced by Sampson in his January 9 e-mail to Miers was
not implemented at that time. As Sampson described it, the process was in a



                                       30
“long thinking phase that bumped along and really didn’t have any traction to
it” until the fall of 2006. According to Sampson, either Miers or Deputy White
House Counsel William Kelley raised the issue from time to time, prompting
Sampson to prepare another list, but then nothing happened, causing
Sampson to question whether the removal proposal would ever be
implemented.

       We found that on April 14, 2006, 4 months after his January 9 e-mail,
Sampson sent an e-mail to Associate White House Counsel Dabney Friedrich
revising the list he had proposed in his January e-mail to Miers. Sampson
recommended in the e-mail that the “White House consider removing and
replacing the following U.S. Attorneys upon the expiration of their 4-year
terms”:

         •   Margaret M. Chiara (W.D. Mich.);

         •   David O’Meilia (N.D. Okla.);

         •   H.E. “Bud” Cummins (E.D. Ark.); and

         •   Carol C. Lam (S.D. Cal.).

       Sampson also proposed the removal and replacement of Paula Silsby, the
Interim U.S. Attorney for Maine, and suggested that he could add another three
to five names “[i]f you pushed me.” Three names that were on Sampson’s
January 9 list were omitted from this updated list: Graves, Heffelfinger, and
Ryan.

             1.    Heffelfinger

       In an e-mail to Friedrich immediately after he sent her the new list on
April 14, 2006, Sampson pointed out that Graves and Heffelfinger, two of the
names on his January 9 list, “already have left office.” As discussed above,
Graves had been told in late January to resign and he left office on March 24,
2006. Heffelfinger had also resigned from the Department, effective March 1,
2006.

       Unlike Graves, Heffelfinger told us he resigned without prompting from
anyone at the Department. Heffelfinger said that he began thinking about
leaving in the fall of 2005, and made the final decision on January 20, 2006,
after learning he was eligible for early retirement. Heffelfinger said that he met
with Deputy Attorney General McNulty on that day to inform him of his
intentions, and Heffelfinger announced his resignation during the week of




                                         31
February 13. His resignation took effect on March 1, 2006. Heffelfinger said at
that time he had no idea that Sampson had ever proposed his removal. 28

              2.     Ryan

       Of the nine names recommended for removal on Sampson’s January 9
list, only one still serving U.S. Attorney, Kevin Ryan, was omitted from the April
14 e-mail to Friedrich. At this time Ryan’s performance as U.S. Attorney for
the Northern District of California had been subjected to sharp criticism from
former prosecutors in the office, and in March 2006 an AUSA then serving in
the office wrote a letter to the Department blaming Ryan for a mass exodus of
experienced AUSAs during his tenure. That letter became the subject of a San
Francisco newspaper article in early March recounting considerable discord
within the USAO.

        As discussed in footnote 27, an EARS evaluation of Ryan’s office took
place during the week of March 27, 2006. After the EARS evaluation, the team
leader prepared a “Draft Significant Observations” memorandum for the
Director of EOUSA highlighting his observations concerning high turnover and
low morale, which line AUSAs attributed to Ryan’s poor management style and
practices. A draft report was completed in late May 2006 and provided to Ryan
for review and comment. In July 2006, Ryan wrote a lengthy response taking
exception to the draft report’s conclusions concerning his management of the
office.

       According to Margolis, based on the results of the March evaluation, a
special EARS team was commissioned to conduct a follow-up evaluation of the
office. That evaluation occurred in late October 2006. A draft report was
delivered to Margolis and Battle on November 22, 2006. Like the first one, this
special evaluation concluded that the U.S. Attorney’s Office suffered from
serious morale problems attributable in large part to Ryan’s management style.

       Sampson told us he deleted Ryan’s name from the April 14 list because
he was aware of the negative EARS evaluation and felt that it would be “unfair
and inappropriate” to remove Ryan in the midst of an ongoing evaluation.
Sampson also expressed the view that while a U.S. Attorney can be removed
“for any reason or no reason” once the evaluation process has been initiated,


       28  Before leaving office, Heffelfinger prepared a management plan that called for
elevating an experienced AUSA within the office to the position of Acting U.S. Attorney. His
plan was rejected in favor of appointing Rachel Paulose, a former Minnesota AUSA and then
Counsel to the Deputy Attorney General, to be Interim U.S. Attorney. Paulose was later
nominated as U.S. Attorney and confirmed by the Senate on December 9, 2006. After
significant controversy arose regarding her management of the office, she was transferred back
to a position at Main Justice in November 2007.




                                             32
“as a matter of policy” the U.S. Attorney should be given the benefit of the full
evaluation before being removed. 29

               3.     The Plan to Replace Cummins with Griffin

      On May 11, 2006, in response to an inquiry from Deputy White House
Counsel William Kelley after a meeting the previous day at the White House,
Sampson forwarded to Kelley his April 14 e-mail to Friedrich. In the e-mail,
Sampson asked Kelley to call him to discuss having Rachel Brand (then head of
the Department’s Office of Legal Policy) replace Chiara as the U.S. Attorney in
the Western District of Michigan and Tim Griffin replace Bud Cummins in the
Eastern District of Arkansas. Sampson also stated in the e-mail to Kelley that
he wanted to discuss the “real problem we have right now with Carol Lam that
leads me to conclude that we should have someone ready to be nominated on
11/18, the day her 4-year term expires.”

       As discussed below, in response to this e-mail to Kelley no decision was
made on Sampson’s overall proposal to remove the U.S. Attorneys. However, a
decision was made to remove Bud Cummins and replace him with Tim
Griffin. 30

                      a.      Miers’s Request Regarding Griffin

      Sampson told Congressional investigators that Miers asked him in the
spring of 2006 whether a place could be found for Griffin in the U.S. Attorney
ranks. 31 Sampson said he examined his list and determined that since
Cummins was already identified on the January 9 list as one of the prospective
U.S. Attorneys to be removed, he felt he could accommodate Miers’s request. 32

       29  As we discuss later in this report, Ryan was the only U.S. Attorney of the nine to be
evaluated by a Special EARS team. No other U.S. Attorney removed as a result of the process
initiated by Sampson was accorded such treatment before being recommended for removal.
       30 Brand told us that she and Sampson did not seriously discuss whether Brand
wanted to become U.S. Attorney until sometime in the fall of 2006. Brand said that she is from
Michigan, but she was not interested in moving at the time, and she was not lobbying to
become U.S. Attorney. According to Sampson, he and Deputy White House Counsel Kelley
discussed Brand’s appointment in May 2006, but Brand did not show much interest at the
time, and by the time the removal plan was underway Brand indicated she was not interested
in becoming U.S. Attorney in Michigan for personal reasons.
       31  As more fully described in Chapter Five of this report, Griffin had worked for the
Republican National Committee through the 2004 election, and then became Deputy Director
of the Office of Political Affairs in the White House. In 2004, he was one of the candidates
considered for the U.S. Attorney position in the Western District of Arkansas for which Robert
Balfe was ultimately chosen.
       32 We also found evidence that the White House asked about replacing Debra Yang, the
U.S. Attorney in the Middle District of California. According to Sampson, Miers had asked him
whether Yang should be replaced because she had rejected an overture to serve on the Ninth
(Cont’d.)


                                               33
Sampson said that after consulting with a “few’’ people at the Department, he
informed Miers that he thought it could be done. Sampson said that other
than Goodling and the Attorney General, he could not recall whom he
consulted about the Griffin matter. Gonzales told us he did not recall having
any discussions with Sampson about Cummins or Griffin at the time.

      According to e-mail records, in early June the White House formally
approved Griffin’s selection for the U.S. Attorney position. On June 13,
Goodling informed Sampson that the pre-nomination paperwork on Griffin had
been completed. She also told Sampson that she would talk to EOUSA
Director Battle the next morning, June 14, and also inform the Office of the
Deputy Attorney General that “we are now executing this plan.”

                      b.     Battle Tells Cummins to Resign

       On June 14, 2006, Battle, acting on instructions from Goodling, called
Cummins to ask for his resignation. In delivering the message, Battle followed
the same talking points he had received from Goodling for the call to Graves in
January. Battle thanked Cummins for his service, stated that the
Administration wanted to give someone else the opportunity to serve as U.S.
Attorney, and asked how much time Cummins needed to make arrangements
to leave office.

      Battle told us that he considered Cummins to be a good U.S. Attorney.
Battle also said he was not told why Cummins was asked to resign or who
would replace him. He said Cummins told him that he suspected the change
was being made so Griffin could become U.S. Attorney. 33

              4.      Sampson Suggests that Patrick Fitzgerald Be Removed

       During the summer of 2006, no further action was taken on the plan to
remove additional U.S. Attorneys. However, during this time, Sampson met at
least once with Miers and Deputy White House Counsel Kelley to discuss the
proposal. According to Sampson, sometime during the summer he met
informally with Miers and Kelley after a judicial selection meeting at the White
House. At this meeting they discussed the plan to remove U.S. Attorneys, and
Sampson broached the subject of including Patrick Fitzgerald, the U.S.
Attorney for the Northern District of Illinois, on the removal list.


Circuit. Sampson testified that he had informed Miers that Yang was a “strong” U.S. Attorney
who should remain in place. Sampson said that Miers accepted his explanation and did not
raise the subject again. Yang resigned of her own volition in 2006 to take a job with a private
law firm.
     33 On December 15, 2006, Cummins announced his resignation and left office on

December 20, 2006.




                                              34
      Sampson testified to Congress that although Fitzgerald was widely
viewed as a strong U.S. Attorney, Sampson had placed Fitzgerald in the
“undistinguished” category on the initial list he sent to the White House in
March 2005 because he knew that Fitzgerald was handling a very sensitive
case and Sampson did not want to rate Fitzgerald one way or the other. At that
time, Fitzgerald was serving as the Special Counsel investigating the leak of
information relating to Central Intelligence Agency employee Valerie Plame,
which ultimately resulted in the conviction of the Vice President’s Chief of Staff,
I. Lewis “Scooter” Libby, for perjury and making false statements.

       Sampson testified that when he brought up Fitzgerald’s name as a U.S.
Attorney who could be added to the removal list, Miers and Kelley “said nothing
– they just looked at me.” Sampson testified that as soon as he said it, he
knew it was the wrong thing to do. He said he was not sure why he said it but
thought that maybe he was “trying to get a reaction from [Miers and Kelley].”
He said he “immediately regretted it” and retracted the suggestion. Sampson
later told congressional investigators that it was “immature and flippant” of
him to have even raised such a sensitive issue. Sampson also testified that he
never seriously considered putting Fitzgerald on the list, and we found no
evidence that Sampson ever discussed removing Fitzgerald with anyone at the
Department.

       F.       The Fourth List – September 13, 2006

      On September 13, 2006, Miers sent an e-mail to Sampson asking for his
“current thinking on holdover U.S. Attorneys.” In a reply e-mail later that day,
Sampson conveyed to Miers his current breakdown of “the U.S. Attorney
ranks.”

       After noting current and anticipated vacancies for U.S. Attorney
positions, Sampson listed the following U.S. Attorneys under the heading
“USAs We Now Should Consider Pushing Out:” 34

            •   Paul Charlton (D. Ariz.);

            •   Carol C. Lam (S.D. Cal.);

            •   Greg Miller (N.D. Fla.);

            •   Paula Silsby (D. Me.);

            •   Margaret M. Chiara (W.D. Mich);

       34 Sampson addressed Cummins’s situation in a separate section of his e-mail under

the heading “USAs in the Process of Being Pushed Out.”




                                            35
            •   Daniel Bogden (D. Nev.);

            •   Thomas Marino (M.D. Pa.); and

            •   John McKay (W.D. Wash.).

       In a summary section of the e-mail, Sampson emphasized that he was
“only in favor of executing on a plan to push some USAs out if we really are
ready and willing to put in the time necessary to select candidates and get
them appointed – it will be counterproductive to DOJ operations if we push
USAs out and then don’t have replacements ready to roll.”

      In his e-mail, Sampson also “strongly” recommended that the
Administration “utilize the new statutory provisions that authorize the AG to
make USA appointments.” As described in Chapter Two, before March 2006
the Attorney General could only appoint an Interim U.S. Attorney for a 120-day
term, and upon expiration of the appointment the federal district court could
make an indefinite appointment until the vacancy was filled by a confirmed
presidential appointee. At the request of the Department, however, a provision
had been included in amendments to the Patriot Act in March 2006 giving the
Attorney General the authority to appoint an Interim U.S. Attorney until the
vacancy was filled by a confirmed presidential appointee. 35

      In his e-mail, Sampson explained his recommendation to use the new
interim appointment power as follows:

       We can continue to do selection in JSC [White House Judicial
       Selection Committee], but then should have DOJ take over entirely
       the vet and appointment. By not going the PAS route, we can give
       far less deference to home-State Senators and thereby get (1) our
       preferred person appointed and (2) do it far faster and more
       efficiently, at less political cost to the White House.

       Before sending this e-mail to Miers, Sampson had sent a draft of the e-
mail to Goodling and asked her for any “corrections.” He did not send the draft
to anyone else in the Department. The draft he sent Goodling was identical to
the final e-mail he sent Miers with one exception: Anna Mills Wagoner of the
Middle District of North Carolina was among the U.S. Attorneys listed in
Sampson’s draft to be “pushed out,” but was not included in the final e-mail he

       35 As also noted in Chapter Two, in June 2007 in the wake of the controversy
surrounding the U.S. Attorney removals and allegations that the Attorney General’s Interim
appointment power was being used to circumvent the Senate confirmation process, legislation
was enacted repealing the March 2006 amendment and restoring the previous provision
granting the local federal district court authority over Interim U.S. Attorney appointments upon
the expiration of the 120-day appointment by the Attorney General.




                                              36
sent to Miers. We determined that about 20 minutes after receiving Sampson’s
draft e-mail, Goodling replied that Wagoner’s name should be removed because
“there are plenty of others there to start with and I don’t think she merits being
included in that group at this time.” 36 Sampson then removed Wagoner from
the list before sending the e-mail to Miers.

              1.     Sampson’s “Consensus” Process in Compiling the List

     The list of U.S. Attorneys for removal that Sampson e-mailed to Miers on
September 13 differed substantially from his April 14 list. One name, O’Meilia,
came off the list while five others were added: McKay, Charlton, Bogden,
Marino, and Miller.

       Sampson told us that he placed McKay, Charlton, Bogden, Marino, and
Miller’s names on the September 13 list based on information he had learned
about them from a variety of sources. 37 He acknowledged, however, that these
sources were not necessarily aware of Sampson’s intended use of the
information. Sampson also said he could not recall who specifically provided
the information that resulted in each name being added to the list.

        In his congressional testimony, Sampson repeatedly described the
process by which names were placed on the U.S. Attorney removal list as one of
“consensus” among Department leaders. For example, in his Senate Judiciary
Committee testimony on March 29, 2007, and his subsequent interviews by
joint House and Senate Judiciary Committee staff, Sampson described himself
as the “aggregator” of names and as the manager of the “process.” He testified
before the Senate Judiciary Committee that “[i]t wasn’t that I wanted names on
the list” and that, while he had his own views, there was no one specific U.S.
Attorney that he “personally” thought should be on the list. Sampson also
testified at his Senate Judiciary Committee appearance that he had “done no
independent research” before removing any U.S. Attorney and had relied on
Margolis, McNulty, and Mercer to make recommendations. He said he had
“consulted with the Deputy Attorney General and others who would have
reason to make an informed judgment about the U.S. Attorneys.”

      However, we found that contrary to his testimony, Sampson did not add
McKay, Charlton, Bogden, Marino, and Miller to the September 13 removal list
as a result of discussions with Department leaders geared toward arriving at a
consensus list of U.S. Attorneys to be recommended for removal. Aside from


       36 As noted above, Goodling had previously recommended to Sampson in January 2006

that Wagoner’s name be taken off his list of proposed U.S. Attorney removals. Sampson did so
then at Goodling’s request and did so again in September 2006.
         37 In his interview with us, Sampson said he could not recall why O’Meilia’s name came

off the list.




                                              37
Goodling and possibly Gonzales, no other senior Department official was aware
at that time that Sampson had sent to Miers the September 13 proposal, much
less the two previous proposals recommending the removal of specific U.S.
Attorneys. As previously noted, Battle told us that neither Goodling nor
Sampson ever asked him about which U.S. Attorneys should be replaced.
McNulty said he did not even become aware of the effort to remove U.S.
Attorneys until late October 2006. Mercer said he had no conversations with
Sampson about U.S. Attorneys, aside from his discussions about Lam in the
fall of 2005. Margolis told us that aside from his discussions with Sampson in
2005, he did not recall having conversations with Sampson about removing
U.S. Attorneys until sometime in November 2006.

       Sampson told us he placed the additional names on the September 13
list based on “problems” he learned about over the summer, not because he
“went and asked the Deputy Attorney General” or anyone else whether these
particular U.S. Attorneys (or others) should be designated for removal. In
response to our questions, Sampson stated that the “problems” he learned
about between April and September with respect to McKay and Charlton
involved specific conduct rather than overall performance. According to
Sampson, McKay had “crossed swords” with the Deputy Attorney General’s
Office over McKay’s endorsement of an information-sharing program, an issue
we discuss in more detail in the chapter on McKay’s removal. In Charlton’s
case, Sampson said he knew from his experience in the Attorney General’s
Office, as well as from talking to McNulty and Elston, that Charlton had policy
conflicts with the Deputy Attorney General’s Office over a death penalty case
and the tape recording of FBI interrogations. Sampson said that in both of
these matters Charlton was viewed as a maverick attempting to impose his will
on significant issues that had national implications. We discuss in greater
detail the reasons proffered for the removal of Charlton and McKay in Chapters
Eight and Nine of this report, and our analysis of Sampson’s stated reasons.

       With regard to Miller, Sampson told us he did not recall why he placed
Miller’s name on the list, but said he had a general sense that Miller was
mediocre. He described Bogden in the same way but offered no specifics to
support his assessment of Bogden’s performance. Sampson said he placed
Marino on the list because he perceived that Marino was not leading his office.

       Sampson told us that the process of compiling the list of U.S. Attorneys
for removal was neither “scientific” nor “formal.” Sampson said that when he
discussed U.S. Attorneys with Department officials over time, he had a current
chart listing all the names of the U.S. Attorneys on which he made notes.
Sampson said he would keep the annotated chart until it became “dog-eared”
and then he would throw it away and start over. Sampson said he “sometimes”
made notes during his conversations with other Department officials, and at
other times he either made no notes or made them “after the fact.” Sampson
also told us that a lot of the information he gleaned from others he “just


                                      38
remembered.” Sampson described the discussions he had with Department
officials about U.S. Attorneys as “largely an oral exercise” with “some really
rough tracking.”

              2.     The Removal Plan Takes Shape

      On September 17, 2006, Miers replied to Sampson’s September 13 e-mail
by stating, “I have not forgotten I need to follow up.” Sampson told us that
sometime in late September 2006, he discussed with Gonzales the status of his
proposal to remove several U.S. Attorneys. At that time, according to both
Gonzales and Sampson, Gonzales directed Sampson to coordinate with
Department leadership, particularly McNulty, to make sure there was
consensus on the recommendations.

      Between September 13 and mid-November 2006, Sampson confined his
discussions about the removal list to a small group: Goodling, Gonzales,
McNulty, and Elston. According to Sampson, he did not discuss the
September 13 list with Margolis or consult with him on later drafts of the list,
even though Sampson described Margolis to congressional investigators as a
“repository” of knowledge on U.S. Attorneys’ performance, and even though
Sampson had sought Margolis’s views in the early stages of the process.
Sampson stated that he “assumed” that McNulty would consult Margolis and
that Sampson “relied” on McNulty and Elston to do so. However, neither
McNulty nor Elston did, and Sampson never sought to verify his assumption or
contact Margolis directly about the removal list. 38

      In late September or early October 2006, Sampson told Elston that the
U.S. Attorney removal plan was moving forward. According to Elston,
Sampson asked him to consult with McNulty and put together a list of U.S.
Attorneys they would recommend for removal. Elston said he mentioned the
concept to McNulty, and, according to Elston, McNulty was not “wild about it.”
Elston said he took no other action on Sampson’s request because of the press
of other business, as well as his and McNulty’s lack of enthusiasm for the plan.

      On October 17, Sampson, having heard nothing from the Deputy
Attorney General’s Office, sent Elston an e-mail in which he forwarded his e-
mail exchanges with Miers from September 13 and 17, including Sampson’s
proposal for “pushing out” certain U.S. Attorneys. In his e-mail to Elston,
Sampson referred him to “my list of U.S. Attorneys we should consider
replacing” and asked if his list “match[ed] up” with Elston’s list. Although
Elston told us that he had created no such list, Elston replied by e-mail to


       38 McNulty told us that he did not recall discussing the removal issue with Margolis but
said he “believed” at the time that Margolis was “aware” of the issue, and McNulty said he
made the “assumption” that Sampson had consulted him.




                                              39
Sampson’s question about whether their lists matched: “Very much so – I may
have a few additions when I get back to my desk.”

       After receiving the October 17 e-mail from Sampson, Elston discussed
Sampson’s September 13 U.S. Attorney removal list with McNulty. According
to Elston, McNulty’s instinct from the “get-go” was that this was a “bad idea”
and McNulty asked Elston, “Are we really doing this[?].”

       McNulty told congressional investigators that even though he was aware
of concerns about each of the U.S. Attorneys targeted for removal, he was “a
softie” when it came to addressing such concerns with the U.S. Attorneys
directly, and said the removal plan was contrary to the way he would have
addressed such concerns. However, McNulty said he did not express his
reservations about the removal plan to Sampson or the Attorney General.

       McNulty told us that when he heard from Elston about the removal plan
at this point, he was surprised because he had no inkling about such a
removal plan. However, he did not object to the plan. McNulty said that the
way Elston presented the plan to him was along the lines of “here is the idea,
and here are the names of individuals identified [for removal].” McNulty said
he understood from Elston that he was supposed to object if he did not agree
that certain names belonged on the list.

      When we asked McNulty why he did not object to the plan, he told us
that he was “predominantly deferential” because he viewed Sampson and the
White House as “the personnel people [who] . . . decide who comes and who
goes.” He also said he thought the removals were going to be handled in a way
that would not harm the U.S. Attorneys who were being asked to resign.

      Elston told us that he informed Sampson a few days after the October 17
e-mail that he had no additions to the list.

      G.       Elston’s List – November 1, 2006

      However, we found that on November 1, 2006, Elston sent a short e-mail
to Sampson with the subject line “Other Possibilities”:

      These have been suggested to me by others:

           •   Chris Christie [D. N.J.];

           •   Colm Connelly [D. Del.];

           •   Mary Beth Buchanan [W.D. Pa.];

           •   John Brownlee [W.D. Va.];



                                           40
         •   Max Wood [M.D. Ga.].

The e-mail named no sources and offered no reasons or explanations for the
U.S. Attorneys on Elston’s list.

       Elston told us that his November 1 e-mail was not a response to
Sampson’s earlier request that he and McNulty prepare a list of U.S. Attorneys
they recommended for removal. Rather, according to Elston, shortly after
Elston told Sampson that he and McNulty had no additions for Sampson’s
October 17 list, Sampson asked him to check with others in the Department to
see if there were other U.S. Attorney “problems.” The idea, as Elston said he
understood it from Sampson, was that there were only 2 years left in the
Administration and if changes in the U.S. Attorney ranks were to be made, this
was the time to do it. Elston said that in keeping with that premise, Sampson
wanted to ensure that all U.S. Attorney issues had been identified so a decision
on all U.S. Attorney removals could be made at one time.

      Elston said that after receiving Sampson’s request, he spoke with four or
five Department officials, primarily in the Tax and Criminal Divisions (including
Criminal Division Assistant Attorney General Alice Fisher and her Chief of Staff
Matthew Friedrich), to ascertain whether there were any issues with U.S.
Attorneys that needed to be explored. Elston said the names on his November
1 e-mail were the product of his “casual inquiries” on Sampson’s behalf.

      Elston also told us that his November 1 list did not constitute his
recommendation that the named individuals be removed from office. He
maintained in his interview with us that he did not believe any of the five U.S.
Attorneys warranted removal. Elston said that he also expressed that view to
Sampson when they discussed his November 1 list. He said that Sampson
concurred that the five should not be added to the list. When we asked Elston
why he furnished the names to Sampson if he did not endorse their removal,
he said that he was simply doing what Sampson asked him to do: find out if
other Department managers had issues with any U.S. Attorneys and report
back on the results. According to Elston, his November 1 e-mail was not
intended or taken as a recommendation for action.

        Sampson recalled things differently. According to Sampson, he had
asked Elston to “vet” the October 17 list with McNulty to see if any names
should be added to or removed from the list. Sampson told us he did not know
where Elston had obtained the additional names, but he understood Elston’s
list to be names that McNulty and Elston, and maybe Margolis, wanted to add
to the list. Sampson said he believed that he and Elston discussed the basis
for including the five additional names, and Sampson said he did not agree
that any of the names on Elston’s list should be included on the removal list.
Sampson said that the process was that if one person thought that someone



                                       41
should not be on the list, that name would not be included. Consequently,
none of the names on Elston’s list were added to Sampson’s removal list.

      Both McNulty and Margolis told us that Elston did not consult with them
about the names on his November 1 list, and both said they did not know how
Elston obtained the names.

      H.       The Fifth List – November 7, 2006

       From September 13 until November 7, no changes appeared on
Sampson’s proposed U.S. Attorney removal list. On the evening of November 7,
Sampson sent an e-mail to Elston (with a copy to McNulty) asking him to
review the “Plan for Replacing Certain United States Attorneys” proposed in the
e-mail and to provide comments as soon as possible so that he could forward
the plan to Miers that evening. The e-mail included a list of nine U.S.
Attorneys proposed for removal. The first eight names on Sampson’s November
7 list were identical to the names on his September 13 and October 17 lists:

           •   Paul Charlton (D. Ariz.);

           •   Carol C. Lam (S.D. Cal.);

           •   Greg Miller (N.D. Fla.);

           •   Paula Silsby (D. Me.);

           •   Margaret M. Chiara (W.D. Mich);

           •   Daniel Bogden (D. Nev.);

           •   Thomas Marino (M.D. Pa.); and

           •   John McKay (W.D. Wash.).

       One additional name was added that had not appeared on any previous
list prepared by Sampson: David Iglesias (D. N.M.).

               1.    Iglesias is Added to the List

       The removal of David Iglesias as U.S. Attorney in the District of New
Mexico was perhaps the most controversial removal of all the U.S. Attorneys.
As discussed in more detail in Chapter Six, it appears that Sampson put
Iglesias on the removal list sometime after October 17 based largely on
complaints about Iglesias’s handling of certain voter fraud and public
corruption investigations in New Mexico. Sampson said he knew that New
Mexico Republican Senator Pete Domenici had called Attorney General
Gonzales on three separate occasions in 2005 and 2006 to register complaints


                                           42
about Iglesias’s performance. Sampson said that in October 2006 he also
learned from either Elston or McNulty that Senator Domenici had also called
McNulty to complain that Iglesias was “not up to the job.”

      According to McNulty, Senator Domenici had criticized Iglesias’s
handling of public corruption cases and said that Iglesias was “in over his
head.” McNulty told us that Domenici’s assertiveness and tone during the
conversation were “striking.” McNulty said that his conversation with
Domenici was the type he would have discussed with Gonzales and Sampson,
but he said he could not specifically recall doing so.

       When we asked if the October 2006 complaint from Senator Domenici to
McNulty was the most important factor in putting Iglesias’s name on the list,
Sampson said: “I don’t remember putting his name on a list. I did it . . . but I
don’t remember doing it and I don’t remember there being a specific reason for
doing it . . . I knew these things generally about Mr. Iglesias and I apparently
put his name on the list.”

       As we discuss in detail in Chapter Six, Iglesias revealed in early March
2007 that Senator Domenici had called him in late October 2006 and asked
whether a specific public corruption case involving Democrats would be
indicted before the upcoming November election. Iglesias later expressed
publicly his belief that his removal was precipitated by Senator Domenici’s
disappointment with the negative answer Iglesias gave him. At the same time,
Iglesias revealed that New Mexico Representative Heather Wilson had also
called him in October to inquire about the status of public corruption cases.
We also learned that officials and party activists of the New Mexico Republican
Party complained to White House and Department officials about Iglesias
beginning in 2004. The complaints centered around Iglesias’s handling of voter
fraud allegations and politically sensitive public corruption cases.

            2.    The Removal Plan

      In his November 7 e-mail, Sampson included a written plan for removing
the nine U.S. Attorneys that contained four steps to be carried out over several
days:

      Step 1 – Battle was to call each of the named U.S. Attorneys and
      follow a prepared script seeking their resignations based on the
      Administration’s desire to “give someone else the opportunity to
      serve” as U.S. Attorney for the remaining 2 years of the
      Administration.
      Step 2 – While Battle was calling the designated U.S. Attorneys,
      Deputy White House Counsel Kelley (or the appropriate Associate
      Counsel) would call the senior Republican Senators from the
      affected states to inform them of the Administration’s decision “to


                                       43
       give someone else the opportunity to serve” as U.S. Attorney for
       what remained of the President’s second term. Sampson stated
       parenthetically that, if pushed, Kelley would explain that “the
       determination is based on a thorough review of the U.S. Attorney’s
       performance.” The senators would also be told that they would be
       looked to for recommendations for the new U.S. Attorney.
       Step 3 – During November and December 2006, the Department,
       working with the White House Counsel, would evaluate and select
       candidates for either appointment as Interim U.S. Attorneys
       pursuant to the Attorney General’s new statutory authority to
       confer indefinite appointments, or as Acting U.S. Attorneys (for a
       210-day period) under a separate statutory provision. 39
       Step 4 – The Department and White House Counsel would proceed
       on an expedited basis to identify, evaluate, and recommend
       candidates for the permanent U.S. Attorney position (Presidentially
       appointed, Senate-confirmed) in each district.

       Step 3 in the plan called for the Department and the White House to
identify Interim U.S. Attorney candidates. According to Sampson, however, at
the time the plan was activated there were no replacement candidates “in the
queue.” We found no evidence that as of November 7, Sampson or other
Department officials had identified any candidates to replace the U.S. Attorneys
who were to be removed. Nevertheless, the Department and the White House
decided to proceed with the plan to remove the listed U.S. Attorneys.

              3.      Reaction to the November 7 List and Plan

      On the evening of November 7, Elston replied to Sampson’s e-mail,
stating:

       This looks fine to me – trying to get Paul’s [McNulty] input as well.
       The only concern I have is that Paul just visited NDFla and asked
       that Greg Miller not be on the list. He does seem to be running
       things well (if somewhat independent of DOJ).
Sampson in turn responded that he would “wait for the DAG’s input (but no
later than tomorrow).”

       Sometime between November 7 and November 15, Sampson said he took
Miller’s name off the list. He said he did so because “the Deputy [Attorney
General] asked that it be taken off.”

       39  The statutory provision, 5 U.S.C. § 3345(a)(1), allows the President to appoint the
First Assistant United States Attorney as Acting U.S. Attorney for a 210-day period or until a
nominee is confirmed, whichever is sooner.




                                              44
      McNulty told us that at the time he had recently visited Miller’s district
and did not perceive any problems with Miller’s performance.

       Following the dissemination of the November 7 list, Sampson deleted two
other names – Silsby and Marino – from the list, but not because anyone
disagreed with the removal recommendation. According to Sampson, Silsby’s
and Marino’s names were removed because both were believed to have the
political support of their home-state Senators and the judgment was made not
to risk a fight with the Senators over the proposed removals. According to
Sampson, McNulty said that Marino had been recommended by Senator Arlen
Specter from Pennsylvania. Sampson told us that they did not ask for Marino’s
resignation because of the risk of a “brush fire” with the Senator. McNulty
stated that he had no recollection of any such conversation with Sampson
about Marino and doubted that the conversation took place.

      With respect to Silsby, Sampson told us that the Maine Senators (Collins
and Snowe) supported Silsby and the judgment was made “not to fight the
Senators on that.” The other U.S. Attorneys on Sampson’s November 7 list,
including Iglesias, remained on the list.

       According to McNulty and Elston, discussions with Sampson concerning
the remaining names on the November 7 removal list – Charlton, Lam, Chiara,
Bogden, McKay, and Iglesias – focused on whether there was a good reason to
take them off rather than on the reason they were on the list in the first place.
McNulty said that the U.S. Attorney removal process was an initiative of the
Office of the Attorney General related to a “personnel matter” that was within
the province of the Attorney General, and that he therefore deferred to the
Office of the Attorney General in the matter. McNulty also told us that
Sampson did not ask for his permission to engage in the removal effort or seek
his approval. McNulty said the only role he was asked to play was to review
the list for the purpose of removing any name with which he disagreed.
McNulty said his reaction to the November 7 plan was a mixture of surprise
that it was being implemented and deference to the personnel prerogatives of
the Attorney General’s Office. However, he also said he felt that the plan was
reasonable in that each U.S. Attorney would be given ample time to make the
transition to private life.

      Both McNulty and Elston said they were familiar with the issues
surrounding Lam, Chiara, Charlton, and McKay, and neither argued in favor of
taking any of those four off the list. With respect to Bogden, McNulty said that
he knew little about Bogden’s performance but was told by Sampson that he
was on the list because he was not an effective or dynamic leader in an
important district with “special challenges.” 40 McNulty told us that he

       40 In the Department’s after-the-fact justifications for Bogden’s removal, which we
discuss below, Las Vegas was characterized as an important district with special challenges
(Cont’d.)


                                             45
accepted Sampson’s explanation without looking into Bogden’s record because
of his “deferential approach” toward the Attorney General’s Office in this
matter.

      Later, however, after the final removal decisions had been made on
November 27, McNulty told Sampson he was “skittish” about Bogden’s removal
because, as a career federal prosecutor, Bogden’s transition to the private
sector might pose financial hardships on his family. McNulty said that after
Sampson told him that Bogden was single, he dropped the issue.

      McNulty also did not object to Iglesias’s inclusion on the removal list. As
we discuss in more detail in Chapter Six, McNulty said he was unaware of any
problems with Iglesias until he received a telephone call on October 4 from
Senator Domenici complaining about Iglesias’s handling of public corruption
cases and said that he was “in over his head.” McNulty told us that when he
saw Iglesias’s name on the list, he associated it with Senator Domenici’s
complaint and viewed the decision to remove Iglesias as falling in the “category
of personnel,” meaning something that was outside his “bailiwick.”

      Elston said he did not object to the removal of either Bogden or Iglesias
because he viewed both as “mediocre” U.S. Attorneys. He also said he believed
at the time that Iglesias’s name was placed on the list because of Senator
Domenici’s call to McNulty in October 2006. He said he was not given any
other reason at the time for Iglesias’s name being added at such a late date.
He stated that “everybody” deemed the Senator’s call to McNulty as significant.

       I.       The Sixth List – November 15, 2006

                1.    The Revised Plan

       On November 15, Sampson sent an e-mail to Miers and Kelley attaching
a revised list of U.S. Attorneys recommended for removal. The list of U.S.
Attorneys proposed for removal in the revised list had been pared to six:

            •   Paul Charlton (D. Ariz.);

            •   Carol C. Lam (S.D. Cal.);

            •   Margaret M. Chiara (W.D. Mich.);

            •   Daniel Bogden (D. Nev.);



because it was a target for terrorism and had significant levels of violent crime and organized
crime.




                                               46
         •   John McKay (W.D. Wash.); and
         •   David Iglesias (D. N.M.).
The names of Miller, Marino, and Silsby were deleted from the list.

       Sampson’s November 15 e-mail also contained an implementation plan
that was similar to, but more elaborate than, the draft that accompanied
Sampson’s November 7 e-mail to Elston. In particular, the second step, that
Kelley would call home state “political leads,” no longer contained the language
that, if pushed, Kelley should explain that the determination was based on a
“thorough review” of the U.S. Attorney’s performance. Instead, a new Step 3
was added entitled “Prepare to Withstand Political Upheaval,” which addressed
the subject of resisting pressure from U.S. Attorneys and their political allies to
keep their jobs. According to this new Step 3, the response to any such
appeals would be that the Administration had decided to seek the resignations
in order to give someone else a chance to serve.

       Sampson’s redrafted plan still had EOUSA Director Battle making the
calls to the U.S. Attorneys using talking points Sampson provided. The plan
also still called for the Department and White House Counsel’s Office to
evaluate and select interim candidates and to carry out the selection,
nomination, and appointment of U.S. Attorneys pursuant to the regular
nomination and Senate confirmation process.

      In his e-mail to Miers and Kelley on November 15, Sampson stated that
he had consulted with the Deputy Attorney General but had not yet informed
others “who would need to be brought into the loop,” including Acting Associate
Attorney General Mercer, Battle, and the Chair of the Attorney General’s
Advisory Committee, U.S. Attorney for the Western District of Texas Johnny
Sutton. Sampson also stated in the e-mail that everyone must be “steeled to
withstand any political upheaval that might result” and that if the White House
and the Department were to “start caving to complaining U.S. Attorneys or
Senators, then we shouldn’t do it – it’ll be more trouble than it is worth.”

       Sampson’s plan called for implementation of the removals that same
week, although he informed Miers and Kelley that he would wait for the “green
light” from them. He also proposed to “circulate” the plan within the
Department and asked that Miers and Kelley circulate it to “Karl’s [Rove] shop.”
Once that was done, according to Sampson’s e-mail, Kelley would make the
“political lead calls” and Battle would call the U.S. Attorneys slated for removal.

             2.    Execution of the Plan is Postponed

      For logistical reasons, the plan could not be carried out on the schedule
Sampson suggested. After receiving Sampson’s November 15 e-mail, Miers
responded that she would have to determine if the plan required the President’s
attention. She stated that the President had left town the night before and she


                                        47
would not be able to get his approval “for some time.” Sampson responded by
asking Miers who would determine if the President needed to be apprised of the
removal plan. Sampson told us that he never received an answer to that
question, and the documents provided to us by the White House do not
mention this issue. As stated previously, Miers and Kelley from the White
House Counsel’s Office refused our requests for interviews.

       According to Margolis, in approximately mid-November Sampson either
showed him a list, or read from a list, of six U.S. Attorneys that Sampson
indicated were to be removed. Margolis told us that he was struck more by the
names Sampson did not mention than the ones he did. In their discussions of
the topic of underperforming U.S. Attorneys, Margolis had consistently named
Ryan and Lampton, but neither name was mentioned by Sampson on this
occasion. Margolis told us that he asked Sampson why Ryan and Lampton
were not on the list and Sampson responded that he would look into it.
Margolis told us that he did not think to question Sampson about five of the six
U.S. Attorneys who were on Sampson’s list and did not know why they were on
the list. He told us he was more focused on the names that were omitted and
assumed Sampson had valid reasons for five of the six he named.

            3.     The November 27, 2006, Meeting in the Attorney
                   General’s Office

      In the meantime, Sampson scheduled a meeting for November 27 to
discuss the U.S. Attorney removal plan with Department officials. On the
morning of November 27, a meeting was held in the Attorney General’s
conference room attended by Gonzales, Sampson, McNulty, Goodling, Principal
Associate Deputy Attorney General William Moschella, and Battle. Elston was
unavailable and Margolis was not invited.

       Of those in attendance, Moschella was the only one who had not
previously been involved in some aspect of the removal plan. Moschella had
been appointed the Principal Associate Deputy Attorney General in early
October 2006 after serving for several years as the Assistant Attorney General
for the Department’s Office of Legislative Affairs. He told us that at the time of
the meeting he was generally aware of a matter involving removal of some U.S.
Attorneys, but had not been involved in the details.

      The 3-page document discussed in Sampson’s November 15 e-mail
containing the list of six U.S. Attorneys proposed for removal and the steps to
be taken to implement the plan was distributed to the attendees at the
meeting. By all accounts, there was little discussion about the reasons the
named U.S. Attorneys had been designated for removal or whether anyone
objected to the plan as a whole or as it applied to any particular U.S. Attorney.
For example, Battle told us it was clear to him that the decision to remove the




                                        48
named U.S. Attorneys had already been made, and the discussion at the
November 27 meeting focused on implementing the plan.

                  a.    Gonzales’s Recollection of the November 27
                        Meeting

      In our interview of him, Gonzales told us he did not recall the November
27 meeting at which he approved the plan to request the resignations of six
U.S. Attorneys. However, everyone else in attendance at the meeting stated
that Gonzales was present, that he received a copy of the 3-page
implementation plan, and that he gave his approval to proceed.

      While Gonzales told us he had no independent recollection of the
November 27 meeting, he described the process and his role in it. In contrast
to Sampson’s description of himself as the “aggregator,” Gonzales described
himself as a delegator. He said he had given broad instructions to Sampson to
evaluate the current ranks of U.S. Attorneys to determine, in concert with
senior Department officials and the White House, where improvements could
be made. Gonzales told us that it was not in his “nature to micromanage.” He
said he surrounded himself with “good people” to whom he delegated
responsibility with the “expectation that they’re going to do their jobs.”

      According to Gonzales, while Sampson had provided him “periodic” and
“very brief updates” about the U.S. Attorney removal plan over time, they had
no discussion of “substance” in terms of the reasons underlying the removals,
and Gonzales said he did not know who was “going on and off the list” until
November 27 at the earliest. Gonzales also stated that while it was his decision
to approve the removals, he made it based on the recommendation of Sampson
and the consensus of Department leaders. However, he said that he never
asked Sampson or anyone else how they arrived at their recommendations or
why each U.S. Attorney warranted removal. Instead, he said he “assumed”
that Sampson engaged in an evaluation process, that the recommendations
were based on performance issues, and that they reflected the consensus of
senior management in the Department.

                  b.    McNulty Asks to Add Ryan to the List

      According to McNulty, the November 27 meeting was “much shorter than
an hour,” and during the session the group discussed the logistics of the
removal plan. In her congressional testimony, Goodling said that at the
meeting the group discussed whether the U.S. Attorneys should be told in
person that they were being removed, but the concern was that the U.S.
Attorneys would then want to “litigate the reasons” for their removal. Goodling
said that someone pointed out that because the U.S. Attorneys served at the
pleasure of the President it was not necessary to tell them the reasons why
they were being removed.



                                      49
      According to Sampson, although the original plan called for Battle to call
the U.S. Attorneys who were being removed, the group also discussed whether
McNulty should notify the U.S. Attorneys in person while they were in
Washington, D.C., for a Project Safe Childhood conference. Sampson told us
that McNulty said he did not want to make the calls because it would have
made him uncomfortable to do so. McNulty told us that it would have been
unpleasant to tell the U.S. Attorneys they were being removed, but he said he
did not recall “being asked to [notify the U.S. Attorneys], or that being part of
any plan.” McNulty said that having Battle make the calls was consistent with
the notion of keeping the removals in a “lower key.”

       Sampson said the group ultimately decided that Battle would make the
calls, and they would execute the plan after December 6, when the U.S.
Attorneys would be back in their districts after attending the conference.

      Sampson said that shortly after the meeting adjourned, McNulty told him
that Ryan should be included on the list based on the results of the recently
concluded Special EARS review. Sampson said he did not recall doing so, but
said he would have spoken to Gonzales soon after the meeting and received his
approval to add Ryan’s name to the list, bringing the total number of U.S.
Attorneys designated for removal to seven.

                  c.     White House Approval of the Removal Plan

       In the week following the November 27 meeting, Sampson awaited word
from the White House Counsel’s Office on whether the Department was
authorized to proceed with the removal plan. Sampson told us that around
this time he gave Deputy White House Counsel Kelley a “thumbnail” sketch of
the reasons each U.S. Attorney was placed on the list. Sampson stated that
Kelley raised no objection.

      According to Sampson, the White House “was deferential to the
Department of Justice’s view on who should be on this list” throughout the
process. Sampson claimed that aside from Miers’s question about U.S.
Attorney Yang and her request to find a spot for Griffin, no one at the White
House had asked that a name be placed on or taken off the list at any time.

      J.    The Seventh and Final List – December 4, 2006

            1.    The White House Approves the Plan

      On Monday, December 4, 2006, Kelley sent an e-mail to Sampson (with a
copy to Miers) stating: “We’re a go for the US Atty plan. WH leg, political, and
communications have signed off and acknowledged that we have to be
committed to following through once the pressure comes.”




                                       50
       Sampson responded: “Great. We would like to execute this on
Thursday, December 7 (all the U.S. Attorneys are in town for our Project Safe
Childhood conference until Wednesday; we want to wait until they are back
home and dispersed, to reduce chatter).” Sampson also reiterated who had
responsibility for making the political calls: the Attorney General was to call
Senator Kyl of Arizona regarding Charlton; either Miers or Kelley was to call
Senator Ensign of Nevada regarding Bogden and Senator Domenici of New
Mexico regarding Iglesias; and the White House Office of Political Affairs was to
call the political “leads” for California (regarding Lam and Ryan), Michigan
(regarding Chiara), and Washington (regarding McKay), all of which had no
Republican Senator.

        Later during the evening of December 4, Sampson e-mailed to Kelley and
Miers a revised removal plan that included Ryan’s name. Minutes later,
Sampson e-mailed the revised plan to McNulty, Battle, Goodling, Moschella,
and Elston, together with the e-mail string containing Kelley’s authorization to
proceed. In his forwarding e-mail to the Department officials, Sampson
suggested that AGAC Chair Sutton and Acting Associate Attorney General
Mercer be notified. The e-mail also suggested noon on Thursday, December 7
for Battle to begin making his calls to the seven U.S. Attorneys who would be
removed. That evening, Sampson also sent an e-mail to Scott Jennings and
Jane Cherry, who worked in the White House Office of Political Affairs, with a
list of current U.S. Attorney vacancies and a list of “vacancies expected shortly”
– a list that included the seven U.S. Attorneys who would be called on
December 7. Sampson wrote that the purpose of the e-mail was to notify the
White House that “we need to get some names generated pronto.”

      The next day, December 5, Sampson e-mailed the revised plan to Mercer
so that he would be prepared in the event he received calls from “the field.”
From the context of the e-mail, it is clear that Mercer had not been involved in
the process until then. Sampson informed Mercer that the “Administration has
decided to ask some underperforming USAs to move on (you’ll remember I beat
back a much broader – like across the board – plan that [the White House
Counsel’s Office] was pushing after 2004.).”

            2.     The Implementation of the Removal Plan

      On the morning of December 7, 2006, the plan was executed. Gonzales
and Sampson called Senator Kyl regarding Charlton’s removal. The Senators
and political leads for the other U.S. Attorneys were also notified in accordance
with the plan’s instructions.

      During the afternoon of December 7, Battle called each of the seven U.S.
Attorneys on the removal list and essentially followed the script from




                                       51
Sampson’s plan in asking each to resign. 41 Battle said he told each U.S.
Attorney that the Administration thanked them for their service but was
looking to move in another direction and give somebody else a chance to serve
and was therefore asking them to submit their resignation by the end of
January 2007. According to Battle, some of the U.S. Attorneys asked why, and
some asked for more time. Battle said that none of the U.S. Attorneys got
upset with him, but he had the sense for some that, given their strong
personalities, there would be some “push back.” However, Battle said that all
agreed to comply with the request to resign.

       As we discuss below, as well as in the chapters assessing the reasons
proffered for the removal of each U.S. Attorney, the U.S. Attorneys said they
were surprised and stunned at the calls asking them to resign. They told us,
and e-mails and other documents drafted in the aftermath of Battle’s December
7 calls confirm, that they were confused about why they were asked to resign
and upset that they were given so little notice before the deadline for their
resignations.


II.    The Aftermath of the Removals

      In the months following the December 7, 2006, calls to the U.S.
Attorneys, various concerns arose relating to their removals, including how the
process of selecting U.S. Attorneys for removal was conducted, whether the
removals of specific U.S. Attorneys were sought for an improper political
purpose, and whether the Department intended to bypass Senate confirmation
by using the Attorney General’s authority to make indefinite Interim U.S.
Attorney appointments of their replacements.

       41 Step 2 of the plan provided talking points for Battle to use when informing the U.S.
Attorneys that they were expected to resign:
            •   What are your plans with regard to continued service as U.S. Attorney?
            •   The Administration is grateful for your service as U.S. Attorney but has
                determined to give someone else the opportunity to serve as U.S. Attorney in
                your district for the final two years of the Administration.
            •   We will work with you to make sure there is a smooth transition, but intend to
                have a new Acting or Interim U.S. Attorney in place by January 31, 2007.
        Step 3 provided that if the U.S. Attorneys questioned the decision and wanted to know
who decided, Battle’s response was to be: “The Administration made the determination to seek
the resignations (not any specific person at the White House or the Department of Justice.)” If
asked “why me,” the response was: “The Administration is grateful for your service, but wants
to give someone else a chance to serve in your district.” If the U.S. Attorney said that s/he
needed more time, the response was to be: “The decision is to have a new Acting or Interim
U.S. Attorney in place by January 31, 2007 (granting “extensions” will hinder the process of
getting a new U.S. Attorney in place and giving that person the opportunity to serve for a full
two years.)”




                                               52
       The subsequent revelation that seven U.S. Attorneys had been asked to
resign on the same day prompted congressional inquiries into the removals.
On January 16, 2007, Senator Dianne Feinstein stated on the Senate floor that
seven U.S. Attorneys had been removed without cause. Media reports also
disclosed that two of the U.S. Attorneys had recently investigated high-profile
public corruption investigations at the time of their removals – Lam had
successfully prosecuted California Republican Congressman Duke
Cunningham, and Charlton was engaged in an ongoing investigation of Arizona
Republican Congressman Rick Renzi. In addition, the media reported
allegations that McKay was removed for failing to pursue voter fraud
complaints following the closely contested Washington State gubernatorial
election in November 2004.

      In a press conference on February 28, 2007, Iglesias disclosed that he
had received telephone calls in October 2006 from two unidentified members of
Congress who pressured him to indict a public corruption case in New Mexico
before the November 2006 election. In his congressional appearance on
March 6, Iglesias stated that the two members of Congress who allegedly
pressured him were New Mexico Senator Pete Domenici and Representative
Heather Wilson. Iglesias testified that he believed he was removed as U.S.
Attorney because he failed to respond to their desire to rush public corruption
prosecutions.

     We discuss in the following sections the immediate reaction to the
removals, the Department’s response, and the events that followed.

      A.    The U.S. Attorneys’ Initial Reactions

       After receiving the calls from Battle on December 7, Lam, Bogden,
Iglesias, and Chiara contacted McNulty. Lam, Bogden, and Iglesias sought
more time before submitting their resignations while Chiara sought McNulty’s
assistance in finding her a new position. McNulty did not immediately respond
to these requests.

       Lam also contacted Margolis to inquire whether she had been asked to
resign because she was the subject of any misconduct investigation. Margolis
told us that he first became aware that the removal plan had actually been
implemented when he received the call from Lam. He said that when the plan
had not been carried out by mid-November 2006, he assumed it was not going
to go forward. Margolis told Lam that her removal was not because of any
misconduct issue.

       According to e-mail records, Ryan complained to his contacts at the
White House about his treatment. Charlton and Bogden contacted Mercer and
asked why they were being removed. However, consistent with Sampson’s
plan, the U.S. Attorneys were given no explanation for the firings other than



                                      53
that the Administration wanted to give someone else a chance to serve. Most of
the U.S. Attorneys also sought more time before they had to resign.

       On December 14, McKay sent an e-mail to all U.S. Attorneys announcing
that he planned to resign the following month. On December 15, Cummins
sent an e-mail to all U.S. Attorneys announcing that he would resign the
following week.

      B.    Concern that the Department Intended to Bypass Senate
            Confirmation for Replacement U.S. Attorneys

       On December 15, 2006, Attorney General Gonzales and Arkansas
Senator Mark Pryor discussed Gonzales’s intention to appoint Tim Griffin as
the Interim U.S. Attorney to replace Cummins. Gonzales informed Senator
Pryor that he intended to appoint Griffin to be Interim U.S. Attorney, and
Gonzales expressed his hope that Senator Pryor would be able to support
Griffin for the nomination after he had had a chance to serve. According to
Gonzales, Senator Pryor said he would not commit to supporting Griffin’s
nomination at that time.

      In an e-mail dated December 19, 2006, Sampson drafted talking points
to respond to inquiries about the circumstances of Griffin’s appointment. The
talking points included the statements that when a U.S. Attorney vacancy
arises, someone needs to be appointed, even if on an interim basis to fill the
vacancy, that Griffin was appointed Interim U.S. Attorney because of the timing
of Cummins’s resignation, and that the Department “hoped that there would be
a U.S. Attorney who had been nominated and confirmed in every district.”
Sampson sent a copy of this e-mail to Associate White House Counsel Chris
Oprison.

       In response, Oprison told Sampson he had discussed with Miers the
Department’s response to press inquiries about the circumstances of Griffin’s
appointment. Oprison expressed concern to Sampson about problems with
Griffin’s nomination, noting that it seemed that the Arkansas Senators would
neither commit to supporting Griffin nor say they would not support him.
Oprison also stated that since the Attorney General’s appointment of Griffin
was of unlimited duration pursuant to the Patriot Act amendment, the talking
points used to respond to press inquires about Griffin should “avoid referring
to [Griffin] as ‘interim.’”

       Sampson immediately responded in an e-mail, “I think we should gum
this to death . . . .” Sampson suggested in his e-mail that because Griffin’s
interim appointment would be technically of unlimited duration, if either of the
Democratic Senators from Arkansas would not agree to support Griffin’s
nomination once he was nominated and after he had served as Interim for a
period of time, the Department could “run out the clock” to the end of the Bush



                                      54
Administration while appearing to act in good faith by asking the Senators for
recommendations, interviewing other candidates, and pledging to “desire” a
Senate confirmed U.S. Attorney. Sampson also stated in the e-mail, “our guy is
in there so the status quo is good for us.” Sampson added, “I’m not 100
percent sure that Tim was the guy on which to test drive this authority, but
know that getting him appointed was important to Harriet, Karl, etc.”

      When confronted with this e-mail during his congressional testimony,
Sampson characterized his discussion of using the interim appointment
authority to bypass Senate confirmation as a “bad idea at the staff level.” He
told us that the idea was confined to Griffin. Sampson also said Attorney
General Gonzales never seriously considered it. 42 Gonzales told us he could
not recall whether he discussed this issue with Sampson at that time, but said
he thought it was a “dumb idea.”

      C.       The Department Begins to Publicly Respond to Concerns
               About the Removals

      Shortly after McKay and Cummins announced their resignations, most of
the U.S. Attorneys began discussing their removals among themselves. By
December 17, several of the U.S. Attorneys speculated among themselves that
the Department had asked 10 to 12 U.S. Attorneys to resign.

      In mid-to-late December 2006, the news media began to report on the
removals. For example, on December 19, in an online story entitled U.S.
Attorney Ousted, a New Mexico television station reported that Iglesias had
been asked to resign. During the same period, other news outlets began
asking the Department for comment on the removals of U.S. Attorneys.

               1.      Articles About Cummins’s Removal

      In late December 2006, various articles began appearing in the Arkansas
media regarding Cummins’s resignation, Griffin’s appointment as Interim U.S.
Attorney, and the concerns of Arkansas Senators Pryor and Blanche Lincoln
that the Department intended to circumvent the confirmation process by
appointing Griffin as Interim U.S. Attorney.

       On December 27, 2006, the Arkansas Democrat Gazette published an
interview with Griffin discussing the Senators’ concerns. The article included a
statement from Department of Justice spokesman Brian Roehrkasse that
Griffin’s appointment was meant to be temporary until Griffin could go through
the formal nomination and confirmation process, and that the Department had
asked Senator Pryor to meet with Griffin. According to the article, Roehrkasse


      42   This matter is discussed in detail in Chapter Five.




                                               55
stated, “often, the first assistant U.S. Attorney in the affected district will serve
as the acting U.S. Attorney until the formal nomination process begins for a
replacement,” but added “the first assistant is on maternity leave.” Roehrkasse
also stated, “Tim was chosen because of his significant experience working as a
federal prosecutor in both Arkansas and in the Justice Department in
Washington, D.C.”

      Cummins told us that when he read the article he began to have doubts
about the Department’s credibility. Cummins said that Griffin had been
working in the U.S. Attorney’s Office since September 2006, and Cummins had
known since June of that year that Griffin was going to take his place.
Cummins also said that the maternity leave status of his First Assistant was
not a reason for Griffin’s appointment as the Interim U.S. Attorney because the
Department and the White House had always intended that Griffin would
replace Cummins as either Interim or permanent U.S. Attorney, or both.

       We found no indication that anyone ever considered at the time
appointing the office’s First Assistant as Interim U.S. Attorney. The First
Assistant (now the U.S. Attorney) told us that she had no discussions with
anyone at the Department about the possibility of serving as Interim U.S.
Attorney when Cummins resigned. In addition, our review of e-mails between
Sampson and Goodling demonstrates that as early as August 2006 they
discussed using the Attorney General’s appointment authority to appoint
Griffin Interim U.S. Attorney because it was unclear whether Senator Pryor
would support Griffin’s nomination.

      We sought to determine where Roehrkasse obtained the information that
implied that the First Assistant’s maternity leave was a reason for Griffin’s
appointment as the Interim U.S. Attorney. When we interviewed Roehrkasse,
he told us that he thought he had received the information from Goodling and
Sampson. Roehrkasse said he recalled receiving a question from a reporter
concerning the circumstances of Griffin’s appointment, and either Sampson,
Goodling, or both gave Roehrkasse three talking points: (1) Griffin was chosen
because he had significant experience; (2) the President might nominate him to
be the permanent U.S. Attorney; and (3) the First Assistant was not available
because she was either going on maternity leave or was on maternity leave.

      Sampson told us that the information about the First Assistant’s
maternity leave did not come from him but likely came from Goodling.
Sampson said he recalled being present when Goodling briefed the Attorney
General before his December 15 telephone conversation with Pryor, and that
Goodling mentioned to Gonzales, in response to one of Gonzales’s questions
during the briefing about what was happening in the district, that the First
Assistant was on maternity leave. Sampson acknowledged that Griffin was
slated to be appointed Interim U.S. Attorney all along. However, he told us he



                                         56
did not consider correcting any misimpression that Goodling had created
because he did not believe the circumstances called for him to do so. 43

      We asked Roehrkasse whether he thought the statements he made
concerning the First Assistant being unable to serve because she was on
maternity leave were misleading. Roehrkasse said that he saw no problem with
the statements. He said the quote about the First Assistant being on maternity
leave was a fact and that it was not as if he had said “[the first assistant] was
passed over [for consideration as Interim U.S. Attorney] because she was on
maternity leave.” Roehrkasse also said that when he spoke with the reporter
he believed, based on what Goodling and Sampson had told him, that one of
the reasons the First Assistant was not chosen to be Interim U.S. Attorney was
that she was on maternity leave.

      Roehrkasse said he did not learn that the article may have contained
inaccuracies until after the controversy over the U.S. Attorney removals
erupted. However, we found no evidence that the Department attempted to
correct Roehrkasse’s misleading information at the time.

                2.     Senators Express Concern About the Removals

       By early January 2007, other news articles reported that several U.S.
Attorneys across the country had been asked to resign. On January 9, 2007,
Senators Patrick Leahy and Dianne Feinstein wrote Attorney General Gonzales
a letter expressing concern that the Department had removed the U.S.
Attorneys without cause and intended to “appoint interim replacements and
potentially avoid the Senate confirmation process.” The two Senators
requested information “regarding all instances in which you have exercised the
authority to appoint an interim United States Attorney.” The Senators also
requested information “on whether any efforts have been made to ask or
encourage the former or current U.S. Attorneys to resign their position.”

       On January 11, Senator Pryor sent Attorney General Gonzales a letter
expressing concern that the Administration had forced Cummins to resign in
order to appoint Griffin. Pryor stated that he was “astonished” that the
Department’s liaison had told his staff and the media that the First Assistant
was not chosen to be the Interim U.S. Attorney because she was on maternity
leave, and he expressed concern that Griffin’s appointment was intended to
bypass the Senate confirmation process. 44 The same day, Senators Feinstein,

       43   As noted above, Goodling refused to be interviewed by us.
       44 In a January 31, 2007, letter responding to Senator Pryor signed by Richard

Hertling, Acting Assistant Attorney General for the Office of Legislative Affairs, the Department
wrote that it was committed to having a Presidentially appointed, Senate-confirmed U.S.
Attorney in every district. The Department denied that the Administration sought to avoid the
Senate confirmation process, and said that Griffin was chosen to serve as Interim U.S. Attorney
(Cont’d.)


                                               57
Leahy, and Pryor introduced legislation designed to restore the authority of
federal district courts to appoint Interim U.S. Attorneys when 120 days had
passed without a Senate-confirmed U.S. Attorney.

       As noted previously, we found no evidence that the Department had
candidates waiting to be nominated to replace the U.S. Attorneys at the time of
their removals. McNulty told us that in late December to mid-January, when
the individual U.S. Attorneys had begun announcing their resignations,
Sampson consulted with him about possible replacements. McNulty said
Sampson assured him that the replacement process was being conducted “by
the book,” and that the Department was initially attempting to select the First
Assistants to act as Interim U.S. Attorneys.

      McNulty said Sampson also told him that the Department was working
with the Senators or state commissions to obtain the names of individuals who
would go through the nomination process. Our review of e-mail records and
other documents confirmed that the Department was in fact working with state
congressional delegations and others to obtain the names of individuals to
undergo the nomination and confirmation process for U.S. Attorneys.

              3.      Sampson’s January 2007 Briefing of Senate Judiciary
                      Committee Staff

       In response to the January 9, 2007, letter from Senators Feinstein and
Leahy alleging that the Department had asked several U.S. Attorneys to resign
“without cause” and that the plan was to appoint “interim replacements” and
avoid the Senate confirmation process, Sampson called Senator Feinstein’s
chief counsel, Jennifer Duck, to set up a meeting with her and Senator Leahy’s
chief counsel, Bruce Cohen. The purpose of the meeting, according to
Sampson, was to “mollify” the Senators that the Department’s actions were not
sinister.

       We found that Sampson’s representations at the meeting with Senate
staff exacerbated rather than mollified the skepticism concerning the U.S.
Attorney removals. On January 12, 2007, Sampson and Richard Hertling, who
had recently assumed the position of Acting Assistant Attorney General for the
Office of Legislative Affairs, met with Duck and Cohen in Cohen’s office.
According to Hertling, who said he knew little about the controversy at the
time, Sampson attempted to impress upon Duck and Cohen that the removals
were the result of a process the Department had been engaged in for some time
of identifying the U.S. Attorneys who were the “weakest performers,” and that


because of his qualifications, not because the First Assistant was on maternity leave. The
Department’s letter did not address Senator Pryor’s assertion that the Administration had
forced Cummins to resign so that Griffin could be appointed.




                                              58
the process included a review of EARS evaluations. Hertling told us that one of
the things that stuck in his mind about the meeting was Sampson’s “specific
reference” to EARS evaluations as a basis for the selection of these particular
U.S. Attorneys for termination. Hertling said he left the meeting with the
“distinct impression” that EARS evaluations were central to the process
Sampson had described.

       We also interviewed Duck and Cohen. According to Duck, Sampson said
all the U.S. Attorneys who were removed were “underperformers.” When Duck
asked how they were evaluated, Sampson first said the decisions were based
on EARS evaluations, but later said that while some were based on EARS
evaluations, some were based on other factors such as caseload,
responsiveness to policy initiatives, resource allocation, and the like.

      Cohen similarly stated that Sampson stressed that the Department
decided to remove certain “underperforming” U.S. Attorneys and that the
removals were based on periodic performance reviews – EARS evaluations.
According to Cohen, Sampson initially spoke of the value of EARS reports in
determining which U.S. Attorneys fell into the “underperforming” category, but
he backtracked when Duck pressed him for copies of the EARS reports for each
removed U.S. Attorney.

       Cohen and Duck also told us that Sampson emphasized that all the
affected U.S. Attorneys were removed on the basis of performance, including
Cummins, whose replacement by Griffin had triggered the Senate’s interest in
the first place. According to Duck, Sampson said that Cummins was
considered an “underperforming” U.S. Attorney, and the Attorney General had
appointed Griffin Interim U.S. Attorney upon Cummins’s resignation because
the First Assistant was on maternity leave and not available to accept the
appointment.

       Sampson told us that he mentioned EARS evaluations only in the context
of explaining Ryan’s removal, which he considered of particular interest to
Senator Feinstein. Sampson said he doubted that he would have suggested
that the other removals were based on EARS evaluations because “that
wouldn’t have been accurate.” In addition, Sampson said that he could not
recall whether he told Duck and Cohen that Cummins was removed based on
performance issues like the other seven. Sampson acknowledged, however,
that he viewed Cummins’s removal as performance-based at the time. When
we asked Sampson if he distinguished Cummins from the other removed U.S.
Attorneys, as McNulty did later, on the ground that someone in the




                                      59
Administration (Miers) had asked that Griffin be given the opportunity to serve,
Sampson replied: “I don’t remember what I said.” 45

       Sampson’s meeting with Duck and Cohen did not satisfy the Senate
Judiciary Committee members that the U.S. Attorneys were removed for
legitimate reasons. On January 16, Senator Feinstein criticized the removals
in a statement on the Senate floor, asserting that several U.S. Attorneys were
forced to resign so that the Attorney General could appoint interim
replacements pursuant to the Patriot Act amendment and thereby avoid Senate
confirmation. Feinstein noted that she had learned that seven U.S. Attorneys
had been forced to resign without cause, including two from California, “as well
as U.S. Attorneys from New Mexico, Nevada, Arkansas, Texas, Washington, and
Arizona.” 46

      On January 25, Senator Charles Schumer issued a notice scheduling a
hearing for early February 2007 on whether the Department was “politicizing”
the “hiring and firing” of U.S. Attorneys. The previous day, Hertling had
contacted Preet Bharara, Senator Schumer’s Chief Counsel on the Senate
Judiciary Committee, and arranged a meeting on January 26 for Sampson and
Hertling to brief Bharara on the U.S. Attorney issue.

       According to Bharara, Sampson’s theme at the briefing on January 26
was that Senator Feinstein’s denunciation of the removals on the Senate floor
on January 16 was misguided. Bharara told us that Sampson maintained that
none of the U.S. Attorneys were removed in order to stymie any investigation.
Bharara said that Sampson stressed that, to the contrary, there were
performance reasons for each removal, and while Sampson declined to go into
specifics at this meeting, he assured Bharara that if he knew all the details he
would agree with the Department’s decisions. Although Bharara told us he did
not have a specific recollection of what Sampson said about the role EARS
evaluations played in the removal decisions, Bharara recalled that he was eager
to obtain the EARS reports after hearing what Sampson said. Bharara also
said he was surprised when he later heard McNulty say at a closed briefing
with members of the Senate Judiciary Committee and staff on February 14 that
EARS evaluations did not reflect problems with most of the U.S. Attorneys who
were forced to resign.




       45 Sampson said that Cohen pressed him on the total number of U.S. Attorneys who

were removed. Sampson assured him that the number was seven, plus Cummins. It was
revealed during subsequent congressional hearings that Todd Graves was also asked to resign
in January 2006 under circumstances similar to the other eight U.S. Attorneys.
       46   Feinstein included Texas by mistake.




                                              60
      D.    Elston’s Telephone Calls to Charlton and McKay on
            January 17, 2007

      Attorney General Gonzales was scheduled to testify at an oversight
hearing before the Senate Judiciary Committee on January 18, 2007. During
January 2007, senior Department staff participated in several sessions to
prepare the Attorney General for his upcoming congressional testimony.

      Elston told us that during one session held on January 17, 2007, the day
before Gonzales’s congressional testimony, the group discussed how Gonzales
would handle questions about the U.S. Attorney removals. As noted above, by
mid-January the media was raising questions about the resignations of
Cummins, McKay, Iglesias, Lam, Bogden, Ryan, and Charlton.

      Elston said that after the January 17 preparation session, McNulty
expressed concern for the U.S. Attorneys about whom members of Congress
and the media were speculating, but who had not publicly confirmed they had
been asked to resign. Elston told us that, at the time, the Department’s goal
was to allow the U.S. Attorneys to leave on their own terms and announce their
resignations in accordance with their own sense of appropriate timing.

       According to Elston, McNulty was concerned that the U.S. Attorneys
might be worried about what the Attorney General was going to say about them
in his testimony at the January 18 hearing. Elston said the concern was that
they might publicly announce that the Department had sought their
resignations, in anticipation that the Attorney General would say they had
been removed. Elston said that on January 17 McNulty asked him to call
McKay, Charlton, and Ryan to let them know that the Attorney General was
not going to testify about who had been removed or about the basis for the
removals.

       We were unable to determine why Elston was chosen to call only McKay,
Charlton, and Ryan. Elston said he believed that someone else was assigned to
call the others. However, we did not find any indication that anyone else in the
Department was asked to place calls to the other U.S. Attorneys prior to the
Attorney General’s testimony.

      On January 17, Elston called McKay at 5:30 p.m., and an e-mail reflects
that Elston called Charlton shortly afterwards. Elston said he did not speak to
Ryan, but instead spoke to Ryan’s First Assistant. Elston said he gave McKay,
Charlton, and Ryan’s First Assistant the same message: that when the




                                      61
Attorney General testified, he would not name the U.S. Attorneys or discuss the
reasons for their removal. 47

              1.      Telephone Call to McKay

       According to McKay, Elston began the telephone conversation by saying
that people in the Department were surprised they had not seen any
“‘incendiary comments’” from McKay in the press. McKay said that Elston then
stated that the Attorney General would make only general statements in his
Senate testimony about the resignations, would not state that the U.S.
Attorneys had been fired, and would not disclose the reasons for their removal.

      McKay told us that because Elston began the conversation by saying that
the Department had noticed McKay had not discussed his removal in the
press, and then said that the Attorney General also would not discuss why
McKay had resigned, McKay believed that Elston was offering him a quid pro
quo: “You keep quiet, we won’t say anything.”

      According to McKay, Elston then asked if he had any response. McKay
said he replied that he would stay quiet not because the Attorney General
would not disclose why he had been fired, but rather because he believed it
was his duty to do so. McKay said he acknowledged to Elston that he served at
the pleasure of the President and said he would not say anything that reflected
poorly on the President or on the Department.

       McKay’s contemporaneous notes of this conversation indicate that he
also told Elston that his reputation in Seattle was secure and would not be
tarnished by anything the Department said about him. McKay’s notes further
state: “I wasn’t given an explanation and I never asked why.” McKay’s notes
also state that Elston was clearly trying to do “damage control” in the wake of
media reports about the removals.

       When McKay later testified before the Senate Judiciary Committee on
March 6, he did not discuss his conversation with Elston. However, in
subsequent written testimony to the House Judiciary Committee and during
our interview, McKay said he felt that Elston was attempting to threaten him
into remaining silent about his removal. 48

        47 Elston’s conversation with Ryan’s First Assistant is reflected in a January 18, 2007,

e-mail Elston sent to Sampson, Moschella, Goodling, Mercer, and McNulty. In that e-mail,
Elston stated that he gave the First Assistant his “talkers for McKay and Charlton and asked
her to convey them to Kevin [Ryan].” Elston also stated that the First Assistant told him that
Ryan was not returning phone calls and was trying to “stay out of this.”
       48 In their written statements to the House Judiciary Subcommittee following their
testimony on March 6, 2007, both Charlton and McKay stated that they felt that Elston was
attempting to persuade them to remain silent about their dismissal.



                                               62
            2.    Telephone Call to Charlton

      Charlton told us that he viewed Elston’s phone call to him as a veiled
threat. Charlton said that Elston told him that the Department’s senior
management had noticed that he had not been commenting in the media, and
he wanted Charlton to know that the Attorney General was not going to
comment on why Charlton had been asked to resign.

      Charlton said he had not been told the reasons for his resignation but
thought it was because of his disagreement with Department leaders
concerning a death penalty case. He told us that he thought at the time of
Elston’s call that he did not care if the Attorney General disclosed to Congress
that he resigned over a disagreement about the death penalty. Charlton said
he interpreted Elston’s call as a warning that the Attorney General would make
comments about Charlton unless he remained quiet.

       Charlton said he spoke to McKay shortly after his conversation with
Elston, and after the two compared notes Charlton concluded that at the very
least Elston was trying to intimidate them.

            3.    Elston’s Description of the Telephone Calls

      When we interviewed Elston, he denied calling McKay and Charlton in an
attempt to threaten them to remain silent, and denied offering them a quid pro
quo in exchange for their silence. Elston noted that he made the calls at the
close of business on the day before the Attorney General’s testimony, and that
he did not see the Attorney General prior to his testimony. Elston also said
that no one asked him to report back as to whether Charlton and McKay were
going to continue to remain silent about their removals and he did not do so.

       During our interview, we showed Elston the notes McKay took shortly
after their telephone conversation. Elston said he did not recall McKay making
several of the statements contained in his notes, and Elston said he believed
that some statements in the notes were “a fabrication.” Elston stated that if
the conversation had gone the way it was described in McKay’s notes, it would
have caused him such alarm that he would have reported to McNulty that
there was a problem with McKay.

        We found no evidence that Elston discussed with anyone his
conversations with McKay and Charlton until March 2007, when Cummins
testified before Congress about a similar conversation, discussed below, that
Cummins had with Elston on February 20, 2007.




                                      63
      E.    Attorney General Gonzales’s January 18, 2007, Testimony
            Before the Senate Judiciary Committee

      On January 18, 2007, Attorney General Gonzales testified before the
Senate Judiciary Committee. In response to questioning from Senator
Feinstein concerning why several U.S. Attorneys were asked to resign, Gonzales
stated:

      [S]ome people should view [the resignations] as a sign of good
      management. What we do is we make an evaluation about the
      performance of individuals. And I have a responsibility to the
      people in your district that we have the best possible people in
      these positions.
      And that’s the reason why changes sometimes have to be made,
      although there are a number of reasons why changes get made and
      why people leave on their own.

       Gonzales also testified, “I am fully committed, as the Administration’s
fully committed, to ensure that, with respect to every United States Attorney
position in this country, we will have a Presidentially appointed, Senate-
confirmed United States Attorney.” At the hearing, Gonzales declined to
disclose publicly the number of U.S. Attorneys who had been removed or the
reasons for their removal, stating that he did not want to get into a public
discussion of personnel decisions. Gonzales asserted that he would never
make a change in a U.S. Attorney position for political reasons, or if it would
jeopardize an ongoing serious investigation.

      One week later, the Senate Judiciary Committee scheduled a hearing for
February 6, 2007, on “Preserving Prosecutorial Independence: Is the
Department of Justice Politicizing the Hiring and Firing of U.S. Attorneys?”
Sampson and Hertling recommended that McNulty testify at the hearing
because the Department needed someone senior to validate the removal
decisions and McNulty was perceived to have a good relationship with Senator
Schumer, who was scheduled to chair the hearing.

      McNulty told us that even though he was not responsible for initiating
the removals of the U.S. Attorneys, he agreed to testify as a favor to Sampson
because he recognized the need for a top-level Department official to respond to
the Senate’s concerns. McNulty told us that the Department believed that in
addition to the U.S. Attorney removals, the Senate was concerned about the
Attorney General’s authority to make indefinite Interim U.S. Attorney
appointments.




                                       64
       F.     Cummins Seeks Advice from Elston

      In early February, Cummins notified Elston that members of Senator
Pryor’s and Senator Schumer’s staffs had asked Cummins to testify at the
upcoming Senate Judiciary Committee hearing. Elston informed Sampson that
Cummins had declined the invitation but told Elston that if the Department
wanted him to testify he would explain the circumstances of his resignation
and would also strongly support the Attorney General’s authority to appoint
Interim U.S. Attorneys for an indefinite period.

      Sampson responded that he did not think Cummins should testify
because he would have to provide truthful answers to questions such as
whether he had resigned voluntarily, whether he was asked to resign because
he was underperforming, and whether Griffin had discussed becoming U.S.
Attorney and avoiding Senate confirmation. According to Elston and
Cummins, Elston told Cummins that the Department would take no position
on whether he should testify.

       G.     McNulty’s February 6, 2007, Testimony Before the Senate
              Judiciary Committee

              1.     McNulty’s Use of the Term “Performance-Related” to
                     Describe the Removals

      By the time McNulty testified on February 6, the media had reported that
Lam, Ryan, McKay, Iglesias, Bogden, and Charlton had been told to resign on
the same day.
      At the hearing, McNulty stated that with the exception of Cummins, the
resignations of the U.S. Attorneys were requested for “performance-related”
reasons. With respect to Cummins, McNulty testified that he was removed in
order to give Griffin a chance to serve as U.S. Attorney.
      McNulty used the term “performance-related” at least five times in his
testimony to describe why the U.S. Attorneys (other than Cummins) were
removed. In response to a question about whether the White House was
involved in the removals, McNulty testified that he was “sure [that the White
House] was consulted before [the Department made] the phone calls” to the
U.S. Attorneys because the U.S. Attorneys were presidential appointees.
During his testimony, McNulty declined to publicly disclose how many U.S.
Attorneys were asked to resign or their identities. Instead, he agreed to
privately brief members of the Senate Judiciary Committee about the removals,
and this closed briefing was scheduled for February 14, 2007. 49

       49 McNulty’s written statement to the Senate Judiciary Committee focused on
reassuring the Committee that the Department did not intend to bypass the Senate
confirmation process when it appointed Interim U.S. Attorneys under 28 U.S.C. § 546. The
(Cont’d.)


                                            65
       According to McNulty, he had two preparation sessions before his
February 6 testimony with a group of senior Department employees. According
to calendar entries, the group consisted of Sampson, Goodling, Moschella,
Elston, Battle, Office of Public Affairs Director Tasia Scolinos, Roehrkasse,
EOUSA Principal Deputy Director John Nowacki, Hertling, and two other
employees from the Office of Legislative Affairs. Moschella told us that he and
Goodling were present only for a short time at one of the sessions because they
were involved with the rollout of the Department’s budget on one of those days.

      McNulty said that the group decided that he would generally say no more
than what the Attorney General had said in his January 18 testimony, which
was that the Department had considered the U.S. Attorneys’ performance
before deciding to remove them. McNulty said the group unanimously agreed
that McNulty would say that the removals were “performance-related,” but
would not get into specifics about the U.S. Attorneys’ performance. McNulty
said that the group did not discuss the specific reasons for each U.S. Attorney’s
removal during the preparation sessions.

      When we asked McNulty whether the Department officials at the
preparation sessions discussed how McNulty’s using the word “performance” to
describe the U.S. Attorneys might be received, he said they did not consider it.
McNulty told us that the term “performance-related” did not sound as negative
during the preparation sessions as the U.S. Attorneys who were removed later
perceived it. 50 McNulty said, “[i]n the end I chose that word because I ran it by
everybody, and folks felt like that was the best way to deal with it and so I went
forward using it.”

      McNulty said that the group also discussed what McNulty would say
about Cummins’s removal, because of the controversy arising out of the
Attorney General’s appointment of Griffin to be Interim U.S. Attorney. McNulty
said he told the group in his preparation sessions that he would say that
during the summer of 2006 Cummins had been asked to move on to make a
place for Griffin. 51

written statement also touched on the removals, noting that U.S. Attorneys serve at the
pleasure of the President and can be removed “for any reason or for no reason.” The statement
declared that the Department was committed to having “the best possible person” installed as
U.S. Attorney in every district. The statement also stressed that U.S. Attorneys were never
removed or encouraged to resign in an effort to retaliate for, or to interfere with or influence, a
particular investigation, criminal prosecution, or civil case.
       50 In an e-mail exchange dated March 26, 2007, between McNulty and Scolinos
describing his February 6 testimony and the preparation sessions that preceded it, McNulty
wrote, “Kyle was in full agreement with my answers . . . we all thought performance was a safe
word.”
       51 According to both McNulty and Goodling, sometime during the summer of 2006,
Goodling had briefed him about Griffin replacing Cummins as U.S. Attorney.




                                                66
      McNulty told us that he did not connect Cummins with the other
removals, and that when Goodling told him they were making an opportunity
for Griffin in the summer of 2006, the stated justification was that Cummins
had indicated he was going to move on, not that the White House wanted to
replace him with Griffin. McNulty said he also made the distinction between
Cummins’s removal and the other U.S. Attorney removals during his
preparation sessions and that no one, including Sampson, disagreed with him
or objected to his drawing that distinction.
      Handwritten notes McNulty made for his February 6 testimony reflect
that the issue of White House involvement was discussed during his
preparation sessions. His notes state: “WH personnel and counsel consulted –
POTUS appointments.” However, we found no indication that there was any
discussion of the exact timing and level of the White House’s involvement
during these preparation sessions.

              2.     Attorney General Gonzales’s Reaction to McNulty’s
                     Testimony

       Several witnesses told us that Attorney General Gonzales, who was
traveling in Buenos Aires at the time of McNulty’s February 6 hearing, was
extremely unhappy after learning through press accounts about McNulty’s
testimony. According to Roehrkasse, who was traveling with the Attorney
General, Gonzales was unhappy because he thought McNulty’s testimony that
Cummins was not removed for performance-related reasons was inaccurate.
Roehrkasse also said Gonzales expressed dismay that McNulty testified that
the other U.S. Attorneys were removed for performance-related reasons.
Sampson told us that he spoke to the Attorney General about McNulty’s
testimony and that Gonzales was upset because of the way McNulty had
characterized Cummins’s departure.

      When we asked Gonzales about McNulty’s testimony, he told us that he
was upset because he was confused, believing up to that point that Cummins
was removed because of poor performance. Gonzales said that he later
learned, likely from Sampson, that Cummins was removed to put Griffin into
the U.S. Attorney position. 52 We asked Gonzales how he could reconcile that
with the fact that he had since become aware that Sampson said he put
Cummins on the list in March 2005 and January 2006 because he thought
Cummins was an underperformer. Gonzales told us that he wondered about
that as well, but said he did not have an answer for us.

       52  Sampson’s and Gonzales’s statements on this point are inconsistent, however.
When we asked Gonzales about Cummins, he told us that he believed Sampson had corrected
his original impression and told him that Cummins was not removed for performance reasons.
However, as we note in Chapter Five, Sampson was the source for the notion that Cummins
was removed because he was an underperformer.



                                            67
       Gonzales told us that he was also unhappy because he felt that by
testifying that the U.S. Attorneys were removed for performance-related
reasons, McNulty had opened the door to a public examination of the reasons
for the removals.

       Tasia Scolinos, the Director of the Department’s Office of Public Affairs,
was present for both Gonzales’s and McNulty’s preparation sessions prior to
their Congressional testimony. She told us that Gonzales had been
consistently adamant about not wanting to say publicly that the U.S. Attorneys
were removed because of their performance, even though he implied as much
during his January testimony. Scolinos said that she understood that
Gonzales was upset about McNulty’s testimony both because of Gonzales’s
concern for the reputations of the former U.S. Attorneys, and because Gonzales
thought McNulty’s testimony about Cummins was inaccurate.

     According to McNulty, however, he and Gonzales never discussed the
matter. Gonzales said he did not recall discussing the issue with McNulty.

              3.     U.S. Attorneys’ Reaction to McNulty’s Testimony

       Several of the U.S. Attorneys who had been removed were angered by
McNulty’s February 6 testimony. They were upset in part because McNulty’s
testimony was the first time they heard they had been removed for reasons
related to their performance. For example, Bogden stated in an e-mail at the
time, “It would have been one thing if performance had been the reason and
they told us as much, however, I was told differently by Battle, Mercer, and
McNulty.” 53 In an e-mail on February 7, Iglesias forwarded to Charlton and
McKay a news article describing McNulty’s testimony with a notation “Gloves
will be coming off.”

      Shortly after McNulty’s February 6 testimony, the House Judiciary
Subcommittee contacted several of the U.S. Attorneys to invite them to testify
at an upcoming hearing into the U.S. Attorney removals, which eventually was
scheduled for March 6.

       H.     The February 8 Letter from Several Senators

     On February 8, 2007, Senators Harry Reid, Charles Schumer, Richard
Durbin, and Patty Murray sent Attorney General Gonzales a letter noting that

       53 As we discuss in Chapter Seven, Bogden said that Battle told him on December 7
only that U.S. Attorneys serve at the pleasure of the President and it was time to step down;
Mercer told him on December 8 that the Republicans had a short, 2-year window and wanted
to take advantage of it by getting future Republican Party candidates on board as U.S.
Attorneys; and McNulty told him that neither his performance nor the performance of his office
entered into the equation.




                                             68
McNulty’s testimony intensified their concerns about politicization of the hiring
and firing of U.S. Attorneys. The Senators characterized as “stunning”
McNulty’s testimony that Cummins was removed for no other reason than to
make way for Griffin. The Senators requested information regarding the timing
of the decision to appoint Griffin to replace Cummins, the identity of
individuals who lobbied on behalf of Griffin’s appointment, the disparity
between Cummins being asked to resign in June 2006 when the other U.S.
Attorneys were asked to resign in December 2006, and the role Karl Rove
played in the decision to appoint Griffin. Sampson immediately began drafting
a response that was sent on February 23, which we discuss in Section K below.

      I.    McNulty’s February 14 Closed Briefing for the Senate
            Judiciary Committee

            1.    Preparation for the Briefing

      During his February 6 testimony, McNulty had agreed to privately brief
the Senate Judiciary Committee about the basis for each U.S. Attorney’s
removal. The briefing was scheduled for February 14. McNulty told us that he
did not need much help preparing for the closed briefing because he believed
he was familiar with the reasons for each dismissal. McNulty said his own
thoughts about the fired U.S. Attorneys seemed to be a significant piece of
what would justify the removals.

       However, McNulty met with senior Department leaders sometime during
the week between February 6 and February 13 to discuss the upcoming
briefing. It is unclear who was present or exactly when they met, but e-mails
and witness testimony indicate that McNulty discussed the issues in a meeting
with Sampson, Elston, Margolis, Goodling, and Moschella prior to his February
14 briefing.

       According to McNulty, he did not ask the group what he should say
about the White House’s involvement. McNulty said he also did not ask about
the timing of the White House’s involvement in the removal of U.S. Attorneys
because he thought he knew when the process began, based on when he was
first notified about it in the fall of 2006.

      Margolis said he recalled that the topic of the White House’s involvement
came up during the preparation session. Margolis said McNulty stated that if
asked, he would say that the Department came up with a list of U.S. Attorneys
to remove and the White House was involved only to sign off on the proposal.
He said no one at the session corrected McNulty or disclosed the level of the
White House’s involvement in the removals. During our interview, Margolis
said that in hindsight he could have pointed out that the White House had
proposed firing all the U.S. Attorneys early on in the President’s second term.
However, Margolis told us that he did not believe that McNulty’s statement was



                                       69
inaccurate because he knew that the Department had assembled the list.
Margolis said he also mistakenly assumed that McNulty knew as much as he
did about the White House’s involvement.

       Sampson said that during McNulty’s preparation session they did not
specifically discuss anything about the White House’s role beyond Cummins’s
replacement with Griffin. Sampson said the focus of the preparation session
was on other subjects, such as why each of the U.S. Attorneys had been
replaced and how to respond to concerns that the Department intended to use
the interim appointment authority to evade the Senate confirmation process.

       McNulty asked Goodling for information for the briefing and gave her
guidance on the type of information he needed, such as what the various
issues were for each removed U.S. Attorney, facts about the district and the
U.S. Attorney’s term, and information about the EARS evaluations for each
district. According to witnesses and documents, Goodling made handwritten
notes of what the participants said during the preparation session concerning
the basis for each of the removals, and she and Nowacki put that information
into a typed chart for McNulty to use during the congressional briefing. 54

      Goodling’s notes indicate that the group discussed what McNulty should
say about each removed U.S. Attorney. In a category entitled “Leadership
Assessment” on the chart Goodling created, she listed parts of what the group
discussed that ostensibly served as justification for each U.S. Attorney’s
removal. The notes and the chart, which was drafted on February 12, 2007,
appear to be the first time that the Department actually listed the specific
reasons alleged to be the basis for each removal.


       54  Goodling, the only person other than Sampson involved in the preparation session
who knew the extent and the history of the White House’s involvement in the U.S. Attorney
removals initiative, did not discuss the issue in her immunized testimony before the House
Judiciary Committee beyond her opening statement that she became aware of the initiative in
2005. Goodling also stated in her testimony that she believed McNulty had greater knowledge
than he expressed in his testimony about the history of the White House’s involvement because
she had briefed him about Griffin during the summer of 2006. However, on June 21, 2007, in
testimony before the House Subcommittee on the Judiciary, McNulty said that while he was
aware in the summer of 2006 that Griffin was going to replace Cummins, he was not aware
that Griffin came to the Department’s attention through the White House. McNulty stated that
while he had known for months that “Cummins was asked to move over so that Mr. Griffin
would have a chance . . . ” he did not know exactly how Griffin came to the Department’s
attention, and he also noted that in Goodling’s testimony before Congress, she said she was
not particularly aware of how Griffin came to the Department’s attention. McNulty said, “I just
didn’t know the specifics of how he came to be recommended to us. We later learned that Ms.
Miers contacted Kyle Sampson, and that’s the – the way.” As previously noted, Goodling
declined our request for an interview, so we were not able to question her concerning McNulty’s
statement about his knowledge of the White House’s involvement in the removal of the U.S.
Attorneys.




                                              70
            2.    McNulty’s Briefing for the Senate Judiciary Committee

      On February 14, 2007, McNulty briefed members of the Senate Judiciary
Committee in a closed session concerning the reasons for the removals.
Moschella, Hertling, and Nancy Scott-Finan of the Department’s Office of
Legislative Affairs were also present from the Department. Goodling was also
supposed to attend the briefing, but in her Congressional testimony, she said
McNulty instructed her to remain outside the room in order to discourage the
Senators from asking questions about the White House’s role in the removals.
McNulty said he did not recall instructing Goodling to remain outside, but he
said he was concerned that Goodling’s presence would make the removal
process seem more “political” given the fact that Goodling’s position at the
Department was uniquely associated with the Department’s political
appointments.

      The briefing was not transcribed, although Scott-Finan took notes.
According to those notes, McNulty began the briefing by stating that the U.S.
Attorneys had not been told the reasons for their removal, and he requested
that the briefing remain confidential. McNulty also said that some of the issues
with certain U.S. Attorneys predated his time at the Department. McNulty
stressed at the briefing that the Department did not have candidates outside of
the U.S. Attorneys’ Offices waiting to be appointed Interim U.S. Attorneys.

      According to Hertling, Senator Schumer asked McNulty if the
Department would share the EARS evaluations with the Judiciary Committee
because Sampson had referenced them as something that the Department’s
senior management had considered as part of the review process. Scott-
Finan’s notes indicate that McNulty said that the EARS evaluations were
mostly positive, there were no misconduct issues underlying the removals, and
that the EARS evaluations were designed to review office management rather
than how the U.S. Attorneys dealt with Main Justice.

      According to Scott-Finan’s notes, McNulty stated that he had been
consulted about the process of identifying U.S. Attorneys about whom the
Department had serious questions and was considering the possibility of
asking them to resign. McNulty stated that the process began within the
Department in September or October 2006. McNulty also stated that the
Department had sent the removal list to the White House Counsel’s Office in
October 2006 and asked if they had any objection to the names, and they
voiced no objections. McNulty then described the specific reasons for each U.S.
Attorney’s removal.

       With respect to the reasons for individual removals, Scott-Finan’s notes
indicate that McNulty said the following about the U.S. Attorneys at the closed
briefing:




                                      71
            •   Bogden lacked energy and leadership, and was “good on guns but
                not good on obscenity cases.”
            •   McKay was “enthusiastic but temperamental,” had made promises
                that the Department could not support regarding information
                sharing, and was resistant to Department leadership.
            •   Lam’s statistics for gun prosecutions placed her close to the
                bottom of all the U.S. Attorneys’ offices, and the Department had
                also discussed with Lam her poor record on immigration cases.
                McNulty acknowledged that no one followed up to see if she had
                changed her handling of gun and immigration cases before she
                was asked to resign.
            •   Ryan’s office was the subject of a special EARS evaluation because
                the Department was concerned about his failures as a manager.
            •   Charlton was asked to resign because of his insubordination in
                resisting the Department’s “way of doing business” in a death
                penalty case and his poor judgment in attempting to establish a
                rule that the FBI should tape-record interrogations.
            •   Iglesias was underperforming, was an absentee landlord who was
                “physically away a fair amount,” and the Department had received
                congressional complaints about him. 55
            •   Another U.S. Attorney [Chiara] was removed because of serious
                morale issues in the office and a loss of confidence in her
                leadership. 56
            •   Cummins was not removed for performance reasons, and the
                Department had always intended to send Griffin through the
                nomination process.

       Scott-Finan’s notes reflect that McNulty was asked several follow-up
questions regarding Cummins. In response to a question concerning why the
First Assistant, who was on maternity leave, was passed over for the Interim
U.S. Attorney position, McNulty said that she was not passed over and that
“Griffin was our guy all along.” McNulty said that Griffin’s name came up in
the spring of 2006 as a replacement for Cummins, who had said publicly that
he was thinking of moving on. Senator Schumer asked how it happened that

         55 As discussed in more detail in Chapter Six of this report concerning Iglesias’s

removal, McNulty told us he purposely did not mention specific complaints from Senator
Domenici during the briefing because he did not want to put the Senator “in a bad light or a
difficult position.”
       56 E-mail records show that McNulty did not mention Chiara by name because she had
not yet announced her resignation publicly and he was trying to find a position for her in the
Department.




                                              72
Griffin was recommended to replace Cummins, and McNulty responded that
Harriet Miers had called Sampson to determine whether the Department could
find a place for Griffin. Senator Schumer asked McNulty whether Karl Rove
was the instigator of Griffin’s replacement of Cummins. McNulty responded
that he “wouldn’t put it that way” and said that it was rare for the White House
to make U.S. Attorney recommendations without getting the names from home
state members of Congress or other elected political officials.

       McNulty’s statement during the closed briefing that Miers intervened on
behalf of Griffin’s appointment appeared in a New York Times article on
February 15, the day after the briefing. That same day, Associate White House
Counsel Oprison sent an e-mail to Goodling asking her about the statement
attributed to McNulty. Oprison told us that he sent the e-mail because he did
not know that Miers had asked Sampson if the Department could find a place
for Griffin. Oprison said he could not recall whether Goodling was able to
supply any information about Miers’s involvement in finding a position for
Griffin.

      Oprison said that when he discussed the New York Times article with
Deputy White House Counsel Kelley later that morning, Kelley seemed as
surprised as Oprison, and Oprison said Kelley’s reaction led him to believe that
the statement about Miers’s involvement was inaccurate. However, Oprison
said he did not recall any further discussion about Miers’s involvement in the
appointment of Griffin.

      J.    Elston’s Alleged Threat to Cummins

            1.    Cummins’s Quote in The Washington Post

      According to Cummins, several of the removed U.S. Attorneys learned
about the content of McNulty’s closed briefing from various Senate staffers
shortly after the briefing.

       On February 18, 2007, a Washington Post article stated that the removed
U.S. Attorneys were enraged by McNulty’s hearing testimony and comments at
the closed briefing, and felt betrayed because they had stayed silent about their
removals. The article also noted that nearly all of the removed U.S. Attorneys
had positive job evaluations, contrary to McNulty’s public statements that they
were dismissed for “poor performance.” Cummins was quoted in the
newspaper article as stating that Justice Department officials had “crossed a
line” by publicly criticizing the performance of the U.S. Attorneys. The article
quoted Cummins:

      They’re entitled to make these changes for any reason or for no
      reason or even for an idiotic reason, but if they are trying to
      suggest that people have inferior performance to hide whatever



                                       73
      their true agenda is, that is wrong. They should retract those
      statements.

       In an e-mail on February 18, Bradley Schlozman, at the time the Interim
U.S. Attorney for the Western District of Missouri, forwarded a copy of the
Washington Post article to Elston. Schlozman’s e-mail stated, “Does Cummins
really feel it’s in his interest to bash the AG like that?! . . . His public criticisms
do not surprise me in the least. But it’s no less offensive. . . .” Later that
evening, Elston responded, “This is going to get ugly, I’m afraid.”

             2.     Elston’s Telephone Call to Cummins

                    a.    Cummins’s Account of the Telephone Call

       On February 20, 2007, Elston telephoned Cummins to discuss the
Washington Post article in which Cummins was quoted. Elston said he made
that call on his own initiative because he was upset at what Cummins was
quoted as saying in the article and thought it was inconsistent with the tone of
his and Cummins’s previous conversations. According to both Cummins and
Elston, during January and February they had had several cordial
conversations about whether Cummins should accept congressional invitations
to testify and whether Cummins would publicly support Griffin’s nomination.
Cummins said that because McNulty had testified that Cummins was not
removed for performance-related reasons but rather to give Griffin a chance to
serve, Cummins initially felt he had no problems with the Department.

       Cummins told us that initially he was hoping the Department would see
he was still “on the team” in the event a judgeship opened up in the Eastern
District of Arkansas. Cummins said that most of the removed U.S. Attorneys
had a conference call to discuss congressional invitations to testify and to
compare notes concerning their removals in light of McNulty’s testimony and
his comments at the closed briefing. Cummins said that after learning the
circumstances of their removals, he began to have concerns because he felt
that Department management had not treated the U.S. Attorneys fairly.

      Cummins said that Elston began their February 20 telephone
conversation by questioning Cummins about the quote attributed to him in the
February 18 Washington Post article. Cummins said Elston “came on strong”
at the beginning of the conversation, but when Cummins asked Elston if
Cummins’s quote was untrue, Elston backed down. According to Cummins,
Elston expressed concern that Cummins’s remarks were inconsistent with
Cummins’s previous expression of support for the Department.

      Cummins said that during their discussion, Elston described himself as
being part of a group that felt the Department had been too restrained and
should publicly explain why the U.S. Attorneys were removed. According to
Cummins, Elston said something to the effect that if the U.S. Attorneys kept


                                          74
commenting to the media about their removals, the Department would have no
choice but to publicly disclose the reasons for their removals. Cummins said
Elston implied that there was a body of information that no one had access to
concerning the U.S. Attorneys that justified their removals. Cummins told us
that Elston might have made that comment out of concern for the U.S.
Attorneys as a prediction of how the dynamics would play out. However,
Cummins said he thought Elston was clearly implying that if the U.S.
Attorneys kept causing trouble, the Department would have to reveal
embarrassing information about them to defend itself.

      Cummins told us that he believed Elston knew Cummins would pass the
message along to the other U.S. Attorneys. Cummins said he did not believe
Elston was trying to stop the U.S. Attorneys from making public comments,
but was relaying the message that if they kept talking to the media it was likely
that the Department might have to publicly reveal information concerning why
the U.S. Attorneys were removed.

                      b.     Cummins’s E-mail to Bogden, Charlton, Iglesias,
                             Lam, and McKay about the Telephone Call

       Shortly after his conversation with Elston on February 20, Cummins
sent an e-mail to Bogden, Charlton, Iglesias, Lam, and McKay describing his
conversation with Elston. Cummins informed them that the essence of
Elston’s message was that the Department believed it was taking “unnecessary
flak to avoid trashing” the U.S. Attorneys. Cummins wrote that Elston implied
that if the U.S. Attorneys continued to talk to the media or to organize behind-
the-scenes congressional pressure, the Department would be forced to offer
public criticisms of the U.S. Attorneys in order to defend its actions more fully.
Cummins wrote in the e-mail: “I was tempted to challenge him and say
something movie-like such as ‘are you threatening ME???’ but instead I kind of
shrugged it off.”

       Cummins also wrote in the e-mail that he had made it a point to tell
Elston that the U.S. Attorneys had turned down multiple invitations to testify
before Congress, and that Elston had responded that the Department would
see such testimony as a major escalation of the conflict “meriting some
unspecified retaliation.” Cummins wrote that it sounded like a threat that the
Department would make public McNulty’s closed presentation to the Senate
Judiciary Committee. Cummins noted that he did not want to overstate the
threatening undercurrent in his conversation with Elston, “but the message
was clearly there and you should be aware before you speak to the press again
if you choose to do that.” 57


       57 At a subsequent congressional hearing, Cummins testified that this conversation
was a congenial phone call and he did not directly characterize Elston’s remarks as a threat.
(Cont’d.)


                                              75
                      c.     Elston’s Account of the Telephone Call

        Elston told congressional investigators that he had called Cummins on
February 20 to discuss the statement attributed to Cummins in the
Washington Post article that the Department had crossed a line by publicly
criticizing the performance of the U.S. Attorneys who had been removed.
Elston said Cummins denied telling the reporter that the Department had
crossed a line, noting that the phrase was not in quotes, and Elston said he
took Cummins at his word. Elston said he believed he and Cummins had
developed a good rapport and the statement attributed to Cummins in the
newspaper article seemed out of character with their previous conversations,
during which Cummins had expressed his gratitude for McNulty’s public
testimony distinguishing Cummins from the other U.S. Attorneys.

       Elston said he believed the Department had made a major effort not to
publicly disclose the reasons for asking for the U.S. Attorneys’ resignations, but
the reasons had been leaked to the media within days of McNulty’s closed
briefing. Elston said that by the time he spoke with Cummins, he realized that
it would likely be necessary for the Department to disclose publicly the reasons
for the removals. Elston said he believed Cummins misinterpreted his
remarks, which he said were more along the lines of saying that it was a shame
that the reasons for the U.S. Attorneys’ removals were being discussed in the
media because it was tarnishing the Department as well as the reputations of
the individual U.S. Attorneys. Elston also asserted that it did not make sense
that he threatened Cummins when McNulty had already stated that Cummins
was in a different position than the other U.S. Attorneys. According to Elston,
the Department had no derogatory information with which to threaten
Cummins.

      Elston said he did not recall the issue of congressional testimony arising
during his February 20 conversation with Cummins. Elston said that if he and
Cummins had discussed the issue, he would have reiterated that the
Department would take no position on whether or not the U.S. Attorneys
should testify.

      Elston said he never intended to send Cummins or anybody else a
message. Elston stated that he had no reason to believe Cummins was in
contact with the other U.S. Attorneys, and he said he did not know that shortly
thereafter Cummins sent an e-mail to the other U.S. Attorneys describing their
conversation.




Rather, he said “[i]t might have been a threat, it might have been a warning; it might have been
an observation, a prediction . . . [or] friendly advice.”




                                              76
       K.      The Department’s Response to the Senators’ Letter

       As previously noted, on February 8, 2007, the Department received a
letter from Senators Reid, Schumer, Durbin, and Murray requesting
information concerning Cummins’s removal and Griffin’s appointment as his
replacement. Sampson drafted the Department’s response for Acting OLA
Assistant Attorney General Hertling’s signature, and Sampson circulated the
draft to others in the Department and the White House for comment. 58 The
letter was reviewed and edited by Associate White House Counsel Oprison and
returned to Sampson, who had the final sign-off on the language. 59

       On February 23, the Department sent its response to the Senators,
signed by Hertling. The response stated that none of the U.S. Attorneys were
removed in an attempt to influence an ongoing investigation. The letter
described why the replacement of Cummins with Griffin was appropriate, and
stated that “it was well-known, as early as December 2004, that Mr. Cummins
intended to leave the office and seek employment in the private sector.” The
letter also stated that the decision to replace Cummins with Griffin was “first
contemplated in the spring or summer of 2006, [and] the final decision to
appoint Griffin as interim U.S. Attorney was made on or about December 15,
2006, after Attorney General Gonzales had spoken to Senator Pryor.” The
letter also asserted that “The Department is not aware of Karl Rove playing any
role in the decision to appoint Mr. Griffin.”

      We found these statements to be misleading. As we fully describe in
Chapter Five of this report concerning Cummins’s removal, the statement that
it was “well known” in December 2004 that Cummins intended to leave office
was misleading. The statement concerning the timing of Griffin’s appointment
and the statement disclaiming Rove’s involvement in Griffin’s appointment
were also misleading and they did not accurately portray what Sampson knew
about those issues. 60




       58  Department officials who received a draft of the letter for review included McNulty,
Elston, Goodling, Hertling, Moschella, and Scolinos. Sampson asked Goodling to verify certain
factual assertions he had made concerning Griffin’s appointment.
        59 At the time, Oprison had been an Associate White House Counsel for 4 months and

lacked first-hand knowledge of the events at issue. In an e-mail to Sampson on February 23,
2007, Oprison attached the letter with “slight revisions,” along with the message that “Fred
[Fielding], as I, want to ensure that it is absolutely consistent with the facts and that it does
not add to the controversy surrounding this issue.”
       60On March 28, 2007, the Department wrote another letter informing Senators Leahy
and Schumer that its review of documents revealed that representations in Hertling’s
February 23 letter were inaccurate.




                                               77
      L.    Events in March 2007

            1.    March 3 Washington Post Article

       On March 3, 2007, the Washington Post published an article about the
U.S. Attorney removals that included information provided by Brian
Roehrkasse from the Department’s Office of Public Affairs and McNulty. The
article contained several misstatements: “the list of prosecutors was
assembled last fall;” the White House “did not encourage the dismissals;” and
“the seven fired prosecutors were first identified by the Department’s senior
leadership shortly before the November elections.”

       According to the article, the Department had backed away from arguing
that the decision to remove the U.S. Attorneys was “performance-related.” The
article stated that Department officials acknowledged that the removals were
undertaken primarily because the Administration was unhappy with the
prosecutors’ policy decisions.

      Later that same day, Sampson e-mailed Roehrkasse about the article and
wrote: “Great work Brian. Kudos to you and the DAG.”

       McNulty acknowledged that he talked to the two reporters who wrote the
article and said he provided the information as he knew it at the time. During
his interview with congressional investigators, McNulty stated that he did not
know for certain that the statement that the White House “did not encourage
the dismissals” was inaccurate, because the word “encourage” was a general
term. In addition, McNulty said he could not say that the statements
concerning when the list was assembled and when the Department’s “senior
leadership” identified the U.S. Attorneys who would be removed were incorrect
because that was when he first learned about the list of U.S. Attorneys to be
removed.

       Sampson also told congressional investigators that he did not think the
statements in the article were inaccurate because, in his mind, the action
phase of the project did take place in the fall of 2006. He characterized the
earlier lists as “a highly deliberative sort of thinking process.” Sampson
admitted that there was encouragement from the White House to come up with
a list of U.S. Attorneys to be fired, but he described the White House’s
involvement as “episodic.”

            2.    House and Senate Hearings

      In early February 2007, the Commercial and Administrative Law
Subcommittee of the House Judiciary Committee contacted the Department to
request that McNulty testify at an upcoming hearing concerning the Attorney
General’s authority to make interim appointments of U.S. Attorneys. McNulty
directed that Principal Associate Deputy Attorney General Moschella appear as


                                      78
the Department’s witness at the hearing and at a staff briefing to be held prior
to the hearing.

       The hearing was scheduled for March 6, 2007, and the closed staff
briefing was scheduled for March 1. On February 28, 2007, Cummins sent an
e-mail to EOUSA Director Battle informing him that the House Subcommittee
intended to subpoena Cummins and several of the other dismissed U.S.
Attorneys to testify at the March 6 hearing. Later that day, Hertling informed
Sampson, Goodling, Moschella, and Elston that the Subcommittee would
subpoena Lam, McKay, and Iglesias.

            3.     Cummins’s February 20 E-mail Surfaces

      Both the Senate Judiciary Committee and the House Judiciary
Subcommittee had scheduled hearings for March 6 on the removals of U.S.
Attorneys. Cummins, Lam, Iglesias, and McKay were scheduled to testify
before the Senate Judiciary Committee in the morning and before the House
Subcommittee in the afternoon. Moschella was scheduled to testify before the
House Subcommittee in the afternoon.

      McKay told us he was so offended by Elston’s February 20 “warning” to
Cummins that the U.S. Attorneys should not testify that he related the incident
to Senate staff when they interviewed him prior to his appearance before the
Judiciary Committee. McKay’s remarks made their way to a reporter, who
called the Department for comment before the hearing.

      E-mails show that on Sunday, March 4, Roehrkasse told Elston he
needed to speak with him about calls Elston had made in late February to
some of the U.S. Attorneys. Roehrkasse told us that Elston informed him he
did not call any of the U.S. Attorneys in February, with the exception of Chiara.
Elston noted that he had talked to McKay and Charlton prior to the Attorney
General’s congressional hearing in January to inform them that the Attorney
General was not going to mention their names or discuss their offices.

       Roehrkasse said that when he asked Elston if he had any other
conversations with any of the removed U.S. Attorneys, Elston said he had
talked to Cummins in February when Cummins asked him if the Department
had any position on whether he should accept congressional invitations to
testify. Roehrkasse said Elston denied telling Cummins he should or should
not testify, and Elston denied threatening Cummins. Roehrkasse said that
because he did not understand what the reporter was referring to, both he and
Elston called the reporter.

       According to Roehrkasse, the conversation with the reporter was very
hostile, and the reporter continued to insist that Elston had threatened
retaliation if the U.S. Attorneys kept talking publicly about their dismissals.
Roehrkasse said that the reporter refused to identify her source, and Elston


                                        79
insisted that he had no conversation with any U.S. Attorney in which he
discussed what should or should not be said about their removals. Elston also
stated to the reporter that he had talked to Cummins, but only in the context
of telling him that the Department had no opinion on whether or not he should
testify.

      Roehrkasse said that when the reporter said she was still going to write
the story, he questioned how she could do so when an official from the
Department had contradicted on the record an anonymous source’s vague
allegation of a threatening telephone conversation. Roehrkasse said he was so
upset that he called the reporter’s editor to complain, and the editor agreed to
hold the story.

       Cummins told us that a reporter contacted him on March 5 and told him
that a source had given her information about Cummins’s conversation with
Elston, and the reporter was going to write a story about it for the following
day. Cummins said that the reporter told him she had contacted the
Department earlier to ask for comment, and Roehrkasse had flatly denied that
the call between Cummins and Elston took place. According to Cummins, the
reporter told him that Roehrkasse pressured the reporter to kill the story,
calling the reporting “irresponsible.”

      Cummins said that the reporter also told him that she had talked to
Elston, who denied that the call took place. According to Cummins, the
reporter told him that Elston said Cummins was a liar and tended to
exaggerate. Cummins told us that “that did not sit well with me.” He told the
reporter about the February 20 e-mail to McKay, Lam, Iglesias, Bogden, and
Charlton describing his conversation with Elston.

      According to e-mails, toward the end of the day on March 5 the reporter
informed Roehrkasse that she was going to write the story, and Roehrkasse
told Elston he wanted to talk with him “about February 20.” Elston again
denied that he had spoken with any of the U.S. Attorneys around February 20,
with the exception of Chiara. 61 Elston wrote Roehrkasse, “All of my calls
occurred before the USA announced his/her resignation. Once the person
announced, I had no further conversations with them.”

       Roehrkasse said at that point he was unaware of Cummins’s
February 20 e-mail to the U.S. Attorneys describing his conversation with
Elston. Accordingly, Roehrkasse said he provided the reporter with the
following quote: “It is unfortunate that the press would choose to run an



      61 According to Elston, he had “many” conversations with Chiara in January and

February because she was seeking additional time before she resigned.




                                           80
allegation from an anonymous source from a conversation that never took
place.”

      The reporter’s story appeared on Tuesday, March 6 and cited interviews
with two unnamed former U.S. Attorneys. 62 The story stated that Roehrkasse
had criticized the publication for running the story. The story also noted that
while the U.S. Attorney who received the call said he regarded the tone of the
conversation as congenial and not intimidating, he had informed the other
removed U.S. Attorneys about the call and one of them had told the reporter he
considered Elston’s remarks to be a threat.

      Cummins, McKay, Lam, and Iglesias testified before the Senate Judiciary
Committee on the morning of March 6. During the testimony, Senator
Schumer asked McKay whether he had received any communication from the
Department designed to dissuade him from testifying or making public
comments. McKay referred Schumer to Cummins, who produced his
February 20 e-mail and related the story of his conversation with Elston,
adding that he did not necessarily consider Elston’s remarks to be a threat. A
Department official attending the hearing immediately faxed a copy of the e-
mail to Moschella and Elston, noting that the e-mail would likely be raised
during Moschella’s hearing before the House Judiciary Subcommittee that
afternoon.

       The Department issued a public statement that day which described
Elston’s February 20 conversation with Cummins as “private and collegial” and
stated that it was “somehow being twisted into a perceived threat by former
disgruntled employees grandstanding before Congress . . . .” The statement
also denied that Elston told any U.S. Attorneys what they should and should
not say about their dismissals. The statement further noted that “any
suggestion that such a conversation took place is ridiculous and not based on
fact.”

      When we asked Roehrkasse about the Department’s public statement
describing as “ridiculous and not based on fact” that such a conversation took
place, he told us that he still believed it was accurate. However, he said he
regretted saying that the U.S. Attorneys were “grandstanding before Congress.”
He said he could have used a different phrase than “disgruntled employees,”
but he said that at the time he thought that Cummins had taken liberties
describing his conversation with Elston. Roehrkasse said that even after he
reviewed Cummins’s e-mail he did not question Elston’s account of events
because Cummins had conceded during his Senate testimony that he did not
perceive the conversation as a threat.

      62 See Marisa Taylor, McClatchy Newspapers, U.S. Attorney Worried ‘Gloves Would

Come Off’ Over Criticism of Ouster, March 6, 2007.




                                           81
      After learning about Cummins’s statements at the hearing, Elston
immediately drafted a letter to Senator Schumer in which he noted that he was
“shocked and baffled” by Cummins’s February 20 e-mail. Elston wrote that he
did not understand how anything he told Cummins could have been construed
as a threat. Elston wrote that he never tried to suggest to Cummins what he or
the other U.S. Attorneys should or should not say about their resignations.

      As discussed above, Elston denied to us making any remarks to
Cummins that could have been construed as a threat. Elston also said it was
inconsistent for Cummins to imply that Elston’s remarks conveyed a threat,
since Cummins had consistently said how grateful he was that McNulty had
separated Cummins from the other U.S. Attorneys when McNulty testified
about the removals.

                4.     Moschella’s Testimony Before the House Judiciary
                       Subcommittee

                       a.      Preparation Sessions

       Moschella had two preparation sessions prior to his closed congressional
briefing on March 1 and his testimony on March 6 before the House Judiciary
Subcommittee. The sessions were attended by Sampson, Goodling, Nowacki,
and Roehrkasse. 63 According to Moschella, the focus of the sessions was
primarily on the various issues surrounding the Attorney General’s interim
appointment authority, which Congress was seeking to repeal at the time.

      Moschella, who had not been involved in the process leading to the
removal of the U.S. Attorneys, said he first became familiar with the reasons
underlying the U.S. Attorney removals by attending McNulty’s closed
congressional briefing. Moschella said he prepared for his testimony with the
same materials McNulty had used for his briefing. 64

                       b.      Discussion in Preparation Sessions About White
                               House Involvement

      Moschella told us that during one of his preparation sessions someone
asked what he would say if he was asked when the White House became
involved in the removals. Moschella said he answered the same way he had
heard McNulty answer the question in McNulty’s February 14 briefing before
the Senate Judiciary Committee: the White House became involved in the fall



       63   According to Elston, he was invited but did not attend these preparation sessions.
        64 Moschella asked Goodling to re-format the chart she had developed for McNulty

detailing the reasons for each U.S. Attorney’s removal to make it more user-friendly.




                                               82
of 2006, primarily to sign off on the proposal. Moschella said he could not
recall who asked the question.

      The group that prepared Moschella for his Congressional testimony
included Sampson, Goodling, Hertling, Nowacki, Scott-Finan, and
Roehrkasse. 65 He told us that although neither Sampson nor Goodling ever
affirmatively represented that the White House’s involvement with the U.S.
Attorney removals began in the fall of 2006, they should have explained that
the White House had been involved in the matter earlier. Moschella said no
one corrected his misunderstanding concerning the timing or level of the White
House’s involvement in the removals during his preparation sessions.

      Moschella also said that the timing of the origin of the removal process
was not discussed in his preparation sessions. He said he had heard McNulty
say that the process of removing U.S. Attorneys began during the fall of 2006,
and Moschella believed that to be the case until he learned differently a few
days after his testimony.

       Roehrkasse confirmed to us that the issue of the White House’s
involvement in the U.S. Attorney removals was discussed during the
preparation sessions for Moschella’s testimony. Although he said he could not
recall specifically what was said, Roehrkasse told us that Sampson and
Goodling led him and Moschella to believe that the White House’s involvement
was much less than it actually was. According to Roehrkasse, Sampson
advised Moschella about what to say about this issue, although the advice
focused on the level of the White House’s involvement rather than the timing of
its involvement. Roehrkasse said he recalled Sampson mentioning that the
White House had clearly signed off on the proposal at the end of the process.

       Sampson told us he believed that questions concerning the specific
timing of the removal process and the nature of the White House’s involvement
did not arise in the preparation sessions. He said that he was not focused on
the historical background of the process at the time. Sampson said that his
perception at the time of the preparation sessions was that the “action phase”
of the process took place in the fall of 2006. Sampson said that the
preparation sessions were focused on the salient questions at the time, which
were whether the U.S. Attorneys were removed in order to interfere with a
particular prosecution and whether the administration intended to bypass the
Senate confirmation process.




       65 Of that group, only Sampson and Goodling had full knowledge at the time

concerning the removals and the White House’s involvement in the process.




                                            83
                  c.    March 5 Meeting at the White House to Discuss
                        Moschella’s Testimony

      At this time, e-mails between Sampson and White House officials show
that the White House was concerned that the Department had not adequately
explained why the U.S. Attorney removals were justified. Until the day of
Moschella’s public testimony, which occurred on March 6, the Department had
not publicly described its reason for requesting the resignation of each U.S.
Attorney.

       On March 5, Deputy White House Counsel Kelley called a meeting with
Sampson, McNulty, Moschella, Elston, Hertling, Scolinos, Roehrkasse, and
Battle. White House Counsel Fred Fielding, Associate White House Counsel
Michael Scudder, and Karl Rove also attended the meeting. Kelley’s e-mail
stated that the purpose of the meeting was to discuss the Administration’s
position on all aspects of the U.S. Attorney removals issue, including what the
Department would say about the removals and the Attorney General’s interim
appointment authority.

       According to several witnesses, Rove came in to the meeting for only a
few minutes and then left. Battle said Rove spoke at the meeting but he could
not recall what he said. McNulty said that he could not specifically recall
either, but thought Rove said something to the effect that Moschella’s
testimony should explain why the U.S. Attorneys were removed. None of the
witnesses said they could recall specifically what Rove said at the meeting,
although all agree that the discussion generally centered on what Moschella
should say about the reasons for each U.S. Attorney’s removal.

      According to Moschella, there was significant discussion at the meeting
about whether to publicly discuss the specific reasons for the removals.
Moschella said that Attorney General Gonzales had expressed concern about
damaging the reputations of the U.S. Attorneys, and no one at the meeting
wanted to say anything derogatory about them. Moschella told us that,
nevertheless, the consensus in the meeting was that he should publicly state
the reasons for each U.S. Attorney’s removal. McNulty said the primary
concern White House officials expressed at the meeting was that because the
U.S. Attorneys were going to testify and might suggest that they were removed
for improper reasons, Moschella should specify the Department’s justification
for each U.S. Attorney’s removal.

       Sampson said that in addition to discussing what Moschella should say
in his testimony about the removals, the group discussed what Moschella
would say about the pending legislation to repeal the Attorney General’s
interim appointment authority. According to Sampson, the Department had
submitted written testimony to the White House for clearance through the




                                      84
Office of Management and Budget which said that the Administration opposed
the repeal.

      Hertling told us that the purpose of the White House meeting was to
discuss the proposed legislation as well as what Moschella would say about the
removals. Hertling said that the White House Communications Office wanted
to know what Moschella would say about the removals in order to prepare for
press inquiries resulting from his testimony. Hertling said it was not a meeting
to prepare Moschella for his testimony but was instead a briefing for the White
House about what Moschella planned to say.

      Sampson and Moschella said that the White House and the Department
also decided at the meeting that the Administration should not oppose the
repeal of the Attorney General’s authority to appoint Interim U.S. Attorneys.
According to Moschella, although the White House was “sympathetic” from a
policy standpoint to the Department’s belief that the Attorney General’s power
to appoint Interim U.S. Attorneys was justified, the White House was of the
opinion, given the bad press and the political atmosphere, that the
Administration should not oppose the repeal.

                      d.      Moschella’s Testimony

      Moschella testified before the House Judiciary Subcommittee on the
afternoon of March 6, just prior to the testimony of former U.S. Attorneys Lam,
McKay, Iglesias, Cummins, Charlton, and Bogden, who were present when
Moschella testified. 66 Moschella began his testimony by stating that each of
the U.S. Attorneys was removed “for reasons related to policy, priorities and
management – what has been broadly referred to as ‘performance-related
reasons.’” Moschella then briefly discussed the justifications for the removals.

      Moschella did not mention Chiara and Ryan by name because they were
not present at the hearing and had not publicly acknowledged that the
Department had asked them to resign along with the others. Moschella instead
stated that two unnamed U.S. Attorneys were removed because they had
problems managing their districts.

       Moschella testified that Lam was removed because her gun prosecution
numbers were “at the bottom of the list” and her immigration prosecution
numbers “didn’t stack up.” Moschella stated that the Department “had policy
differences” with McKay and was “concerned with the manner in which he went

       66  Several days prior to his hearing, Moschella provided a closed, more detailed briefing
for members and staff of the House Subcommittee, similar to the briefing McNulty had given
the Senate Judiciary Committee. According to Moschella, the briefing concluded before he had
discussed all of the U.S. Attorneys, and he finished the briefing by telephone shortly before his
public testimony.




                                               85
about advocating particular policies,” including McKay’s “advoca[cy] for a
particular [information sharing] system.”

       Moschella testified that Cummins was removed not for performance-
related reasons but to give Griffin a chance to serve. Citing the importance of
Bogden’s district of Las Vegas, Moschella said that “there was no particular
deficiency,” but there was an interest in “seeing renewed energy and renewed
vigor in that office, really taking it to the next level.” Moschella said that the
Department had the general sense that Iglesias’s district was “in need of
greater leadership,” and that Iglesias “had delegated to his first assistant the
overall running of the office.” Moschella stated that Charlton had instituted a
policy in his district, without first obtaining Department approval, that
required the FBI to tape-record interrogations, and he had refused to abide by
the Attorney General’s decision to seek the death penalty in a particular case.

      Moschella’s testimony was the first time the U.S. Attorneys heard from
the Department the alleged reasons for their removals.

       Moschella testified incorrectly that the process to remove the U.S.
Attorneys had begun in early October 2006. Moschella stated that the White
House eventually became involved in the removals, but he mistakenly implied
that it was only to sign off on the proposal because the U.S. Attorneys were
Presidential appointees. Moschella told us he based his testimony on what he
had heard McNulty say in his public testimony and during his closed briefing
before the Senate Judiciary Committee.

        Lam, Iglesias, McKay, Charlton, Cummins, and Bogden testified
immediately following Moschella. Among other things, Iglesias challenged
Moschella’s assertion that he was dismissed because the office “lacked
leadership,” and he cited statistics showing improvement in the number and
types of prosecutions and convictions in his office. Bogden said that he
resented Moschella’s implication that he was asked to step down “so new blood
could be put in” to the position. Bogden noted that he was very proud of what
his staff had accomplished during his tenure as U.S. Attorney. Charlton
testified about the irony of Moschella’s statement that he was removed because
he had implemented the taping policy in his district in February 2006, because
he had offered to resign at the time rather than to rescind the policy.

      Cummins testified that the Department “horribly mismanaged” the U.S.
Attorney removals. Cummins stated that Moschella had suggested that the
U.S. Attorneys had done something wrong but the Department had not told the
U.S. Attorneys why they were removed. McKay disputed Moschella’s assertion
that he was removed because of the way he advocated the information sharing
system, and said that all of his work on the program had been authorized by
former Deputy Attorney General Comey. Lam responded to Moschella’s
statement regarding her immigration and gun prosecution statistics by stating


                                        86
that her emphasis in immigration cases was on tackling larger cases, and that
gun prosecutions were being handled “extremely responsibly” by the local
District Attorney’s Office.

       Iglesias testified that he believed he was forced out as U.S. Attorney for
the District of New Mexico because he failed to respond to political pressure to
indict a public corruption case against a Democratic official before the
November 2006 election. In his testimony, Iglesias revealed that New Mexico
Representative Heather Wilson and Senator Pete Domenici separately
telephoned him in October 2006 to ask about the status of a pending public
corruption matter. Iglesias said that in both calls he believed he was being
pressured to bring an indictment before the November election.

      M.    Attorney General Gonzales’s March 7 Op-Ed Article

       Moschella’s testimony increased concerns about the reasons why the
U.S. Attorneys were removed. Sometime during the first week of March 2007,
a USA Today reporter told the Department’s Office of Public Affairs that the
newspaper would soon editorialize on the U.S. Attorney removals, and offered
the Department the opportunity to provide an “opposing view essay.” Public
Affairs Director Scolinos recommended to McNulty, Sampson, Goodling, and
Moschella that the Department submit an editorial under Gonzales’s name so
that it would “pack some punch.” Sampson agreed with Scolinos’s
recommendation.

      On March 7, 2007, USA Today published an editorial under Attorney
General Gonzales’s name entitled, “They lost my confidence.” The editorial
contained two statements that further exacerbated the controversy: “While I
am grateful for the public service of these seven U.S. Attorneys, they simply
lost my confidence”; and “I hope that this episode ultimately will be recognized
for what it is: an overblown personnel matter.” Gonzales told us that he did
not authorize either statement to be contained in the editorial. We therefore
investigated how the editorial was developed.

      Roehrkasse told us that he wrote the first draft of the editorial. His draft,
which we reviewed, expressed the Department’s regret regarding the manner in
which the removals were handled. A sentence at the end of the draft stated
that U.S. Attorneys serve at the pleasure of the President and that “[i]f they are
not executing their responsibilities in a manner that furthers the management
and policy goals of departmental leadership, it is appropriate that they be
replaced with other individuals.” Roehrkasse sent the draft to one of the
Attorney General’s speechwriters, asking her to edit and “polish” the essay.

      The speechwriter changed the tone of the essay to stress that the
removals were essentially a personnel matter. The edited version began by
noting that “the handling of personnel matters is one of the toughest



                                        87
challenges employers face,” and concluded with a sentence characterizing the
controversy about the removals as a “tragically overblown personnel matter.”
Our review of documents and e-mails shows that most of that new phrase
remained in every draft version thereafter, and appeared in the published
version as an “overblown personnel matter.”

       Scolinos received a copy of the draft essay at 4 p.m. on March 6 and
made only a few edits before forwarding it to Sampson for further review and
for the Attorney General’s approval. Scolinos told us that USA Today’s 6:30
p.m. deadline was rapidly approaching when Sampson called to tell her he had
made some edits to the essay but could not e-mail them to her because the
Department’s computers had crashed.

      Scolinos said that the essay was past due when Sampson and Attorney
General Gonzales brought it to her office. Because the computers were still
down and because Scolinos was on a call with another reporter, Sampson read
the editorial to a USA Today reporter over the telephone in another office while
Gonzales waited in Scolinos’s office.

       Scolinos said that when Sampson read the editorial to the USA Today
reporter, he inserted into the essay the line, “While I am grateful for the public
service of these seven U.S. Attorneys, they simply lost my confidence.”
Scolinos said when Gonzales later heard what Sampson had read to USA
Today, he told her he was unhappy because he had told Sampson to remove
the line containing the phrase “tragically overblown personnel matter,” but
Sampson left part of the phrase in, and he added the line “they simply lost my
confidence” without Gonzales’s knowledge. Scolinos said that Gonzales told
her that he would not have said that, and that Sampson nevertheless tried to
defend the statement.

       According to Scolinos, Gonzales asked if they could retract the essay.
Scolinos advised against it, given the fact that the Attorney General’s Chief of
Staff had just called in an editorial purporting to be from the Attorney General.

       Sampson told us that he added the phrase “they lost my confidence”
because he had to make a quick judgment while dictating the essay over the
telephone, and he believed the language the Attorney General wanted to use in
its place was “bad grammar.” 67 Sampson acknowledged that he had added the
phrase without the Attorney General’s approval.

     Gonzales told us that the phrase was “a terrible thing to say about
somebody,” and the essay did not reflect what he wanted to say. However,

       67 Sampson told congressional investigators that the language the Attorney General
wanted to use was something to the effect of “we thought we could do better,” or “we thought a
change could improve the office.”




                                             88
when we asked Gonzales how his Chief of Staff could inaccurately represent to
a national newspaper that the words of the essay were the Attorney General’s,
Gonzales said, “I don’t have an answer for that.” Gonzales told us that he had
stopped reading newspapers by the time the essay was published on March 7,
and that he never talked directly with Sampson about the essay after it
appeared.

      N.    Additional Documents Come to Light

      Over the next several days, the controversy about the removal of the U.S.
Attorneys intensified further. On March 7, the Senate Judiciary Committee
asked the Attorney General to make certain Department staff, including
Sampson and Goodling, available for interviews or public testimony about the
removals. On March 8, the House Judiciary Subcommittee requested
documents and other information related to the removals.

      Also on March 8, Gonzales met with Senators Leahy, Schumer,
Feinstein, and Specter to discuss their request to interview Department staff
and to obtain documents concerning the removals. At the end of the meeting,
Gonzales agreed to produce the documents. He also agreed to discuss making
Goodling and Sampson available for interviews.

      According to Roehrkasse, in an attempt to present a clearer picture of the
Department’s involvement in the U.S. Attorney removals, Scolinos and
Roehrkasse had planned to brief reporters from The Washington Post and The
New York Times on Friday, March 9 about the chronology of the removal plan
so that the reporters could write stories to appear over the weekend. According
to Roehrkasse, the stories were supposed to follow up on Moschella’s testimony
about the specific reasons for the removals by providing an explanation of how
the removals came about.

      On the evening of March 7, Roehrkasse informed Sampson that he
needed documents and other information about the removals to provide
background information to the reporters, and Roehrkasse arranged to meet
with Sampson the following day. Sampson prepared for his meeting with
Roehrkasse by printing out documents and e-mails from his computer
concerning the removals.

       Roehrkasse said that when he met with Sampson on March 8, Sampson
discussed how he had met with Comey, Mercer, and McNulty and developed
the removal list after “picking their brains” about which U.S. Attorneys they
would recommend for replacement. Roehrkasse said Sampson also told him
that the removals had been in the works with the White House Counsel’s Office
for a long time. Roehrkasse said that Sampson showed him an e-mail to
Harriet Miers dated January 6, 2006, containing a list of U.S. Attorneys he
recommended for removal, which showed that the White House had been



                                      89
involved much earlier than the fall of 2006. Roehrkasse said that Sampson
also told him that he had had conversations with the White House dating back
to the beginning of 2005 about removing U.S. Attorneys.

       Roehrkasse said that he took copies of the documents Sampson had
printed out, and that shortly after his meeting with Sampson he realized while
reviewing the documents that Moschella’s congressional testimony was
inconsistent with what the documents showed. Roehrkasse said he discussed
his concerns with Scolinos, and together they discussed the problem with
officials in the White House Communications Office. According to Roehrkasse,
it was the first time White House communications officials became aware of the
origin of the plan to remove the U.S. Attorneys, and of the White House’s
greater level of involvement in the removals.

      According to Gonzales, during the afternoon of March 8 Scolinos called to
inform him of the discovery of the documents. Gonzales then discussed the
matter with McNulty, who Gonzales said was very unhappy that he was not
correctly informed about the timing and substance of the White House’s
involvement in the removals. Gonzales said he instructed Scolinos to discuss
the matter with Sampson to address the problem.

      Moschella told us that in the late afternoon of March 8 he saw Goodling
in the hallway and she looked very distraught and upset. According to
Moschella, when he asked what was wrong Goodling was evasive but said there
was something going on in the Office of Public Affairs concerning the U.S.
Attorney matter. 68

       Moschella said that after he spoke with Goodling, he went to see
McNulty, who was on his way out of the office. Moschella said he asked
McNulty if he thought he knew the whole story concerning the U.S. Attorney
removals. Moschella said McNulty told him that there was more to the story,
but he did not have time to discuss it at that point. Moschella said McNulty
told him that Sampson had found some documents that shed light on the
removals. Moschella said that when he discussed the matter with Sampson
later that evening, Sampson showed him the e-mails indicating far earlier,
more active White House involvement in the U.S. Attorney removals than
Moschella had testified about.

      Moschella said he was “flabbergasted” when he saw these documents.
Moschella said he immediately told Sampson that the Department’s Office of
Legal Counsel would have to become involved in light of this new information

       68 According to Margolis, Goodling came into his office late on March 8 extremely
distraught over the revelation of Sampson’s documents, and asked whether Margolis had
spoken to Sampson. Margolis also said that Goodling implied that her career in the
Department was over, but she did not state specifically what she had done.




                                             90
and would need to oversee the Department’s response to congressional
document requests. Moschella told us he was very angry with Sampson and
expressed that anger in no uncertain terms.

      Sampson told us that when he initially retrieved the documents and e-
mails he was not focused on the issue of what the Department had represented
to Congress about the timing and nature of the White House’s involvement in
the removals. Sampson also said he had not focused on that issue during the
preparation sessions for McNulty’s and Moschella’s testimony.

       Sampson said that when he initially located the e-mails, he felt that they
proved that the Department was always planning to work with the Senate to
find replacements for the U.S. Attorneys and that there were no politically
connected candidates slated to replace the U.S. Attorneys. 69 Sampson also
said that the documents proved that the Department and the White House had
been discussing the removal of U.S. Attorneys for a long time, which he said
refuted the claim that U.S. Attorneys were removed to interfere with, or in
retaliation for, any prosecution.

       Sampson said he did not realize the documents presented a problem
until he showed them to Moschella, who expressed concern that Congress
would believe he had testified falsely. Sampson said he told Moschella his fear
was unjustified. Sampson said that both Moschella and McNulty seemed upset
with him, but Sampson did not believe he had misled them into testifying
inaccurately. Sampson said that when he read the documents to Margolis later
and asked what he thought, Margolis said, “I think you’re going to be testifying
[before Congress].”

      Sampson said that until March 8, there had been no discussion of the
Department making documents or additional Department staff available to
Congress. However, Sampson said he knew that subpoenas were on
Congress’s agenda, and he thought there would be a battle with Congress over
executive privilege regarding the documents. Sampson stated that when
Attorney General Gonzales met with the Senators on the afternoon of March 8,
the Attorney General “caved” and agreed to make all staff and all the
documents available. Sampson said he recognized that this meant the
documents he had just discovered would be produced to Congress.

       McNulty told us that at some point during the afternoon of March 8, he
went to Sampson’s office and Sampson showed him the documents indicating
earlier, more substantive White House involvement in the removals. McNulty

       69 It is unclear how the earlier e-mails would have helped prove this point because the
Attorney General’s appointment authority was not signed into law until March 2006.
Moreover, the January 6, 2006, e-mail already listed potential replacements for several of the
U.S. Attorneys.




                                              91
said that when Sampson showed him the e-mails, Sampson said something to
the effect of “here is a new issue we are going to have to address.” McNulty
said he did not study the documents closely but saw that there were references
to compiling names prior to the October 2006 timeframe that McNulty had
discussed in his closed briefing with the Senate Judiciary Committee. McNulty
said that what he saw of Sampson’s documents was sufficient to call into
question the accuracy of his and Moschella’s congressional testimony.
McNulty said Sampson did not seem excessively troubled when he showed
McNulty the documents, although Sampson appeared to realize it was a major
development.

      Early the next morning, Friday, March 9, Sampson offered the Attorney
General his resignation. Sampson told us that it had been “a tough week,” and
Gonzales was not happy with him after the USA Today editorial appeared on
March 7. Sampson said that after the documents came to light on March 8, he
believed the Department needed someone to manage its response to Congress,
but given his role in creating the predicament he did not think he was the right
person to do so. He said that when he offered Gonzales his resignation, he told
Gonzales that he was sorry for his role in creating a “political scandal.”
Sampson later testified to Congress he believed that as Chief of Staff he could
have, and should have, helped to prevent the Department from making
incorrect representations about the U.S. Attorney removals. Sampson said
that he felt “honor bound” to accept his share of the blame for the problem and
to hold himself accountable.

      Gonzales did not accept Sampson’s resignation immediately. During the
morning of March 9, McNulty, Moschella, Sampson, and Hertling met with
Steve Bradbury, Acting Assistant Attorney General for the Office of Legal
Counsel, to discuss how to proceed. According to Moschella, Sampson did not
apologize or explain why he did not tell McNulty or Moschella about his
contacts with the White House Counsel’s Office before the fall of 2006.

      Later that day, employees from the Department’s Office of Information
and Privacy began conducting searches on the Department’s senior staff’s
computers and in files for documents relevant to the removals to produce
documents requested by Congress. The searches continued over the weekend
and for several days thereafter. On March 13, the Department began
producing documents to Congress.

      According to McNulty, Gonzales asked him to formulate a plan to
address how the Department should handle the problems the controversy had
brought to light concerning the removals and how they were accomplished.
McNulty said Gonzales expressed some ideas to him over the telephone, and on
Saturday, March 10, McNulty drafted a memorandum entitled “United States
Attorneys Reforms and Remedies.” Among the suggestions in the
memorandum were developing a systemic performance review process for U.S.


                                      92
Attorneys; reviewing the U.S. Attorney’s Manual reporting requirements for
contacts between political officials and U.S. Attorneys; establishing a protocol
to ensure that the discipline or removal of a U.S. Attorney is not
inappropriately connected to a public corruption case; directing the
Department’s Office of Professional Responsibility to conduct an investigation
into the removals of the U.S. Attorneys; assisting Bogden, Iglesias, and Chiara
with future employment, perhaps in the Department; and communicating the
Attorney General’s regret regarding the handling of the removals directly to the
U.S. Attorneys.

      O.    Sampson’s Resignation

      On Monday, March 12, the Attorney General accepted Sampson’s
resignation. Gonzales said when he accepted the resignation he told Sampson
that the USA Today editorial had really hurt Gonzales.

      Sampson told us that when Gonzales accepted his resignation, Sampson
told Gonzales he thought accepting the resignation was a mistake, but
Gonzales was adamant that Sampson needed to resign. Sampson said he told
Gonzales it was his prerogative, but said he had offered his resignation earlier
only because he thought it was the honorable thing to do.

      After offering his resignation as Chief of Staff, Sampson attempted to
arrange another political appointment in the Department as a Counselor to the
Assistant Attorney General in the Environment and Natural Resources Division
(ENRD). Sampson told us he was concerned about not having a job lined up,
and he asked Gonzales to reassign him elsewhere in the Department while he
considered what to do next. Sampson said his reassignment to ENRD did not
occur, because after the Attorney General’s press conference on March 13 and
the subsequent media coverage Sampson thought he needed legal
representation. Sampson resigned and left the Department effective March 14,
2007.

      P.    The Scudder Memorandum

       During our investigation, we also learned that in early March 2007 White
House Associate Counsel Michael Scudder (a former Department attorney) was
directed by the White House Counsel to prepare a chronology of events related
to the U.S. Attorney removals. According to the White House Counsel’s Office,
the chronology was developed so that the White House could respond to
inquiries about the matter. To accomplish that task quickly, Scudder
interviewed several people in the Department and within the White House,
including Karl Rove. As a result of his interviews and review of documents, in
March 2007 Scudder produced at least two drafts of a memorandum setting
out a chronology of events related to the removals of the U.S. Attorneys.




                                       93
      Scudder also provided these drafts to the Department’s Office of Legal
Counsel (OLC). When OLC prepared its own more extensive chronology of
events, it used Scudder’s draft memoranda to supplement its efforts.
According to e-mail records, around March 20, 2007, as part of Attorney
General Gonzales’s effort to understand the circumstances surrounding the
removals, OLC provided Scudder’s memorandum to Gonzales. However,
Gonzales told us he did not recall seeing Scudder’s chronology.

      We asked OLC for a copy of the memorandum and all the drafts, but
OLC declined, stating that the White House Counsel’s Office had directed OLC
not to provide them to us. We thereafter engaged in discussions with the White
House Counsel’s Office during this investigation in an attempt to obtain the
Scudder memorandum. The White House Counsel’s Office agreed to read one
paragraph of the memorandum to us, and provided us with two paragraphs of
information concerning Rove that had already been reported publicly, but
declined to provide any further information from the memorandum.
Eventually, the White House Counsel’s Office provided us with a heavily
redacted version of the document. We believe the refusal to provide us with an
unredacted copy of this document hampered our investigation.

      Q.    Attorney General Gonzales’s March 13 Press Conference

       On Tuesday, March 13, Attorney General Gonzales held a brief press
conference concerning the U.S. Attorney removals. According to Roehrkasse,
the purpose of the press conference was to show that the Department was in
control of the situation now that it had become clear that there was a greater
level of White House involvement than Department officials had previously
portrayed, and to respond to the perception that the Department was
withholding information.

       Gonzales began the press conference by stating that all political
appointees serve at the pleasure of the President. He stated that he would in
no way support an effort to circumvent the Senate’s advice and consent role
with respect to the appointment of U.S. Attorneys. He acknowledged that the
Department had made mistakes, said he accepted responsibility for them and
pledged to find out what had gone wrong. Gonzales also said that incomplete
information had been given to Department officials, who then communicated
that information to Congress. Gonzales then stated that “all political
appointees can be removed by the President of the United States for any
reason” and that he stood by the decision to remove the U.S. Attorneys.

      During the press conference, Gonzales made several statements about
his own role in the removal process that were inaccurate. Gonzales specifically
stated that he “was not involved in seeing any memos, was not involved in any
discussions about what was going on.” Later in the press conference, Gonzales




                                      94
reiterated, “I never saw documents. We never had a discussion about where
things stood.”

      Gonzales later testified to Congress that he should have been more
careful about his public statements and that he had not reviewed relevant
documents or his calendar before the press conference. Gonzales said that
once the documents contradicting the Department’s prior public statements
came to light, he had felt it necessary to quickly and publicly defend the
Department from accusations about improper conduct.

      R.    Attorney General Gonzales Directs an Investigation

      In accordance with the plan Gonzales and McNulty had discussed during
the weekend, on March 12 Gonzales, McNulty, and Elston discussed having the
Department undertake an internal investigation of the removals. An e-mail
dated March 13, from Elston to Marshall Jarrett, Counsel of the Office of
Professional Responsibility (OPR), stated that the Attorney General had
directed OPR to investigate the basis for the removals. Elston wrote in the e-
mail to Jarrett:

      As we discussed last night . . . The Office of Professional
      Responsibility (OPR) has been directed to undertake an expedited
      investigation of whether any of the removals of the USAs on
      December 7, 2006, were intended to interfere with or in retaliation
      for a public integrity investigation. OPR has also been directed to
      make recommendations on how best to avoid or effectively respond
      to such alleged appearances in the future.

      On March 14, OPR delivered a preservation of records memorandum to
the Attorney General’s office.

       A few days later, the Inspector General learned about the assignment of
the investigation to OPR and objected, stating that he believed the Office of the
Inspector General (OIG) had jurisdiction to investigate these issues. OPR
disagreed. Eventually, the OIG and OPR agreed to conduct this investigation
jointly, and the scope of the resulting investigation was much broader than
suggested by Elston’s e-mail.

      S.    Attorney General Gonzales’s Conversation with Goodling

      On Thursday, March 15, Goodling met with Attorney General Gonzales to
request a transfer. According to Gonzales, Goodling came into his office in an
extremely distraught state, and sat down in a slouched position with her head
bowed holding her hands together. Gonzales told us that Goodling said she
was paralyzed and could not do her work. Gonzales asked her why and she
said something about having had the same information that Sampson had.
Gonzales told us he had the impression that Goodling was feeling guilty or


                                       95
confused or frightened. Gonzales said he told her, “No one intentionally has
done anything wrong.” He said he wanted to reassure her and began to tell her
what he knew about what had happened with regard to the U.S. Attorney
removals. However, Gonzales told us he did not remember specifically what he
told her about the removals.

       Gonzales told us that, in the meeting, Goodling sought a transfer either
to another component in the Department or to the Eastern District of Virginia
as an Assistant United States Attorney. Gonzales also recounted for us a
detailed and very personal story he said Goodling told him during their
conversation concerning why she went to law school and wanted to become a
prosecutor. According to Gonzales, he told Goodling he would consider her
request for a transfer and assured her that they would get through the current
situation. Gonzales said it seemed that Goodling felt better and left his office.

       In her testimony about this incident before the House Judiciary
Committee, Goodling said the conversation with Gonzales made her
uncomfortable because she was concerned they might have to testify about the
U.S. Attorney removals at some point. Goodling confirmed in her testimony
that she was distraught and was seeking a transfer, and that Gonzales told her
he would need to think about it. Goodling said that after that part of the
conversation, Gonzales was “just trying to chat” and said “‘let me tell you what
I can remember.’” According to Goodling, Gonzales laid out his general
recollection of some of the events concerning the removals, and then asked her
if she had any reaction to what he said. Goodling said that Gonzales
mentioned that he thought that everybody who was on the removal list was
there for a performance-related reason, and he had been upset with McNulty
because he thought McNulty wrongly testified that Cummins was removed only
to give Griffin a chance to serve. In her congressional testimony, Goodling said
there was more to her discussion with Gonzales, but she said she could not
recall anything further at that time.

       Goodling said she remembered thinking that it was not appropriate for
them to be discussing these issues at that point because they both might have
to testify later, and so she did not respond. Goodling said that before the
conversation took place the Attorney General had informed her that the
Department was negotiating whether she would be interviewed or would testify
before Congress. In her congressional testimony, Goodling said she did not
believe that Gonzales was trying to shape her recollection.

       When we asked Gonzales about his conversation with Goodling, he said
that he did not see how anyone could attempt to shape Goodling’s testimony
because she was normally such a “very confident, strong-willed young woman.”
Gonzales said he did not recall talking to Goodling about Cummins or about
being upset with McNulty. When we asked Gonzales why he had such a
detailed memory of other aspects of their conversation, such as her demeanor


                                       96
and the story about why she went to law school and wanted to be a prosecutor,
but could not recall if they discussed Cummins and McNulty, Gonzales
conceded, “it may very well be. I’m not saying that I didn’t talk about Bud
Cummins or didn’t talk about McNulty.” When we asked Gonzales whether he
considered that it might have been inappropriate for him to discuss his
recollections with Goodling, he told us that he did not give it any thought at the
time because he was just trying to help her.

      T.    Goodling Resigns from the Department

       On March 15, Chuck Rosenberg, the U.S. Attorney for the Eastern
District of Virginia, agreed to serve as the Attorney General’s interim Chief of
Staff after Sampson resigned. Rosenberg recalled that on March 16 Goodling
came into his office at Main Justice extremely distraught, stating that her life
was ruined. Rosenberg said she mentioned wanting to transfer to the Eastern
District of Virginia to become an AUSA. Rosenberg told Goodling that he
wanted to talk to her but was unable to do so at the time.

      Rosenberg said that when Goodling left his office, he expressed his
concern about her well-being to Gonzales, who told him that Goodling had
been to see him earlier in a similar emotional state. Rosenberg said he and
Gonzales did not discuss the substance of Gonzales’s conversation with
Goodling, only her emotional state. Rosenberg said he learned only after
Goodling testified before Congress that Gonzales may have discussed issues
with Goodling concerning the removals.

       After Rosenberg spoke to Gonzales about Goodling, Rosenberg enlisted
the assistance of Courtney Elwood, who was then the Attorney General’s
Deputy Chief of Staff, to help Goodling. According to Elwood, Goodling was
visibly shaking, crying, and in extreme distress. Elwood said that Goodling
said that after Gonzales’s press conference on March 13, she felt she had been
accused of misleading McNulty in the representations he made to Congress
about the removals. Elwood urged Goodling to take some time off to take care
of herself.

      On March 19, Goodling scheduled annual leave through the end of
March. Goodling never returned to work at the Department, and she resigned
from the Department, effective April 7, 2007.

      U.    Subsequent Events

      According to Rosenberg, by late March or early April 2007 Gonzales was
seeking ways to reach out to the U.S. Attorneys who had been removed in
December 2006. Rosenberg said that Gonzales discussed writing a personal
note to each of the U.S. Attorneys and enclosing an Op-Ed piece he would write
that contained his personal apology to them. Rosenberg said that Gonzales
drafted notes for an essay admitting that the U.S. Attorneys had not been


                                       97
treated well and that they were excellent public servants, even though they had
been asked to leave. However, the essay was never sent for publication.
Instead, according to documents we reviewed, the Attorney General’s written
testimony for his April 19 hearing before the Senate Judiciary Committee
contained an apologetic tone for the way the removals were handled.

      In his written remarks prior to his April 19 testimony, Gonzales stated
that the U.S. Attorneys “deserved better – they deserved better from me and
from the Department of Justice which they served selflessly for many years.”
Gonzales stated that “Each is a fine lawyer and dedicated professional. I regret
how they were treated, and I apologize to them and to their families for allowing
this matter to become an unfortunate and undignified public spectacle. I
accept full responsibility for this.”

      Gonzales testified before the Senate Judiciary Committee on April 19 and
the House Judiciary Committee on May 10, 2007. In response to questions
concerning the circumstances of the removals, Gonzales stated that he had not
spoken to Sampson or to others who were involved in the removals once he
became aware the matter was being investigated. Gonzales also stated that he
had not discussed the removals with other fact witnesses in order to protect
the integrity of the OIG-OPR investigation.

       In his testimony before the Senate Judiciary Committee on July 24,
2007, Gonzales acknowledged he had had a conversation with Goodling on
March 15 during which he discussed his recollection of some of the facts
regarding the removals. However, Gonzales said he did so only in the context
of trying to console and reassure Goodling that she had done nothing wrong.

      On May 14, McNulty announced that he would resign as Deputy
Attorney General and he left the Department at the end of July 2007.

       On August 27, Gonzales announced his resignation as Attorney General,
effective September 17.

      In the next nine chapters, we examine in detail the circumstances
surrounding each U.S. Attorney’s removal and our analysis of the reasons the
Department proffered for each removal.




                                       98
                   Todd Graves Timeline
            Oct 2001
                                                                                                                                                                                                                                                 Jan 9, 2006
                                                                                                                                           Feb 2005 - Dec 2005
            Graves Events and
                                                                                                                                                                                                                                                 Graves’s name appears
            Actions                                                                                                                        Senator Bond’s legal counsel, Jack
                                                                                                                                                                                                                                                 for the first time on
                                                                                                                                           Bartling, calls the White House Counsel's
                                                                                                                                                                                                                                                 Sampson’s removal list                                          Mar 10, 2006
                                                                                                                                           Office several times to request Graves’s
                                                                                                                                           removal                                                                                                                                                               Graves announces
                                                                                                                                                                                                                                                                         Jan 19, 2006                            his resignation

                                                                                                                                                             Apr 8, 2005                                                                                                 Sampson e-mails Battle
       Oct 11, 2001
                                                                                                                                                                                                                                                                         asking him to call concerning                                                                        May 9, 2007
                                                                                                                                                             Margolis determines there is no conflict
       Graves is confirmed by the Senate                                                                                                                                                                                                                                 Graves; shortly thereafter,
                                                                                                                                                             of interest related to Graves's wife’s state                                                                                                                   Mar 24, 2006
       as the U.S. Attorney, Western                                                                                                                                                                                                                                     Goodling instructs Battle to                                                                         Graves confirms publicly
                                                                                                                                                             contract at this time
       District of Missouri                                                                                                                                                                                                                                              seek Graves's resignation                          Graves leaves office                              that he was asked to resign




Oct 2001              Nov 2001              Oct 2004                 Nov 2004                Dec 2004   Jan 2005              Feb 2005                 Mar 2005                  Apr 2005                    Nov 2005            Dec 2005                Jan 2006                   Feb 2006             Mar 2006                Apr 2006                 May 2006                     May 2007



                                                                                                                   Feb 2005
                                                                                                                                                                                                 Nov 2005
                                                                                                                   Graves’s wife awarded                                                                                                                         Jan 24, 2006                                                          May 2006
                                           Oct 2004 - Dec 2004                                                     a state contract                                                              OIG opens an investigation on
                                                                                                                                                                                                                                                                 Battle calls Graves and                                               OPR closes its inquiry into the
                                                                                                                                                                                                 anonymous allegations against
                                           In the Fall of 2004, a member of Senator Bond’s                                                                                                                                                                       tells him to resign                                                   allegations against Graves and finds
                                                                                                                                                                                                 Graves; some allegations are
                                           staff calls Graves and insists that Graves persuade                                                                                                                                                                                                                                         no misconduct
                                                                                                                                                                                                 referred to OPR
                                           his brother, Representative Sam Graves, to fire his
                                           Chief of Staff

                                                                                                                               Mar 2, 2005                                                                                            Dec 22, 2005
                                                                                                                                                                                                                                                                                           Mar 8, 2006
                                                                                                                               On Sampson's first removal list Graves is                                                              Bartling calls Elston, and thereafter talks
             Oct 2001                                                                                                          included in the category, "No recommendation;                                                          to him, regarding a “sensitive issue”                OIG issues a report finding no misconduct
                                                                                                                               have not distinguished themselves either                                                               relating to the request from Senator                 by Graves with respect to the anonymous
             DOJ and Other                                                                                                     positively or negatively"                                                                              Bond’s office to the White House                     allegations
             Events and Actions                                                                                                                                                                                                       Counsel's Office to remove Graves
                             CHAPTER FOUR
                             TODD GRAVES

I.    Introduction

       Before and during the congressional hearings that followed the
December 7, 2006, removals of U.S. Attorneys, the Department represented to
Congress that seven U.S. Attorneys, plus Bud Cummins, were the only U.S.
Attorneys removed as a result of the process Kyle Sampson initiated in 2005 to
identify and remove “underperforming” U.S. Attorneys. In his January 12,
2007, briefing on Capitol Hill, Sampson assured staff for Senate Judiciary
Committee members Senators Patrick Leahy and Dianne Feinstein that those
eight were the only U.S. Attorneys told to resign in 2006. Until May 2007,
Department witnesses who appeared before Congress on the matter testified
about the group of eight, and no one mentioned that Todd Graves of the
Western District of Missouri had been told to resign in January 2006.

       On May 9, 2007, however, Graves publicly confirmed that he had been
told to resign in January 2006. Although the Department did not initially
identify Graves as one of the U.S. Attorneys who was told to resign as a result
of the process Sampson initiated in 2005, we concluded that Graves should be
considered part of that group. Graves was targeted for removal on Sampson’s
second list, issued on January 9, 2006, and the script Battle followed in asking
Graves to resign was identical to the one Battle followed with the other eight
U.S. Attorneys.

       In our investigation into the circumstances of Graves’s removal, we were
hampered by several factors: Sampson’s and Goodling’s stated failures of
recollection as to the reason for Graves’s removal; Goodling’s refusal to
cooperate with our investigation; the lack of cooperation by former White House
Counsel Harriet Miers and members of her staff, especially former Associate
White House Counsel Richard Klingler; and the absence of any documentation
memorializing the reasons for Graves’s removal. Despite these impediments,
we were able to reconstruct much of the circumstances underlying Graves’s
removal, which we discuss below. In this chapter, we also analyze the
Department’s stated reasons for requiring Graves’s resignation.

      A.    Graves’s Background

      Graves graduated from the University of Virginia School of Law in 1991
with a J.D. and a Master’s degree in Public Administration. He began his legal
career in 1991 as an Assistant Attorney General for the state of Missouri.
Between 1992 and 1994, Graves worked for a law firm in Missouri. In 1994 he




                                      99
was elected Platte County Prosecuting Attorney and was reelected in 1998. He
served in that position until he became U.S. Attorney.

      Graves’s nomination as the U.S. Attorney for the Western District of
Missouri was sponsored by Missouri Senator Christopher S. “Kit” Bond. On
July 30, 2001, the White House announced its intent to nominate Graves.
While the nomination was pending Senate approval, Graves was appointed as
Interim U.S. Attorney on September 17, 2001. On October 11, he was
confirmed by the Senate as U.S. Attorney.

      In December 2001, Graves was appointed co-chair of the Child
Exploitation Subcommittee of the Attorney General’s Advisory Committee. His
4-year term as U.S. Attorney expired on October 11, 2005.

            1.    The EARS Evaluation of Graves’s Office

       Graves’s office underwent an Evaluation and Review Staff (EARS)
evaluation in early March 2002, a few months into his tenure. The 2002 report
noted that Graves was well regarded and respected by community leaders,
agency personnel, and a majority of the federal judges in the district. The
report stated that “the perception of the USAO staff as to his performance is
positive, even in this early stage of his tenure.” The office was not scheduled
for another EARS evaluation until September 2006, which was several months
after Graves was removed.

            2.    Graves’s Status on the Removal lists

      On the first list of U.S. Attorneys Sampson sent to the White House on
March 2, 2005, Graves was one of many U.S. Attorneys included by Sampson
in the category of those who had not distinguished themselves either positively
or negatively. However, on the second list Sampson sent to Miers on
January 9, 2006, Graves was one of seven U.S. Attorneys Sampson suggested
for removal.

      As discussed in Chapter Three, less than 2 weeks later, on January 19,
Sampson e-mailed Battle, asking him to call when he had a few minutes to
discuss Graves. Shortly thereafter, Goodling called Battle with instructions to
call Graves and seek his resignation. Battle was instructed to tell Graves only
that the Administration had decided to make a change, that his service was
appreciated, and that the request was not based on any misconduct by Graves
but simply to give someone else a chance to serve.

      Battle placed the call on January 24. Graves said that when he received
the call, he was stunned and shocked. Graves complied with the direction to
resign, and on March 10, 2006, publicly announced his resignation, effective
March 24.



                                      100
       B.     Reasons Proffered for Graves’s Removal

       In her immunized testimony before the House Judiciary Committee on
May 23, 2007, Goodling stated that she had “conflicting memories” about the
circumstances that led to the request for Graves’s resignation. Goodling said
she thought that Graves’s resignation was related to the “fact that he was
under investigation by the Inspector General” at the time. Similarly, Sampson
stated to congressional investigators, and initially to us, that there was “some
controversy around Graves” that Sampson said he associated with an OPR or
OIG investigation. However, Sampson told us that he could not “really
remember” why Graves was placed on the January 9 list or why he was asked
to resign 2 weeks later. Sampson also said he did not recall playing any role in
asking for Graves’s resignation. Even after reviewing his January 19 e-mail
asking Battle to call him about Graves, Sampson said that all he remembered
about Graves’s resignation was Goodling coming into his office and saying,
“Graves has to go.” Sampson stated that, based on what Goodling said, his
“perception” was that Associate Deputy Attorney General David Margolis had
made that determination as a result of an OPR or OIG investigation. 70

      Margolis told us, however, that he was not consulted about Graves’s
removal, and he did not make any determination or recommendation to remove
Graves. Moreover, as discussed below, we determined that Graves was not
asked to resign based on any misconduct allegations. Rather, Graves faced
opposition from the staff of his home-state Senator, Senator Bond, which we
concluded likely led to his removal. 71 We describe and analyze these issues
below.




       70  Sampson did not discuss Graves during his testimony before the Senate Judiciary
Committee on March 29, 2006. On July 10, 2006, during his third day of interviews with
congressional staff, Sampson was asked about Graves and, as he did later in his interview with
us, claimed a failure of recollection on the subject. He stated that he did not have a specific
recollection of placing Graves’s name on the January 9, 2006, removal list, but said he knew
that Graves was not part of the process that resulted in the resignations of the eight U.S.
Attorneys who were the subject of the congressional investigation. Sampson said he believed
that Graves’s resignation was handled by Margolis, and said he did not recall the January 19,
2006, e-mail he sent to Battle asking him to call to discuss Graves.
       71 We asked Senator Bond for an interview regarding the circumstances surrounding
Graves's removal and any communications between his office and officials in the Department
and the White House. In a letter responding to our request, Senator Bond declined to be
interviewed. He added in the letter that, to the best of his recollection, he did not communicate
with anyone in the Administration concerning Graves's performance at any time during
Graves’s tenure as U.S. Attorney and that he did not believe he personally had any additional
information to contribute.




                                              101
II.   Chronology of Events Related to Graves’s Removal

      A.    The Misconduct Allegations

        In 2005, two allegations of misconduct were made against Graves. The
first, in March 2005 from the Executive Director of the Missouri Democratic
Party, related to Graves’s wife. The second, in October 2005 from an
anonymous source, related to various actions by Graves. Both complaints
were investigated, and neither resulted in a misconduct finding against Graves.

            1.    Allegations Concerning Graves’s Wife

        In February 2005, newly elected Missouri Governor Matt Blunt’s
Administration awarded a no-bid contract to Graves’s wife to manage a motor
vehicle license office in a heavily populated area near Kansas City. In Missouri,
license agents are independent contractors who, under contract with the state’s
Department of Revenue, receive a portion of the fees collected by the license
office.

       In a letter dated March 1, 2005, Cory Dillon, the Executive Director of
the Missouri Democratic Party, urged Attorney General Gonzales to remove
Graves from office based on his wife’s acceptance of the no-bid contract. The
letter alleged that in addition to Graves’s wife, her brother and two staff
members of U.S. Congressman Sam Graves (U.S. Attorney Graves’s brother)
were awarded similar license fee office contracts.

      On March 2, 2005, the Kansas City Star reported on Dillon’s letter to
Gonzales. The next day, the newspaper ran an editorial criticizing the contract
and opining that U.S. Attorney Graves now had a “clear conflict of interest” if
any investigation of the Governor’s Administration should arise.

      After receiving an inquiry from the White House about this issue,
Sampson referred the matter to Chuck Rosenberg, who at the time was the
Chief of Staff to the Deputy Attorney General. According to Sampson’s
March 16, 2005, e-mail to Rosenberg, the White House had asked “(1) whether
we have looked into the allegations made against Graves . . . and (2) what our
conclusion is, i.e., whether we are comfortable that he doesn’t have any legal or
ethical issues.”

       The matter was thereafter referred by Associate Deputy Attorney General
Margolis to the Executive Office for U.S. Attorneys (EOUSA), which in turn
referred the matter to the OIG. After reviewing the matter and discussing the
issue with Margolis, the OIG decided not to open an investigation based on the
absence of any pending investigations that presented an actual or apparent
conflict of interest for Graves.




                                      102
       In a letter dated April 8, 2005, Margolis informed Graves that “[a]fter
reviewing the substance of Mr. Dillon’s letter, consulting with OIG, and
considering additional information, I have determined that there is no existing
conflict of interest that requires further action at this time.” Margolis further
advised Graves that he should be mindful of the Department’s “procedures by
which you should seek recusal from any existing or future matter in which a
conflict of interest exists.” Margolis pointed out that “[l]ike all United States
Attorneys, you are expected to adhere to all legal and ethical obligations in
carrying out your duties.”

       In his interview, Graves told us that he had brought the Dillon complaint
to the attention of EOUSA Director Mary Beth Buchanan after he learned about
it on the Internet. According to Graves, he called EOUSA because he believed
he had done nothing wrong and wanted to respond publicly to what he viewed
as Dillon’s false allegations that he had a conflict of interest. Graves also told
us that he later used Margolis’s letter in his public responses to demonstrate
that he had not engaged in any impropriety in connection with his wife’s
contract.

       Graves stated that at no time did any Department official raise any
question concerning the propriety of his wife’s contract or suggest that his
wife’s contract placed his position as U.S. Attorney in jeopardy. Moreover,
Graves said that no Department or Administration official ever raised with him
any concerns about the quality of his performance as U.S. Attorney.

       However, William Mercer, the Principal Assistant Deputy Attorney
General at the time, told us that he recalled Sampson voicing at some point
“real concerns” about Graves’s wife’s contract because it did not reflect well on
the U.S. Attorney’s Office. Margolis told us that he would not have been
surprised if the license fee contract issue “played a huge role” in Sampson’s
decision to place Graves on the U.S. Attorney removal list. As Margolis recalled
it, Sampson was “really hot about it” because Sampson thought the
arrangement made the Department and the Administration “look bad,” despite
Margolis’s finding that Graves did not commit any misconduct. 72 However,
Margolis could only speculate as to Sampson’s thinking because he was never
consulted on the decision to remove Graves and was not even aware of the
resignation request until it was made public in May 2007.

     We found no expression of concern in Sampson’s March 17 e-mail to
Rosenberg referring the Graves matter to him. When congressional

       72  In a March 17, 2005, e-mail to Rosenberg, Margolis stated: “[I]t strikes me that this
is more an indictment of the system out there than of the conduct of Graves, but I must admit
that it looks like the days of boss tweed or the pendergrast machine.” In an e-mail to Elston
and Mercer on December 19, 2005, Margolis called the conflict allegation “flimsy” and “not
substantiated.”




                                              103
investigators asked Sampson about Graves’s removal, he said he had no
specific recollection of being involved in Graves’s removal. Sampson also said
he could not recall discussing Graves’s removal with Gonzales, McNulty, or
Margolis, who generally handled the removal of U.S. Attorneys who had
committed misconduct. Sampson also did not express any consternation
about the license fee contract matter to us during his interview, and he
essentially disclaimed any responsibility for requesting Graves’s resignation.

            2.     Anonymous Allegations Regarding Graves

      In the fall of 2005, the OIG received an anonymous letter containing
allegations that Graves had committed various acts of misconduct. Graves told
us that he believed the source of the anonymous complaint was an employee
that his office was seeking to terminate.

      In late November 2005, the OIG opened an investigation into two of the
allegations contained in the letter: (1) that Graves had attended a political
fundraiser, an activity that would be prohibited by the Hatch Act and by
Department policy, and (2) that Graves was driven to the fundraiser in a
government car by a paralegal in the U.S. Attorney’s Office. The OIG referred
the remaining allegations to EOUSA and to Margolis to determine whether
further investigation was warranted by the Department or OPR.

      In response, in early December 2005 OPR informed EOUSA that it would
investigate an allegation in the anonymous letter that Graves had shared
confidential information about an impending indictment with his brother, a
private attorney, to assist him in advertising for potential class action victims of
a defendant in a federal criminal case. In an e-mail dated December 19, 2005,
Margolis informed Michael Elston, Chief of Staff to the Deputy Attorney
General, and Mercer of the allegations the anonymous source had made
against Graves, and noted that he intended to defer further investigation of the
remaining allegations in the letter pending the conclusion of the OIG and OPR
investigations.

      As noted above, Graves’s name first appeared on Sampson’s January 9,
2006, list of U.S. Attorneys that the White House should consider replacing.
On January 24, Graves was asked to resign, and on March 10, 2006, he
announced his resignation, effective March 24.

       However, at the time Graves was told to resign both the OIG and OPR
investigations were ongoing, and both were eventually resolved in his favor,
albeit after he had announced his resignation. In a report dated March 8,
2006, 6 weeks after Graves was told to resign, the OIG concluded that Graves
did not commit misconduct. The OIG investigation found that Graves did not
in fact attend a political fundraiser; rather, his appearance at the building
where the fundraiser was held was confined to having his photograph taken



                                       104
with the Vice President after the event – a permissible activity for a U.S.
Attorney. 73 In May 2006, OPR closed its investigation after determining that
Graves did not have a brother who was engaged in the private practice of law.

       B.     Complaints About Graves

       As described above, in their congressional testimony neither Sampson
nor Goodling offered an explanation for why Graves was placed on Sampson’s
January 9, 2006, removal list other than their vague recollection that the
internal Department investigations involving Graves may have been the basis
for his removal. Battle told us that he understood from Goodling that Graves’s
removal was not related to any allegation of misconduct, but rather in order to
make a change in the office.

      During the course of our investigation, we found another factor that was
most likely the reason for Graves’s removal.

              1.      Senator Bond’s Congressional Staff Complain About
                      Graves to White House Staff

       In 2001, Missouri Senator Bond had sponsored Graves for the U.S.
Attorney position, but we learned that support for Graves in Senator Bond’s
office had waned by 2005. On at least two occasions in 2005, Jack Bartling,
Senator Bond’s legal counsel, contacted the White House Counsel’s Office to
request a change of the U.S. Attorney for the Western District of Missouri.

      According to Bartling, he called Associate White House Counsel Grant
Dixton several times to seek Graves’s removal. Bartling said his calls were not
prompted by Senator Bond and described the matter as a “staff issue” handled
by himself and Bond’s Chief of Staff. Bartling said that he did not discuss
Graves’s situation or his calls to Dixton with Senator Bond. Bartling stated
that Bond was the undisputed leader of the Republican congressional
delegation in Missouri and it would have been beneath Bond to be involved in
Graves’s removal.

      Bartling told us that his calls to Dixton at the White House seeking
Graves’s removal were instead prompted by discord between the in-state staffs
of Senator Bond and U.S. Representative Sam Graves, a Missouri Republican
congressman who was Todd Graves’s brother. According to Bartling,

       73  The OIG report also found that Graves’s use of the government vehicle was not
improper, although it did question the appropriateness of Graves asking a paralegal, whose
duties did not include driving the U.S. Attorney, to drive him to the event. However, the report
noted that the paralegal did not object, and the OIG did not find Graves’s actions to be
misconduct. Rather, the report recommended that in the future Graves should avoid making
such requests.




                                              105
Congressman Graves’s operation “did not run business” the way the Bond
operation tried to run business. Bartling said that Bond’s staff also wanted
Todd Graves to try to rein in his brother, but Todd Graves did not do so.

      Bartling said that at some point, possibly in a third call to the White
House Counsel’s Office, he also raised the issue of Graves’s wife accepting a
no-bid contract from Governor Blunt that paid considerably more than what
the highest-paid state employees made. Bartling told us that he viewed that
appointment as posing a conflict of interest for Graves as the chief federal law
enforcement officer in the western part of the state, who might be called upon
to investigate allegations against the Blunt Administration.

       Dixton was the only person from the White House Counsel’s Office
involved in the Graves matter who agreed to be interviewed by us, and he
confirmed that Bartling called him about Graves. Dixton told us that Bartling
called him in the spring of 2005 and expressed interest in changing the U.S.
Attorney for the Western District of Missouri when Graves’s 4-year term
expired in October 2005. Dixton stated that while he had no distinct
recollection of doing so, he probably brought Bartling’s request to the attention
of Sampson and Deputy White House Counsel William Kelley. However, Dixton
said he recalled having only one conversation with Bartling, and he did not
recall discussing the issue of Graves’s wife’s no-bid contract during that
conversation.

       In approximately August 2005, the responsibility in the White House
Counsel’s Office for legal issues in the Eighth Circuit (which includes Missouri)
was assumed by Associate White House Counsel Richard Klingler. We
determined that based on the timing of the calls from Bartling, it is likely that
at least Bartling’s final call raising the issue of Graves’s wife’s state contract to
the White House Counsel’s Office was taken by Klingler rather than Dixton.
Klingler, who now works at a private law firm, informed us through the White
House Counsel’s Office that he declined to be interviewed in our investigation.

             2.    The Department Learns About Bond’s Staff’s Complaints

      According to Bartling, by the summer of 2005 the concerns he expressed
about Graves to the White House Counsel’s Office made their way to the
Department. Bartling told us it was clear to him from his conversations with
the White House Counsel’s Office that the matter had been “kicked over” to the
Department of Justice. In addition, Bartling said that he had an interview with
the Department in the fall of 2005 for a position in the Office of the Deputy
Attorney General, and at some point during the interviewing process Elston
asked Bartling if Senator Bond was still interested in changing the U.S.




                                        106
Attorney for the Western District. 74 When we questioned Elston about this
issue, he told us that he first learned that Graves had lost Bond’s support from
Bond’s staff, not from someone in the Department.

      Elston also told us he did not recall discussing with Bartling the reasons
why Bond wanted to make a change in the U.S. Attorney position, but Elston
said he had his own assumptions based on his familiarity with the discord
between Bond Republicans and Graves Republicans in Missouri. Elston said
he did not discuss his conversation with Bartling with McNulty or others in the
Department because it did not occur to him to do so.

       As previously noted, on December 19, 2005, Margolis had informed
Elston and Mercer about the anonymous allegations made against Graves. We
determined that in late December 2005, Bartling exchanged e-mails and phone
calls with Elston concerning Graves. On December 22, 2005, Bartling
informed Elston by e-mail that he had accepted a position with the Treasury
Department starting in late January 2006. Bartling also suggested that the
two talk after the first of the year about a “sensitive issue” involving Graves
“that has to be handled the right way.” In reply, Elston asked Bartling if he
was aware of the “most recent allegations” involving Graves, and Elston invited
Bartling to call him “sooner rather than later.” According to Bartling, when he
and Elston spoke later by telephone, Elston told him only that there were
“ethics allegations” against Graves, but Elston did not go into specifics. 75

      When we asked Elston about this conversation with Bartling, he said
that Bartling had told him previously that Senator Bond’s office had asked the
White House to discreetly “make a change” in the Western District of Missouri,
and Bartling called him in December 2005 to ask him to “keep his ear to the
ground” to ensure that the Senator’s role in requesting White House action on
Graves was not being disseminated within the Department. Elston stated that
Bartling was not asking him to find out whether Graves was going to be
removed. Elston said that, to the contrary, Bartling “was telling me that it was


       74  Elston had lived and worked in Missouri for 5 years after he graduated from law
school in 1994. According to Bartling, he and Elston met for the first time in 2005 at a lunch
arranged by a mutual friend at the Department.
       75  Elston told us he was referring to the anonymous letter containing multiple
allegations, some of which were referred to the OIG and OPR. Elston said his conversation
with Bartling on the subject was brief and that he would not have gone into the details of the
allegations themselves. When we raised with Elston our concern that he disclosed confidential
information about misconduct allegations against Graves, he told us that “the gist” of what he
was conveying to Bartling was not the substance or merits of the allegations, but rather that
the investigation of those allegations would “delay the request to the White House to have
[Graves] moved on.” Although we found no evidence that Elston disclosed the substance of the
allegations to Bartling, the fact that an allegation was lodged with the Department was itself
confidential information that Elston should not have disclosed.




                                             107
going to happen.” According to Elston, the “sensitive issue” mentioned in
Bartling’s December 22 e-mail was Senator Bond’s role (through Bartling) in
seeking Graves’s removal, and Bartling wanted Elston’s assistance to keep the
Senator’s name from being linked to Graves’s anticipated ouster. 76

      According to Elston, he was not involved in the decision to seek Graves’s
resignation. Elston stated that he did not discuss his communications with
Bartling with Sampson, McNulty, or anyone else in the Department, or
otherwise attempt to accelerate Graves’s removal. Elston said that any effort to
expedite the matter “would have undermined [Bartling’s] principal purpose,
which was for me to make sure that Senator Bond’s contact with the White
House was kept confidential.”

       During our interview with Graves, he confirmed the existence of “friction”
between Senator Bond’s staff and the staff of Congressman Graves, but Graves
stated that he was not party to it and did not want to be involved in it. Graves
told us that in the fall of 2004 a member of Senator Bond’s staff called him and
angrily insisted that Graves use his influence to persuade his brother to fire his
brother’s Chief of Staff. According to Graves, when he declined to get involved,
the Bond staffer informed him that “they could no longer protect [his] job.”
Graves told us that he never discussed this call with his brother and did not
report it to anyone in the Department. Graves told us that “if something like
this could cost me a prosecutor’s job, they could have it.”

       C.     Graves is Told to Resign

      As described above, on January 24, 2006, EOUSA Director Battle, acting
on instructions from Goodling, called Graves and told him to resign. Battle
said he told Graves that the Administration had decided to give someone else a
chance to serve; that his service was appreciated; that the decision was not
based on any misconduct by him; and that he had served admirably and done
a good job.

       Graves told us that when Battle called him, Graves suspected that the
decision was related to the call he had received from Bond’s staffer more than a
year earlier. He said he asked Battle if he had a “senator problem.” In their
first conversation, according to Graves, Battle “sort of acknowledged that
maybe that was it,” but in a subsequent conversation Battle informed him that
Senator Bond had “nothing to do with it.” Graves told us that he was ready to
move on to the private sector at the time anyway, but he wanted to stay long
enough to try a particular case and to have his federal retirement vest. He told



       76 Elston stated that he assumed the sensitivity of the matter had to do with the fact

that Graves’s brother was a congressman from Missouri.




                                             108
us that the Department denied his request to remain as U.S. Attorney long
enough to accomplish these objectives.

       Graves told us he called Senator Bond’s Chief of Staff in Washington,
who was fairly new at that job and was an old friend of Graves. According to
Graves, the purpose of the call was two-fold: to find out if his removal was
related to the in-state Chief of Staff’s call to him 18 months before and to
request more time to try a pending murder case. Graves said the Washington
Chief of Staff told him that the Department was claiming that Graves was
removed because of poor performance. Graves said he responded that the
Department had told him the “exact opposite” when he was told to resign and
that he believed his removal was caused by Senator Bond’s in-state Chief of
Staff. The Washington Chief of Staff said he would look into it. Graves said
that when the Washington Chief of Staff called him back, he told Graves that
Bond “went to bat” for him to extend his stay as U.S. Attorney, but the
Department refused.

      On January 24, 2006, Bartling, who by then had started his new job at
Treasury, e-mailed Elston to inform him that Graves had called Senator Bond’s
Washington Chief of Staff to say that he was told that Bond’s office wanted him
out “because Bond wanted new blood in the post.” In the e-mail, Bartling
asked who called Graves and “what happened to Plan B.” Both Bartling and
Elston told us that they did not recall what Bartling’s reference to “Plan B”
meant. Bartling said that it was his “guess” that Plan B referred to using the
recent ethics allegations lodged against Graves as the basis for the
Department’s removing Graves on its own initiative rather than attributing his
removal to Senator Bond’s request that Graves be removed.

       Elston told us he was never able to confirm that Graves was told that
Bond wanted him removed, and Elston suspected, based on information he
said he gleaned from Goodling and Klingler, that Graves “was just making a
right-on guess” and had called the Senator’s office to try to confirm his
suspicions that Bond was behind the request for his resignation. 77




       77 Elston told us he checked with Goodling and Klingler only to learn what Graves had
been told by Battle. Elston said he did not ask them the real reason for Graves’s removal
because he thought he knew the answer. Elston said that he engaged in only limited efforts to
ascertain what Graves was told because at the time he was being courted by Bond’s staff to
replace Graves as U.S. Attorney for the Western District of Missouri. Elston said he ultimately
withdrew his name from consideration for the U.S. Attorney position because he had only
recently become the Deputy Attorney General’s Chief of Staff and thought it too soon to leave
the post.




                                             109
      D.    Department Comments About Graves’s Resignation

      Aside from Sampson’s January 9, 2006, e-mail to Miers recommending
that Graves and several other U.S. Attorneys be removed, we found no
documentation memorializing the request for Graves’s resignation or the
reasons for it. Sampson initially told us that he could not “really remember”
why Graves was placed on the January 9 list or why he was asked to resign 2
weeks later. He said he did not recall playing any role in asking for Graves’s
resignation. Even after reviewing his January 19 e-mail asking Battle to call
him about Graves, Sampson said that all he remembered about Graves’s
resignation was Goodling coming into his office and saying, “Graves has to go.”
Sampson stated that, based on what Goodling said, his perception was that
Margolis had made the determination that Graves should resign as a result of
an OPR or OIG investigation

      In Goodling’s testimony before the House Judiciary Committee in May
2007, she denied Sampson’s assertion that she handled the request for
Graves’s resignation without Sampson’s guidance. Goodling said she recalled
seeing Graves’s name on Sampson’s January 2006 removal list. She said she
thought that Graves was one of nine U.S. Attorneys who had been asked to
resign in 2006 until she heard Sampson refer to only eight U.S. Attorneys
during a meeting with the Attorney General in January 2007. Moreover,
Goodling stated that she did not recall instructing Battle to ask for Graves’s
resignation. However, she said that if she had directed Battle to call Graves to
request his resignation, “it would have been at Mr. Sampson’s request. I
wouldn’t have had that kind of authority.”

       Margolis also disputed Sampson’s supposition about Margolis’s role in
Graves’s removal. Margolis is the career Department official responsible for the
referral (typically to the OIG or OPR) of misconduct allegations lodged against
U.S. Attorneys and other senior Department officials. Margolis told us that
Graves was not the subject of a misconduct finding by either the OIG or OPR at
the time and that he did not initiate a request for Graves’s resignation.
Moreover, Margolis told us that neither Sampson nor Goodling consulted him
on Graves’s removal and he knew nothing about it until after the
circumstances surrounding Graves’s resignation were made public in the
spring of 2007.

       According to Margolis, when the Department has sought the resignation
of a U.S. Attorney based on misconduct (usually upon completion of an OIG or
OPR investigation resulting in a misconduct finding), the practice has been for
Margolis to brief Sampson; for Sampson to inform the Attorney General and to
call the White House Counsel’s Office to explain the contemplated action in
order to ensure that the White House would be prepared to fire the U.S.
Attorney in the event he declined to resign voluntarily; and then for Margolis to
call the U.S. Attorney and request his resignation. Sampson testified that it


                                      110
was his “perception” that this process was followed in Graves’s case. However,
Margolis was not involved in the process and neither briefed Sampson (or
Goodling) on any alleged misconduct by Graves nor called Graves to request
his resignation. Moreover, unlike the other Department requests for U.S.
Attorney resignations during Sampson’s tenure – each of which Sampson
recalled discussing with the White House Counsel’s Office – Sampson said he
had no recollection of discussing the Graves matter with the White House
Counsel’s Office. Instead, he surmised that the appropriate White House
contacts were handled by Goodling.

      McNulty, who was Acting Deputy Attorney General at the time, testified
before the House Judiciary Subcommittee that he was not consulted about
Graves’s removal. Former Attorney General Gonzales said that he would have
expected a Department request for the resignation of a U.S. Attorney to have
been cleared with him. Gonzales told us he “can’t imagine it didn’t happen.”
He said, “I’m sure I was told and I don’t remember.” However, he stated that
he had no recollection of being consulted about Graves’s removal.

       During his congressional testimony, Sampson maintained that he had
almost no memory of why he placed Graves on the January 9 list or why
Graves was asked to resign 2 weeks later. When congressional investigators
asked if Associate White House Counsel Klingler would have approved the
dismissal of Graves, Sampson replied: “I don’t remember. I don’t remember
specifically. The general practice would have been to check with the counsel,
not an associate counsel.”

       However, 5 months later, when we asked Sampson whether Klingler
played a role in Graves’s removal, Sampson told us, “And that’s another thing
that I do remember is that Klingler was the person that was responsible for this
in the White House Counsel’s Office and that he was speaking with Senator
Bond’s people.” Sampson also told us he understood that Senator Bond “was
not happy with Graves and wanted him out.” This was the first time Sampson
acknowledged the existence of pressure by Bond’s office playing any role in
Graves’s resignation.


III.   Analysis

      At the outset, we note that our analysis of Graves’s removal was hindered
because we were unable to interview Associate White House Counsel Klingler,
who our investigation revealed was closely involved with Senator Bond’s staff
concerning Graves’s removal, and Goodling, who instructed Battle to call
Graves after she had told Sampson “Graves has got to go.” In addition, the
White House declined to provide any internal documents relating to the
removal of the U.S. Attorneys, including Graves.




                                      111
      We found no evidence to support the claim that Graves was asked to
resign because of OIG and OPR investigations into the allegations made against
him. In fact, at the time Graves was asked to resign, the internal investigations
of Graves were ongoing and no misconduct findings had been made. Moreover,
neither McNulty nor Margolis – the two senior Department officials who
normally would have been involved in a decision to remove a U.S. Attorney for
misconduct – were consulted about Graves’s removal. Margolis said he was
neither aware of the resignation request to Graves nor involved in the decision
to seek it.

      In addition, in his interview with us Sampson acknowledged that as a
“general philosophy” he would await the completion of an OPR or OIG
investigation before recommending the removal of a U.S. Attorney. Yet, the
OIG and OPR investigations were ongoing at the time Battle was instructed to
seek Graves’s resignation, and no misconduct had been substantiated. In fact,
neither the OIG nor OPR ultimately concluded that Graves had committed
misconduct. Moreover, if Sampson had recommended to the White House that
Graves be removed based on the mere existence of the OIG and OPR
investigations, such action would have been contrary to existing Department
practice and his claimed “general philosophy.”

      We do not believe, however, that the ongoing OPR and OIG investigations
were the reason for Graves’s removal. Rather, the evidence indicates that
Graves was instructed to resign because of complaints to the White House
Counsel’s Office by Senator Bond’s staff. Although Sampson initially professed
not to recall why Graves was removed, he eventually told us that Associate
White House Counsel Klingler was “speaking with Senator Bond’s people,” and
that “Bond was not happy with Graves and wanted him out.” Moreover, the
decision to remove Graves came within a month after overtures from Bartling,
Senator Bond’s legal counsel, to Elston to keep Senator Bond’s staff’s interest
in removing Graves a secret. E-mail records also show that the day Battle
called Graves and directed him to resign, Bartling expressed concern that
Graves had learned from someone at the Department that Bond was
responsible for his removal.

      It remains unclear whether Sampson or Goodling was the conduit for
pressure from Senator Bond’s staff or the White House for Graves’s removal.
Sampson claimed little recollection about the matter, other than mentioning
some controversy surrounding Graves and Goodling’s pronouncement that
“Graves has to go.” Sampson suggested that Goodling essentially handled
Graves’s resignation on her own initiative without his guidance or approval.

      However, we find it difficult to credit that assertion in light of the fact
that Sampson included Graves on the January 9, 2006, list of U.S. Attorneys to
be removed that he sent to Miers, and that Sampson sent an e-mail to Battle
on January 19 asking to discuss Graves. Shortly thereafter, on January 24,


                                      112
Battle called Graves and asked for his resignation. Moreover, in her
appearance before Congress, Goodling disputed Sampson’s testimony about
her role in forcing Graves to resign. Goodling testified that she would only
have instructed Battle to request Graves’s resignation if Sampson had told her
to do so. Goodling also claimed little recollection of Graves’s removal other
than that there were misconduct investigations of him ongoing at the time.
Goodling was not asked about the role the White House played in Graves’s
removal, however, and we were not able to question Goodling about this (or any
other) subject because she refused to be interviewed by us.

       Regardless of whether Sampson or Goodling was responsible for Battle’s
call to Graves, we believe the evidence indicates that the friction between
Senator Bond’s staff and the staff of Graves’s brother, a Republican
congressman from Missouri, precipitated Graves’s removal. Both Graves and
Bartling told us that a member of Bond’s staff was irate that Graves refused to
become involved in a dispute between his brother’s staff and Bond’s staff. We
find it extremely troubling that the impetus for Graves’s removal as U.S.
Attorney appears to have stemmed from U.S. Attorney Graves’s decision not to
respond to a Bond staff member’s demand to get involved in personnel
decisions in Representative Sam Graves’s congressional office.

      We also believe that Sampson should have more closely scrutinized what
Associate White House Counsel Klingler told him about why the White House
decided to remove Graves. At the very least, Sampson should have discussed
the basis for Graves’s removal with McNulty and Gonzales. We found no
evidence that he did so. He also did not discuss the decision to remove Graves
with Margolis, notwithstanding Sampson’s later claim that it was his
“perception” that Margolis had made the determination that Graves should be
removed as a result of an OPR or OIG investigation. In fact, that was not true.

      In addition, at the time Sampson should have at the very least
determined the reasons for directing Graves to resign to ensure that Graves’s
removal was not based on improper political reasons. Moreover, no one
discussed with Graves Senator Bond’s alleged concerns about him. It also
appears that no one considered whether Graves was an effective U.S. Attorney
before seeking his removal.

        We believe the way the Department handled Graves’s removal was
inappropriate. Although U.S. Attorneys serve at the pleasure of the President,
it is the Department’s responsibility to protect its independence, and the
independence of federal prosecutors, by ensuring that otherwise effective U.S.
Attorneys are not removed for improper political reasons. The fact that the
impetus for Graves’s removal appears to have stemmed from his decision not to
intervene in a personnel dispute between Senator Bond’s staff and staff in
Representative Sam Graves’s office is a disturbing commentary on the
Department of Justice’s support for U.S. Attorneys.


                                      113
      We also believe that the process that resulted in Graves’s forced
resignation was troubling. As noted above, although Sampson claimed that the
pending OIG and OPR investigations may have played a role in the decision to
remove Graves, no one consulted with Margolis, the Department official
knowledgeable about the allegations and the investigations, to determine the
status of those investigations.

      Moreover, even after the removal no one in the Department accepted
responsibility for the decision to remove Graves, with each senior official
claiming that others must have made the decision. Just as troubling,
according to Sampson’s and Gonzales’s recollection, it does not appear that
anyone consulted with the Attorney General about the decision to tell a U.S.
Attorney to resign. If true, that is a stunning example of lack of oversight or
knowledge by the Attorney General about important personnel matters
regarding a high-level Department official.

       In sum, we believe the manner in which the Department handled
Graves’s removal was inappropriate. Although U.S. Attorneys serve at the
pleasure of the President and can be removed for no reason, the Department
should ensure that otherwise effective U.S. Attorneys are not removed because
of an improper reason. The evidence indicates that the likely reason for
Graves’s removal was pressure from the office of Senator Bond. While U.S.
Attorneys are often sponsored by their state Senators, when they take office
they must make decisions without regard to partisan political ramifications. To
allow members of Congress or their staff to obtain the removal of U.S.
Attorneys for political reasons, as apparently occurred here, severely
undermines the independence and non-partisan tradition of the Department of
Justice.




                                       114
            H.E. "Bud" Cummins Timeline
              Jun 2002

              Cummins Events                                                                       Mar 2, 2005

              and Actions                                                                          Cummins is included on Sampson's
                                                                                                   first removal list

                                                                                                                                                                                                                                                                                                                                                Dec 20, 2006
                                                                                                                                                                                                                                                                                                                                                                                    Feb 15, 2007
                                                                      Dec 30, 2004                                                                                                                                                                                                                                                              Cummins leaves office; Griffin
                                                                                                                                            Mar 22, 2005                                                                               Jun 14, 2006                                                                                             is sworn in as Interim U.S.         Gonzales asks Senator Pryor
             Dec 20, 2001
                                                                      An item in an Arkansas tabloid states that                                                                                                                                                                                                                                Attorney for the Eastern            to submit other names for
             Cummins is confirmed by the Senate as the                Cummins said that “it would not be shocking”                          Rove suggests to Miers that                                                                Battle tells Cummins to resign                                                                           District of Arkansas                nomination as U.S. Attorney
             U.S. Attorney, Eastern District of Arkansas              for him to leave before the end of President                          Griffin replace Cummins
                                                                      Bush’s second term


Dec 2001          Jan 2002              Jun 2002           Jul 2002        Dec 2004          Jan 2005          Feb 2005            Mar 2005                Jan 2006         Feb 2006     Mar 2006        Apr 2006        May 2006   Jun 2006          Jul 2006          Aug 2006          Sep 2006         Oct 2006           Nov 2006             Dec 2006          Jan 2007          Feb 2007             Jun 2007




                                                                                                           Mar 5, 2005 - Mar 20, 2005                        Jan 9, 2006                    Mar 2006 - May 2006                                            Aug 16, 2006                              Sep 28, 2006                                                                                           Jun 1, 2007
                                                                                                                                                                                                                                                                                                                                                                    Feb 15, 2007
                                                                                                           Griffin learns from White House                   Griffin is listed as a         Miers asks Sampson to find                                     The Department learns that                Griffin begins detail as Special AUSA in                                                               Griffin leaves office
                                                                                                                                                                                                                                                                                                                                                                    Griffin announces he will not seek
                                                                                                           Political Affairs Director Taylor that            potential replacement for      a place for Griffin                                            both Arkansas Senators might              the Eastern District of Arkansas                               nomination for U.S. Attorney
                                                                                                           Cummins may be removed                            Cummins on the second                                                                         oppose Griffin’s nomination
                                                                                                                                                             removal list Sampson
           Jun 2002                                                                                                                                          sends to the White House
                                                                                                                                                                                                                                           Jun 13, 2006                                      Sep 13, 2006
           Griffin Events and                                                                                                                                                                                                                                                                                                                                  Dec 19, 2006
                                                                                                                                                                                                                                           The White House requests Griffin’s                Sampson proposes to Miers using the
           Other DOJ Actions                                                                                                    Mar 30, 2005
                                                                                                                                                                                                                                           pre-nomination paperwork                          AG’s interim appointment authority to
                                                                                                                                                                                                                                                                                                                                                               Sampson again proposes using the AG’s interim
                                                                                                                                                                                                                                                                                                                                                               appointment authority to bypass Senate confirmation
                                                                                                                                Griffin accepts a job as White House                                                                                                                         bypass Senate confirmation
                                                                                                                                Deputy Director of Political Affairs

                                                                                                                                                                                                                                                                                                                                       Dec 13, 2006 - Dec 15, 2006
                                                                                                                                                                                                                                                                                                                                       Gonzales and Senator Pryor discuss
                                                                                                                                                                                                                                                                                                                                       Griffin's appointment
                                  CHAPTER FIVE
                               H.E. “BUD” CUMMINS

I.     Introduction

      This chapter examines the removal of H.E. “Bud” Cummins III, the
former United States Attorney for the Eastern District of Arkansas, and his
replacement by Timothy Griffin in December 2006. 78 We also discuss the
Department’s response to congressional concerns about Griffin’s appointment,
including the representations made about the reasons for Cummins’s removal,
and whether the Department intended to bypass the normal Senate
confirmation process by appointing Griffin as the Interim U.S. Attorney after
Cummins’s removal.

       A.     Cummins’s Background

        Cummins graduated from the University of Arkansas Law School in Little
Rock in 1989. He served as a law clerk in the Eastern District of Arkansas,
first for U.S. Magistrate Judge John Forster, Jr. from 1989 to 1991, and then
for U.S. District Judge Stephen M. Reasoner in 1991. Following his clerkships,
Cummins started a private law practice in Little Rock in 1992, where he
remained until 1995. He unsuccessfully ran for an Arkansas seat in the U.S.
House of Representatives during 1995 and 1996. Between 1997 and 1998,
Cummins was the Chief Legal Counsel to Arkansas Governor Mike Huckabee.
In 1998, he returned to the private sector to resume a private law and lobbying
practice. In 2000, Cummins served as a counsel to the Bush-Cheney
campaign.

      Cummins said that early in the 2000 Bush campaign he worked closely
with Arkansas Senator Tim Hutchinson and made it known that if Governor
Bush won the election he would seek Hutchinson’s support for the U.S.
Attorney nomination for the Eastern District of Arkansas. In early 2001,
Hutchinson forwarded Cummins’s name to the White House recommending
him for that position.

      On November 30, 2001, Cummins was nominated by the President to be
the U.S. Attorney for the Eastern District of Arkansas. He was confirmed by
the Senate and took office on December 20, 2001.

       78 As we discuss in more detail below, Griffin served as a political appointee in the
Department’s Criminal Division from 2001 to 2002, and he was detailed for 9 months as a
Special Assistant U.S. Attorney to Cummins’s District. Griffin also served as Research Director
for the Republican National Committee before the 2004 election, and in March 2005 began
working at the White House as Deputy Director of the Office of Political Affairs.




                                             115
      B.    The EARS Evaluations of Cummins’s Office

       In 2002 and 2006, EARS teams conducted evaluations of Cummins’s
office. Both evaluations described Cummins as highly regarded by the
judiciary, law enforcement, civil client agencies, and office personnel. The
2006 evaluation reported that the senior management team, led by Cummins,
“effectively managed the office’s operations and personnel.” The report also
stated that the office had “established strategic goals that were appropriate to
meet the priorities of the Department and the needs of the District.” The
evaluators found that Cummins was involved in the day-to-day management of
the office and was active in Department of Justice matters, serving on various
Attorney General Advisory Committee subcommittees. Cummins also received
high marks in the EARS evaluation for the office’s anti-terrorism, anti-drug,
and reduction of gun violence programs.

      C.    Cummins’s Status on the Removal Lists

      Cummins was 1 of 14 U.S. Attorneys whom Sampson identified for
removal on the first list he supplied to the White House on March 2, 2005. As
noted in Chapter Three, that list characterized those identified for removal as
“weak U.S. Attorneys who have been ineffectual managers and prosecutors,
chafed against Administration initiatives, etc.” Cummins’s name remained on
every removal list until his resignation in December 2006.

      D.    Reasons Proffered for Cummins’s Removal

    We found that Department officials proffered conflicting reasons for
Cummins’s removal.

     Sampson told congressional investigators and us that Cummins’s name
appeared on the March 2005 list because he believed that Cummins was an
underperforming U.S. Attorney.

       However, in McNulty’s February 6, 2007, testimony before the Senate
Judiciary Committee, McNulty stated that Cummins was not removed for
performance reasons but was removed because the White House wanted to give
Griffin a chance to serve as U.S. Attorney. The chart that Goodling prepared
for McNulty’s closed Senate briefing stated that because Cummins had
completed his 4-year term as U.S. Attorney and had indicated he would not
serve out his entire second 4-year term, the Department worked on developing
a replacement plan. In McNulty’s closed briefing to members of the Senate
Judiciary Committee on February 14, 2007, he stated that Cummins had said
publicly that he was thinking of moving on, and McNulty added that it seemed
appropriate to give Griffin a chance to serve as U.S. Attorney.

      In March 2007, however, in response to congressional document
requests concerning the U.S. Attorney removals, the Department publicly


                                      116
released e-mail between Sampson and White House Political Affairs Director
Sara Taylor in which Taylor wrote that Cummins was removed because he was
“lazy.”

      When Cummins announced his resignation in December 2006, Arkansas
Senators Mark Pryor and Blanche Lincoln publicly expressed concern that
Cummins was improperly removed to make way for Griffin and that the
Administration intended Griffin’s appointment to bypass the Senate
confirmation process. In the remainder of this chapter, we discuss Cummins’s
performance, the reasons for his removal, and Griffin’s appointment. We then
address whether the appointment of Griffin as Interim U.S. Attorney was
intended to bypass the normal Senate confirmation process.


II.   Chronology of Events Related to Cummins’s Removal

      A.    Cummins’s Performance

            1.    Sampson’s Statements

       Sampson told us that he could not recall whether he learned anything
specific about Cummins’s performance as U.S. Attorney between 2001 and
2005 that caused him to indicate that Cummins was a “weak U.S. Attorney” on
the March 2, 2005, list of U.S. Attorneys Sampson sent to White House
Counsel Miers.

      Sampson told us that he did not perceive Cummins in a positive light
even at the time of Cummins’s nomination as U.S. Attorney. Before coming to
the Department, Sampson had served in the White House Office of Presidential
Personnel and in the White House Counsel’s Office. Sampson said that he had
reviewed Cummins’s résumé in 2001 when Cummins was going through the
nomination process. He thought Cummins was not particularly distinguished
and was unsuitable for nomination as U.S. Attorney. Sampson also stated that
because presidential nominations are subject to the political process and
home-state politicians exercised a lot of power over nominations, the strongest
candidate was not always selected.

      Sampson acknowledged that the information he gained from Cummins’s
nomination process colored his view of Cummins even after he became the U.S.
Attorney. Sampson said he perceived Cummins to be mediocre and said he did
not think he was alone in that perception, commenting that he thought
Department leadership also perceived Cummins to be mediocre. However, as
described below, we were unable to find any evidence that Sampson discussed
Cummins’s performance with any Department officials prior to identifying him
for potential removal in March 2005.




                                     117
            2.    Department Managers’ Statements

      None of the Department leaders we interviewed said they recalled
discussing Cummins’s performance with Sampson. Former Deputy Attorney
General Comey told us that he did not think Cummins ever “crossed his radar
screen” while he was Deputy Attorney General. Associate Deputy Attorney
General David Margolis said that he did not believe he had any contact with
Cummins after he interviewed Cummins prior to his nomination. Margolis
stated that during the subsequent 4 years he had never heard anything bad
about Cummins, either directly or indirectly.

        Paul McNulty, who succeeded Comey as Deputy Attorney General in
November 2005, told us that he did not know Cummins very well and did not
have an opinion about his performance. McNulty also stated during his Senate
Judiciary Committee hearing that nothing stood out in his mind concerning
any issues with Cummins’s performance as U.S. Attorney. McNulty also
testified that he did not consider Cummins to be in the same category as the
other U.S. Attorneys removed in December 2006 in that the others were
removed for performance-related reasons while Cummins was told to resign so
that another candidate, Tim Griffin, could serve as the U.S. Attorney.
McNulty’s Chief of Staff Michael Elston also told us he was unaware of any
concerns about Cummins’s performance as U.S. Attorney.

      Former EOUSA Director Mary Beth Buchanan, who also served as the
Chair of the Attorney General’s Advisory Committee from 2003 to 2004, told us
that she could not assess Cummins’s performance because Cummins had a
low profile. She said she did not have any negative information about
Cummins, but also did not know of anything exceptional about Cummins’s
work in his district either. Buchanan said, however, that it was difficult for
certain U.S. Attorneys to stand out when their districts did not have the same
type of crime as larger districts.

      EOUSA Director Michael Battle, who became Director of EOUSA in June
2005, told us that he was not aware of any problems or dissatisfaction within
the Department concerning Cummins’s performance. Rather, Battle stated
that he and EOUSA Acting Deputy Director Natalie Voris considered Cummins
to be one of the top five U.S. Attorneys. Battle said that Cummins was one of
the easiest U.S. Attorneys to work with, and Voris told us that Cummins was “a
charismatic guy who cared about his district.”

       Attorney General Gonzales told us that he visited Cummins’s district in
the fall of 2005 and thought Cummins was “a nice guy.” Gonzales said he
could not recall being aware of any concerns about Cummins.




                                      118
       B.       Cummins’s Removal and Griffin’s Appointment

                1.     Griffin’s Background

      J. Timothy “Tim” Griffin graduated from Tulane University Law School in
1994 and began his legal career at a private law firm in New Orleans. Between
1995 and 2000, he worked at a series of legal jobs in Arkansas and in
Washington, D.C. Griffin was a local prosecutor in Pine Bluff, Arkansas; an
Associate Independent Counsel in the investigation of former Housing and
Urban Development Secretary Henry Cisneros; and a Senior Investigative
Counsel on the Campaign Finance Investigation run by the House Committee
on Government Reform. Griffin also joined the U.S. Army Reserve Judge
Advocate General Corps in 1996 as a First Lieutenant and was subsequently
promoted to the rank of Major. In 1999, Griffin became Deputy Research
Director at the Republican National Committee (RNC) for the 2000 presidential
campaign.

      Griffin told us that in 2001 he had expressed interest in becoming U.S.
Attorney in the Western District of Arkansas, but Senator Hutchinson decided
to recommend Thomas Gean for that position.

       In March 2001, Griffin obtained a political appointment as a Special
Assistant to the Assistant Attorney General for the Criminal Division. Griffin
was detailed from the Department of Justice Criminal Division to the U.S.
Attorney’s Office in the Eastern District of Arkansas as a Special Assistant
United States Attorney (SAUSA) from September 2001 to June 2002. Griffin
was a SAUSA in the Eastern District when Cummins became the U.S. Attorney
there in December 2001. After finishing his SAUSA detail in June 2002, Griffin
returned to the Republican National Committee as Research Director and
Deputy Communications Director.

       In early 2004 while working at the Republican National Committee,
Griffin again sought the nomination for U.S. Attorney in the Western District of
Arkansas. 79 Griffin said that Congressman John Boozman, who was the senior
Republican in Arkansas’s congressional delegation, submitted Griffin’s name to
the White House along with three other candidates for this position.

       In February 2004, a panel of Department of Justice and White House
officials, including Sampson, Margolis, White House Liaison David Higbee, and
Associate White House Counsel Grant Dixton interviewed Griffin. Sampson
told us that Griffin was the panel’s first choice, but Griffin withdrew from
consideration and the panel chose Robert Balfe. 80 Griffin told us that he
       79   The U.S. Attorney in this district, Thomas Gean, had resigned in February 2004.
       80 On June 1, 2004, the White House nominated Balfe to be the U.S. Attorney, and he
was confirmed on November 21, 2004.



                                              119
withdrew his name from consideration after his interview because he knew that
Karl Rove and other Republican Party officials wanted him to continue to work
on the 2004 presidential campaign. Griffin said he also agreed to withdraw
because he knew his nomination was unlikely to move forward since it was an
election year. 81

              2.      Griffin Learns Cummins’s Name is on the Removal List

       According to both Cummins and Griffin, the two were on friendly terms
after Griffin completed his detail in the Eastern District of Arkansas U.S.
Attorney’s Office in 2002. Cummins told us that as a SAUSA Griffin had done
a good job as the office’s Project Safe Neighborhoods coordinator. In August
2002, shortly after Griffin left the U.S. Attorney’s Office, Cummins wrote Griffin
a laudatory letter thanking him for his service. Cummins said that after Griffin
left the office, he was very good about staying in touch, and a review of
Cummins’s e-mail traffic shows numerous friendly e-mails between Griffin and
Cummins throughout 2004 into 2005.

       Cummins told us that by December 2004 he had begun to consider the
possibility of resigning as U.S. Attorney if the right opportunity presented itself,
but he had no firm plans to leave at that time and he was not actively seeking
other employment. On December 30, 2004, the Arkansas Times, a weekly free
paper self-described as “Arkansas’s Newspaper of Politics and Culture,” carried
a small item in its “Insider” section noting that Cummins had told a reporter
that with four children to put through college, it would not be shocking for him
to leave before the end of President Bush’s second term.

       In December 2004, Griffin left the Republican National Committee and in
January 2005 began work under a 3-month consulting contract. Griffin said
he spent the 3 months planning his upcoming April 2005 wedding and trying
to figure out what his next job would be. Griffin said that although he really
wanted to work at the White House, he also explored the possibility of
obtaining a political appointment to the Department of Justice in which he
would then be detailed to lead a Project Safe Neighborhoods initiative in
southwestern Arkansas, under the jurisdiction of the U.S. Attorney’s Office for
the Western District of Arkansas and recently confirmed U.S. Attorney Balfe.
Such an arrangement would have permitted Griffin to be a Department
employee and to remain in Arkansas.

     In February 2005, Sara Taylor became the Director of Political Affairs at
the White House, reporting directly to Karl Rove. Taylor began looking for

       81   Associate White House Counsel Dixton, who was on the panel that interviewed
Griffin, told us that although Griffin did extremely well during the interview, Congressman
Boozman did not support Griffin because Boozman felt strongly that Balfe was the better
candidate based on his extensive prosecutorial experience in Arkansas.




                                             120
someone to become her deputy, and Taylor and Griffin knew each other from
the presidential campaign. According to Griffin, in March 2005 he began
discussing with Taylor the possibility of becoming Deputy Director of Political
Affairs at the White House.

      On March 2, 2005, Sampson provided to White House Counsel Harriet
Miers his first list of U.S. Attorneys to be removed. Sampson described 14 U.S.
Attorneys on the list as “weak, ineffectual” or as having “chafed against
administration initiatives.” Cummins was 1 of the 14.

      Taylor told us that shortly after she began serving as White House
Director of Political Affairs, she became aware that the White House was
considering replacing U.S. Attorneys. Taylor said that Miers and others in both
the White House Counsel’s Office and the Department of Justice had discussed
the idea that the beginning of the President’s second term provided an
opportunity to replace some of the U.S. Attorneys.

       Griffin told us that in mid-March 2005 he learned from Taylor that
Cummins was on a list of U.S. Attorneys the White House was considering
replacing. Griffin said that even prior to formally being hired by the White
House as Deputy Political Director and placed on the White House payroll, he
attended the “Directors” meetings at the White House. After one of these
meetings, Taylor showed him a list of U.S. Attorneys who were going to be
asked to resign. 82 According to Griffin, Cummins’s name was on the list.
Griffin stated that Taylor told him she did not know why Cummins was on the
list, but Griffin said he speculated to Taylor that it was because Cummins had
lost his sponsor when Senator Tim Hutchinson lost his re-election bid in 2002.

              3.      Griffin Expresses Interest in the U.S. Attorney Position

       Griffin said that in addition to the possibility of becoming White House
Deputy Director of Political Affairs, he was also interested in becoming an
Associate White House Counsel. Griffin told us that he met with Miers
sometime in March 2005 to discuss working in the White House Counsel’s
Office. However, according to Griffin, he did not think he had the credentials
to be considered for an Associate White House Counsel position.



       82  It is unclear why Griffin was attending these meetings. According to Griffin, Taylor
had offered him the Deputy Director of Political Affairs position in February 2005, but he told
her he could not begin until after his wedding in Arkansas in early April. Taylor insisted she
needed him to begin immediately, so as a compromise Griffin said he volunteered a few days a
week acting as Taylor’s Deputy when he was in Washington. Griffin said that the Directors
meetings were regular morning meetings called by Rove and attended by the Directors and
Deputies of the White House offices under Rove’s supervision, such as the Office of Political
Affairs and the Office of Intergovernmental Affairs.




                                             121
       Griffin said that he also knew before he met with Miers that the White
House wanted to replace Cummins. In the course of their conversation, Miers
asked him what he wanted to do with his career, and she told him that the
position of U.S. Attorney for the Eastern District of Arkansas might become
vacant. She asked him if that was something he would be interested in.
Griffin told Miers that his goal at the time was to work in the White House, but
he also said that he wanted to be U.S. Attorney in the future. Griffin said that
Miers expressed the concern to him that he might have difficulty becoming a
U.S. Attorney after having worked for the White House Office of Political Affairs.

       A review of the limited e-mail traffic that the White House provided to us
during this investigation shows that Miers, Rove, and Taylor discussed
employment options for Griffin in late March 2005. In an e-mail exchange
dated March 22, 2005, Miers informed Rove that among the options she had
discussed with the White House Presidential Personnel Office was to place
Griffin in a political slot in one of the two Arkansas U.S. Attorney’s Offices, or
to have Griffin replace the Deputy Director of the Office of Legal Policy at the
Department of Justice. Rove responded, “What about him for the U.S. Attorney
for the Eastern District of Arkansas?” Miers replied to Rove that it was
“definitely a possibility” because the U.S. Attorney there was going to be
replaced. In the March 2005 e-mail, Miers also wrote that she and Griffin had
discussed Griffin’s desire to someday become U.S. Attorney, but Griffin told her
he wanted to work at the White House in the immediate future. Miers wrote
that Griffin told her that he knew the U.S. Attorney position required Senate
confirmation and could take time, and Griffin was seeking more immediate
employment because he was going to be married soon.

       Rove forwarded his e-mail exchange with Miers to Taylor. Taylor
responded, “My fear is they end up putting him [Griffin] at Justice (which he
does not want to do); it’s a year before he’s made U.S. Attorney, if ever.” In
another e-mail dated March 24, 2005, Taylor wrote to Rove that Griffin “would
love to be U.S. Attorney – he’d love to come here in the meantime.”

      At the end of March 2005, Griffin decided to accept the offer to become
Deputy Director of Political Affairs at the White House. 83 Griffin said that
Taylor made it clear to him when he took the job that he had to commit to
staying at the White House until after the November 2006 election unless the
Arkansas U.S. Attorney position opened up before then. Griffin began working
at the White House on April 14, 2005.




       83  Griffin said that as Deputy Director of Political Affairs he primarily focused on hiring
political appointees throughout the Executive Branch, with the exception of the appointment of
U.S. Attorneys, which was handled by the White House Counsel’s Office.




                                               122
      Cummins said that throughout 2005 he and Griffin had numerous
conversations about Griffin becoming U.S. Attorney when Cummins left,
although Cummins said he had always assumed that the decision to resign
would be his to make. Cummins told us that he just assumed Griffin would
get the job because he was so well connected politically.

       Griffin told us that even though he had such conversations with
Cummins, he did not take action to push Cummins to move on. Rather, Griffin
said, “I was laying low.” Griffin also said that under no circumstances would
he have told Cummins that his name was on a list of U.S. Attorneys the White
House was seeking to replace. Griffin said that to him, Cummins being
removed and his becoming U.S. Attorney were on two separate tracks. Griffin
said, “I didn’t know why he was being fired, but I knew that if he was going to
be fired, then I wanted to be considered for that job.”

       In August 2005, while still working at the White House, Griffin was
notified that his Army Reserve unit was going to be mobilized to Fort Campbell,
Kentucky. Griffin left the White House for Fort Campbell in September 2005.
Griffin said that before he left he discussed with Miers his concern that
someone else would be appointed U.S. Attorney before Griffin’s tour of duty
ended. Griffin said he had a distinct recollection that in either August or
September 2005 Rove told him that he and Miers had discussed Griffin’s desire
to become U.S. Attorney, and Rove indicated to Griffin something to the effect
that “it may work out.”

      Griffin said that while he was on Army Reserve duty during the fall of
2005, he was in frequent contact with Scott Jennings (who had replaced Griffin
as the White House Deputy Director of Political Affairs) and others in both the
White House and the Department of Justice. Jennings told us he did not know
why Cummins was removed. Jennings also said he believed Cummins had
publicly stated that he was looking for another job. Jennings said that while it
was the White House’s intention that Griffin would eventually become U.S.
Attorney in Arkansas, he did not believe that Cummins would be removed in
order to make that happen.

       As noted previously in this report, the initiative to replace U.S. Attorneys
lay dormant for several months after Sampson sent Miers his March 2005 list.
Cummins told us that although he had thought he might begin job hunting by
the end of 2005, the First Assistant U.S. Attorney in his office took early
retirement and Cummins felt it was not a good time to be out of the office
actively seeking employment.




                                       123
            4.    January 2006 Removal List Identifies Griffin as
                  Cummins’s Replacement

      On January 9, 2006, after consulting with Goodling, Sampson sent an e-
mail to Miers and Deputy White House Counsel William Kelley discussing “the
remov[al] and replace[ment] of U.S. Attorneys whose four year terms have
expired.” Sampson provided the names of nine U.S. Attorneys he
recommended removing, along with potential replacement candidates for five of
them. As one of the five replacements, Sampson recommended that Griffin
replace Cummins in the Eastern District of Arkansas.

       During the fall of 2005 and spring of 2006, while on Army Reserve duty,
Griffin had stayed in contact with Jennings and others in the White House, and
with Sampson at the Department. Sampson told congressional investigators
that sometime in the spring of 2006 Miers asked him about the possibility of
Griffin becoming U.S. Attorney in the Eastern District of Arkansas. Sampson
said that since Cummins was on the list of U.S. Attorneys who might be
removed, Sampson began to move the process forward. Sampson told us that
he believes, however, that the White House would have deferred to the
Department if it had indicated reluctance to remove Cummins.

       We were unable to find any documentation reflecting Miers’s inquiry to
Sampson in the spring of 2006 about Griffin replacing Cummins. We found
one e-mail dated April 10, 2006, in which Griffin informed Sampson that he
was going to be sent to Iraq the following month and asked Sampson, “Is
everything still on track?” Griffin forwarded his résumé to Sampson on
April 26, 2006, and wrote, “Thank you for all your help. I greatly appreciate it.”

      In an e-mail dated May 11, 2006, Sampson asked Deputy White House
Counsel Kelley to call to discuss Griffin’s nomination for U.S. Attorney in the
Eastern District of Arkansas. In early June 2006, Griffin sent by e-mail his
résumé and military biography to Associate White House Counsel Richard
Klingler, who was assigned to work on U.S. Attorney and judicial nominations
in the Eighth Circuit, which included Arkansas.

       Griffin told us that while he was in Iraq he communicated with Jennings
and Rove about becoming U.S. Attorney when he returned to the United States.
According to Griffin, no one promised him he would be U.S. Attorney when he
returned, although Rove assured him that the White House was at a minimum
obliged to bring him back to the White House because he had been on military
leave.




                                       124
              5.     Griffin’s Nomination Process

       On June 13, 2006, an administrative assistant to Miers called EOUSA
Acting Deputy Director Natalie Voris to request pre-nomination paperwork for
Griffin for the position of U.S. Attorney in the Eastern District of Arkansas. 84
Voris told us that she thought there was a mistake because there was no
vacancy in Arkansas at the time. According to Voris, the routine procedure
was to forward the pre-nomination paperwork after candidates had been
interviewed by the Department’s selection panel, and after the White House
Judicial Selection Committee had made its decision about who to recommend
to the President. Voris said the June 13 request from the White House “raised
a lot of red flags in [her] mind” because she had never heard anyone say that
Cummins was leaving, and there had been no panel interviews for the Eastern
District of Arkansas U.S. Attorney position. Voris said she talked to Goodling,
who confirmed that the pre-nomination paperwork should be filled out for
Griffin because Cummins was being asked to resign so Griffin could take his
place.

      As requested, Voris transmitted Griffin’s pre-nomination paperwork to
the White House on June 13, 2006. Later that evening, Goodling sent
Sampson an e-mail informing him that the White House had received Griffin’s
pre-nomination paperwork. Goodling informed Sampson that she would direct
EOUSA Director Battle to call Cummins the following day to tell him to resign.

      E-mail records show that Goodling kept Sampson informed about the
status of Cummins’s resignation and Griffin’s upcoming nomination. Sampson
said that once the President had approved Griffin to be the nominee on
June 21, 2006, all that was left for the Department to do was to “make it
happen.”

       In her congressional testimony, Goodling said she advised McNulty in the
early spring of 2006 that Griffin would be replacing Cummins at some point,
and a June 13 e-mail to Sampson from Goodling states that she had advised
the Office of the Deputy Attorney General that “this was likely coming several
months ago.” McNulty told us that he was aware sometime during the summer
of 2006 that Cummins had been asked to move on to make a place for Griffin,
but he said he did not know at the time how Griffin had come to the
Department’s attention.

      Gonzales told us that he recalled that “the White House was interested in
seeing if we could find a way to get Griffin in,” and that Griffin was “well

       84 Voris said that the pre-nomination paperwork consists of the candidate’s résumé, a
photograph, a White House data information sheet containing the personal data of the
candidate, and a transmittal memorandum from the Attorney General to the White House
Counsel recommending the candidate for possible presidential nomination.




                                            125
qualified,” although Gonzales said he could not recall how he learned that
information. Gonzales approved the pre-nomination paperwork forwarding
Griffin’s name to the President on June 13, 2006.

       Battle told us that Goodling instructed him to call Cummins, thank him
for his service, and tell him that the Administration wanted to give someone
else the opportunity to serve. Battle said that Goodling also asked him to
determine how much time Cummins would need to move on and to report back
to her his reaction. According to Battle, Goodling did not tell him who was
going to replace Cummins. Battle said he was upset about having to make the
call to Cummins, especially because he had visited Cummins’s district a few
months earlier and had had a great visit. Battle said he had spent 2 days in
the district meeting with Cummins’s management staff, and said he believed
the office was performing at a high level. However, Battle did not raise any
objections or discuss his concerns with any Department leaders. He made the
call to Cummins, as instructed, on June 14, 2006.

      Battle said that when he called Cummins, Cummins asked whether he
had done something wrong. Battle responded that he had been asked to make
the call but was not aware of anything and was not in a position to discuss the
matter. Battle said he told Cummins something along the lines of “U.S.
Attorneys serve at the pleasure of the President and sometimes the
Administration wants to go in a different direction and give someone else the
opportunity to serve.” Battle said that Cummins said he knew he was going to
be asked to move on, and was aware that Griffin would likely replace him.

       Cummins said Battle told him he would likely have 60 to 90 days to
resign. Cummins told us that although he had had a few conversations with
friends and colleagues about leaving, he had not done much to seek other
employment. Cummins said that he “had no plan to leave without a plan, and
I didn’t have a plan the day they called me.” Cummins said he assumed that
Griffin or someone else had become impatient after Cummins had indicated to
Griffin that he would resign but had not done so. Cummins said that after the
call from Battle, he began looking for a job in the private sector.

                  a.     Allegation that the Department Intended to Bypass
                         the Senate Confirmation Process

       One of the allegations concerning Griffin’s appointment to replace
Cummins was that the Administration intended to bypass the traditional
Senate confirmation process by installing Griffin as Interim U.S. Attorney
pursuant to 28 U.S.C. § 546. As described previously in this report, prior to its
amendment in March 2006 the statute allowed an Interim U.S. Attorney
appointed by the Attorney General to temporarily serve for 120 days, after
which the federal district court could appoint an Interim U.S. Attorney to serve
until a new U.S. Attorney was confirmed by the Senate. The amendment


                                      126
provided that the Attorney General could appoint an Interim U.S. Attorney to
serve indefinitely, or until the Senate confirmed a new U.S. Attorney. In the
next section, we discuss the facts leading to Attorney General Gonzales’s
December 2006 decision to appoint Griffin to be the Interim U.S. Attorney.

                     b.      The Pre-Nomination Process

      On June 20, 2006, Goodling informed Sampson that Battle had
instructed Cummins to resign. On June 21, the White House’s Judicial
Selection Committee voted in favor of Griffin’s nomination, and the President
signed the intent to nominate Griffin for the upcoming vacancy.

       According to e-mails exchanged between Goodling and Griffin in late
June and early July 2006, Goodling notified Griffin that the Department would
begin his background investigation during the week of June 28. However, on
July 5, 2006, Goodling informed Griffin that the investigation had been delayed
because the White House had neglected to contact the Arkansas Senators to
inform them of the intent to nominate Griffin, which was the standard
procedure. 85 Griffin responded that “both chiefs of staff [to the Senators] are
my very good friends . . . it could potentially be a mistake if they were not the
first people in each office to hear my name and learn of movement on my
front.” Goodling replied that she had discussed the matter with Associate
White House Counsel Klingler, who told Goodling that he would make the calls
and would reach out to Griffin if they needed his assistance.

      According to both Griffin and Cummins, in early July Klingler called
Arkansas Congressman Boozman, the Republican leader of Arkansas’s
congressional delegation, and told him that the White House had decided to
remove Cummins as U.S. Attorney and replace him with Griffin. According to
Cummins, when Boozman’s staff informed the Democratic Senators’ staffs, the
news apparently was not well received.

       Cummins said that Bob Russell, Senator Pryor’s Chief of Staff, called him
to confirm what they had heard from Boozman’s staff – that Griffin was going
to replace Cummins as U.S. Attorney. Cummins said he explained to Russell
that he had been thinking about leaving, and he told Russell he did not believe
it was in his best interest for Senator Pryor to raise concerns about his
removal. Cummins said he was not embarrassed that he was being removed

       85  Goodling’s e-mail informed Griffin that the standard procedure was for the White
House to wait to ask the Department of Justice to send the pre-nomination paperwork until
after the home-state Senators had been consulted, and she acknowledged that the White
House had called the Department “a little too soon.” According to Sampson, the normal
procedure for nominating U.S. Attorneys was to have a vacancy and then to solicit candidate’s
names from the home-state Senators or from the lead congressional delegation member in the
President’s party.




                                            127
because he did not have any questions about his performance as U.S. Attorney.
However, he thought it would be enormously embarrassing to the Department
to have to explain that the White House wanted to remove him merely to let
Griffin serve as the U.S. Attorney.

       In early August 2006, while Griffin was still in Iraq, the White House
arranged for him to speak to Senator Pryor about his proposed nomination.
According to Griffin, the telephone call did not go well. Griffin said that both
Pryor and his Chief of Staff told Griffin they had concerns about his
qualifications to be U.S. Attorney.

       Griffin said that although he was filling out the paperwork in preparation
for the nomination process at that time, he was discouraged by the
conversation with Senator Pryor and thought that if worse came to worst the
President might give him a recess appointment as U.S. Attorney. 86 In mid-
August, Griffin returned to the United States.

                      c.     Indefinite Interim Appointment Proposed for
                             Griffin

       Griffin told us that in August 2006, sometime after he had spoken to
Senator Pryor, he learned that an appointment under the Patriot Act
amendment would allow him to serve as Interim U.S. Attorney indefinitely.
Griffin said he had the sense that was a definite possibility in the face of
Pryor’s opposition, although he said he did not want to have to use that
avenue.

       In August 2006, Sampson, Goodling, and Jennings discussed how to
proceed with Griffin’s nomination in view of Senator Pryor’s opposition.
Another concern was that Griffin was still considered a White House employee
when he returned from Iraq, although Griffin said the White House had no
position open for him at the time.

      In an e-mail to Sampson on August 18, Goodling proposed that the
Department hire Griffin as a political appointee and then detail him to the
Eastern District of Arkansas as Interim U.S. Attorney. Goodling said that
because Cummins had not yet resigned, however, she would give him a target
date for his resignation, “particularly if we go this route since it’s a lot faster
than the nom/conf route, obviously.” In the August 18 e-mail exchange,
Sampson and Goodling discussed whether to appoint Griffin to the Criminal
Division or the Deputy Attorney General’s Office, and Sampson wrote that he


       86  Griffin said that at this point he was not aware of the March 2006 change in the law
which permitted the Attorney General to appoint an Interim U.S. Attorney for an indefinite
period of time.




                                             128
did not “think it should really matter where we park him here, as AG will
appoint him forthwith to be [U.S. Attorney].”

      Scott Jennings told us that he learned from the White House Office of
Legislative Affairs that the Arkansas Senators had reservations about Griffin,
which Jennings characterized as “political concerns.” Jennings said that the
problem with the Senators did not change his thinking about having Griffin go
through the Senate confirmation process; rather, he said he was wondering
what extra measures would have to be taken to make sure that Griffin’s
nomination was ultimately successful. Sampson and Jennings both told us
that the intent at this time was to have Griffin go through the confirmation
process, but first be appointed Interim U.S. Attorney and, as Jennings put it,
“show the Democratic senators [in Arkansas] he’s up for the job.” Jennings
said they reasoned that if they could get Griffin into the office he could bolster
his credentials and that would demonstrate to the Senators that he was
capable and should therefore be confirmed.

       Cummins said that by August 2006 he knew that Griffin would not be
back in Arkansas until the end of September. Cummins said he told Griffin
that if Griffin abruptly arrived as Interim U.S. Attorney just after Cummins
resigned without having another job, it would be obvious that the White House
had forced Cummins out, which could pose difficulties for Griffin. Cummins
said he proposed to Griffin that a cleaner transition would be for Griffin to
return to the Eastern District of Arkansas as a Special Assistant U.S. Attorney
while Cummins finalized his plans to return to the private sector. On
August 24, 2006, Griffin contacted Jennings about Cummins’s proposal, and
Jennings e-mailed Sampson asking for his opinion about the proposal.
Sampson replied, “I think it’s a great idea and endorse it wholeheartedly.”

      On August 24, 2006, the Arkansas Times printed an editorial stating
that Cummins would likely be stepping down in the near future. The editorial
speculated that Griffin would be Cummins’s successor. 87 The editorial also
implied Griffin may have participated in voter caging in past elections, noting: 88

       He’d likely have to endure some questioning about his role in
       massive Republican projects in Florida and elsewhere by which

       87 Cummins said he had initiated a conversation about his upcoming resignation with

a reporter for the Arkansas Times, in part because he did not want his resignation to appear to
be shocking and in part because he was trying to get the word out that he was available for
employment in the private sector. However, Cummins said that he was not the source of the
remainder of the information in the editorial.
       88  Voter caging refers to the practice of sending mail to addresses on the voter rolls,
compiling a list of the mail that is returned undelivered, and using that list to purge or
challenge voters’ registrations on the grounds that the voters on the list do not legally reside at
their registered addresses.




                                               129
      Republicans challenged tens of thousands of absentee votes.
      Coincidentally, many of those challenged votes were concentrated
      in black precincts.

      Goodling forwarded the article to Sampson and Jennings. We found no
indication that the article raised concerns about Griffin at the Department or at
the White House.

       By the end of August, the Department stopped preparing the paperwork
for Griffin to go through the formal presidential nomination and Senate
confirmation process. In an e-mail dated August 30, 2006, Griffin informed an
EOUSA staff member that he had spoken with Jennings and “[H]e doesn’t see
any reason to proceed with the senate paperwork since the appointment will
occur the other way.” Jennings told us that while he did not recall discussing
the issue with Griffin, by August 30 the White House was aware it would not be
nominating Griffin at that time. Jennings said that instead Griffin would be
given a political appointment in the Department so that he could then be
detailed to Little Rock “to wait out Bud Cummins.”

       In an e-mail dated September 13, 2006, Miers asked Sampson for the
“current thinking on holdover U.S. Attorneys . . . .” Later that day, Sampson
provided Miers with another removal list that included districts where the U.S.
Attorney position was vacant, soon to be vacant, and rumored soon to be
vacant. In his e-mail to Miers, Sampson described Cummins as a “USA in the
Process of Being Pushed Out,” and he described eight other U.S. Attorneys as
“USAs We Now Should Consider Pushing Out.” Sampson noted, “I strongly
recommend that, as a matter of Administration policy, we utilize the new
statutory provisions that authorize the AG to make USA appointments.”
Sampson wrote that by bypassing the Senate confirmation process, “we can
give far less deference to home-state Senators and thereby get (1) our preferred
person appointed and (2) do it far faster and more efficiently, at less political
cost to the White House.”

       Sampson told congressional investigators that his recommendation to
use the Attorney General’s appointment authority in this manner never got any
“traction” for any district other than the Eastern District of Arkansas.
Sampson said he did not recall discussing the recommendation with Attorney
General Gonzales at the time.

     Gonzales told us that he had no specific recollection of discussing with
Sampson at this time the idea of using his interim appointment authority to
bypass Senate confirmation, and Gonzales said he would not have supported
it.




                                      130
                  d.     Griffin Returns to Arkansas as a Special Assistant
                         U.S. Attorney

       Griffin’s military leave ended on September 26, 2006, and he returned to
the White House for 1 day. On September 28, 2006, he was appointed to a
political position as a Counselor to the Criminal Division Assistant Attorney
General and was immediately detailed to the U.S. Attorney’s Office in Little
Rock as a Special Assistant U.S. Attorney.

      Griffin told us that because he considered Cummins to be a friend, he
did not want to push him out without having another job. Griffin said that
when Cummins still did not have another job by October 2006, Griffin asked
Cummins to stay until after the election in November 2006, because Griffin
was concerned that if Cummins left before the election Griffin would be the
subject of political attacks.

     Cummins said that he had made up his mind to leave sometime in
November, but Griffin asked him to stay until Griffin returned in mid-
December from a long-planned vacation.

      In mid-October 2006, Sampson forwarded to Elston, the Deputy Attorney
General’s Chief of Staff, the e-mail Sampson had sent to Miers on
September 13 listing the status of certain U.S. Attorneys recommended for
replacement and noting that Cummins was “in the process of being pushed
out.” In an e-mail dated October 17, 2006, Elston responded that he agreed
with Sampson’s recommendations. Elston told us that he did not question
Cummins’s inclusion on the list because he understood that Cummins had
indicated he was going to resign and the Administration had chosen Griffin to
take his place.

      C.    Attorney General Gonzales Appoints Griffin Interim U.S.
            Attorney

    In an e-mail on December 1, 2006, Griffin notified Goodling that
Cummins intended to resign on December 20, 2006.

       On December 8, a panel composed of Battle, Margolis, and Goodling
interviewed Griffin for the position of Interim U.S. Attorney. Later that day,
Goodling sent an e-mail to Griffin informing him that the Attorney General
intended to appoint him Interim U.S. Attorney, and she asked Griffin to “keep
this information close hold . . . until we notify the Chief Judge and the
Senators of the Attorney General’s action.” Griffin said that after his interview
with the panel, Goodling informed him that he would be appointed pursuant to
the Patriot Act amendment, which would allow him to serve indefinitely.

      On December 13 and 15, 2006, Attorney General Gonzales and Senator
Pryor discussed Gonzales’s intention to appoint Griffin Interim U.S. Attorney.


                                      131
According to Sampson, Pryor had contacted the Attorney General on
December 13 after he learned that Cummins planned to resign on
December 20.

       Gonzales told us that during their conversation on December 15, he
informed Senator Pryor that he was going to appoint Griffin to be Interim U.S.
Attorney to replace Cummins, and he sought to determine whether Pryor would
eventually support Griffin’s nomination. Gonzales said he conveyed his hope
that Senator Pryor would do so, and asked Pryor to meet with Griffin.
Gonzales said that when he informed Senator Pryor that Griffin was going to
serve as Interim U.S. Attorney, he also told Pryor that he wanted to see how
Griffin would perform and that Griffin’s interim appointment would also give
Pryor the opportunity to see how Griffin would do. According to Gonzales,
Pryor agreed to meet with Griffin sometime after the upcoming holidays. 89

       D.     Public Concerns About Griffin’s Appointment

      On December 16, 2006, Griffin forwarded to Goodling an article that
appeared on the front page of the Arkansas Democrat Gazette stating that
Senator Pryor was “irked” by the “surprise notice that ex-Rove aide [was]
named U.S. Attorney.” Goodling responded that the important thing was that
Pryor’s position concerning Griffin was somewhat open and Griffin had a real
opportunity as Interim U.S. Attorney to win Pryor’s support. On December 18,
Goodling forwarded the article to Oprison at the White House.

      In an e-mail on December 19, Sampson directed the Department’s Office
of Public Affairs to use talking points he wrote in responding to press inquiries
about the circumstances of Griffin’s interim appointment. The talking points
stated that when a U.S. Attorney vacancy arises, someone needs to be
appointed even if on an interim basis to fill the vacancy, that Griffin was
appointed as the Interim U.S. Attorney because of the timing of Cummins’s
resignation, and that the Department “hoped that there would be a U.S.
Attorney who had been nominated and confirmed in every district.”

       Oprison e-mailed Sampson on December 19 that he believed the term
“Interim U.S. Attorney” was problematic because the Arkansas Senators could
use Griffin’s interim status to press for their own nominee rather than
supporting Griffin’s nomination. Oprison also expressed concern that the

        89 Sampson also spoke with Arkansas Senator Blanche Lincoln’s Chief of Staff about

Griffin. In an e-mail dated December 15, 2006, to Goodling and Associate White House
Counsel Chris Oprison, Sampson wrote:
        “Chris, I think the White House (you) needs to continue the dialogue with the Senators
re our desire to have the President nominate, and the Senate confirm, Griffin. They think they
smell a rat, i.e., that we are doing an end around of their advice and consent authority by
exercising the new, unlimited AG appointment authority.”




                                             132
Arkansas Senators were “taking steps to back [the Department and the White
House] into a corner” by refusing to commit to considering Griffin’s
nomination.

       Sampson responded to Oprison in an e-mail on the same day, “I think we
should gum this to death . . . .” Sampson suggested that because Griffin’s
interim appointment was technically of unlimited duration, the Department
could ask the Senators to give Griffin a chance and if they still opposed Griffin
after a period of time, the Department could “run out the clock” while
appearing to be acting in “good faith” by asking the Senators for
recommendations, interviewing other candidates, and pledging to desire a
Senate-confirmed U.S. Attorney. Sampson wrote, “our guy is in there so the
status quo is good for us.” Sampson also noted that there was a risk that
Congress would repeal the Attorney General’s appointment authority for
Interim U.S. Attorneys. Finally, Sampson wrote, “I’m not 100 percent sure that
Tim was the guy on which to test drive this authority, but know that getting
him appointed was important to Harriet, Karl, etc.”

      Sampson, who later testified that using the interim appointment
authority to bypass Senate confirmation was a “bad idea at the staff level,” told
us that the idea of using this new authority was confined to Griffin and not any
other U.S. Attorney positions. He admitted that he had advocated for more
widespread use of the authority in September 2006, but said he did not really
believe it was practical and Attorney General Gonzales never seriously
considered it. Sampson told us that he was not sure that the Attorney General
would have genuinely considered using the authority even in Griffin’s case.
Sampson said that at the time the Department was experiencing some pressure
from White House Political Affairs Director Taylor and others at the White
House to use the appointment authority for Griffin in the face of Senator
Pryor’s reluctance to commit to supporting his nomination. Sampson stated
that he believed Attorney General Gonzales was far too cautious and careful
and would not support the idea of bypassing Senate confirmation. Sampson
said that at the time he believed that Gonzales was hopeful that he could
persuade Senator Pryor to support Griffin’s nomination.

      Sampson said that by late December 2006 or early January 2007,
Gonzales had specifically rejected the idea of using the interim appointment
authority to install Griffin indefinitely as U.S. Attorney, although Sampson said
he could not remember exactly when he and Gonzales discussed the issue.

      Gonzales told us that he could not recall a specific discussion with
Sampson about use of the interim authority to bypass the Senate confirmation
process. However, Gonzales said he recalled that Sampson raised the
possibility of using the authority to appoint Griffin and Gonzales opposed it,
thinking it was “a dumb idea.”



                                      133
      Oprison told us that he did not think Sampson was speaking for the
Department when he sent the December 19 e-mail suggesting that “we should
gum this death.” Oprison said he did not think there was a plan to avoid
sending Griffin’s nomination to the Senate for confirmation, although he
described it as a very fluid situation. Oprison said he recalled discussions at
the White House about whether they should seek other candidates or stick
with Griffin, but the ultimate decision was to stick with Griffin.

      However, several individuals, including Cummins, told us that Griffin
stated openly and repeatedly that he would be in the office for 2 years, with or
without Senator Pryor’s approval, pursuant to the Attorney General’s interim
appointment authority. Balfe, the U.S. Attorney for the Western District of
Arkansas, told us that when he asked Griffin how he could stay on as U.S.
Attorney without Pryor’s approval of his nomination, Griffin said he was
promised he would be U.S. Attorney for 2 years, whether Pryor approved or not.
Balfe said he could not recall whether Griffin told him about the Patriot Act
provision at that time or if he already knew about it from press accounts, but
he said he understood that Griffin meant he would be in office for more than
120 days. U.S. Attorney Jane Duke, who was the First Assistant U.S. Attorney
in the Eastern District of Arkansas at the time, told us that when Senator Pryor
began to question Griffin’s credentials, Griffin told her that Pryor did not have
to approve his nomination because Griffin was going to be placed in office
under a little-known provision in the Patriot Act and his appointment would
not expire. Griffin acknowledged to us that he discussed his potentially
indefinite appointment openly and he “probably” said that he would be U.S.
Attorney for 2 years with or without Pryor’s support.

       Cummins also told us that around this time he ran into Bob Russell,
Senator Pryor’s Chief of Staff, who asked Cummins if it was true that the
Department intended to keep Griffin in office without Pryor’s approval.
Cummins said he did not confirm Russell’s speculation, but he did not deny it
either because he did not want to lie.

     On December 20, 2006, Cummins officially resigned as U.S. Attorney
and Griffin was sworn in as the Interim U.S. Attorney.

      On January 9, 2007, Griffin, accompanied by Nancy Scott-Finan of the
Department’s Office of Legislative Affairs, met separately with Arkansas
Senators Pryor and Lincoln. Scott-Finan told us that both Senators were upset
that Griffin had been appointed Interim U.S. Attorney in anticipation that he
would be nominated for the permanent position without any prior consultation
with them.

      Scott-Finan said that Senator Pryor also asked Griffin about allegations
that he had participated in voter caging. Scott-Finan said Griffin “explained [it]
away” by putting it in the context of a “direct mail marketing” process, and he


                                       134
characterized what the Republican National Committee had done as checking
for bad addresses rather than challenging voters. In response to Senator
Pryor’s statement that by checking for bad addresses Griffin was laying the
groundwork for challenging voters, Griffin told Pryor that in the end votes were
not challenged. In addition, Griffin said that any decisions to challenge votes
were made above his level. Scott-Finan said that she had the sense that
Senator Pryor was not open to considering Griffin’s nomination.

      Cummins told us that by January 2007 he had begun to be concerned
that the story he told publicly – that he had been planning to leave but had
agreed to help Griffin transition into the role of U.S. Attorney – was being
questioned in light of the numerous articles that were published concerning
the U.S. Attorney removals in general and articles about Griffin’s appointment
in particular. Cummins, who characterized his previous responses to such
questions as “evasive”, said he did not want to lie if he was asked directly
whether he was fired.

       On January 13, the Arkansas Democrat Gazette ran a story quoting
Cummins as saying that the Director of EOUSA had asked him to step down
and had assured Cummins that his removal was not because of his job
performance, but rather because the Administration wanted to give someone
else the opportunity to be the U.S. Attorney.

      On January 17, Gonzales spoke again with Senator Pryor about whether
Pryor would support Griffin’s nomination and confirmation. According to
Gonzales, Pryor expressed his concern that the Attorney General was using his
appointment authority to avoid the Senate confirmation process. Gonzales
said he pointed out to Pryor that he could have appointed Griffin for 120 days
under the old law governing the Attorney General’s appointment authority.
Gonzales said he told Pryor that if Pryor decided he could not support Griffin,
then the Administration would solicit other candidates.

      E.    The Attorney General’s and the Deputy Attorney General’s
            Testimony

      On January 18, the day after Gonzales spoke to Senator Pryor, the
Attorney General testified before the Senate Judiciary Committee that the
Department had asked certain U.S. Attorneys to resign after evaluating their
performance, and these changes were made pursuant to his responsibility to
ensure that the Department had “the best possible person” in each district.
Gonzales also testified that the Administration was fully committed to having a
Presidentially appointed, Senate-confirmed U.S. Attorney in each district.

      Cummins told us that he grew concerned when he learned about the
Attorney General’s testimony because it implied that the dismissals were
undertaken in order to improve the management in each office, and he said he



                                      135
“knew damn well that wasn’t why they were changing out the U.S. Attorney in
Little Rock.” Cummins said that since he had now admitted publicly he had
been asked to leave, he believed the Attorney General’s testimony lumping him
together with the other U.S. Attorneys who had been asked to resign put
Cummins in an embarrassing position. Cummins therefore called McNulty to
express his concerns, and Elston, McNulty’s Chief of Staff, returned
Cummins’s call.

       This began a series of telephone calls and e-mail exchanges between
Cummins and Elston. Cummins said he expressed concern to Elston about
the accuracy of the Department’s public statements and the unfairness of the
Attorney General’s Senate testimony regarding the need to improve
management in each district, which did not apply to Cummins. Cummins said
he told Elston he was also concerned about the Attorney General’s statement
that the Department was going to nominate and confirm a U.S. Attorney in
every district because Griffin had indicated to Cummins more than once that
he would stay on as Interim U.S. Attorney with or without Senator Pryor’s
support. Cummins said that Elston indicated to him that there were serious
performance-related reasons for the removal of the other U.S. Attorneys,
although they did not discuss specific U.S. Attorneys. Cummins also said that
Elston told him that Griffin would have to go through the nomination process
or resign because the Department would not agree to let him serve indefinitely
as Interim U.S. Attorney.

       Elston told us that because he had no reason to believe that performance
was an issue with Cummins, he was sympathetic to Cummins’s concerns
about being categorized as having been removed to improve management in his
district. 90 McNulty told us he was also sympathetic to Cummins because his
sense of the situation was not that Cummins was underperforming, but that
the Administration wanted to give Griffin the opportunity to serve as U.S.
Attorney.

      McNulty said that he discussed Cummins with Sampson and others
during the preparation sessions for his upcoming congressional testimony, and
no one told McNulty there were performance concerns with Cummins.
Therefore, on February 6 when McNulty testified before the Senate Judiciary
Committee, he publicly stated that Cummins was in a separate category from
the other U.S. Attorneys because he was asked to step aside not for
performance reasons but to make way for Griffin. 91


       90 Elston also said that when he learned about the Department’s effort to identify weak
U.S. Attorneys and ask them to move on, he distinguished Cummins from the others because
Elston understood that Cummins had said he was planning to leave but had not yet left.
       91 In addition, McNulty later told congressional investigators that Sampson did not tell
him during the preparation for his Senate testimony that Cummins was put on the list or
(Cont’d.)


                                             136
       F.     The Department’s Written Response to Congressional
              Concerns About Griffin’s Appointment

      In light of McNulty’s testimony regarding Cummins and Griffin, on
February 8 Senators Harry Reid, Charles Schumer, Richard Durbin, and Patty
Murray wrote to Attorney General Gonzales to express concern about the
circumstances of Cummins’s removal and Griffin’s appointment. The Senators
requested information concerning issues such as the timing of the decision to
appoint Griffin to replace Cummins and the role Karl Rove played in the
decision to appoint Griffin.

      The Department responded to the Senators’ letter on February 23, 2007.
Sampson drafted the response, which was signed by Richard Hertling, the
Acting Assistant Attorney General for the Office of Legislative Affairs. Sampson
circulated the draft response to Goodling, McNulty, Elston, Moschella, Hertling,
and Scolinos. The letter was reviewed and edited by Associate White House
Counsel Oprison and returned to Sampson, who had the final sign-off on the
language.

      The Department’s response made three affirmative statements: (1) “It
was well known as early as December 2004, that Mr. Cummins intended to
leave”; (2) “the decision to have Mr. Griffin replace Mr. Cummins was first
contemplated in the spring or summer of 2006 [and] the final decision to
appoint Mr. Griffin . . . was made on or about December 15”; and (3) “The
Department is not aware of Karl Rove playing any role in the decision to
appoint Mr. Griffin.”

       All three of these statements were misleading. On March 28, 2007, the
Department informed Senators Leahy and Schumer that its review of
documents collected in response to congressional requests revealed that the
representations made in the Department’s February 23 response were
inaccurate. The Department did not specify the inaccuracies in Hertling’s
letter, but simply noted that the documents the Department had produced
contradicted certain statements in the February 23 letter.

     With respect to the first misleading statement - that the Department
knew in December 2004 that Cummins intended to leave - Cummins had not
announced in December 2004 that he intended to leave. The only indication

removed for any performance-related reasons. Further, Elston told us that Sampson was “in
the room” during McNulty’s preparation session when the group discussed what McNulty
would say, and no one said there were performance issues related to Cummins’s removal. In
an e-mail after McNulty’s testimony, which contained Sampson’s proposed draft response to
congressional concerns about Cummins’s removal, Sampson endorsed McNulty’s testimony
that Cummins’s removal was not connected to his performance “but more related to the
opportunity to provide a fresh start with a new person in that position.”




                                           137
we found relating to Cummins’s intent to leave his position at some point in the
future was his statement in the small news item in the December 30, 2004,
edition of the Arkansas Times, a free weekly Arkansas paper. As previously
mentioned, the article stated that with four children to put through college,
Cummins said he would likely begin exploring other career options, and that “it
wouldn’t be ‘shocking’ . . . for there to be a change in his office before the end
of Bush’s second term.”

      We asked Cummins whether it was true that in December 2004 he had
made it known that he planned to leave office. He told us that he had only
discussed the issue in general terms, as indicated in the article in the Arkansas
Times. Cummins said he did not recall discussing his leaving office with
anyone at the Department at the time, and he characterized as “ludicrous” the
idea that senior managers at the Department made personnel decisions based
on an article about Arkansas politics appearing in a free weekly tabloid. 92

       The second misleading statement in the letter – that Griffin’s
appointment was first contemplated in the spring of 2006 – is directly
contradicted by the January 9, 2006, e-mail Sampson sent to Miers, discussed
above, in which Griffin is listed as a replacement for Cummins. The statement
that the final decision to appoint Griffin was made around December 15, 2006,
following Gonzales’s discussion with Senator Pryor, is also misleading. As
noted previously in this chapter, Sampson informed Goodling on August 18,
2006, that the Attorney General would appoint Griffin U.S. Attorney
“forthwith.”

      The third misleading statement in the Department’s letter was the
statement that the Department was not aware of Karl Rove being involved in
the decision to appoint Griffin. However, in a December 19 e-mail to Oprison
at the White House, Sampson stated that he knew Griffin’s appointment “was
important to Harriet [and] Karl.”

      Oprison, who reviewed and edited the Department’s draft response to the
Senators, told us that when he reviewed the draft he did not remember
Sampson’s December 19 e-mail. In an e-mail to Sampson on February 23,
2007, Oprison attached the letter with “slight revisions,” along with the
message that “Fred [Fielding], as I, want to ensure that it is absolutely
consistent with the facts and that it does not add to the controversy
surrounding this issue.” Oprison told us that he had not been employed at the
White House when the issue of Griffin’s appointment first arose. He also stated

       92   We found evidence that Deputy White House Liaison Angela Williamson forwarded
the 2004 Arkansas Times article to Goodling on February 5, 2007. Sampson forwarded the
article to Kelley at the White House on February 21, 2007, with the notation: “Addendum to
the Cummins tick tock.” However, we found no evidence that anyone at the Department was
aware of the article prior to February 5, 2007.




                                            138
that it was likely he was asked to review the response because Deputy White
House Counsel Kelley was not in the office and there was a short turn around
time for the response. Oprison stated that because the response was from the
Department, he did not feel it was his role to “exercise due diligence” to confirm
the factual assertions contained in the letter, even though the letter contained
representations concerning White House personnel.

      Sampson testified to the Senate Judiciary Committee that he “widely
circulated” the draft response to the letter and that no one disagreed with the
statement claiming no knowledge that Rove played any role in Griffin’s
appointment. Sampson also said that at the time he drafted the response, he
was unaware of whether Rove actually was interested in Griffin’s appointment.
When Sampson was asked about the contradiction between this response and
his December 19 e-mail in which he asserted that he knew that Griffin’s
appointment was “important to Harriet and Karl,” Sampson said the
December 19 e-mail was based on an assumption on his part. Sampson said
he knew firsthand that Griffin’s appointment was important to Sara Taylor and
Scott Jennings at the White House, and he assumed that since they reported to
Rove, Griffin’s appointment was also important to Rove. Sampson said that
when he was drafting the February 23 response, he thought to himself that he
did not know whether Rove was actually interested in Griffin’s appointment.
Sampson also said he did not recall ever discussing the matter with Rove.

       Moreover, Sampson told us that he believed the other statements in the
letter were accurate. With respect to the statements that Griffin’s appointment
was first contemplated in the spring of 2006 and the final decision to appoint
him was made on December 15, Sampson testified that when he drafted the
response he was focused on when the Attorney General independently decided
to appoint Griffin, which Sampson stated was after Gonzales had discussed the
matter with Senator Pryor in mid-December 2006. Sampson said the response
he drafted reflected this timing, and said he circulated it to make sure others
thought it was accurate.

       We also determined that in the initial draft of the Department’s
February 23 response, Sampson proposed to Goodling, McNulty, Elston,
Moschella, Hertling, and Scolinos that the letter state up front that “in the
spring of 2006, White House Counsel Miers asked the Department if Mr. Griffin
could be considered for appointment as U.S. Attorney upon his return from
Iraq.” Sampson told us that the wording was changed in the final version of
the letter to delete any mention of Miers and to make the White House’s role in
Griffin’s appointment seem more passive. When we asked Sampson why that
change was made, he said he had the general sense after the back-and-forth
with the White House concerning the letter that Miers’s name was deleted so as
not to “feed red meat up to these guys.”




                                       139
      During our interview, Sampson described the incoming letter as “pretty
accusatory,” and he said he tried to draft a response that was accurate,
responsive, and agreeable to the White House. Sampson said he believed the
Department’s response was accurate, although he did not personally check the
factual assertions in the letter.

       Richard Hertling, who became Acting Assistant Attorney General for the
Office of Legislative Affairs on January 9, 2007, after serving 4 years in the
Department’s Office of Legal Policy, told us that the responses were too “cute.”
Hertling acknowledged that the Department’s response misstated the timing of
the decision to appoint Griffin and whether Rove was involved in Griffin’s
appointment. Hertling said that at the time he signed the response he was
unaware that the facts as stated in the letter were not accurate. Hertling said
he did not even become aware that the U.S. Attorneys had been removed until
sometime in mid-January 2007, after he became Acting Assistant Attorney
General. Hertling said that Sampson prepared the response to the specific
questions about Griffin. 93 Hertling said he assumed that the response was
truthful, accurate, and complete, and said he had no basis to question the
representations contained in the letter.

      With respect to the statement that Rove did not play a role in the
decision to appoint Griffin, Hertling told us that he had a vague recollection of
asking Sampson whether Rove was involved in Griffin’s nomination. According
to Hertling, Sampson responded that he did not talk to Rove about Griffin and
he did not think Gonzales did either. Hertling said he did not press the issue
because the way the statement was worded seemed accurate.

       G.     Griffin Withdraws

      On February 15, 2007, Attorney General Gonzales and Senator Pryor
again discussed whether Pryor would support Griffin’s nomination as U.S.
Attorney. Gonzales told us that during their conversation Pryor indicated he
would not support Griffin’s nomination. Gonzales said he then told Pryor that
he would confer with the Arkansas congressional delegation for names of other
individuals to consider for the U.S. Attorney position, as he had previously
agreed to do.

       Griffin told us that Goodling called him immediately after Gonzales’s
conversation with Pryor to tell him about the discussion. Later that evening,
Griffin announced that he was withdrawing his name from consideration for
the permanent U.S. Attorney position.



       93 Sampson prepared the initial draft response and asked Goodling to verify the specific

dates concerning Griffin’s appointment.




                                             140
      During our interview, Gonzales said he was reluctant to discuss with us
conversations he had with the White House concerning his commitment to
Senator Pryor to find other candidates. Gonzales said, however, that the White
House was “unhappy that I had honored my commitment” to Pryor.

      Griffin told us that Rove informed him that individuals in the White
House were unhappy with Gonzales when they learned that he told Pryor that
he would not recommend Griffin’s nomination to the White House because
Pryor would not support Griffin.

       Shortly after Griffin withdrew his name from consideration, Gonzales told
Griffin that the process of identifying alternate candidates, vetting them, and
preparing a nomination would take several months and that Gonzales was
happy to have Griffin serve as Interim U.S. Attorney while the process moved
forward. Griffin did so for several months and resigned on June 1, 2007.

       H.     Taylor’s Comment Concerning Cummins

      On February 16, 2007, after Griffin had announced he was withdrawing
his name from the nomination process, White House Political Affairs Director
Sara Taylor sent Sampson an e-mail expressing anger at the manner in which
the Department had “forced” Griffin to withdraw. Taylor also stated in the e-
mail that, “McNulty refuses to say Bud is lazy – which is why we got rid of him
in the first place.”

       When we asked Taylor why she had the impression Cummins was “lazy,”
she said she did not personally know Cummins and she did not recall
specifically where she first heard that Cummins was lazy. 94 Taylor told us that
she had the general impression that lawyers in Arkansas did not think highly
of Cummins, but also said she did not recall how she received that impression.
Taylor said it was possible that she received a negative impression of Cummins
from Griffin, but she said she did not believe that he was her only source. She
stated that because Griffin was on her staff, she talked to “tons of Arkansans”
who visited the White House whenever they were in Washington. Taylor said
she likely gained her impression of Cummins through a combination of
information from Griffin and from other Arkansas attorneys.

      Griffin told us he did not remember ever telling Taylor that Cummins was
lazy. Griffin said he did not personally believe Cummins was lazy. However,
he said that he had heard similar comments about Cummins from other people
and was sure he had passed on the comments. Griffin admitted that in 2005
and 2006 he might have made negative comments about Cummins to


       94 In her Senate testimony, Taylor stated that she wanted to apologize to Cummins for

her “unkind and unnecessary comment.”




                                            141
Sampson, Taylor, and others along the lines of complaining about Cummins’s
failure to get another job.

       We asked former White House Deputy Director of Political Affairs
Jennings whether he was aware of any criticism concerning Cummins’s
performance as U.S. Attorney. Jennings told us that he had heard both Griffin
and Taylor criticize Cummins. Jennings said “the knock on [Cummins]
specifically from Mr. Griffin was that [Cummins] was generally regarded as
being lazy, and it was a widely known thing in legal circles in Little Rock.”
Jennings said that Griffin and Taylor also criticized Cummins for not being in
the office while he was looking for another job. Jennings acknowledged that
Taylor’s awareness about events in Arkansas most likely came from Griffin.


III.   Analysis

       A.   Cummins’s Removal

      Similar to our investigation into the reasons for Graves’s removal, our
investigation of Cummins’s removal was hindered by the refusal of several
former White House employees to cooperate with our investigation. In
particular, Rove, Miers, Kelley, and Klingler had important and relevant
information for our investigation, but they refused to cooperate with our
investigation and be interviewed by us. However, we believe we were able to
ascertain the reasons for Cummins’s removal.

       Sampson included Cummins as one of many “weak U.S. Attorneys” on
his first removal list in March 2005. When we interviewed Sampson, he said
that he could not recall specifically why he identified Cummins for potential
removal on this list. Sampson said he felt that Cummins was mediocre and an
underperformer, although he also said he could not recall learning anything
specific about Cummins’s performance between 2001 and 2005 that would
have supported this belief. Sampson acknowledged that his view of Cummins
was colored by information he gained from Cummins’s nomination process, not
from Cummins’s performance as U.S. Attorney. While Sampson told us that he
thought other Department managers also viewed Cummins’s performance as
mediocre, none of the Department managers we interviewed confirmed this or
said they had provided such an assessment to Sampson.

      In fact, several of the Department’s senior managers, including Deputy
Attorneys General Comey and McNulty, Associate Deputy Attorney General
Margolis, and EOUSA Director Buchanan, told us they did not hear anything
negative about Cummins’s performance. Michael Battle, the Director of
EOUSA at the time of Cummins’s removal, had an extremely positive view of
Cummins’s service as U.S. Attorney. Battle said that he was not aware of any
problems or dissatisfaction within the Department concerning Cummins’s
performance, and Battle added that he considered Cummins to be one of the


                                      142
top five U.S. Attorneys in the country. In addition, the two EARS evaluations of
Cummins’s office over a 4-year period were positive about his management of
the office and his adherence to the Department’s priorities.

      We also found no factual underpinning for certain derogatory public
comments that surfaced about Cummins after the Department removed him.
For example, the Department produced to Congress e-mail records between
Sampson and White House Political Affairs Director Taylor. In one e-mail,
Taylor commented angrily that Cummins was “lazy – which is why we got rid of
him in the first place.” Taylor subsequently apologized for this comment, and
we found no support for this comment during our investigation.

        The evidence shows that once Sampson provided to the White House his
initial list of U.S. Attorneys recommended for removal, White House officials
pushed for Griffin to replace Cummins. In mid-March 2005 Karl Rove
suggested to White House Counsel Harriet Miers that Griffin could be
considered for Cummins’s U.S. Attorney position, and Miers discussed with
Griffin his desire to become a U.S. Attorney. Over the next year, throughout
Griffin’s tenure both at the White House and during his military service, Griffin
continued to discuss his desire to be U.S. Attorney in Arkansas with Rove and
Miers.

       In Sampson’s January 2006 list of U.S. Attorneys, he recommended that
the White House remove Cummins and listed Griffin as a potential replacement
for Cummins. After the removals, Sampson claimed that by January 2006
Cummins had indicated that he intended to resign and that this was the
reason Griffin was chosen to replace him. In fact, Cummins had not stated at
that time when he intended to resign. Rather, Cummins had only indicated to
a small Arkansas newspaper that it would not be shocking for him to leave
before the end of President Bush’s second term.

      Nevertheless, in June 2006, before Cummins had made any plans to
resign, the White House began Griffin’s pre-nomination process. On June 14,
EOUSA Director Battle was instructed to ask Cummins for his resignation and
inform him that the Administration wanted to give someone else the
opportunity to serve. While Battle was surprised and upset at the directive, he
did not question it and made the call as instructed.

       In sum, while Sampson said he thought Cummins was “mediocre,”
primarily based on his interview of Cummins before he became the U.S.
Attorney, neither Sampson nor anyone else in the Department evaluated
Cummins’s performance before Cummins was placed on the initial removal list.
After that, the White House began pressing for Griffin to be placed in
Cummins’s position, and in June 2006 Cummins was instructed to resign to
provide a place for Griffin.




                                      143
      B.    Misleading Statements about Cummins’s Removal

       We found that after Cummins was instructed to resign and Griffin was
announced as his replacement, senior Department leaders made a series of
conflicting and misleading statements about Cummins’s removal.

       First, in talking points Sampson drafted on December 19, 2006, for the
Department’s Office of Public Affairs to use in response to any press inquiries
about the circumstances of Griffin’s appointment, Sampson wrote that when a
U.S. Attorney vacancy arises someone needs to be appointed even if on an
interim basis to fill the vacancy and that Griffin was appointed because of the
timing of Cummins’s resignation. In fact, the White House and the Department
had directed Cummins to resign so that Griffin could take his place. The
Department’s talking points left the misleading impression that because of the
unexpected timing of Cummins’s resignation, the Department had to install
Griffin as Interim U.S. Attorney. In fact, the Department planned to remove
Cummins and install Griffin.

       In his January 18, 2007, testimony before the Senate Judiciary
Committee, Attorney General Gonzales testified that the Department had asked
U.S. Attorneys to resign after evaluating their performance, and changes were
made pursuant to the Attorney General’s responsibility to ensure that the
Department had “the best possible person” in each district. However, we found
no evidence that either Sampson or any other Department official evaluated
Cummins’s performance. Nor does the evidence show that Griffin was chosen
to replace Cummins because Griffin was considered to be the “best possible
person” for the job.

      Moreover, contrary to the Attorney General’s testimony, Deputy Attorney
General McNulty testified in his February 6 appearance before the Senate
Judiciary Committee that Cummins was not asked to step aside for
performance reasons, but rather to make way for Griffin. In an e-mail after the
testimony, Sampson endorsed McNulty’s statement that Cummins’s removal
was not connected to his performance, but was “more related to the
opportunity to provide a fresh start with a new person in that position.”

      After this public testimony, the Department made other misleading
statements about Cummins’s removal. The most troubling were the
representations contained in the February 23 response to a letter from several
Senators raising concerns about Cummins’s removal. The Department’s
February 23 letter, drafted by Sampson and circulated to various Department
senior managers and the White House, made three significant misleading
statements. The first was that “It was well known as early as December 2004
that Mr. Cummins intended to leave . . . .” In fact, as noted above, Cummins
had simply said it would not be shocking for him to leave before the end of
President Bush’s second term.


                                     144
         The second concerned the timing of when the White House first
contemplated Griffin’s appointment and when the final decision was made to
appoint Griffin. The letter stated that “the decision to have Mr. Griffin replace
Mr. Cummins was first contemplated in the spring or summer of 2006 [and]
the final decision to appoint Mr. Griffin . . . was made on or about December 15
. . . .” In fact, as discussed above, Griffin’s appointment was contemplated
earlier than that, and the Department decided to appoint him to be the U.S.
Attorney much earlier than December 15, 2006.

       The third misleading statement in the letter was that “The Department is
not aware of Karl Rove playing any role in the decision to appoint Mr. Griffin.”
This statement is contradicted by the evidence described in this chapter which
indicated that Rove was involved in the decision to appoint Griffin and that
Sampson was aware of that fact. The statement is also contradicted by
Sampson’s own e-mail on December 19 to Associate White House Counsel
Chris Oprison in which Sampson wrote, “I’m not 100 percent sure that Tim
was the guy on which to test drive this authority, but know that getting him
appointed was important to Harriet, Karl, etc.” While Sampson later explained
this e-mail by stating that he “assumed” but did not know that Rove was
involved in the decision to appoint Griffin, we found this justification
unpersuasive and belied by the evidence.

      C.    Interim Appointment of Griffin

      Finally, our investigation examined the allegation that the Department
intended to appoint Griffin to be Interim U.S. Attorney indefinitely by using the
new authority granted to the Attorney General in the Patriot Reauthorization
Act to bypass the Senate confirmation process.

       We concluded that when the Department initially developed and
implemented the plan to replace Cummins with Griffin, it intended to nominate
Griffin and seek his confirmation through the normal Senate process. After
Cummins was directed in June 2006 to resign, the White House’s Judicial
Selection Committee voted in favor of Griffin’s nomination, and the President
signed off on the intent to nominate Griffin. However, the White House did not
follow the traditional practice of informing the home-state congressional
delegation and soliciting U.S. Attorney candidate names. This deviation from
the customary procedure contributed to the belief that the Administration
intended to bypass the Senate’s normal role in U.S. Attorney nominations.

      The selection of Griffin quickly ran into opposition from members of
Congress from Arkansas, particularly Senator Pryor. The evidence indicated
that at this point the Department officials responsible for Griffin’s nomination –
particularly Sampson and Goodling – considered appointing Griffin to be the
Interim U.S. Attorney indefinitely, using the new Patriot Act authority. For
example, Griffin told us that he learned from Goodling sometime after he had


                                       145
spoken to Senator Pryor that an appointment as Interim U.S. Attorney under
the Patriot Act amendment would allow him to serve as U.S. Attorney
indefinitely.

       Moreover, although Sampson and Jennings told us that the problems
with the Arkansas Senators did not change their thinking about having Griffin
go through the traditional nomination and Senate confirmation process, the
documentary evidence does not support this claim. For example, by mid-
August 2006 the Department had stopped preparing the paperwork for Griffin
to be nominated by the President and confirmed by the Senate. In addition, in
an e-mail dated August 30, 2006, Griffin informed an EOUSA employee that he
had spoken with Jennings who “doesn’t see any reason to proceed with the
senate paperwork since the appointment will occur the other way.” In a
September 13, 2006, e-mail to Miers, Sampson also wrote, “I strongly
recommend that, as a matter of Administration policy, we utilize the new
statutory provisions that authorize the AG to make USA appointments.”
Sampson wrote that by bypassing the Senate confirmation process, “we can
give far less deference to home-state Senators and thereby get (1) our preferred
person appointed and (2) do it far faster and more efficiently, at less political
cost to the White House.”

      Gonzales told us that he had no specific recollection of discussing this
issue with Sampson at the time, although he said he did not support using the
interim appointment authority to bypass the Senate confirmation process.

       In December 2006, after Cummins resigned, Griffin was appointed as
Interim U.S. Attorney. Gonzales discussed Griffin’s appointment in several
conversations with Senator Pryor. According to Gonzales, he asked Pryor to
support Griffin and said that Griffin’s interim appointment would give Pryor the
opportunity to see how Griffin performed. Pryor did not respond positively, and
a newspaper article from Arkansas stated that he was “irked” by the surprise
notice of Griffin’s appointment as Interim U.S. Attorney. Sampson then wrote
another e-mail suggesting that Griffin should remain as the Interim U.S.
Attorney indefinitely, bypassing Senate confirmation. In response to concern
from White House Associate Counsel Oprison that the Arkansas Senators could
use Griffin’s interim status to press for their own nominee, Sampson responded
“I think we should gum this to death . . . .” Sampson also wrote that because
Griffin’s interim appointment was of unlimited duration, the Department could
“run out the clock” while appearing to be acting in good faith by asking the
Senators for recommendations, interviewing other candidates, and pledging to
desire a Senate-confirmed U.S. Attorney.

       Sampson later disavowed this e-mail, labeling it a “bad idea at the staff
level.” He also said that he did not really believe the plan was practical, and
that Attorney General Gonzales never seriously considered it. Gonzales also
told us that he did not support this idea. In addition, in the face of continuing


                                       146
opposition from Senator Pryor to Griffin’s appointment, Griffin resigned and the
Department sought other candidates to be nominated to the U.S. Attorney
position.

       Our investigation did not find evidence that Attorney General Gonzales
ever supported the idea to appoint Griffin to an indefinite term to avoid the
Senate confirmation process. However, the evidence showed that he was not
closely involved in Griffin’s appointment process, and that Sampson, the main
architect and implementer of the plan to replace U.S. Attorneys, advocated
making Griffin the Interim U.S. Attorney indefinitely when his nomination was
opposed by the Arkansas Senators. According to Sampson’s and Gonzales’s
recollections, Sampson took these actions on his own, without input and
supervision from Gonzales. But Sampson’s ideas were more than “a bad idea
at the staff level” – he advocated a plan and began implementing it. Only in the
face of determined opposition by Senator Pryor, as well as the controversy
surrounding the removal of the other U.S. Attorneys, did Sampson abandon
this plan.

       In sum, we concluded that Cummins was not removed for performance
reasons, as initially suggested by the Department. His performance was never
evaluated, and no Department leader had suggested that Cummins’s
performance was lacking. Sampson stated that he thought Cummins was
“mediocre” but he never assessed his performance, and he later agreed with
McNulty that Cummins was not removed for performance reasons. Rather, the
evidence shows that the main reason for Cummins’s removal, and the timing
for his removal, was to provide a position for former White House employee
Griffin.




                                      147
[PAGE INTENTIONALLY LEFT BLANK]




             148
                                                                                                                                                                                                                                                                                                      Oct 16, 2006
                                                                                                                                                                                                                                                                                                      Representative Wilson calls Iglesias
                                                                                                                                                                                                                                                                                                      about public corruption case

    David Iglesias Timeline
                                                                                                                                                                                                                                                                              Oct 11, 2006                                     Oct 26, 2006

                                                                                                                                                                                                                                                                              President Bush tells Gonzales                    Domenici calls Iglesias about public
                                                                                                                                                                                                                                                                              about voter fraud concerns in three              corruption case and asks whether an
                                                                                                                                                                                                                                                                              cities, including Albuquerque                    indictment will be filed before November
           Sep 2001

           Iglesias Events
                                                                                                                                                                                                                                                                                                                                     Nov 7, 2006
           and Actions                                                                                                                                                                                                                                          Oct 4, 2006
                                                                                                                                                                                                                                                                                                                                     Iglesias’s name appears on Sampson’s
                                                                                                                                                                                                                                                                Domenici calls McNulty concerning Iglesias
                                                                                                                                                                                                                                                                                                                                     removal list for the first time
                                               Sep 2004
                                               Iglesias establishes a voter fraud task force
                                                                                                                                                                                                                                                                        Oct 2, 2006
                                                                                                                                                                                                                 Jan 31, 2006                                                                                                                Nov 15, 2006
                                                                                                                                                                                                                                                                        New Mexico Republicans complain
                                                                                                                                                                                                                 Domenici makes second call to                                                                                               Rove tells Wilson that Iglesias is “gone”
                                                                                                                                                                                                                                                                        to Rove about Iglesias’s handling of
                                                                                                                                                                                                                 Gonzales concerning Iglesias
                                                                                               Sep 2004 - 2006                                                                                                                                                          courthouse public corruption and
                                                                                                                                                                                                                                                                        voter fraud cases
                                 Jun 2004 - Sep 2004                                           Task Force reviews complaints, but brings no cases                                                                                                                                                                                                        Dec 7, 2006
                                 Iglesias hears concerns from New                                                                                                                                                                                                                                                                                        Iglesias is told to resign
 Oct 12, 2001                    Mexico Republican officials and                                                                                                                                                         Apr 6, 2006                                      Sep 30, 2006
                                 party activists about voter fraud
                                                                                                                                                               Sep 23, 2005
 Iglesias is confirmed by the                                                                                                                                                                                            Domenici makes third call to
                                                                                                                                                               Senator Domenici makes first call to                                                                       Vigil’s retrial results in acquittal                                                  Jan 5, 2007
 Senate as the U.S. Attorney,                                                                                                                                                                                            Gonzales concerning Iglesias
                                                                                                                                                               Gonzales concerning Iglesias                                                                               on 23 of 24 counts
 New Mexico                                                                                                                                                                                                                                                                                                                                                     Iglesias announces his resignation to his office



Sep 2001        Oct 2001        Jun 2004       Jul 2004              Sep 2004          Oct 2004              Jan 2005         Feb 2005         Mar 2005               Sep 2005        Oct 2005        Jan 2006   Feb 2006           Apr 2006         May 2006         Jun 2006               Sep 2006            Oct 2006        Nov 2006            Dec 2006         Jan 2007                 Feb 2007


                                                                                                                             Mar 2, 2005                                                                          May 2006                                       Jun 21, 2006                                         Oct 2006 - Nov 2006                                             Feb 28, 2007
                                                                                                                             On the first removal list Sampson
                                                                                                                                                                                                                  New Mexico Republican officials and            New Mexico Republicans meet with                     Miers calls McNulty                                             Iglesias leaves office
                                                                                                                             identifies Iglesias as a “strong” U.S.
                                                                                                                                                                                                                  activists complain about Iglesias's            Department officials, including                      about Iglesias
       Sep 2001                                                                                                              Attorney who should not be removed
                                                                                                                                                                                                                  handling of a public corruption case           Goodling, to complain about Iglesias                                                                                 Iglesias reveals publicly that Domenici
                                                                                                                                                                                                                  involving Vigil, a New Mexican Democrat
       DOJ and Other                                                                                                                                                                                              who is the state treasurer
                                                                                                                                                                                                                                                                                                                                                                                      and Wilson called him in October
                                                                                                                                                                                                                                                                                                                                                                                      2006 about the courthouse case
       Events and Actions                                                                                        Jan 2005 - Oct 2005
                                                                                                                 New Mexico Republican officials and activists complain to the
                                                                                                                                                                                                                                                                                          Oct 2006
                                                                                                                 White House about Iglesias's handling of voter fraud allegations                                                                                                         Rove tells Gonzales about voter fraud
                                                                                                                                                                                                                                                                                          concerns in three cities, including
                                                                                                                                                                                                                                                                                          Albuquerque, then Gonzales tells Sampson
                              CHAPTER SIX
                             DAVID IGLESIAS

I.    Introduction

      This chapter examines the removal of David Iglesias, the former United
States Attorney for the District of New Mexico.

      A.    Iglesias’s Background

      Iglesias received his law degree from the University of New Mexico School
of Law in 1984. From 1984 to 1988, he served in the U.S. Navy Judge
Advocate General’s Corps (JAG). After leaving active duty service, he has
served on reserve duty in the Navy JAG, where he holds the rank of Captain.

       From 1988 through 1991, Iglesias was an Assistant Attorney General in
the New Mexico Attorney General’s Office, after which he served as an Assistant
City Attorney in Albuquerque from 1991 to 1994. Between 1994 and 1995, he
participated in the White House Fellows program as a Special Assistant to the
Secretary of Transportation. He served as Chief Counsel for the New Mexico
Risk Management Legal Office between 1995 and 1998, and as General
Counsel for the New Mexico Taxation and Revenue Department from 1998 to
2001. In 2001, he worked at a private law firm in Albuquerque.

       In 1998, Iglesias ran unsuccessfully as the Republican Party’s candidate
for New Mexico Attorney General. During the campaign, staff from U.S.
Senator Pete Domenici’s office provided advice and logistical support, and
Iglesias met personally with Senator Domenici on several occasions. Domenici
also made a videotaped statement endorsing Iglesias’s candidacy, which
Iglesias used to raise campaign funds. Iglesias told us that because of the
Senator’s interest and support, Iglesias regarded him as a mentor and someone
who might be able to help Iglesias if he continued to pursue a political career.

      U.S. Representative Heather Wilson successfully ran for a seat in
Congress from New Mexico in 1998, and Iglesias campaigned with her at
several events. Iglesias said that previously, when Wilson was the Secretary of
the New Mexico Department of Children, Youth and Families from 1995 to
1998, he worked with her on several matters while he was in the state’s Risk
Management Legal Office.

       During the 2000 Presidential campaign, Iglesias headed a New Mexico
state-level organization called “Lawyers for Bush.” He said that after the
election he learned that he could apply directly for the New Mexico U.S.
Attorney position through a White House website. He submitted his résumé



                                      149
and simultaneously informed Senator Domenici’s staff that he was interested
in the job.

       Iglesias and three other candidates were eventually selected to be
interviewed by Senator Domenici. Iglesias told us he believes he may have
been the only one whose name was sent on to the Department of Justice. He
said he was interviewed at the Department by Associate Deputy Attorney
General David Margolis, Kyle Sampson (then with the White House Office of
Presidential Personnel), and a third official from the Executive Office for United
States Attorneys (EOUSA). After subsequent interviews with Attorney General
John Ashcroft and Deputy Attorney General Larry Thompson, Iglesias was
nominated by the President for the U.S. Attorney position on August 2, 2001,
confirmed by the Senate, and sworn in on October 17, 2001. 95

      Iglesias was appointed as the Chair of the Border and Immigration
Subcommittee of the Attorney General’s Advisory Committee (AGAC) and
served in that position until 2005.

      According to Iglesias, at various times in 2004 the White House asked
him to consider an appointment to be Director of EOUSA, or an Assistant
Secretary at the Department of Homeland Security, two positions he said he
was not interested in pursuing. Documents also reflect that around the same
time Sampson and others in the Department considered him as a potential
candidate for U.S. Attorney vacancies in the Southern District of New York and
the District of Columbia.

       B.     The EARS Evaluations of Iglesias’s Office

      Iglesias’s office received EARS evaluations in 2002 and 2005, and both
reports were positive. The 2002 EARS evaluation stated: “The United States
Attorney was well respected by the client agencies, judiciary, and USAO staff.
He provided good leadership . . . and was appropriately engaged in the
operations of the office.” The 2005 EARS evaluation stated: “The United States
Attorney . . . was respected by the judiciary, agencies, and staff. The First
Assistant United States Attorney . . . appropriately oversaw the day-to-day
work of the senior management team, effectively addressed all management
issues, and directed resources to accomplish the Department’s and the United
States Attorney’s priorities.” The EARS reports did not contain any criticisms
or concerns about Iglesias’s leadership.


       95 Iglesias hired as his Executive Assistant U.S. Attorney (EAUSA) Rumaldo Armijo, a
former colleague from both the state Attorney General’s Office and Albuquerque city
government. Iglesias hired Larry Gomez, a career prosecutor who had been with the New
Mexico U.S. Attorney’s Office (USAO) since 1979 as the First Assistant U.S. Attorney and
Criminal Chief.




                                            150
      C.       Iglesias’s Status on the Removal Lists

       As discussed in Chapter Three, in March 2005 Sampson sent to the
White House the first list of U.S. Attorneys recommended for removal. On that
list, Sampson identified Iglesias as 1 of 26 “strong” U.S. Attorneys who should
be retained by the Department. Iglesias did not appear on any of Sampson’s
subsequent removal lists until the list Sampson circulated on November 7,
2006, 1 month before Iglesias and the other U.S. Attorneys were removed.

      D.       Reasons Proffered for Iglesias’s Removal

      As described in Chapter Three, in February 2007 when the Department
began to prepare witnesses for their congressional testimony regarding the U.S.
Attorney removals, Monica Goodling and others created a chart with a list of
the reasons justifying the removals. In her handwritten notes describing the
reasons, Goodling wrote that Iglesias was an “underachiever in a very
important district,” that he was an “absentee landlord,” that he was “in over his
head,” and that “Domenici says he doesn’t move cases.”

      Senator Domenici made three telephone calls to Attorney General
Gonzales in 2005 and 2006, and one to Deputy Attorney General Paul McNulty
in October 2006, complaining about Iglesias’s performance. However,
Domenici’s complaints were omitted from the list of reasons for Iglesias’s
termination, both in the final typewritten chart that Goodling prepared for
McNulty’s use in his February 14, 2007, briefing of the Senate Judiciary
Committee and from Department officials’ initial statements about Iglesias’s
removal. 96

      According to the talking points McNulty used to prepare for the
February 14 briefing for the Senate Judiciary Committee and notes of the
meeting taken by Nancy Scott-Finan, an Office of Legislative Affairs official who
attended the briefing, McNulty gave the following reasons for Iglesias’s removal:

           •   He was “under-performing”;
           •   He was an “absentee landlord,” who was out of the office a fair
               amount of time and who relied on the First Assistant U.S. Attorney
               to run the office; and
           •   The Department had received congressional complaints about
               Iglesias.

       McNulty confirmed to us that he did not mention Senator Domenici in
this congressional briefing. McNulty said that he did not want to refer to


      96   We describe the telephone calls from Domenici later in this chapter.




                                              151
Domenici because he was “concerned about . . . putting the Senator in a bad
light or in a difficult position” and that he wanted to keep his conversation with
Domenici “confidential . . . . It was just a courtesy.” In her written testimony
to the House Judiciary Committee, Goodling, the Department’s White House
Liaison, also stated that Domenici’s complaints about Iglesias were omitted
from the list of reasons for Iglesias’s removal at McNulty’s suggestion.

       On March 6, 2007, Principal Associate Deputy Attorney General William
Moschella testified before a House Judiciary Subcommittee about the reasons
for the removals of each U.S. Attorney. Moschella stated that Iglesias’s removal
was based on concerns about his management of the New Mexico U.S.
Attorney’s Office:

       There was a general sense with regard to this district . . . that the
       district was in need of greater leadership. We have had a
       discussion about the EARS report, and the EARS report does pick
       up some management issues, and Mr. Iglesias had delegated to his
       first assistant [Larry Gomez] the overall running of the office. 97
Moschella, like McNulty, did not mention Domenici’s calls to Department
officials.

       Iglesias himself was the first to publicly disclose that Senator Domenici
may have had a role in his removal. In a press conference on February 28,
2007, without naming Senator Domenici or Representative Wilson, Iglesias
stated that he had received telephone calls from two members of Congress who
pressured him to indict a public corruption case before the November 2006
election. In response, on March 4 and March 6, respectively, Domenici and
Wilson released written statements confirming that they had called Iglesias but
denying that they pressured him in any way.

       In his testimony before the Senate Judiciary Committee on March 6,
2007, Iglesias again stated that he believed he was asked to resign because he
failed to respond to political pressure to indict a public corruption case against
Democratic officials before the November 2006 election. In his Senate
testimony, Iglesias described the telephone calls he received from Senator
Domenici and Representative Wilson in October 2006 regarding the status of a
pending public corruption matter, and Iglesias testified that in both instances
he felt he was being pressured to bring an indictment before the November
election.

      Sampson testified before the Senate Judiciary Committee on March 29,
2007, about the removals of the U.S. Attorneys. Sampson stated that he did

       97 As we discuss in Section II. A. below, Moschella’s statements about the EARS report

were inaccurate.




                                            152
not recall the reasons Iglesias was placed on the November 7 removal list, but
said the fact that Senator Domenici had made three calls to the Attorney
General and one call to the Deputy Attorney General regarding Iglesias may
have influenced the decision to remove Iglesias. Sampson said he recalled
McNulty saying that Domenici would not mind if Iglesias’s name stayed on the
list. Sampson also stated that there were management concerns about
Iglesias. He said that in 2005 William Mercer, at the time the Principal
Associate Deputy Attorney General, “expressed negative views about Mr.
Iglesias . . . and recommended that he not be reappointed . . . as chair of the
Border Committee.” 98 Sampson also stated that “at some point, Mr. David
Margolis . . . indicated to me . . . that [Iglesias] wasn’t a strong manager, that
he delegated a lot to his First Assistant.” 99

       On April 19, 2007, Gonzales told the Senate Judiciary Committee that
Iglesias had “lost the confidence of Senator Domenici” because he “did not have
the appropriate personnel focused on cases like public corruption cases.” In
his May 10, 2007, testimony before the House Judiciary Committee, Gonzales
added that because Iglesias did not have Domenici’s confidence, it was “enough
for me to lose confidence in Mr. Iglesias.” During Gonzales’s House and Senate
testimony, he also stated that in one of his conversations with Domenici the
Senator mentioned voter fraud cases.

      Gonzales also testified that in the fall of 2006 Karl Rove had mentioned
to him his concern over voter fraud in three cities, one of which was
Albuquerque, New Mexico. Gonzales said he did not recall, but did not
dispute, that President Bush expressed similar concerns to him about the
same three cities on October 11, 2006.

       E.     Investigative Limitations

      It is important to note that our investigation into Iglesias’s removal was
hampered, and is not complete, because key witnesses declined to cooperate
with our investigation. In particular, former White House officials Harriet
Miers and Karl Rove, both of whom appear to have significant first-hand
knowledge regarding Iglesias’s dismissal, refused our requests for an interview

       98 When he chaired the Attorney General’s Advisory Committee in February 2005,
Mercer had recommended to Sampson that Iglesias and several other subcommittee chairs be
replaced because Mercer did not think they were as effective chairmen as Mercer thought they
should be. However, Mercer told us that while some of the names on Sampson’s U.S. Attorney
removal list did not surprise him when he first saw the list on December 5, 2006, he had not
expected to see Iglesias on the list.
       99   However, as detailed below, Margolis told us he was certain that he told Sampson
about these allegations only after Iglesias was removed. Margolis said he only became aware of
Iglesias’s delegation of authority to his First Assistant when he interviewed a replacement for
Iglesias after his removal.




                                             153
even though the White House Counsel’s Office informed them both, as it did all
current and former White House staff who we wanted to interview, that the
Counsel’s Office encouraged them to cooperate with our investigation and
submit to an interview.

      In addition, Senator Domenici and his Chief of Staff, Steve Bell, also
declined to be interviewed by us. Domenici initially told us through his
counsel that he would be “pleased to assist” our investigation once a pending
Senate Ethics Committee investigation of his phone call to Iglesias was
completed. We renewed our requests for interviews after the Senate ethics
inquiry was concluded. Bell continued to decline to be interviewed. Domenici
also declined to be interviewed, but said he would provide written answers to
questions through his attorney. We declined this offer because we did not
believe it would be a reliable or appropriate investigative method under these
circumstances. In contrast, Representative Wilson cooperated with our
investigation and was interviewed by us three separate times. 100

       In addition, we were not provided documents from the White House that
we believe are critical to our investigation. As noted in Chapter One, the White
House Counsel’s Office declined to provide us internal White House e-mails
and documents related to the removals of the U.S. Attorneys. Moreover, as
described in Chapter One, the White House refused to authorize the
Department’s Office of Legal Counsel to release to us drafts of a chronology of
events related to the U.S. Attorney firings prepared by Associate White House
Counsel Michael Scudder in cooperation with Department staff. The White
House only authorized the release of one paragraph of that chronology related
to Iglesias, Harriet Miers, and Representative Wilson, and two paragraphs
containing information Rove provided to Scudder but did not allow the release
of other information from that chronology.

      We interviewed Mickey Barnett, an attorney and former Republican state
Senator from New Mexico, who provided documents to the U.S. Senate
pursuant to a subpoena in connection with the Senate Ethics Committee
investigation of Senator Domenici’s telephone call to Iglesias. Although Barnett
gave us several documents from among those he produced to the Senate, he
refused to give us all the documents he produced and we are not able to obtain
them from the Senate Ethics Committee.




       100  Patrick Rogers, a New Mexico Republican Party activist who complained about
Iglesias to Department and White House officials, notified us through his attorney that he
would not agree to be interviewed. In one letter, he also stated that he would “consider
providing testimony to DOJ, but only if the interview is conducted in public.”




                                             154
II.   Chronology of Events Related to Iglesias’s Removal

      In this section, we examine the reasons proffered for Iglesias’s removal.
We first discuss the Department’s assertion that Iglesias was removed because
he was an “absentee landlord” and because he delegated many of his duties
and responsibilities to his First Assistant U.S. Attorney.

      We then describe in detail the factual chronology regarding Iglesias’s
handling of voter fraud and public corruption cases in his district. We analyze
whether the complaints about his handling of these cases were the cause of his
removal. We also examine the nature and extent of both congressional and
New Mexico Republican Party activists’ complaints to the White House and to
the Department about Iglesias’s handling of these cases, and we describe the
events leading to Iglesias’s removal.

      A.    Alleged Concerns about Iglesias’s Management

      As noted above, in both its written materials and public testimony, the
Department justified Iglesias’s removal based in part on an allegation that he
was an “absentee landlord” who over-delegated authority to run the U.S.
Attorney’s Office to his First Assistant.

       We determined that during the preparation sessions for McNulty’s closed
briefing, when Department senior officials were discussing the reasons they
would present to Congress as justifications for the removals, someone raised
the allegation that Iglesias had been an “absentee landlord.” No one we
interviewed remembered who called Iglesias an absentee landlord at this
meeting. According to Margolis, when he heard at the meeting the allegation
that Iglesias was an absentee landlord, he told Goodling that the allegation had
been “corroborated” by New Mexico First Assistant U.S. Attorney Gomez when
he interviewed with Margolis and Goodling for Iglesias’s vacant U.S. Attorney
position, after Iglesias had been removed. However, Margolis told us that he
was not aware of any allegations concerning Iglesias’s management style until
after Iglesias was removed because his knowledge was derived solely from his
interview of Gomez.

        As noted above, Moschella testified to the House Judiciary Subcommittee
that an EARS report “picked up some management issues, and Mr. Iglesias had
delegated to his first assistant the overall running of the office.” Moschella also
testified that he did not recall whether the EARS report characterized Iglesias’s
delegation of authority to his First Assistant as “appropriate.” We reviewed
both EARS reports and found nothing in them to substantiate Moschella’s
claim that an EARS report referred to any management issues regarding
Iglesias’s delegation of authority. The 2002 EARS report stated “The United
States Attorney was well respected by the client agencies, judiciary, and USAO
staff. He provided good leadership . . . and was appropriately engaged in the



                                       155
operations of the office.” Similarly, the 2005 EARS report stated that Iglesias
was respected by agencies, the courts, and his staff, and that his First
Assistant “appropriately oversaw the day-to-day work of the senior
management team.”

      Attorney General Gonzales testified to the Senate Judiciary Committee
on April 19, 2007, that an “absentee landlord” issue regarding Iglesias was “not
in my mind, as I recall, when I accepted the recommendation [for Iglesias’s
removal].” Gonzales also told us that his recollection was that at the time he
approved Iglesias’s removal, the only criticism of which he was aware came
from Senator Domenici, and he was not aware at that time of any concern
about over-delegation of authority by Iglesias to his First Assistant.

       Both McNulty and Mercer testified to Congress that they did not know
the basis for the allegations that Iglesias was an absentee landlord or that he
overly delegated authority. McNulty said that he did not interpret the phrase
“absentee landlord” to mean that Iglesias was physically out of his office.
Rather, McNulty said that he interpreted the phrase to refer to Iglesias’s
management style. McNulty said that he did not know who thought that
Iglesias was an absentee landlord prior to the time that Iglesias was removed.
Mercer told us that he had “no idea” how much time Iglesias spent in his office,
and he told congressional investigators that he did not have “any idea about
what sort of a leader or manager [Iglesias] was” in his office.

      Former EOUSA Director Buchanan told congressional investigators that
she was “surprised” that Iglesias was removed. She said that “everything I
knew about [Iglesias] was positive.” Former EOUSA Director Battle also told
congressional investigators that he “could see no reason” why Iglesias was
removed. Battle told us that “Iglesias was doing a good job.”

       Sampson testified to the Senate Judiciary Committee, however, that he
had heard concerns about Iglesias’s management. He said Margolis had
indicated to him that Iglesias was not a strong manager and that he “delegated
a lot” to his First Assistant. Sampson said he could not recall when Margolis
told him this. But, as discussed previously, Margolis told us he was certain
that he told Sampson about these allegations only after Iglesias was removed.
According to Margolis, when he interviewed First Assistant Gomez for the
vacant U.S. Attorney position, Gomez explained his qualifications for the U.S.
Attorney position by noting that he ran the day-to-day operations of the office.
Margolis told us that he thought that Gomez’s statement that he ran the day-
to-day operations of the office “corroborated” the allegation that Iglesias was an
absentee landlord. However, Margolis also told us that Gomez said nothing
negative about Iglesias during his interview.

       Yet, Gomez told congressional investigators that he did not think that
Iglesias over-delegated authority or was an absentee landlord. Gomez was


                                       156
Iglesias’s First Assistant and Criminal Chief from the fall of 2001 until he
became Acting U.S. Attorney upon Iglesias’s removal. Gomez has been a career
federal prosecutor since 1979. Gomez told congressional investigators that he
agreed with the 2005 EARS report that found that Iglesias “appropriately”
delegated authority to him to oversee the day-to-day work of the office. Gomez
also said that he never told the EARS evaluators that Iglesias over-delegated
authority or was absent from the office for an unusual amount of time. Gomez
said that he met with Iglesias daily when he was in the office, and spoke by
phone with him generally every day when Iglesias was out of the office. Gomez
added that, prior to Iglesias’s removal, Gomez never heard anyone say that
Iglesias over-delegated authority or was an absentee landlord. Gomez said that
Iglesias was “engaged in his office,” and that Iglesias’s management style was
“very good.” Gomez said he never heard complaints from others about
Iglesias’s management style.

      Rumaldo Armijo became Iglesias’s Executive Assistant in 2001. Armijo
told us that he never heard anyone express concern that Iglesias was an
absentee landlord or that Iglesias did not spend enough time in the office.
Armijo said that he believed that Iglesias’s delegation of authority to Gomez
was appropriate. Armijo said that Iglesias was “a strong leader” and that he
was “very active in everything that went on here.”

       Iglesias told us that no one at “Main Justice” or in his office ever told him
that he over-delegated authority. Iglesias said he delegated “routine” matters
to Gomez, but that he decided “major issues.” Iglesias said he told Gomez that
he did not need to know “about every little case that’s going on” but that he did
need to know about “cases that affect policy, national priorities, or have media
impact.” Iglesias denied he was an absentee landlord, saying many of his trips
out of the office were to Washington to work on Department matters. Iglesias
said that as an officer in the Naval Reserve, he was away from the office from 4
to 6 days at a time, including weekends. As a Naval Reserve officer, he was
required to serve 36 duty days a year, and he said that he probably averaged
40 to 45 days of service a year. But Iglesias said that no one ever told him that
his absences were hurting his office. 101 Iglesias also told us that he was in
constant Blackberry communication with his office when he was away.

       In sum, we concluded that the allegation that Iglesias was an absentee
manager who had delegated too much authority to his First Assistant was an
after-the-fact justification for Iglesias’s termination and was not in fact a
reason he was placed on the removal list.


       101Margolis told us that during the preparation sessions for McNulty’s testimony
everyone agreed that Iglesias’s absences from the office as a result of his military duty were
“honorable” and not the reason why Iglesias was deemed to be an absentee landlord.




                                              157
       B.      Voter Fraud and Public Corruption Matters

      In the remainder of this chapter, we describe the facts concerning the
complaints about Iglesias’s handling of voter fraud and public corruption
matters, which we concluded was the real reason Iglesias was removed as U.S.
Attorney.

               1.     Initial Complaints of Voter Fraud

      Iglesias told us that sometime during the summer of 2004, he became
aware of concerns about voter fraud in New Mexico. 102 The New Mexico media
began focusing on the issue around that time, and the New Mexico USAO
received complaints of possible registration fraud from several sources,
including the Democratic Clerk of Bernalillo County, Mary Herrera.

       Iglesias said that he also received pressure from the Republican Party of
New Mexico to pursue voter fraud cases before the 2004 elections. Scott
Jennings, then the White House Associate Director of Political Affairs, told us
that many Republicans believed that fraudulent registration by Democratic
Party voters in New Mexico was a widespread problem and that it had cost
President Bush the state in the 2000 Presidential election. 103 Among those
who urged Iglesias to investigate and prosecute voter fraud cases in New
Mexico were Allen Weh, the Chairman of the state Republican Party; Patrick
Rogers, a former general counsel to the state Republican Party who continued
to represent the party on voter fraud and ballot access issues; 104 Mickey
Barnett, an attorney and former Republican state senator active in party
politics; Steve Bell, Chief of Staff to Senator Pete Domenici; and Darren White,
the elected Republican Sheriff of Bernalillo County and Chairman of the 2004


        102 The terms “voter registration fraud,” “voter fraud,” and “election fraud,” generally

refer to practices such as fraudulently registering persons who are not eligible to vote, paying
individuals to vote, attempting to vote multiple times, or impersonating a non-voting
legitimately registered voter.
       103 The results of several recent presidential and congressional elections in New Mexico
were extremely close, and the state was almost evenly balanced between votes for Republicans
and Democrats. For example, in the 2000 presidential election Al Gore received 286,783 votes
and George Bush received 286,417 votes, a difference of 366 votes. In 2006, incumbent House
of Representative member Heather Wilson received 105,986 votes and her Democratic
challenger Patricia Madrid received 105,125 votes, a difference of 861 votes. The New Mexico
Republican Party became increasingly concerned about allegations of voter fraud in New
Mexico, because it believed such fraud benefited Democrats by increasing the number of
Democratic voters. As a result, Republican Party officials and activists began asking Iglesias to
take action to address those concerns.
       104Iglesias told us that Rogers had represented Iglesias’s campaign for Attorney
General pro bono in 1998 when Iglesias contested a fine imposed by the state for late reporting
of campaign contributions. Rogers also represented the Wilson campaign in 2006.




                                              158
Bush-Cheney campaign in New Mexico. 105 Iglesias said he knew all of these
individuals and considered many of them to be his friends.

       On August 6, 2004, Weh sent Iglesias an e-mail proposing that Iglesias’s
office become involved in “the party’s voter fraud working group” headed by
Sheriff White. Weh copied his e-mail to Representative Wilson; Senator
Domenici’s Chief of Staff Bell; Sheriff White; Greg Graves, former Executive
Director of the New Mexico Republican Party; New Mexico Republican
Congressman Steve Pearce; and Pearce’s Chief of Staff, Jim Richards. Bell
responded to Weh’s e-mail that this was a “critical matter” due to concerns
about potential violation of voter registration laws.

       Iglesias responded that he would ask his office’s voting rights expert,
Executive Assistant U.S. Attorney Rumaldo Armijo, to coordinate a meeting
regarding the proposal and contact White. No one associated with this
proposal that we interviewed, including Weh, White, Wilson, Armijo, and
Iglesias, said they recalled that the proposed working group was ever
established, or that Iglesias’s office participated in any such group. However,
as detailed below, Iglesias’s office continued to receive complaints from
Republican officials and party activists about allegations of voter fraud in New
Mexico.

              2.     Representative Wilson’s Complaint Concerning Voter
                     Fraud

       On August 17, 2004, Representative Wilson wrote a letter to Iglesias
complaining about what she considered to be evidence of possible voter fraud
in her district. In the letter, Wilson stated that an unusually large number of
mailings from her office to newly registered voters had been returned as
undeliverable, and she asked Iglesias’s office to “investigate whether these voter
registrations were lawful and whether any organizations or groups are
intentionally causing false voter registration forms to be filed with the county
clerk.” 106

      Iglesias responded to Wilson in a letter dated October 29, 2004,
informing her that he was referring her complaint to the FBI “for their review
and possible action. The FBI will determine whether a federal investigation
may be warranted.” Wilson forwarded Iglesias’s response to her Chief of Staff
with the handwritten comment, “What a waste of time. Nobody home at US

        105 Sheriff White referred several voter fraud complaints to the New Mexico USAO in

early August 2004, including a case that received significant attention in the local press
involving the registrations of a 13- and a 15-year-old. White is currently a Republican
candidate for Congress in one of New Mexico’s three congressional districts.
       106 Wilson told us that there was no connection between the e-mail messages from Weh

and Bell and her complaint to Iglesias.




                                             159
Attorney’s Office.” Wilson told us that she faulted Iglesias for failing to pursue
her August 17 complaint regarding possible voter fraud in a timely manner.

              3.      Formation of the Election Fraud Task Force

      We determined that in response to these and other complaints, Iglesias
consulted with his staff, spoke to attorneys in the Department’s Civil Rights
and Criminal Divisions, and contacted federal prosecutors in other districts
with experience in voter fraud matters.

       After discussions with the Criminal Division’s Public Integrity Section,
Iglesias decided to form a state and federal task force to address what he then
believed to be a serious problem of voter fraud in the state. However, in order
to avoid any public perception that the task force was seeking to advance a
Republican political agenda, Iglesias also sought the participation of the
Democratic Secretary of State, Rebecca Vigil-Giron, who agreed to assign an
employee to the task force. The New Mexico Department of Public Safety (the
state’s law enforcement agency), the U.S. Veteran’s Administration Inspector
General’s Office, the FBI, and DOJ’s Public Integrity Section (PIN) also agreed
to participate. 107

       On September 7, 2004, the New Mexico USAO issued a press release
announcing the formation of the Election Fraud Task Force. Two days later
Iglesias announced at a press conference that a voter fraud (Task Force) hotline
had been created, and he stated that allegations of fraud would be investigated
thoroughly. In addition to Executive Assistant U.S. Attorney Armijo, two
experienced career AUSAs from Iglesias’s office were assigned to work with the
Task Force. 108

       However, Iglesias’s task force approach to allegations of voter fraud drew
immediate criticism from some New Mexico Republicans. Former Republican
state senator Barnett wrote an e-mail to Iglesias stating that “[m]ost of us think
a task force is a joke and unlikely to make any citizen believe our elections and
voter registrations are honest.” Former Republican Party general counsel
Rogers complained to Iglesias that he had “includ[ed] the target on the task

       107  The Chief of the Department’s Public Integrity Section, Noel Hillman, and the Public
Integrity Section’s Election Crimes Branch Director, Craig Donsanto, also participated in this
task force.
       108  Around this time, in a letter dated September 8, 2004, Senator Domenici
complained to the Department’s Civil Rights Division that incidents of voter registration fraud
in New Mexico raised “serious concerns about the integrity of the upcoming elections.” The
Senator’s letter was referred to the Department’s Office of Legislative Affairs, which sent a
generic response on November 23, 2004, stating that the Department investigates such
allegations and “where appropriate” prosecutes them. We found no evidence that the
Department took any other action in response to the letter.




                                              160
force,” apparently a reference to the participation of an employee from the
Secretary of State’s Office. 109 Sheriff White told us that he thought the USAO
should have investigated and prosecuted cases without involving state
agencies, and that Iglesias’s concern about appearing nonpartisan was
misguided.

       Although criticized by some New Mexico Republicans, Iglesias’s task
force approach received recognition within the Department. For example, in
October 2005 Iglesias was asked to speak at a Department-sponsored
symposium on voting integrity. In addition, according to an attorney in the
Public Integrity Section, Iglesias’s approach to the problem in New Mexico was
held up by the Department as an example of how to handle voter fraud
investigations.

              4.      Continuing Complaints About Voter Fraud

       On September 15, 2004, the New Mexico USAO arranged for Rogers to
meet with the FBI Supervisory Special Agent assigned to the Task Force. At
the meeting, Rogers complained that large numbers of new voter registration
forms in the state were fraudulent and should be investigated. Rogers
identified an “ACORN” worker in particular as being responsible for a
significant number of false registrations. 110 Barnett told us that Republican
activists hired a private investigator to identify and locate the ACORN worker in
question, but they were unable to locate the worker.

       On September 19, 2004, Rogers sent an e-mail to Iglesias and Armijo
stating that because the Democratic Party had questioned the validity of the
voter fraud claims, Rogers wanted to “dig up all past info,” and asked if there
was “any easy way to access the public info related to voter fraud from the
[USAO] (public) files? Asap? Before Nov 2?” Iglesias responded that he would
look into Rogers’ question “asap and let you know what is publicly available.”
Iglesias subsequently identified a case the New Mexico USAO had prosecuted
in the early 1990’s, retrieved the file, and provided public information about
the case to Rogers, who thanked him by e-mail “for the public info.”

      On September 29, 2004, Rogers sent an e-mail to Iglesias, Armijo, and
more than 20 persons associated with the New Mexico Republican Party,

         109 On the day the Task Force was announced, Rogers sent an e-mail to Iglesias

criticizing the task force approach and attaching a copy of a deposition Rogers took of the
employee from the Secretary of State’s Office assigned to the Task Force in a lawsuit contesting
the state’s interpretation of a voter identification law.
       110  ACORN, an acronym for the Association of Community Organizations for Reform
Now, describes itself as “the largest community organization of low- and moderate-income
families, working together for social justice and stronger communities.” One of ACORN’s
projects is to register new voters.




                                             161
including Senator Domenici’s press secretary Ed Hild, Domenici’s Chief of Staff
Bell, Representative Wilson’s Chief of Staff Bryce Dustman, New Mexico
Republican Party Chairman Weh, and state Republican Party Executive
Director Graves. Rogers’s lengthy e-mail included the following observations:

       I believe the [voter] ID issue should be used (now) at all levels –
       federal, state legislative races and Heather [Wilson]’s race . . . .
       You are not going to find a better wedge issue . . . . I’ve got to
       believe the [voter] ID issue would do Heather more good than
       another ad talking about how much federal taxpayer money she
       has put into the (state) education system and social security. . . .
       This is the single best wedge issue, ever in NM. We will not have
       this opportunity again . . . . Today, we expect to file a new Public
       Records lawsuit, by 3 Republican legislators, demanding the
       Bernalillo county clerk locate and produce (before Oct 15) ALL of
       the registrations signed by the ACORN employee . . . . 111

       In a letter dated September 23, 2004, New Mexico Republican Party
Executive Director Graves asked Iglesias to investigate an alleged theft of
Republican voter registration forms from the office of the New Voter Project, an
organization that seeks to register young people to vote. On October 21, 2004,
Graves copied Iglesias on another complaint to the Bernalillo County Clerk
asking that the Republican Party be allowed to inspect ACORN voter
registration cards allegedly found during a drug raid.

      Weh also continued to pressure Iglesias to bring voter fraud prosecutions
before the 2004 election. On September 24, 2004, Weh sent Iglesias and
several Republican political figures, including the chiefs of staff to New
Mexico’s Republican congressional delegation (Jim Richards, Bryce Dustman,
and Steve Bell) an e-mail about voter fraud that included the following
statement:

       We are still waiting for US Attorney Iglesisas [sic] to do what his
       office needs to do to hold people accountable, and have informed
       him that doing it after the election is too late. I have copied him on
       this e-mail for his info.
In his message to Iglesias, Weh wrote: “Vote fraud issues are intensifing [sic],
and we are looking for you to lead.”




       111  Because of the political nature of this and other e-mails he received from Rogers
and Weh, Iglesias had previously asked them to use his personal e-mail account for these types
of e-mails. However, both Rogers and Weh continued to contact Iglesias on occasion through
his government e-mail account.




                                            162
       Weh told us he copied this e-mail to New Mexico Republican officials
because he intended to send Iglesias the message that if he “cares about his
professional reputation [he should] get his butt in gear and do what he is paid
to do.”

       In mid-October 2004, Weh forwarded Iglesias an e-mail message he had
received from Congressman Pearce’s Chief of Staff with an attached newspaper
article about voter fraud in Colorado. The next day, Weh forwarded an e-mail
to Iglesias from the assistant to Senator Domenici’s Chief of Staff Bell that was
addressed to Weh, Rogers, and John Dendahl, a former Republican Party
Chairman and gubernatorial candidate. The original message read: “From
Steve Bell. This [voter fraud] is really getting out of control.” Weh added the
following message for Iglesias: “The game clock is running!”

            5.    Election Fraud Task Force Review of Complaints

       The USAO’s Election Fraud Task Force met several times before the
November 2004 election to review complaints of voter fraud. Iglesias informed
his staff that Department of Justice policy prohibited their influencing the
outcome of an election and that he did not believe the Department would
authorize the commencement of any prosecutions before election day.

       According to an AUSA on the Task Force, most of the complaints the
Task Force received involved what it considered to be relatively minor matters,
such as campaign yard signs being stolen, harassing phone calls, or
registration problems, and these complaints were referred to local election
officials. Other potentially more serious matters, including the complaints
from Representative Wilson, Sheriff White, Graves, and Rogers, were referred
either to the FBI or to the New Mexico Department of Public Safety for
investigation.

       In total, the Task Force received more than 100 complaints prior to the
2004 election. The FBI investigated several potential violations of federal law
and presented written summaries of the evidence it developed to the USAO.
EAUSA Armijo and Craig Donsanto from the Department’s Public Integrity
Section reviewed the summaries and made preliminary determinations
regarding prosecutive decisions, which Iglesias reviewed and approved. With
respect to Representative Wilson’s August 17, 2004, complaint of voter fraud
discussed above, the FBI ultimately determined that the correspondence from
her office to newly registered voters had been returned as undeliverable
because of incomplete addresses on voter registration cards, errors made by
Wilson’s office in addressing the envelopes, or because the voters, many of
whom were college students, had changed addresses since registering. The FBI
recommended, and EAUSA Armijo concurred, that the matter should be closed
without further investigation or prosecution.




                                      163
       With respect to the allegation that an ACORN worker was responsible for
a significant number of false voter registrations, the FBI identified and
interviewed the worker in question. As a result of the investigation, the USAO
and the Public Integrity Section jointly concluded that there was insufficient
evidence of criminal intent on the subject’s part to justify prosecution. Iglesias
told us that he viewed this case as the strongest one to come out of the Task
Force, but that the evidence nevertheless did not justify going forward with a
criminal prosecution.

       Iglesias also told us that when the Task Force began, he sincerely
believed it would develop cases worth prosecuting. Contemporaneous e-mail
records show that Iglesias encouraged his staff to pursue the Task Force cases,
and that he believed the USAO needed to send a zero-tolerance message about
voter fraud. Iglesias told us that in the final analysis, however, he concluded
that there was insufficient evidence in any of the cases the Task Force reviewed
to support criminal prosecution by the USAO or state authorities. The Task
Force stopped meeting after the 2004 elections, but it was not officially
disbanded until 2006 when the FBI completed the last of its investigations.

            6.     Iglesias’s Meeting with Weh Regarding his Handling of
                   Voter Fraud Complaints

      Iglesias said that sometime in 2005, while many of the Task Force
investigations were still pending, he heard from a friend who had connections
in the New Mexico Republican Party that the party was unhappy with his
handling of voter fraud cases. Iglesias said he felt unable to respond directly to
such reports and knew he could not provide information about ongoing
investigations. However, he said he wanted to get the message out to his fellow
Republicans that he would prosecute “provable” voter fraud cases but would
not bring a case unless it could be proven beyond a reasonable doubt. His
friend agreed to pass the message along, but Iglesias later heard that many
people in the Republican Party were still upset with him.

       In a further attempt to defuse the situation, Iglesias called state
Republican Party Chairman Weh, and the two met briefly for coffee near Weh’s
home on May 6, 2005. Iglesias said he tried to explain to Weh that he wanted
to prosecute provable voter fraud cases but could not go forward without
sufficient evidence.

       Weh told us that Iglesias began the meeting by asking if he was “in
trouble” with the Republican Party, and that he tried to blame the lack of
prosecutions on the FBI’s failure to commit resources. Weh also said he told
Iglesias that Iglesias needed to do something about voter fraud and that he
should have already done something about it.




                                       164
              7.      Complaints to the White House Regarding Iglesias’s
                      Handling of Voter Fraud Cases

      Weh said that although his meeting with Iglesias was cordial, he
remained unconvinced by Iglesias’s explanation. Weh told us that he also
thought Iglesias was unqualified for his position as U.S. Attorney, and Weh
said he had concluded by then that Iglesias had failed to adequately investigate
and prosecute voter fraud crimes. Weh added that his opinion of Iglesias was
widely shared by New Mexico Republicans, and that he made his views known
to many people.

       Weh said he complained about Iglesias to Scott Jennings in the White
House sometime in 2005, and told Jennings that Iglesias should be
replaced. 112 E-mail records we obtained from the White House confirm that
Weh wrote to Jennings about Iglesias on August 9, 2005. His message to
Jennings, which was copied to Karl Rove, Sara Taylor, Tim Griffin, and Steve
Bell, stated:

       We discussed the need to replace the US Atty in NM several
       months ago. The brief on Voter Fraud at the RNC meeting last
       week reminded me of how important this post is to this issue, and
       prompted this follow up. As you are aware the incumbent, David
       Iglesias, has failed miserably in his duty to prosecute voter fraud.
       To be perfectly candid, he was ‘missing in action’ during the last
       election, just as he was in the 2002 election cycle. I am advised
       his term expires, or is renewed, in October. It is respectfully
       requested that strong consideration be given to replacing him at
       this point . . . . If we can get a new US Atty that takes voter fraud
       seriously, combined with these other initiatives we’ll make some
       real progress in cleaning up a state notorious for crooked elections.

       Several other Republican officials and activists complained about Iglesias
to the White House as well. Former Republican state senator Barnett told us
that at one point he asked Iglesias why he was not bringing voter fraud cases.
He said that Iglesias replied that he did not have enough people to work the
cases, Department policy prohibited them from bringing cases close to the
election, and the voter fraud statute required proof that the defendant intended
to influence the election. Barnett said he concluded that Iglesias was
responsible for the lack of prosecutions, and began complaining about his
performance to people he knew at the White House and the Republican
National Committee.


       112 Jennings worked for Sara Taylor, White House Director of Political Affairs, who in

turn reported to Rove.




                                             165
       Senator Domenici’s Chief of Staff Bell also began complaining about
Iglesias to the White House sometime in 2005. Jennings told us that shortly
after joining the White House in early 2005, he received criticism of Iglesias’s
performance as U.S. Attorney from Bell. Jennings said Bell told him on a
periodic basis that he was unhappy with Iglesias’s response to complaints
about voter fraud, among other issues, and that the White House should
replace him. Jennings said he passed that information along to his immediate
superiors at the time, Taylor and Griffin. 113

       Jennings said that after he was promoted to the position of Deputy
Director of the White House Office of Political Affairs in October 2005, he
continued to hear similar complaints from Bell, including complaints about
Iglesias’s handling of public corruption prosecutions (which we discuss below).
Jennings said he relayed that information to Taylor and Rove.

       According to Jennings, sometime in 2006 Bell told him that Senator
Domenici was going to call the White House Chief of Staff, Josh Bolten, about
Iglesias. Jennings notified Taylor and Rove so that Bolten could be given a
heads-up. We do not know whether this call was made, and if so what was
discussed.

               8.      Complaints Concerning Iglesias’s Handling of Public
                       Corruption Cases

      In 2006, Iglesias was also subject to criticism from both New Mexico
Republican activists and New Mexico Republican members of Congress for his
alleged failure to prosecute effectively or on a timely basis two significant public
corruption matters in his district, the Vigil case and the “courthouse case.” We
discuss those two matters in turn.

                       a.     The Vigil Case

       In late 2002 or early 2003, the subject of a counterfeiting investigation
told the U.S. Secret Service that he had information about bribes being paid to
New Mexico’s Democratic State Treasurer, Robert Vigil, to obtain government
contracts. The case was referred to the Albuquerque office of the FBI, which
opened an investigation and notified the New Mexico USAO. A career
prosecutor in the office’s White Collar Crime Section was assigned to the case,
and Vigil and his predecessor in the Treasurer’s office, Democrat Michael
Montoya, were indicted in September 2005.

      Montoya pled guilty to one count of extortion and agreed to testify as a
government witness. Three other participants in the bribery scheme also pled


      113   As noted above, Bell declined to be interviewed by us.




                                              166
guilty and agreed to cooperate. Vigil’s trial began in April 2006 and went to the
jury on May 21, 2006. After 1 day of deliberation, the judge concluded that the
jury was hopelessly deadlocked and declared a mistrial. According to press
accounts, one juror was unwilling to convict Vigil and refused to deliberate
with his fellow jurors.

       Shortly after the mistrial, New Mexico Attorney General Patricia Madrid,
Representative Wilson’s Democratic opponent in the upcoming November 2006
election for a Congressional seat, indicted the government’s four cooperating
witnesses. This was viewed by some as a political move to help Madrid in her
election bid, and as likely to hurt the government’s case because those
witnesses would be less likely to cooperate with the federal investigation while
facing state criminal charges for the conduct. Wilson told us that she thought
Iglesias should have responded publicly to the state indictments, and she said
that his failure to do so demonstrated a failure of leadership on his part. 114

       Representative Wilson told us that shortly after the mistrial, Senator
Domenici’s Chief of Staff Bell called her and asked what she had heard about
the trial. 115 Wilson told him she had heard that the government had a good
case but that it was not presented well. She said Bell told her that the
Senator’s office had received the same information. Bell also told Wilson that
Senator Domenici had come to the conclusion that the district needed a new
U.S. Attorney. According to Wilson, she cautioned Bell that removing Iglesias
right away could adversely affect the Vigil re-trial and said that Bell seemed to
agree. Wilson said that she and Bell had several subsequent conversations
about Iglesias in which Wilson expressed her growing concern that Iglesias was
not doing his job.

      Iglesias told us that soon after the Vigil mistrial, Senator Domenici
summoned Iglesias to his office in Albuquerque and asked him if he needed
more prosecutors to handle white collar crime. Iglesias said he responded that
he had enough resources in that area, but that he needed more people to do
immigration work. Iglesias also told us that he was reluctant to ask for more
resources since he was aware that Arizona U.S. Attorney Paul Charlton had
been criticized because people in the Department thought he had lobbied his
home-state Senator for additional prosecutors. 116

       114 The AUSA who tried the Vigil case told us that USAO management considered
issuing a public response to Madrid’s action, but ultimately decided the better course was not
to respond to the state indictments. Iglesias told us that he and his First Assistant were
concerned that a public statement would be seized on by either the Madrid or the Wilson
campaign and that the USAO would be accused of trying to affect the election.
       115 Wilson said that she has known Bell since she entered Congress in 1998, and that
she talks with him often on issues of mutual concern.
       116   We describe this issue in Chapter Eight on Charlton’s removal.




                                              167
      Senator Domenici refused our request to interview him. In a public
statement issued on March 4, 2007, however, Domenici stated that he had had
discussions with Iglesias over the years about resource issues in the USAO.

       According to Iglesias, the Vigil re-trial, which began in September 2006,
proved to be more difficult than the first trial because Vigil’s attorneys knew
the government’s case in its entirety and were able to use that information to
their advantage in cross-examination. The defense also had additional
impeachment material because of the state charges against the cooperating
witnesses, and one cooperator refused to testify at the second trial because of
the pending state charges.

       On September 30, 2006, Vigil was convicted on 1 count of attempted
extortion and acquitted on the remaining 23 counts in the indictment. The
verdict was seen by many of Iglesias’s critics, including Representative Wilson,
as a defeat for the USAO. Vigil was eventually sentenced to 37 months in
prison.

                  b.     The “Courthouse Case”

      Iglesias’s office handled another significant public corruption case in
2006. This case began in the fall of 2005, when an attorney representing the
receiver in a state court civil proceeding provided the USAO with information
he had uncovered about possible bribes to state officials in connection with the
construction of a new county courthouse. The USAO notified the FBI and
opened a grand jury investigation. The AUSA handling the Vigil case was also
assigned to this case, which was given the code name “Operation Black Robe”
but was commonly referred to as the “courthouse case.”

       During the course of the courthouse case investigation, the grand jury
issued subpoenas for documents to financial institutions and to the
administrative offices of the state court. Word of the subpoenas spread
quickly, and additional information about the government’s investigation came
to light as the state court civil law suit progressed. In March 2006, a
newspaper article identified former Democratic state Senator Manny Aragon as
the target of the USAO’s investigation.

       As described below, this case was not indicted before the November 2006
election, which drew complaints from New Mexico Republican activists.

            9.    Senator Domenici’s Calls to Attorney General Gonzales
                  Regarding Iglesias

      From September 2005 through April 2006, Senator Domenici telephoned
Attorney General Gonzales on three occasions to complain about Iglesias’s
performance as U.S. Attorney: on September 23, 2005, January 31, 2006, and



                                      168
April 6, 2006. Gonzales said the calls concerned Iglesias’s handling of voter
fraud and public corruption matters.

      Gonzales testified before the Senate Judiciary Committee on April 19,
2007, that:

       In the fall of 2005, when [Domenici] called me [he] said something
       to the effect that Mr. Iglesias was in over his head and that he was
       concerned that Mr. Iglesias did not have the appropriate personnel
       focused on cases like public corruption cases.
According to Gonzales, Domenici did not mention any specific cases, only
“public corruption cases.” Gonzales further testified that Domenici never
asked him to fire Iglesias, but “simply complained about the – whether or not
Mr. Iglesias was capable of continuing in that position.” In testimony before
the House Judiciary Committee on May 10, 2007, Gonzales again stated that in
his first conversation with Domenici, the Senator had expressed concern about
whether Iglesias had “his best people working” on public corruption cases.
Gonzales added that in one of their subsequent conversations Domenici
“mentioned voter fraud cases.” 117

       According to calendar entries from the Office of the Attorney General,
Sampson and Moschella may have been in the room with Gonzales during the
three calls, and Goodling may have been present for the April 6 call. According
to Moschella, Gonzales never used a speaker phone, so they would have heard
only his side of the conversation. Moschella said he has no memory of the calls
and is not certain that he was present for any of them, but said he talked to
Domenici’s Chief of Staff Bell prior to at least one of the calls. Based on that
conversation, Moschella said he believed that the Senator was concerned about
the district’s caseload and that he planned to tell Gonzales that the USAO
needed additional resources. Sampson stated that he did not remember any
details of Gonzales’s telephone conversations with Domenici.

      Goodling testified before the House Judiciary Committee that she “knew
that Senator Domenici had told the Attorney General he had some concerns
with public corruption,” but she was not questioned in detail about the
telephone conversations and she declined our request to interview her.


       117   The USAO did not begin to try the Vigil case until May 2006, and we believe that
Attorney General Gonzales was incorrect when he stated that Senator Domenici’s 2005 call
concerned public corruption matters. We found no evidence of complaints about Iglesias’s
handling of public corruption matters until after the first Vigil trial concluded. We believe it is
likely that all of Domenici’s calls to Gonzales, not just one of the later ones as Gonzales
testified, concerned the voter fraud issue. However, we were unable to interview Domenici
about this matter, and Gonzales told us that he did not have a specific recollection of which
matter was discussed in which call.




                                               169
       Gonzales said he did not say anything to Iglesias about the telephone
calls from Senator Domenici, and we found no evidence that Gonzales directed
that the Department examine the merits of Domenici’s criticism. Gonzales told
us that, in retrospect, he would have expected that someone would have looked
into the complaints about Iglesias that Senator Domenici related to McNulty,
which we discuss below. Gonzales said to us: “You can’t have, you know, a
member of Congress calling and making an allegation and not checking it out
and seeing whether or not there’s anything there to it.” Gonzales also told us
that he “would hope” that the reason why Iglesias was removed was “more than
simply Domenici calling and saying, ‘I have concerns about . . . David Iglesias.’”

              10.    Complaints to the Department Regarding Voter Fraud
                     and Corruption Cases

      As the 2006 elections approached, Patrick Rogers, the former general
counsel to the New Mexico state Republican Party and a party activist,
continued to complain about voter fraud issues in New Mexico. In a March
2006 e-mail forwarded to Donsanto in the Public Integrity Section, Rogers
complained about voter fraud in New Mexico and added, “I have calls in, to the
USA and his main assistant, but they were not much help during the ACORN
fraudulent registration debacle last election.”

      In June 2006, Rogers sent the following e-mail to Executive Assistant
U.S. Attorney Armijo:

       The voter fraud wars continue. Any indictment of the Acorn
       woman would be appreciated. . . . The ACLU/Wortheim [sic]
       democrats will turn to the camera and suggest fraud is not an
       issue, because the USA would have done something by now.
       Carpe Diem! 118

       In June 2006, Mickey Barnett said he asked White House Deputy
Political Affairs Director Jennings to set up a meeting for Barnett and Rogers at
the Department of Justice to discuss Iglesias’s performance. According to
Barnett, he had complained to Jennings about Iglesias approximately 5 to 10
times by that point. Barnett told us that he wanted to ask someone at the
Department about three explanations Iglesias had given him for why he had
not indicted any voter fraud cases: (1) the USAO did not have enough
resources; (2) Department policy prohibited them from bringing cases close to
the election; and (3) the voter fraud statute required proof that the defendant
intended to influence the election. Jennings arranged a meeting for Barnett
with Goodling on June 21, 2006, when Barnett planned to be in Washington

       118 This was apparently a reference to the Chairman of the New Mexico Democratic

Party at the time, John Wertheim.




                                           170
for interviews related to his pending nomination to the U.S. Postal Service
Board of Governors.

       Jennings told us that he did not know that Barnett wanted to complain
to the Department about Iglesias, only that the meeting concerned a matter
Barnett did not want to discuss with the USAO in New Mexico. 119 In an e-mail
message to Goodling, Jennings asked her to meet with Barnett and Rogers, and
Jennings characterized the subject matter as “sensitive.”

       On the afternoon of June 21, 2006, Barnett and Rogers met with
Goodling in her office at the Department. Barnett said they explained their
concerns about Iglesias and outlined the questions they had about what
Iglesias had told them regarding voter fraud cases. Barnett told Goodling that
Iglesias was failing to prosecute good voter fraud cases, and Barnett also
mentioned delays in a public corruption case (the “courthouse case” discussed
above). According to Barnett, Goodling took extensive notes during the 20-
minute meeting, but provided no feedback. Barnett said that after they
finished explaining their concerns, Goodling telephoned Matthew Friedrich,
then Chief of Staff to Criminal Division Assistant Attorney General Alice Fisher,
and asked if she could bring Barnett and Rogers to his office.

      Friedrich told us that he remembered being called by Goodling, and that
while waiting for her to arrive he telephoned Noel Hillman, the former Chief of
the Public Integrity Section, who was then a Counselor to Assistant Attorney
General Fisher while his nomination to be a federal judge was pending.
Friedrich asked Hillman to sit in on the meeting. Shortly thereafter, Goodling
brought Barnett and Rogers to Friedrich’s office and left them with him.

      While they waited for Hillman to arrive, Friedrich, Barnett, and Rogers
made small talk about New Mexico and Albuquerque. Friedrich told us that he
had the impression that Barnett and Rogers were not particularly
knowledgeable about how the Department operated. He said they told
Friedrich that they had already complained to Goodling about Iglesias’s
performance as U.S. Attorney and explained that they were unhappy with how
he had handled voter fraud in New Mexico. They stated that one case in
particular, involving ACORN, had not been vigorously pursued in their opinion.
At some point during the discussion, Hillman joined them, and he and
Friedrich tried to explain how the Department handled such cases. Friedrich
said he told Barnett and Rogers that they could contact the Public Integrity
Section if they felt voter fraud cases were being ignored in New Mexico. The
courthouse case was not discussed.


       119 Barnett told us that he explained the purpose of the meeting to Jennings, although

he acknowledged that he was not entirely sure how much he told him.




                                            171
      Barnett told us that Friedrich and Hillman listened carefully to their
complaints and gave them all the time they needed to explain the problem. He
said that when he and Rogers realized they were starting to repeat themselves,
they ended the meeting, which had lasted about an hour. According to
Barnett, Friedrich and Hillman listened attentively but were extremely
circumspect and did not provide any information or refer them to anyone else
in the Department.

      According to Jennings, the next day Barnett and Rogers joined him at
the White House mess for breakfast, but they did not discuss Iglesias or voter
fraud issues.

              11.    Complaints to Senator Domenici

      Barnett told us that 2 weeks after his June 21 meeting at the
Department, when he returned to Washington for his confirmation hearing, he
spoke briefly in person with Senator Domenici. He told the Senator that he
wanted to talk about three or four items, which he had written down on a 3-by-
5 card. The first item was Iglesias, but when he said to the Senator, “Do we
need to discuss Iglesias?” Domenici simply replied, “Nah.” According to
Barnett, Domenici was familiar with his complaints about Iglesias by then, and
Barnett concluded from the Senator’s response that no further discussion was
necessary. Barnett said that Domenici never told him what, if anything, he
had done or was planning to do about the complaints regarding Iglesias.

     Iglesias told us that after the Vigil mistrial he learned from a friend in the
New Mexico Republican Party that Rogers had sent a 14-page letter to Senator
Domenici complaining about Iglesias’s performance as U.S. Attorney.

              12.    Complaints to Karl Rove about Delays in the Courthouse
                     Case

       In July 2006, another newspaper article identified former Democratic
state senator Aragon as the target of the courthouse case investigation. On
October 2, 2006, an article in the Albuquerque Tribune quoted a local FBI
spokesman as stating the FBI had completed its investigation and had turned
the case over to the U.S. Attorney’s Office. 120

      That same day, Barnett sent a copy of the Albuquerque Tribune article
by e-mail to Rove and Jennings at the White House, and to Rogers, with the
message:



      120 The FBI spokesman was reported to have said, “It's basically with them. As far as I

know, we’ve completed our investigation.”




                                            172
       Karl,
       This article confirms what I mentioned Saturday. 121 An FBI agent
       told me more than six months ago that their investigation was
       done and been turned over to the US Attorney a long time ago. He
       said agents were totally frustrated with some even trying to get out
       of New Mexico. I can put you or anyone you designate with
       lawyers knowledgeable about the US Atty office – including lawyers
       in the office – that will show how poorly it is being run.
       Scott Jennings was kind enough to set up an appointment at the
       Justice Department several months ago where Pat Rogers and I
       laid all this out. I hope Justice can now be persuaded to send out
       some cracker jack prosecutor and perhaps promote Iglesias to a
       Justice department position.
       We still await the results of the task force Iglesias convened about
       this time two years ago on the clear Acorn fraudulent voter
       registrations. We were told it would look to [sic] “political” to indict
       anyone that close to the election. Then we never heard anything
       else.

       Barnett told us that the FBI agent he referred to in his e-mail was the
agent who was handling his background investigation for the Postal Service
Board of Governors. According to Barnett, that agent was not assigned to the
courthouse case, and Barnett said he received no information from anyone
with first-hand knowledge of the case.

       Barnett also told us that his comment in the e-mail about promoting
Iglesias to a Department of Justice position reflected his and Rogers’s belief
that Iglesias should be replaced with an aggressive public corruption
prosecutor and “kick[ed] . . . upstairs” to a supervisory position at the
Department or the White House.

      Barnett further stated that although he did not attend the fundraising
lunch that brought Rove to Albuquerque on September 30, 2006, he met Rove
at the airport that day and accompanied him to a short meeting with
Republican Party volunteers. 122 Barnett said he told Rove about the alleged
delays in the courthouse public corruption case and the ACORN voter fraud
cases, and Barnett said he complained about Iglesias’s failure to move these
cases forward. According to Barnett, Rove indicated that he was aware of the

        121 Weh told us that Rove had been in Albuquerque on Saturday, September 30, 2006,

for a Republican National Committee fundraising lunch that Weh hosted for a small group of
donors at his house.
       122 Several attendees at the fundraiser told us that neither Iglesias nor the courthouse

case was discussed at the lunch.




                                              173
complaints about Iglesias, although Rove did not tell Barnett what, if anything,
he planned to do about the situation. Barnett said that by this time he had
complained about Iglesias to Rove, Domenici, and other officials at the White
House or the Republican National Committee on many occasions.

       We asked the trial AUSA handling the courthouse case about the FBI
spokesman’s comments in the October 2 Albuquerque Tribune article. The
AUSA said that the courthouse grand jury investigation was still underway at
that time, and that a great deal of work remained to be done before the case
would be ready to indict. Subpoenas for documents were outstanding,
additional subpoenas had to be issued, witnesses remained to be interviewed,
and the AUSA had just finished retrying the Vigil case. The AUSA told us that
no one with any knowledge of the investigation would have described it as
complete at that time. 123

      The AUSA acknowledged that FBI officials in New Mexico thought the
courthouse case should have been indicted right after the Vigil retrial, and that
the FBI case agents were unhappy with the USAO’s decision not to assign
another prosecutor to the courthouse case after the first Vigil trial.

              13.    Senator Domenici’s Telephone Call to Deputy Attorney
                     General McNulty

      On October 4, 2006, Senator Domenici called Deputy Attorney General
McNulty. According to McNulty, the conversation was very brief. McNulty said
Domenici expressed his concerns about Iglesias’s abilities in general terms
such as, “he’s not up for the job,” he’s in “over his head,” and he is “not getting
the job done.” McNulty said Domenici did not refer to any specific case and
only talked in generalities about Iglesias’s lack of fitness for the job. According
to McNulty, Domenici did not ask the Department to replace Iglesias or to do
anything specific.

      McNulty said he has no specific recollection of discussing Domenici’s
phone call with Gonzales or Sampson, but he told us that it is the type of
contact he would have passed along to them. McNulty told congressional
investigators that he did not take any steps to find out what had triggered
Domenici’s call, or take any steps “of an investigative nature” in response to the
call.


       123  On March 29, 2007, 1 month after Iglesias left office, the New Mexico U.S.
Attorney’s Office obtained an indictment charging Manny Aragon and three others with mail
fraud, money laundering, and conspiracy in connection with the courthouse case. Also, on
that day, the USAO announced plea agreements with three other defendants in the case. On
August 23, 2007, the grand jury returned a 28-count superseding indictment, adding an
additional defendant. The case is still pending trial.




                                           174
      Sampson said he learned in October 2006, most likely from Elston, that
Senator Domenici had called McNulty on October 4 to complain that Iglesias
was not “up to the job.” Sampson said he remembered McNulty mentioning
the call and that Domenici had said that Iglesias did not move cases and was
in over his head. Sampson said that he did not recall McNulty recommending
the removal of Iglesias based on the call. However, McNulty told congressional
investigators that Domenici’s call was a “significant factor” in why he did not
object to Iglesias’s removal or ask that Iglesias’s name be taken off the list.

    Gonzales told us that he was not aware that Senator Domenici had called
McNulty “until this whole thing became very public.”

            14.   White House Communications with Attorney General
                  Gonzales

      President Bush and Karl Rove both spoke with Attorney General
Gonzales in October 2006 about their concerns over voter fraud in three cities,
one of which was Albuquerque, New Mexico. There is conflicting evidence
about exactly what was communicated to Gonzales, and what the Department’s
response was to these concerns.

       On March 13, 2007, in response to reporters’ questions about the
removals of U.S. Attorneys, White House spokesman Dan Bartlett stated that
the President had told Gonzales in late 2006 that he had been hearing about
election fraud concerns from members of Congress regarding three cities:
Albuquerque, Philadelphia, and Milwaukee. Bartlett said the President did not
identify any U.S. Attorney by name. Gonzales told Congress and us that
although he had no specific recollection of his discussion with the President, he
did not dispute Bartlett’s assertion. Gonzales testified to the Senate that after
checking his calendar he believed his meeting with the President was on
October 11, 2006.

       Gonzales testified several times that in the fall of 2006, Rove had also
told him that he had “concerns” about voter fraud in three cities. Gonzales told
us that he thought these were the same three cities that Bartlett said the
President mentioned to Gonzales during his October 11 meeting. Gonzales
stated that he surmised that his conversation with Rove preceded his
conversation with the President because of a remark made by Bartlett. Bartlett
had told the media that when the President raised the issue of voter fraud with
Gonzales, Gonzales replied, “I know, and we are looking at those issues.”
Based on that statement, Gonzales told us that he thought his comment was
referring to his prior conversation with Rove. Gonzales testified that he had no
recollection of Rove asking or telling him to remove Iglesias.

      Gonzales testified that he recalled mentioning his conversation with Rove
to Sampson and asking him to look into the matter. Sampson told



                                      175
congressional investigators that he recalled that after the removals became
public, Gonzales told him that he recalled the President telling him in October
that Domenici had concerns about Iglesias. Sampson said that Gonzales told
him that Rove had concerns about voter fraud enforcement by three U.S.
Attorneys, in Albuquerque, Philadelphia, and Milwaukee, and that Gonzales
had asked Sampson to look into the allegations. Sampson said he in turn
asked Matthew Friedrich, then a Counselor to the Attorney General, to look
into the allegations. Sampson said that he had no recollection of Friedrich ever
getting back to him on the issue.

      Friedrich told congressional investigators that according to his notes, on
October 12, 2006, Sampson asked him to look into concerns from the White
House about voter fraud enforcement in Albuquerque, Philadelphia, and
Milwaukee. Friedrich did not recall Sampson identifying anyone at the White
House who raised those concerns. According to Friedrich, he then called
Benton Campbell, the Chief of Staff to Criminal Division Assistant Attorney
General Alice Fisher, and asked him for an update on jurisdictions where voter
fraud enforcement was a problem. Campbell in turn called Public Integrity
Section attorney Donsanto, the Department’s expert on voter fraud matters.
Based on his notes of their conversation, Friedrich said that Campbell had told
him that voter fraud in Albuquerque was “not too bad,” but that in rural New
Mexico it was “bad.” Friedrich said he passed this information on to Sampson.
As noted above, however, Sampson said he did not recall hearing back from
Friedrich on the issue.

       According to Campbell, Donsanto gave him an overview of voter fraud
issues in several districts, including New Mexico. With respect to New Mexico,
Donsanto told Campbell that enforcement of voter fraud in Albuquerque was
good, but that there were problems in rural counties. Campbell said that
Donsanto mentioned that the New Mexico voter fraud initiative had not
produced any cases. Campbell also said that Donsanto said something to the
effect that the district did not follow up on cases and seemed reluctant to
prosecute. Donsanto told us, however, that he thought Iglesias pursued voter
fraud cases vigorously and fairly.

       Both Gonzales and Sampson testified that Gonzales did not recommend
that Iglesias be placed on the removal list as a result of the call from Rove.
According to Gonzales, he neither intended nor expected Sampson to add
Iglesias’s name to the removal list based solely on the fact of Rove’s complaint.

            15.   Iglesias’s Meeting with Rogers

      On October 11, 2006, Iglesias met with Rogers to discuss voter fraud
issues. The meeting was prompted by an e-mail Rogers sent to EAUSA Armijo
on October 3, 2006, attaching an item from a local political blog that was




                                       176
critical of the Republican claim that election fraud was a growing crisis in New
Mexico. Rogers wrote in his e-mail:

      [T]his is probably not the best time to remind you guys of the
      ACORN disasters, but I wanted to make sure you and David saw
      the Democrat’s analysis of the task force. History being the lie
      generally agreed upon, [the blogger’s] spin is the “history” of fraud
      in NM. Call when you can.

       Armijo forwarded the e-mail to Iglesias, who suggested scheduling a
meeting with Rogers. On October 11, 2006, Iglesias, Armijo, and Rogers met
for lunch at an Albuquerque restaurant. After some small talk, Rogers brought
up the issue of voter fraud and complained that Iglesias had not responded to
the problem. According to Iglesias, he did not discuss the details of any Task
Force cases, but he told Rogers that “if we have a prosecutable case, we’ll
prosecute it. If we don’t, we won’t.” Armijo said he confirmed with Rogers that
the FBI had interviewed him about his voter fraud complaints, but said he and
Iglesias did not discuss the details of any cases with him.

       Armijo also said that during the lunch Rogers mentioned the recent
newspaper article about the courthouse case. Armijo was not involved in that
prosecution, and told Rogers he had not seen the article. Armijo told us that
he believed Rogers was looking for information about what the USAO was
planning to do in that case. Armijo did not respond, and said that Iglesias cut
off the discussion by telling Rogers they could not talk about a pending case.

            16.   Representative Wilson’s Telephone Call to Iglesias

      On Sunday, October 15, 2006, Representative Wilson e-mailed a
newspaper article about public corruption prosecutions in other states to her
Chief of Staff, her campaign manager, another campaign aide, and Domenici’s
Chief of Staff Bell with the message, “FBI or those close to them are talking
about public corruption cases ongoing in other states.” Bell forwarded the
message to Jennings in the White House with the comment, “Seems like other
USAttorneys (sic) can do their work even in election season. And FBI has
already admitted they have turned over their evidence to the USA in NM and
are merely awaiting his action . . . .”

       According to Wilson, her e-mail to Bell was not intended as a reference to
Iglesias. However, the next day, October 16, 2006, Wilson telephoned Iglesias
to ask about delays in public corruption matters being handled by his office.
Wilson told us that a day or two before the call, a constituent had complained
to her that Iglesias was intentionally delaying public corruption prosecutions in
the district. According to Wilson, the constituent did not refer to any particular
matter, just corruption cases in general. According to Wilson, the constituent




                                       177
alleged that sealed indictments had already been returned, and that Iglesias
was delaying their release for no reason.

      Wilson refused to identify the constituent to us and would not provide
any information that would allow us to assess the constituent’s bias, motives,
or credibility. She simply asserted that the constituent was a reliable source
whom she believed to be knowledgeable about the matter. However, contrary
to what Wilson was told, there were no sealed indictments in the courthouse
case in October 2006.

      According to Wilson, she told Iglesias in her telephone call that she had
heard he was intentionally delaying corruption prosecutions. Iglesias
responded that the accusation was not true and that the AUSA who handled
corruption cases had simply been tied up with the Vigil trial. Wilson said she
then asked if delaying the release of sealed indictments rang any bells with
him. Iglesias responded that his office sometimes sealed national security
cases or juvenile cases, but that such a practice would not necessarily apply to
corruption cases. Wilson said she closed the conversation by stating that she
would take him at his word.

      Wilson, who had served in the Air Force, told us that because she
thought she was speaking as one former military officer to another, she
intended that final phrase to convey that Iglesias’s word was good enough for
her and that she considered the matter closed. According to Wilson, she did
not discuss this conversation “with any other legislative or executive official”
and “did not tell New Mexico Senator Pete Domenici or anyone on his staff
about the matter or her telephone conversation with Mr. Iglesias . . . or any
other official.” Wilson denied calling Iglesias in an effort to induce him to file
any indictments prior to the election, which was only weeks away, in order to
influence the outcome of the election.

        Iglesias told us that Wilson called him and said she had heard something
about sealed indictments in corruption cases. Iglesias knew that the only
pending public corruption case that had been reported in the press at that time
was the courthouse case, so he concluded Wilson was referring to that matter.
He said he was wary of discussing a pending investigation, and he deflected the
question with a general statement about how the office sometimes used sealed
indictments in juvenile cases or in national security matters. Wilson ended the
conversation by saying something like, “Well, I guess I’ll have to take your word
for it.” Iglesias told us that, based on her tone, he concluded that she was
disappointed by his response.

     Iglesias did not report Congresswoman Wilson’s call to anyone in the
Department even though he acknowledged knowing that the U.S. Attorneys’




                                        178
Manual required him to report the call. 124 He said that he considered Wilson
to be a friend, that he thought she had simply exercised poor judgment in
calling him, and that he believed the matter would go no further.

              17.    Senator Domenici’s Telephone Call to Iglesias

       Iglesias said that approximately 10 days after Wilson’s call, sometime
around October 26, 2006, and possibly on a weekend, Steve Bell called him at
home in the morning and told him that Senator Domenici wanted to talk to him
about some complaints he had heard. Domenici came on the line and, without
any preliminary small talk, asked about the district’s corruption matters.
Iglesias said he took this as a reference to the courthouse case, the only
publicly known corruption investigation in the office at the time. Domenici
asked Iglesias if he was going to file an indictment before November.

      Iglesias told us that he wanted to be responsive without revealing any
information, so he tried to hedge his answer by saying that he did not think so.
According to Iglesias, Domenici then said, “Well, I’m very sorry to hear that,”
and hung up.

       Iglesias told us he turned to his wife, who was in the room during the
call. She asked him who he had been talking to, and he said, “You’re not going
to believe what just happened,” and described the call.

      We also interviewed Iglesias’s wife about her knowledge of the Domenici
phone call. She confirmed that she was in the room with Iglesias when he took
the call from Senator Domenici on his cell phone. She said it may have been a
weekend morning because they were both in casual clothes. She described her
husband’s tone during the call as serious, as if he were receiving bad news,
and his body language suggested to her that it was not a friendly conversation.
She said at one point in the conversation she heard him say, “I don’t think so.”

        Mrs. Iglesias estimated that the conversation lasted 2 minutes, and said
the call ended abruptly without a “good bye” or any other closing words. At
first, neither of them could believe that Senator Domenici had hung up the
phone, and she suggested that Iglesias’s cell phone had dropped the call and
that Domenici would call back.

      According to Iglesias, he felt ill after the call. He said he believed
Domenici had asked for confidential information about an ongoing
investigation, and that Iglesias would pay in some way for refusing to cooperate
with him.

       124   USAM Section 1-8.010 requires that all congressional requests to U.S. Attorney’s
Offices for information about or assistance with non-public matters must promptly be reported
to the Counsel to the Director of EOUSA.




                                            179
       Iglesias said he did not mention the call to anyone other than his wife
until after he was asked to resign. He said that he decided not to report the
call to the Department, which he knew was required by the U.S. Attorneys’
Manual, out of a combination of personal admiration for the Senator and
gratitude for his past assistance, all of which made Iglesias unwilling to
embarrass or create difficulties for Domenici. Iglesias said he also believed that
he was unlikely to be the winner in a dispute with Senator Domenici.

       On March 4, 2007, after Iglesias’s removal and public disclosure of the
telephone call, Domenici issued the following public statement about the call to
Iglesias:

      I called Mr. Iglesias late last year. My call had been preceded by
      months of extensive media reports about acknowledged
      investigations into courthouse construction, including public
      comments from the FBI that it had completed its work months
      earlier, and a growing number of inquiries from constituents. I
      asked Mr. Iglesias if he could tell me what was going on in that
      investigation and give me an idea of what timeframe we were
      looking at. It was a very brief conversation, which concluded when
      I was told that the courthouse investigation would be continuing
      for a lengthy period.
      In retrospect, I regret making that call and I apologize. However, at
      no time in that conversation or any other conversation with Mr.
      Iglesias did I ever tell him what course of action I thought he
      should take on any legal matter. I have never pressured him nor
      threatened him in any way. . . .
      My conversations with Mr. Iglesias over the years have been almost
      exclusively about this resource problem and complaints by
      constituents. He consistently told me that he needed more help,
      as have many other New Mexicans within the legal community.
      My frustration with the U.S. attorney’s office mounted as we tried
      to get more resources for it, but public accounts indicated an
      inability within the office to move more quickly on cases. Indeed,
      in 2004 and 2005 my staff and I expressed my frustration with the
      U.S. Attorney’s office to the Justice Department and asked the
      Department to see if the New Mexico U.S. Attorney’s office needed
      more help, including perhaps an infusion of professionals from
      other districts.
      This ongoing dialogue and experience led me, several months
      before my call with Mr. Iglesias, to conclude and recommend to the
      Department of Justice that New Mexico needed a new United
      States Attorney.



                                       180
       As a result of Senator Domenici’s acknowledgement that he called
Iglesias in October 2006 to discuss an ongoing criminal investigation, the
Senate Select Committee on Ethics opened an investigation of Domenici on
March 7, 2007. The Ethics Committee interviewed Senator Domenici, Iglesias,
and others, and on April 24, 2008, issued a Public Letter of Qualified
Admonition to Senator Domenici. The letter stated that the Ethics Committee
found “no substantial evidence to determine that [Domenici] attempted to
improperly influence an ongoing investigation.” The Ethics Committee’s letter
also stated that Domenici’s telephone call “created an appearance of
impropriety” because of the “approaching election which may have turned on or
been influenced by the prosecutor’s actions in the corruption matter.”

       As noted above, in response to our request for an interview, Senator
Domenici initially informed us through counsel that he would cooperate with
our investigation after the Senate Ethics Committee finished its investigation.
At the conclusion of the Ethics Committee investigation, we again asked
Domenici for an interview. Domenici’s counsel requested that we provide him
in advance with the subject matter of our questions. When we did so,
Domenici continued to decline to be interviewed, stating that there were
“institutional implications” to such an interview, and noting that he served on a
committee with oversight over the Department. Domenici’s counsel also
expressed concern that our interview would be recorded and under oath.
Although we agreed to consider waiving these conditions, Domenici again
refused our request for an interview. Finally, Domenici’s counsel offered to
respond through his attorneys to written questions. We declined that offer
because we do not believe it would be a reliable or appropriate investigative
method under these circumstances.

            18.   Allegation Concerning Representative Wilson’s
                  Telephone Call to Harriet Miers

       As mentioned in Chapters One and Three of this report, during our
investigation we learned that in March 2007, to prepare a timeline of events
related to the U.S. Attorney firings, White House Associate Counsel Michael
Scudder interviewed several people in the White House and in the Department,
and also gathered information from Office of Legal Counsel (OLC) Acting
Assistant Attorney General Steven Bradbury, who had interviewed other
Department managers about the U.S. Attorney removals. Although the White
House refused to provide us with a complete copy of Scudder’s memorandum,
it provided to us small portions of it, including the following paragraph:

      In approximately October 2006, Paul McNulty received a telephone
      call from [White House Counsel Harriet] Miers in which she relayed
      a telephone conversation she had with Representative Wilson from
      New Mexico. McNulty recalls Miers stating that Wilson was
      displeased with David Iglesias’s performance as U.S. Attorney in


                                      181
       New Mexico. McNulty does not recall Miers relating any concern
       about Iglesias not prosecuting voting fraud.

       According to Bradbury, the information in this paragraph was relayed to
Bradbury by McNulty, and Bradbury subsequently relayed it to Scudder. If
true, the information in this paragraph about the call – particularly the timing -
would be significant, because it would show that Wilson was complaining to
the White House about Iglesias shortly before the 2006 election, and that the
White House relayed her complaints to the Department in October 2006, both
of which occurred just before Iglesias’s name first appeared on the list of U.S.
Attorneys to be removed.

       However, Representative Wilson told us she was certain that she never
had a telephone conversation with Miers about Iglesias or any other related
matter, never had a substantive discussion with her in person, and may never
have spoken to her at all on any matter. Wilson suggested that we confirm her
representations by examining White House telephone logs. We subsequently
asked the White House Counsel’s Office to produce telephone logs that would
show Miers’s calls in October and November 2006. In response, the Counsel’s
Office told us that there were no entries in Miers’s telephone logs reflecting any
conversations with Representative Wilson in September, October, or November
2006.

       McNulty told us that Miers called him and said that Wilson had
complained to her about Iglesias. But McNulty said that the call occurred in
November 2006, not October 2006 as represented in Scudder’s chronology.
McNulty said he was certain that Miers told him about Wilson’s complaint only
after Iglesias had been added to the list of U.S. Attorneys to be removed (the
November 7, 2006, list), and after that list had been transmitted to the White
House.

      Miers refused our requests for an interview. We were therefore unable to
resolve whether or when this call occurred.


III.   Iglesias’s Removal

       A.   Iglesias is Added to Sampson’s List

      As noted above, on November 7, 2006, Sampson sent Elston a revised list
of U.S. Attorneys slated for removal that included Iglesias’s name for the first
time. Elston responded to Sampson that the list looked “fine” to him, and he
forwarded it to McNulty that evening.

       In their various statements to Congress and to us, the Department
officials who Sampson identified as being involved in the final stage of the U.S.
Attorney removal process – Gonzales, McNulty, Goodling, and Elston –


                                       182
disclaimed any responsibility for causing Iglesias’s name to be placed on
Sampson’s U.S. Attorney removal list in the first instance. McNulty stated that
he did not add Iglesias to the list. Elston told us he did not recommend adding
Iglesias to the list, although he assumed his removal had something to do with
Senator Domenici’s call to McNulty. Goodling testified that she did not know
who put Iglesias on the list. Gonzales stated that he lost confidence in Iglesias
because Senator Domenici had lost confidence in him, but that he did not add
Iglesias to the list.

       As discussed below, Sampson gave inconsistent testimony to Congress
and to us about his knowledge of who put Iglesias on the removal list and why.
In his testimony before the Senate Judiciary Committee on March 29, 2007,
Sampson was asked: “Who was responsible for your consideration of David
Iglesias to be added to the list?” Sampson answered that “sometime after
October 17 . . . an effort was made . . . by myself, the Deputy Attorney General,
his chief of staff, [and] Monica Goodling” to look at the U.S. Attorneys whose 4-
year term had expired for the purpose of determining whether additional names
should be added to the removal list and, as a result, four names, including
Iglesias, were added. According to Sampson, the other three names came off
the list but Iglesias’s name remained “because nobody suggested that he come
off.”

       In fact, as described in Chapter Three of this report, only one name –
Iglesias – was added to the list between October 17 and November 7. The three
names that came off the list after October 17 – Tom Marino, Greg Miller, and
Paula Silsby – had already appeared on the previous list on September 13,
2006.

      Sampson told the Senate Judiciary Committee that the fact that Senator
Domenici had made three calls to the Attorney General and one call to McNulty
regarding Iglesias may have influenced the decision to remove Iglesias.
Sampson also testified that he recalled McNulty saying that Senator Domenici
would not mind if Iglesias’s name stayed on the list.

       Sampson also told the Senate that concerns about Iglesias’s
management contributed to his removal, including Mercer’s recommendation to
remove Iglesias as chair of an AGAC subcommittee and Margolis’s statement
suggesting that Iglesias delegated too much authority to his First Assistant.
Yet, Sampson also acknowledged in his testimony that he did not attempt to
verify any of the information he received about Iglesias and did not review an
EARS evaluation of Iglesias’s office.

      In his subsequent interview with Senate Judiciary staff on April 15,
2007, Sampson stated “I don’t remember how Mr. Iglesias first got on the list. I
remember that after he was on the list, there was discussion about whether he




                                      183
should remain on the list. But I don’t have any memory about how that came
to be.”

     In his interview with us, Sampson gave a conflicting and confused
account of how Iglesias was added to the removal list:

       I don’t remember putting his name on the list. I did it, because I
       was the one who did that, but I don’t remember doing it and I don’t
       remember there being a specific reason for doing it. You know, I
       knew these things generally about Mr. Iglesias, and I apparently
       put his name on the list.

       When Sampson referred to “these things” in this quotation, he said he
was referring to what he thought he had heard about Iglesias in October 2006,
including Domenici’s and Rove’s communications with the Department
combined with bits and pieces of information he had learned about Iglesias
before then. Sampson also said he recalled hearing from Matthew Friedrich
that Republicans in New Mexico were unhappy with Iglesias and that this may
have been a factor he considered. 125 In addition, Sampson said he knew that
in early 2005 Mercer had recommended that Iglesias be replaced as the head of
an AGAC subcommittee for lack of effective participation.

       Sampson also told the Senate that “to the best of my memory” he knew
about Margolis’s allegation that Iglesias over-delegated authority to his First
Assistant before October 2006. However, as we discussed above, Margolis did
not become aware of the First Assistant’s comment until he was interviewed for
Iglesias’s position, after Iglesias’s removal.

       With respect to his various accounts of why Iglesias was placed on the
list, Sampson told us: “The way Iglesias got on the list is I sort of generally
knew all of these things, and in looking back over the list again, put him on,
and then nobody suggested that he come off.”

      Sampson claimed that no one at the White House exerted any pressure
to place Iglesias’s name on the U.S. Attorney removal list. He testified that he


       125  Yet, Friedrich told us that he did not tell Sampson about the complaints from
Rogers and Barnett until February 28, 2007, the day of Iglesias’s press conference, which was
well after he was told to resign. On that date, Friedrich was traveling with Gonzales, Sampson,
and AAG Fisher to a meeting in San Diego. Fisher, who was seated at the front of the plane
with Gonzales and Sampson, called him to the front and asked what he knew about voter fraud
in New Mexico. Friedrich said he gave them a brief account of his meeting with Rogers and
Barnett, and related what Campbell had told him about New Mexico and other districts.
However, Friedrich told us that he is certain that he did not tell Sampson about Rogers and
Barnett before then because he regarded their complaints as unsubstantiated. We concluded
that Sampson did not learn about this complaint until after Iglesias had been removed.




                                             184
did not recall anyone at the White House, including specifically Rove and
Miers, suggesting that Iglesias needed to be removed.

      B.    White House Knowledge of the Decision to Remove Iglesias

       The 2006 mid-term congressional elections occurred on November 7,
2006. At 1:03 p.m. that day, Domenici’s Chief of Staff Bell sent Rove an e-mail
about ballot problems in a New Mexico precinct. Bell ended his e-mail with the
statement, “We worry still about the USA here.” Rove responded at 1:35 p.m:
“I’d have the Senator call the Attorney General about this.”

      On November 15, 2006, Representative Wilson attended a White House
breakfast meeting with a dozen or so Republican members of Congress who
had just won closely contested elections. Rove was also present. Wilson told
us that as the meeting was breaking up she approached him and said, “Mr.
Rove, for what it’s worth, the U.S. Attorney in New Mexico is a waste of breath.”
Rove responded, “That decision has already been made. He’s gone.” According
to Wilson’s calendar, the meeting occurred from 7:30 to 8:30 a.m.

       Department e-mail records show that Sampson sent the November “USA
Replacement Plan” that first included Iglesias’s name to Miers at the White
House on November 15, 2006, at 10:55 a.m. There is no record of the list
being provided to the White House before then. Yet, neither Sampson nor any
of the other Department or White House officials we interviewed said that the
White House was told that Iglesias had been added to the removal list before
then. As described previously, Miers and Rove declined our requests for an
interview. Thus, we were unable to determine how or why Rove knew that
Iglesias was slated to be replaced when he spoke to Wilson earlier in the
morning on November 15.

      C.    Iglesias is Told to Resign

        Consistent with Sampson’s written plan for terminating the U.S.
Attorneys, on the morning of December 7, 2006, Deputy White House Counsel
Kelley informed Senator Domenici’s office that Iglesias was being asked to
resign. After the call, Kelley reported to Sampson, “Domenici’s COS [chief of
staff] is happy as a clam.”

       Iglesias told us that on the afternoon of December 7, 2006, he was at the
Baltimore Washington International airport when he received a message to call
EOUSA Director Michael Battle. Iglesias said he returned the call right away
and asked what was going on. Battle told him that the Administration wanted
“to go a different way” and asked him to submit his resignation by the end of
January 2007. Iglesias asked if there was a problem, to which Battle replied




                                      185
that he did not know and did not want to know, but that “it came from on
high.” 126

      Iglesias told us that he had no previous indication the Department had
any problem with his performance as U.S. Attorney, and that he had expected
to stay in office until the end of the Bush Administration. Iglesias said he had
not thought about his next job and knew that he would need more time to line
something up.

      On December 14, 2006, Weh attended a Christmas party at the White
House and asked Rove, “When are we ever going to get rid of Iglesias?” Weh
told us that Rove responded, “He’s been told.”

      On December 18, 2006, Iglesias asked Battle by e-mail for additional
time before he stepped down as U.S. Attorney. On January 5, 2007, not having
heard back from Battle, Iglesias made the same request by e-mail to McNulty.
McNulty passed the request along to Sampson, who gave his approval.
McNulty let Iglesias know later that day that he had until the end of February
2007 to leave office.

       Iglesias thanked McNulty by e-mail and asked if he could use him as a
reference. McNulty replied, “I would be happy to be a reference for you.”
Iglesias made the same request to Attorney General Gonzales through
Sampson, who responded, “You can list the AG as a reference – not a
problem.” 127


IV.    Analysis

       In this section, we provide our analysis regarding the reasons proffered
for Iglesias’s removal. However, at the outset it is important to note that we
were unable to fully investigate these issues because of the refusal by several
former key White House officials, including Harriet Miers and Karl Rove, to
cooperate with our investigation. In addition, the White House would not
provide us any internal documents and e-mails relating to the removals of

       126  Shortly after receiving the December 7 call from Battle, Iglesias spoke by telephone
with U.S. Attorney Johnny Sutton from the Western District of Texas, the Chair of the AGAC.
Iglesias told Sutton about the call and asked for his advice. According to Iglesias, Sutton said,
“This is political. If I were you, I’d go quietly.” Sutton told us he remembers the conversation,
but said that if he used the word “political,” it would have been in the context of, “we’re all
political appointees, and there’s not a lot we can do if they ask us to leave.” He stated that he
had no advance knowledge of any political considerations that may have been behind Iglesias’s
removal.
       127Iglesias told us that he made the reference requests because he was trying to
understand why he had been fired. He said he reasoned that if he had been fired for poor
performance, neither official would have been willing to serve as a reference.




                                              186
Iglesias or the other U.S. Attorneys. Our investigation was also hindered by
the refusal of Senator Domenici and his Chief of Staff to agree to an interview
by us. In addition, we were not able to interview Monica Goodling, who also
declined to cooperate with our investigation.

       As a result, important gaps remain in the facts regarding Iglesias’s
removal as U.S. Attorney. As discussed at the end of this chapter, we believe
this investigation should be pursued further, and we recommend that a
counsel specially appointed by the Attorney General work with us to further
examine the reasons behind Iglesias’s removal and whether criminal laws were
violated.

      However, as discussed below, we believe the evidence we uncovered
showed that Iglesias was removed because of complaints to the Department of
Justice and the White House by New Mexico Republican members of Congress
and party activists about Iglesias’s handling of voter fraud and public
corruption cases. We concluded that the other reasons proffered by the
Department after his removal were after-the-fact rationalizations that did not
actually contribute to Iglesias’s removal.

       Moreover, we determined that the Department never objectively assessed
the complaints raised by New Mexico politicians and activists about Iglesias’s
actions on the voter fraud or public corruption cases, or even asked Iglesias
about them. Rather, based upon these complaints alone and the resulting
“loss of confidence” in Iglesias, the Department placed Iglesias on the removal
list and told him to resign along with the other U.S. Attorneys.

      As we discuss below, by these actions we believe Department leaders
abdicated their responsibility to ensure that prosecutorial decisions would be
based on the law, the evidence, and Department policy, not political pressure.

       In the following sections, we discuss in turn the inaccurate reasons
proffered by the Department for Iglesias’s removal, the real reason that we were
able to determine in this investigation, and the unanswered issues regarding
Iglesias’s removal.

      A.    Iglesias was not Removed Because of Management Issues

       On Sampson’s first list of U.S. Attorneys sent to Miers at the White
House in March 2005, Iglesias was identified as 1 of 26 “strong” U.S. Attorneys
who should be retained by the Department. Iglesias did not appear on any of
Sampson’s subsequent removal lists until the list Sampson circulated on
November 7, 2006, after Republican members of Congress and party activists
from New Mexico had repeatedly complained to the White House and the
Department about Iglesias’s handling of voter fraud and public corruption
cases.



                                      187
       After the U.S. Attorneys were removed and as part of their preparations
for their congressional testimony about the removals, Department officials
constructed a list of reasons justifying the removals. This list, and McNulty’s
subsequent briefing of Congress using this list, stated that Iglesias was
removed in part because he was an “underperformer” and an “absentee
landlord” who over-delegated authority to his First Assistant U.S. Attorney.
Similarly, Moschella stated in his congressional testimony, again based on the
information from this list of reasons, that Iglesias’s removal was based in part
on concerns about his management and that his office was in need of greater
leadership.

      Based on our investigation, we concluded that these statements were
disingenuous after-the-fact rationalizations that had nothing to do with the real
reason for Iglesias’s removal. As noted above, Iglesias was identified as a
strong U.S. Attorney on Sampson’s initial U.S. Attorney removal list, and
nothing changed substantively to alter that assessment – except the complaints
from New Mexico politicians and party activists about his handling of voter
fraud and public corruption cases.

       The two EARS evaluations of his office completed during his tenure as
U.S. Attorney do not support claims that Iglesias was an “absentee landlord”
who “over delegated,” or that the office lacked strong leadership. For example,
the 2002 EARS evaluation described Iglesias as “well respected by the client
agencies, judiciary, and USAO staff. He provided good leadership . . . and was
appropriately engaged in the operations of the office.” Similarly, the 2005
EARS evaluation noted that Iglesias “was respected by the judiciary, agencies,
and staff.” It added that his First Assistant appropriately oversaw the day-to-
day work of the office’s senior management team, effectively addressed all
management issues, and directed resources to accomplish the Department’s
and the U.S. Attorney’s priorities. Neither of these EARS evaluations criticized
Iglesias for his management of the New Mexico U.S. Attorney’s Office.

      We also found no evidence that any Department official ever raised any
concerns about Iglesias’s management of the office to him, or to others within
the Department, prior to his removal.

       The testimony of Sampson, who placed Iglesias on the removal list, also
did not support these alleged reasons for his removal. Sampson initially stated
that he did not recall the reasons Iglesias was placed on the November 7
removal list, although he said the fact that Senator Domenici had made three
calls to the Attorney General and one call to McNulty complaining about
Iglesias may have influenced his decision. Sampson’s only claim that was
vaguely related to a management concern was that he had heard that Principal
Associate Deputy Attorney General Mercer said in 2005 that Iglesias and
several other U.S. Attorneys should not be reappointed as chairs of
subcommittees of the Attorney General’s Advisory Committee (AGAC) because


                                      188
they were not as effective as chairmen as Mercer thought they should have
been. Yet, Iglesias was not included on the first four removal lists Sampson
produced in 2005 and 2006. Moreover, no other U.S. Attorneys were removed
because of some concern about their effectiveness in chairing an AGAC
subcommittee. Even Mercer told us that he did not expect to see Iglesias on
the list of U.S. Attorneys to be removed.

      We concluded that the alleged concern that Iglesias was an “absentee
landlord” or that he had delegated to his First Assistant too much authority to
run the office had nothing to do with Iglesias’s removal. Other than Sampson,
none of the witnesses involved with reviewing the various U.S. Attorney
removal lists said that they considered Iglesias’s alleged absence from the office
or delegation of management responsibility as reasons for his dismissal.

       Moreover, although Sampson testified to Congress that Associate Deputy
Attorney General Margolis had indicated at some point that Iglesias “delegated
a lot to his First Assistant,” Margolis told us that he never heard about that
claim until after Iglesias was removed, during his interview of Larry Gomez,
Iglesias’s First Assistant, for the U.S. Attorney position. However, according to
Margolis, he heard from Gomez only that he ran the day-to-day operations of
the office, and Margolis thought that this statement “corroborated” the
allegation that Iglesias was an absentee landlord. Margolis acknowledged that
Gomez said nothing negative about Iglesias during his interview. In fact,
Gomez told us that he did not think that Iglesias over delegated authority or
was an absentee landlord. Gomez said that Iglesias was “engaged in his office,”
and that that Iglesias’s management style was “very good.” In addition, Gomez
said he never heard complaints from others about Iglesias’s management style.
Rumaldo Armijo, Iglesias’s Executive Assistant, also told us that he never
heard anyone express concern that Iglesias was an absentee landlord or that
Iglesias did not spend enough time in the office. Armijo said that he believed
that Iglesias’s delegation of authority to Gomez was appropriate, that Iglesias
was “a strong leader,” and that he was “very active in everything that went on
here.”

      It is true that Iglesias was a Captain in the Navy Reserves and was
required to serve reserve duty for 36 days each year. However, the Department
and the White House knew about these responsibilities when he was
appointed, and no one raised that as a concern during his tenure as U.S.
Attorney. Further, neither of the two EARS reviews raised that concern.

      In sum, we believe the Department’s claims after Iglesias’s removal that
concerns about his management of his office or that he was an “absentee
landlord” were justifications created after-the-fact in an attempt to buttress the
rationale for his removal. We found no evidence that any such concerns
actually contributed to Iglesias’s removal.



                                       189
      B.    Complaints about Iglesias’s Handling of Voter Fraud and Public
            Corruption Cases

       The evidence we uncovered in our investigation demonstrated that the
real reason for Iglesias’s removal were the complaints from New Mexico
Republican politicians and party activists about how Iglesias handled voter
fraud and public corruption cases in the state.

      As detailed above, many Republicans in New Mexico believed that
fraudulent registrations by Democratic Party voters was a widespread problem
in New Mexico, an evenly divided state politically that has had very close
national elections. Beginning in the summer of 2004, New Mexico Republican
Party activists talked to Iglesias about the “party’s . . . efforts” on the voter
fraud issue, and sought to involve him in those efforts.

       In response to the allegations of voter fraud, and after discussions with
the Department’s Criminal Division about the issue, Iglesias formed an
Election Fraud Task Force to examine the complaints. The Task Force’s
participants included the FBI and election law experts in the Department.
Iglesias also sought to explain to New Mexico Republican Party officials the
Department’s policies regarding the appropriate handling of such complaints.

      We found that Iglesias’s approach to these complaints received
recognition from within the Department as an example of how to handle voter
fraud investigations. In addition, the Chief of the Public Integrity Section’s
Election Crimes Branch, Craig Donsanto, told us that he thought Iglesias
pursued voter fraud cases vigorously and fairly, and that he had no complaints
about Iglesias’s office’s attention to those matters.

      However, New Mexico Republican officials were dissatisfied with Iglesias’s
task force approach and its prosecutorial decisions on individual voter fraud
cases. Consequently, they began making repeated and vociferous complaints
about Iglesias’s handling of these cases, first directly to Iglesias, then to the
Department, to New Mexico Republican members of Congress, and to the White
House. These complaints generated requests from Senator Domenici and
Representative Wilson for Iglesias’s removal. It also appears that the
complaints from the New Mexico Republicans reached the highest levels of the
White House, including Karl Rove.

       We found that Senator Domenici called Attorney General Gonzales three
times about Iglesias – in September 2005, January 2006, and April 2006.
Domenici declined to be interviewed by us, and Gonzales’s testimony was
vague about the substance of each of the three calls. However, Gonzales told
us he recalled that Domenici questioned whether Iglesias should remain in his
position as U.S. Attorney and mentioned voter fraud and public corruption
cases as areas of concern.



                                       190
       In addition, in 2006 New Mexico Republican officials began complaining
about Iglesias’s alleged delay in indicting a case, known as the courthouse
case, against a prominent Democrat prior to the 2006 congressional mid-term
election. However, the New Mexico AUSA handling the matter told us that the
courthouse investigation was still ongoing at that time, that a great deal of
work remained to be done before the case would be ready to indict, and that no
one with any knowledge of the investigation would have described it as
complete at that time.

       In October 2006, shortly before the elections, the complaints about
Iglesias intensified. On September 30, 2006, and October 2, 2006, New Mexico
Republican political activist Mickey Barnett complained to Rove and others
that Iglesias was not moving quickly enough on the courthouse case and was
not prosecuting voter fraud cases before the election. According to Barnett,
Rove said he was familiar with the complaints about Iglesias. On October 4,
Senator Domenici called McNulty expressing concern about Iglesias’s lack of
fitness for the job of U.S. Attorney.

       Also in October 2006, according to Gonzales, Rove expressed concern to
him about voter fraud in three jurisdictions, including Albuquerque, New
Mexico. Gonzales said he mentioned the conversation to Sampson and asked
him to look into it. In addition, on October 11 President Bush told Gonzales he
was receiving complaints from congressmen regarding voter fraud in three
jurisdictions (apparently the same three that Rove discussed with Gonzales).
Although Gonzales told us he did not recall this conversation with the
President, he did not dispute that it occurred. Sampson told congressional
investigators that he recalled that after the removals became public, Gonzales
told him that he recalled the President telling him in October that Domenici
had concerns about Iglesias. Sampson said that Gonzales told him that Rove
had concerns about voter fraud enforcement by U.S. Attorneys in Albuquerque,
Philadelphia, and Milwaukee.

       On October 15, Representative Heather Wilson sent an article to Senator
Domenici’s Chief of Staff, Steve Bell, noting public corruption prosecutions in
states other than New Mexico. Bell forwarded the complaint to the White
House, stating that other U.S. Attorneys were able to “do their work in an
election season.” The next day Wilson called Iglesias inquiring whether he was
delaying public corruption investigations. Ten days later, around October 26,
Senator Domenici called Iglesias about the courthouse case, and asked Iglesias
if an indictment would be filed “before November.” When Iglesias responded
that he did not think it would, Domenici said he was sorry to hear that and
hung up.

     Several days later, on November 7, Iglesias appeared on Sampson’s
removal list for the first time. Sampson transmitted this list to the White
House on November 15. Yet, even before the list was transmitted, the White


                                     191
House had apparently been informed that Iglesias’s name had been included
on it.

       We found that the Department officials who Sampson identified as being
involved in the final stage of the U.S. Attorney removal process – Gonzales,
McNulty, Goodling, and Elston – disclaimed any responsibility for causing
Iglesias’s name to be placed on this list. McNulty stated to us that he did not
add Iglesias to the list. Elston told us he did not recommend adding Iglesias to
the list, although he assumed his removal had something to do with Senator
Domenici’s call to McNulty. Goodling testified to Congress that she did not
know who put Iglesias on the removal list.

       When Gonzales was asked about Iglesias’s removal during his hearing
before the House Judiciary Committee, he noted that Senator Domenici had
lost confidence in Iglesias, and also said that “[n]ot having the confidence of the
senior senator and the senior leadership in the Department was enough for me
to lose confidence in Mr. Iglesias . . . .” However, Gonzales also testified that
he hoped that Iglesias was not removed solely because of Domenici’s calls.

      In Sampson’s congressional testimony, he disclaimed knowledge of how
or why Iglesias was added to the removal list. He ultimately acknowledged that
he added Iglesias to the list sometime between October 17 and November 7,
2006, but stated that he had no specific recollection of why he did so. He said
that at the time he added Iglesias to the list he was aware that Senator
Domenici had complained to Gonzales and McNulty about Iglesias, and that
Gonzales had received some sort of complaint from Rove about voter fraud. He
said he later learned that the President had raised similar concerns to
Gonzales. However, Sampson stated to us that he did not know about the
President’s comment when he put Iglesias on the removal list.

      In sum, we believe the evidence shows that the complaints about Iglesias
from New Mexico Republican politicians and party activists, both to the
Department and to the White House, caused Sampson to place Iglesias on the
removal list. Once Iglesias was on the list, none of the senior Department
leaders questioned his inclusion or asked that he be taken off the list.

       We believe that Senator Domenici’s complaints were the primary factor
for Iglesias’s placement on the list. Although Gonzales and McNulty stated that
Domenici never directly asked the Department to replace Iglesias, the nature of
Domenici’s criticisms left little doubt that he wanted a new U.S. Attorney in
New Mexico. Gonzales said that Domenici “complained about . . . whether or
not Mr. Iglesias was capable of continuing in that position.” According to
McNulty, Domenici criticized Iglesias’s handling of public corruption cases and
said that Iglesias was “in over his head.” McNulty said that Domenici’s
assertiveness and tone during the conversation were “striking.”




                                       192
       Yet, we found no evidence that anyone in the Department examined any
of the complaints about Iglesias through any careful or objective analysis.
Although Gonzales said he asked Sampson to look into Rove’s concerns about
voter fraud enforcement in New Mexico, Gonzales never followed up with
Sampson about his findings or to ensure that the complaints were objectively
examined. McNulty said he did not take any steps to find out what had
triggered Domenici’s telephone call or take any steps “of an investigative
nature” in response. Gonzales told us that in retrospect he would have
expected that someone would have looked into the complaints. Gonzales said
“you can’t have, you know, a member of Congress calling and making an
allegation and not checking it out and seeing whether or not there’s anything
there to it.”

       However, no one reached out to anyone in the U.S. Attorney’s Office or
the FBI to ask about the voter fraud or public corruption cases, or whether
Iglesias was inappropriately delaying an indictment in a prominent public
corruption investigation. More importantly, no one in the Department ever
asked Iglesias about these complaints, or why he had handled the cases the
way he did.

       Rather, Gonzales, McNulty, Sampson, and those involved in the decision
to remove Iglesias accepted at face value that the complaints raised about
Iglesias by New Mexico Republican officials were a sufficient reason to remove
him. Because of complaints by political officials who had a political interest in
the outcome of these voter fraud and public corruption cases, the Department
removed Iglesias, an individual who had previously been viewed as a strong
U.S. attorney.

       We believe that these actions by Department officials were a troubling
dereliction of their responsibility to protect the integrity and independence of
prosecutorial decisions by the Department. These officials had an obligation to
determine that the complaints about Iglesias and the suggestions that he be
removed were not made to influence the investigation and prosecution of the
courthouse case or the voter fraud cases. Yet, they took no action to look into
the matter.

        In our view, the primary responsibility for this dramatic failure rests with
Attorney General Gonzales, Deputy Attorney General McNulty, and Chief of
Staff Sampson. While Sampson placed Iglesias’s name on the removal list,
neither Gonzales nor McNulty ensured that the complaints about Iglesias were
appropriately and objectively assessed. Gonzales said he asked Sampson to
look into the complaints, but never inquired about the outcome of any review
or ensured that the complaints were fairly assessed. McNulty abdicated any
responsibility for Iglesias’s removal, stating that he did not add Iglesias to the
list, that he did not have any reason to recommend his removal at the time,
and that he assumed whoever placed him on the list had an independent


                                        193
reason for doing so. But neither Gonzales nor McNulty inquired whether a
Department prosecutor was being unfairly criticized for appropriately doing his
job – weighing the evidence on particular cases in accord with the law and
Department policy, and determining whether and when a prosecution was
warranted.

       We recognize that Senators and other political officials can recommend to
the White House candidates for U.S. Attorney in their states, and they can use
political factors in determining who to recommend. But once U.S. Attorneys
assume office, they are obligated to put political considerations aside when
making prosecutive judgments on individual cases. Inevitably, their decisions
may displease the political officials who initially supported them.

       If a U.S. Attorney must maintain the confidence of home-state political
officials to avoid removal, regardless of the merits of the U.S. Attorney’s
prosecutorial decisions, respect for the Department of Justice’s independence
and integrity will be severely damaged and every U.S. Attorneys’ prosecutorial
decisions will be suspect. The longstanding tradition of integrity and
independent judgments by Department prosecutors will be undermined, and
confidence that the Department of Justice decides who to prosecute based
solely on the evidence and the law, without regard to political factors, will
disappear.

       In sum, we believe that Department’s actions in this case to remove
Iglesias – based on complaints from New Mexico political officials and party
activists about his handling of particular criminal cases and without any action
to determine whether the complaints were legitimate or whether they were
made in an effort to influence the initiation or the timing of an investigation or
prosecution for political gain – were an abdication of senior Department
leaders’ responsibilities, independence, and integrity.

      C.    Additional Issues

      First, we believe it is also important to point out that Iglesias was not
completely blameless in this matter. Department policy requires that any
requests from members of Congress or congressional staff (including telephone
requests) to U.S. Attorney’s Offices for non-public information must be
promptly reported to the Counsel to the Director of EOUSA. See Section 1-
8.010 of the United States Attorneys’ Manual (USAM). This requirement is
important because the Department needs to be aware of elected officials’
requests relating to both matters of policy and to ongoing or prospective
investigations, in part to ensure the absence of political pressure or influence.

      Iglesias acknowledged that he was aware of this requirement but that he
did not report to EOUSA either Representative Wilson’s or Senator Domenici’s
telephone calls. He said that he considered Wilson to be a friend, that he



                                       194
thought she had simply exercised poor judgment in calling him, and that he
believed the matter would go no further. Iglesias also stated that he decided
not to report Senator Domenici’s call out of a combination of personal
admiration for the Senator and gratitude for his past assistance. Moreover,
Iglesias said he believed that he was unlikely to be the winner in a dispute with
Senator Domenici.

      As Margolis later noted, had Iglesias reported these calls as he should
have, it would have made it more difficult for the Department to remove him
without first examining the substance of the complaints raised against him.
Whether this is true or not, Iglesias should have reported the telephone calls
from the members of Congress, as he later acknowledged to us, and his failure
to do so violated Department policy.

      Moreover, we found that Iglesias’s answer to the question Domenici
posed in their telephone conversation was inappropriate. Iglesias
acknowledged that he understood Domenici to be asking him about whether a
grand jury indictment in a specific case – the courthouse case – would be filed
before November. Iglesias should have told Domenici that he could not answer
that question. Instead, he answered, “I don’t think so.” Although Iglesias told
us that he was trying to be responsive without providing information, the
words he used gave Domenici the answer to his question about the timing of
the courthouse case indictment.

       In contrast, according to Iglesias, when Wilson called him she said she
had heard something about sealed indictments in public corruption cases,
apparently seeking non-public information about the courthouse case, the only
public corruption case that had been reported in the press at that time.
Iglesias did not disclose any non-public information in response.

     We believe that Iglesias committed misconduct both in answering
Domenici’s question and in failing to report the contacts from Wilson and
Domenici pursuant to Department policy. However, while we believe Iglesias
committed misconduct, this does not excuse or mitigate in any way the
Department’s actions in this matter.

       Second, we are troubled by McNulty’s failure to discuss Senator
Domenici’s call to him in his congressional briefing when he described the
reasons for Iglesias’s removal. McNulty said he did not want to refer to Senator
Domenici because he was “concerned about . . . putting the Senator in a bad
light or in a difficult position” and that he wanted to keep the conversation
between Domenici and him about Iglesias “confidential . . . . It was just a
courtesy.” McNulty also attempted to defend his action by noting that he had
disclosed in his briefing generic “congressional concerns” about Iglesias.




                                      195
       We disagree with McNulty’s actions, and do not believe that Senator
Domenici’s call should have been kept confidential or that the Department
owed the Senator any “courtesy” with regard to his multiple complaints about
Iglesias, which led to Iglesias’s removal. Rather, McNulty and the Department
owed Congress and the public a duty to provide full, honest, and complete
testimony regarding this matter. McNulty failed to provide such testimony as a
result of his misguided attempt to shield Domenici from criticism. And, as
discussed above, not only did the Department fail to provide details about the
real reason Iglesias was fired, it also proffered after-the-fact rationalizations for
Iglesias’s termination, such as concerns with his management and that he was
an “absentee landlord.”

       Third, we were concerned about the accuracy and consistency of
Sampson’s testimony before Congress and his statements to us about why
Iglesias was placed on the removal list. Sampson claimed not to remember
why Iglesias was placed on the list and disclaimed responsibility for the
decision. In addition, his testimony was varying, vague, and sometimes
contrary to the evidence, despite the fact that it concerned an event that
happened only a few months before his testimony. For example, Sampson told
the Senate Judiciary Committee that sometime after October 17, 2006, the
Deputy Attorney General, his Chief of Staff, the Attorney General, and Goodling
looked at the U.S. Attorneys whose 4-year terms had expired to determine
whether additional names should be added to the removal list and, as a result,
four names, including Iglesias, were added. According to Sampson, the other
three names came off the removal list but Iglesias’s name remained “because
nobody suggested that he come off.” In fact, only Iglesias’s name was added to
the list between October 17 and November 7 – the three other names had
already appeared on previous lists.

       In his subsequent interview with House and Senate Judiciary staff,
Sampson stated that he did not remember how Iglesias’s name first came to be
placed on the list. Sampson also testified that Senator Domenici had made
three calls to the Attorney General and one to McNulty regarding Iglesias and
that these calls may have influenced the Department’s decision to remove
Iglesias, but he did not recall whether they did.

      In his interview with us, Sampson acknowledged that he put Iglesias’s
name on the removal list, but said he did not remember putting it on the list
and did not remember there being a specific reason for adding it. He also said
he placed Iglesias on the list based on what he had heard about him in October
2006 regarding complaints from Senator Domenici, combined with bits and
pieces of information he had learned about Iglesias before then. We question
why Sampson could not remember the precise reason why he placed Iglesias
on the removal list, given the relatively short passage of time since the incident,
the fact that Iglesias’s name was the only one placed on the list at that time,
and the high-profile nature of the contacts (three calls to the Attorney General


                                        196
and one to the Deputy Attorney General) from a Senator. Sampson’s other
inaccurate explanations about why Iglesias was placed on the list, such as his
over-delegation of authority to his First Assistant, also caused us to doubt the
candor of his explanations, and we question whether he provided us the full
story about Iglesias’s placement on the list.

      D.    Unanswered Questions

       We believe we were able to ascertain with reasonable assurance that the
complaints from New Mexico Republican politicians and party activists about
Iglesias’s handling of voter fraud and corruption cases were the reasons for his
removal as U.S. Attorney. However, based upon our inability to compel the
cooperation of certain witnesses and obtain White House documents, we were
not able to identify the role the White House played in the decision to remove
Iglesias. Nor could we uncover all the evidence regarding the role of
congressional or New Mexico Republican party activists in Iglesias’s removal.
As discussed above, we were not able to interview Senator Domenici, his Chief
of Staff Steve Bell, Monica Goodling, and several White House officials,
including Harriet Miers and Karl Rove. The White House also would not
provide us internal documents related to the removals of U.S. Attorneys.

       While Sampson said he did not place Iglesias on the list at the behest of
the White House, his claimed recollection of the reasons for Iglesias’s removal
was inconsistent and vague. In addition, Attorney General Gonzales did not
dispute that he had conversations with the President and, separately, with
Rove about voter fraud in several districts, including in New Mexico, although
Gonzales said he did not recall the specifics of the conversations. The limited
evidence we were able to obtain about the White House’s involvement in
Iglesias’s removal showed that Rove was interested in and aware of the plan to
remove Iglesias. Indeed on the morning of November 15, 2006, before
Sampson sent his list to the White House with Iglesias’s name on it for the first
time, Rove told Representative Wilson that the decision to remove Iglesias had
already been made. Nevertheless, we were unable to determine Rove’s precise
role. Moreover, it appears that Miers spoke to McNulty about Iglesias in the fall
of 2006, although we could not determine when or what exactly was discussed.

      Iglesias’s removal led to serious allegations that he was dismissed for
improper partisan political reasons – namely, to influence voter fraud
prosecutions in a closely divided state or to affect the timing of a public
corruption case against a prominent Democrat in order to influence the
outcome of the election. While we were able to obtain a significant amount of
evidence related to Iglesias’s removal, we could not obtain all the evidence
related to these allegations.




                                      197
      Therefore, we recommend that a counsel specially appointed by the
Attorney General work with us to further investigate these issues. We believe
obtaining this additional information is important for several related reasons.

       First, it is important to be able to ascertain the full facts relating to why
Iglesias, and other U.S. Attorneys, were removed.

        Second, we believe this counsel should consider whether Sampson or
other Department officials made false statements to Congress or to us about
the reasons for the removal of Iglesias or other U.S. Attorneys. The false
statements statute applies to any individual who “in any matter within the
jurisdiction of the executive [or] legislative . . . branch of the Government of the
United States, knowingly and willfully – (1) falsifies, conceals, or covers up by
any trick, scheme, or device a material fact; [or] (2) makes any materially false,
fictitious, or fraudulent statement or representation . . . .” 18 U.S.C. §
1001(a). 128

       As described above, we are concerned about Sampson’s testimony before
Congress and his statements to us about the reasons for the removal of
Iglesias, as well as his statements about other U.S. Attorneys. For example,
while Sampson claimed he did not remember the reasons that Iglesias was
placed on the removal list, and that he did not recall anyone at the White
House, including Rove and Miers, suggesting that Iglesias needed to be
removed, other evidence suggests White House involvement in Iglesias’s
removal. We question why Sampson could not recall the precise reason why he
placed Iglesias on the removal list, given the relatively short passage of time
between the incident and his testimony, and the fact that Iglesias’s name alone
was added, for the first time, to the November 2006 list. Moreover, Sampson’s
other misleading after-the-fact explanations for why Iglesias was placed on the
list caused us to further doubt the candor of Sampson’s explanations.

       We believe that interviews of witnesses who refused to cooperate with us,
such as Goodling, Rove, and Miers, and a review of White House documents
would provide more evidence to determine whether Sampson or anyone else
made false statements to Congress or to us about the reasons for the removals
of Iglesias or the other U.S. Attorneys. Without such additional testimony and
documents, we cannot fully assess the accuracy of testimony provided by
Sampson and other Department officials to us or Congress.

      Third, we believe a full investigation is necessary to determine whether
other federal criminal statutes were violated with regard to the removal of

       128   With regard to investigations by Congress, the statute applies to “any investigation
or review, conducted pursuant to the authority of any committee, subcommittee, commission
or office of the Congress, consistent with applicable rules of the House or Senate.” 18 U.S.C. §
1001(c)(2).




                                              198
Iglesias. For example, Iglesias and others have alleged that he was removed in
retaliation for his failure to accelerate the indictment of a public corruption
case and his alleged failure to initiate voter fraud investigations. Iglesias said
that Representative Wilson, who was running for reelection in a close race,
called him before the 2006 election and asked him about delays in public
corruption cases being handled by his office, apparently referring to the
courthouse case. In addition, Iglesias believed that Senator Domenici
attempted to pressure him to indict the courthouse case before the election in
order to benefit Wilson, and when Iglesias declined to do so Domenici
engineered his removal. The evidence we have developed so far shows that
Wilson and Domenici in fact called Iglesias shortly before the election, and that
the substance of the calls led Iglesias to believe he was being pressured to
indict the courthouse case before the upcoming election. Moreover, New
Mexico Republican politicians and party activists contacted Iglesias, the
Department, and the White House to complain about Iglesias’s handling of
voter fraud investigations and public corruption cases.

       It is possible that those seeking Iglesias’s removal did so simply because
they believed he was not competently prosecuting worthwhile cases. However,
if they attempted to pressure Iglesias to accelerate his charging decision in the
courthouse case or to initiate voter fraud investigations to affect the outcome of
the upcoming election, their conduct may have been criminal. The obstruction
of justice statute makes it a crime for any person who “corruptly . . .
influences, obstructs, or impedes, or endeavors to influence, obstruct or
impede, the due administration of justice . . . .” 18 U.S.C. § 1503(a). While we
found no case charging a violation of the obstruction of justice statute involving
an effort to accelerate a criminal prosecution for partisan political purposes, we
believe that pressuring a prosecutor to indict a case more quickly to affect the
outcome of an upcoming election could be a corrupt attempt to influence the
prosecution in violation of the obstruction of justice statute. The same
reasoning could apply to pressuring a prosecutor to take partisan political
considerations into account in his charging decisions in voter fraud matters.

       In addition, the wire fraud statute bars “any scheme or artifice to
defraud” that is furthered by the use of interstate wire communications. 18
U.S.C. § 1343. A “scheme or artifice to defraud” includes “a scheme or artifice
to deprive another of the intangible right of honest services.” 18 U.S.C. § 1346.
The elements of an honest services wire fraud case are: (1) a scheme or artifice
to defraud by depriving another of the intangible right of honest services; (2) an
intent to defraud; and (3) the use of interstate wire communications to execute
the scheme. See generally United States v. Sawyer, 85 F.3d 713, 723-727 (1st
Cir. 1996); United States v. Welch, 327 F.3d 1081, 1104 (10th Cir. 2003). An
individual who conspires or attempts to induce a public official to violate a
public duty can be prosecuted for wire fraud. See 18 U.S.C. § 1349.




                                       199
       As a United States Attorney, Iglesias had a duty to prosecute cases
without regard to his own professional or personal considerations, and without
regard to partisan political considerations. See United States Attorneys’
Manual § 9-27.000 (Principles of Federal Prosecution) and § 9-27.260 (A)(3)
(Initiating and Declining Charges – Impermissible Considerations). If anyone
used interstate wire communications to pressure Iglesias to take partisan
political considerations into account in his charging decision in the courthouse
case, that could violate the wire fraud statute.

       Senator Domenici declined our request for an interview. So did his Chief
of Staff, who was involved in both fielding and making complaints about
Iglesias’s handling of the courthouse case and voter fraud matters and thus
should have knowledge about whether there were efforts to influence Iglesias to
consider partisan political factors in his charging decisions. Although Wilson
consented to be interviewed, she refused to tell us the identity of the
constituent who allegedly told her that Iglesias was intentionally delaying
public corruption prosecutions in her district. An interview of that person
could potentially provide evidence regarding Wilson’s intent in calling Iglesias
and complaining to others about him.

       In addition, the evidence indicates that Monica Goodling may have
knowledge of the nature of the complaints about Iglesias to Department
officials or the White House, and the reasons for Iglesias’s removal, but she
also refused to cooperate with our investigation. Moreover, we were unable to
interview Rove and Miers about the complaints that reached them about
Iglesias and any actions they took in response. Nor have we been able to
review relevant White House documents, such as the Scudder memorandum
and internal e-mails.

      We want to make clear that we are not stating that the evidence we have
uncovered thus far establishes that a violation of the false statements,
obstruction of justice, or wire fraud statutes has occurred. However, we believe
that the evidence collected in this investigation is not complete, and that
serious allegations involving potential criminal conduct have not been fully
investigated or resolved.

      We recommend that a counsel specially appointed by the Attorney
General assess the facts we have uncovered, work with us to conduct further
investigation, and ultimately determine whether the totality of the evidence
demonstrates that any criminal offense was committed. Because we do not
have the authority to compel witness testimony or the production of documents
from the White House, we cannot pursue this investigation further on our own.
We believe that this matter should be fully investigated, the facts and
conclusions fully developed, and final decisions made based on all the
evidence.



                                      200
Daniel Bogden Timeline
                                                                                                                                                                                                                                                                                                                Dec 5, 2006

  Nov 2001                                                                                                                                                                                                                                                                                                      McNulty sends an e-mail to Sampson saying he is “skittish”
                                                                                                                                                                                                                                                                                                                about removing Bogden
  Bogden Events
                                                                                                                                                                                                                                                                                                                When McNulty meets with Sampson and learns Bogden is
  and Actions                                                                                                                                                                                                                                                                                                   single McNulty does not object to Bogden's removal
                                                                                                                                                                                                                                                        Sep 6, 2006

                                                   2003                                                                                                                                                                                                 Ward, Bogden, and others meet in Las Vegas;
                                                                                                                                                                                                                                                        Bogden does not agree to assign a prosecutor
                                                   Bogden’s office and the FBI use the                                                                                                                                                                  to a Task Force case                                        Dec 7, 2006
                                                   Patriot Act to obtain information in a
                                                                                                                                                                                                                                                                                                                    Bogden is told to resign
                                                   criminal case
                                                                                                                            Jan 2006

                                                                                                                            Brent Ward, Director of the Obscenity                                                     Aug 17, 2006 - Aug 18, 2006
                                                                                                                            Prosecution Task Force, meets with                                                                                                                                                                      Jan 17, 2007
                                                                                                                                                                                                                                                                      Sep 13, 2006
                       Oct 23, 2001                                                                                         Bogden’s senior staff about obscenity                                                     Ward meets with Sampson and                                                                                   Bogden announces his resignation
                                                                                                                            prosecution                                                                               complains about Bogden's                        Bogden’s name appears on
                       Bogden is confirmed by the Senate                                                                                                                                                              cooperation with the Task Force                 Sampson’s removal list for
                       as the U.S. Attorney, Nevada                                                                                                                                                                                                                   the first time                                                                            Feb 28, 2007

                                                                                                                                                                                                                                                                                                                                                                Bogden leaves office


                                Oct 2001        Nov 2001             Jan 2003          Feb 2003               Mar 2005     Apr 2005            Jan 2006        Feb 2006   Mar 2006   Apr 2006   May 2006   Jun 2006         Jul 2006        Aug 2006         Sep 2006         Oct 2006         Nov 2006         Dec 2006        Jan 2007        Feb 2007




                                                                                            Mar 2005                                                                                                                         Aug 28, 2006                                   Nov 27, 2006                               2007
  Nov 2001                                                                                  Bogden is not included on                                                                                                        Ward complains to Sampson that                 The removal list is finalized and          Gonzales calls Bogden three times to
                                                                                            Sampson's first removal list                                                                                                     Bogden refuses to assist with an               approved. After the meeting                offer assistance in finding employment
  DOJ and Other                                                                                                                                                                                                              obscenity case                                 McNulty asks about Bogden
  Events and Actions
                             CHAPTER SEVEN
                             DANIEL BOGDEN

I.    Introduction

      This chapter examines the removal of Daniel Bogden, the former United
States Attorney for Nevada.

      A.    Bogden’s Background

      Bogden received his law degree in 1982 from the University of Toledo
College of Law. He served as a member of the United States Air Force Judge
Advocate General’s Office from 1982 until 1987. From 1987 until 1990,
Bogden was a prosecutor in the Washoe County District Attorney’s Office in
Reno, Nevada. He was hired as an Assistant United States Attorney in the
District of Nevada in 1990, and was named Chief of the Reno office in 1998.

        In 2001, Bogden was approached by Nevada U.S. Senator John Ensign
and asked if he was interested in becoming the U.S. Attorney for the District of
Nevada. Bogden said that Ensign also asked him if he had a political party
affiliation. Bogden told Ensign that he was unaffiliated and voted for who he
believed to be the best candidate.

      Bogden was nominated to be the United States Attorney for the District
of Nevada on September 4, 2001, and sworn in on November 2, 2001.

      B.    The EARS Evaluation of Bogden’s Office

      During his tenure as U.S. Attorney, Bogden’s office underwent one EARS
evaluation in February 2003. The EARS evaluation stated:

      United States Attorney Bogden and his supervisory [staff] were well
      respected by the USAO staff, the investigative and client agencies,
      and the judiciary . . . . The senior management team appropriately
      managed the Department’s criminal and civil priority programs
      and initiatives . . . . Bogden was highly regarded by the federal
      judiciary, the law enforcement and civil client agencies, and the
      staff of the USAO. He was a capable leader of the USAO. He was
      actively involved in the day-to-day management of the USAO.

      C.    Bogden’s Status on the Removal Lists

     On Kyle Sampson’s first list of U.S. Attorneys recommended for removal,
which he sent to the White House on March 2, 2005, Bogden was identified as


                                      201
1 of 40 U.S. Attorneys who had not distinguished themselves either positively
or negatively. At the beginning of January 2006, Sampson prepared a draft
memorandum for White House Counsel Miers identifying 11 U.S. Attorneys for
replacement, which he shared with Monica Goodling, then Senior Counsel to
the Attorney General. Goodling made handwritten notes about Bogden on a
copy of the draft memorandum: “Quiet/not sure about – Bogden.” However,
Sampson did not include Bogden in the January 9, 2006, list he sent to
Miers. 129

      Bogden also was not included in Sampson’s April 2006 list of U.S.
Attorneys to be removed.

      Bogden’s name first appeared on the fourth removal list Sampson sent to
Miers on September 13, 2006, and he remained on the list through December
7, 2006, when he was told to resign. He announced his resignation on
January 17, 2007, and left office on February 28, 2007.

       D.     Reasons Proffered for Bogden’s Removal

       As described in Chapter Three, in February 2007 when the Department
began to prepare witnesses for their congressional testimony regarding the U.S.
Attorney removals, Goodling and others created a chart of the reasons
justifying the removals. In her handwritten notes describing the reasons for
Bogden’s removal, Goodling wrote: “very important – terror, violent crime,
drugs in important district, resistant to AG priorities (obscenity task force),
Margolis, in over his head.”

      Based on Goodling’s notes, the Department created several versions of a
typewritten chart containing justifications for the U.S. Attorney removals. The
reasons for Bogden’s removal were stated in one of these charts as follows:

       Similarly, Nevada is what we consider to be a very important
       district that was underserved.
       Given the large tourist population that visits each year, it’s well-
       known that Las Vegas could present a target for terrorism. It has
       also struggled with violent crime, drugs, and organized crime. This
       is an office where we have the right to expect excellence and
       aggressive prosecution in a number of priority areas.
       Despite the national focus the Attorney General requested for
       offices to place on the federal crime of obscenity, which coarsens


       129   Shortly after his January 2006 discussion with Goodling, Sampson created a draft
of a 3-tier list in which he identified Bogden as a “Tier 2” candidate who was not recommended
for immediate termination, but who was a possible future candidate for replacement.




                                             202
      society, the USA failed to support the Department’s prosecution of
      a case that was developed within his district.
      This is another district where, now that Mr. Bogden has finished
      his four-year term (and then some), we thought we could make a
      change to bring more dynamic leadership to the office.

       On February 14, 2007, Deputy Attorney General Paul McNulty briefed
the Senate Judiciary Committee on the U.S. Attorney removals. The notes of
this meeting prepared by Nancy Scott-Finan, an official in the Department’s
Office of Legislative Affairs who attended, and the talking points that McNulty
used to prepare for the meeting reflect that McNulty gave as reasons for
Bogden’s removal that Bogden “lacked energy and leadership” and he was
“good on guns, but not good on obscenity cases.”

      During Principal Associate Deputy Attorney General William Moschella’s
March 6, 2007, testimony, he told the House Judiciary Subcommittee that
while there “was no particular deficiency” concerning Bogden, the Department
removed him to obtain “renewed energy” and “renewed vigor” in his office.

        During our investigation, we could not determine who was responsible
for Bogden’s name being placed on the U.S. Attorney removal list. Sampson,
who described himself as the “aggregator” of information and the keeper of the
list, acknowledged that he must have physically placed Bogden’s name on the
list. But he denied that he made the decision to add Bogden to the list, and
said that he did not remember who made the recommendation. Sampson said
he did not remember how Bogden got on the list “except that there was a
general view that he was mediocre, and he stayed on the list.” Other than
Goodling, no one we interviewed said they recommended that Bogden be placed
on the removal list. Attorney General Alberto Gonzales told us that he did not
have an independent basis for understanding why Bogden was to be removed.
Gonzales also expressed regret to us that no one talked to Bogden before he
was removed. Gonzales stated that he wished that “someone had talked to all
of these folks beforehand, just to make sure we understood their side of the
story, but particularly with respect to Bogden.”

      As we describe in more detail in Section II. D. below, Deputy Attorney
General McNulty said that because he did not know why Bogden’s name was
on the list of U.S. Attorneys to be removed, he looked more closely at Bogden’s
removal than he did at others on the list. McNulty asked Sampson if Bogden
“had done something wrong,” and commented that he was “skittish” about
removing him. When McNulty was told that Bogden was single and did not
have a family, McNulty agreed to his removal.

      Associate Deputy Attorney General David Margolis told congressional
investigators that prior to the December 7 removals, he had no understanding
of how or why Bogden was removed. We asked Margolis about Goodling’s


                                      203
handwritten notes summarizing the reasons why Bogden was removed, which
included the notations “Margolis” and “in over his head.” Margolis told us that
he never said to anyone that Bogden was “in over his head” because he did not
think that was an accurate description of Bogden’s performance, which
Margolis described to us as “average.” Margolis told us that he did not know
why Goodling would have written his name in her notes concerning Bogden’s
removal.

      Chief of Staff to the Deputy Attorney General Michael Elston told
congressional investigators that he did not suggest that Bogden be removed.
According to Elston, he did not object to Bogden’s removal because he thought
that although Bogden “didn’t really do anything wrong,” he was not “doing
anything great.”

       Goodling was the only witness who said she affirmatively recommended
that Bogden be removed. In her May 2007 immunized testimony to the House
Judiciary Committee, Goodling stated that Sampson consulted with her in
January 2006 about the list of candidates for removal he planned to send to
Miers. She said that at that time she recommended that Bogden be added to
Sampson’s list. Goodling also submitted a written statement to the House
Judiciary Committee in which she said that she made the recommendation to
remove Bogden because she did not know of any specific accomplishments in
his district and because she recalled some criticism of Bogden involving the
Patriot Act.

       However, Goodling’s testimony that she recommended Bogden’s removal
in January 2006 is inconsistent with her contemporaneous notes from that
time. Goodling’s handwritten notes on a copy of a draft of Sampson’s January
list state, “Quiet/not sure about – Bogden.” Sampson said he did not
remember Goodling mentioning any Patriot Act issue with respect to Bogden,
and we were unable to interview Goodling because she declined to cooperate
with our investigation.

      Even Goodling, however, disclaimed that her recommendation was the
reason Bogden was removed. In her testimony before the House Judiciary
Committee, Goodling noted that after her January 2006 recommendation,
Sampson did not include Bogden on the removal lists he sent to the White
House in January and April 2006. She said she therefore assumed that
Bogden’s name appeared on the September 2006 U.S. Attorney removal list “for
reasons unrelated to my assessment nine months earlier.”


II.   Chronology of Events Related to Bogden’s Removal

      In this section, we describe our findings concerning the stated reasons
for Bogden’s removal, including Bogden’s response to a request from the
Department’s Obscenity Prosecution Task Force to prosecute an obscenity case


                                      204
in Nevada, alleged concerns about his energy and leadership, and his use of a
Patriot Act provision in prosecuting a criminal case.

      A.    Obscenity Prosecution

      In 2006, the Department’s Obscenity Prosecution Task Force (Task
Force) asked Bogden to assign an Assistant U.S. Attorney from his office to
prosecute an adult obscenity case. As described below, Bogden’s response to
the request became one of the reasons proffered for his removal.

            1.    Obscenity Prosecution Task Force

      In 2005, the Department created the Obscenity Prosecution Task Force
in the Criminal Division in Main Justice. The Task Force has a small staff of
approximately two to four attorneys. The current Director of the Task Force,
Brent Ward, was a former U.S. Attorney in Utah in the 1980s. Because of its
small size, the Task Force relies upon assistance from U.S. Attorneys’ Offices
across the country to prosecute the cases it identifies.

       According to Ward, the Task Force seeks to prosecute adult obscenity
matters in which there is no allegation that minors or children are involved,
and no allegation that the persons involved were coerced or otherwise forced to
perform the acts alleged to be obscene. Ward told us that it was common for
the Task Force to encounter strong resistance from U.S. Attorneys’ Offices
when asked to prosecute such cases. A Task Force trial attorney also said that
the Task Force does not “get a real warm reception” from U.S. Attorneys’
Offices when it requests assistance. He said that he could think of only 1 or 2
people he had worked with over the last 15 months who “really wanted” to
assist in such prosecutions.

       According to the Department’s stated reasons for Bogden’s removal,
obscenity prosecutions were a leadership “priority” for the Department. We
found that Ward often sought to invoke the Attorney General’s priorities when
trying to persuade U.S. Attorneys’ Offices to assist the Task Force with
obscenity prosecutions. However, documents and e-mails also reflect that
Ward himself vociferously complained that obscenity prosecutions were not, in
fact, a Department priority. For example, Ward prepared an August 17, 2006,
outline of matters to discuss with Sampson in which he noted that the
Department’s 2003-2008 strategic plan omitted obscenity as a prosecution
priority. In addition, in December 2006 Ward sent an e-mail to several
Criminal Division front office staff, including Assistant Attorney General Alice
Fisher, complaining that a draft set of Criminal Division enforcement priorities
omitted obscenity prosecutions. Ward stated that the omission would
encourage U.S. Attorneys already hesitant to take on such cases to refuse
them. Ward also sent a copy of this e-mail to Sampson on December 12, 2006.




                                      205
            2.    Task Force Request to Bogden and Complaints About His
                  Response

      In January 2006, Ward met with Bogden’s First Assistant U.S. Attorney
and his Criminal Chief to discuss, in general terms, potential obscenity
prosecutions in Nevada. According to Ward, they told him that they were not
interested in pursuing adult obscenity cases in Nevada.

      In August 2006, Task Force officials began to plan a visit to the Nevada
U.S. Attorney’s Office to request that Bogden assist in a proposed criminal
obscenity prosecution concerning allegations that Internet videos depicted
obscene acts.

      On August 16, 2006, Ward sent an e-mail to the Task Force trial attorney
and the FBI agents assigned to the Task Force stating that he had scheduled a
September 6 meeting with Bogden and his staff in Las Vegas to request that a
grand jury be opened and that Bogden assign an AUSA to assist in the
prosecution. Ward and the trial attorney told us that the Task Force preferred
that a local prosecutor take the first chair at trial because of the perceived
importance of persuading the jury that the case was an important local issue
and not one being pushed solely by attorneys from Washington, D.C.

      On August 17 or 18, 2006, a day or two after Ward had arranged the
meeting with Bogden, Ward met with Sampson to discuss problems that the
Task Force was encountering throughout the country. Both Ward and
Sampson were from Utah, and Ward said that he was a friend of Sampson’s
brother, who lived in Salt Lake City. Ward said he had used that connection to
communicate with Sampson before he came to Washington to lead the Task
Force. We also found that Ward frequently complained directly to Sampson
about the problems encountered by the Task Force.

       In Ward’s prepared outline for the meeting with Sampson, Ward
identified several reasons why he believed the Task Force’s mission was not
succeeding, including insufficient resources and lack of support from the FBI,
the Criminal Division front office, and the Office of the Attorney General.
Ward’s outline also contained the following notation: “Big districts thumb nose
– word gets around CDCA, AZ, NV.” Ward told us that he and Sampson
discussed during that meeting problems Ward had encountered in the Los
Angeles U.S. Attorney’s Office (U.S. Attorney Debra Yang), the Phoenix U.S.
Attorney’s Office (U.S. Attorney Paul Charlton), and the Las Vegas U.S.
Attorney’s Office (Bogden).

      On August 28, Ward sent an e-mail to Bogden to confirm their
September 6 meeting and to inform Bogden that he would be accompanied by
the Task Force trial attorney and three FBI agents. Bogden replied the same
day acknowledging the scheduled meeting, but stated that he would likely not



                                      206
agree to Ward’s request for assistance due to “severe manning and personnel
shortages” in the district.

      Ward was angered by Bogden’s response and forwarded it to several
senior Department officials, including Sampson. In his e-mail to Sampson,
Ward remarked, “This is now typical and has brought our efforts virtually to a
standstill.” Ward asked Sampson in the e-mail whether Attorney General
Gonzales would consider calling the districts, including Bogden’s, to encourage
them to cooperate with the Task Force. We did not find any response from
Sampson to this e-mail. Sampson told us that he “may have” discussed Ward’s
complaints with Gonzales, but Sampson said he did not recall whether or not
he did so.

      On August 29, Ward also forwarded Bogden’s response to Matthew
Lewis, a Senior Counsel in the Criminal Division front office. Ward repeated
some of the comments he had made to Sampson about Bogden’s response, and
also said that it would be bad for the FBI agents to go with him to the
scheduled meeting “and listen to the lame excuses of a defiant U.S. Attorney.”
Lewis responded that he would forward the e-mail to three other officials in the
Criminal Division front office, including Chief of Staff Matthew Friedrich. A few
hours later, Ward forwarded Bogden’s response to Friedrich, along with other
complaints about the reasons why the Task Force was unable to accomplish its
mission.

       On August 30, Friedrich forwarded Ward’s e-mail to Elston, saying they
needed to discuss the matter. Elston responded, “Don’t throw in the towel yet.”
Elston told us that his phrase “don’t throw in the towel” meant that he hoped
that he could get the Office of the Deputy Attorney General to take some kind
of action to move the Task Force cases forward.

      The day before his September 6 trip to Las Vegas, Ward sent an e-mail to
Bogden to request a private meeting with him. In his response, Bogden
repeated his previous comment that his office lacked the resources to provide
Ward with much assistance. Ward responded by stating that the Attorney
General had made obscenity prosecutions a priority, and that he wanted
Bogden to assign an AUSA to the matter. Bogden replied that “the AG has set
a number of priorities” and that because of staff shortages, “we find ourselves
unable to cut one AG priority [in] order to deal with other priorities.”

       Ward and several FBI agents met with Bogden and several of his senior
staff on September 6 in Las Vegas. Bogden said that he also asked the local
FBI Special Agent in Charge to attend the meeting with Ward and his team.
Bogden said that before the meeting he met alone with Ward and again told
him that he lacked the resources to take on the adult obscenity matter.




                                      207
       In his interview with us, Bogden said that in addition to the resource
issue, he did not view the case Ward presented to him as particularly
significant. He said it was a “small potatoes” prosecution that would not have
made “a huge impact.” Bogden also said that the participants in the allegedly
obscene acts depicted were the target of the investigation and his wife. Bogden
also said that the target lacked significant assets and that there were no money
laundering or criminal tax aspects to the case.

       Bogden also told us that he was not persuaded by the Task Force that
venue for the prosecution was in Nevada because it was not clear where the
website was located for venue purposes. In addition, Bogden said that the case
“needed a whole lot of work,” and the sole basis for the prosecution was the
fact that an agent had viewed the material on the website and thought it
obscene. Bogden said he did not consider the videos to be particularly
egregious. Bogden said more work was needed regarding the subject, his
finances, and the venue issue.

      Ward disagreed with Bogden’s assessment of the case, although he
acknowledged that the target had few assets. Ward and the trial attorney said
that the target and his wife were participants in the videos, but asserted that
other females appeared in the videos as well. Ward and the trial attorney also
told us that the material depicted women being abused and engaging in
egregious behavior. Ward said he thought the case was a significant matter.

      The meeting between Bogden, Ward, and their staffs ended without a
resolution as to whether Bogden’s office would accept the case.

      On September 13, 1 week after Ward’s meeting with Bogden and 2 weeks
after Ward complained to Sampson and Criminal Division personnel about
Bogden’s refusal to assist in the obscenity case, Bogden’s name appeared on
Sampson’s removal list for the first time. 130

     On September 20, 2006, Ward sent an e-mail to Sampson with another
complaint about Bogden and Charlton:

       We have two U.S. Attorneys who are unwilling to take good cases
       we have presented to them. They are Paul Charlton in Phoenix
       (this is urgent) and Dan Bogden in Las Vegas. In light of the AG’s
       comments at the NAC to “kick butt and take names”, what do you
       suggest I do? 131 Do you think at this point that these names

       130   Charlton’s name also appeared on the September 13 removal list for the first time.
       131 A few weeks earlier, Gonzales had spoken at a conference on obscenity prosecutions
at the Department’s National Advocacy Center. Ward acknowledged to us that Gonzales had
not actually said he would “kick butt and take names,” and that his recitation of Gonzales’s
comments was not verbatim.




                                               208
       should go through channels to reach the AG, or is it enough for me
       to give the names to you?

       Sampson responded that Ward should go through regular channels.
Ward therefore sent an e-mail that same day to several Criminal Division front
office staff stating in part, “the Attorney General expressed his desire to ‘take
the names’ of U.S. Attorneys who will not assign an AUSA on obscenity cases.
. . . There are two U.S. Attorneys who fit squarely in that category right now,
Paul Charlton . . . and Dan Bogden . . . I would like to position them for calls
from the Attorney General.”

       Sampson told us that he never examined the facts underlying Ward’s
complaints about Bogden because he did not have “any reason to doubt Mr.
Ward.” Sampson said he did not recall whether the obscenity prosecution
issue caused him to place Bogden on the list. Sampson also said he did not
recall raising this issue with Gonzales.

      McNulty told us that in the fall of 2006 he may have had some
knowledge about the issues regarding Bogden and the obscenity prosecution,
but that he had no clear recollection of the matter.

      According to Bogden, Ward called him in October 2006 to again ask that
he assign an AUSA to the Task Force matter. Bogden said he offered to give
Ward office space, grand jury time, secretarial assistance, and prosecution
advice, but not an AUSA. Bogden said that Ward rejected this offer, insisting
that a local prosecutor was necessary to try the case.

      Bogden said that he also recommended to Ward that if the case were to
be prosecuted, it should be brought in Reno where jurors might be more
receptive than Las Vegas jurors to an obscenity prosecution. According to
Bogden, Ward rejected this suggestion as well. 132 Bogden also said that he told
Ward to check back with him about assigning a prosecutor to the obscenity
case in early 2007 when Bogden was slated to fill several open AUSA slots.

       B.     Bogden’s Alleged Lack of Energy and Leadership

      In their testimony and interviews with us, Department officials
characterized Bogden’s performance as U.S. Attorney as mediocre. Sampson
said that although he did not remember how Bogden got on the removal list,
“there was a general view that he was mediocre, and he stayed on the list.”
McNulty said Bogden lacked “energy and leadership.” Moschella said Bogden
was replaced so that his office would have renewed “energy” and “vigor.”

       132 Ward said he did not recall Bogden suggesting Reno as a venue for the prosecution.
However, Charlton recalled that Bogden told him that Ward had rejected Reno as a venue for
the case and insisted on Las Vegas.




                                            209
Elston said he did not object to Bogden’s removal because he was not
“exercising inspired leadership.”

       Goodling’s chart listing the reasons the Department proffered for each
U.S. Attorney’s removal included the comment under Bogden that Nevada was
a “very important” district, in part because it could be a target for “terrorism.”
However, no one we interviewed raised that contention or offered any evidence
that this was considered a reason for removing Bogden. Elston, for instance,
told us that “I don’t recall anyone talking about Las Vegas being a prime target
for terrorism.”

       As discussed previously, the only EARS evaluation during Bogden’s
tenure was completed in 2003. The report stated that “Bogden was highly
regarded by the federal judiciary, the law enforcement and civil client agencies,
and the staff of the USAO. He was a capable leader of the USAO. He was
actively involved in the day-to-day management of the USAO.” We found no
criticisms of Bogden’s management of the U.S. Attorney’s Office in the EARS
report.

     Former Deputy Attorney General James Comey told the Senate Judiciary
Committee that he thought Bogden “was an excellent U.S. attorney . . . . I
thought very highly of him . . . . When I left in August of 2005, I couldn’t have
thought of a reason why he should be asked to resign.”

     Margolis told congressional investigators that he had “no reason to
support or question” Bogden’s performance. Margolis told us that he thought
Bogden was a “ham and egger,” which Margolis said meant “average.”
However, Margolis also said that he did not know anything about Bogden that
would “cause me to put him on the list.”

       EOUSA Director Battle told congressional investigators that he did not
know why Bogden was removed, and that he was not aware of any issues
regarding Bogden when Battle served as EOUSA Director. Battle told us that
Bogden was the person who “surprised me the most” when he learned he was
to be removed. Former EOUSA Director Mary Beth Buchanan told
congressional investigators that she did not have any reason to believe that
there was “anything negative” regarding Bogden’s performance, and that she
did not recall hearing anything good or bad about his office.

      We also found no evidence that any Department official involved in the
removals spoke with EOUSA or Criminal Division officials about how Bogden
was performing. In addition, McNulty stated in an e-mail to Sampson on
December 5, 2006 – 2 days before the removal plan was to be executed – that
he had not looked at Bogden’s district’s performance. Gonzales told us that he
“wish[ed]” someone had talked to Bogden to get his side of the story before he
was removed.



                                       210
      Further, there appeared to be no systematic effort to assess whether
there were other allegedly “mediocre” U.S. Attorneys who should be removed at
the same time as Bogden. Sampson said he was uncertain whether there were
other U.S. Attorneys who were more “mediocre” than Bogden who were not
removed. 133

      Sampson also admitted that there may have been U.S. Attorneys who
were more mediocre than Bogden who were not fired because they had political
backing. When we asked Sampson whether “there could be people who are
even worse than Bogden, but they just hadn’t been identified,” he answered,
“Correct. There could be people that were worse than Bogden, but we thought
we don’t want to pick that political fight [with home state senators].” Sampson
agreed that Bogden was removed not just because he was “mediocre,” but also
because he lacked political support. 134

       C.     Patriot Act Criticism

      As described above, Goodling also raised in her congressional testimony
that she recommended to Sampson that Bogden be removed in part because
she recalled that Bogden had been criticized for an incident in his district
involving the Patriot Act. Goodling also testified that during the November 27,
2006, meeting in the Attorney General’s conference room where the U.S.
Attorney removal decisions were finalized and approved, she told the group


       133When Sampson was asked, “Wouldn’t you be the prime person in a position to know
how Mr. Bogden ranked relative to all the other United States Attorneys?” he replied,
       Sitting here today, I don’t – look, I don’t think – sitting here today, I’d have to
       look at that list of U.S. Attorneys and think back and say were any of these more
       mediocre than Mr. Bogden. I don’t think there were, or they would have been on
       the list as well. Perhaps. I’m not sure. I don’t know.
        134 Some media reports also suggested that Bogden was removed because of concerns

over his handling of voter fraud allegations in Nevada. As discussed in detail in the chapter on
U.S. Attorney Iglesias, in the fall of 2006 Karl Rove told Gonzales that he was concerned about
voter fraud in three cities, none of which were in Nevada. Gonzales asked Sampson to inquire
about Rove’s concerns. Sampson in turn asked Matthew Friedrich, then Counselor to the
Attorney General, to follow up on Rove’s information. Friedrich consulted with Criminal
Division Chief of Staff Benton Campbell, who in turn consulted with Craig Donsanto, the
Criminal Division’s expert on voter fraud issues, to obtain information responsive to Friedrich’s
request. Donsanto mentioned to Campbell a list of jurisdictions with alleged voter fraud
problems; one of them was Nevada. This information is reflected in Friedrich’s handwritten
notes of his subsequent conversation with Campbell. Friedrich said he passed on the
information he received from Campbell to Sampson, but Sampson said he did not recall ever
hearing back from Friedrich. No one in the Department ever cited voter fraud as a reason for
Bogden’s removal. Bogden told us that after media stories about these documents were
published, he consulted with his election law coordinator in the USAO and confirmed that his
office has never had any serious voter fraud issues during his tenure. We found no evidence to
support any speculation that Bogden’s removal was related to any voter fraud issue.




                                              211
that she was aware of “one case involving use of the Patriot Act that had gotten
a little messy a few years ago.”

       Goodling was apparently referring to a criminal case in 2003 in which
the FBI in Nevada had used a provision of the Patriot Act to obtain financial
information about a strip-club owner and elected officials who may have
received bribes from the club owner. The matter generated media coverage and
congressional criticism for using a Patriot Act provision in a criminal matter
involving the strip club. At the time, Goodling worked in the Department’s
Office of Public Affairs, and her e-mails show that she was involved in
responding to the media coverage.

       Bogden explained to us that FBI investigators had used a provision of the
Patriot Act to obtain financial information in order to gather evidence necessary
for grand jury subpoenas for certain accounts and financial institutions.
Bogden said that the investigators had received approval to use the
investigative technique “from the highest level of the FBI.”

       Bogden also said that he had been in constant contact with Department
officials in Washington, and no one ever expressed any concern about this
incident with him. In addition, he said that former Attorney General John
Ashcroft and former Deputy Attorney General Comey had each visited Nevada
twice, and Attorney General Gonzales had visited Nevada once while Bogden
was U.S. Attorney, and none of them had ever raised the issue with him.

       We also conducted an extensive search of Department e-mails regarding
this issue, including e-mails to and from senior Department officials in the
Office of the Attorney General, Office of the Deputy Attorney General, and
Criminal Division. We found no criticism by them of the FBI and the USAO’s
use of the Patriot Act provision in this case, other than complaints that the FBI
had disclosed use of the Patriot Act to the press.

       In addition, we found that Goodling did not include any mention of the
Patriot Act matter in her handwritten notes memorializing the Department’s
justifications for the U.S. Attorney removals. Sampson told us that he did not
recall Goodling mentioning a Patriot Act issue and did not recall any criticism
of Bogden related to the Patriot Act. No Department official other than
Goodling cited use of the Patriot Act as a reason for Bogden’s removal in public
or closed congressional testimony.

      D.    McNulty’s Qualms About Removing Bogden

      Goodling testified before the House Judiciary Committee that at the
November 27, 2006, meeting to finalize the plan to remove several U.S.
Attorneys, McNulty said, “the one person I have a question about is Mr.
Bogden. Did he do something wrong, or is it just a general sense that we could



                                      212
do better?” According to Goodling, Sampson responded that “it was a general
kind of sense that we could do better.”

      EOUSA Director Battle stated that immediately after the November 27
meeting, McNulty asked him if he knew why Bogden was going to be removed.
Battle said he told McNulty that he was not aware of any problems with
Bogden.

      McNulty continued to be concerned about Bogden’s removal. On
December 5, 2006, 2 days before the plan to remove the U.S. Attorneys was to
be executed, McNulty sent an e-mail to Sampson stating:

       I’m still a little skittish about Bogden. He has been with DOJ since
       1990 and, at age 50, has never had a job outside government . . . .
       I’ll admit [I] have not looked at his district’s performance. Sorry to
       be raising this again/now; it was just on my mind last night and
       this morning.

      After McNulty sent this e-mail, he met with Sampson to discuss his
concerns about removing Bogden. Elston or Mercer may also have been
present at the meeting. Sampson testified that “his best guess” was that the
meeting lasted “about 90 seconds.” When asked what occurred during those
90 seconds Sampson stated:

       My recollection is that Mr. McNulty and those other people came
       into my office, and I said, “I got your e-mail.” And he said, “I’m
       just concerned about Bogden” – you know, essentially what he
       says in the e-mail, about that he’s 50, hasn’t had a job in [the]
       private sector, and what about his family. And I think Mike Elston
       or Bill Mercer said, “He’s a bachelor. He’s single.” And Mr.
       McNulty said, “Okay. Never mind,” and then got up and left my
       office.

      Elston denied that he ever told McNulty that Bogden was single, and
stated that he never knew Bogden’s marital status. Mercer, who was the
Principal Associate Deputy Attorney General at the time, also denied telling
McNulty at this meeting that Bogden was single. 135

       According to McNulty, he told Sampson that he was “worried about
[Bogden’s] wife and kids. I was worried it might have an impact on his family .
. . .” McNulty said that Sampson told him that Bogden “didn’t have a family,

       135 Mercer said he recalled a conversation he had with McNulty and Sampson that
occurred later in 2006 or in early 2007 when they were discussing Bogden’s request for an
extension of his departure date. Mercer told us that during that conversation he told Sampson
and McNulty that he did not think that Bogden had children.




                                            213
he was single.” McNulty said he then replied “I guess I don’t have any
objection to going forward.”

       E.   Bogden’s Removal and Gonzales’s Concerns

       According to Bogden, Battle called him on December 7, 2006, told him
that he served at the pleasure of the President, and told him to resign by
January 31, 2007. Bogden said he asked why he was being asked to resign
and Battle responded that “they just want to move the office in another
direction.” Bogden said he received no other information from Battle.

      Bogden subsequently called Mercer to obtain more information about
why he was asked to resign. Bogden said that Mercer told him that there was
a window of opportunity for the Administration to build up the résumés of
candidates for judgeships and political offices. Mercer later testified to
congressional staff that he did not recall making such a statement to Bogden.

       Bogden then called McNulty. Bogden said he asked McNulty if he was
fired because of his performance or the performance of his office. According to
Bogden, McNulty told him that performance “didn’t enter into the equation.”

       Bogden said that he spoke with Gonzales three times after he was asked
to resign. During each conversation, Gonzales asked Bogden whether he could
help him obtain a new position, and each time Bogden asked Gonzales to
reinstate him as the U.S. Attorney. Gonzales refused. Gonzales testified to
Congress that he did not speak with any of the other fired U.S. Attorneys after
they were asked to resign. Gonzales stated that the reason he called Bogden to
offer his assistance in finding new employment was that he believed Bogden
was “the closest call.” Gonzales told us that he did not know why Bogden was
asked to step down.


III.   Analysis

       As with the removals of several other U.S. Attorneys, we were unable to
identify the person responsible for placing Bogden on the removal list.
Goodling stated that in January 2006 she recommended to Sampson that
Bogden be removed. However, Goodling’s testimony is inconsistent with her
January 2006 contemporaneous handwritten note stating “Quiet, not sure
about” Bogden. Goodling also stated that she did not believe her
recommendation was the reason Bogden was removed. This is consistent with
the fact that after Goodling’s recommendation, Bogden did not appear on the
January 2006 removal list or the next list Sampson sent in April 2006. Rather,
Bogden was first placed on the list in September 2006, shortly after Sampson
received complaints from the head of the Obscenity Prosecution Task Force
about both Bogden and Charlton, who was also placed on the list for the first
time.


                                      214
      No other Department leader told us that they recommended that Bogden
be placed on the removal list, and we found no documents or evidence showing
who made the ultimate decision. Sampson acknowledged that he must have
physically placed Bogden’s name on the list, but denied that he had made the
decision to do so and said that he did not remember who made the
recommendation.

       We found no support for one of the reasons the Department proffered for
why Bogden was place on the list – the Patriot Act incident mentioned by
Goodling. The use by Bogden’s office and the Nevada FBI of a provision of the
Patriot Act to obtain evidence in a criminal case occurred in 2003, several years
before his removal. Goodling did not include any mention of the Patriot Act
matter in her handwritten notes memorializing the Department’s justifications
for the U.S. Attorney removals. In addition, Sampson told us that he did not
recall Goodling mentioning this issue and did not recall any criticism of Bogden
related to his use of the Patriot Act. No Department official other than
Goodling cited the Patriot Act matter as a reason for Bogden’s removal in public
or closed congressional testimony, and we found no evidence that it
contributed to Bogden’s removal.

      It appears that some Department officials believed that voter fraud was
an issue in Nevada. However, no one complained about Bogden’s handling of
any allegations of voter fraud, and we found no evidence to support any
speculation that Bogden’s removal was related to any voter fraud issues.

      Rather, we believe that the primary reason for Bogden’s inclusion on the
removal list was the complaints by Ward, the head of the Department’s
Obscenity Prosecution Task Force, about Bogden’s decision not to assign a
Nevada prosecutor to a Task Force case. The evidence shows that in August
2006 Ward, who knew Sampson’s brother and who frequently spoke directly
with Sampson about Task Force matters, complained about Bogden to
Sampson. Sampson stated that he was aware of Ward’s complaints, although
he said he did not recall whether those complaints played a role in the decision
to remove Bogden. We found Sampson’s lack of recall particularly suspect,
given his role in the removal process.

      It does not appear that any Department official other than Sampson
knew that Bogden was placed on the September 2006 removal list because he
refused to assign an attorney to assist the Department’s Obscenity Prosecution
Task Force. Rather, it appears that, at most, some of those involved thought
Bogden was being removed because he was a “mediocre” U.S. Attorney and the
Department “could do better.” Attorney General Gonzales and Deputy Attorney
General McNulty were apparently never informed as to the real reason for
placing Bogden’s name on the list of U.S. Attorneys to be removed.




                                      215
      We are troubled that neither Sampson nor any other Department official
involved in the removal process ever asked Bogden for his explanation about
Ward’s complaint. No one asked about Bogden’s rationale for declining to
assign a prosecutor to the obscenity case, his competing resource needs for
other priority issues, his view of the strength of the case, or his alternative offer
to provide assistance to the Task Force with office space, grand jury time,
secretarial support, and prosecution advice.

       As another reason for Bogden’s removal, Department officials testified
and told us that Bogden was considered to be a mediocre U.S. Attorney, and he
lacked energy and leadership. However, no one involved in the removals said
that Bogden was placed on the list because he was “mediocre.” Based on our
investigation, we found that this argument was raised late in the process, after
Bogden was already on the list. According to Goodling’s congressional
testimony, when McNulty asked at the November 27 meeting why Bogden was
on the list, Sampson said there was a “sense we can do better.” Similarly,
Elston told us that although he did not recommend that Bogden be removed,
he did not object to Bogden being on the list because there was a “general
sense” that his office lacked leadership and energy. Sampson also told
congressional investigators that he could not recall why Bogden was placed on
the list “except that there was a general view that he was mediocre, and he
stayed on the list.”

      However, we found that no one involved in the removal process ever
objectively assessed any concerns about Bogden’s performance. No one
examined any statistical measures of his office’s work compared to other
USAOs, or inquired about the assessment of local law enforcement officials
about him. No one involved in the removals reviewed the EARS report about
Bogden’s office.

      We also found no evidence that Department officials ever raised concerns
about Bogden’s performance with him before he was removed. 136 No one
involved in the removal process even contacted the Department officials who
would likely be most knowledgeable about Bogden’s performance, such as
EOUSA Director Battle or Associate Deputy Attorney General Margolis, before
placing Bogden on the list.

      Battle said that Bogden was the person who “surprised me the most”
when he learned he was to be removed. Margolis said that Bogden was an
average U.S. Attorney, and that he did not know anything about Bogden that
would have caused him to recommend Bogden’s removal.

       136 Also, according to Bogden, when he asked McNulty if he was fired because of his
performance or the performance of his office, McNulty replied that performance “didn’t enter
into the equation.”




                                             216
      We also found it noteworthy that Sampson admitted that other U.S.
Attorneys who were also considered “mediocre” were not removed. Sampson
acknowledged to us that there may have been U.S. Attorneys whose
performance was worse than Bogden’s but who were not removed because they
had the right political connections. We are troubled that a Department of
Justice official would make such a statement indicating that the standard by
which he assessed whether U.S. Attorneys should be removed was not
mediocrity, but rather mediocrity without political support.

       In addition, we are concerned about the reasoning for why Bogden
remained on the list when McNulty had qualms about it, just before the
removal plan was to be implemented. McNulty was troubled by Bogden’s
inclusion on the list and asked to meet with Sampson 2 days before the
removal plan was implemented. According to McNulty, he told Sampson that
he was worried about the impact of Bogden’s removal on his wife and kids.
When Sampson told McNulty that Bogden was single, McNulty dropped his
objection. The fact that Bogden was not married or did not have children was
irrelevant to his performance as U.S. Attorney or to an objective, reasonable
assessment of his performance. We question whether Bogden’s marital or
family status was an appropriate basis on which to decide whether he should
or should not be removed as U.S. Attorney.

      Finally, we find it remarkable that Attorney General Gonzales and
Deputy Attorney General McNulty stated that they did not know why Bogden
was being removed. In our view, the fact that the Attorney General and Deputy
Attorney General were apparently in the dark as to the reasons why Bogden
was placed on the removal list demonstrates the flawed nature of their
oversight of the U.S. Attorney removal process.




                                     217
[PAGE INTENTIONALLY LEFT BLANK]




             218
              Paul Charlton Timeline                                                                                                                                                                                                           Aug 15, 2006

                                                                                                                                                                                                                                               McNulty recommends to Gonzales against
                                                                                                                                                                                                                                               reconsideration of death penalty case; decision stands
            Nov 2001
                                                                                                                                                           Mar 15, 2006                                                                        Charlton asks to speak to Gonzales about his decision
            Charlton Events                                                                                                                                Charlton proposes a pilot tape                                                      Gonzales denies Charlton’s request
            and Actions                                                                                                                                    recording project


                                                                                                                                                                                                               May 31, 2006

                                                                                                                                                                                                               Gonzales directs Charlton to notify the court that
   Nov 6, 2001                                                                                                                                                                                                                                                                       Sep 13, 2006                                             Dec 18, 2006
                                      Apr 2, 2004 - Jun 2, 2004                                                                                 Feb 2006                                                       the U.S. will seek the death penalty in a case
                                                                                                                                                                                                                                                                                                                                                                           Jan 30, 2007
   Charlton is confirmed by the                                                                                                                                                                                                                                                      Charlton’s name appears on Sampson’s                     Charlton announces
                                      Charlton talks to Senator Kyl                                                                             Charlton announces a tape                                      Charlton receives an extension from the court to                      removal list for the first time                          his resignation              Charlton leaves office
   Senate as the U.S. Attorney,       about obtaining additional                                                                                recording policy for his Arizona                               file the death penalty notice
   Arizona                            resources                                                                                                 district



Nov 2001         Dec 2001         Apr 2004          May 2004          Jun 2004             May 2005           Jun 2005   Jul 2005        Aug 2005                Feb 2006            Mar 2006   Apr 2006   May 2006         Jun 2006            Jul 2006            Aug 2006         Sep 2006            Oct 2006          Nov 2006            Dec 2006             Jan 2007




                                                                          May 2005                                                                                                                                       Jun 27, 2006
                                                                                                                         Aug 2005                                                                                                                                                             Oct 2006                                       Dec 7, 2006
                                                                          Comey establishes a working group                                                                                                              Charlton requests reconsideration
                                                                                                                         Comey leaves the Department                                                                     of the AG’s decision to seek the                                     Senior DOJ leadership becomes                  Charlton is told to resign
                                                                          to consider tape recording policy                                                                                                                                                                                   aware of the Renzi investigation
           Nov 2001                                                                                                                                                                                                      death penalty in a case

           DOJ Events
                                                                                                                                                           Feb 28, 2006                                                                                                             Aug 28, 2006
           and Actions
                                                                                                                                                           McNulty instructs Charlton to                                                                                            The Director of the Obscenity Prosecution Task Force
                                                                                                                                                           rescind tape recording policy                                                                                            complains to Sampson that Charlton refuses to assign a
                                                                                                                                                           and to develop a pilot proposal                                                                                          prosecutor to obscenity case



                                                                                                                                                                                                                                     Aug 2, 2006

                                                                                                                                                                                                                                     Charlton discusses the death penalty case with McNulty
                             CHAPTER EIGHT
                             PAUL CHARLTON

I.    Introduction

      This chapter examines the removal of Paul Charlton, the former United
States Attorney for the District of Arizona.

      A.    Charlton’s Background

       Charlton graduated from the University of Arizona Law School in 1988,
and then clerked for the Arizona Court of Appeals. In 1989, he became an
Assistant Attorney General in the Organized Crime and Racketeering Division
of the Arizona Attorney General’s Office. In 1991, he became an Assistant U.S.
Attorney (AUSA) in the United States Attorney’s Office (USAO) for the District of
Arizona.

       Charlton said he considered seeking the Arizona U.S. Attorney position
sometime in December 2000, and friends recommended him to Arizona
Senators Jon Kyl and John McCain. In the spring of 2001, following Charlton’s
interviews with the two Senators, the Department appointed him as Interim
U.S. Attorney. After serving 120 days, Charlton was reappointed on an interim
basis by the federal district court. He was nominated by the President for the
permanent position on July 30, 2001, and was confirmed by the Senate on
November 6, 2001.

     In April 2005, Charlton was appointed as the Chair the Border and
Immigration Subcommittee of the Attorney General’s Advisory Committee
(AGAC), replacing David Iglesias.

      B.    The EARS Evaluation of Charlton’s Office

        Charlton’s office underwent an EARS evaluation at the end of 2003. The
evaluation stated that he was “well respected by USAO staff, investigative and
civil client agencies, [the] local law enforcement community, [the] Native
American Nations, and [the] judiciary regarding his integrity, professionalism,
and competence.” The only criticism we found in the EARS evaluation was a
note that his adherence to a chain of command structure in the office had “led
to a perception by some that he is inaccessible” and “not open to suggestions
or criticism.”

      C.    Charlton’s Status on the Removal Lists

      As we discussed in Chapter Three, in March 2005 Kyle Sampson
provided to White House Counsel Harriet Miers a list containing the names of


                                      219
all U.S. Attorneys, divided into three categories: (1) those he recommended be
retained, whom he described as “strong U.S. Attorneys who performed well and
exhibited loyalty to the President and Attorney General,” (2) those he
recommended be removed, described as “weak U.S. Attorneys who have been
ineffectual managers . . . and chafed against administration initiatives,” and (3)
those for which he provided no recommendation, who had not “distinguished
themselves either positively or negatively.” Sampson identified Charlton on the
March 2005 list as a U.S. Attorney who had not distinguished himself either
positively or negatively.

      Charlton’s name did not appear on the second removal list that Sampson
sent to the White House on January 9, 2006. However, as we discuss below,
Monica Goodling suggested to Sampson around that time that Charlton be
considered for removal. While Sampson did not include Charlton on his
second removal list of U.S. Attorneys, he placed Charlton’s name on a draft list
of other U.S. Attorneys who might eventually be considered for removal.
Charlton’s name also did not appear on the third removal list Sampson sent to
the White House on April 14, 2006, of U.S. Attorneys recommended for
removal.

       On September 13, 2006, Sampson sent a fourth list to the White House
containing the names of U.S. Attorneys “We Now Should Consider Pushing
Out.” Charlton’s name appeared on that list and stayed on successive lists
until he was told to resign on December 7, 2006.


II.    Chronology of Events Related to Charlton’s Removal

        As noted in Chapter Three, in preparation for McNulty’s closed briefing of
the Senate Judiciary Committee on February 14, 2006, senior Department
officials discussed the reasons that supported the removals of the U.S.
Attorneys. Based on their discussion, Goodling created a chart for McNulty to
help him prepare for the briefing. As the basis for Charlton’s removal, the
chart cited “repeated instances of insubordination” and “actions taken that
were clearly unauthorized.” The chart stated: (1) Charlton advocated for
additional resources for his office directly with Senator Kyl; (2) Charlton
instituted a policy for tape recording interrogations; (3) Charlton did not timely
file a notice that the Department would seek the death penalty in a particular
case; and (4) Charlton refused to prosecute obscenity cases. 137


       137 The chart Goodling prepared for McNulty’s closed briefing also indicates another

reason for Charlton’s termination: that “contrary to guidance from Main Justice that it was
poor judgment,” Charlton allowed an employee to take leave without pay so that she could
become press secretary for a candidate in the 2002 Arizona gubernatorial campaign. However,
we found no evidence that this was ever raised as justification for Charlton’s removal. When
we asked Charlton about it, he said that EOUSA approved this arrangement but with certain
(Cont’d.)


                                            220
      According to notes taken during the closed briefing of the Senators,
McNulty stated that Charlton was “insubordinate as to the Department’s way of
doing business” concerning the death penalty and taping interrogations.
McNulty also told the Senators that he was personally aware of friction between
Charlton and other officials at the Department.

       On March 29, 2007, Sampson testified to Congress that Charlton was
removed because of policy disputes with the Department in a death penalty
case and an initiative in his district to tape record interrogations. Sampson
also suggested that Charlton had improperly advocated directly with Senator
Kyl for additional resources for his office.

      In our investigation, we examined the facts surrounding each of the
allegations concerning Charlton’s removal. In the remainder of this chapter,
we describe those facts and then provide our findings regarding the reasons for
Charlton’s removal. In addition, we examine allegations appearing in the
media in the aftermath of the removals that Charlton was removed because of
his involvement in the investigation of Republican Congressman Rick Renzi.

       A.     Charlton’s Discussions With Senator Kyl

       As noted above, one of the justifications raised as a basis for Charlton’s
removal was that he had, in McNulty’s words, “worked outside proper
channels” to obtain an increase in the number of staff positions for the Arizona
U.S. Attorney’s Office. McNulty told congressional staffers that although the
issue had predated his tenure as Deputy Attorney General, he learned from the
group in the preparation session for his testimony that Charlton had dealt
directly with Senator Kyl concerning additional prosecutors in Arizona, and as
a result the Department had to move AUSA positions out of larger districts to
provide additional positions to Arizona.

      This issue surfaced in the spring of 2004. Charlton said that in the
spring of 2004, Arizona Congressman J.D. Hayworth sent a letter to Attorney

constraints, such as that the employee could not indicate that she worked in the U.S.
Attorney’s Office. Charlton stated that he had received a letter from EOUSA that it was
permissible for the employee to work on the campaign, but not advisable even with the
constraints EOUSA suggested. According to Charlton, the employee therefore resigned from
the U.S. Attorney’s Office to work on the campaign. In his congressional interview, Margolis
said he was concerned at the time about the employee going on leave without pay status to
work on the campaign because he thought it made the Department look too political. However,
Margolis said the incident happened early on in Charlton’s tenure, and he said he recalled it
only on the eve of McNulty’s preparation session. Margolis pointed out that it could not have
been a ground for Charlton’s termination because no one knew about it until the group met to
discuss the reasons. We concluded that this was another example of the group including after-
the-fact rationalizations that did not in fact play any part in the placement of a U.S. Attorney
on the removal list.




                                             221
General Ashcroft asking why the Arizona U.S. Attorney’s Office was not doing
more to support immigration prosecutions on the border. Charlton said that
after the Department received the letter, Sampson called him on behalf of the
Attorney General to ask how many more positions he needed to make a
difference. Charlton said he told Sampson that 10 additional prosecutors
could make a significant impact on the district’s immigration prosecution
numbers. Charlton said Sampson indicated he would work on getting the
additional positions for Arizona.

       Charlton told us that shortly after his conversation with Sampson,
Senator Kyl made his annual visit to the district. 138 Charlton said Kyl asked
whether there was anything that the district needed, and Charlton mentioned
to Kyl his conversation with Sampson about getting 10 additional positions for
the office. Charlton said he believed that Senator Kyl subsequently spoke to
Attorney General Ashcroft about this issue. Charlton said that he did not ask
Senator Kyl to intervene on his behalf for more resources. He said he told Kyl
about his conversation with Sampson as part of the discussion of what was
happening in terms of obtaining additional resources to prosecute illegal
immigration. Documents show that the U.S. Attorney’s Office subsequently
received funding for seven additional prosecutors and six support staff.

      In her testimony before the House Judiciary Committee, Goodling stated
that she considered Charlton to be a problem because during her tenure in
EOUSA she received complaints that Charlton had had unauthorized
discussions with a member of Congress (Senator Kyl).

      In his March 29 appearance before the Senate Judiciary Committee,
Sampson testified that he recalled individuals in the Office of the Attorney
General expressing concern that Charlton had directly contacted Senator Kyl in
order to obtain additional resources for his office. 139 During Sampson’s
hearing, however, Senator Kyl publicly stated that he wanted to correct any
misimpression that Charlton had initiated the conversation with him. Kyl
stated that he recalled one occasion where Charlton told him the office needed
more prosecutors to handle immigration cases, and that it was likely that
Charlton was responding to a question Kyl had asked. Kyl said that he
believed his subsequent discussion with Attorney General Ashcroft assisted in
obtaining additional resources for the Arizona U.S. Attorney’s Office.




        138 According to both Charlton and a statement by Senator Kyl, the Department was

aware of their annual meetings at which they discussed what was generally happening in the
district.
      139 During our interview, Sampson said he had nothing further to add on this topic

beyond his prior congressional testimony.




                                            222
      Deputy Attorney General James Comey told us that he recalled hearing
at the time that members of Attorney General Ashcroft’s staff were upset that
Charlton had gone around the Department to obtain additional resources.
Comey said he could not recall who told him about the issue, but he
remembered members of the Attorney General’s staff complaining that
Charlton had gone to Senator Kyl, who then spoke to Ashcroft, reportedly
causing Ashcroft to feel blindsided and compelled to provide the district with
the additional resources Charlton had previously discussed with Sampson.
Comey told us it was the only criticism he had ever heard about Charlton while
he worked at the Department. 140

       B.     Tape Recording Interrogations

      Sampson testified to Congress that one of the main reasons he
recommended Charlton be removed was that Charlton had attempted to
require federal law enforcement agents in Arizona to tape record interrogations.

       E-mail traffic shows that in the spring of 2004 Charlton began exploring
with the Department’s senior leadership whether federal law enforcement
agents should tape record interrogations. Charlton told us he believed his
office was losing cases because of a failure to tape record interrogations. He
said that in the Arizona state criminal justice system where Charlton had
begun his career as a prosecutor, interrogations were generally tape recorded.
He said that when he became U.S. Attorney, he wanted to change what he
believed was an antiquated policy and implement a policy that would protect
both crime victims and defendants.

       Charlton said he first raised the issue with Deputy Attorney General
Comey during a closed session at the U.S. Attorney’s conference in San Diego
in 2004, and a few days later Comey’s Chief of Staff, Chuck Rosenberg, raised
it with the FBI. Charlton said Rosenberg told him that the FBI was opposed to
changing the policy.

              1.      Department Considers Tape Recording Policy

      During the spring of 2005, the Department’s Office of Legal Policy worked
with Charlton to consider the tape recording policy and to create a strategy to
address expected resistance from Department law enforcement agencies about
recording interrogations. Charlton told us that he also raised the issue with


       140  We note that other people also heard that Charlton had been criticized for allegedly
requesting additional resources from Senator Kyl. For example, as we discuss in Chapter Six,
Iglesias told us that he was reluctant to respond when asked in 2006 by Senator Domenici if he
needed more resources since he was aware that Charlton had been criticized because people in
the Department thought he had lobbied his home-state Senator for additional resources.




                                             223
Attorney General’s Advisory Committee (AGAC) Chair Johnny Sutton, who
opposed changing the policy.

      Charlton raised the issue with Comey again at the U.S. Attorney’s
conference in Arizona in 2005. In May 2005 Comey established a working
group, which included Charlton, to formally consider the matter. According to
Charlton, the working group discussed the issues several times, but after
Comey left the Department in August 2005 and McNulty became Deputy
Attorney General in early November 2005, the issue did not move forward.

      E-mail and other documents also show that throughout late 2005
Charlton was trying to persuade the FBI to agree to expand its taping policy. 141
In early December 2005, the working group engaged in an e-mail exchange
with Michael Elston, McNulty’s Chief of Staff, discussing the merits of the
recording policy. However, Charlton said that by December 2005 McNulty had
not yet indicated a willingness for the working group to continue studying the
issue. According to former Principal Deputy Assistant Attorney General
William Mercer, by the end of 2005 the working group had not reached a
consensus on whether to recommend a taping policy, although the FBI
representatives in the group were supposed to be preparing a memorandum
discussing various options.

               2.     Charlton Implements a Taping Policy in His District

       Charlton said that when nothing further happened by early 2006
concerning his desire to begin tape recording interrogations in Arizona, it was
clear to him that if there was going to be a change in the policy, he would have
to implement it in his district. Charlton said he believed that he could isolate
his district in a way that would not affect other cases nationwide. Charlton
also said that his district was uniquely situated because of its federal
jurisdiction over the prosecution of crime on the 21 Indian reservations in
Arizona. He said that establishing a tape recording policy in his district would
assist in the prosecution of the many violent crime cases occurring on the
Indian reservations, but would not affect other districts that did not have
federal jurisdiction over such local crimes. Charlton also said his policy was
flexible enough that if federal agents believed that they could not tape record
an interrogation, they could conduct the interview without taping it.

      In early February 2006, Charlton formally notified his office and all
Special Agents in Charge of federal law enforcement agencies in his district



       141  The FBI’s policy provides that use of tape recorders in interviews is permissible in
limited circumstances on a selective basis after obtaining authorization from the FBI field
office’s Special Agent in Charge.




                                               224
about his new policy, which was scheduled to take effect on March 1, 2006. 142
Charlton acknowledged to us that he did not discuss his decision to implement
the new tape recording policy in his district with the Department’s leadership.

      According to Charlton, after his announcement most of the law
enforcement agencies in Arizona expressed no concerns to him about the new
tape recording policy beyond questions about the mechanics of the program,
such as whether the U.S. Attorney’s Office would purchase the recorders.
Charlton said that as he had expected, both the FBI and the DEA objected to
implementation of the new policy and complained to the Deputy Attorney
General’s Office.

       According to McNulty, FBI Director Robert Mueller called him in late
February 2006 and complained that Charlton’s Arizona tape recording policy
could jeopardize criminal prosecutions in other districts that did not record
interrogations. McNulty said he spoke to Charlton at a U.S. Attorneys’
conference in Orlando on March 1, 2 days before the policy was to go into
effect, and told him to rescind it, but Charlton refused to do so. Charlton told
us that he told Principal Associate Deputy Attorney General Mercer that he
would prefer to resign rather than rescind the policy.

      Charlton said that McNulty repeated FBI Director Mueller’s views about
the policy and expressed concern that he could not persuade Mueller to change
his position opposing the taping policy. Charlton said his conversation with
McNulty was interrupted before they resolved anything, and McNulty asked
Mercer to continue discussing the matter with Charlton.

               3.     Pilot Project for Charlton’s District

      Charlton said that Mercer persuaded him to design a pilot project for
tape recording interrogations rather than submitting his resignation over being
forced to rescind the new policy. Charlton said Mercer told him to forward the
proposal for a pilot project to him, and Mercer assured him that it would
receive expeditious and favorable review.

      Mercer also told Charlton that McNulty was upset because Charlton had
committed a “procedural foul” by not clearing the initiative with the Deputy
Attorney General’s Office prior to its implementation. Charlton said that
Mercer’s “procedural foul” comment led him to believe that he could alleviate

       142  The policy stated that “Cases submitted to the U.S. Attorneys Office for the District
of Arizona for prosecution in which an investigative target’s statements has been taken, shall
include a recording, by either audio or audio and video, of that statement . . . the recording
shall cover the entirety of the interview to include the advice of Miranda warnings and any
subsequent questioning.” The policy contained an exception for circumstances “where a taped
statement cannot reasonably be obtained . . .”




                                              225
the concerns by framing implementation of the new policy as a pilot program in
his district rather than as a finalized Department policy change.

       Charlton told us that he wanted something in writing from McNulty’s
office reflecting his agreement with Mercer. Charlton therefore asked Elston to
confirm in writing that McNulty had asked that implementation of the new
policy be delayed until his staff could review the policy and the pilot program
proposal. On February 28, Elston wrote an e-mail to Charlton stating:

      [McNulty] is very interested in having you submit a proposal to
      have a pilot program in your district. Such a proposal would
      receive expeditious consideration. [McNulty] understands this
      issue and is interested in energizing the Department’s
      consideration of it. You are the best advocate for the proposed
      policy, and he hopes you will play a significant role in the
      Department’s review and the interagency review process.

       Charlton submitted his proposal for the pilot program to McNulty on
March 15, 2006. In August 2006, McNulty’s staff recommended that he
approve it. However, McNulty took no action. Charlton said that he followed
up with Mercer at least once a month thereafter concerning the status of the
pilot program, and Mercer reassured him that although McNulty was hesitant
about the program, he would approve it.

      McNulty told us that he had supported the pilot program mainly as an
accommodation to Charlton because Charlton had already announced the
policy to his office and to law enforcement agencies in his district, and it would
have been awkward for him to rescind it. However, McNulty told us that he did
not believe that the Department should pursue the policy. We found no
indication that anyone from McNulty’s office told Charlton that McNulty in fact
did not support the pilot program.

       McNulty also told us that he thought Charlton showed poor judgment in
proceeding to implement a new policy that had national implications without
first obtaining Department approval. McNulty said that he had most likely
discussed this matter with Sampson in their regular senior leadership
meetings. McNulty told congressional investigators that he did not see
Charlton’s actions at the time as insubordinate, although he acknowledged
that Charlton’s actions concerning the taping policy came to his mind when he
saw Charlton’s name on the list of U.S. Attorneys to be fired. However,
McNulty told us that if it had been up to him he would not have fired Charlton
because of his attempt to implement the new tape recording policy.
Nevertheless, McNulty said he did not ask Sampson to remove Charlton’s name
from the list.




                                       226
       C.     The Death Penalty Case

      Around the same time that Charlton was seeking to implement the new
taping policy, he disagreed with senior Department officials over a decision to
seek the death penalty in an Arizona case involving a defendant who was being
prosecuted for using a firearm to commit a murder during a drug deal.

              1.      The Department’s Procedure for Death Penalty Cases

       The U.S. Attorneys’ Manual describes the Department’s death penalty
review process. First, the U.S. Attorney sends a memorandum containing the
facts and legal analysis in the case to the Assistant Attorney General for the
Criminal Division in support of a recommendation to seek or not to seek the
death penalty. The Assistant Attorney General then forwards the package to
the Criminal Division’s Capital Case Unit (CCU). The CCU reviews the material
from the U.S. Attorney and any material submitted by defense counsel, and
passes it on for a recommendation from the Attorney General’s Review
Committee for Capital Cases (the Committee). 143 The Committee makes a
recommendation to the Attorney General through the Deputy Attorney General.
The Deputy Attorney General provides his recommendation to the Attorney
General when the Committee’s recommendation differs from that of the U.S.
Attorney.

       According to the Deputy Chief of the Criminal Division’s CCU, as a
matter of practice it is also understood that a representative from the Deputy
Attorney General’s Office calls the U.S. Attorney to consider the district’s view
of the case when the district recommends against seeking the death penalty
but the Committee votes in favor.

      The Attorney General makes the final decision about whether or not to
seek the death penalty. The Attorney General conveys the final decision to the
U.S. Attorney in a letter authorizing the U.S. Attorney to seek or not to seek the
death penalty. However, attorneys in the CCU convey by telephone or e-mail
the Attorney General’s decision to the U.S. Attorney’s Office as soon as the
decision is made.

              2.      The Death Penalty Decision

      In a memorandum to Criminal Division Assistant Attorney General Alice
Fisher dated December 16, 2005, Charlton requested that the Department not
seek the death penalty for the defendant who allegedly had committed a


       143  The Committee is composed of career officials and political appointees from the
Criminal Division, the Office of the Deputy Attorney General, the Capital Case Unit, and a
rotating group of Assistant United States Attorneys.




                                             227
murder during a drug deal. 144 Charlton told us that representatives of his
office met with the Committee in the spring of 2006 to argue that the death
penalty was not appropriate in this case. According to e-mail traffic, however,
the Committee recommended in late May 2006 that the government seek the
death penalty. The Deputy Attorney General also recommended that the death
penalty be sought in this case.

      Elston signed the recommendation for Deputy Attorney General McNulty
on May 30, 2006, because McNulty was out of the country at the time.
According to e-mail records, as of the morning of May 30, 2006, the Attorney
General had not yet considered the Deputy Attorney General’s endorsement of
the Committee’s recommendation, even though a court notice (called the “seek
notice”) was supposed to be filed on the following day, May 31. 145

       As noted above, as a matter of practice a representative from the Office of
the Deputy Attorney General calls the U.S. Attorney to consider the district’s
view of the case when the district recommends against seeking the death
penalty but the Committee votes in favor. Charlton told us that McNulty’s
office did not give him a chance to respond to the Committee’s recommendation
before the Attorney General made his decision to seek the death penalty in this
case. 146

      In addition, according to Charlton, he was not notified that McNulty had
recommended to the Attorney General that the government should seek the
death penalty. Charlton said he first learned that the Attorney General had
made a decision on May 31, 2006. On that day, the AUSAs handling the case
were notified by a CCU attorney that the Attorney General had signed the letter
to Charlton authorizing him to seek the death penalty.

      Charlton’s office did not file the notice of intent to seek the death penalty
on May 31 in order to allow Charlton time to further discuss the matter with
the Department. The same day Charlton received the letter from the Attorney
General, an AUSA in Charlton’s office filed a motion requesting an extension of
time to file the notice. Later that day, the court extended the deadline to

       144 According to Department documents describing the crime, the defendant in that
case allegedly ordered a large quantity of methamphetamine from his supplier and murdered
her when she delivered part of it to the apartment where the defendant lived.
       145 The “seek notice” is the document filed in the U.S. district court stating that the

United States intends to seek the death penalty against the defendant.
       146 We determined that in early May 2006, coordination between the Deputy Attorney
General’s Office and the U.S. Attorneys’ Offices concerning capital cases was assigned to a
former Associate Deputy Attorney General who left the Department before the Arizona case
came to Deputy Attorney General McNulty for decision. Former Counselor to the Deputy
Attorney General Joan Meyer took over the former Associate Deputy Attorney General’s capital
case responsibilities in late June-early July 2006.




                                               228
June 30, and on the defendant’s subsequent motion, extended the deadline to
August 20, 2006.

              3.     Charlton Seeks Reconsideration of the Decision

      Charlton contacted Jeffrey Taylor, a Counselor to the Attorney General
who had responsibility for death penalty matters, and expressed his
unhappiness that he had not had an opportunity to speak with McNulty or the
Attorney General about the recommendation before the Attorney General
decided the matter. 147 Charlton said that, at Taylor’s suggestion, he decided to
request reconsideration of the decision.

      Charlton then contacted Criminal Division Assistant Attorney General
Fisher to see if she would weigh in on the matter. Charlton said he and Fisher
discussed the process by which Charlton could seek reconsideration of the
decision. According to Fisher, she told Charlton she was uncertain about how
Charlton should proceed without a showing that the circumstances had
changed in the case because she could not simply overrule the Attorney
General’s decision. Fisher said she advised Charlton to contact the Deputy
Attorney General’s Office. 148 Charlton said he considered his conversations
with Taylor and Fisher as support for his view that the matter was not final
and was open for reconsideration.

      In a June 27, 2006, memorandum addressed to Fisher, Charlton
requested reconsideration in part because the defense had not presented
evidence in mitigation to the Capital Case Committee prior to the Attorney
General’s decision. Charlton’s letter enclosed the mitigation evidence
submitted by the defense and also requested that Fisher direct the Committee
to meet with Charlton and the AUSAs assigned to the case to hear their
arguments for reconsideration.

      According to an e-mail dated July 11, an AUSA in Charlton’s office called
the CCU to determine if it planned to meet with Charlton about the request for
reconsideration. A CCU trial attorney informed the AUSA by e-mail that “any
decision to confer with your office and the defense is within the discretion of
[Assistant Attorney General Alice Fisher]. As yet, we are unaware of any

       147 Charlton noted that during Ashcroft’s tenure as Attorney General he had

successfully sought reconsideration of the Department’s recommendation in another death
penalty case after discussing the matter with Deputy Attorney General Comey. Comey
confirmed to us that after Charlton raised concerns about the case, Comey changed the advice
he was planning to give Attorney General Ashcroft, who agreed with the “no seek”
recommendation.
       148 Charlton told us he was not sure whether the request to reconsider should go
through the Deputy Attorney General’s Office at that point, and he said Fisher was not sure
either. He said he contacted Fisher because she oversaw the Death Penalty Review Committee.




                                            229
request for such a conference.” Charlton responded that he would call Fisher,
and e-mail traffic shows that a conference call between Charlton’s office,
Fisher, and the CCU was scheduled for Thursday, July 13.

      Fisher told us that during the conference call on July 13 she raised the
issue of whether she could appropriately handle the request to reconsider
because it was not a request for authorization to withdraw the notice based on
changed circumstances, but was instead a request that she reconsider the
Attorney General’s original decision.

      On July 17, the CCU forwarded for Fisher’s signature a memorandum to
the Attorney General which stated that Charlton’s request for reconsideration
did not present the new evidence required to revisit the Attorney General’s
original decision. The memorandum also stated that “the United States
Attorney declined to file the notice of intent to seek the death penalty following
the Attorney General’s May 31, 2006 decision, opting instead to seek
reconsideration.” The memorandum stated that the material submitted by the
defense did not “clearly identify any actual mitigating evidence that the
Committee and the Attorney General have not already considered” and
recommended against reconsideration of the Attorney General’s decision to
seek the death penalty in the case.

        Our review of e-mails and other documents shows that until July 17,
officials in the Deputy Attorney General’s Office were unaware that Charlton
had not filed with the court the notice that the Department intended to seek
the death penalty. On that day, Joan Meyer, a Counselor in McNulty’s office,
forwarded the CCU memorandum to Jeff Taylor in the Attorney General’s Office
with the notation that “This seems somewhat disrespectful to the Attorney
General . . . I don’t know how the USA thinks he has the discretion to decline
to file in May.” Taylor responded by e-mail to Meyer that he had told Charlton
that if Charlton thought there were changed circumstances he could ask for
reconsideration. However, Taylor wrote that he did not know that Charlton
had not filed the notice. Taylor then asked Meyer to contact Charlton to find
out why he chose that course.

      According to e-mail records, Meyer contacted Charlton that day, and
Charlton told her he did not know he was required to file the “seek notice,”
especially since the court had granted an enlargement of time in which to do
so. Meyer informed Taylor in an e-mail that she told Charlton that the notice
should have been filed when Charlton received notification of the Attorney
General’s decision. Meyer also suggested to Taylor affording Charlton the
courtesy of going through the review process again, but expressed concern that
it might set an adverse precedent. Meyer wrote, “When the AG makes a
decision, the USA needs to implement it.”




                                       230
        Taylor responded that he would discuss the matter with Sampson, and
he asked Meyer to inform Elston. The following day, Taylor wrote to Meyer,
“After discussing this with Kyle [Sampson] I think Charlton should be directed
to file the seek notice in the pending matter.”

              4.      Charlton Asks to Speak to Attorney General Gonzales
                      About the Decision

      In an e-mail dated July 20, 2006, Meyer informed Elston that she had
called Charlton to tell him to file the notice, and that Charlton said he
understood but wanted to speak to “someone higher up, presumably the DAG
or the AG.” In her e-mail to Elston, Meyer said she told Charlton it would be
better to discuss the issue with Deputy Attorney General McNulty. She
concluded her e-mail with: “This usa is just not going to take no for an
answer.” When Elston responded that he would call Charlton, Meyer replied,
“Thanks. Things like this are an abuse of the process.”

      On July 20, Elston called Charlton to discuss the matter. Charlton told
us that during this conversation, Elston told him there were individuals in the
Department who thought Charlton had disregarded the Attorney General’s
order to file the death penalty notice. After their conversation, Charlton sent
an e-mail to Elston stating:

       At no time was anyone attempting to ignore or refuse to file as the
       AG requested. Everyone here thought that [not filing the notice
       and obtaining an enlargement of time to file it] was the appropriate
       way to handle this matter in a case where we hoped to have a
       reconsideration of this matter. It was, until very recently, my
       understanding that we did not have to file our notice until the date
       required by the Court. No disrespect of any kind was intended. I
       apologize if anyone saw it as otherwise.

      In an e-mail to Meyer on July 21, Elston told her about his conversation
with Charlton and asked for Meyer’s input concerning the substantive aspects
of Charlton’s request for reconsideration. Meyer responded, “I don’t want to
accuse him of anything but I find it very difficult to believe that he was doing
anything but trying to circumvent the AG’s ruling.” Meyer added that she
believed Charlton “obviously has a problem with the death penalty, either
because of the resource issue or personal philosophy.” 149 Meyer also
recommended that Elston tell Charlton there would be no meeting or “redoing


       149  When we asked Charlton about this claim, he stated that he was not opposed to the
death penalty and that he believed the death penalty should be imposed “where the law
required it.” He said the concern in this case was that the evidence was not sufficient to seek
capital punishment.




                                             231
the process” and instead instruct him to file the notice no later than the
following week.

      On July 31, Elston e-mailed Meyer and Taylor that he had spoken to
Charlton and that Charlton had requested a conference call with McNulty.
Taylor responded, “Charlton is really pushing it with this.” Elston also wrote
that Charlton might seek to discuss the matter with the Attorney General “if
(when) he gets no satisfaction from us, but we will try to dissuade him from
making that request.”

      On August 2, Charlton spoke with McNulty and Elston by telephone
about his request for reconsideration. Charlton said he told McNulty and
Elston that he did not believe the U.S. Attorney’s Office would be successful in
obtaining the death penalty before the jury. Charlton explained to McNulty
that the case was based on testimony from cooperating witnesses who were all
drug dealers or users, and the government had modest forensic evidence in
part because the Department had allegedly refused to pay for exhuming the
victim’s body from a landfill south of Phoenix. Charlton said McNulty had little
reaction to his presentation, although Charlton said McNulty agreed to discuss
the death penalty recommendation with the Attorney General.

      McNulty told us that he considered his conversation with Charlton to be
the appropriate thing to do given the circumstances of the underlying case and
Charlton’s view that the Attorney General should reconsider his decision.
McNulty said that Charlton “pushed hard,” but after listening to Charlton’s
views and after his own evaluation of the case, his recommendation to the
Attorney General was that the decision to seek the death penalty should stand.

       McNulty told congressional investigators that to his knowledge Charlton
was the only U.S. Attorney to ever disregard a “seek letter.” McNulty also said
that when Charlton did not file the notice with the court after receiving the
Attorney General’s letter, it was “rather significant” because it was well
established that U.S. Attorneys are required to comply with the Attorney
General’s direction once a decision is made. Mercer, who was the U.S.
Attorney in Montana and Principal Associate Deputy Attorney General at the
time, told us that “based on training and understanding” U.S. Attorneys are
aware that unlike other cases, they do not possess discretion in deciding
whether or not to seek the death penalty in a capital case. Mercer said that
despite the wording in the letter from the Attorney General stating, “You are
authorized to seek the death penalty,” all U.S. Attorneys know that upon




                                       232
receipt of such a letter they are required to inform the court the prosecution
will seek the death penalty. 150

              5.     Attorney General Gonzales Denies Charlton’s Request to
                     Reconsider

        McNulty said that although he believed that Charlton had failed to follow
the rules, he attempted to address Charlton’s request to reconsider the
decision to seek the death penalty. McNulty told us he carefully reviewed the
file after he spoke with Charlton, and he then met with Attorney General
Gonzales and presented Charlton’s arguments. Calendar entries indicate that
on August 15, 2006, a meeting between Gonzales and McNulty was scheduled
from 3:30 p.m. to 3:45 p.m. to discuss Charlton’s request for reconsideration.
McNulty told us he informed Gonzales that Charlton had made no new
arguments since the Attorney General’s original decision, and McNulty
therefore recommended that Gonzales maintain his position that the death
penalty was appropriate in this case. According to McNulty, Gonzales believed
his previous decision to seek the death penalty was appropriate.

       In Gonzales’s public testimony before the Senate Judiciary Committee on
July 24, 2007, he said he had no specific recollection of the case or of his
conversation with McNulty. During our interview, Gonzales told us that he was
surprised to learn shortly after making the original decision that Charlton’s
office had not filed the notice. Gonzales said he did not recall taking any action
at the time other than perhaps asking McNulty to discuss the matter with
Charlton.

      Charlton told us that shortly after McNulty’s meeting with Attorney
General Gonzales, Elston called Charlton to inform him of Gonzales’s decision.
According to Charlton, Elston told him that McNulty had spent a considerable
amount of time discussing the issue with Gonzales, “perhaps 15 minutes.”
Charlton said he thought at the time that common sense would prevail if
Gonzales could listen to Charlton make the presentation. Charlton said that
he asked Elston if he could speak personally with the Attorney General about
the case and Elston advised him that it would be unwise to seek an audience
with the Attorney General.

      During Elston’s interview with congressional staff, he said he advised
Charlton not to request a meeting with Gonzales because Elston believed he
knew what Gonzales would say. Elston said he did not think it was worth it to
Charlton to waste “political capital” with Gonzales to discuss the case further.


       150 According to the Deputy Chief of the Capital Case Unit, this situation prompted a
change in the wording of the Attorney General’s letters to U.S. Attorneys in death penalty
cases, which now states, “You are authorized and directed to seek the death penalty.”




                                             233
Elston also said that the entire incident caused him to question Charlton’s
judgment about how he had handled the matter.

      According to an e-mail dated August 15, 2006, at 6:51 p.m., Elston
forwarded to Sampson Charlton’s request to meet with Gonzales. Elston wrote
to Sampson, “In the ‘you won’t believe this category’, Paul Charlton would like
a few minutes of the AG’s time.” Elston told Sampson he had explained to
Charlton that Charlton had already been given “extensive, unusual process”
and Elston had also told Charlton he did not think it was a good idea for him to
press the matter further, but Charlton insisted that Elston make the request.
Sampson responded at 7:00 p.m. with a one word e-mail, “Denied.”

      The following day, August 16, 2006, Elston informed Charlton by e-mail
that the Attorney General “has declined your invitation to speak further about
the case,” and Elston instructed Charlton to file the notice that the government
was seeking the death penalty. That same day, Charlton’s office filed the
notice. 151

              6.     Sampson Places Charlton’s Name on the September 2006
                     Removal List

      Less than 1 month later, on September 13, 2006, Sampson included
Charlton’s name on his removal list for the first time. Sampson testified to
Congress that Charlton was placed on the September 13 list based on policy
disputes Charlton had with the Deputy Attorney General’s Office during the
summer of 2006. According to Sampson, Charlton’s action in the death
penalty matter was one of the two primary reasons he placed Charlton’s name
on the September 13 list. The other was Charlton’s efforts to institute a new
policy in his district requiring tape recording of interrogations.

       D.     Obscenity Prosecutions

       Another issue that was raised in McNulty’s preparation session for his
closed briefing of the Senate Judiciary Committee, and also listed in Goodling’s
chart as a reason justifying Charlton’s removal, was Charlton’s alleged
resistance to prosecuting obscenity cases identified as significant by the
Department’s Obscenity Prosecution Task Force (Task Force). Although we did
not find that any Department official asserted in testimony or interviews that
Charlton’s removal was based on this issue, we examined this claim because it
was listed in Goodling’s chart.




       151 On September 2, 2008, the defendant pled guilty to murder, drug, and weapons

charges and agreed to a life sentence.




                                           234
              1.     The Obscenity Prosecution Task Force Requests
                     Charlton’s Assistance

      Charlton and Brent Ward, the Director of the Task Force, first met in
March 2006 to discuss the investigation of an alleged distributor of illegal
pornography in Arizona. Charlton said that Ward requested that Charlton
assign an AUSA from his office to act as the “second chair” to a Task Force trial
attorney through the investigation and ultimate prosecution of the case.
Charlton told us that he initially expressed reluctance to assist the Task Force
because he believed his office did not have sufficient resources to take on the
additional cases the Task Force had identified. Charlton also said that while
he believed that Task Force attorneys should be primarily responsible for the
prosecutions, he nevertheless agreed to support the case by assigning a
prosecutor to assist the Task Force attorney assigned to the Arizona case.
According to e-mail traffic, on March 8, 2006, Charlton provided Ward with the
name of an AUSA in Arizona who would assist with the investigation and
prosecution of the case.

       On April 26, 2006, Ward e-mailed a report to Criminal Division Assistant
Attorney General Fisher describing what he called the “first wave” of cases from
the Task Force. Ward also provided the names of the U.S. Attorneys who had
been assisting the Task Force so that Fisher could personally commend them
for their assistance. In that report, Ward wrote that Charlton had been “very
cooperative,” but he also noted that Charlton’s office appeared to have serious
resource issues that might preclude providing trial assistance to the Task
Force. Ward informed Fisher that trial assistance was absolutely crucial for
the Arizona case and requested that she encourage Charlton “to stick it out
with [the Task Force].” We found no indication that Fisher responded to Ward
or spoke to Charlton about the matter at that time.

              2.     Task Force Complaints About Charlton

       On May 22, 2006, Ward, accompanied by an FBI Washington Field Office
Special Agent in Charge (SAC) and a Task Force trial attorney, met with
Charlton in Arizona to discuss the investigation of the pornography
distributor. 152 The case against the distributor was indicted in Arizona the
following day. According to Charlton, Ward tried to persuade Charlton to have
his office take over the case or to assist with the trial. Charlton said that he
was unable to do so because the assigned AUSA had a busy caseload of his
own, but Charlton said he would provide office space for the Task Force
attorney.


       152 The Task Force’s investigative work was handled by the Adult Obscenity Squad, a

nationwide FBI initiative operating out of the FBI’s Washington, D.C., Field Office.




                                            235
       E-mail records show that by the end of June 2006, Ward had begun to
request that Fisher’s office assist him in persuading Charlton and U.S.
Attorney Debra Yang of the Central District of California to accept
responsibility for prosecution of two Task Force cases. Criminal Division Chief
of Staff Matthew Friedrich said he called Charlton to ask him to take over the
case in Arizona, and Charlton told him he did not have the resources to do so.
Friedrich said that after he spoke to Charlton, he told Elston about Ward’s
complaints that Charlton refused to take over the case or assist with the trial.
According to Friedrich, however, adult obscenity cases were not a high priority
for the Deputy Attorney General’s Office at that time and no one from the
Deputy Attorney General’s Office raised a concern about them. 153

      In July 2006 Friedrich informed Elston and Principal Associate Deputy
Attorney General Mercer that he wanted McNulty’s office to direct Charlton and
Yang to lend resources to handle specific obscenity cases. At Friedrich’s
request, in early August Mercer spoke to Charlton about taking over the
Arizona task force case. Charlton said that his office was not in a position to
assume responsibility for the case, but said that one of his AUSAs would assist
with the case when it got closer to trial.

       In an August 28, 2006, e-mail, Ward complained to Sampson that the
Task Force’s efforts were at a standstill because Charlton, Bogden, and Yang
refused to take over the obscenity cases the Task Force had identified and had
begun to develop in their districts. Ward also complained that he was unable
to get either Fisher or Friedrich to meet with him to discuss the matter. Ward
asked Sampson whether the Attorney General would consider calling the U.S.
Attorneys to instruct them to take over the cases. We found no response to
Ward’s request, and Sampson told us he did not recall discussing the matter
with Gonzales.

      On August 29, 2006, Ward sent an e-mail to Friedrich stating that
Charlton and Bogden’s failure to cooperate with the Task Force was going to
lead to a “showdown with the FBI.” Ward also wrote that the FBI seemed to
minimize its participation in the Task Force after Charlton allegedly “thumbed
his nose” at Ward and the FBI SAC at their May 22, 2006, meeting. Friedrich
forwarded Ward’s e-mail to Elston, who responded, “don’t throw in the towel
yet.”


       153  Fisher noted that U.S. Attorneys do not report “in any way, shape, or form” to the
Criminal Division, but rather to the Deputy Attorney General. According to Fisher, the attitude
of the U.S. Attorneys’ Offices towards the Task Force was mixed. According to Fisher, several
districts were interested in pursuing cases but lacked the resources to do so. Fisher added
that the Task Force was established as a small team of two to four attorneys who worked
closely with the FBI to identify potential cases for referral to U.S. Attorneys, but the Task Force
itself was not designed to prosecute cases.




                                               236
      Elston said that he and McNulty discussed the matter in early September
2006, and McNulty indicated he wanted to familiarize himself with the cases so
he could discuss them with the U.S. Attorneys. Elston told us that he knew
Friedrich was frustrated at how long it was taking McNulty to directly contact
the U.S. Attorneys about the obscenity cases, but Elston said McNulty wanted
to have all the information concerning Ward’s complaints before he called them
about the cases. In an e-mail to Friedrich on August 31, 2006, Ward prepared
a timeline describing his interactions with Charlton for a proposed briefing of
McNulty concerning the Arizona obscenity case.

      Between September 13 and 15, 2006, the Department’s National
Advocacy Center (NAC) in Columbia, South Carolina, hosted a training seminar
for Department personnel and other law enforcement agencies about
investigating obscenity cases. Attorney General Gonzales spoke at the seminar
and underscored that obscenity prosecutions were a Department priority.

       Following the seminar, Ward continued to complain about Charlton and
other U.S. Attorneys. In a September 20, 2006, e-mail to Sampson, Ward
stated that Charlton and Bogden were unwilling to take “good cases” presented
to them. Ward asked, “In light of the Attorney General’s comments at the NAC
. . . what do you suggest I do?” Ward also asked Sampson whether it was
necessary for him to go through the chain of command to complain to the
Attorney General or whether telling Sampson about Charlton and Bogden was
sufficient. Sampson responded that Ward should go through the regular
channels to avoid “step[ping] on [Fisher]’s or [McNulty]’s toes.”

       That same day, Ward again complained to Friedrich and others in the
Criminal Division, stating, “I would like to position them [Charlton and Bogden]
for calls from the Attorney General.” On September 21, 2006, Ward provided
Friedrich with summaries of the “problem districts” in which he described
Charlton as “a hardened hold-out [who] will probably not budge until the AG
calls, if then.” We found no evidence that the Attorney General or anyone else
ever called Charlton to discuss these matters.

      During his interview with us, Sampson stated that he did not place
Charlton’s name on the September 13 list because of Ward’s complaints about
Charlton’s lack of cooperation on obscenity cases. 154 Sampson said he could
not recall anything about Charlton beyond his actions concerning the death
penalty matter and his attempt to implement the recorded interrogations policy
as the basis for placing Charlton on the list. Sampson said that he did not ask
McNulty or anyone else about Charlton but he had learned in passing

       154
            Sampson said failure to participate in the obscenity prosecutions may have been a
factor in the decision to place Bogden on the list, although he said he could not recall if it was
a factor in Bogden’s removal.




                                               237
sometime during the summer of 2006 about Charlton’s actions regarding the
death penalty and recorded interrogations issues.

      McNulty told us that at no time did he associate Charlton with concerns
about failing to undertake obscenity prosecutions. McNulty said that when he
learned in late October 2006 that Charlton was on the list of U.S. Attorneys to
be removed, Charlton’s actions concerning the tape recording policy and the
death penalty case were foremost in his mind.

       E.     Investigation of Congressman Renzi

      Another issue that surfaced in media reports concerned whether
Charlton’s removal was connected to the investigation of Republican
Congressman Rick Renzi of Arizona or to a media leak about the
investigation. 155

      The FBI’s investigation of Renzi began in early 2005. The Arizona U.S.
Attorney’s Office participated in the investigation, and the Department’s Public
Integrity Section joined the case in the fall of 2005. In October 2006, senior
leadership in the Department became aware that Charlton’s office and the
Department’s Public Integrity Section were jointly handling the investigation.
According to Benton Campbell, who replaced Friedrich as Assistant Attorney
General Fisher’s Chief of Staff at the end of September 2006, the Criminal
Division began to closely supervise aspects of the investigation in mid-October
2006 after Fisher learned that Charlton’s office planned to employ a certain
investigative technique.

      On Thursday, October 19, 2006, Charlton’s office submitted a request to
the Criminal Division to seek a court order to use the investigative technique.
The following day, an Associated Press (AP) reporter told Department
spokesperson Brian Roehrkasse that the AP planned to publish an article
reporting that the Department was investigating Renzi for bribery and that the
Department was using a wiretap in the investigation. Fisher responded that
Campbell would brief Roehrkasse about the investigation, but cautioned that
the report was not accurate.

      According to Charlton, on Saturday, October 21 an Internet blog falsely
reported that the Arizona U.S. Attorney’s Office was “up on a wire” and had
already indicted Renzi but was sitting on the indictment until after the
upcoming election. In an October 22 e-mail to Elston requesting assistance in
obtaining expedited consideration of Charlton’s request to use the particular
investigative technique, Charlton discussed the media reports and noted that

       155 The investigation focused in part on an allegation that Renzi agreed, in exchange for
a monetary payment, to sponsor federal legislation to buy land from a former business
associate.




                                             238
up to this point the Department had declined to comment. Charlton informed
Elston that after becoming aware of the news report, Renzi had contacted the
Arizona FBI office to ask if he was under investigation, but the FBI had refused
to comment.

       According to Charlton, on Monday, October 23 Renzi’s Chief of Staff left a
voicemail for Charlton and his public affairs officer inquiring about the status
of any case against Renzi. Charlton said they did not return the staff member’s
calls, and the office’s Criminal Chief immediately reported the calls to John
Nowacki, a Deputy Director in EOUSA.

      Charlton told us that by October 24 supervisors in the Criminal Division
had approved the request to seek the investigative technique, but Assistant
Attorney General Fisher’s office had not yet approved the request. Charlton
said he tried to discuss the matter with Criminal Division Chief of Staff
Campbell to no avail, and then went directly to Fisher. Charlton told us that
Fisher expressed concern about moving forward more quickly with the
investigative technique for two reasons: (1) a recent controversy concerning
whether the Department was overaggressive in obtaining and executing a
search warrant in U.S. Representative William Jefferson’s congressional office
and, (2) the risk that disclosure of the Renzi investigation before the election
could interfere with the election.

     On October 25, stories about the Renzi investigation appeared in The
Washington Post and The New York Times, and both quoted an unnamed
Department official stating that the investigation was in a preliminary stage.

      Documents show that Fisher approved the investigative technique
request on October 26. Campbell said that during the week of November 2, he
informed Charlton’s office that no one was authorized to take any other
investigative steps until after the election.

       E-mail records show that in early November 2006, Charlton complained
to Fisher that Campbell’s oversight of the investigation was becoming “far too
restrictive.” Campbell told us that he recognized that the Arizona U.S.
Attorney’s Office was frustrated with the extent of his review, but he believed it
was justified by the extraordinary circumstances of the case. Campbell also
told us that his conversations with Charlton were very professional. He said
that Charlton was “backing his people” and was not unreasonable. Campbell
also said that the Arizona U.S. Attorney’s Office was ultimately able to take all
the investigative steps it had requested. Campbell also said he was shocked
when he learned in December 2006 that Charlton had been asked to resign
because he had just spoken with Charlton 6 weeks earlier.

      Fisher said she did not have any input into the issue of which U.S.
Attorneys were to be removed. She said that if any of her thoughts or opinions



                                       239
were used in the decision-making process, it was without her knowledge or
permission.

      Sampson testified before the Senate Judiciary Committee that Charlton’s
removal was not related to the Renzi investigation. He also stated that to his
knowledge no one from the White House or outside the Administration
advocated for Charlton’s removal. McNulty told us that he was unaware of any
information that would support the conclusion that Charlton’s removal was
related to the Renzi investigation. McNulty also said he heard no complaints
from the Attorney General or the White House about Charlton’s actions in the
Renzi investigation.

       F.   Charlton’s Resignation

      On December 7, 2006, EOUSA Director Battle called Charlton and told
him that the Department wanted him to resign as U.S. Attorney by the end of
January. According to Charlton, his call with Battle was a “very curt”
conversation. Charlton said after speaking with Battle he called Acting
Associate Attorney General Mercer, who told him that the action was being
taken so others would have the opportunity to serve as U.S. Attorney before the
end of the President’s term.

      Charlton said that at the time he thought he was probably asked to
resign because of the difficulties he had with the Department concerning the
death penalty matter and the taping policy. On December 18, 2006, Charlton
submitted a letter of resignation to the President and the Attorney General
stating that he would resign effective January 30, 2007.

      On December 21, 2006, after Charlton announced his resignation, he
sent an e-mail to Mercer notifying him that the media had asked whether
Charlton’s resignation was connected to the leak in the Renzi investigation.
Mercer told us he could not specifically recall discussing the matter with
Charlton, other than advising Charlton to respond to media inquiries about his
resignation by making it clear that it was Charlton’s decision to resign.


III.   Analysis

      In this section, we analyze the various reasons that have been proffered
for why Charlton was removed as U.S. Attorney.

       A.   Renzi Prosecution

      We found no evidence that Charlton was removed because of his office’s
investigation and prosecution of Congressman Renzi, as was alleged in some
media reports after the U.S. Attorney removals became public. Sampson and
other Department officials denied this claim, and our review of Department e-


                                      240
mails and documents did not find any indication that these investigations had
anything to do with Charlton’s removal. Moreover, the case was handled
jointly by the Arizona U.S. Attorney’s Office and the Department’s Public
Integrity Section beginning in the fall of 2005, and Charlton’s name did not
appear on any removal list until September 2006.

      Sampson testified that he was not aware of the Renzi investigation when
he put Charlton’s name on the removal list in September 2006, and we found
no evidence that the investigation played any role in Charlton’s removal. It is
also noteworthy that after Charlton’s removal, the Renzi investigation and
prosecution continued unabated, resulting in Renzi’s indictment in February
2007. The case is pending.

      B.    Obscenity Prosecution

      One of the issues listed in Goodling’s chart as a justification for
Charlton’s removal was his alleged resistance to assisting in the prosecution of
Obscenity Prosecution Task Force cases. It is unclear whether, and to what
extent, the task force leader’s complaints about Charlton played a role in his
removal.

       Sampson stated that he did not recall placing Charlton on the list for
reasons other than Charlton’s actions concerning the tape recording policy and
his disagreements with the Department about seeking the death penalty in a
particular case. Elston and McNulty also told us they did not recall that
Charlton’s alleged failure to assist the Obscenity Prosecution Task Force was a
factor in his removal.

      However, we found that Ward, the Task Force leader, complained directly
to Sampson and indirectly to Elston about Charlton throughout the summer of
2006, shortly before Sampson placed Charlton on the list. Ward also
complained to Sampson about Bogden, who was also placed on the
September 13, 2006, removal list for the first time. Yet, Charlton and Bogden
were not the only U.S. Attorneys about whom Ward complained, and those
other U.S. Attorneys were not removed. While it is not clear to what extent
Charlton’s alleged failure to assist the Task Force was a factor in his removal,
we believe it played a part in Sampson’s decision to put him on the list.

      C.    Discussion with Senator Kyl About Resources

      Department officials believed that Charlton had improper discussions
with Senator Kyl to seek more resources for the Arizona U.S. Attorney’s Office.
During McNulty’s preparation session for his closed briefing for the Senate
Judiciary Committee, Sampson mentioned Charlton’s discussion with Kyl
about resources as justification for Charlton’s removal. Sampson later testified
before the Senate Judiciary Committee that he recalled officials in the Office of
the Attorney General thinking that Charlton had directly contacted Senator Kyl


                                      241
in order to obtain more resources for his office. Goodling testified that
Charlton’s unauthorized discussions with members of Congress were on her
mind when she examined Sampson’s draft list in early 2006. Moreover,
Iglesias told us that he was aware that Charlton had been criticized because
people in the Department thought he had lobbied his home-state Senator for
additional prosecutors, evidencing how strongly and widely held this view was
in the Department.

       In fact, Charlton did not approach Senator Kyl for additional resources.
Rather, after an Arizona Congressman had raised to the Department the need
to devote more resources to border prosecutions, Sampson asked Charlton for
his views, and Charlton confirmed his need for additional resources. Shortly
after Sampson’s conversation with Charlton, Senator Kyl visited Charlton’s
office and asked Charlton directly whether there was anything the district
needed. Charlton mentioned to Kyl his conversation with Sampson about
seeking additional attorney positions for the Arizona U.S. Attorney’s Office.
Charlton did not ask Senator Kyl to intervene on his behalf for more resources;
he was responding to Kyl’s question. Nevertheless, when Senator Kyl later
pressed the Department for more resources for Arizona, Department officials
apparently believed that Charlton had acted inappropriately.

       We concluded that Sampson’s, Goodling’s, and other Department
officials’ erroneous belief that Charlton had acted inappropriately with Senator
Kyl was another factor in the decision to remove him. However, we do not
believe that this issue was the most significant factor in Charlton’s removal.
The incident occurred in 2004, and none of the early removal lists included
Charlton’s name. Rather, as discussed next, we believe that the primary
reasons for Charlton’s removal were the Department’s view of his actions
regarding the tape recording of interrogations and, most important, its view of
his persistent efforts to reconsider the Department’s decision to seek the death
penalty in a particular case.

      D.    Tape Recording Policy

       Sampson testified that he placed Charlton on the U.S. Attorney removal
list because of Charlton’s actions in attempting to implement a tape recording
policy in his district and because of his actions in the death penalty case.

       With regard to the tape recording of interrogations, we determined that
Charlton began exploring this issue in 2004 because he believed the absence of
recordings was undermining prosecutions in his district. Charlton first raised
the issue with Deputy Attorney General Comey, who established a working
group that included Charlton to consider the matter. However, the working
group did not reach a consensus. After McNulty became the Deputy Attorney
General, the working group became dormant, and Charlton decided to
implement a tape recording policy in his district without consulting the


                                      242
Department’s leadership. As Charlton expected, the FBI opposed the policy
and complained to McNulty about it.

       Shortly before Charlton’s tape recording policy was scheduled to take
effect, McNulty spoke with Charlton at a U.S. Attorneys’ conference and told
him to rescind it. Charlton refused to do so, telling McNulty he would prefer to
resign rather than rescind the policy. According to Charlton, the conversation
was interrupted and McNulty asked Principal Deputy Attorney General Mercer
to continue discussing the matter with Charlton.

       Mercer told us that he persuaded Charlton to design a pilot program for
tape recording interrogations rather than submit his resignation. Charlton
agreed to develop the pilot program, and McNulty’s Chief of Staff Michael
Elston sent an e-mail to Charlton stating that McNulty was very interested in
the pilot program and that it would receive expeditious consideration. Elston
added that McNulty understood the issue and was interested in energizing the
Department’s consideration of it, and that McNulty hoped that Charlton would
play a significant role in the Department’s review and the subsequent
interagency review process. However, we found no evidence that Charlton’s
pilot program was finally approved.

       We believe that Charlton should have consulted with Department
officials before implementing a policy requiring recording of interrogations in
his district, and his unilateral action was unauthorized and inappropriate.
However, after the issue was discussed with McNulty and his staff, agreement
was reached that Charlton would design a pilot program. Thereafter, Charlton
continued to pursue the issue, with apparent support from the Deputy
Attorney General’s Office.

      McNulty told us that he thought the incident demonstrated poor
judgment by Charlton. McNulty said he told Sampson about Charlton’s
actions at one of their regular senior leadership meetings, and Sampson said
this was one of the reasons for Charlton’s removal. However, McNulty also told
congressional investigators that he did not see Charlton’s actions at the time as
insubordinate. McNulty told us that if it had been up to him, he would not
have chosen to remove Charlton because of his attempt to implement the
recording policy. However, McNulty acknowledged that he did not ask
Sampson to remove Charlton’s name from the list when McNulty saw it.
Mercer also told us that he did not think Charlton’s actions concerning the
taping policy should have served as a basis for his removal because Charlton
had ultimately “stood down” and agreed to work on the pilot program.
Moreover, after the dispute with McNulty about the taping policy, which
occurred in February and March 2006, Charlton was not included on the next
version of the U.S. Attorney removal list that Sampson forwarded to the White
House on April 14, 2006. Nonetheless, we concluded that Charlton’s actions in
the matter were a significant factor in Sampson’s decision later to place


                                      243
Charlton on the list, and also in no other Department official’s advocating for
his removal from the list.

       E.     The Death Penalty Case

      We believe that Charlton’s action related to the death penalty case during
the summer of 2006 was the most significant factor in Charlton’s removal.

       As described above, Charlton felt strongly that the death penalty should
not be sought in a particular case based on his conclusion that there were
deficiencies in the evidence. After the case was examined through the
Department’s review process, however, Attorney General Gonzales accepted the
recommendation to seek the death penalty and issued a letter authorizing
Charlton to notify the court of the Department’s intentions. 156

       Contemporaneous e-mail records and interviews show that the Deputy
Attorney General’s staff and the Attorney General’s staff were upset when they
learned that, after the Attorney General’s decision, Charlton’s office did not
promptly file the death penalty notice, but instead obtained an enlargement of
time from the court in order to request that the Attorney General reconsider
the issue. The Deputy Attorney General’s and the Attorney General’s staffs
believed that Charlton was insubordinate in not filing the notice, and that his
attempts to seek a meeting with Attorney General Gonzales on the issue were
an abuse of the review process. We believe that the perception about
Charlton’s conduct in this matter, along with complaints about the tape
recording issue, his perceived contact with Senator Kyl concerning resources,
and his failure to assist the Obscenity Prosecution Task Force all contributed
to Sampson’s decision to include Charlton on the September 13, 2006, list of
U.S. Attorneys to be removed.

      We do not agree that Charlton’s forceful advocacy on the death penalty
case constituted insubordination. Charlton did not receive notice of the initial
recommendation by the death penalty review committee and was not provided
an opportunity to advocate against the committee’s recommendation.
Moreover, Charlton was not informed of the outcome until he received notice
that the Attorney General had authorized Charlton to seek the death penalty.

      When Charlton learned of the decision, he contacted the Attorney
General’s Counsel Jeffrey Taylor about an opportunity to be heard on the
matter and, with Taylor’s encouragement, he sought reconsideration of the
decision. Charlton then obtained an extension of time from the court for filing

       156  It is important to note that we did not examine the merits of Charlton’s position
about the strength of the evidence in this case, nor did we examine in detail the Department’s
death penalty review process in this matter. Such an examination is beyond the scope of our
investigation, which focused on the reasons for Charlton’s dismissal.




                                             244
the death penalty notice. Later, when he was informed that Department staff
believed his decision to seek an enlargement of time rather than file the notice
was “insubordination,” he immediately sent an e-mail stating that he did not
intend to ignore the Attorney General’s decision or exhibit any disrespect, but
believed it appropriate to seek reconsideration of the Attorney General’s
decision particularly since he had not had an opportunity to discuss the issue
with the Deputy Attorney General before the Attorney General made a final
decision.

      As a result of Charlton’s persistence in seeking reconsideration of the
death penalty decision, McNulty spoke with Charlton and later discussed the
issue with Attorney General Gonzales, who affirmed his initial decision.
Charlton then sought to speak with Gonzales directly, which according to
Elston caused Department leaders to further question Charlton’s conduct.

      In sum, while Department officials may have concluded that Charlton
should have accepted the Department’s decision and complied with it promptly,
we do not believe it is insubordinate for a U.S. Attorney to press for an
audience with the ultimate decision makers in a matter as important as the
decision to seek the death penalty. We believe an issue of this magnitude
warrants full and vigorous examination and debate within the Department, and
that Charlton’s request to speak directly to the Attorney General was neither
insubordinate nor inappropriate.




                                      245
[PAGE INTENTIONALLY LEFT BLANK]




             246
 John McKay Timeline
   Oct 2001
                                                                                                                                                                                                                                                                                        Aug 30, 2006
   McKay Events
                                            Mar 2002                                                   Apr 2005
   and Actions                                                                                                                                                                                                                                                                          McKay sends a letter signed by 17 U.S.
                                                                                                                                                                                                                                                                                        Attorneys to McNulty and non-Department
                                            McKay obtains a new AUSA for the                           Comey designates McKay leader of the LInX                                                                                                                                        personnel advocating LInX
                                            Thomas Wales murder investigation                          information sharing pilot project in the Northwest

                                                                                                                                                                                                                                                                                                                                     Dec 14, 2006
                                                                         Jan 4, 2005                                                                                                                                                                                                                                                 McKay announces his resignation
   Oct 23, 2001
                                                                         Representative Hasting's Chief of                                                                                                                                                           Jun 30, 2006
   McKay is confirmed by the Senate                                      Staff calls McKay to ask about                                                                                                                                                                                                                                                      Jan 26, 2007
   as the U.S. Attorney, Western                                         USAO's investigation of voter fraud                                                                                                                                                         McKay has heated discussions with
   District of Washington                                                allegations                                                                                                                                                                                 McNulty and Mercer about LInX                                                           McKay leaves office



           Oct 2001   Nov 2001 Dec 2001 Jan 2002 Feb 2002 Mar 2002              Dec 2004 Jan 2005 Feb 2005 Mar 2005 Apr 2005                May 2005 Jun 2005 Jul 2005       Aug 2005 Sep 2005 Oct 2005   Nov 2005 Dec 2005 Jan 2006 Feb 2006 Mar 2006 Apr 2006   May 2006 Jun 2006 Jul 2006       Aug 2006 Sep 2006 Oct 2006           Nov 2006 Dec 2006 Jan 2007




                                                       Dec 2004                                                Mar 2, 2005                                  Aug 2005                                                                                                                                                                      Dec 7, 2006
                                                                                                                                                                                                                               Jan 9, 2006                    Apr 19, 2006
                                                       The final recount in the state                          McKay is included on Sampson's               Outgoing Comey describes to Sampson                                                                                                                                           McKay is told to resign
                                                       governor's race results in victory for                  first removal list                           McKay's great work on the information                              McKay is not included          McKay is not included on
                                                       the Democratic candidate                                                                             sharing project                                                    on Sampson's second            Sampson's third removal list
                                                                                                                                                                                                                               removal list
Oct 2001                                                                                                                                                                                                                                                                                                             Sep 13, 2006

                                                                                                                                                                                                                                                                                                                     McKay’s name is on Sampson’s
DOJ and Other                                                                        Jan 25, 2005 - Jan 27, 2005                                                                                                                                                                                                     fourth removal list of U.S. Attorneys
Events and Actions
                                                                                     Complaints that McKay will not
                                                                                                                                                                                                                              Jan 2006 - Apr 2006
                                                                                     investigate voter fraud complaints
                                                                                                                                                                                                                              In early 2006, the DAG's                              Aug 22, 2006
                                                                                                                                                                                                                              office receives complaints                            White House officials Miers and Kelley tell
                                                                                                                                                                                                                              from DOJ agencies about                               McKay that Washington State Republicans
                                                                                                                                                                                                                              McKay’s advocacy                                      were displeased with his handling of the voter
                                                                                                                                                                                                                              concerning LInX                                       fraud allegations
                               CHAPTER NINE
                                JOHN MCKAY

I.    Introduction

      This chapter examines the removal of John McKay, the former United
States Attorney for the Western District of Washington.

      A.    McKay’s Background

      McKay graduated from Creighton University Law School in 1982. From
1982 to 1989, he worked in a private law firm in Seattle, Washington. He was
named a White House Fellow in 1989 and served as a Special Assistant to FBI
Director William Sessions until 1990. In 1990 McKay returned to private law
practice in Seattle, where he remained until 1997 when he was named
President of the Legal Services Corporation. He served in that position until he
became the U.S. Attorney for the Western District of Washington. McKay was
nominated on September 19, 2001, confirmed by the Senate on October 24,
and sworn in as U.S. Attorney on October 30, 2001.

            1.     The EARS Evaluations of McKay’s Office

        McKay’s office underwent two EARS evaluations, the first in May 2002
shortly after his arrival as the U.S. Attorney, and the second in March 2006.
The 2002 evaluation was positive, stating that “McKay was setting appropriate
goals and priorities and was doing an outstanding job furthering interagency
cooperation.” The evaluation also stated that “McKay was well respected by his
staff, the judiciary and all the law enforcement and civil agencies.”

      The 2006 evaluation described McKay as an “effective, well-regarded, and
capable leader” of the office and of the local law enforcement community. It
noted that the office had established strategic goals to meet the priorities of the
Department and the needs of the district. The only criticism concerned
McKay’s office’s sentencing practices. The evaluation stated that the office
lacked a uniform procedure for documenting the Criminal Chief’s approval of
motions seeking downward departures in sentencing recommendations where
defendants had provided substantial assistance to the government.

            2.     McKay’s Status on the Removal Lists

      As discussed in Chapter Three, McKay’s name was included on
Sampson’s first removal list which Sampson sent to White House Counsel
Harriet Miers in March 2005. In August 2005 Deputy Attorney General Comey
told Sampson that McKay had been “great on my information sharing project,”
and Sampson took McKay’s name off the next two U.S. Attorney removal lists


                                       247
he sent to the White House in January and April 2006. However, McKay’s
name reappeared on Sampson’s September 2006 list, and it remained there
until McKay was told to resign on December 7, 2006.

      B.    Reasons Proffered for McKay’s Removal

       A variety of reasons were proffered for McKay’s removal. McNulty stated
in a closed briefing to members of the Senate Judiciary Committee in February
2007 that McKay was “enthusiastic but temperamental,” had made promises
that the Department could not support regarding information sharing with
other law enforcement agencies, and was resistant to direction from
Department leadership. McNulty also stated that McKay’s performance was
deficient because his district was not seeking to appeal sentences that fell
below the sentencing guideline range.

      The news media also reported allegations that McKay was removed
because of his alleged failure to investigate claims of voter fraud in the wake of
the 2004 Washington State governor’s race.

      Sampson testified in March 2007 that he believed he included McKay’s
name on the March 2005 list because McKay was overly aggressive in seeking
resources to investigate the 2001 murder of an Assistant U.S. Attorney in
McKay’s district. Sampson also stated that he placed McKay on the
September 13, 2006, list because he perceived that the Deputy Attorney
General’s office was not pleased with the way McKay had tried to force the
Deputy’s hand on an information sharing initiative known as LInX.

      Our investigation examined each of these alleged reasons for McKay’s
removal. In the remainder of this chapter, we describe the facts related to
these issues in chronological order and then provide our analysis regarding the
reasons for McKay’s removal.


II.   Chronology of Events Related to McKay’s Removal

      A.    The Wales Murder Investigation

      As noted above, Sampson testified that he may have identified McKay for
removal on the March 2005 list after Department officials raised concerns
about McKay’s actions in connection with the investigation of the October 11,
2001, murder of Seattle Assistant U.S. Attorney (AUSA) Thomas C. Wales.
Sampson stated that he learned that there had been a conflict between McKay
and former Deputy Attorney General Larry Thompson in which McKay
demanded that Thompson take certain actions concerning the investigation of
the murder.




                                       248
     McKay became U.S. Attorney for the Western District of Washington 6
weeks after the September 11 terrorist attacks and 3 weeks after the murder of
AUSA Wales. Wales, who was a highly regarded and well liked AUSA, was at
home in his basement office when someone shot and killed him through the
basement window.

        McKay said that when he became the U.S. Attorney, Wales’s office was
still surrounded by yellow crime scene tape. Associate Deputy Attorney
General David Margolis had recused McKay’s office from conducting the
murder investigation, and according to McKay that decision was very
controversial. McKay said that the office did not have confidence in the
prosecutor Department officials had initially assigned to the case.

      McKay said that shortly after he arrived as the U.S. Attorney in October
2001, he began to ask Deputy Attorney General Thompson and Thompson’s
senior staff to replace the prosecutor on the Wales investigation. McKay
acknowledged to us that he had several “tense conversations” with Principal
Associate Deputy Attorney General Christopher Wray concerning this issue.
According to McKay, his tenacity paid off and in March 2002 a more
experienced prosecutor was assigned to oversee the Wales murder
investigation.

      McKay also told us that while he was not directly involved in the
investigation of Wales’s murder, he pushed hard for the Department to commit
more resources to the investigation. He said he felt it was his responsibility to
be the conduit between the FBI’s Seattle Division and the Department
concerning the allocation of resources. For example, McKay said that he felt
obligated to raise with Department officials and the FBI issues such as the
number of FBI agents assigned to the investigation and whether it was
appropriate to assign agents from FBI Headquarters or take resources away
from the FBI’s Seattle Division for the investigation. McKay said he thought he
raised the issues in a professional manner, and he said that at no time did
anyone share any concerns with him or otherwise indicate that they thought
his conduct was inappropriate.

      We found little contemporaneous documentation concerning McKay’s
interaction with Department officials regarding the Wales investigation.
However, from interviewing the individuals McKay communicated with in the
Deputy Attorney General’s office concerning the matter, we believe that McKay
accurately described his efforts to obtain more resources. Both Thompson and
Wray described McKay as very aggressive about making certain that adequate
resources were devoted to the investigation.

      Thompson, who served as Deputy Attorney General until October 2003,
said he did not recall any tension between himself and McKay. Thompson told
us that he remembered people on his staff complaining about McKay’s


                                      249
constant pressure and demands for resources. Thompson acknowledged that
on occasion he was irritated with the way McKay complained and pushed for
more resources. Thompson emphasized that McKay did not do anything
inappropriate. Thompson said that while he may have become annoyed with
McKay’s persistence, he was also aggravated by the actions of a number of
other U.S. Attorneys. As he described the situation, it was “not new in the
annals of the Department of Justice [that] a DAG got aggravated with a U.S.
Attorney.” Thompson said he never had any major problems with McKay, aside
from some consternation at the way McKay was pushing the resource issue.
However, Thompson said he did not remember discussing McKay with
Sampson.

       Wray, who served as Thompson’s Principal Associate Deputy Attorney
General, told us that McKay communicated to the Office of the Deputy Attorney
General his perception that the Department did not commit appropriate
resources to the Wales murder investigation. Wray told us that EOUSA
officials and officials in the Deputy Attorney General’s Office considered McKay
to be “high maintenance,” not just about the Wales murder investigation, but
also with respect to other issues. 157 Wray said that when McKay’s office had a
stake in something, McKay approached the issues with a level of intensity that
Wray said was not the norm among other U.S. Attorneys.

       Wray told us that McKay’s behavior was discussed among people in the
Deputy Attorney General’s Office informally in offhand conversation, but there
was never any attempt to formally review McKay’s actions. Wray also stated
that he did not recall ever discussing McKay’s conduct with Sampson.
However, he said that he kept the Attorney General’s Office apprised of the
events concerning the replacement of the prosecutor in the Wales murder
investigation. Wray said that it would not have been unusual to have
discussed his interactions with McKay informally with the Attorney General’s
staff, but he said he had no specific recollection of doing so.

      Margolis said he recalled that McKay was emotional in his interactions
with the Department relating to the Wales murder investigation. However,
Margolis told us that he gave McKay a lot of leeway because he was new to the
Department and in a terrible situation. Margolis said that although he
considered McKay to be extremely pushy, McKay’s conduct was
understandable given the situation in which McKay found himself when he
became U.S. Attorney, trying to lead the office in the aftermath of Wales’s

       157 As an example, Wray cited McKay’s aversion in 2003 to moving the U.S. Attorney’s
Office from commercial space into the courthouse in Seattle. Wray said that McKay’s passion
concerning the move to the courthouse struck him as “out of proportion” to the situation. An
examination of e-mail traffic between McKay, Wray, and former EOUSA Director Guy Lewis
shows that McKay argued with Lewis and Wray concerning the move and wanted the Deputy
Attorney General to intervene.




                                            250
murder and in the wake of the September 11 attacks when resources for
matters other than terrorism investigations were scarce. Margolis also
expressed skepticism to us that Sampson listed McKay for removal in his
March 2005 because of any alleged confrontation with Thompson about the
Wales investigation.

       B.     The Northwest LInX Project

       Despite any differences McKay may have had with some officials in the
Deputy Attorney General’s Office, all of the managers we interviewed agreed
that McKay assumed a valuable leadership role in the Department’s law
enforcement information sharing initiative. McKay told us he became very
interested in information sharing issues early in his tenure as U.S. Attorney.
According to McKay, in 2002-2003 he began working on an initiative with
officials of the Naval Criminal Investigative Service (NCIS) to build a state, local,
and federal law enforcement record sharing program in the Puget Sound area
in Washington.

       McKay told us that by early 2004, NCIS had agreed to fund what
eventually became known as the Northwest Law Enforcement Information
Exchange (LInX) Project. 158 McKay said he enlisted Deputy Attorney General
Comey to support the initiative, reasoning that Comey would have the ability to
direct Department law enforcement agencies to share their records with the
project.

      Comey told us that when McKay explained the LInX program, Comey
thought it could be used as part of the OneDOJ strategy to get Department law
enforcement agencies to share information among themselves and to share
information with state and local law enforcement. During our interview, Comey
described McKay as a “visionary” concerning information sharing, and said
that he wholeheartedly supported McKay’s efforts.

      In early 2005, Comey asked McKay to lead a pilot program in Seattle for
entering DOJ law enforcement information into LInX. Comey said he knew the
program would be controversial, even within the Department, because the law
enforcement agencies did not openly share their information. In April 2005,
Comey issued a memorandum to the Department’s law enforcement agency
component heads designating McKay as the leader of the Northwest LInX pilot
program in Seattle. The memorandum directed Department component heads
to participate in the program and specified deadlines for uploading law

       158  Broadly speaking, LInX provides a searchable database of full text investigative data
from federal, state, and local law enforcement agencies. According to McKay, LInX is designed
to allow law enforcement officials to type in names, places, and events and bring up the actual
law enforcement records containing the search term, similar to a Google-type search on the
Internet.




                                              251
enforcement records into the new system. Comey told us he issued this formal
memorandum because he knew the federal agencies were not enthusiastic
about the LInX program.

      According to McKay, the Department’s law enforcement components did
not fully comply with Comey’s directive. In addition, McKay said that once
Comey announced his resignation in the spring of 2005, the Department
component heads did not seem to consider the LInX project a priority, and
there was no one at the Department who would be firm with the components
about sharing their full text records in the system. McKay said that by the
time McNulty became Deputy Attorney General in late 2005, McKay had begun
to sense that the Department was less than enthusiastic about participating in
the LInX project. We discuss this issue further below.

       C.     The Washington State Gubernatorial Election

       Around the same time that McKay assumed leadership of the Northwest
LInX pilot program in early 2005, McKay’s office also became involved in the
controversy surrounding the Washington State governor’s election. Along with
the general election for federal offices on November 2, 2004, voters in
Washington also elected a governor. The results of the federal contests were
certified soon after the election, but the state gubernatorial result was too close
to call. On November 17, 2004, the initial count indicated that Dino Rossi, the
Republican candidate, received more votes than Christine Gregoire, the
Democratic candidate. Following a recount, Rossi led Gregoire by a smaller
margin than the initial count. A second recount, conducted by hand, resulted
in Gregoire leading by fewer than 200 votes.

              1.      McKay’s Office Initiates a Preliminary Inquiry

       McKay told us that by the end of December 2004, an outside group had
contacted him alleging that the recounts had revealed forged signatures on
provisional ballot affidavits. Contemporaneous e-mails between McKay’s office
and Craig Donsanto, the Director of the Election Crimes Branch of the
Criminal Division’s Public Integrity Section, show that McKay’s office sought
advice concerning whether it could open a federal investigation if the dispute
involved only an election for state office. Donsanto advised McKay’s office
against taking any action to investigate the allegations until the election
authorities had certified the winner of the governor’s race and any ensuing
election contests in state court had run their course. 159


       159 A few days after Donsanto’s advice, an AUSA in McKay’s office distributed a legal
memorandum to McKay and others in the office noting that federal jurisdiction required a
showing that the alleged fraud exposed a federal race to potential harm, while the evidence of
fraud the complainant had provided pertained only to the recount for the state governor’s race.




                                             252
        McKay said he did not fully agree with that advice, and he directed that
the FBI undertake a preliminary inquiry into the allegations of forged
signatures on provisional ballot affidavits. An AUSA in McKay’s office said that
the FBI interviewed the individual who raised the initial complaint but took no
further steps at that time because the election results had not yet been
certified. Rather, McKay’s office advised the complainant to provide any
evidence to the local prosecutor because the dispute concerned the election of a
state official. According to the AUSA, the election was certified on
December 30, 2004, and immediately became the subject of state court
litigation.

      E-mails show that in early January 2005, McKay’s office met with the
FBI and consulted with Department officials to discuss the next steps in the
matter. According to McKay, everyone at the meeting agreed that the
allegations of voter fraud in the state election, without more, did not at that
point provide a sufficient predicate for opening a federal grand jury
investigation. E-mails between Donsanto and the AUSA also show that
Donsanto counseled the U.S. Attorney’s Office to refrain from being proactive
and instead to collect facts and monitor the state court litigation. Donsanto
told us that he gave this advice because he was concerned that the mere fact of
an active federal investigation could be used as fodder in the state election
contest.

       On January 4, 2005, McKay drafted a public statement for use by the
FBI and the U.S. Attorney’s Office in responding to questions concerning the
controversy surrounding the governor’s race. The statement noted that federal
law enforcement officials would receive and evaluate complaints of election
fraud and voting rights abuses, but because the governor’s race was a state
election matter, citizens with information concerning the election should also
provide that information to state officials.

            2.    Telephone Call to McKay from Congressman Hastings’s
                  Chief of Staff

        The same day McKay issued the public statement, Ed Cassidy, the Chief
of Staff to Washington State Republican Congressman Richard “Doc” Hastings,
telephoned McKay to discuss the contested governor’s race. McKay said that
Cassidy began asking him questions about the election and McKay’s potential
investigation, and McKay said he responded with information consistent with
his public statement. McKay said that Cassidy began to say, “You know John,
it’s really important - ” when McKay interrupted him and said, “Ed, I’m sure
you’re not about to start talking to me about the future direction of this case.”




                                      253
According to McKay, he took a very stern tone with Cassidy, and Cassidy
quickly ended the call. 160

      McKay said he immediately discussed the call with the First Assistant
U.S. Attorney and the Criminal Chief, who both said that McKay had handled
the call appropriately. McKay said that they decided that he was not required
to report the call to the Department because Cassidy did not cross the line and
demand that McKay open an investigation. 161

       Cassidy told us that he did not place the call to McKay at the behest of
Congressman Hastings. Rather, Cassidy said that after Rossi had lost the
third recount, Hastings’s constituents and state Republican Party officials
expressed concern and outrage over the election to Hastings’s office. Cassidy
said that as Hastings’s Chief of Staff he was concerned that Hastings not make
inappropriate public statements if in fact there was an ongoing federal
investigation into the election. Cassidy said he called McKay because he did
not want Hastings to make “intemperate remarks” when confronted with
questions concerning the election.

      Cassidy said he explained to McKay his concerns and said that it would
be helpful for him to know whether there was an open federal investigation in
order to determine how Hastings should respond to questions. Cassidy said
McKay provided him with the publicly available information that the U.S.
Attorney’s Office and the FBI were receiving and evaluating complaints.
Cassidy said that when he called McKay he was confident that McKay would
know what the appropriate boundaries were and would ensure that the
conversation did not stray beyond them.




       160 As we discussed in the Iglesias chapter, the U.S. Attorneys’ Manual §1-8.010
requires that congressional contacts with U.S. Attorney’s Offices be reported under certain
circumstances:
       All Congressional staff or member contacts with USAOs or USAO staff including
       letters, phone calls, visits or other means must be reported promptly to the
       United States Attorney (USA), First Assistant United States Attorney (FAUSA) or
       other designated senior staff prior to making any response. All requests for
       information or assistance, except for public information, must also be promptly
       reported to [the Counsel to the Director of EOUSA].
        We did not find that McKay was required under this policy to report Cassidy’s contact.
As McKay described the conversation, he only provided public information in response to
Cassidy’s inquiry and cautioned Cassidy not to request non-public information; Cassidy
refrained from doing so.
       161 McKay told us that he did not document the call, and he heard nothing further
about it until Senate investigators asked him about it prior to his March 6, 2007, testimony
before the Senate Judiciary Committee.




                                             254
       Cassidy said that he asked McKay whether it was likely that there would
be a federal investigation based upon the complaints they were receiving, and
that McKay responded, “I hope you’re not asking me to tell you something that
I can’t tell you.” Cassidy said he told McKay he was not and he ended the call
quickly. Cassidy also said there was nothing difficult or strained about the
conversation, and he had no reason to believe that McKay thought the call was
inappropriate at the time. Cassidy said he did not recall discussing the
conversation with Congressman Hastings or otherwise having any
conversations with anyone about his call to McKay.

       Congressman Hastings told us he did not know how it happened that
Cassidy placed the call to McKay. He said he did not remember telling Cassidy
to call McKay, and he said he could not recall whether Cassidy told him he had
done so. Hastings said that he may have also received constituent complaints
about the election, and that concerns about voter fraud were a frequent topic of
conversation in his district because of the controversy concerning the recounts.
Hastings also told us that he believed that the controversy over the election
was a state rather than a federal matter. Hastings also said that he never
discussed McKay’s performance as U.S. Attorney with anyone at the White
House or at the Department of Justice. When we asked whether Hastings had
any misgivings about the way McKay handled the allegations about the
election, Hastings said, “I never thought anything about it.” Hastings added
that he had no misgivings about McKay.

       As part of his response to the March 2007 disclosure that his Chief of
Staff had telephoned McKay to discuss voter fraud matters in early 2005,
Hastings disclosed that the head of the association that supplied information
concerning allegedly forged signatures on provisional ballot affidavits had
written a letter in July 2005 urging that Hastings tell the White House to
replace McKay for failing to investigate the 2004 governor’s race. Cassidy told
us that Hastings’s office did not respond to the letter. Congressman Hastings
also told us that he would not have called the White House to complain about
McKay because he generally did not get involved in personnel matters in the
Executive Branch. In addition, none of the White House officials we
interviewed said they had any recollection of any such call from Hastings. 162

              3.     Complaints About McKay’s Handling of Voter Fraud
                     Allegations

      By the end of January 2005, McKay had begun receiving complaints
from various individuals and groups about the U.S. Attorney’s Office’s failure to
investigate alleged voter fraud in the 2004 governor’s race. According to e-

       162 However, we were unable to interview several White House officials, including

Harriet Miers and Karl Rove, to ask them what they knew about the matter.




                                             255
mails sent to McKay at the time, political groups forwarded to McKay news
articles about the election and demanded to know why his office was not
investigating the allegations. Consistent with his public statement in early
January 2005, McKay responded that the FBI would consider information
about voter fraud in the gubernatorial election, but it was generally a state
rather than a federal matter.

       According to e-mail and other documents written at the time, throughout
January and February 2005 McKay consulted with experts in his office on
election fraud and directed the FBI to closely examine the state court litigation.
McKay also sought assurance from the AUSAs assigned to election fraud
matters and from the Department that there was no basis for federal
jurisdiction over the allegations of voter fraud.

       According to FBI documents, in a letter dated April 28, 2005, an outside
political group supplied evidence allegedly supporting its theory that
provisional ballot affidavits had been forged. An AUSA in McKay’s office who
reviewed the evidence told us that he concluded that even if the affidavits had
been forged, there was still no basis for federal jurisdiction over the alleged
conduct. The AUSA said that the federal issues on the ballot were not part of
the ongoing litigation, and the conduct affecting the absentee ballots was not
considered state action because it was allegedly undertaken by a political party
rather than a government entity. 163

       As noted above, Sampson identified McKay for removal on the first list he
sent to the White House on March 2, 2005. Comey told us he had met with
Sampson on February 28, 2005, shortly after Sampson became Deputy Chief of
Staff to Attorney General Gonzales, to discuss two issues, one of which was
Comey’s assessment of the strongest and weakest U.S. Attorneys. Comey said
he did not recall any mention of McKay or of the Washington State governor’s
race during that conversation.

       Beginning in April 2005 and continuing throughout 2006, McKay
received a steady stream of complaints concerning the perceived inaction of the
U.S. Attorney’s Office in investigating voter fraud complaints. Several
complaints about McKay were also sent to Department officials. Sampson told
congressional investigators he did not recall seeing any letters to Department
officials complaining about McKay’s purported refusal to open an investigation
into the voter fraud allegations during the time Sampson served in the Attorney
General’s Office.

        163 According to the AUSA, the association reported the conduct to the petitioners in

the state court case, who in turn decided not to pursue the evidence on the ground that they
perceived the handwriting analysis to be unreliable.




                                             256
       The trial in the state court election contest began on May 23, 2005. The
court dismissed the action on June 6, 2005, finding that there was no evidence
that fraudulent conduct had influenced the election outcome.

        According to his contemporaneous e-mail and other documents we
reviewed, McKay directed his AUSAs to closely monitor the state court litigation
and follow up with the petitioners’ investigators in order to determine whether
there was a basis for federal involvement once the state process had concluded.
McKay directed the AUSAs to monitor the petitioners’ argument that
Democrats had stuffed ballot boxes and said, “If they have evidence of these
new claims, we will need to see it immediately.” One of the AUSAs involved in
the review said that when he asked the petitioners’ investigators whether they
had any direct evidence of fraud beyond what was presented at the state court
trial, they told him they had no proof of anyone stuffing a ballot box. The
petitioners’ investigators also said they did not pursue the forged signatures
issue because they did not believe the handwriting analysis was reliable and
they said they had no specific evidence of anyone stealing votes.

       In March 2006, the Department officially closed the matter.

              4.     Statements of Department Officials

       We were unable to determine exactly how the allegation that McKay was
put on the removal list for his alleged failure to prosecute voter fraud first
arose. 164 When we asked Sampson whether he included McKay on his first list
in March 2005 because of complaints about McKay’s handling of voter fraud
matters, Sampson told us that he did not believe he did so, and he also said he
did not remember the issue being connected with McKay being asked to resign.
Sampson told us that at some point he learned that people were critical of
McKay for not getting into the middle of the controversy over the 2004
Washington State governor’s race, but said he could not remember when he
learned that.

       Both Gonzales and McNulty said that they did not recall hearing any
criticism or complaints about McKay’s handling of the voter fraud allegations.
In addition, Comey told us he did not remember hearing anything negative
about McKay concerning the governor’s race. Similarly, none of the other
Department managers we interviewed said they recalled hearing any concerns
about the way McKay handled the allegations of voter fraud.


       164 It appears that this allegation was first raised in a newspaper article. On
February 16, 2007, the Seattle Times reported a rumor in Seattle that the Department forced
McKay to resign because he failed to investigate allegations of voter fraud. Congressman John
Conyers mentioned the article during McKay’s March 6, 2007, testimony before the House
Judiciary Committee.




                                            257
      D.     2006 LInX Issues

      In August 2005, just prior to Comey’s departure, Sampson sought his
assessment of certain U.S. Attorneys whose terms were expiring, including
McKay. According to a contemporaneous e-mail from Comey, he told Sampson
he agreed with one of Sampson’s assessments and stated he had no strong
views on the others, with the exception of McKay. Comey stated, “McKay has
been great on my information sharing effort.” 165

      In the fall of 2005, McKay was appointed to chair the Regional
Information Sharing Working Group, a subcommittee of the Attorney General’s
Advisory Committee (AGAC). In that role, McKay began traveling around the
country giving presentations about the benefits of LInX to other U.S. Attorneys.

      According to Mercer, who was Principal Associate Deputy Attorney
General at the time, in early 2006 the Deputy Attorney General’s Office became
concerned that McKay was advocating LInX as the Department’s only
information sharing initiative when it was one of several different information
sharing initiatives used in U.S. Attorneys’ districts nationwide. Mercer said in
early 2006 the Deputy Attorney General’s Office received complaints from
Department law enforcement components that McKay was traveling around the
country endorsing what was viewed as a Navy-funded system for nationwide
use even though other U.S. Attorneys’ districts used different information-
sharing programs. However, we found no evidence that anyone shared those
complaints with McKay.

       McKay acknowledged that he presented LInX to other U.S. Attorneys and
federal law enforcement entities in the districts as the Department’s national
information sharing vision. McKay told us that at the time he was unaware of
the complaints or that the Department did not want to endorse any particular
system. McKay said that he believed the other information systems were
fundamentally different from the LInX program. McKay also said that through
mid-2006, no one in the Department’s leadership offices told him they
disagreed with his assessment of LInX or indicated they wanted to go in a
different direction on a national information sharing system.

       In addition, McKay said that during a meeting with Pentagon officials on
April 27, 2006, McNulty led him to believe that McNulty fully supported LInX
as the Department’s nationwide information sharing program. McKay said
McNulty indicated to Department of Defense officials at the meeting that he
fully supported LInX, including full text information sharing and robust
participation by the Department law enforcement components. McKay said he

      165 Sampson removed McKay’s name from the second removal list in January 2006.

McKay’s name did not reappear on another removal list until September 2006.




                                         258
came away from the meeting with the view that McNulty would soon draft a
letter to the Deputy Secretary of Defense accepting an offer the Department of
Defense made to help establish the LInX program in a second district and to
partner with the Departments of Justice and Homeland Security to expand
LInX nationwide.

       McNulty, however, told us the issue was not as simple as McKay seemed
to believe. McNulty noted that there were other types of information sharing
systems used in other areas of the country, and he was attempting to address
the complexities of a broader multi-law enforcement agency information
sharing concept. McNulty said that several groups, including the Navy, had
different agendas for information sharing with the Department, and he was
attempting to address conflicting concerns, such as the extent to which the
Department should open its records to outside entities. McNulty said he
discussed with his staff the technology issues involved in information sharing,
and they concluded that the Department needed to remain neutral about
which systems it used.

            1.    Contentious Meeting with McNulty and Mercer

      McKay said that by the end of June 2006, he was concerned about the
Department’s inaction in endorsing LInX over other information sharing
systems. According to McNulty and Mercer, the matter came to a head on
June 30, 2006, when McNulty, Mercer, and McKay had what McNulty
described as an intense meeting with McKay to discuss the future of LInX.

      McNulty said that McKay expressed very strong views as to how the
Department’s information sharing strategy should proceed. McNulty told us
that McKay refused to acknowledge what McNulty described as the
complexities of the issue. McNulty said he became frustrated trying to get
McKay to understand that there were many factors involved in developing a
national information sharing strategy. According to McNulty, he tried to
explain to McKay that there were other types of information sharing systems
being used across the country and it was important to be neutral about a
particular technology. McNulty said McKay persisted in trying to persuade
McNulty to endorse LInX as the sole information sharing program for the entire
Department. McNulty told us that he also described to McKay one Department
law enforcement component’s unease about sharing its law enforcement
records with local law enforcement because those records contained sensitive
source information and leads in cases, but McKay did not seem concerned
about that. According to McNulty, McKay was not in a position to appreciate
the complexities because he was not seeing the issues from a national
perspective.

      Mercer described McKay’s conduct at the June 30 meeting as “hostile”
and “confrontational,” and said he believed McKay crossed over the line from


                                      259
healthy discussion to accusing McNulty of failing to do anything to advance the
LInX program. Mercer told us that he thought the meeting was a very
significant event in terms of how McNulty perceived McKay. Mercer said
McKay acted as though he were the decision maker concerning how the
Department’s information sharing program should proceed. Mercer also said
that McKay did not seem to appreciate that it was up to McNulty to figure out a
way to harmonize all of the different interests of the Department and come up
with a coherent information sharing policy. Mercer acknowledged, however,
that neither he nor McNulty warned McKay about his conduct either at the
meeting or afterward.

       McKay agreed that the meeting was intense, and said that he bluntly laid
out his concerns that the Department’s law enforcement components were not
providing full information for the existing LInX programs and that McNulty had
not followed up with the Department of Defense on its offer to contribute
additional funding for new LInX systems. McKay said that he came away from
the meeting still believing that the Department was going to move forward with
LInX nationwide in partnership with the Department of Homeland Security and
the Department of Defense. According to McKay, neither McNulty nor his staff
informed him that the Department was going in a different direction and would
not be endorsing LInX as the Department’s sole information sharing initiative.

            2.    McKay’s Bid for a Judicial Nomination

      During the summer of 2006, McKay sought a judicial nomination to the
federal district court in Seattle, and the Department supported his nomination.
Sampson wrote in an August 8, 2006, e-mail to one of McKay’s U.S. Attorney
colleagues, “It’s highly unlikely we could do better in Seattle.” Sampson also
wrote that on behalf of Attorney General Gonzales he had raised the issue of
McKay’s nomination to the White House. Sampson said he viewed the job of
U.S. Attorney as different from the job of a judge. Sampson stated that he
liked McKay personally and thought McKay was “a personable guy.” Sampson
also said he “was always disposed for prosecutors to go on the bench.”

       However, the Washington state judicial selection panel did not
recommend McKay for the judgeship. McKay said that after learning he had
not received the recommendation, he called Harriet Miers, whom he knew from
his tenure as President of the Legal Services Corporation. On August 22, 2006,
McKay met with Miers and Deputy White House Counsel William Kelley about
his interest in being selected for the judicial vacancy. McKay told us that he
found out at this meeting that the White House Counsel’s Office had been told
that McKay had mishandled the investigation of voter fraud allegations
stemming from the 2004 governor’s election. According to McKay, the first




                                     260
question Miers and Kelley asked him at the meeting was why Republicans in
the state of Washington were angry with him. 166

                3.     McKay’s August 30 Letter to McNulty

       E-mail and other documents indicate that at the end of the summer
2006, tensions between McKay and members of the Deputy Attorney General’s
staff had continued to build over the LInX issue. On August 30, 2006, McKay
prepared a letter he drafted to McNulty on behalf of the AGAC Regional
Information Sharing Working Group. The letter, which contained the
signatures of 17 U.S. Attorneys in addition to McKay, included a request that
McNulty meet with the group. It also stated,

       As the Department’s “Field Commanders,” we United States
       Attorneys believe that the LInX approach offers the best, most
       complete and proven path to real and effective law enforcement
       information sharing among federal, state, and local partners. 167
The letter urged McNulty to endorse the LInX approach, support its expansion
nationwide, mandate that DOJ law enforcement components share the full text
of unclassified law enforcement records, and “direct DOJ policy and resources
to support building, funding and management of LInX projects in partnership”
with other agencies.

      McKay told us he drafted the letter because he thought it would be
useful to McNulty to have the views of the other U.S. Attorneys in the working
group. McKay said he did not think the letter was controversial because he
had the impression that McNulty had already agreed to the points in the letter.
McKay said he reasoned that McNulty could use the letter to address any
contrary arguments from the law enforcement components because McNulty
could tell the components that he was responding to the concerns of
Presidentially appointed U.S. Attorneys.

       On August 31, 2006, McKay distributed the letter via e-mail to
approximately 50 people, including U.S. Attorneys and Justice Department
officials involved in the information sharing program, as well as to individuals
at NCIS, state and local government officials involved in Northwest LInX, and
an individual in the private sector involved in developing the LInX concept.
McKay said he sent the letter to the non-Department individuals because they
were either parties to the Memorandum of Understanding between the
Department and the Northwest LInX Governance Board, or they had otherwise

       166   As noted previously, both Miers and Kelley refused our request for an interview.
       167  This letter came shortly after a letter McNulty had received on August 27 from NCIS
and local law enforcement leaders of Northwest LInX complaining about some federal law
enforcement agencies’ failure to share agency records.




                                               261
worked with NCIS to develop the strategic plan for LInX. McKay said the non-
Department officials whom he copied on the letter were “deeply involved” in the
question of how much data the Department would provide. McKay said it was
not his intention to put McNulty in a difficult position by copying the letter to
the non-Department entities involved in LInX.

            4.    McNulty’s Response to McKay’s letter

       In an e-mail on August 31, 2006, to Elston, McNulty’s Chief of Staff, a
detailee in the Deputy Attorney General’s Office expressed outrage that the
letter, which he characterized as an “internal deliberation” document, was
shared with individuals outside of the Department of Justice. Elston
telephoned McKay on September 1. According to McKay, Elston was extremely
upset about the letter. McKay said he was alarmed and surprised to get the
call because he had thought the letter would be well received based on his prior
conversations with McNulty. McKay also said he did not believe the letter
would be controversial because he had discussed the issues in the letter on
numerous occasions with McNulty and McNulty had not disagreed with him.

       McKay said that Elston accused him of trying to force McNulty to
endorse LInX. McKay said he explained the issues to Elston and noted that the
letter had been signed by all of the U.S. Attorneys in the Working Group.
McKay said that Elston was also very angry that the letter had been distributed
outside the Department. McKay acknowledged to Elston that the letter was
sent to individuals outside the Department, but said that those individuals
were involved in the Northwest LInX project, and it was not intended to be
distributed to the general public. McKay said that by the end of his
conversation with Elston he thought he had reassured Elston by explaining
that the working group did not want to put McNulty in a difficult position but
was only trying to voice the working group’s concerns. McKay said he also
noted that in the letter the U.S. Attorneys had asked for a meeting with
McNulty to discuss the issues. Elston told McKay that he would talk to
McNulty and would be back in touch with him. According to Elston, McNulty
decided to “wait things out” before agreeing to meet with the U.S. Attorneys.

      On September 5, 2006, McNulty wrote an e-mail to the U.S. Attorneys
who signed the letter, stating “I am quite disappointed that you have chosen to
communicate with me in this way. It appears that you are trying to force me to
take some specific actions.” McNulty wrote that the letter was “particularly
distressing because it is shared with folks outside the Department. This is not
the way we should be working through difficult issues.” McNulty also wrote,
“There are other important considerations involved in this matter. Does
anyone see the problem with the Department endorsing a specific brand of info
sharing when there are other types being used with success in various
regions?” McNulty wrote that “it is best to talk these things through a bit
before laying down a challenge in writing which will set the Department up for


                                      262
failure.” McNulty ended the message by stating, “I look forward to meeting
with the working group, although now it will be a more challenging
conversation.”

      McKay said McNulty’s e-mail “scared the hell out of everybody.” McKay
said that given the prior telephone call from Elston, he was not completely
surprised by McNulty’s e-mail. However, McKay said that McNulty’s e-mail
expressed views that were inconsistent with conversations he had previously
with McNulty about the information-sharing initiative. McKay said he had
briefed McNulty in great detail at the June 30 meeting concerning what McKay
perceived to be the inadequacies of the other information sharing systems, and
he thought McNulty had agreed with him. McKay also said that McNulty had
never given him any indication that other information systems were still a
concern until he received McNulty’s September 5 e-mail. McKay said that in
his opinion, up to that point there was never truly a policy disagreement
between McKay and Department leaders over LInX. 168

      E.     McKay Appears on the September 2006 Removal List

      On September 13, 2006, 8 days after McNulty sent his e-mail to the U.S.
Attorneys, McKay’s name reappeared on Sampson’s list of U.S. Attorneys the
Department recommended removing. Sampson listed McKay as one of six
“USAs Who We Now Should Consider Pushing Out.”

      Sampson said that he put McKay on the September 13 list because
McNulty’s office was unhappy that McKay had tried to force McNulty to act on
the LInX matter. Sampson added that McKay’s conduct in connection with the
LInX matter had irritated McNulty and Elston. Sampson said it was likely he
had learned from McNulty and Elston at the daily senior management meetings
about McKay’s August 30 letter.

      McNulty told us he likely expressed his frustration to Sampson about the
way McKay was handling the LInX matter. However, McNulty told us he did
not instruct Sampson to put McKay on the removal list. McNulty also said that
he was prepared to work with McKay to resolve the issues. McNulty said that
despite his frustration with McKay at the time, if Sampson’s removal plan had
not been initiated, McKay’s conduct would not have warranted his removal.

       As discussed in Chapter Three, McNulty did not become aware until the
late fall of 2006 that McKay’s name was on a list of U.S. Attorneys to be
removed. McNulty said he was “predominantly deferential” to Sampson as the
Department’s personnel official who decided who to remove. McNulty said his

      168   McKay noted that in January 2007 the Department of the Navy awarded McKay its
highest civilian award, the Distinguished Public Service Award, for innovation in law
enforcement leadership, based on his work promoting LInX.




                                           263
first reaction, after being surprised that the U.S. Attorney removal plan was
going to be implemented, was to ask himself if he had any objection to the
names. He said he did not object to McKay’s name on the list because he had
questions about McKay’s judgment in light of the way McKay had handled the
LInX matter.

      F.    McKay is Told to Resign

       McKay said he was very surprised when EOUSA Director Battle called
him on December 7, 2006, and told him to resign. McKay said Battle told him
that “‛the Administration wants to go in a different direction and they would
like you to resign.’” McKay said he asked Battle what had happened and Battle
told him he could not provide him with any further information.

       McKay said Battle indicated that he should resign by the end of January.
McKay said that although he immediately assumed he had done something
wrong, he readily dismissed that from his mind because nothing had happened
other than the LInX matter, and he said he never dreamed that that would be
the cause for his dismissal. McKay said that he began to press Battle about
whether he had done something wrong. Battle responded with words to the
effect that “someone getting a call like this one is going to assume that they
have done something wrong and that’s not always the case.” McKay said that
during the call they did not discuss any issues concerning policy or
performance or any other reason for his removal.

      Battle confirmed McKay’s account of the conversation. He said McKay
asked Battle if he had done anything wrong and Battle responded that he was
not in a position to tell him. Battle told us he did not know the reason why
McKay had been asked to resign.

       McKay told us that he believed he was still in the running to be a federal
judge when he received the December 7 telephone call from Battle, but that as
soon as he received the phone call he knew he would not be nominated.
McKay said that a few days after Battle told him to resign he received a phone
call from the White House stating that he was not going to receive the judicial
nomination.

     McKay announced his resignation on December 14, 2006, and left office
on January 26, 2007.

      G.    Allegation that McKay was Removed Because His District’s
            Sentencing Statistics Were Out of Line

       As discussed in Chapter Three, on February 14, 2007, McNulty provided
a closed briefing for the Senate Judiciary Committee. According to notes taken
by Nancy Scott-Finan, an official in the Department’s Office of Legislative
Affairs, McNulty stated that one of the reasons for McKay’s removal was that


                                       264
sentencing statistics of the Western District of Washington were out of line with
other districts and the office was not seeking to appeal sentences that were
below the relevant ranges in the United States Sentencing Guidelines.

       Sampson told us that although he put McKay on the September 13 list
because of his behavior related to the LInX matter, the sentencing issues were
another concern in Sampson’s mind that justified McKay’s removal. Sampson
also told congressional investigators that he recalled hearing concerns from
Mercer about McKay’s district’s sentencing practices, although Sampson said
he could not recall when the discussion took place. 169 Sampson said he
recalled discussing with Mercer the concern that McKay’s office never sought to
appeal downward departures that resulted in lesser sentences than called for
under the sentencing guidelines.

      Mercer told us that McKay’s district’s sentencing statistics could not
have become an issue until well after the Supreme Court decided United States
v. Booker, 543 U.S. 220 (2005) on January 12, 2005. 170 Mercer said that after
that decision, in contrast to other districts McKay’s district was not asking the
Department’s Solicitor General to authorize appeals in cases with major
downward departures.

      Mercer stated that he did not learn about McKay’s district’s sentencing
issues until sometime in 2006 after the data from the Sentencing Commission
was released for fiscal year 2005. Mercer said that he never contacted McKay
about any concerns relating to sentencing issues in McKay’s district, and he
had no idea whether anyone else at the Department spoke to McKay about the
concern.

      McKay told us that he was never made aware that the Department was
concerned about his office’s sentencing statistics. McKay said he never had a
conversation with anyone in Department leadership about the issue, and had
no idea that anyone had expressed a concern that he was not complying with
Department policy. McKay testified to Congress that the first he learned about
the Department having such concerns was in Moschella’s testimony before
Congress on March 6, 2007, after McKay had been removed.



         169 Sampson acknowledged that any discussions he had with Mercer concerning

McKay’s district’s sentencing practices would have occurred at the earliest during the summer
of 2005, after McKay’s name initially appeared on the first list of U.S. Attorneys whom the
White House might consider for removal. McKay’s name was taken off subsequent removal
lists, and did not reappear on the removal list until a few days after McKay sent the August 30,
2006, LInX letter to McNulty.
       170 In that case, the Supreme Court held in part that the sentencing guidelines were

advisory rather than mandatory.




                                             265
      Margolis told congressional investigators that it was only after McKay
was asked to resign that Margolis became aware of any concern regarding
McKay’s district’s sentencing practices. Rather, according to Margolis, after he
learned in late 2006 that McKay was going to be removed, Mercer told him
McKay was on the list because he had acted like a bully when he tried to use
other U.S. Attorneys to unfairly pin the Deputy Attorney General into a corner
on an information sharing project.


III.   Analysis

       The most serious allegation related to McKay’s removal was that he was
forced to resign because of complaints about his handling of allegations of voter
fraud in the closely contested Washington State gubernatorial election in 2004.
Sampson included McKay’s name on his first removal list in March 2005,
during the controversy about McKay’s handling of the voter fraud allegations.
However, Sampson stated that he did not believe he placed McKay’s name on
this list because of anything related to voter fraud allegations, and none of the
other Department officials we interviewed said they recalled hearing any
concerns about the way McKay handled such allegations.

      Sampson took McKay’s name off his next two removal lists, in January
and April 2006, but subsequently put McKay back on the list in September
2006. McKay remained on subsequent removal lists and on December 7, 2006,
was told to resign.

      As discussed below, we were not able to conclude, based on the evidence,
whether complaints about McKay’s handling of voter fraud cases either did or
did not contribute to his removal as U.S. Attorney. However, the evidence
suggests that the primary reason for McKay’s removal was his clash with
Deputy Attorney General McNulty over the LInX information-sharing program.

       A.   Voter Fraud Complaints

        McKay was included on Sampson’s first removal list, which he sent to
the White House on March 2, 2005, the same time as the controversy about
voter fraud allegations connected to the 2004 Washington State governor’s
election. Sampson stated that he did not believe he put McKay’s name on this
first list because of McKay’s handling of these voter fraud issues. Rather,
Sampson said he believed he placed McKay’s name on this list based on
McKay’s contentious relationship with the Deputy Attorney General’s Office
over the Wales murder investigation.

      In August 2005, Deputy Attorney General Comey spoke very highly of
McKay to Sampson, praising McKay’s work on an information sharing project
called LInX and calling McKay a “visionary” for his work on that project. After



                                      266
Comey’s comments to Sampson, McKay did not appear on Sampson’s next two
removal lists, in January 2006 and April of 2006.

       McKay’s name reappeared on Sampson’s September 2006 list. Sampson
told us that he placed McKay on the September 2006 list because McNulty’s
office was unhappy that McKay had tried to force McNulty to act on the LInX
information-sharing matter.

       McKay told us that White House Counsel Miers and Deputy White House
Counsel Kelley told him at a meeting in August 2006 – a few weeks before
McKay’s name was placed back on the list – that Washington State
Republicans were displeased with his handling of the voter fraud allegations.
This suggests that someone complained to White House officials about the way
McKay handled the allegations, but we do not know what impact any such
complaints had on McKay’s removal. Sampson told us he remembered hearing
complaints at some point about McKay’s handling of the voter fraud issues,
although he did not remember when or who raised the complaints. As noted
above, key White House officials such as Rove, Miers, and Kelley declined to be
interviewed by us.

      In sum, we could not determine whether complaints to the White House
about McKay’s handling of the voter fraud allegations stemming from the 2004
Washington State gubernatorial election contributed to his placement on the
removal list, particularly without interviews of relevant White House officials.

      B.    Wales Murder Investigation

       Sampson told congressional investigators that he believed he had initially
included McKay’s name on his first removal list in March 2005 because McKay
was overly aggressive with Deputy Attorney General Thompson in seeking
resources to investigate the 2001 murder of AUSA Wales. However, we did not
find significant corroboration for Sampson’s claim. First, Thompson said he
did not recall any tension between himself and McKay on this issue. While
Thompson said he remembered people on his staff complaining about McKay’s
constant demands for additional resources for the case, Thompson also
emphasized that McKay did not do anything inappropriate in connection with
the Wales case.

      Other Department managers we interviewed said that McKay was very
aggressive about seeking additional resources for the Wales investigation and
in seeking to replace the prosecutor originally assigned to the Wales
investigation. Several officials told us that McKay was pushy and tended to
complain a lot. Yet, we found no evidence that anyone suggested to Sampson
that McKay should be removed because of his actions in the Wales case, and
no one ever said to McKay that anything he did in advocating for more
resources in the Wales case was inappropriate.



                                      267
      If Sampson’s statement about why he put McKay on the list is accurate,
we find it troubling that McKay’s aggressive push for resources in the
investigation of the murder of an AUSA from his office would result in his
placement on a removal list. As Associate Deputy Attorney General Margolis
stated, McKay’s conduct was understandable given the situation in which
McKay found himself when he became U.S. Attorney – trying to lead the office
in the aftermath of Wales’s murder and in the wake of the September 11
attacks when resources for matters other than terrorism investigations were
scarce. Deputy Attorney General Thompson also said that while he may have
become annoyed with McKay’s persistence, he was also aggravated by a
number of other U.S. Attorneys.

      McKay’s inclusion on the removal lists also underscores the fundamental
problem with the entire removal process: the Department’s failure to use
consistent or transparent standards to measure U.S. Attorney performance and
to determine whether a U.S. Attorney should be recommended for replacement.
Instead, Sampson talked to a few people about who they thought were strong
or weak U.S. Attorneys, and he relied on their impressions and comments
about various U.S. Attorneys, without any attempt to corroborate the
comments, seek alternative views, systematically evaluate the U.S. Attorneys’
performance, or even allow the U.S. Attorneys to respond to any concerns
about their actions. The ad hoc nature of Sampson’s lists and Sampson’s
claim, if true, about why McKay’s name appeared on the first list – allegedly for
being too aggressive in seeking resources for an investigation of the murder of
an AUSA – demonstrated the fundamentally flawed and subjective process he
used to create these lists.

      C.    Sentencing Statistics

       We also did not find any evidence to support the claim, first raised in
McNulty’s closed briefing to the Senate Judiciary Committee, that McKay was
removed because his district’s sentencing statistics were out of line with other
districts. No one raised this issue with McKay while he was U.S. Attorney, and
this issue did not appear to come to light within the Department as a concern
until after McKay had been removed. Although Mercer said he was aware
sometime in 2006 that McKay’s district’s sentencing statistics were below par,
we found no evidence that any other Department manager was concerned
about it, discussed it among themselves, or raised it with McKay.

      In sum, this purported reason appears to be another after-the-fact
rationalization for why McKay was included on the removal list. We believe
that raising this claim in the briefing to Congress was misleading and cast
further doubt on the Department’s credibility in providing the real reasons for
the removals of the U.S. Attorneys.




                                      268
     D.    LInX

       Sampson told us that he placed McKay on the September 13 list because
McNulty’s office was unhappy that McKay had tried to force McNulty to act on
the LInX information sharing system. Sampson told us that McNulty was
irritated by McKay’s August 30 letter urging McNulty to adopt LInX as the
Department’s sole information-sharing program. The letter, signed by 17 U.S.
Attorneys in addition to McKay, was disseminated inside and outside the
Department. The timing of McKay’s placement on the September 13 list – only
a few days after the controversy about his actions concerning LInX arose –
supports Sampson’s explanation for placing McKay on this removal list.

      McNulty said he likely expressed his frustration to Sampson about the
way McKay had handled the LInX matter in late August 2006. McNulty also
told us he would not have recommended McKay’s removal because of the LInX
issue, but he did not say that to Sampson. Moreover, once McNulty learned
about the removal plan in late October 2006 and saw McKay’s name on the list,
he did not tell Sampson to take McKay’s name off the list.

       In sum, we believe the evidence suggests that Sampson placed McKay on
the list for removal because of his actions in the LInX matter. However, the
Department’s various descriptions of why McKay was removed severely
undermined its credibility when it tried to explain its actions.




                                    269
[PAGE INTENTIONALLY LEFT BLANK]




             270
                                                                                                                                                                                                                                               Jun 1, 2006                                                       Jun 5, 2006
                      Carol Lam Timeline                                                                                                                           Oct 20, 2005                                                                Sampson sends an e-mail to Mercer and Elston saying that          Mercer sends an e-mail to McNulty saying
                                                                                                                                                                                                                                               “the AG . . . believes we should adopt a plan” regarding Lam.     that the AG wants his views on the plan
                                                                                                                                                                   19 Members of Congress write                                                Sampson lays out the elements of the plan in the e-mail.          regarding Lam
     Nov 2002                                                                                                                                                      Gonzales regarding prosecution of
                                                                                                                                                                   alien smuggling, citing Lam's office
                                                                                                                                                                                                                                                                                                                                 Jul 5, 2006
     Lam Events
     and Actions                                                                                                                                                                                                                          May 11, 2006                                                                           Mercer asks Lam to verify sentencing statistics
                                                                                                                                                              Sep 23, 2005                                                                                                                                                       regarding gun and immigration offenses
                                                                                                                                                                                                                                          Sampson sends an e-mail to Deputy White House
                                                                                             Nov 2004                                                                                                                                     Counsel Kelley saying that “the real problem we have                                                                                                     Dec 7, 2006
                                               Apr 2004                                                                                                       19 Members of Congress write the
                                                                                                                                                                                                                                          right now with Carol Lam . . . leads me to conclude that
                                                                                             Sampson prepares a memorandum that Lam’s                         President regarding prosecution of                                                                                                                                   Jul 10, 2006                                                    Lam is told to resign
                                               Lam’s first discussion with                                                                                                                                                                we should” replace her
                                                                                             office compares poorly with other southwest                      alien smuggling, citing Lam's office
                                               Comey about gun prosecutions                                                                                                                                                                                                                                                        Lam's memo in response is provided to an intern for
                                                                                             border USAOs' immigration prosecutions
                                                                                                                                                                                                                                                                                                                                   analysis but the intern states that he lacks the expertise                     Jan 16, 2007
                                                                                                                                                                                                                                                                                                                                   to assess Lam's explanation; no analysis of Lam's
                                                                                                                                              Mar 2, 2005                                                                         Feb 2006                                                                                         response is conducted                                                          Lam announces her resignation
Nov 12, 2002                                                       Jul 2004                                                                   Lam is included on Sampson’s                                                        ODAG prepares a memorandum regarding some USAOs’
                                                                                                                                              first removal list                                                                  poor gun prosecution statistics, including Lam's office. Lam
Lam is confirmed by the Senate as                                  Lam’s second discussion with                                                                                                                                                                                                                                                 Aug 2, 2006                                                                            Feb 15, 2007
                                                                   Comey about gun prosecutions                                                                                                                                   is not contacted concerning this memo.
the U.S. Attorney, Southern District
                                                                                                                                                                                                                                                                                                                                                Lam meets with Representatives Issa and                                                Lam leaves office
of California
                                                                                                                                                                                                                                                                                                                                                Sensenbrenner regarding immigration prosecutions


Nov 2002       Dec 2002           Feb 2004       Mar 2004     Apr 2004           Jul 2004       Aug 2004         Nov 2004      Dec 2004         Feb 2005      Mar 2005            Sep 2005       Oct 2005   Nov 2005   Dec 2005     Jan 2006       Feb 2006       Mar 2006      Apr 2006         May 2006      Jun 2006        Jul 2006        Aug 2006       Sep 2006     Oct 2006      Nov 2006       Dec 2006       Jan 2007      Feb 2007



                                                                                                                                                                                                                                                         Apr 6, 2006
               Feb 2, 2004                                                    Jul 30, 2004                                   Feb 2005                                             Oct 13, 2005                                                                                                                     Jun 15, 2006                           Aug 23, 2006                                    2007
                                                                                                                                                                                                                                                         House Judiciary Committee holds an
               Representative Issa writes to Lam                              14 Members of Congress write Ashcroft          An EARS team evaluates Lam’s office and              Representative Issa                                                                                                              Senator Feinstein writes               OLA responds to Senator Feinstein's             CIA official Foggo is
                                                                                                                                                                                                                                                         oversight hearing during which
               regarding lack of prosecution of alien                         regarding Lam's prosecution of alien           reports issues with guns and immigration             writes Lam regarding                                                                                                             Gonzales regarding immigration         letter, citing Lam’s explanations of            indicted by Lam's office
                                                                                                                                                                                                                                                         Representative Keller criticizes Lam to
               smuggling cases                                                smuggling case                                 cases                                                a criminal alien case                                                                                                            prosecutions in Lam's office           her office’s enforcement strategy
                                                                                                                                                                                                                                                         Gonzales



                                                                                                                                                                                   Nov 2005                                                                                       May 22, 2006
                                                                                                                                                                                   Representative Cunningham                                                                      Representative Issa criticizes Lam on national
  Nov 2002                                                                                                                                                                         pleads guilty                                                                                  television regarding alien smugglers

  DOJ and Other
  Events and Actions
                                CHAPTER TEN
                                 CAROL LAM

I.    Introduction

      This chapter examines the removal of Carol Lam, the former United
States Attorney for the Southern District of California.

      A.    Lam’s Background

      Lam received her law degree in 1985 from the Stanford University Law
School. She then served as a clerk for a judge on the Second Circuit Court of
Appeals. After her clerkship, Lam served as an Assistant United States
Attorney (AUSA) in the Southern District of California from 1986 to 2000. In
2000, Lam was appointed as a California Superior Court judge.

       In 2001, Lam applied for the position of U.S. Attorney and was
interviewed twice at the Department. Lam described herself as “non-partisan”
and told us she is not a registered member of any political party. Lam stated
that during her second interview she believed that the interviewers asked for
assurances that she supported the Department of Justice’s policies in light of
the fact that she was not a Republican. Lam said she told the interviewers that
she believed that “it is a responsibility of a U.S. Attorney to effect the Attorney
General’s guidelines in a way that makes sense in the district.”

     After her second interview, Kyle Sampson, Chief of Staff to the Attorney
General, called her and offered her the position. Lam said she commented to
Sampson that she had not “made things easy by virtue of the fact that I was a
non-partisan.” According to Lam, Sampson did not respond to her remark.

     On November 18, 2002, Lam was sworn in as the U.S. Attorney for the
Southern District of California. She was told to resign on December 7, 2006,
and her last day in office was February 15, 2007.

      B.    The EARS Evaluation of Lam’s Office

       Lam’s office underwent one EARS evaluation during her tenure as U.S.
Attorney in February 2005. The EARS evaluators wrote that Lam was “an
effective manager . . . respected by the judiciary, law enforcement agencies,
and the USAO staff.”

       The EARS evaluation, however, noted concerns about the U.S. Attorney’s
Office (USAO) prosecution of firearms and immigration cases. The report
stated: “The USAO intake and initial processing of criminal cases worked
smoothly except for firearms cases . . . . The number of firearms cases


                                       271
prosecuted by the USAO was well below the national average and well below
the average of other USAOs in California.” The EARS evaluation also stated:
“[T]he number of immigration cases handled per AUSA work year was
statistically lower than the immigration cases handled per AUSA work year in
the other Southwest Border USAOs.”

      C.    Lam’s Status on the Removal Lists

      As discussed in Chapter Three, Lam’s name appeared on Sampson’s first
removal list in March 2005, and she remained on all the lists until her removal
in December 2006.

      D.    Reasons Proffered for Lam’s Removal

      Sampson said that Lam was placed on the removal list because of
concerns about her district’s prosecution of firearms cases and she remained
on the list because of additional concerns over her office’s prosecution of
immigration cases. Several senior Department officials told us they agreed
Lam should be removed. For example, former Principal Associate Deputy
Attorney General Mercer stated that when he discussed with Sampson possible
U.S. Attorneys who could be removed, he would have suggested Lam if her
name had not already been on the list.

      Associate Deputy Attorney General Margolis, told congressional staff that
while he thought Lam was “outstanding,” “tough,” and “honest,” she was also
“probably insubordinate” about “what the priorities of the Department would
be.” Deputy Attorney General Paul McNulty said that although he had serious
concerns about Lam’s performance, he probably would have preferred to
address those concerns by some method other than removal.

    After the removals, the chart created by Monica Goodling to prepare
McNulty for his congressional testimony stated with regard to Lam’s removal:

      [Lam] continually failed to perform in relation to significant
      leadership priorities – these were priorities that were well-known
      within the Department . . . .
      [T]he President and Attorney General have made clear that border
      enforcement is a top priority . . . . [Lam] failed to tackle this
      responsibility as aggressively and as vigorously as we expected and
      needed her to do . . . . The President has made clear that he
      expects strong immigration enforcement efforts, but SDCA [the
      U.S. Attorney’s Office for the Southern District of California] has
      only brought a fraction of the cases that other significant border
      districts are doing . . . .
      [T]he President and both Attorneys General in this Administration
      made clear that, after terrorism, gun crime is the top priority and


                                      272
       an important tactic to fighting violent crime . . . . SDCA has only
       brought a fraction of the cases of other extra-large districts.
       Despite its size and population, it ranks 91 out of 93 districts in
       terms of average numbers of firearms cases since FY 2000 (doing
       only an average of 18 cases) . . . .

       Thus, according to the statements of Department officials and this
document, the Department removed Lam for two main reasons: her alleged
failure to prosecute firearms and immigration cases. We discuss these reasons
below, as well as another allegation that surfaced after Lam’s removal – that
she was removed because of her office’s involvement in the investigations of
Congressman Randy “Duke” Cunningham and Central Intelligence Agency
(CIA) official Kyle Dustin Foggo. 171


II.    Chronology of Events Related to Lam’s Removal

       A.      Firearms Cases

       In 2001 the Department initiated Project Safe Neighborhoods (PSN), a
national program designed to prevent and deter gun violence. 172 PSN was a
priority of the Department. For example, it was discussed in the Department’s
2003-2008 strategic plan, and since 2001 more than $1.5 billion dollars has
been allocated to PSN to hire prosecutors and implement programs to
prosecute firearms cases and to reduce gun violence.

      In early 2004, the Office of the Attorney General began to identify those
United States Attorneys’ Offices that it believed were “underperforming” in
implementing PSN, based on data collected by EOUSA. In a March 10, 2004,
memorandum to Sampson, who was Counselor to the Attorney General at the

       171  This chart contained one other alleged reason for Lam’s removal: “[R]ather than
focusing on the management of her office, [Lam] spent a significant amount of her time trying
cases – this is discouraged in extra-large districts, because these are offices that require full-
time managers.” In 2005, Lam had personally tried a lengthy criminal case lasting many
months. Goodling also mentioned this reason in her congressional testimony when asked
about Lam. However, we found no evidence that there was a concern among Department
senior managers about Lam’s decision to try the case herself, and we concluded that this
reason was an after-the-fact rationalization to attempt to further justify her removal.
       172   Project Safe Neighborhoods is a Department initiative that involves collaborative
efforts by federal, state, and local law enforcement agencies, prosecutors, and communities to
prevent and deter gun violence. The Executive Summary maintained on the PSN Internet
website contains a description of PSN which states, “The U.S. Attorney in each of the 94
judicial districts, working side by side with local law enforcement and other officials, has
tailored the PSN strategy to fit the unique gun crime problem in that district. Criminals who
use guns are prosecuted under federal, state, or local laws, depending on which jurisdiction
can provide the most appropriate punishment . . . . [PSN] does not mandate a ‘one-size-fits-all-
approach’ . . .”




                                               273
time, the EOUSA Director identified 16 U.S. Attorneys’ Offices whose PSN
performance was “below their potential.” Lam’s office was one of these offices.
The memorandum noted that Lam’s office returned “only 17 firearms
indictments” in FY 2003, and that her office’s PSN indictments and defendants
“per criminal work years for FY 2003 is the lowest in the nation.” In
subsequent Department analyses of PSN performance, the Southern District of
California was identified as a district whose firearms prosecution performance
was in need of improvement.

       In the summer of 2004, Deputy Attorney General Comey made a series of
telephone calls to, or had meetings with, 12 of the 16 U.S. Attorneys whose
districts had been identified by EOUSA and the Attorney General’s Office as
PSN underperformers. Comey called Lam in July 2004. 173 According to
Comey, he told Lam that PSN is “a priority of the Department; it’s something
incredibly important to the Attorney General and me, and to the President.”
Comey said that he told Lam that he wanted her “to really focus on this and
make sure you are not missing something.” Comey also described his own
experience with PSN prosecutions in the Eastern District of Virginia and the
Southern District of New York, telling Lam that federal prosecutors had a much
larger role in gun prosecutions in Virginia than in New York, because of New
York’s strong state gun laws. Comey said he told Lam, as he told all the U.S.
Attorneys he called, that he was not calling “just for the sake of getting your
[PSN] numbers up.”

       When we asked Comey whether he thought that Lam understood that
she needed to increase her PSN numbers, Comey said, “I was keen not to
convey that directly.” Comey also said that although he did not recall Lam’s
explanation for her office’s low number of firearms cases, he thought it was
acceptable to let state prosecutors handle gun prosecutions when the state had
stricter laws, as Lam asserted was the case in California. However, Comey also
told us that he expected her office’s PSN numbers to increase because of the
fact that the Deputy Attorney General had called her to discuss her district’s
low numbers. Comey said he did not tell Lam that a failure to improve her PSN
numbers would result in her removal.

       In a July 20, 2004, memorandum to Sampson, Spencer Pryor, a Counsel
in the Office of the Deputy Attorney General and a participant in Comey’s July
phone call to Lam, summarized in a memorandum the results of Comey’s calls
to and meetings with the U.S. Attorneys about PSN. Pryor wrote that these
efforts were designed as “an important reminder . . . that PSN is a Presidential
priority that must be focused on by each of the U.S. Attorney’s Offices and their

       173  According to Lam, she had also had a prior discussion with Comey about PSN when
he visited San Diego to speak at a U.S. Attorneys’ conference in April 2004. Lam stated that
her first conversation with Comey was much like the second.




                                            274
respective PSN task forces.” Pryor’s memorandum stated that Lam
“acknowledged problems with PSN initiative,” but that she explained that she
had not received any PSN resources. Pryor’s memorandum disagreed with
Lam’s assertion, stating that her district had received one new PSN prosecutor.
Pryor also wrote that Lam said her district’s PSN case screening process was
“broken,” and that a new system would help boost PSN prosecutions. Pryor
also noted in the memorandum Lam’s statement that California’s “tough
firearms” laws were responsible in part for the low PSN numbers in her district.
Pryor concluded by stating that Lam’s office needed more resources to
prosecute PSN cases.

       Lam discussed her call with Comey in a July 7, 2004, e-mail to her staff.
She wrote that Comey said the Southern District of California ranked 93 out of
94 USAOs in firearms prosecutions, with only 20 such cases in the past year.
Lam reported that Comey told her he was not interested in bringing gun cases
just for the sake of bringing gun cases, and that she told Comey she thought
the district’s PSN numbers would be higher in the future, but not to expect a
“meteoric rise.” Lam also stated in the e-mail that she explained to Comey that
the district’s low numbers were a result of several factors: California has
strong state gun laws; the Southern District is comprised of only two counties
and local law enforcement does a good job prosecuting gun crimes; and her
district already has an “immense” caseload. Lam also stated in her e-mail that
her office would fix any problems it had with local law enforcement regarding
the referral of gun prosecutions to her office. Lam told us that she believed
Comey’s call was an “indirect” request for her to increase the office’s PSN
numbers, because it was “obviously the reason he was calling.”

       Lam also told us that she had hoped that her PSN prosecutions would
increase as a result of a protocol her office had entered into with local law
enforcement agencies in which those offices would refer to her office any
firearm case where the federal sentence would exceed the state sentence by 24
months. In addition, Lam said that in 2005 or 2006 her office made concerted
efforts to seek more firearm cases pursuant to the protocol by sending federal
prosecutors to meet with local law enforcement agencies and by changing the
way local officials handled the paperwork on firearm cases to make referrals
easier. However, Lam said these measures were “a solution in search of a
problem.” Lam said that she was disappointed when more cases were not
referred to her office as a result of the protocol and her office’s efforts to
implement it.

      Comey left the Department in August 2005. In March 2006, the Office of
the Deputy Attorney General prepared another memorandum for Deputy
Attorney General McNulty regarding PSN performance by U.S. Attorneys’
Offices. The memorandum recommended that the Deputy Attorney General
contact four U.S. Attorneys’ Offices regarding their poor PSN performance, one
of which was Lam’s office. In addition, the memorandum identified 11 other


                                      275
U.S. Attorneys’ Offices where PSN performance could be resolved by the staffs
of the Deputy Attorney General’s Office and the USAO. The memorandum,
which was also sent to Mercer and Chief of Staff to the Deputy Attorney
General Elston, noted that Lam’s office had filed only 12 PSN cases in FY 2005.
However, the memorandum stated that PSN performance was not intended to
be assessed by prosecution statistics alone.

       We found no evidence that McNulty ever contacted Lam or the other
three offices identified in this memorandum. McNulty told us that he “just
didn’t have the time to get around to the systematic review of the gun cases to
go to different U.S. Attorneys and talk to them about the numbers.”

      However, Lam appeared to be aware that her PSN numbers continued to
be low. In April 2006, she sent an e-mail to a fellow U.S. Attorney in which she
said she was not going to a PSN conference because she was “too
embarrassed.”

       On July 5, 2006, Mercer sent a facsimile to Lam with portions of a
United States Sentencing Commission report for fiscal year 2005 containing
sentencing statistics for the southwest border U. S. Attorneys’ Offices. These
statistics showed that in each year between 2002 and 2005, Lam’s office was
involved in the sentencing of fewer than 20 defendants whose primary offense
was a firearms charge, and that other border districts were involved in far more
such sentencings. According to the report, some border districts had
approximately 10 times more defendants sentenced in gun cases than Lam’s
district. Mercer asked Lam to confirm that these statistics were accurate. 174

      After speaking with Mercer on July 5, Lam sent an e-mail to several
people in her office and asked them to prepare a response to Mercer’s fax. Lam
wrote that Mercer had made the request because “the DAG had tasked him
with looking at resource allocations to the various districts in light of the
President’s and AG’s priorities.” (Emphasis in original)

      In a July 10, 2006, response to Elston, Lam stated that the statistics
were “roughly accurate.” 175 Lam noted that for fiscal year 2005 her office had

       174 As discussed below, Mercer later testified to congressional investigators that when
he sent the facsimile to Lam asking her to verify that the statistics were accurate, he did so at
McNulty’s direction. Mercer’s facsimile also included statistics concerning immigration
enforcement in her district, and he asked Lam to verify the accuracy of those statistics as well.
Mercer told us that his facsimile to Lam about immigration statistics was in response to a plan
by Gonzales and Sampson to address concerns over Lam’s enforcement of immigration crimes,
which we discuss in the next section.
       175Lam sent the response to Elston because Mercer had left his position in the Deputy
Attorney General’s office to return to Montana as the full time U.S. Attorney. Mercer was later
appointed Acting Associate Attorney General.




                                              276
2,441 felony sentences, which was much higher than similarly sized districts in
Massachusetts, Virginia, and the Northern District of California, although she
acknowledged that the PSN number “remains low for now.” Lam also reiterated
her explanations for her office’s low PSN numbers, writing that California had
strict gun laws which were competently handled by local prosecutors; the
Southern District of California contained only two counties, leading to
consistent local enforcement of state gun laws; and that illegal guns were not a
big problem in her district. 176 She stated in her response that to prosecute
more gun cases would reduce the number of immigration prosecutions, and
that her office had recently revised and liberalized a protocol with the local
prosecutor whereby gun cases in which the federal sentence exceeded the state
sentence by 24 months would be referred to her office for prosecution. She
said the new protocol had resulted in very few referrals.

       We found no evidence that anyone in the Department leadership offices
had any further communications with Lam about her office’s gun prosecutions
after this response in July 2006. Lam told us that she was not told, and did
not know, that her explanation for why her PSN numbers were low was
unpersuasive to Department managers. She said the only conversations she
had about the issue had been the ones discussed above with Comey in April
and July 2004, and Lam said that Comey “didn’t have a problem” with her
explanation.

       B.     Immigration Cases

      The Southern District of California’s record regarding the criminal
enforcement of immigration laws was also raised as a reason for Lam’s
removal.

      In 2004, 2005, and 2006, members of Congress complained publicly
about the alleged failure of Lam’s office to aggressively prosecute violations of
criminal immigration laws. These criticisms were also voiced by many
Department officials. We describe below both the public and internal
Department criticism of Lam’s immigration enforcement efforts, and her
response to that criticism.

       On February 2, 2004, Darrell Issa, a member of Congress from Southern
California, wrote Lam regarding her office’s failure to prosecute an alien
smuggler. A few months later, on July 30, 2004, 14 members of Congress from
California wrote to Attorney General John Ashcroft to criticize the prosecution
of alien smuggling in general, referencing an incident in the Southern District

       176  Lam also asserted on several occasions that in 2005 San Diego had the lowest
violent crime rate in 25 years. She stated that since the purpose of PSN was to reduce violent
crime, this statistic showed that her decision to defer gun prosecutions to local prosecutors
was sound.




                                             277
of California in which an alien smuggler was arrested and then released
without prosecution. On November 4, 2004, Sampson (then Counselor to the
Attorney General) sent a memorandum to the Attorney General’s Chief of Staff
regarding the July 30 letter to Ashcroft. Citing statistics on the prosecution of
immigration crimes, the memorandum concluded that the enforcement of
criminal immigration laws by Lam’s office compared poorly to other Southwest
Border districts.

       On September 23, 2005, 19 members of Congress wrote to President
Bush to complain about the Department’s failure to adequately prosecute alien
smugglers, citing Lam’s office as one example. A few weeks later, on
October 13, 2005, Congressman Issa wrote to Lam regarding the failure to
prosecute another criminal alien case. Issa referred to what he called Lam’s
“appalling record of refusal to prosecute” even the worst offenders. On
October 20, 2005, 19 members of Congress wrote to Attorney General Gonzales
requesting a meeting to discuss the Department’s alleged failure to prosecute
criminal aliens. The letter cited Lam’s office’s alleged policy of not prosecuting
criminal aliens unless they were convicted of two prior felonies in the
district. 177

      On April 6, 2006, the House Judiciary Committee held a Justice
Department oversight hearing at which Attorney General Gonzales testified.
Representative Richard Keller from Florida complained to Gonzales about
Lam’s “pathetic failure . . . to prosecute alien smugglers who have been
arrested 20 times.” Gonzales responded in part by saying that “I am aware of
what you’re talking about with respect to the San Diego situation . . . we are
looking at the situation . . . and we are directing that our U.S. attorneys do
more . . . .” 178

       On April 6, 2006, William Moschella, then the Assistant Attorney General
for the Office of Legislative Affairs, sent an e-mail to the Office of the Attorney
General stating that after speaking with Gonzales and Sampson he wanted to
arrange a 10-minute telephone call between Gonzales and Congressman Issa to
discuss “border enforcement in Southern California.” Although the call was
scheduled for April 17, it appears that it never occurred. On that date,
Moschella was informed by e-mail that Gonzales thought the call was
unnecessary in light of his congressional testimony on April 6 and his
“subsequent sidebar with Issa.” According to the e-mail, McNulty also said
that if Gonzales were to talk to Issa, Gonzales could say that he had directed
McNulty to look “into border enforcement practices in the San Diego area.”


       177   We found no evidence this meeting was ever held.
       178 According to Lam, no one in the Department notified her of Keller’s criticism, and

she learned of it only when another U.S. Attorney mentioned it in passing several months later.




                                              278
      On May 11, 2006, Sampson sent an e-mail to many of the Department’s
senior officials to inform them that President Bush would be giving a “major
speech” regarding immigration reform, and that the Department would be
assigned several matters related to border enforcement in connection with a
Presidential initiative on immigration reform. On that same day, Sampson
forwarded to Deputy White House Counsel William Kelley the April 14, 2006,
removal list, which again included Lam. Sampson commented that “The real
problem we have right now with Carol Lam . . . leads me to conclude that we
should have somebody ready to be nominated on 11/18, the day her 4-year
term expires.”

        On May 22, 2006, Congressman Issa complained on the Lou Dobbs
television show on CNN about the refusal by Lam’s office to prosecute alien
smugglers. The show’s producers had asked Lam’s office for an official
response to Issa’s charges, which her office supplied prior to the broadcast. In
the response, Lam’s office questioned the validity of documents on which Issa
had relied. Two days after the broadcast, Issa wrote to Lam regarding her
response. The Department and Lam apparently never responded to Issa’s
letter.

       On May 31, 2006, Counsel to the Deputy Attorney General Dan Fridman
sent Mercer a draft analysis of immigration prosecutions in Lam’s office, which
Mercer forwarded to Sampson. The memorandum stated that it was prepared
because of congressional and media attention on the office’s enforcement of
criminal immigration laws. The memorandum contained statistical data which
indicated that the Southern District of California’s immigration prosecution
numbers in general were lower than those of several other southwest border
districts. Sampson replied to Mercer that he also wanted a comparison
between Lam’s office and the Southern District of Texas (a district that was not
included in the memorandum), and Mercer sent a final draft of the
memorandum to McNulty on June 6, 2006, after receiving that data. The
memorandum stated that the data showed that AUSAs in the Southern District
of Texas were more productive and efficient in prosecuting immigration
offenses than were AUSAs in Lam’s office.

      Also on May 31, Sampson sent an e-mail to Mercer asking “[has] ODAG
ever called Carol Lam and woodshedded her re immigration enforcement? Has
anyone?” Mercer responded, “I don’t believe so. Not that I am aware of.”

      Sampson told congressional investigators that during the April to June
2006 time frame, the Department’s senior management, including Attorney
General Gonzales and Deputy Attorney General McNulty and their staffs, had
“several conversations” about their concern over Lam’s office’s enforcement of
immigration laws. Sampson stated that Gonzales had directed the Deputy
Attorney General’s Office to work with Lam’s office to improve its immigration
enforcement efforts, and that Sampson’s e-mail as to whether Lam had been


                                      279
“woodshedded” was seeking information as to whether the Deputy Attorney
General’s Office had followed up with Lam as directed. Sampson said he
recalled being concerned that the Deputy Attorney General’s Office had failed
to communicate the Department’s concerns over immigration enforcement to
Lam.

       On June 1, 2006, Sampson sent an e-mail to Elston and Mercer stating
that President Bush and Karl Rove had told Attorney General Gonzales that
during the next 2 weeks the Department needed to “trumpet” its immigration
enforcement efforts. That same day, Sampson sent another e-mail to Elston
and Mercer, which Sampson said was related to his prior e-mail regarding
immigration enforcement. Sampson wrote that “the AG has given additional
thought to the SD [Southern District of California] situation and now believes
that we should adopt a plan.” 179 Sampson outlined the plan, which set forth a
series of steps to address the Department’s concerns regarding Lam:

       Have a heart-to-heart with Lam about the urgent need to improve
       immigration enforcement in SD;
       Work with her to develop a plan for addressing the problem – to
       include alteration of prosecution thresholds; additional DOJ
       prosecutors; additional DHS SAUSA resources; etc.
       Put her on a very short leash;
       If she balks on any of the foregoing or otherwise does not perform
       in a measurable way by July 15 [my date], remove her. (brackets in
       original)
       AG then appoints new USA from outside the office.

      Sampson’s e-mail stated that this was “the sort of thing for ODAG and
EOUSA to execute.” He asked Mercer and Elston to “tune up my plan/list of
bullets, and be prepared to (1) present such plan to the AG tomorrow or early
next week for his approval and (2) execute the plan next week.”

       On June 5, 2006, Mercer sent an e-mail to McNulty stating that the
Attorney General wanted McNulty’s views on the proposed plan. McNulty
responded by e-mail: “If [Lam’s] numbers are really bad, I may be in favor of a
call inquiring about her exit plans. I’m concerned that a PIP for a USA may
create some difficult issues.” 180



       179 A day earlier Sampson had sent an e-mail to Mercer stating that in connection with

Lam’s office, “I got some guidance from the AG this morning and we need to talk.”
        180 A PIP refers to a “performance improvement plan,” a written document that sets

forth specific goals and measures to help an employee improve his or her performance.




                                             280
      We found no evidence that the Attorney General’s Office, the Deputy
Attorney General’s Office, or that anyone in EOUSA took any of the steps
outlined in Sampson’s June 1, 2006, plan to address the issues associated
with the Southern District of California’s enforcement of criminal immigration
laws. For example, we found no evidence that, in response to this proposed
plan, anyone had a “heart-to-heart” talk with Lam about immigration
prosecutions by her office. We also found no evidence that anyone developed a
“plan” to help address her district’s performance or that anyone considered
providing her office with additional resources, as discussed in Sampson’s e-
mail.

       Sampson told congressional investigators and told us that he believed
the Deputy Attorney General’s Office failed to implement the plan that he and
the Attorney General had developed. However, Mercer told us he believed that
the Deputy Attorney General’s Office did respond to the Attorney General’s
initiative. According to Mercer, McNulty thought that the first step in
implementing the Attorney General’s plan should be to ask Lam for her
response to the statistics comparing the Southern District of California’s
immigration and firearm prosecutions to other southwest border districts.
Therefore, as discussed previously, on July 5, 2006, Mercer sent Lam portions
of the Sentencing Commission report for fiscal year 2005 containing sentencing
statistics for the southwest border U.S. Attorneys’ Offices. Although Mercer
told us that he sent the statistics to Lam as part of the Attorney General’s plan
to improve Lam’s performance, he did not tell her that. Mercer called Lam
before sending the statistics on July 5 and told her that he wanted her to verify
the accuracy of the statistics to make sure that they did not underrepresent
her office’s performance.

       Lam told us that Mercer had called her and asked her to verify if the
statistics were accurate. Lam also said that Mercer made some allusion to
“looking at resources on the border.” In a document that Mercer prepared for
his congressional testimony, he wrote that he told Lam that he wanted her to
verify that the statistics were accurate and told her that he had “reviewed data
in conjunction with on-going discussions regarding DOJ resource allocations
and DOJ priorities.”

       The statistics Mercer sent showed that in FY 2005 fewer immigration
defendants were sentenced in Lam’s district than any other southwest border
district. In her July 10, 2006, written response, Lam stated that the statistics
were “roughly accurate” and explained the statistics by stating that her office
prosecuted only the most dangerous offenders and sought the highest
sentences, which resulted in more trials with increased resources devoted to
those trials. Lam wrote that she had made a decision in 2005 to reduce the
number of alien smuggling cases accepted for prosecution because defendants
convicted in those cases faced the lowest sentences and engaged in the least
egregious behavior. Lam argued that her strategy of prosecuting the most


                                      281
dangerous offenders greatly increased the number of immigration cases in
which longer sentences were imposed and resulted in more resource-intensive
trials.

      After receiving Lam’s response, Elston asked a summer intern in the
Deputy Attorney General’s Office to read and comment on the response. The
intern sent Elston an e-mail stating that he lacked the expertise to assess
Lam’s justification for focusing on more serious crimes at the expense of not
prosecuting less serious crimes. We found no evidence that anyone analyzed
Lam’s response.

      McNulty told us that he recalled that in the summer of 2006 Mercer and
another member of his staff (who we believe was probably Fridman) were
tasked with evaluating immigration prosecutions in Lam’s office. McNulty said
that by the end of the summer they had identified options to approach the
problem but that no decision was ever made about what options to pursue.
McNulty did not identify what the options were. McNulty also asserted that
Lam was aware of the evaluation of her office and participated by responding to
that evaluation. It is likely that McNulty was referring to Mercer’s sending the
sentencing statistics to Lam and asking her to verify their accuracy. McNulty
apparently did not know that Mercer had not told Lam that the Deputy
Attorney General’s Office was assessing her performance as part of a plan that
could result in her removal.

       On August 2, 2006, Lam met in her district with Representative James
Sensenbrenner and Issa regarding immigration prosecutions. Lam
summarized the results of her meeting in an e-mail she sent that day to the
Department’s Office of Legislative Affairs (OLA), which OLA circulated to several
Department officials, one of whom sent it to Elston and Goodling. In her e-
mail, Lam stated that she had explained her office’s immigration enforcement
priorities to the congressmen, that she chose to prosecute more serious
offenders charged with offenses carrying longer sentences, and that it took
more resources to prosecute those more serious cases.

      The Attorney General had also received a letter from California Senator
Dianne Feinstein on June 15, 2006, questioning immigration law enforcement
in Lam’s district. On August 23, 2006, OLA Assistant Attorney General
Moschella replied to Senator Feinstein’s letter, citing many of Lam’s arguments
about her office’s immigration enforcement effort. The OLA letter stated that
Lam’s office focused on the worst offenders by bringing felony cases that would
result in the longest sentences; that alien smuggling prosecutions were
increasing; and that focusing on more serious crimes resulted in more trials,
which were resource intensive and reduced the overall number of cases that
could be brought.




                                      282
       Lam told us that after her meeting with Representatives Issa and
Sensenbrenner, there was a “fairly quiet” period until she was told to resign.
After the Department’s August 23 letter to Senator Feinstein, we found no
further evidence of any criticism of Lam’s immigration prosecution efforts
before she was removed.

      C.    Lam’s Removal

      According to Lam, EOUSA Director Battle called her on December 7,
2006, and thanked her for her years of service as U.S. Attorney. Battle then
told her that the Department wanted to take her office in a new direction and
told her to resign by January 31, 2007. Lam said she asked why, and Battle
told her he did not know. Lam told us that she was “devastated,” in part
because for days she thought she was the only U.S. Attorney fired. Lam said
she understood from “history and tradition” that unless she committed
misconduct, she would remain the U.S. Attorney until the end of the
Administration.

      Lam said she called McNulty a few minutes after Battle’s call to ask what
had happened and whether she had done something to embarrass the
Administration or the Department. According to Lam, McNulty refused to
answer, saying he wanted to give some thought to the answers to her
questions. Lam stated that McNulty never explained to her why she was fired.
Lam also said that McNulty told her that he recognized that she had worked
very hard and had even personally tried a long case (which Lam noted to us
was one of the reasons the Department later proffered for her removal).

      Lam said that some weeks later she commented to Elston during a
telephone conversation that she was never told why she was asked to resign.
Lam said that Elston responded, “I don’t know why that information would be
useful to you.”

      Lam said that she also called Margolis, who oversaw misconduct
investigations against U.S. Attorneys, to find out whether she was fired for an
ethics violation. Lam stated that Margolis told her that she was not the subject
of any ethics investigation.

      According to Margolis, when Lam called him after she was fired, Lam
“speculated to me that [her removal] was over immigration and guns.” When
we asked Lam about Margolis’s recollection, she said she did not recall
speculating about whether those were the reasons she was asked to resign.
She said she might have made such a comment, but did not recall doing so.

      Lam said she made several attempts to delay her removal because of
several important cases in her district. Lam said that Battle asked her to draft
a memorandum supporting that request. Lam did so, but said she received no
response for several weeks. Lam said that Elston eventually called her in early


                                      283
January and told her that her request for an extension of time to resign was
not viewed favorably in the Department. Lam said that she spoke with Elston
shortly after that, and he told her that if she announced her resignation that
day, she could delay her departure two weeks beyond January 31. Lam
announced her resignation on January 16 and left office on February 15.

      D.       Public Corruption Investigations

       When Lam’s removal became public in early January 2007, there was
public and congressional speculation that she was removed in retaliation for
her office’s prosecution of Randy “Duke” Cunningham, a Republican member of
the House of Representatives, and her office’s ongoing public corruption
investigation of a high-ranking CIA official, Kyle Dustin Foggo.

      In November 2005, after an investigation by Lam’s office, Cunningham
had pled guilty to conspiracy and tax evasion. In early 2006, Cunningham
received a prison sentence of 8 years. In 2007, after an investigation related to
the Cunningham matter, Lam’s office indicted Foggo, then the third highest
ranking CIA official, for, among other charges, conspiracy, wire fraud, and
money laundering. Foggo’s case is still pending.

       To determine whether these prosecutions were related to Lam’s removal,
we conducted extensive searches of the e-mail accounts and electronic
computer files of Sampson, McNulty, Elston, Goodling, and others in the
Department who had any connection with the U.S. Attorney removals. 181 We
also reviewed numerous documents related to the removals. We found no
evidence indicating that Lam’s removal as U.S. Attorney was in any way related
to her office’s investigation or prosecution of Cunningham, Foggo, or any other
official, or that she was removed to affect other such investigations or
prosecutions.

       Department officials also denied that Lam was removed because of the
Cunningham or Foggo cases. For example, Elston testified to congressional
staff that the Cunningham prosecution was “incredibly significant,” and noted
that when he was an AUSA he assisted the Cunningham prosecution by
securing a search warrant in the Eastern District of Virginia to obtain evidence
related to the prosecution. Lam told us that she did not know why she was
removed, but offered no evidence that it was because of the Cunningham or
Foggo cases.

      Some speculation in the media also suggested that Sampson’s May 11 e-
mail stating that “the real problem we have right now with Carol Lam” was
related in some way to her office’s investigation of Foggo. As discussed above,

      181   Gonzales did not maintain a Department e-mail account or computer files.




                                             284
however, Sampson’s May 11 e-mail was sent shortly after Lam’s office was
criticized for its immigration prosecutions during a congressional hearing.
Sampson also testified that his e-mail’s reference to the “real problem” was
Lam’s “office’s prosecution of immigration cases.” The evidence we found
supported that testimony. 182


III.   Analysis

      We found no evidence that Lam was removed because of the investigation
or prosecution of Representative Cunningham or CIA official Foggo, as was
claimed by some after the U.S. Attorney removals became public. Sampson
and other Department officials denied this claim, and our review of Department
e-mails and documents did not find any indication that these investigations
had anything to do with Lam’s removal. We also note that the investigation
and prosecution of Cunningham and Foggo were aggressively pursued by
career prosecutors in Lam’s office, both during and after her tenure.

        We determined that the Department’s claim that inattention to
management was a reason for Lam’s removal was not accurate. Goodling
testified and included in her summary document about the reasons for U.S.
Attorney removals that Lam had personally tried cases rather than focused on
the management of her office. We did not find any support that this had
anything to do with Lam’s removal, and we believe it was disingenuous for
Goodling and the Department to raise this claim. This appears to be another
after-the-fact rationalization used to further justify the removal of a U.S.
Attorney, and we found that it played no role in the decision to remove Lam.

       Rather, the evidence in our investigation demonstrated that Lam was
removed because of the Department’s concerns about her office’s gun and
immigration prosecution statistics. Sampson placed Lam on his first removal
list, and she remained on all subsequent lists. Sampson consistently testified
that concern about the low number of gun and immigration prosecutions by
Lam’s office was the reason for her removal. Other Department leaders
corroborated Sampson’s testimony.


       182  Some people have alleged that an August 8, 2006, e-mail Elston sent to a colleague
in the Deputy Attorney General’s office asking, “have you heard back from Rizzo re SDCA case
and WHC?” may have been related to Lam’s removal. However, Elston stated that “Rizzo”
referred to CIA Acting General Counsel John Rizzo, and that the Deputy Attorney General’s
Office was trying to assist Lam’s office to obtain classified documents from the White House or
the CIA that were relevant to an investigation. Elston denied that the e-mail related to the
firing of Lam. In fact, contemporaneous e-mails in July and August of 2006 show that Lam’s
office was seeking the Deputy Attorney General’s Office’s assistance in obtaining classified
information from the CIA on several matters, and that the White House Counsel’s Office was
involved in those discussions.




                                             285
       We also found that concerns about Lam’s low number of gun and
immigration prosecutions were raised in the February 2005 EARS evaluation.
In addition, in the summer of 2004 Deputy Attorney General Comey raised
with Lam the priority of Project Safe Neighborhoods gun prosecutions, and we
found that the Department remained concerned with the low number of gun
prosecutions in Lam’s district. Her office’s immigration prosecutions also
received significant congressional attention. Moreover, the Department was
troubled by the relatively low number of immigration cases brought by her
office compared to other southwest border offices.

      In response, Lam argued to the Department that the low number of gun
prosecutions resulted from a variety of factors in her district, such as
California’s strong state gun laws; state and local law enforcement’s effective
prosecution of gun cases in her district; her district’s heavy caseload; and the
absence of a significant gun problem in her district. Lam also said that she
made efforts to seek more gun cases from local law enforcement agencies,
without success. With regard to immigration cases, Lam stated that she
decided to prosecute the more serious offenders with charges that would result
in the longest sentences, and that it took more resources to prosecute these
types of cases.

       Lam’s explanations did not persuade Department leaders or assuage
their concerns about her prosecutorial priorities. It is the President’s and the
Department’s prerogative to remove a U.S. Attorney who they believe is not
adhering to their priorities or not adequately prosecuting the types of cases
that the President and the Department decide to emphasize. This is true for
any U.S. Attorney, even one like Lam who was described by Margolis as
otherwise “outstanding,” “tough,” and “honest,” and who the EARS evaluation
said was “an effective manager . . . respected by the judiciary, law enforcement
agencies, and the USAO staff.”

      However, what we found troubling about Lam’s case was that the
Department removed Lam without ever seriously examining her explanations or
even discussing with her that she needed to improve her office’s statistics in
gun and immigration cases or face removal.

      In fact, while it was never implemented, the Department had outlined
what we believe was a reasonable and appropriate approach to address its
concerns about Lam’s prosecutorial priorities. In June 2006, Sampson wrote
an e-mail to Mercer and Elston that the Attorney General “believes that we
should adopt a plan” with regard to the concerns about Lam. The plan
included having “a heart-to-heart with Lam about the urgent need to improve
immigration enforcement”; working with her to develop a plan to address the
problem; and if she “balks” or otherwise does not perform in a measurable way,
remove her. Sampson asked Mercer and Elston to comment on the plan and
then execute it.


                                      286
      Yet, we found that neither Mercer nor Elston carried out the plan as
outlined. Neither called Lam or had a “heart-to-heart” conversation with her
about her “urgent” need to improve her district’s immigration enforcement,
talked with her about her office’s prosecutions, or developed a plan to help her
address her district’s performance with respect to immigration and firearms
prosecutions. Moreover, no one put Lam on notice that she had to improve her
performance in a measurable way or face removal, as the plan suggested.

      Rather, when Mercer informed McNulty of the suggested plan, McNulty
responded that “If [Lam’s] numbers are really bad, I may be in favor of a call
inquiring about her exit plans. I’m concerned that a PIP [Performance
Improvement Plan] for a USA may create some difficult issues.” But neither
McNulty nor his staff ever made a call to Lam inquiring about her exit plans.

       Mercer, who was Principal Associate Deputy Attorney General at the
time, claimed that by faxing the sentencing statistics to Lam and asking her to
verify them, he was executing the first step in the plan. Yet, even if he thought
such action constituted the first step, he did not talk to Lam about her
performance, execute any other steps of the plan, or even ask her about her
exit plans, as McNulty had proposed.

       The only action the Department apparently took in an attempt to assess
Lam’s explanations for her office’s statistics was to direct a summer intern in
the Deputy Attorney General’s Office to read and comment on her response to
Mercer’s facsimile. The intern concluded that he lacked the expertise to assess
Lam’s justifications for focusing on more serious immigration crimes instead of
less serious crimes, and the Department conducted no analysis of her
response.

       We found that neither Sampson, McNulty, Mercer, Elston, nor anyone
else in the Department followed the plan outlined by Sampson at the behest of
the Attorney General or directly addressed with Lam the issues of concern. We
also found no evidence that Sampson or Gonzales ever inquired about whether
the plan had been executed. Instead, on December 7, Lam was directed to
resign.

      We also believe the Department handled her forced resignation unfairly
by never telling her why she was being instructed to resign, despite her
repeated questions. Then, when she asked for additional time because of
important pending cases in her office, she was granted a 2-week extension
beyond January 31, but only if she announced her resignation that day.

      In sum, we recognize that the President and the Department had the
authority to remove Lam at their discretion based on concerns about her
prosecutorial priorities and statistics. In this case the Department designed a
reasonable plan to address the concerns regarding Lam’s gun and immigration



                                      287
statistics, but no one implemented the plan or followed up to inquire why it
had not been implemented. We believe the Department’s actions provide a
clear example of the disorganized removal process and the lack of oversight
over that process.




                                      288
                                                                                                                                                             Sep 1, 2005 - Sep 14, 2005
                                                                                                                                                             Chiara asks EOUSA General Counsel Scott
                                                                                                                                                             Schools for assistance to “resolve conflicts”
               Margaret Chiara Timeline                                                                                                                      with Gross and Joan Meyer

                                                                                                                                                             Schools meets with Chiara, Gross, and Joan
                                                                                                                                                             Meyer to discuss differences

                                                                                          Jan 2005                                                           Joan Meyer tells Schools that Chiara and the                                                                       Apr 2006
     Oct 2001
                                                                                                                                                             AUSA have a secretive relationship                                 Nov 8, 2005
                                                                                          Green steps down as First Assistant U.S. Attorney;                                                                                                                                    Gross changes the AUSA's performance
     Chiara Events                                                                        Chuck Gross is appointed to the position                           Schools discusses Chiara's situation with                          Chiara reports to Schools that the              evaluation at Chiara's request; Chiara accepts
     and Actions                                                                                                                                                                                                                                                                                                                                             Nov 2006                                               Feb 1, 2007
                                                                                                                                                             Margolis; a decision is made not to refer the                      “situation here continues to deteriorate"       Gross’s evaluation of Joan Meyer
                                                                                          Joan Meyer is appointed Criminal Chief and later                   relationship allegation for investigation                                                                                                                                                                                                              Chiara asks McNulty for the “real
                                                                                                                                                                                                                                                                                                                                                             Chiara asks Elston about taking a
                                                                                          confronts Chiara about her relationship with the AUSA                                                                                                                                                                                                                                                                     reason” for her resignation request;
                                                                                                                                                                                                                                                                                                                                                             temporary leave of absence to serve as
                                                                                                                                                                                                                                                                                                                                                             interim law school dean                                McNulty does not respond
                                                                                                                                                                                                                                                 Jan 15, 2006 - Jan 31, 2006
                                                                                                                                                                                     Jul 28, 2005                                                Joan Meyer begins a detail with the                                                                         Elston informs Chiara that her resignation
Oct 23, 2001                                                                                                                                                                                                                                                                                                                                                 will likely be requested after the election
                                         Jul 12, 2004 - Jul 16, 2004                                                      Jan 9, 2005                                                                                                            DAG's office in Washington, D.C.                           Jun 2006
                                                                                                                                                                                     Joan Meyer complains
Chiara is confirmed by the                                                                                                                                                                                                                                                                                                                                                                                                    Feb 23, 2007
                                         An EARS evaluation is favorable                                                  The AUSA receives a                                        to Chiara about her                                         Thereafter, Joan Meyer tells several                       Gross steps down as First                        Chiara asks McNulty why her resignation
Senate as the U.S. Attorney,
                                         but notes complaints concerning                                                  16-hour time-off award                                     inability to supervise                                      DOJ officials that Chiara and the AUSA                     Assistant U.S. Attorney                          will be requested
Western District of Michigan                                                                                                                                                                                                                                                                                                                                                                                                  Chiara announces her resignation
                                         the distribution of awards                                                                                                                  the AUSA                                                    are in a relationship and living together




Oct 2001   Nov 2001       Oct 2002   Nov 2002     Jul 2004   Aug 2004 Sep 2004 Oct 2004        Nov 2004 Dec 2004 Jan 2005 Feb 2005 Mar 2005 Apr 2005                May 2005 Jun 2005 Jul 2005           Aug 2005 Sep 2005 Oct 2005   Nov 2005 Dec 2005 Jan 2006 Feb 2006 Mar 2006 Apr 2006                 May 2006 Jun 2006 Jul 2006          Aug 2006 Sep 2006 Oct 2006         Nov 2006 Dec 2006 Jan 2007 Feb 2007 Mar 2007


                                                                    Oct 2004 - Dec 2004
                Oct 2002                                                                                                                           May 23, 2005                                                                                                                                                                  Jul 2006 - Oct 19, 2006                                      Dec 7, 2006                            Mar 16, 2007
                                                                    Chiara's AUSA friend wins the EOUSA Director’s Award;
                                                                                                                                                   Joan Meyer complains to Chiara
                                                                                                                                                                                                                                         Nov 6, 2005
                Chiara’s friend is                                                                                                                                                              Sep 2005                                                                                                                         The Senate Judiciary Committee receives three                Battle tells Chiara to resign          Chiara leaves office
                                                                    Lloyd Meyer was nominated but not selected
                hired as an AUSA                                                                                                                   about the AUSA's performance and                                                      Joan Meyer complains to Chiara about her                                                anonymous letters alleging misconduct by former First
                                                                                                                                                   excessive travel                             The AUSA is                              “favoritism” towards the AUSA, citing Chiara                                            Assistant U.S. Attorney Green
                                                                    First Assistant U.S. Attorney Green confronts Joan Meyer
                                                                                                                                                                                                removed from                             authorizing her travel and issuing the AUSA
                                                                    about spreading rumors of a romantic relationship between
                                                                                                                                                                                                Joan Meyer’s                             two “case of the year” awards                                                           Chiara asks the DOJ to investigate the source of the
                                                                    Chiara and the AUSA
                                                                                                                                                                                                supervision                                                                                                                      anonymous allegations
     Oct 2001
                                                                                                                                                                                                                                                                                                                                 Margolis denies her investigation request; Chiara asks
     DOJ and Other Events                                                                                                                                                                                                             Oct 2005                                                                                   for meeting with McNulty
                                                                                                             Mar 2, 2005                                                    Jul 2005
     and Actions                                                                                                                                                                                                                      The AUSA accepts a detail to
                                                                                                             Chiara is on Sampson's first removal list                      Lloyd Meyer accepts a detail                                                                                                                         Chiara meets with McNulty and others
                                                                                                                                                                                                                                      EOUSA in Washington, D.C.
                                                                                                             based on Margolis's recommendation                             to the Office of Legal Policy in
                                                                                                                                                                            Washington, D.C.
                           CHAPTER ELEVEN
                           MARGARET CHIARA

I.    Introduction

      This chapter examines the removal of Margaret Chiara, the former United
States Attorney for the Western District of Michigan.

      A.    Background

      Chiara received her law degree in 1979 from the Rutgers University
School of Law. She worked at a private law firm from 1979 to 1982, and then
as an assistant prosecutor in Cass County, Michigan, from 1982 to 1987.
From 1988 to 1996, Chiara served two terms as the elected Prosecuting
Attorney for Cass County. From 1993 to 1994, she also served as the
President of the Prosecuting Attorney’s Association of Michigan.

      Upon completion of her second term as Cass County Prosecuting
Attorney in 1996, Chiara was appointed Administrator of the Michigan Trial
Court Assessment Commission, which evaluated and made recommendations
for changes in the operation and funding of state trial courts. In 1999, Chiara
began work as the Policy and Planning Director for the Michigan Supreme
Court.

      On September 4, 2001, Chiara was nominated by the President to be the
U.S. Attorney for the Western District of Michigan. She was confirmed by the
Senate on October 23, 2001.

     During her tenure as U.S. Attorney, Chiara served on three
subcommittees of the Attorney General’s Advisory Committee (AGAC): Native
American Issues, Management and Budget, and U.S. Attorneys’ Offices
Outreach.

      Chiara was called by the Director of the Executive Office of U.S.
Attorneys, Michael Battle, on December 7, 2006, along with the other U.S.
Attorneys, and told to resign. She announced her resignation on February 23,
2007, and left office on March 16, 2007.

      B.    The EARS Evaluation of Chiara’s Office

      Chiara’s office underwent one EARS evaluation during her tenure as U.S.
Attorney. The EARS team’s evaluation was conducted in July 2004. The EARS
report stated that “The United States Attorney was a well regarded, hard-
working, and capable leader who had the respect and confidence of the
judiciary, the agencies, and USAO personnel.” However, notwithstanding this


                                      289
positive comment regarding Chiara, the EARS report noted “discontent within
the Criminal Division” in the U.S. Attorney’s Office based on workload and
productivity differences among Assistant U.S. Attorneys (AUSA). Additionally,
the report commented that “a substantial number of AUSAs perceived that the
actual process by which cash and time-off awards were determined was not
equitable.” A draft report dated September 3, 2004, also commented that
“[m]any AUSAs reported to evaluators [concerns about] the number and size of
awards given to other AUSAs during the last 12 months. This information was
found by evaluators to be generally inaccurate.”

       C.     Chiara’s Status on the Removal Lists

     On the first U.S. Attorney removal list, which Sampson e-mailed to White
House Counsel Harriet Miers on March 2, 2005, Chiara was rated as “weak”
and was 1 of 14 U.S. Attorneys whom Sampson recommended for removal.
Chiara’s name appeared on every subsequent removal list.

       D.     Reasons Proffered for Chiara’s Removal

      As described in Chapter Three, in February 2007 when the Department
began to prepare witnesses for their congressional testimony regarding the U.S.
Attorney removals, Department of Justice White House Liaison Monica
Goodling created a chart of reasons justifying the firings. The first draft of
these reasons was reflected in Goodling’s two pages of handwritten notes. As
to Chiara, Goodling wrote that “there was disarray in [her] office under her
leadership . . . . [her office was] incredibly fractured . . . [she] lost [the]
confidence of her subordinates and superiors.”

      In the chart Goodling prepared, the reasons for Chiara’s removal
similarly stated: “During USA’s tenure, the office has become fractured, morale
has fallen, and the USA has lost the confidence of some career prosecutors.
The problems here have required an on-site visit by management experts from
our EOUSA to visit and mediate with members of the leadership team.”

      On February 14, 2007, Deputy Attorney General Paul McNulty briefed
members and staff of the Senate Judiciary Committee on the U.S. Attorney
removals. According to notes of the closed briefing prepared by Office of
Legislative Affairs official Nancy Scott-Finan who attended the session, and the
talking points that McNulty used to prepare for the meeting, McNulty said at
the meeting that one unidentified office (referring to Chiara’s office) had
“serious morale issues” and there was a “loss of confidence” in her
leadership. 183


       183 At the meeting, McNulty did not identify Chiara as the U.S. Attorney to whom he

was referring because her removal was not yet public.




                                            290
       Chiara’s identity as the seventh U.S. Attorney contacted by Battle on
December 7, 2006, and told to resign was not publicly revealed until late
February 2007. As a result of the controversy surrounding the removal of
other U.S. Attorneys, Michigan Senators Carl Levin and Debbie Stabenow sent
a letter to Attorney General Alberto Gonzales on February 13, 2007, asking
whether either of Michigan’s U.S. Attorneys had been asked to resign and, if so,
the justification for the request. On February 23, 2007, the same day Chiara
announced her resignation, Acting OLA Assistant Attorney General Richard
Hertling sent a letter to Levin and Stabenow informing them that Chiara had
been asked to resign for “performance-related reasons.”

      Two weeks later, in his testimony before the House Judiciary Committee
on March 6, 2007, Principal Associate Deputy Attorney General William
Moschella addressed the reasons for the removals of the six U.S. Attorneys who
were also testifying before the Committee that day. With regard to the two U.S.
Attorneys not present – Kevin Ryan from San Francisco and Chiara – Moschella
stated that they had “problems managing their districts.”

      Several Department witnesses addressed questions about Chiara’s
removal in interviews with congressional investigators. Sampson told
congressional investigators that Associate Deputy Attorney General David
Margolis had expressed concerns to him about Chiara’s “management
problems.” McNulty also used the phrase “management problems” when
explaining to congressional investigators why Chiara was removed. Principal
Associate Deputy Attorney General William Mercer told congressional
investigators that Chief of Staff to the Deputy Attorney General Michael Elston
informed him in October 2006 that Chiara was going to be replaced because of
“performance assessments.” Margolis told congressional investigators that
Sampson consulted with him either in late 2004 or early 2005 about possibly
removing some U.S. Attorneys. Margolis said that he either suggested that
Chiara be removed or endorsed her removal at that time based on her
“performance.”

       According to Chiara, no Department manager told her before Moschella’s
March 6 testimony that she was removed because of management deficiencies
on her part. In interviews with us on May 30, 2007, and September 15, 2008,
and a letter dated July 22, 2008, Chiara alleged that she was removed as U.S.
Attorney because of baseless rumors that she had a homosexual relationship
with a subordinate AUSA in her office. Chiara asserted that the rumors were
spread by Joan Meyer, who was the Criminal Chief in Chiara’s U.S. Attorney’s
Office from January 2005 to January 2006 and later served on detail as a
Counselor in the Office of the Deputy Attorney General from January 2006 to
February 2008, and also by Meyer’s husband, Lloyd Meyer, who was an AUSA
in Chiara’s office from 1994 to 2005 and later served on detail in Washington,
D.C., in the Office of Legal Policy (OLP) as a Senior Counsel from 2005 to 2006.
Chiara stated that given the Meyers’ detailee positions in the Department, they


                                      291
likely conveyed the rumor of the homosexual relationship to the Office of the
Attorney General and Deputy Attorney General’s Office officials, and in
particular to Goodling. Chiara said she believed that rumor resulted in her
removal as U.S. Attorney.


II.   Chronology of Events Related to Chiara’s Removal

      A.    Chiara’s Inclusion on the Removal Lists

      Sampson told us he included Chiara’s name as a U.S. Attorney
recommended for removal on his first removal list, on March 2, 2005, primarily
based on Margolis’s opinion. Margolis told us that he either recommended
Chiara for removal or endorsed her removal when her name was first raised by
Sampson, and said he recalled discussing this issue with Sampson in late
2004 or early 2005, after the Presidential election. According to Margolis, he
had serious questions about Chiara regarding her temperament and “turmoil
in her office” when Sampson first broached with him the subject of removing
underperforming U.S. Attorneys. Margolis also said his questions about her
“kept on getting more serious” and his recommendation in favor of her removal
became “stronger as time went on.”

       Margolis told us that he began having serious questions about Chiara’s
leadership after he was contacted by a former Department of Justice official
who had recommended Chiara for the U.S. Attorney position in 2001. Margolis
said this official contacted him sometime before he spoke to Sampson about
the removals of U.S. Attorneys. The former Department official, whom Margolis
knew well and respected highly, said he was aware of events within Chiara’s
office, and told Margolis that Chiara was “divisive” and that the office was “in
turmoil.”

      Margolis said that the concerns he had about Chiara based on the former
Department official’s comments intensified when EOUSA General Counsel
Scott Schools returned from a meeting with Chiara in September 2005 (which
we describe below).

      After Sampson’s March 2, 2005, list, Chiara was included on each of
Sampson’s subsequent removal lists. As we discuss below, all but one of the
senior Department officials responsible for determining which U.S. Attorneys
should be removed – Sampson, McNulty, Elston, and Goodling – were aware of
both the allegation that Chiara’s office was in turmoil and the allegation that
Chiara showed favoritism towards a subordinate AUSA with whom it was
alleged that she had a sexual relationship. Only Attorney General Gonzales
said that he was not aware of these allegations. Gonzales testified to Congress
and told us that he did not recall knowing why Chiara was removed prior to
her removal.



                                      292
       We discuss in the next section the conflict that arose in Chiara’s office.

       B.     Factual Chronology Relating to Conflict in Western District of
              Michigan U.S. Attorney’s Office

              1.     U.S. Attorney’s Office

       The U.S. Attorney’s Office for the Western District of Michigan is located
in Grand Rapids, Michigan, with branch offices in Lansing and Marquette. The
office has about 85 staff members, including approximately 35 attorneys. Prior
to Chiara becoming the U.S. Attorney in October 2001, AUSA Phillip Green
served as Interim U.S. Attorney from January to October 2001. Joan Meyer
served as Green’s First Assistant U.S. Attorney. 184

     After Chiara’s confirmation, Green became Chiara’s First Assistant and
Meyer stepped down to become a line AUSA. As described below, Chiara later
appointed Meyer as the office’s Criminal Chief.

              2.     Senior Management Conflicts in Chiara’s Office

       Several witnesses in our investigation, including Chiara, described to us
significant management conflicts during Chiara’s tenure as U.S. Attorney. The
conflicts began in the fall of 2004 and worsened over time. The conflicts
related to allegations that Chiara was engaged in a sexual relationship with a
subordinate AUSA and that as a result of the relationship Chiara showed
favoritism toward the AUSA in granting monetary awards, bonuses, and other
personnel actions. According to several witnesses, Joan and Lloyd Meyer were
the primary sources of these allegations.

                     a.      Rumors and Allegations Regarding Relationship
                             with AUSA and Favoritism

                             (1)    Chiara’s friend is hired

      The AUSA who was alleged to have an inappropriate sexual relationship
with Chiara joined the U.S. Attorney’s Office in October 2002. According to the
AUSA, she and Chiara were friends at the time she applied for the position. 185

       184 Joan Meyer had also been the First Assistant in the late 1990s for former U.S.

Attorney Michael Dettmer, who resigned in late 2000.
       185 The AUSA told us that her friendship with Chiara was disclosed to the USAO’s
hiring committee. However, Chuck Gross, then the Civil Chief and the head of the USAO’s
hiring committee, said he did not know at the time that the AUSA and Chiara were friends.
Joan Meyer, who was also on the hiring committee, said that Chiara disclosed only a
“professional relationship” with the AUSA before endorsing her as a “great prosecutor.”
       Chiara told us that she did not participate in the AUSA’s hiring process other than to
approve the committee’s “unanimous” recommendation. Former First Assistant Green told us
(Cont’d.)


                                             293
Chiara also told us that the two were friends prior to the AUSA applying for the
AUSA position, and that they became very good friends during the time they
worked together in the USAO. Chiara said they met in 1996 and shared a
professional bond stemming from their time serving as 2 of only 3 elected
female county prosecutors in a state with 83 counties. Both Chiara and the
AUSA told us that they did not have a sexual relationship, contrary to rumors
circulated in the office and in the Department about them.

      When the AUSA joined the U.S. Attorney’s Office, she was assigned to
work in the Criminal Division. Her caseload included violent crimes in Indian
Country, including domestic violence and sexual assault matters. At the time,
Joan Meyer and her husband were also AUSAs in the Criminal Division.

       The AUSA told us that when she joined the USAO she had an apartment
in the eastern part of the state, about a 2 ½ hour drive from the district’s main
office in Grand Rapids where she worked. She said that during her first year at
the office, she occasionally (about two nights a month) stayed in a basement
apartment in Chiara’s house in Lansing in order to cut down her commute.
The AUSA told us that she obtained her own apartment in Lansing during her
second year in the office. However, she said that even after renting her own
apartment in Lansing she occasionally stayed at Chiara’s house to take care of
Chiara’s dog when Chiara was out of town. Chiara confirmed that the AUSA
would occasionally stay in her house to care for her dog when she was on
travel, and Chiara said that the AUSA was the only USAO employee to do so.

       The AUSA said that during her first year at the U.S. Attorney’s Office, to
avoid the perception that she was receiving favorable treatment from Chiara,
she drove her own car to the office rather than commute with Chiara and two
other women who lived in Lansing and worked at the USAO. She said that
after she moved to Lansing and rented her own apartment, she joined a car
pool with Chiara and the two other USAO employees.

      Both Chiara and the AUSA told us that they traveled together
occasionally on business relating to meetings of the Native American Issues
Subcommittee of the AGAC. Both said that they also took a vacation day on
one such trip to Seattle to enjoy the sights. Chiara also said that the AUSA has
stayed at Chiara’s house in South Carolina a couple of times with her. The


that Chiara told the hiring committee she was leaving the choice up to them. According to
Green, the committee reached a consensus that the AUSA was the best qualified applicant.
However, Gross told us that he opposed hiring the AUSA because he believed that another
candidate was more qualified. He said there was no consensus on the committee for or against
the AUSA, and he thought the decision to hire her was probably made by Chiara and Green.
When we informed Chiara that Gross said that he had opposed the AUSA’s hiring, Chiara said
she had not known that and that she had been told the AUSA’s selection was unanimous.




                                           294
AUSA told us that she stayed at the South Carolina house at least one time
without Chiara.

                        (2)    Rumors about their relationship

       As noted above, an EARS team evaluated the USAO during the week of
July 12-16, 2004. The EARS team leader was the First Assistant from another
U.S. Attorney’s Office. He told us that as part of the EARS process, he and his
team provided questionnaires to, and then interviewed, virtually all USAO
employees. The questionnaires and interviews sought employee views on the
office and any problems or issues that they thought merited the EARS team’s
attention.

       The EARS leader said that the team heard only one rumor about a
relationship between Chiara and the AUSA during their week in the U.S.
Attorney’s Office. The leader said the rumor was so vague that he did not feel it
warranted any mention in the report, or any follow up or independent
investigation. He said he did not recall who made the allegation about the
relationship, but he recalled that Joan Meyer did not provide this information
or other negative information about Chiara or the office. The EARS leader said
that he probably did not tell anyone outside the EARS team members about the
rumor, but that if he had done so it would only have been to the EARS staff in
EOUSA in Washington, D.C.

      Lloyd Meyer told us that he told the EARS team about the allegations
concerning Chiara’s sexual relationship with the AUSA. He said that he
understood that many AUSAs had told the EARS team about the rumors and
that the rumors had circulated in the USAO since 2002.

      The EARS team leader said that the EARS team did hear several
complaints about inequitable distribution of awards, and that some of those
complaints specifically concerned the AUSA. The leader said that he reviewed
the AUSA’s awards and concluded that they were justified because the AUSA
prosecuted matters that no one else in the USAO wanted to prosecute, that she
did so in a location far from the main office requiring considerable travel, and
that she worked long hours.

       According to former First Assistant Green, the rumors about a sexual
relationship between Chiara and the AUSA began in the fall of 2004. Green
attributed the rumors to Joan and Lloyd Meyer. He said that the rumors began
to circulate after the announcement of an EOUSA Director’s Award in the fall of
2004. According to Green, the AUSA’s immediate supervisor had nominated
her for the award, while Lloyd Meyer had nominated himself and another AUSA
who tried a case with him. Chiara submitted both award nominations to
EOUSA, which made the decision to give a Director’s Award to the AUSA but




                                      295
not to Lloyd Meyer or his co-counsel. 186 According to Green, Lloyd Meyer “went
ballistic” when he learned that the AUSA had won the award and he did not.
Green said he believed the Director’s Award fueled the rumors regarding a
relationship between Chiara and the AUSA. Lloyd Meyer told us that he
thought Chiara pulled strings at EOUSA to get the AUSA the award, although
he admitted he had no evidence to support his assertion.

       The AUSA told us that although she had heard complaints about
favoritism towards her before receiving the award, the complaints intensified in
the fall of 2004 after she won the Director’s Award. Chiara told us that Lloyd
Meyer mounted a “campaign” to undermine her and drive the AUSA from the
district after the AUSA won the award.

       Green said that he knew that Lloyd Meyer, even more than Joan Meyer,
was spreading rumors about an intimate relationship between Chiara and the
AUSA. Green told us he confronted Joan Meyer in the fall of 2004 concerning
the rumors, and Green said that Joan Meyer confirmed that Lloyd Meyer was
“telling everyone.” Green said that he told Joan Meyer emphatically that the
rumors were false. 187 He said that Joan Meyer insisted to him that she knew
better and cited the example that Chiara and the AUSA had been seen driving
into work together and therefore must be living together because the AUSA’s
residence was a considerable distance from Grand Rapids. Green told us that
he told Joan Meyer that the AUSA had an apartment in Lansing and often
drove to the office with Chiara.

       Joan Meyer told us that she had “speculated” to people in the office
about the relationship between Chiara and the AUSA. When we asked Meyer
about the basis for her speculation, she said she “had been noticing
situations,” “putting two and two together,” “talking to people,” and came to
believe that Chiara and the AUSA were living together. Meyer said she based
her conjecture regarding their living arrangement on her observation that
Chiara and the AUSA were driving to and from work together every day when
the AUSA’s permanent residence was on the east side of the state, 6 hours
from Grand Rapids.

      Green also said that when he confronted Joan Meyer about the rumors
in the fall of 2004, she mentioned to him a “huge award” of approximately
$20,000 that the AUSA had allegedly received. Green said he started laughing


       186 Green said he submitted both nominations in different categories to avoid having

colleagues competing against each other. Green also told us that he reviewed and finalized the
award submissions and that Chiara only signed off on them.
       187  Green told us that Chiara and the AUSA were friends and nothing more. He said he
was as “certain as [he] could be about two people who did not live” with him that they were not
involved in a sexual or romantic relationship.




                                             296
and told Meyer that the allegation was “preposterous” and explained to her that
he came up with the office bonus amounts, not Chiara. He said that although
he thought his response “struck a chord” with Meyer, the rumors persisted.

       Green told us that the bonus rumors may have been started because of a
change in the bonus award process Chiara instituted in the office in the spring
of 2004. He said Chiara made the decision to award bonuses only to
employees who received “outstanding” performance evaluations for the previous
rating year. Green said under the new award process he made the
recommendations as to the amounts to be awarded and Chiara talked to the
supervisors to make sure that they were in agreement with the bonus
recommendations. Green said it was his understanding that no supervisor
voiced any objections to the new award system. This process, however,
deviated from the past practice in the office under which the management team
collectively determined the award recipients and the amounts of the bonuses.
Green said he believed the change fueled rumors that the bonus determination
process was “secretive” and that Chiara was “pulling the strings.” Green told
us that he had devised the formula to determine the recommended bonus
amount for each prospective awardee, and said he did not recall any instance
in which the final bonus amount deviated from his recommendation.

      Both Meyers also alleged to us that in December 2004 an incident
occurred that generated further allegations of Chiara’s favoritism towards the
AUSA. They alleged that Chiara directed the AUSA’s supervisor to give the
AUSA a time-off award after her completion of a trial, against the
recommendation of the AUSA’s immediate supervisor.

       We determined that on December 28, 2004, Chiara sent an e-mail to the
AUSA’s supervisor concerning time-off awards for several people, including the
AUSA, who had been involved in a trial. Chiara’s e-mail stated that the AUSA
deserved “no less than 32 and could easily be given 40 hours for pulling off this
difficult evidentiary case against exceptionally tough odds.” Chiara also
recommended a 24-hour award for an AUSA who had been “2nd chair” at the
same trial, a 16-hour award for an employee who worked through the weekend
in connection with the trial, and 4 and 0 hours, respectively, for two other
employees involved in the trial. Chiara told us that she believed the AUSA
merited a 32 or 40 hour time-off award because of the difficult preparation
work for the trial, especially during the winter in Michigan’s Upper Peninsula.

      In a reply e-mail, the supervisor stated that he had intended to submit
16-hour awards for the AUSA, the second-chair AUSA, and the employee who
had worked through the weekend. He also said he would have submitted 4-
and 8-hour awards for the two other employees. The supervisor also noted in
the e-mail that while Chiara could increase the awards for the AUSA and the
second chair AUSA, he was reluctant to propose such large time-off awards for



                                      297
a 3-day trial. He stated that time-off awards were generally limited to 8 to 16
hours for week-long trials.

       According to EOUSA records, the AUSA received a 16-hour time off
award, effective January 9, 2005. EOUSA records also show that two of the
staff mentioned in the e-mail exchange between Chiara and the supervisor
received 16-hour time off awards, and one employee received a 4-hour time off
award. Thus, contrary to the Meyers’ assertion that Chiara gave the AUSA an
award against her supervisor’s recommendation, it appears that the supervisor
intended to nominate the AUSA for an award independent of Chiara’s
suggestion, and that Chiara did not overrule the supervisor regarding the size
of the time-off award.

       Joan Meyer also asserted to us that the AUSA received a
disproportionate amount of bonuses and time-off awards compared to other
employees. Meyer said she “had no doubt” that the AUSA received “18 percent
of the bonus pool” allocated for the 40 attorneys in the office. Both Meyers
claimed that the AUSA received unmerited bonuses, and cited a story in the
Grand Rapids Press on March 14, 2007, which included the allegation that the
AUSA received 14% of the bonus money “paid to two dozen assistants.”

       Our review of bonus records maintained by EOUSA showed that for the
2004 fiscal year (October 1, 2003, to September 30, 2004, before the
allegations first surfaced), the AUSA received a $5,000 bonus. No other
employee received a higher bonus, but four other line AUSAs, including Joan
Meyer, received the same amount. The AUSA also received one “spot award” of
less than $500, which brought her total award money for the year slightly
above the other four. Other AUSAs in the office received lesser bonus
amounts. The AUSA’s total award comprised roughly 9% of the total bonus
pool for attorneys during that fiscal year. EOUSA records show that in the
subsequent year, the AUSA received a “Special Act or Service Award” of $500
and a $3,000 bonus that was matched or exceeded by seven other AUSAs. The
AUSA’s percentage of the bonus pool for attorneys that year was roughly 7%.

      Joan Meyer claimed that Chiara made the bonus decisions, and Meyer
said she was unaware that anyone else played a role in the bonus
determination. We found, however, that Green made the determinations
regarding both recipients and amounts for the 2004 fiscal year, the first year
that bonus amounts were called into question. 188 As described above, Green
told us he explained to Joan Meyer his role in determining attorney bonuses.


       188 Green was not involved in the bonus determinations for the 2005 fiscal year

because he had stepped down as First Assistant by that time. Gross, his replacement as First
Assistant, told us that Chiara participated in choosing the recipients and award amounts.
Chiara told us that after much discussion, she and Gross came to a “consensus” about bonus
(Cont’d.)


                                            298
                      b.     Meyer Confronts Chiara About her Relationship
                             with the AUSA

       In January 2005, Green stepped down as First Assistant and took a
position as a line AUSA in the USAO’s Criminal Division. Green told us that he
stepped down “predominantly” because of the Meyers. He said that the rumors
they were spreading about Chiara and the AUSA were “the straw that broke the
camel’s back.”

      Green said that while the office had morale issues under Chiara, it had
had morale issues under Chiara’s predecessor as well. He told us that he did
not believe that there were widespread morale issues during Chiara’s tenure
and said that the 2004 EARS evaluation supported his belief. He also said that
what morale problems existed were “driven by” the Meyers. Green said that the
rumors about Chiara and the AUSA living together did not interfere with the
functioning of the office “to any great extent.” He said that aside from the
Meyers, no one ever told him that Chiara was not competent to be the U.S.
Attorney.

      After Green stepped down, Chuck Gross was named First Assistant and
Joan Meyer was selected as Criminal Chief. According to Chiara, she chose
Gross as First Assistant and Meyer as Criminal Chief based upon Green’s
recommendation. She said Green reasoned that Gross was close to Meyer and
could keep her “on track with her criminal [chief] responsibilities.”

      After a few months, however, the new management team was in conflict.
One of Joan Meyer’s new responsibilities as Criminal Chief was to supervise
the AUSA. Meyer told us that her concern about the relationship between
Chiara and the AUSA had “nothing to do with any purported homosexuality”
but related to the impact the relationship had on Meyer’s ability to supervise
the AUSA. Meyer said she believed the relationship between Chiara and the
AUSA made the AUSA “virtually unsupervisable.”

       Shortly after she became Criminal Chief, Joan Meyer asked Chiara
directly if she was living with the AUSA. Meyer told us that being a “good
supervisor and wanting to get it on the table,” she confronted Chiara in First
Assistant Gross’s presence about the alleged relationship. Meyer said she told
Chiara that it would be impossible to supervise the AUSA if she was living with
Chiara. According to Meyer, Chiara told her not to assume anything. Meyer
said she then asked Chiara directly if she and the AUSA were living together,
but Chiara expressly declined to answer the question, telling Meyer it was
irrelevant to her job and that she expected Meyer to supervise the AUSA.


amounts for that year. Chiara told us that she did not recall disagreeing with Gross over the
bonus amount for the AUSA.




                                             299
       Chiara confirmed that Meyer confronted her in early 2005 about the
relationship. According to Chiara, Meyer said that she could not supervise the
AUSA because of Chiara’s interference. Chiara said Meyer asked her directly if
the two had a personal relationship. Chiara told us she probably responded
that Meyer had no right to ask that question.

      Chiara told us that after the confrontation, she gradually became aware
that the allegation about her relationship with the AUSA had become “an office-
wide issue.” Chiara told us that because of the “reign of terror” spread by
Lloyd and Joan Meyer in 2005, her office had become a “disaster.” However,
Chiara told us that she never considered directly addressing this issue either
with Joan Meyer or within the office. She also told us that she never
considered formally removing herself from personnel decisions affecting the
AUSA, such as awards and performance evaluations. Chiara said that she had
other friends in the USAO besides the AUSA, and that she did not consider
removing herself from decisions concerning them.

      Joan Meyer said she believed the AUSA had numerous deficiencies in her
performance. In addition, Meyer said she also started raising questions about
the AUSA’s travel because the AUSA was “disappearing” to numerous
seminars, which Meyer said depleted the office’s travel budget and required
others to do the work the AUSA left behind. Meyer said the AUSA’s travel
authorizations were handled without her knowledge or approval. Meyer said
she did not know who actually signed off on the AUSA’s travel authorizations,
but assumed it was Chiara. Chiara denied that she routinely signed off on the
AUSA’s travel authorizations, but said she would sign them in an emergency,
as she would for any employee.

      E-mails reflect that Joan Meyer raised these issues with Chiara in the
spring and summer of 2005. On May 23, 2005, Meyer complained in an e-mail
to Chiara and Gross about the AUSA’s performance and excessive travel. We
did not find any response to Meyer’s e-mail.

       On July 12, 2005, Meyer sent another e-mail to Chiara and Gross
commenting that the AUSA was seeking a detail in Washington, D.C. and
noting that Meyer’s relationship with Chiara had “significantly deteriorated.”
On July 28, 2005, Meyer sent Chiara another e-mail complaining about her
inability to supervise the AUSA, and stating that the AUSA had “unfettered
professional and personnel access” to Chiara. Again, we found no responses to
Meyer’s e-mails.

       In July 2005, Lloyd Meyer accepted a detail to the Office of Legal Policy
in Washington, D.C. He said he took the detail because “the situation in that
office was intolerable.”




                                       300
     By September 2005, the relationship between Joan Meyer and the AUSA
had become so strained that Chiara removed the AUSA from Meyer’s
supervision and assigned her to another supervisor on Chiara’s management
team. According to Chiara, Joan Meyer had stopped speaking with the AUSA.

       In October 2005, the AUSA accepted a detail to EOUSA in Washington,
D.C.

            3.    Chiara Requests Assistance from EOUSA

      In the fall of 2005, Chiara called EOUSA General Counsel Scott Schools
and asked for his help to “resolve conflicts” between herself and her principal
managers, Gross and Joan Meyer. According to Schools, Chiara believed that
Meyer was “undermining her authority with her subordinates” and that Gross
was “not supportive enough of her efforts to manage the office.” Schools
decided to visit the USAO, and before the visit he spoke by telephone with
Meyer and Green.

      According to Schools’s written notes of his pre-meeting telephone
conversations, Meyer asserted that Chiara was engaged in a relationship of a
“secretive nature” with a female AUSA that resulted in the AUSA being
rewarded excessively for her work. Schools’s notes state that Meyer told
Schools that Chiara and the AUSA were seen arriving at and leaving the office
together and taking the same vacation days; that the relationship was an “open
and notorious problem in the district”; and that the AUSA was being “singled
out for awards” she did not deserve, and as a consequence morale in the office
was “very low.”

      Schools’s notes also reflect that Green disputed Meyer’s contentions that
there was an inappropriate relationship between Chiara and the AUSA or that
Chiara gave preferential treatment to the AUSA. Green attributed the turmoil
in the office to the Meyers, whom he described as “two troublesome AUSAs who
have their own agenda” and were “spreading rumors” that Chiara and the
AUSA were “living together and sleeping together.”

      On September 14, 2005, Schools met with Chiara, Gross, and Joan
Meyer at a private attorney’s office in Grand Rapids, Michigan, in an effort to
resolve the differences among them. The three agreed upon guidelines
proposed by Schools to improve communication within the management team,
and they agreed to work together for the good of the office. According to
Schools, the issue of Chiara’s alleged relationship with the AUSA was not
discussed. Chiara told us that she probably discussed the favoritism
allegations with Schools, but said that that issue was only “one factor” out of
many causing the management problems in her office.

       We asked Schools if he came to any conclusion after his visit to the
district about the management team in the office, and whether it appeared


                                      301
effective or in disarray. Schools responded, “I would say it was closer to the
disarray side.” When asked how much of the disarray was attributable to Joan
Meyer’s allegation about the relationship between Chiara and the AUSA,
Schools answered that he viewed the allegation as “a little bit tangential.”
According to Schools, there was a “perception” by Meyer about the nature of
Chiara’s relationship with the AUSA, but the larger complaint Meyer expressed
was that “Ms. Chiara was a poor manager overall and the issues regarding [the
AUSA] were a component of that but not the real driving issue behind the
problem.”

       Upon returning to EOUSA, Schools reported to Margolis on his meeting
with Chiara and her managers. Schools said he gave Margolis his opinion that
the office was in a “difficult situation”; that Chiara was “frustrated”; and that
Schools was “not optimistic” that the management problems would be resolved.
Schools said he told Margolis about Meyer’s allegation about the relationship
between Chiara and the AUSA “even though at that point it wasn’t explicitly
stated.”

        Schools said he also discussed with Margolis whether Meyer’s allegation
regarding Chiara’s and the AUSA’s relationship should be referred to the Office
of the Inspector General (OIG) for investigation. Schools told us he considered
it “a close question,” but that both he and Margolis believed the information
furnished by Meyer was “too vague and insubstantial to merit referral to the
OIG at that time.” In describing his decision not to refer the matter, Margolis
told us that there was not a “threshold showing” that Chiara and the AUSA
were engaged in an intimate relationship.

            4.    Additional Incidents

       We found that Schools’s meeting with the three officials did not improve
matters in the U.S. Attorney’s Office. On November 5, 2005, Gross sent Chiara
a draft performance evaluation for the AUSA. Gross told us that the draft
contained ratings for five job-related elements, and that he had given the AUSA
a rating of “satisfactory” on four elements and “outstanding” on one element.

       Gross said that Chiara pressured him to give the AUSA a more favorable
evaluation. According to Gross, Chiara told him that the evaluation did not
reflect the quality of the AUSA’s work, and that the AUSA would give Gross a
binder of materials that he should consider when revising her performance
evaluation. Gross said that Chiara did not directly tell him to change two of
the four “satisfactory” ratings to “outstanding” so the AUSA would receive an
overall rating of “outstanding,” but Gross said he was “confident” that had he
not done so, Chiara would have given the evaluation back to him again.

      Chiara told us that she believed that Joan Meyer drafted the AUSA’s
evaluation, or that Meyer told Gross what to write. Chiara told us that she



                                      302
thought Gross’s draft evaluation was “outrageous” because the AUSA deserved
an overall “outstanding” rating based on her work. Chiara said she told Gross
to speak to judges and others who knew the AUSA’s work, but Chiara said she
did not recall telling Gross that the AUSA would give him a binder of materials.

      Gross said that after reviewing the materials the AUSA gave him and
talking to a federal magistrate and others who knew her work, he believed that
he should revise one of the “satisfactory” elements to “outstanding.” However,
he said he did not feel that he should raise any other “satisfactory” rating.
Gross said he ultimately changed the rating for one additional element to
“outstanding” because he wanted Chiara to sign off on Joan Meyer’s
performance evaluation, who Gross had rated overall as “outstanding.” Gross
said that he presented both the revised AUSA’s and Meyer’s evaluations to
Chiara, put them on her desk, and told her they were “connected.” Chiara
approved both evaluations. However, Chiara denied that her acceptance of the
two evaluations was connected.

      In a second incident, on November 6, 2005, Joan Meyer sent Chiara an
e-mail commenting on the fact that the AUSA was receiving travel
reimbursements from the office travel budget for her trips back to Michigan
from Washington, D.C., although as described above the AUSA was on detail at
the time to EOUSA. Meyer stated in the e-mail that even though the AUSA was
on detail, other AUSAs perceived that her travel expense reimbursements
showed favoritism because the office travel budget was tight. Meyer also stated
that the AUSA had received two case-of-the-year awards from the USAO, and
the second award was not recommended by the Criminal Division supervisors
or the First Assistant. Meyer told Chiara that “many cases went unrecognized
that were more meritorious” and that the AUSA’s receipt of the second award
was “perceived” to be the result of Chiara’s favoritism. We found no response
by Chiara to Meyer’s e-mail. Chiara did not recall responding to this e-mail,
but said she thought that if she responded it would have been orally.

      Two days later, on November 8, 2005, Chiara sent an e-mail to Schools
reporting that “the situation here continues to deteriorate” and welcoming any
suggestions he might have. Chiara said that she may have sent this e-mail in
part because of Meyer’s e-mail to her 2 days earlier.

       We did not find a specific response from Schools to this e-mail. However,
in December 2005, after Meyer had announced her impending departure for a
detail in the Office of the Deputy Attorney General, Schools suggested to Chiara
that she advertise the positions of First Assistant and Criminal Chief.

            5.    The Relationship Rumors Spread

     In late January 2006, Joan Meyer stepped down as Criminal Chief and
began a detail in Washington, D.C., as a Counselor in the Office of the Deputy



                                      303
Attorney General. As noted above, her husband Lloyd Meyer had previously
accepted a detail to OLP in July 2005, and the AUSA had accepted a detail to
EOUSA in October 2005.

       Most senior Department officials we interviewed who were involved in the
removal of the U.S. Attorneys said they were aware of the allegations about the
turmoil in Chiara’s office and about an alleged relationship between Chiara and
a female AUSA (though many did not know the identity of the AUSA). Several
said they heard the allegations directly from Joan Meyer after she began her
detail with the Deputy Attorney General’s Office in late January 2006. 189

       Sampson told congressional investigators that he spoke to Margolis
frequently about issues with U.S. Attorneys, and he had a “hazy recollection of
him expressing or acknowledging concerns about Ms. Chiara.” According to
Sampson, both Goodling and Elston also expressed concerns about Chiara
“late in the [removal] process.” He said he remembered thinking at the time
that the concerns raised by Elston – that Chiara’s office was “fractured . . . and
Ms. Chiara was not able to manage the in-fighting” – might have been
generated by Joan Meyer.

       In his interview with us, Sampson said that he heard from Goodling and
Elston that “there were management difficulties and that [Chiara] was not the
strongest of USAs.” He also stated that he was aware of an allegation that
Chiara was engaged in a romantic relationship with a female AUSA in her
office. Sampson said that allegation came to his attention either directly from
Joan Meyer or indirectly from Meyer through Elston. In addition, Sampson
said that after Chiara’s name had appeared on Sampson’s first two removal
lists and after Meyer had started in the Deputy Attorney General’s Office, he
had the “perception that the office was a disaster.”

       As discussed above, Margolis told us that he either recommended Chiara
for removal or endorsed her removal in late 2004 or early 2005 when Sampson
first raised her name. In addition, Margolis told us that Joan Meyer first
broached with him the subject of the alleged relationship between Chiara and
the AUSA sometime in early 2006, shortly after Meyer began her detail with the

       189  Joan Meyer denied spreading rumors about Chiara and the AUSA living together.
However, we found numerous e-mails from Meyer in 2006 when she was in the Deputy
Attorney General’s Office in which she made such allegations. We found e-mails from Meyer to
seven different people in the USAO and to her husband in which she alleged that the AUSA was
Chiara’s “live-in girlfriend”; that Chiara’s conduct evidenced “unfair treatment, blatant
favoritism and the promotion of [Chiara’s] live-in girlfriend’s career at the expense of a
government budget”; that “[the AUSA] is either keeping her job or walking out of our office with
bonuses, a salary history and awards that she received, not because she deserved them, but
because she is living with and vacationing with the US Attorney who is her life partner
(whatever that means);” and that there was “the substantial likelihood that Chiara is benefiting
financially from the bonuses and salary increases she is awarding [the AUSA].”




                                             304
Deputy Attorney General’s Office. According to Margolis, Meyer asserted that
Chiara and the AUSA were living together. When Margolis asked Meyer how
she knew this, she replied that Chiara and the AUSA would drive off together at
the end of the day and that since Meyer knew that the AUSA lived too far away
to commute, she inferred that the two must have been living together at
Chiara’s house. According to Margolis, after Meyer disclosed her observations
and conclusions, she told Margolis that he had to report it to the OIG.
Margolis told us that he told Meyer he was not a messenger and that she would
have to report it herself since she was the one who claimed knowledge of the
relationship. 190

      Other senior Department officials also became aware of the rumors
surrounding Chiara and the AUSA before Chiara was removed. Goodling
declined to speak with us, but as described in our previous report on politicized
hiring by Goodling and others in the Office of the Attorney General, we found
that Goodling was aware of the rumors of a sexual relationship between the
AUSA and Chiara. 191 In fact, Goodling acted on those rumors by terminating
the AUSA’s detail at EOUSA after EOUSA had agreed to extend her detail for a
second year. In addition, we found that Goodling attempted to prevent the
AUSA from obtaining two other details in the Department. However, we did not
find any evidence that Goodling recommended Chiara’s removal.

      McNulty also told us that he was aware of the allegations about Chiara
and “a female employee.” McNulty said he could not remember the source of
the rumor, but he “heard that Joan [Meyer] had made some comment that had
come up in the office about the relationship.”

       Elston said he was aware of the allegation that Chiara and the AUSA
were living together and that their relationship had caused problems in the
office. Elston said the source of this information was “primarily” Joan Meyer.
However, Elston told us their “living together” was not the important issue to


       190   Meyer did not report her allegations to the OIG. However, in August 2006 Meyer
was interviewed in connection with an OPR investigation regarding anonymous allegations
against former First Assistant Phil Green, which we discuss below. In her interview, Meyer
raised with OPR the same allegations about Chiara and the AUSA even though they were
unrelated to the pending investigation for which she was interviewed. She asked OPR to
investigate or to refer the matter to the OIG. OPR informed Meyer that the allegations fell
within the jurisdiction of the OIG and advised her to report the matter to the OIG if she
believed that she had evidence to support the allegations. Meyer never did so. Meyer later told
us that she never reported the allegations because “I was on [Chiara’s] payroll . . . She was in
control of my bonuses, my salary levels . . . I wasn’t going to sign some sort of formal
referral . . . while I was on her payroll.” Meyer also noted that she had reported the allegations
to Schools and Margolis.
       191 See An Investigation of Allegations of Politicized Hiring’s by Monica Goodling and

Other Staff in the Office of the Attorney General, pp. 128-130.




                                              305
him with regard to Chiara. He said that the alleged favoritism in bonus awards
was the important issue because of the effect it had on office morale.

      Rachel Brand, then Assistant Attorney General for the Office of Legal
Policy (OLP), was also aware of the relationship allegations. Brand said that
Lloyd Meyer, then on detail to OLP, had complained to her “many times” about
Chiara’s leadership and had claimed that Chiara was engaged in an
inappropriate relationship with a female AUSA in the office. According to
Brand, Lloyd Meyer told her that “everyone” knew the two were living together
and that the AUSA was receiving the largest bonuses in the office. Brand said
she also discussed these issues with Joan Meyer, then on detail to the Office of
the Deputy Attorney General. Brand said she thought it “possible” that she
conveyed to Sampson what she heard from the Meyers. 192

       Joan Meyer denied telling Sampson and McNulty her allegations about
Chiara and the AUSA, but acknowledged having a conversation with Elston
“sometime in 2006,” about the AUSA. She said she “may have even told
[Elston] the story” about confronting Chiara about her living arrangements
with the AUSA. Meyer told us that “I’ve never had extensive conversations with
anybody in the Office of the Deputy Attorney General about Margaret Chiara.”
She said she discussed the Chiara-AUSA relationship with Margolis “a little bit”
in early 2006.

              6.     Chiara’s Request for an OPR Investigation

      In June 2006, First Assistant Gross left the USAO for a detail to Iraq. He
said that by the time he left the office “morale was bad.” Gross said he and
some other managers had “lost faith in [Chiara’s] ability to lead the office.”
Gross said that the use of the word “fractured” to describe the USAO was not
unfair. He told us that by that time “the vast majority” of staff thought Chiara
was doing “a poor job or at best an okay job.”

       In July 2006, three anonymous letters were sent to the Senate Judiciary
Committee challenging the nomination of Green, Chiara’s former First
Assistant, to be the U.S. Attorney for the Southern District of Illinois. The
letters were referred to OPR by Illinois Senator Richard Durbin. OPR
subsequently initiated an investigation.

       192 In connection with his January 9, 2006, U.S. Attorney removal list, Sampson had
proposed to Harriet Miers that Brand replace Chiara. In a subsequent e-mail to Deputy White
House Counsel William Kelley on May 11, 2006, Sampson asked Kelley to call him to discuss
“Rachel Brand for W.D. Mich.” Brand told us that sometime in 2006 Sampson broached the
subject of her replacing Chiara as U.S. Attorney in Western Michigan. According to Brand, she
and Sampson were good friends and he knew she had roots in Michigan and had previously
expressed to him a general interest in becoming a U.S. Attorney. Brand eventually withdrew
her name from consideration for the U.S. Attorney position for personal reasons.




                                            306
      In August 2006, Chiara asked the Department to conduct an
investigation into who had sent the anonymous letters to the Senate Judiciary
Committee. Chiara and others believed Lloyd Meyer had sent them, and
Chiara believed the statements in the letters were deliberate falsehoods.

      On October 2, 2006, after learning that the decision on whether to grant
her request would be made by the Deputy Attorney General’s Office, Chiara
sent an e-mail to Elston and Margolis inquiring into the status of her request
for an investigation into the source of the anonymous letters. Chiara sent
another e-mail on October 4 to Margolis, requesting an opportunity to meet
with him in Washington, D.C., or Grand Rapids so that she and her “senior
management team” could more effectively convey the “severity and import of
our office and district situation.” In her e-mails to Margolis and others, Chiara
said that this issue was important to her office because she believed one of her
employees deliberately gave false and malicious information to the Senate, and
because the anonymous letters were having an adverse effect on her office.

       On October 6, Margolis forwarded several of Chiara’s e-mails to Elston,
Schools, and Moschella, among others. Elston responded to Margolis’s e-mail
by stating: “Perhaps it is time for her to move on if she can’t manage her
office.”

       On October 18, 2006, Margolis sent a lengthy e-mail to Chiara, denying
her request for an investigation into the source of the anonymous letters. In
explaining his decision, Margolis cited the Whistleblower Protection Act (WPA),
5 U.S.C. § 2302, and pointed out that, given the investigation undertaken by
OPR into Green’s alleged conduct, a parallel investigation into the source of
those allegations would “serve little purpose other than to identify the
individual possibly entitled to protection under the WPA.” Margolis also
pointed out that because the Senate Judiciary Committee asked OPR to
investigate the merits of the allegations against Green, the Committee might
well view the Department as more interested in retaliating against an employee
who disclosed misconduct to Congress than in ascertaining the truth about the
misconduct allegations. Margolis informed Chiara that he had determined that
the best interests of the Department would not be served by conducting the
investigation she requested.

       Chiara was not satisfied with Margolis’s decision and asked to meet with
McNulty, Margolis, and Schools in Washington, D.C. The meeting was held on
the afternoon on October 19, 2006. Margolis’s decision was not altered.

      According to Elston, Chiara’s persistence in advocating for the
investigation struck him as “weird.” He told us that “everyone” thought such
an investigation was a bad idea, but that Chiara kept pushing for it anyway.




                                      307
      Margolis told us that he had concerns about Chiara’s performance long
before the issue of her request for an investigation arose, but he said he was
troubled by her request because it seemed Chiara was more interested in
finding and punishing the anonymous letter writer than in ascertaining the
truth or falsity of the allegations.

            7.    Chiara is Given Advance Notice of Her Removal

       In early November 2006, Chiara called Elston and broached the subject
of taking a leave of absence from her U.S. Attorney position for a potential
position as the interim dean of the Michigan State University Law School. After
consulting with Sampson, Elston called Chiara on November 3 and informed
her that a leave of absence was not an option, but that she should consider
accepting the position anyway because the White House was likely to request
her resignation shortly after the upcoming mid-term elections. According to
Chiara, Elston stated to her that the mid-term election projections for
Republican candidates were dim and that she was likely to be one of a number
of U.S. Attorneys who would be asked to resign in order to accommodate
unsuccessful Republican congressional candidates. According to Chiara,
neither Elston nor any other Department official ever gave her any other
explanation for the subsequent resignation request.

       Elston told us that he was “trying to do her a favor” when he told Chiara
of the possibility that her resignation would be requested after the election. He
said he knew that Chiara’s name was on Sampson’s removal list and that
action was expected to be taken shortly. He said he learned from Margolis that
a leave of absence from a U.S. Attorney position was not permissible, and he
said he did not want to see Chiara pass up an opportunity when he knew what
she did not know – that her removal was in the offing. Elston said he did not
recall telling Chiara that her position would be needed for an unsuccessful
Republican congressional candidate, but acknowledged that “he beat around
the bush in a big way” when Chiara asked him why her resignation might be
sought. Elston said he told her he did not know the answer but offered
“hypothetical possibilities,” including political accommodation. Elston also told
us that he was instructed by Sampson not to disclose the reason for the likely
resignation request or to tell Chiara that her resignation would be requested.

       After speaking with Elston, Chiara sent an e-mail to McNulty on
November 5, 2006, asking for an explanation as to the reasons for the
anticipated resignation request and expressed her dismay about Elston’s “dire
prediction.” In a subsequent e-mail on November 7, Chiara asked McNulty to
tell her why she would be asked to resign “as soon as the ‘election dust
settles.’”




                                      308
            8.    Chiara’s Removal

       Like the other U.S. Attorneys, Chiara received a telephone call from
EOUSA Director Battle on December 7, 2006, asking for her resignation. As he
told the other U.S. Attorneys, Battle said that the Administration appreciated
her service but wanted to give someone else the opportunity to serve. After
Battle’s call, Chiara immediately asked McNulty for additional time beyond the
January 31, 2007, resignation date proposed by Battle. Chiara was granted 2
extensions, the first for 1 month, and the second for a shorter period.

       On February 1, 2007, Chiara sent an e-mail to McNulty in which she
noted that news reports concerning other departing U.S. Attorneys indicated
that they had been asked to leave for one of two reasons: failure to meet
expectations or failure to follow Department directives. Chiara contended that
she fit into neither category, and asked directly: “Why have I been asked to
resign? The real reason, especially if true, would be a lot easier to live with.”
McNulty did not respond to the e-mail.

       On February 23, 2007, Chiara announced her resignation, and she left
office on March 16, 2007.


III.   Analysis

    Based on our investigation, we concluded that concern about Chiara’s
management of the U.S. Attorney’s Office was the reason for her removal.

       Before Sampson created his first U.S. Attorney removal list in March
2005, Margolis recommended to him that Chiara be replaced. Margolis said he
had serious questions about Chiara because of her leadership and
temperament, and because of the turmoil in her office. Margolis told us that he
began having these questions when he was contacted by a former Department
of Justice official who had recommended Chiara for the U.S. Attorney position
in 2001. This official, who said he was aware of events within Chiara’s office
and whom Margolis knew well and respected highly, told Margolis that Chiara
was “divisive” and that her office was “in turmoil.” Margolis said that his
questions about Chiara became more serious and his recommendation in favor
of her removal became stronger as time went on. Based on Margolis’s
recommendation, Sampson included Chiara on his first removal list, and she
remained on every subsequent list until she was called by EOUSA Director
Battle and told to resign on December 7, 2006.

        We also assessed the allegations about Chiara that came to the attention
of the Department’s senior officials after she was first placed on the removal
list, including an allegation that she showed favoritism toward a subordinate
AUSA and a rumor that she was having a sexual or romantic relationship with
that AUSA. We believe the allegation of favoritism by Chiara towards the AUSA


                                       309
in her office, and Chiara’s handling of the resulting turmoil, contributed to
Margolis’s and other Department leaders’ concerns about her management.
However, we did not conclude that the allegation that Chiara had a sexual
relationship with the AUSA was the reason for her removal, as Chiara
subsequently asserted.

       As part of our investigation into the reasons for Chiara’s removal, we
examined how she and the Department handled the turmoil in her office. In
September 2005, EOUSA General Counsel Schools traveled to her district to
help resolve conflicts between herself and her principal managers, the First
Assistant and Criminal Chief. After Schools’s intervention, however, the
conflicts did not abate. Even after that, Chiara interceded in a supervisor’s
performance evaluation of the AUSA she was alleged to be showing favoritism
toward, and the conflicts in the office intensified.

       We found that Chiara did not adequately address allegations about
favoritism towards the AUSA. Regardless of the nature of their relationship,
Chiara had interactions with the AUSA – who on occasion stayed in Chiara’s
basement apartment and sometimes walked Chiara’s dog when Chiara was on
travel – that resulted in questions of favoritism between a supervisor and a
subordinate. Chiara’s Criminal Chief, Joan Meyer, squarely confronted Chiara
with the issue of favoritism and alleged that it was affecting Meyer’s ability to
supervise the AUSA and causing serious division within the office. This was a
management issue that Chiara should have addressed. However, Chiara
refused to address the questions directly and did not take action to abate the
favoritism concerns.

       Chiara had several opportunities to address this issue. She could have,
for example, removed herself from significant decisions affecting the AUSA in
order to quell the concerns about favoritism. She could also have discussed
the allegations and an appropriate course of action to address them with
Schools. She did not do so. Instead, Chiara exacerbated the favoritism
concerns by intervening in the performance rating of the AUSA, and pressuring
the AUSA’s supervisor to raise the AUSA’s overall performance evaluation from
“satisfactory” to “outstanding.”

      We also found that shortly before Chiara was informed that she would be
removed, Margolis and other Department officials concluded that she exhibited
poor judgment in another matter. An anonymous source had made allegations
against Chiara’s former First Assistant, Phil Green, after he was nominated for
another U.S. Attorney position, and OPR initiated an investigation into these
allegations. However, Chiara repeatedly insisted that the Department
investigate the source of the anonymous allegations, who Chiara believed to be
Lloyd Meyer. Margolis said he reached the conclusion that Chiara was more
interested in punishing the anonymous source than in finding out the truth of



                                      310
the allegations, and he believed that Chiara’s actions in this matter raised
further concerns about her judgment.

       While we do not believe the Department’s removal of Chiara was
inappropriate, we also do not condone the rumors and allegations that Joan
and Lloyd Meyer spread about Chiara and the nature of her relationship with
the AUSA. Although both Meyers have left the Department, we believe that
their conduct in spreading unproven rumors about a sexual relationship
between a Department supervisor and subordinate, rather than report them to
the OIG for investigation, was unprofessional. In addition, we believe it would
have been better practice for the Department to have addressed the allegations
of an inappropriate relationship and favoritism head on and asked for a review
of them.

      In sum, we concluded that the Department’s action in removing Chiara
was not based on inappropriate factors. Chiara was identified for removal as
U.S. Attorney from the time Sampson developed his first list because of
concerns raised about her management of the office, and those concerns
intensified over time. While Department officials became aware of rumors of a
sexual relationship between Chiara and a subordinate AUSA, which were
inappropriately spread by the Meyers, we found that performance concerns,
rather than these rumors, caused the Department to remove Chiara as U.S.
Attorney.




                                      311
[PAGE INTENTIONALLY LEFT BLANK]




             312
              Kevin Ryan Timeline
                                                                                                                                                                                                                                                                                                                                           Nov 22, 2006

                                                                                                                                                                                                                                                                                                                                           The special EARS report is delivered;
                                                                                                                                                                                                                                                                                                                                           the report attributes the morale problem
                                                                                                                                                                                                                                                                                                                                           to the management of Ryan and the
                                 Sep 2002                                                                                                                                                                                                                                                                                                  First Assistant U.S. Attorney
                                                                                                                                                                                           Apr 4, 2006
                                 Ryan Events and                                                                                                                                           The EARS team leader prepares a
                                 Actions                                                                                                                                                   “significant observations” memorandum                                                               Oct 29, 2006
                                                                                                                                                                                           noting high turnover and low morale in                                                                                                                  Dec 7, 2006
                                                                                                                                                                                           Ryan's office                                                                                       EARS team leader confirms the
                                                                                                                                                                                                                                                                                               previous EARS report’s finding of a                 Battles calls Ryan and tells
                                                                                                                                                                                                                                                                                               “significant morale problem”                        him to resign
                                                                                 Mar 21, 2005                               Jun 2005

     Jul 26, 2002                                                                Margolis and Buchanan meet with Ryan       EARS administrators attempt to                     Mar 27, 2006 - Mar 31, 2006
                                                                                 and First Assistant U.S. Attorney to       schedule an October 2005                                                                                                                                      Oct 23, 2006 - Oct 27, 2006                                            Jan 16, 2007
     Ryan is confirmed by the Senate as the                                                                                                                                    An EARS review is conducted                                                                                                                                                                                   Feb 16, 2007
                                                                                 discuss complaints about morale and        evaluation for Ryan's office; Ryan                                                                                                                            A special EARS evaluation is
     U.S. Attorney, Northern District of California                                                                                                                            of Ryan's office                                                                                                                                                                  Ryan announces
                                                                                 leadership in his district                 obtains a postponement                                                                                                                                        conducted of Ryan's Office                                                                         Ryan leaves office
                                                                                                                                                                                                                                                                                                                                                                 his resignation




Jul 2002        Aug 2002         Sep 2002             Sep 2004       Oct 2004            Mar 2005         Apr 2005        May 2005        Jun 2005               Jan 2006      Feb 2006         Mar 2006         Apr 2006         May 2006   Jun 2006       Jul 2006        Aug 2006        Sep 2006          Oct 2006        Nov 2006         Dec 2006          Jan 2007         Feb 2007




                                                                                                                                                                                                                                                        Jul 14, 2006                             Sep 13, 2006                                    Dec 4, 2006
                                      Sep 2004                                  Mar 2, 2005                                                    Jan 9, 2006                                Apr 14, 2006
                                                                                                                                                                                                                                                        Ryan sends a letter to DOJ               Ryan’s name is absent from                      Based on Margolis's and
                                      Northern District of California           On Sampson's first removal list Ryan is                        Ryan’s name appears on                     Ryan’s name is absent from                                    disagreeing with the draft EARS          Sampson’s fourth removal list                   McNulty's requests, Ryan’s
                                      Chief Judge complains to                  included in the category: "recommend                           Sampson’s second removal list              Sampson's third removal list                                  report’s conclusions                                                                     name is added to Sampson's
                                      Margolis about Ryan’s leadership          retaining; strong"                                                                                                                                                                                                                                               final removal list


                                                                                                                                                                                                                                                                                                                         Nov 27, 2006
                                                                                                                                                                                                  May 2006
                                                                                                                                                                                                                                                                                                                         A meeting is held in the AG’s conference room
                               Sep 2004                                                                                                                                                                                                                                                                                  to approve U.S. Attorney removals; Ryan's
                                                                                                                                                                                                  Draft EARS report notes
                                                                                                                                                                                                  significant morale problem in                                                                                          name is absent from the list discussed
                               DOJ and Other                                                                                                                                                      Ryan's office
                               Events and Actions
                                CHAPTER TWELVE
                                  KEVIN RYAN

I.     Introduction

      This chapter examines the removal of Kevin Ryan, the former United
States Attorney for the Northern District of California. Ryan has not
commented publicly about the reasons for his removal, and he did not
cooperate with our investigation. 193

       A.     Background

      Ryan graduated from the University of San Francisco School of Law in
1984. From 1985 to 1996, he served as a Deputy District Attorney for Alameda
County. In 1996, Ryan was appointed to be a Municipal Court Judge for the
City and County of San Francisco. In 1999, Ryan became a California Superior
Court Judge.

      On May 15, 2002, Ryan was nominated by President Bush to be the
United States Attorney for the Northern District of California. He was
confirmed by the Senate on July 26, 2002, and sworn in on August 2, 2002.

       B.     The EARS Evaluations of Ryan’s Office

       Ryan’s office underwent an EARS evaluation in 2003, approximately 6
months after he was sworn in as U.S. Attorney. The final report of the
evaluation stated that “the overall evaluation was positive,” and that Ryan was
“dedicated to the effective management of the office and to the priorities of the
Attorney General.” The report described him as an effective leader in the
District, and stated that “the judiciary was favorably impressed with the new
United States Attorney.”

       The office was evaluated again in March 2006. The May 2006 draft of
the final EARS report contained several negative comments, stating for example
that “there are serious morale problems [among Criminal Division AUSAs] . . .

       193  Ryan was the only one of the nine U.S. Attorneys who did not agree to be
interviewed by us. We first contacted Ryan in May 2007, at the same time we contacted the
others. After telling us that he would consider our request for an interview, Ryan never
responded to our follow-up calls and e-mails. On December 17, 2007, we sent Ryan a letter
seeking his cooperation and asking him to inform us whether he would agree to be interviewed.
In response, Ryan contacted us by e-mail requesting additional information on the procedures
for the requested interview. After obtaining the information and saying he would consider the
matter and get back to us with an answer, Ryan did not contact us and did not respond to
follow-up telephone and e-mail messages.




                                            313
caused by the perception that U.S. Attorney Ryan and [the] First AUSA/
Criminal Chief . . . poorly manage Criminal Division AUSA personnel in San
Francisco.” The report stated that AUSAs perceived Ryan as inaccessible,
uninterested in their work, unresponsive to their concerns, too “insulated and
cloistered,” and that he “makes decisions with minimal input from the line
staff.” The report also noted that some of the AUSAs had expressed concern to
the evaluators that Ryan and the First Assistant “might retaliate against those
AUSAs who disagree with their decisions.”

       The report stated that while Ryan “strongly disputed” the findings
concerning his management style and attributed them to “a small group of
‘disgruntled’ AUSAs,” the evaluation team found that “the concerns about . . .
Ryan’s management style and practices . . . were expressed by a majority of the
line AUSAs in the Criminal Division . . . and by line AUSAs in every section and
unit . . . and every level of experience.”

      As a result of the negative assessment, in October 2006 Associate Deputy
Attorney General Margolis and EOUSA Director Battle directed an EARS
“Special Review Team” to conduct an additional evaluation to verify the morale
issues identified in the earlier evaluation and to make recommendations to
address them.

       On November 22, 2006, the Special EARS Team provided its findings to
Margolis and Battle. The report concluded that there were significant morale
problems attributable to the management styles and practices of Ryan and the
First Assistant U.S. Attorney. The report stated that Ryan and the First
Assistant were viewed as “being vindictive when they perceived disloyalty or
when their decisions were questioned.” The report stated that despite the
earlier EARS evaluation, Ryan continued to dispute the degree of the morale
problem in the office. The report noted that “from all accounts, the style and
practices of the top leadership has not changed” since the March evaluators
briefed Ryan on the team’s findings.

      C.    Status on the Removal Lists

      On Sampson’s initial removal list, which he e-mailed to Miers on
March 2, 2005, Sampson characterized Ryan as a “strong” U.S. Attorney not
recommended for removal. On the second list Sampson sent to the White
House in January 2006, Ryan was one of seven U.S. Attorneys recommended
for removal.

       Ryan’s name was not on the third list Sampson sent to the White House
in April 2006, and Ryan did not appear on any subsequent removal list until
the final list on December 4, 2006.




                                      314
      EOUSA Director Battle called Ryan on December 7, 2006, to ask for his
resignation. Ryan resigned as U.S. Attorney for the Northern District of
California on February 16, 2007.

       D.     Reasons Proffered for Ryan’s Removal

       In his closed briefing to the Senate Judiciary Committee on February 14,
2007, McNulty stated that Ryan was asked to resign because of management
failures documented in EARS evaluations of his office.

      We found no public statements by Department officials discussing the
reasons for Ryan’s removal. However, in our interviews and in interviews with
congressional investigators, Department officials consistently stated that the
management problems associated with Ryan’s office were the reasons for his
removal.


II.    Chronology of Events Related to Ryan’s Removal

       A.     Concerns About Ryan’s Management

      Beginning in 2004, Department officials became aware of allegations that
Ryan’s management was causing turmoil in his office. In 2004, several San
Francisco newspapers reported on the departures of several experienced
prosecutors in the U.S. Attorney’s Office and on problems with Ryan’s
management and the turmoil in his office. 194 In the fall of 2004, the Chief
Judge for the U.S. District Court for the Northern District of California sent
Margolis copies of the articles and called him to complain about Ryan’s
leadership. E-mail records between Margolis and EOUSA Director Mary Beth
Buchanan in late October 2004 show that Margolis and Buchanan recognized
the need to discuss the concerns with Ryan.

      On January 31, 2005, another experienced prosecutor left Ryan’s office.
The day of his departure, the AUSA sent an office-wide “open letter” to Ryan
complaining about long-standing morale and attrition problems in the office
attributable to Ryan’s management. The letter was forwarded to AUSAs in
other U.S. Attorney’s offices and to EOUSA. The Chief Judge in Ryan’s district
sent Margolis a copy of the letter on February 4, 2005, and asked him to
consider the complaints. Margolis and Buchanan decided to meet with Ryan
and the First Assistant U.S. Attorney in mid-March 2005 to discuss these
issues.



       194 See The Recorder, “Top Prosecutor Bolts from DOJ,” July 9, 2004; “Ryan’s Criminal

Chief Steps Down,” September 29, 2004.




                                            315
       On March 21, 2005, Margolis and Buchanan discussed the concerns
with Ryan and his First Assistant. According to Margolis, he “read [Ryan] the
riot act” about his management style and the attrition in the office, and he
suggested to Ryan that it would be wise for him to ask the Department to
undertake a special review of these management issues. According to Margolis
and to correspondence from Ryan to Sampson, Ryan did not request such a
review.

       B.     Sampson’s Discussions About Ryan in Early 2005

       At the same time that Margolis and Buchanan were discussing how to
address the management issues regarding Ryan, Sampson began the process
of categorizing the U.S. Attorneys to determine who should be recommended
for removal. As noted above, on March 2, 2005, Sampson forwarded to Miers
his first list of U.S. Attorneys, and he described Ryan as one of the strong U.S.
Attorneys. Sampson told congressional investigators that he could not recall
specifically why he rated Ryan positively on the March 2005 list. However,
Sampson said that at the time, he considered Ryan to be “a really good guy and
an honorable person who was working in a very difficult office . . . and he had a
difficult time managing that office.” Sampson said he did not recall having
conversations at that time with Comey, Margolis, or Buchanan in which they
raised any concerns about Ryan.

      However, we determined that Margolis, Comey, and Buchanan separately
told Sampson sometime in early 2005 that they did not view Ryan favorably.
Comey told us that when he met with Sampson on February 28, 2005, he told
Sampson he considered Ryan to be a weak U.S. Attorney based on the morale
problems in the office. 195 Comey said that he knew EOUSA was concerned
about Ryan’s office and was working with Margolis to address the problems.

      Margolis told us he could not recall exactly when Sampson first broached
the subject of removing underperforming U.S. Attorneys in early 2005,
although Margolis said he strongly recommended to Sampson that Ryan and
Dunn Lampton of the Southern District of Mississippi be removed. Margolis
said he was aware of the management problems in Ryan’s office, and he
questioned Lampton’s judgment after learning about several matters Lampton
was handling.

     Buchanan told congressional investigators that her office had received
complaints from a number of sources, including former staff members and

       195  Comey recalled, based on his calendar entries, that he spoke with Sampson on
February 28, 2005, 3 days before Sampson e-mailed the chart to Miers. The chart with Ryan’s
name in bold, however, was dated February 24, 2005, 4 days before Sampson met with Comey.
Thus, it seems likely that Sampson did not revise the list based on Comey’s comments about
Ryan.




                                           316
judges, about Ryan’s management, and she said she discussed the matter with
Sampson in the “early spring” of 2005.

       C.     Fall 2005 EARS Evaluation is Postponed

       According to Buchanan, she and Margolis decided to conduct a special
EARS evaluation of Ryan’s office to better pinpoint and address the problems in
that office. Ryan’s office was originally scheduled to undergo a regular EARS
evaluation sometime in the spring of 2006. In light of the concerns about
Ryan’s management and the morale of the office, in June 2005 EARS
administrators attempted to schedule the regular evaluation for October 2005,
earlier than the regular 3-year cycle.

       On June 10, 2005, Ryan’s office requested that the review be postponed
until sometime in 2006 because the office was experiencing key administrative
personnel shortages related to several recent retirements. Margolis
recommended to EOUSA that the request be denied in light of the serious
issues in Ryan’s office. EOUSA denied the request on June 23. Ryan
telephoned the new EOUSA Director, Michael Battle, the following day to
attempt to persuade him to postpone the evaluation. 196

       Battle told congressional investigators that he agreed to Ryan’s request
for an extension because Battle needed time to become knowledgeable about
the issues in the district, and he wanted to give Ryan the chance to be able to
“put his best foot forward.” The evaluation was rescheduled for late March
2006. Margolis said that when Battle told him he had agreed to Ryan’s request
to reschedule the evaluation, Margolis expressed his disappointment.

      According to Battle, even before he arrived at EOUSA he had heard that
Ryan’s district was “embattled.” Battle told congressional investigators that
Ryan was “in a siege and everybody was angry with him.”

       D.     Events in 2006

              1.     Ryan is on Sampson’s January 9, 2006, List of U.S.
                     Attorneys Recommended for Removal

        Ryan was included on the list of U.S. Attorneys Sampson recommended
for removal on January 9, 2006. Sampson told us that he believed he included
Ryan at that time because by then he perceived that Ryan had “lost the office
. . . the office turned on him.” Gonzales also told us that he was aware of
“serious management problems” in Ryan’s office by January 2006. However,


        196 Battle became Director of EOUSA on June 6, 2005, when Buchanan left to return to

her district as U.S. Attorney.




                                           317
Gonzales said he could not recall how or when he learned the information, and
he speculated that it came from McNulty, Battle, or Sampson.

            2.    Controversy Concerning the Methodology of the EARS
                  Evaluation

       In mid-January 2006, the EARS Team slated to review Ryan’s office in
March proposed interviewing former AUSAs as part of the evaluation in light of
the allegations that numerous experienced prosecutors had resigned because
of Ryan’s poor leadership. Correspondence between Ryan and the EOUSA
Assistant Director who was in charge of the EARS program for the Department
shows that the team leader discussed the issue with Ryan in late January and
Ryan was unhappy about the proposed interviews. In February 2006, Ryan
stated his opposition to the proposal and to other aspects of the review in
correspondence to the team leader and to the EOUSA Assistant Director. Ryan
also expressed concern that the EARS team had already prejudged the office
and had been tainted by the accounts of disgruntled former AUSAs. The
Department’s response to Ryan stated that the review would proceed as
planned.

       On January 18, 2006, Battle received a letter from an AUSA in Ryan’s
office containing the subject line “An Office in Distress – USAO, Northern
District of California.” The letter described the mass “exodus” of experienced
AUSAs during Ryan’s tenure and urged the Department to use the upcoming
EARS evaluation to “investigate the causes underlying this unprecedented
exodus of AUSAs and other personnel.”

      On March 8, 2006, a few weeks before the scheduled EARS evaluation, a
San Francisco newspaper wrote an article about the letter, discussing at length
the discord within the office and stating that “[c]riticizing Ryan’s management
has become a cottage industry since he was appointed by President Bush in
2002, with prosecutors, defense lawyers and at least one judge complaining
about office management and the handling and selection of cases.”

            3.    The March 2006 EARS Evaluation

       The EARS team conducted a 4-day on-site evaluation of the San
Francisco U.S. Attorney’s Office during the week of March 27, 2006. After its
completion, Margolis sent an e-mail to Elston informing him that he had
learned from EOUSA Director Battle that “staff and court comments were not
positive.” Margolis’s e-mail informed Elston that the EARS team had originally
planned to interview former AUSAs but had “temporarily backed off that plan
at [U.S. Attorney] Ryan’s insistence,” so only current staff was interviewed.
Margolis wrote that the complaints appeared to be “of the same nature as those
that I brought to [U.S. Attorney] Ryan’s attention [last spring].” Margolis said




                                      318
that “we can decide if further inquiry is needed” after the team produced its
draft observations.

      On April 4, 2006, the EARS team leader prepared a preliminary
memorandum to EOUSA highlighting his “significant observations” concerning
the high turnover rate and low morale that line AUSAs attributed to Ryan’s
poor management style and practices. The memorandum and a draft of the full
report, which were submitted to Margolis in late May 2006, emphasized that
“there is a significant morale problem among a number of AUSAs in the
Criminal Division . . . caused, at least in part, by their perceptions that U.S.
Attorney Ryan (and [the] First AUSA/Criminal Chief) poorly manages the
Criminal Division AUSA personnel in San Francisco.” In a May 27, 2006, e-
mail to Mercer, Elston, and Battle, Margolis wrote, “I think this report
furnishes the predicate for sending the team back to interview former AUSAs as
well as any persons suggested by Ryan.”

       After reviewing the draft EARS report, Ryan wrote an 8-page letter, dated
July 14, 2006, disagreeing with the report’s conclusions concerning his
management of the office and asking that the sections criticizing his and the
First Assistant’s management be deleted from the final version. Ryan
described those sections as “personalized and unsubstantiated attacks.” He
also complained that the EARS team was biased and the outcome of the
evaluation seemed predetermined. Ryan stated that “Many of the morale
issues . . . are the corollary of bringing much needed change to some of the
longstanding policies and practices of this district.”

            4.    The Special EARS Evaluation

       In September 2006, Battle informed Ryan that the Department had
denied his request to delete portions of the evaluation and that he and Margolis
had decided to send a “Special EARS Review” team to Ryan’s office to follow up
on the March evaluation. The Special Review team planned to interview both
current and former AUSAs. The team also planned to interview Ryan and the
First Assistant, as well as individuals suggested by them.

       Ryan wrote Sampson a letter dated October 8, 2006, complaining about
the Special EARS follow-up evaluation and characterizing it as “a distraction
forced upon us [which] is not only unfair, disruptive, and counterproductive; it
is also a waste of taxpayer’s money.” Ryan also stated that the Department
was not considering the office’s “great work on some cutting edge cases . . . in a
very difficult environment and with strained resources.” Ryan wrote that he
felt he had been treated unfairly by Margolis and the EARS evaluators. Ryan
stated, “In my opinion, this is becoming dangerously close to using the
resources of the DOJ to pursue a personal agenda.”




                                       319
      Sampson said he shared the letter with McNulty and asked him to figure
out what should be done to address Ryan’s concerns. Sampson said he forgot
about Ryan’s letter until late November 2006, when McNulty said he wanted
Ryan added to the removal list.

        McNulty told us that the March 2006 evaluation of Ryan’s office was so
negative that it demanded a substantial follow-up review. McNulty said that by
October 2006 he was working closely with Margolis to address the “very
significant management problems” the evaluation had identified in Ryan’s
office.

       The special EARS evaluation was conducted during the week of
October 23, 2006, as scheduled, with a team of eight veteran AUSAs who were
also experienced EARS evaluators. Over a 3-day period, the team interviewed
42 current and former AUSAs, in addition to Ryan and the First Assistant. The
team also considered a 14-page memorandum the First Assistant had drafted
concerning the office’s attrition rates, information concerning personnel
decisions Ryan made between 2002 and 2006, and additional background
information about current and former AUSAs whom the team had selected for
interviews.

       By memorandum dated October 29, 2006, the team leader, Ken Melson,
then the First Assistant U.S. Attorney for the U.S. Attorney’s Office for the
Eastern District of Virginia (and currently the Director of EOUSA), advised
Margolis of the team’s significant observations. Among other things, Melson’s
6-page memorandum confirmed the previous EARS report’s finding of a
“significant morale problem” in the U.S. Attorney’s Office during Ryan’s tenure.
Melson also wrote that the morale problem had contributed significantly to the
mass departure of experienced AUSAs from the office, which he attributed
directly to the management style and practices of Ryan and the First Assistant.
Melson reported that both current and former AUSAs described Ryan as
“elusive, isolated, removed from office life, retaliatory, explosive, non-
communicative, and paranoid.” Melson also found “little evidence that the
management practices and styles of U.S. Attorney Ryan and [the] First
AUSA . . . have changed” since the March EARS evaluation and concluded that
those management styles and practices were “inappropriate and harmful to the
office.” In closing, Melson summed up the morale of the office as “abysmal.”

       By memorandum dated November 22, 2006, addressed to Margolis and
Battle, Melson provided the Special EARS Review 18-page formal report, which
expanded on Melson’s observations in his October 29 memorandum. Melson’s
final report was delivered 5 days before the Monday, November 27, 2006,
meeting held in the Attorney General’s conference room to finalize and approve
the removal plan for U.S. Attorneys.




                                      320
       E.     The Removal Lists

       As previously noted, after being on the January 2006 list, Ryan’s name
was not included on the subsequent lists Sampson sent to the White House in
April, September, and November 2006. When we asked Sampson why he had
removed Ryan’s name from the lists after January 2006, he stated that it was
likely he did so because he was aware that the evaluation process of Ryan’s
office was ongoing. Sampson stated that while a U.S. Attorney can be removed
“for any reason or no reason,” once the evaluation process has been initiated,
“as a matter of policy” the U.S. Attorney should be given the benefit of the full
evaluation before being removed.

      McNulty told congressional investigators that he was “a little confused”
as to why Ryan was not listed for removal on the September 13 or November 7,
2006, lists. 197 McNulty acknowledged that when he learned about the removal
plan in October 2006, he did not tell Sampson to add Ryan to the list for
removal, but he told us that even without the removal process, at some point
he would have told Sampson that Ryan should be removed.

      According to Elston, he and McNulty became aware of the problems in
Ryan’s office sometime during the summer of 2006. Elston said that Margolis
reported on the issues concerning Ryan’s management “with some frequency,”
although Elston said he did not suggest that Sampson add Ryan to the list
when he learned about the removal plan in October because Margolis was
handling the issues with Ryan. Elston said that while he was aware of
concerns, he did not know the facts and did not know who was at fault.

      As previously discussed, a meeting on the morning of November 27,
2006, was held in the Attorney General’s conference room to finalize and
approve the plan to remove U.S. Attorneys. Gonzales, Sampson, McNulty,
Goodling, Moschella, and Battle attended. Elston was unavailable, and
Margolis was not invited.

       At the meeting, the Attorney General approved the plan for removing the
six U.S. Attorneys on Sampson’s November 7 removal list. 198 The attendees
told us there was little or no discussion about the reasons the named U.S.
Attorneys were designated for removal or whether anyone else should be added
to the list.




      197 We determined that McNulty did not see the September list until sometime after

October 17, when Sampson forwarded to Elston the e-mail he sent Miers on September 13.
      198 The U.S. Attorneys on the November 7 list were Charlton, Lam, Chiara, Bogden,

McKay, and Iglesias.




                                           321
       Sampson told us that after the meeting was adjourned, McNulty
approached him and said that “Ryan needs to be on the list.” McNulty told
congressional investigators he had no personal memory of doing this, but he
said it was “consistent with what I was dealing with at the time.” Elston told
us that McNulty added Ryan’s name to the list in late November after the
results of the special review were analyzed. 199

       Although Sampson said he had no specific recollection, he said he
believed that he conveyed McNulty’s views on Ryan to Attorney General
Gonzales and received his approval to add Ryan’s name to the removal list.
Gonzales told us that he did not know why Ryan was not on the November 27
list. He said it was “bizarre” that Ryan’s name was not listed because he knew
that Ryan was “probably the number one person Margolis wanted to go.”

      Margolis, who was not at the meeting, told us he was “astonished” when
he learned that Ryan was not on the list. He said that he asked Sampson
about it and Sampson gave Margolis the impression he would look into it.
Sampson added Ryan’s name to the December 4 final list of U.S. Attorneys to
be removed.

       Battle called Ryan on December 7, 2006, and told him to resign. Battle
told congressional investigators that he “had trepidations” about making the
call to Ryan because he knew Ryan was angry about the Special EARS
evaluation. Battle said he told Ryan that the Administration was requesting
his resignation by the close of business on January 31, 2007. According to
Battle, Ryan did not ask why his resignation was being requested; he just said
“thank you very much” and hung up.

       Ryan did not discuss his removal with anyone at the Department. On
January 17, 2007, the night before Attorney General Gonzales was to testify at
an oversight hearing before the Senate Judiciary Committee, Elston contacted
Ryan’s office to assure him that the Attorney General would not discuss Ryan’s
removal at the hearing. According to e-mail records, Ryan’s First Assistant
returned Elston’s call and told Elston that Ryan was not returning phone calls
from Senator Feinstein and from U.S. Attorney Carol Lam, who had also been
told to resign. Elston stated that the First Assistant told him that Ryan

       199  Margolis said that he played an instrumental role in adding Ryan to the list.
According to Margolis, the Chief Judge in Ryan’s district told him she had asked members of
Congress from California to request that the Department provide the EARS evaluations for
Ryan’s office. In an e-mail dated December 1, 2006, Margolis informed Elston and Moschella
about his conversation with the judge. Elston forwarded Margolis’s e-mail to Sampson, who
responded that the “EARS evaluations seem pretty deliberative to me.” Elston responded to
Sampson, “I agree,” and he said that, “This may also become unlikely if the list is expanded by
one as we discussed earlier.” Sampson replied, “The list is expanded” and that he was “still
waiting for the green light from the White House.”




                                             322
“wanted us to know that he’s still a company man.” Ryan made no public
statements about his removal, and he declined to cooperate with our
investigation.


III.   Analysis

       In sum, we found nothing inappropriate about the Department’s decision
to remove Ryan or about the process the Department used to reach its
decision. The evidence was clear that Ryan was removed because of concerns
about his management of his office and the two EARS evaluations that severely
criticized the management of his office. These EARS evaluations were
conducted by independent and experienced career attorneys. Ryan’s responses
to the criticisms were considered, but the Department did not find his
arguments persuasive and believed he should be replaced.

      The reasons proffered for Ryan’s removal are consistent with what our
investigation found. In contrast to the process the Department used to decide
whether to remove other U.S. Attorneys, the Department sought an objective
evaluation of the allegations about Ryan’s performance, and Ryan was given an
opportunity to respond to them. At the end of the process, the Department
considered the reports and his responses, believed that Ryan’s office needed a
change of leadership, and it implemented that change.




                                     323
[PAGE INTENTIONALLY LEFT BLANK]




             324
                              CHAPTER THIRTEEN
                                CONCLUSIONS
       Like other Presidential appointees, United States Attorneys can be
removed by the President for any reason or for no reason, as long as it is not an
illegal or improper reason. In the past, U.S. Attorneys normally were not
replaced except in cases of misconduct or when there was a change in
Administrations. Prior to the events described in this report, the Department
of Justice had never removed a group of U.S. Attorneys at one time because of
alleged performance issues. The way the Department handled the removal of
nine U.S. Attorneys in 2006, and the after-the-fact reasons proffered for the
removals of this group, resulted in significant controversy, concerns that the
removals were undertaken for improper political purposes, and allegations that
the reasons proffered by the Department for the removals were not accurate. 200

      We therefore investigated in detail how each of the nine U.S. Attorneys
was selected for removal and the process used to remove them. In addition, we
examined the accuracy of the public statements and congressional testimony
by Department officials justifying the removals.

       We concluded that the process the Department used to select the U.S.
Attorneys for removal was fundamentally flawed, and the oversight and
implementation of the removal process by the Department’s most senior
leaders was seriously lacking. In particular, we found that Attorney General
Alberto Gonzales and Deputy Attorney General Paul McNulty failed to
adequately supervise the U.S. Attorney selection and removal process, and they
were remarkably unengaged in the process. Instead, Chief of Staff to the
Attorney General Kyle Sampson, with very little input from other Department
officials, designed, selected, and implemented the removal process, with little
supervision or oversight. In addition, after the removals became public the
statements provided by the Attorney General and other Department officials
about the reasons for the removals were inconsistent, misleading, and
inaccurate in many respects.

      The most serious allegations that arose were that the U.S. Attorneys were
removed based on improper political factors, including to affect the way they
handled certain voter fraud or public corruption investigations and
prosecutions. Our investigation found significant evidence that political
partisan considerations were an important factor in the removal of several of

      200 The nine U.S. Attorneys removed in 2006 were: Todd Graves, W.D. Missouri; H.E.
“Bud” Cummins, E.D. Arkansas; David Iglesias, D. New Mexico; Daniel Bogden, D. Nevada;
Paul Charlton, D. Arizona; John McKay, W.D. Washington; Carol Lam, S.D. California;
Margaret Chiara, W.D. Michigan; and Kevin Ryan, N.D. California.




                                           325
the U.S. Attorneys. The most troubling example was David Iglesias, the U.S.
Attorney in New Mexico. We concluded that complaints from New Mexico
Republican politicians and party activists about Iglesias’s handling of voter
fraud and public corruption cases caused his removal, and that the
Department removed Iglesias without any inquiry into his handling of the
cases.

       However, we were unable to fully develop the facts regarding the removal
of Iglesias and several other U.S. Attorneys because of the refusal by certain
key witnesses to be interviewed by us, as well as by the White House’s decision
not to provide internal White House documents to us. Therefore, we
recommend that counsel specially appointed by the Attorney General work with
us to conduct further investigation and ultimately to determine whether the
totality of the evidence demonstrates that any criminal offense was committed.

      In this chapter, we first provide our analysis of the process used by the
Department to remove the U.S. Attorneys. We then provide our findings
concerning the conduct of each of the senior Department officials most involved
in the removals, including an assessment of the accuracy of their statements
explaining the removals.


I.    Removal Process

      A.    Oversight of the Process

       Shortly after the 2004 Presidential election, White House Counsel Harriet
Miers raised with Sampson the idea of seeking resignations from all 93 U.S.
Attorneys. Sampson, who at the time was Counsel to the Attorney General,
told Miers he thought that it was not a good idea to ask for the resignations of
all U.S. Attorneys. Sampson suggested as an alternative that the White House
replace a much smaller number of U.S. Attorneys when their 4-year terms
expired.

      As noted, U.S. Attorneys are appointed for a term of 4 years. Typically,
however, they remain in office beyond the expiration of their terms. Sampson
wrote in a January 2005 e-mail to a White House official that “the vast majority
of U.S. Attorneys, 80-85 percent, I would guess, are doing a great job, are loyal
Bushies, etc., etc.,” and he proposed developing a plan to remove
approximately 15 to 20% of “underperforming” U.S. Attorneys.

      Sampson discussed this proposal with Gonzales when Gonzales was
White House Counsel. After he became the Attorney General in February
2005, Gonzales authorized Sampson to proceed with a review to identify those
“underperforming” U.S. Attorneys who should be removed. While both
Sampson and Gonzales told us and stated in their congressional testimony that
the President can remove U.S. Attorneys for any reason or for no reason, it


                                      326
appears that the original plan was to evaluate the performance of each U.S.
Attorney and make recommendations to the White House as to who should be
removed based upon that assessment.

       We found that Gonzales delegated the entire project to Sampson and
provided little direction or supervision. According to Gonzales, he told
Sampson to consult with the senior leadership of the Department, obtain a
consensus recommendation as to which U.S. Attorneys should be removed,
and coordinate with the White House on the process. However, Gonzales
acknowledged to us that he did not discuss with Sampson how to evaluate the
U.S. Attorneys or which factors to consider. We found that Gonzales eventually
approved the removals of a group of U.S. Attorneys without inquiring about the
process Sampson used to select them for removal, or why each name was on
Sampson’s removal list. Gonzales also did not know who Sampson had
consulted with or what these individuals had said about each of the U.S.
Attorneys identified for removal. Instead, Gonzales told us he “assumed” that
Sampson engaged in an evaluation process, that the resulting
recommendations were based on performance, and that the recommendations
reflected the consensus of senior managers in the Department. Each of those
assumptions was faulty.

      Gonzales also said he had little recollection of being briefed about
Sampson’s review process as it progressed over a year and a half. He claimed
to us and to Congress an extraordinary lack of recollection about the entire
removal process. In his most remarkable claim, he testified that he did not
remember the meeting in his conference room on November 27, 2006, when the
plan was finalized and he approved the removals of the U.S. Attorneys, even
though this important meeting occurred only a few months prior to his
testimony.

       This was not a minor personnel matter that should have been hard to
remember. Rather, it related to an unprecedented removal of a group of high-
level Presidential appointees, which Sampson and others recognized would
result in significant controversy. Nonetheless, Gonzales conceded that he
exercised virtually no oversight of the project, and his claim to have very little
recollection of his role in the process is extraordinary and difficult to accept.

       We also found that Deputy Attorney General McNulty had little
involvement in or oversight of the removal process, despite his role as the
immediate supervisor of all U.S. Attorneys. McNulty was not even made aware
of the removal plan until the fall of 2006. When McNulty learned about the
plan, he thought it was a bad idea. However, he deferred to Sampson and did
not raise his concerns with regard to the plan itself or, except in a couple of
cases, the evaluation of specific U.S. Attorneys to be removed. Rather, he
distanced himself from the project, both while it was ongoing and after it was
implemented.


                                       327
      Moreover, we found that there was virtually no communication between
Attorney General Gonzales and Deputy Attorney General McNulty about this
important matter. Even when McNulty learned about the plan in the fall of
2006 (more than a year after Gonzales and Sampson initiated the removal
process), he did not discuss any of his concerns about the plan with Sampson
or Gonzales.

       In addition, as discussed in the chapter on Carol Lam, the U.S. Attorney
for the Southern District of California, in the summer of 2006 Gonzales and
Sampson suggested a plan to address concerns they had with Lam’s
prosecutive decisions in gun and immigration cases, and asked the Deputy
Attorney General’s Office to execute the plan. Yet, McNulty and his staff did
not implement the plan, and the Attorney General and his staff never followed
up with the Deputy Attorney General about the outcome of the plan before Lam
was removed.

       After the U.S. Attorney removals, poor communication persisted between
Gonzales and McNulty. For example, Attorney General Gonzales testified
before Congress on January 17, 2007, that all the U.S. Attorneys were removed
for performance reasons. However, Deputy Attorney General McNulty testified
before another congressional panel less than 3 weeks later that H.E. “Bud”
Cummins III, the U.S. Attorney for the Eastern District of Arkansas, was
removed to provide a position for Tim Griffin, the Deputy Director of Political
Affairs at the White House. Gonzales was upset by McNulty’s testimony
because, he told us, up to that point he believed that Cummins had been
removed for poor performance. However, according to both Gonzales and
McNulty, they never discussed Cummins’s removal or McNulty’s testimony.

      B.    Implementation of the Removal Plan

     We found no evidence that Gonzales, McNulty, or anyone else in the
Department carefully evaluated the basis for each U.S. Attorney’s removal or
attempted to ensure that there were no improper political reasons for the
removals.

       Sampson was primarily responsible for creating the plan, selecting the
U.S. Attorneys to be removed, and implementing the plan. He said he
consulted with Department officials in informal settings to get their “frank
assessments” of U.S. Attorneys, and Sampson described himself as the
“aggregator” of their views. Sampson also testified that he had “no independent
basis” for removing any U.S. Attorney and that he relied on other Department
officials, such as McNulty, Executive Office for U.S. Attorneys (EOUSA)
Directors Mary Beth Buchanan and Michael Battle, and Associate Deputy
Attorney General David Margolis to make recommendations about who should
be removed. He said, “[i]n my mind, they were the Department officials who




                                     328
would have reason to make informed judgments about who might be added to
such a list.”

      This claim was misleading. Neither Sampson nor anyone else in the
Department ever engaged in a systematic assessment of the performance of
U.S. Attorneys to determine who was underperforming and should be replaced.
Instead, Sampson’s evaluation process was casual, ad hoc, and anecdotal, and
he did not develop any consensus from Department officials about which U.S.
Attorneys should be removed.

      For example, when Sampson asked Margolis for his input in early 2005,
Margolis recommended that Kevin Ryan, Margaret Chiara, and Dunn Lampton
from the Southern District of Mississippi should be considered for removal
because of performance issues. He also suggested the names of about eight
other U.S. Attorneys that deserved a “closer look.” After that, Margolis – the
long-term career Department official with the most knowledge about U.S.
Attorney matters – had little input into the process, except in November 2006
when Sampson read him a list of names of U.S. Attorneys who would be
removed. EOUSA Director Battle received an initial inquiry from Monica
Goodling in the fall of 2005 about whether he had concerns about any U.S.
Attorneys, but he was not consulted again about the performance of any U.S.
Attorney as part of Sampson’s process. Sampson even acknowledged to us
that he did not make it clear to some of the people he consulted about the
purpose for asking what they thought about particular U.S. Attorneys.

      Sampson’s process for documenting the assessments he received of U.S.
Attorneys was similarly arbitrary, disorganized, and unsystematic. He said he
kept a chart listing all the names of the U.S. Attorneys on which he made notes
based on conversations he had with others. Sampson said he would keep the
annotated chart until it became “dog-eared” and then he would throw it away
and start over. While Sampson said he sometimes made notes during his
conversations with other Department officials, a lot of the information he
gleaned from others he “just remembered.” Sampson described the
discussions he had with Department officials about U.S. Attorneys as “largely
an oral exercise” with “some really rough tracking.” Sampson did not keep any
of these lists with his notes, and as a result we were forced to rely on
Sampson’s vague and conflicting memories of the reasons for the removals of
the U.S. Attorneys.

      Neither Sampson nor anyone else involved in the removal process
reviewed the performance evaluations of U.S. Attorneys’ Offices conducted by
EOUSA’s Evaluation and Review Staff (EARS), except for the evaluations of
Ryan’s office. Yet, Sampson told Miers and later told congressional staff that
the selection of U.S. Attorneys to be removed was based in part on the results
of EARS evaluations.



                                      329
       While Presidential appointees can be removed by the President at will
and do not have the notice and due process protections afforded civil service
employees, Sampson was supposed to determine which U.S. Attorneys should
be removed based on an evaluation of their performance. Sampson told us
that the removal plan was in accord with the management theory that
removing a percentage of underperforming employees constitutes good
management. However, if the purpose was to remove U.S. Attorneys who were
underperforming, one would have expected Sampson to engage in a more
systematic assessment of the U.S. Attorneys’ performance, including a review
of all EARS evaluations and direct and forthright conversations with senior
officials in the best positions to assess the performance of U.S. Attorneys.
None of that occurred.

      In addition, neither Sampson nor anyone else in the Department asked
several of the removed U.S. Attorneys for an explanation about the complaints
that allegedly justified their removal. As a consequence, the telephone calls
from Battle to the U.S. Attorneys telling them to resign were stunning to most
of them. It is not surprising that the removals led to criticism from the U.S.
Attorneys when the Department later stated publicly that they were removed
for performance-related reasons after they had been told otherwise.

      Moreover, as discussed in more detail in the chapters on the individual
U.S. Attorneys, we found conflicting testimony about the reasons each U.S.
Attorney was recommended for removal. In some cases, neither Sampson nor
any other Department official acknowledged recommending that the U.S.
Attorney be placed on the removal list. In other cases, the Department’s senior
leaders did not even know why Sampson placed the U.S. Attorney on the list.

       Sampson’s repeated assertion that “underperformance” was the decisive
factor in the removal process was misleading. In fact, Sampson acknowledged
that he considered whether a particular U.S. Attorney identified for removal
had strong support from their home-state elected Republican officials.
According to Sampson, a U.S. Attorney was considered for removal not merely
if he was “mediocre,” but if he was perceived as both mediocre and lacking
political support. Conversely, Sampson acknowledged deleting from his
removal list the names of several U.S. Attorneys whom he considered
“mediocre” because he believed they had the political support of their home-
state Senators and he did not think the Administration would want to risk a
fight with the Senators over their removal.

      While U.S. Attorneys are Presidential appointees who may be dismissed
for any reason or for no reason, Department leaders failed to ensure that the
removals were not undertaken for improper reasons. We believe that removing
U.S. Attorneys based on their lack of political support could affect the integrity
and independence of the Department’s prosecutive decisions and the public’s
confidence that such decisions are insulated from political considerations.


                                       330
U.S. Attorneys should make their prosecutive decisions based on the
Department’s priorities, the law, and the facts of each case, not on a fear of
being removed if they lose political support.

       We recognize that U.S. Attorneys are selected in part based on the
recommendations of state and federal political officials. But once they assume
office, U.S. Attorneys should leave politics behind and make their prosecutive
decisions divorced from partisan political considerations. For Department
officials to recommend the removal of U.S. Attorneys even in part because they
do or do not have political support undermines the public’s confidence that
Department of Justice prosecutive decisions are based on the facts and the law
and not on political considerations.

      In short, we believe that senior Department officials – particularly the
Attorney General and the Deputy Attorney – abdicated their responsibility to
safeguard the integrity and independence of the Department by failing to
ensure that the removal of U.S. Attorneys was not based on improper political
considerations.

      C.    Reasons for the Removals of Individual U.S. Attorneys

      In Chapters Four through Twelve, we analyzed the reasons proffered by
Department officials for the removal of each U.S. Attorney. Those chapters
demonstrate how flawed the removal process was, and the evidence in those
chapters also contradicts the Department’s initial claims that U.S. Attorneys
were removed for performance reasons.

       In January 2006, Missouri U.S. Attorney Todd Graves was the first U.S.
Attorney told to resign. As described in detail in Chapter Four, while our
investigation into Graves’s removal was hindered by the refusal of Goodling and
key officials in the White House to be interviewed, the evidence showed that the
primary reason for Graves’s removal was complaints from the staff of Missouri
Senator Christopher S. “Kit” Bond. Bond’s staff urged the White House
Counsel’s Office to remove Graves because he had declined to intervene in a
conflict between Senator Bond’s staff and the staff of Graves’s brother (a
Republican Congressman from Missouri). Thus, it appears that Graves was
told to resign because of a political dispute among Missouri politicians, not
because of an objective assessment of his performance as U.S. Attorney.

       Yet, we found that no one in the Department accepted responsibility for
the decision to remove Graves. Each senior official we interviewed claimed that
others must have made the decision. EOUSA Director Battle, who placed the
call telling Graves to resign, said he did so at the direction of Goodling, and
that Goodling did not provide him with the reasons for Graves’s removal.
Goodling stated in her congressional testimony that she would have instructed
Battle to make the call to Graves only at Sampson’s direction. Sampson said



                                       331
that he had no recollection of the matter, that he believed Goodling had
handled it, and that he assumed Graves’s removal was based on a finding of
misconduct by Margolis. Margolis told us there was no misconduct finding
against Graves and that he played no role in Graves’s removal.

      In addition, according to Sampson and Gonzales, it is not clear whether
anyone consulted with the Attorney General about Graves’s removal. Gonzales
told us he did not remember being told why Graves was asked to resign,
although he said “can’t imagine it didn’t happen.” He said, “I’m sure I was told
and I don’t remember.”

      In June 2006, Arkansas U.S. Attorney Bud Cummins was the second
U.S. Attorney told to resign. Contrary to Gonzales’s initial statement that the
U.S. Attorneys had been removed after an evaluation showed they were
underperforming, Cummins was not removed for any performance reasons.
While Sampson stated that he thought Cummins was “mediocre,” Sampson
never assessed Cummins’s performance and later agreed with McNulty’s
testimony to the Senate Judiciary Committee that Cummins was not removed
for performance reasons. Rather, the evidence shows that the main reason for
Cummins’s removal was to provide a position for former White House official
Tim Griffin.

      The other seven U.S. Attorneys were all told to resign on December 7,
2006. The most controversial case was the removal of New Mexico U.S.
Attorney David Iglesias. As discussed in Chapter Six, we were unable to
uncover all the facts pertaining to his removal because of the refusal by key
witnesses to be interviewed, including Rove, Miers, Goodling, New Mexico
Senator Pete Domenici, and Domenici’s Chief of Staff. As a result, we believe
important gaps remain in the evidence regarding Iglesias’s removal as U.S.
Attorney.

       However, the evidence we uncovered showed that Iglesias was removed
because of complaints to the Department and the White House by Senator
Domenici and other New Mexico Republican political officials and party
activists about Iglesias’s handling of voter fraud and public corruption cases in
the New Mexico. We concluded that the other reasons proffered by the
Department after Iglesias’s removal – that he was an “absentee landlord,” that
he delegated too much authority to his First Assistant, and that he was an
underperformer – were after-the-fact rationalizations that did not actually
contribute to his removal.

      We also found that the Department never investigated the complaints
about Iglesias’s decisions on voter fraud or public corruption cases, or even
asked Iglesias about them. Rather, based upon the complaints about Iglesias
and Senator Domenici’s “loss of confidence” in him, Sampson placed Iglesias
on the removal list. By accepting complaints from New Mexico political officials


                                      332
as a basis for Iglesias’s removal without investigating their validity, we believe
Department leaders abdicated their responsibility to ensure that prosecutorial
decisions would be based on the law, the evidence, and Department policy,
rather than political pressure related to the handling of specific cases.

       With regard to Nevada U.S. Attorney Daniel Bogden, as with Graves, we
were unable to identify the person responsible for recommending that he be
placed on the removal list. Bogden first appeared on the September 2006
removal list, shortly after Sampson received vociferous complaints from the
head of the Department’s Obscenity Prosecution Task Force that Bogden would
not assign a prosecutor to a Task Force obscenity case. Yet, neither Sampson
nor any other senior Department official asked Bogden for his response to this
complaint. No one inquired about competing resource needs in Bogden’s
district, his view of the strength of the obscenity case, or his offer to provide
assistance to the Task Force with office space, grand jury time, secretarial
support, and prosecution advice.

      It also appears that some Department officials believed that voter fraud
was an issue in Nevada. However, no one complained about Bogden’s handling
of any allegations of voter fraud, and we found no evidence to support any
speculation that Bogden’s removal related to any voter fraud issues.

      Department officials testified and told us that Bogden was considered to
be a “mediocre” U.S. Attorney and lacked energy and leadership. Yet, we found
no evidence that Department managers ever raised concerns about Bogden’s
performance with him before he was removed, and they also did not ask
Department officials who would likely be most knowledgeable about Bogden’s
performance, such as Battle or Margolis, before placing Bogden on the removal
list.

      Moreover, except for Goodling, no one involved in the removals said they
recommended that Bogden be removed, and Goodling denied that her
recommendation was the cause of his removal. While Sampson acknowledged
that he must have physically placed Bogden’s name on the list, Sampson
denied that he made the decision to do so and said that he did not remember
who made the recommendation. Attorney General Gonzales stated that he did
not know why Bogden was removed.

      Sampson also acknowledged to us that there may have been other
“mediocre” U.S. Attorneys whose performance was worse than Bogden’s, but
they were not removed because they had the right political connections. This
admission is another example of the consideration of political factors in the
removal process by the Department.

     The reason for the removal of John McKay, the U.S. Attorney for the
Western District of Washington, was difficult to determine. McKay was



                                       333
included on Sampson’s first removal list in March 2005 during a controversy
about his handling of voter fraud allegations in connection with the contested
2004 Washington State gubernatorial election. However, Sampson stated that
he did not believe he placed McKay’s name on this removal list because of
McKay’s handling of voter fraud allegations, and none of the other Department
officials we interviewed said they recalled hearing any concerns about the way
McKay handled voter fraud allegations related to the election.

       Sampson took McKay’s name off the next removal list in January 2006,
after Deputy Attorney General James Comey spoke highly of McKay’s
performance. Sampson subsequently placed McKay back on the list in
September 2006. McKay told us that White House Counsel Miers and Deputy
White House Counsel William Kelley told him at a meeting in August 2006 – a
few weeks before McKay’s name reappeared on the removal list – that
Washington State Republicans were displeased with his handling of voter fraud
complaints. Because Miers and Kelley, as well as Rove, declined to cooperate
with our investigation, and because we were denied access to internal White
House documents, we cannot rule out the possibility that McKay’s handling of
voter fraud complaints played a part in the decision to remove him from office.

      Based on the available evidence, however, we believe that the main
reason McKay’s name was placed back on the list in September 2006 was his
clash with Deputy Attorney General McNulty over the LInX information-sharing
program, which McKay zealously advocated. Sampson told us that McNulty
was irritated by McKay’s August 30, 2006, letter urging McNulty to adopt LInX
as the Department’s sole information-sharing program. McKay’s letter was
signed by 17 U.S. Attorneys in addition to McKay and was disseminated both
inside and outside the Department.

       However, McNulty told us that he did not instruct Sampson to put
McKay on the removal list and that he was prepared to work with McKay to
resolve the information-sharing issue. While McNulty said he did not initiate
McKay’s removal, he also stated that he did not object when he saw McKay’s
name on the removal list because he had questions about McKay’s judgment in
light of the way McKay handled the LInX matter.

       With regard to Arizona U.S. Attorney Paul Charlton, we found no
evidence, as some speculated, that Charlton was removed because of his
office’s investigation and prosecution of an Arizona Congressman. Rather, we
found that the Department was displeased with Charlton’s implementation of a
policy in his district that required that interrogations be tape recorded.
Charlton’s unilateral action in implementing the policy, without consulting
Department leaders and in direct opposition to the FBI’s policies, was
counterproductive and inappropriate. Yet, the Deputy Attorney General’s
Office and Charlton agreed to address the issue by considering a pilot taping



                                     334
program. Moreover, after the dispute about the taping policy, which occurred
in February 2006, Charlton was not included on Sampson’s next removal list.

       We concluded that the most significant factor in Charlton’s removal was
his actions in a death penalty case. Charlton persistently opposed the
Department’s decision to seek the death penalty in a homicide case, and he
irritated Department leaders by seeking a meeting with the Attorney General to
urge him to reconsider his decision. We are troubled that Department officials
considered Charlton’s actions in the death penalty case, including requesting a
meeting with the Attorney General, to be inappropriate. We do not believe his
actions were insubordinate or that they justified his removal.

       With regard to Carol Lam, the U.S. Attorney for the Southern District of
California, we also found no evidence to support speculation that Lam was
removed in retaliation for her prosecution of certain public corruption cases.
Rather, she was placed on the removal lists because of the Department’s
concerns about the low number of gun and immigration prosecutions
undertaken by her office. These concerns were raised in the EARS evaluation
of Lam’s office in 2004, and Department officials expressed these concerns to
her. In response, Lam argued to the Department that the low number of gun
prosecutions resulted from various factors in her district, including strong
state gun laws and effective state and local law enforcement of gun laws. With
regard to immigration cases, Lam explained that her office decided to prosecute
the more serious offenders with charges bringing longer sentences, and that it
took more resources to investigate and prosecute these types of cases.

       These explanations did not persuade Department leaders or assuage
their concerns about her prosecutorial priorities. It is the President’s and the
Department’s prerogative to remove a U.S. Attorney who they believe is not
adhering to their priorities or not adequately pursuing the types of
prosecutions that the Department chooses to emphasize. This is true for any
U.S. Attorney, even one such as Lam who was described by Margolis as
otherwise “outstanding,” “tough,” and “honest,” and who was described in the
EARS evaluation as “an effective manager . . . respected by the judiciary, law
enforcement agencies, and the USAO staff.”

      However, what we found troubling about Lam’s case was that no one
examined her response to the concerns about her prosecution of immigration
and gun cases, and the Department removed her without implementing the
plan outlined by Sampson, at the direction of the Attorney General, to address
the Department’s concerns about Lam’s prosecutorial priorities. The plan
called for the Deputy Attorney General (or his staff) having “a heart-to-heart”
talk with Lam about the urgent need to improve immigration enforcement;
working with her to develop a plan to address the problem; and removing her if
she “balk[ed]” or otherwise did not perform in a measurable way. Yet, we found
no evidence that anyone in the Deputy Attorney General’s office took any of the


                                       335
steps outlined in the plan, or that anyone in the Attorney General’s Office
inquired about the outcome of the plan before Lam was removed.

       With regard to the remaining two U.S. Attorneys – Margaret Chiara from
the Western District of Michigan and Kevin Ryan from the Northern District of
California – we found that the Department had reasonable concerns about
their performance and management, and that they were removed for those
reasons. We concluded that, contrary to Chiara’s claim, she was not removed
because of rumors concerning an alleged sexual relationship with a
subordinate Assistant U.S. Attorney.

      The evidence was clear that Ryan was removed because of concerns
about his performance and the two EARS evaluations that severely criticized
his management of the office. In contrast to the process the Department used
to decide whether to remove the other U.S. Attorneys, the Department sought
an objective evaluation of concerns about Ryan’s performance, and Ryan was
given an opportunity to respond to those concerns. At the end of the process,
the Department considered the evaluations and his responses, concluded that
Ryan’s office needed a change of leadership, and implemented that change. We
found nothing inappropriate with that decision.

      D.    Notification to the U.S. Attorneys

       We also concluded that the way the U.S. Attorneys were told to resign
was poorly handled. EOUSA Director Battle was instructed to inform the U.S.
Attorneys to submit their resignations without providing them the reasons for
their removals.

       According to Sampson, at the November 27, 2006, meeting at which the
removal plan was approved, the group discussed whether McNulty should
notify the U.S. Attorneys in person while they were in Washington, D.C., for a
conference. McNulty said that he did not recall being asked to notify the U.S.
Attorneys and said having Battle make the calls was consistent with the notion
of keeping the removals “in a lower key.”

      We believe a better practice would have been for the Attorney General or
the Deputy Attorney General, who was the U.S. Attorneys’ direct supervisor, to
personally inform the U.S. Attorneys of their removal. Several of the U.S.
Attorneys said they were stunned by Battle’s call and were confused about why
they were asked to resign. Moreover, the U.S. Attorneys were told that they
were being removed because the Administration wanted to give someone else a
chance to serve. That was not true, except in the case of Cummins. Moreover,
we found no evidence that the Department had other candidates in mind to
replace most of those who were removed. And when some U.S. Attorneys
inquired about the reason they were being removed, they received no other
response.



                                      336
       The decision not to disclose to the U.S. Attorneys why they were being
removed led to speculation by them, and eventually by others, about the true
reasons they were being removed, including speculation in some cases that
they were removed for improper political reasons. Further, no one adequately
considered what would happen once it became known that multiple U.S.
Attorneys had been asked to resign at the same time without being told why.
McNulty indicated that the working assumption was that the U.S. Attorneys
would see it in their best interest to deal with their removals quietly because
they would not want to admit they had been fired. However, that assumption
failed to account for speculation about the real reasons for their removal,
particularly when it became known, as it inevitably would, that seven U.S.
Attorneys were removed on the same day. In addition, in light of what Battle
told them about the Administration wanting to give someone else a chance to
serve, the U.S. Attorneys were understandably angry when Gonzales and
McNulty later testified that the removals were based on performance.

       It is within the President’s power to remove U.S. Attorneys for any reason
or for no reason as long as the removal is not for improper or illegal purposes.
However, we believe the better practice would be to ask each of the U.S.
Attorneys to address the concerns or complaints related to them and, after
evaluating their responses and other information, inform them in a
straightforward and professional manner why they were being asked to resign.


II.   White House Involvement in the Removal Process

        While our investigation could not fully determine the role of White House
officials in the removals of the U.S. Attorneys, for at least three of the removals,
the evidence indicates the White House was more involved than merely
approving the removal of Presidential appointees, as Department officials
initially stated.

      First, with regard to Cummins the evidence shows that the White House
sought to give former White House official Griffin a chance to serve as U.S.
Attorney, and that both Rove and Miers supported Griffin’s appointment.

       Second, as discussed above, we found evidence that the White House
may have directed Graves’s removal because of conflicts with Senator Bond’s
staff that were unrelated to Graves’s duties as U.S. Attorney. However, no one
at the Department questioned the basis for Graves’s removal or attempted to
ensure that it was not undertaken for an improper political purpose.

      Third, we found evidence that complaints to Rove and others at the
White House and the Department by New Mexico Republican political officials
and party activists about how Iglesias was handling voter fraud cases and a
public corruption case led to Iglesias’s removal.



                                        337
      We recognize that some White House involvement in the removals is not
remarkable because U.S. Attorneys are Presidential appointees. However,
because Miers, Rove, Deputy White House Counsel Kelley, and Associate White
House Counsel Klingler refused to cooperate with our investigation, and
because the White House declined to provide internal documents to us, we
were unable to determine the role the White House played in these removals.

      Nevertheless, the evidence we found shows that Gonzales, McNulty, and
other Department officials acquiesced in the replacement of Iglesias and several
other U.S. Attorneys without scrutinizing or even questioning the basis for their
removals. Moreover, the Department failed to ensure that the removals were
not undertaken for an improper political purpose. Instead, after the removals,
Gonzales, McNulty, and others simply asserted that the removals were
performance-based, which the evidence showed was inaccurate and misleading
with regard to several of the U.S. Attorneys.


III.   The Attorney General’s Interim Appointment Authority

      Another allegation we examined was whether the Department intended to
avoid the formal Senate confirmation process by appointing Interim U.S.
Attorneys to the vacant positions for an indefinite period of time. A provision
contained in the Patriot Reauthorization Act that took effect in March 2006
authorized the Attorney General to appoint an Interim U.S. Attorney until the
vacancy was filled by a confirmed presidential appointee. Previously, the
Attorney General could appoint an Interim U.S. Attorney for only 120 days.

       In mid-September 2006, Sampson e-mailed Miers with a list of “U.S.
[Attorneys] We Now Should Consider Pushing Out,” and recommended that the
Administration use the Attorney General’s authority to make Interim U.S.
Attorney appointments to fill the resulting vacancies in lieu of going through
the formal nomination and Senate confirmation process. Sampson wrote: “By
not going the PAS [Presidentially Appointed, Senate Confirmed] route, we can
give far less deference to home-State Senators and thereby get (1) our preferred
person appointed and (2) do it far faster and more efficiently, at less political
cost to the White House.” We found no record of Miers’s response to this e-
mail, and she declined our requests for an interview.

      Both Sampson and Gonzales told us that Gonzales opposed Sampson’s
idea to bypass the Senate confirmation process using the interim appointment
authority, and the evidence shows that Sampson abandoned the idea as a
general matter. On November 7, 2006, Sampson forwarded to Elston and
McNulty a copy of his proposed plan for the U.S. Attorney removals, and Step 4
of that plan stated that the Department and the White House would “obtain
recommendations from Senators and other state political leadership,” and




                                      338
“have [the] President make nominations and work to secure confirmation of
U.S. Attorney nominees.”

       However, when faced with Arkansas Senator Mark Pryor’s continued
opposition to Griffin’s nomination after Cummins resigned in mid-December
2006, Sampson again advocated using the Attorney General’s interim
appointment authority to place Griffin in the position indefinitely without
Senate confirmation. He wrote in a December 19 e-mail to the White House, “I
think we should gum this to death,” and suggested in his e-mail that if either of
the Democratic senators from Arkansas would not agree to support Griffin’s
nomination the Department could “run out the clock” to the end of the Bush
Administration while appearing to act in good faith by asking the Senators for
recommendations, interviewing other candidates, and pledging to “desire” a
Senate-confirmed U.S. Attorney. Sampson’s e-mail also stated that “our guy
[Griffin] is in there so the status quo is good for us.”

      When questioned about this e-mail during his congressional testimony,
Sampson characterized his discussion of using the interim appointment
authority to bypass Senate confirmation as a “bad idea at the staff level.”
Gonzales told us he could not recall whether he discussed use of the interim
appointment authority in Griffin’s case with Sampson at that time, but said he
thought it was a “dumb idea” as a general matter. We found no evidence that
Gonzales ever supported this idea, and in fact he pledged to Senator Pryor in a
telephone conversation that he would not recommend that the President
nominate Griffin if Pryor could not support the nomination. Eventually, Griffin
withdrew from consideration for the permanent U.S. Attorney position, and the
Department nominated another candidate.

       In sum, the evidence shows that Sampson, on his own initiative,
advocated using the Attorney General’s authority to appoint an Interim U.S.
Attorney to bypass the formal Senate confirmation process, an admittedly “bad
idea” that was not supported by Gonzales. However, we believe that Sampson’s
suggestion was not simply a ‘bad idea,” it was a bad faith recommendation to
keep Griffin in the position without Senate confirmation.


IV.   The Conduct of Senior Department Officials

      In this section, we assess the actions of each of the Department’s senior
leaders who were most involved in the U.S. Attorney removal process, and we
also examine the accuracy of their public statements about the removals.

      A.    Alberto Gonzales

       We believe that Attorney General Gonzales bears primary responsibility
for the flawed U.S. Attorney removal process and the resulting turmoil that it
created. This was not a simple personnel matter that should be delegated to


                                      339
subordinate officials – it was an unprecedented removal of a group of high-level
Department officials that was certain to raise concerns if not handled properly.
Such an undertaking warranted close supervision by the Attorney General, as
well as the Deputy Attorney General. Gonzales did not provide such
supervision, nor did he ensure that the Deputy Attorney General provided the
necessary oversight.

       Gonzales described himself as a delegator and said it was not in his
nature to micromanage the “good people” to whom he delegated responsibility.
According to Gonzales, he told Sampson to consult with the senior leadership
of the Department, obtain a consensus recommendation as to which U.S.
Attorneys should be removed, and coordinate with the White House on the
removal process. Yet, Gonzales acknowledged that he did not discuss with
Sampson how to evaluate the U.S. Attorneys or what factors to consider.
According to Gonzales, while Sampson provided him “periodic” and “very brief
updates” about the U.S. Attorney removal plan over time, they had no
discussion of “substance” in terms of the reasons underlying the proposed
removals, and Gonzales said he did not know who was “going on and off the
list.”

     Gonzales also stated that while it was his decision to approve the
removals, he did so based on Sampson’s recommendations and what he
thought was the consensus of Department leaders. Yet, he said that he never
asked Sampson or anyone else how they arrived at their recommendations or
why each particular U.S. Attorney warranted removal. Instead, he said he
“assumed” that Sampson engaged in an “evaluation process,” that the
recommendations were based on performance issues, and that they reflected a
consensus of senior Department managers.

       Even after the removals, Gonzales said he still did not know why certain
of the U.S. Attorneys had been removed. For example, Gonzales told us that he
had no recollection of being consulted about Graves’s removal. Gonzales also
told us he did not recall having any discussions with Sampson about Griffin
replacing Cummins, who was the second U.S. Attorney told to resign.

      Most remarkably, Gonzales told us he had “no recollection” of the
November 27, 2006, meeting in his conference room during which he approved
the plan to request the resignations of the U.S. Attorneys on December 7. At
the meeting, the other participants discussed the steps necessary to implement
the plan. Gonzales was present, received a copy of the 3-page implementation
plan, and gave his approval to proceed. Yet, only a few months later Gonzales
stated that he did not remember this critical meeting.

       While delegation in many matters is understandable given the wide range
of matters demanding an Attorney General’s attention, we believe that Gonzales
failed to exercise appropriate leadership and supervision throughout this entire


                                      340
process. While he described himself as a delegator who does not micromanage,
he allowed a subordinate who had little prosecutorial or managerial experience
to design the plan and select for removal Presidentially appointed Department
officials with virtually no supervision, oversight, or accountability.

      Gonzales failed to take action even in the case of Iglesias where he had
notice that partisan politics might be involved in the requests for his removal.
Gonzales received three telephone calls from 2005 to 2006 from Senator
Domenici raising concerns about Iglesias. During the fall of 2006, Gonzales
also discussed with Rove and with the President allegations of voter fraud in
New Mexico. Gonzales said he asked Sampson to look into Senator Domenici’s
complaints, but he never inquired about the outcome of any review or ensured
that the complaints were fairly assessed. Gonzales told us that he would have
expected that someone would have looked into the complaints. According to
Gonzales, “you can’t have, you know, a member of Congress calling and
making an allegation and not checking it out and seeing whether or not there’s
anything there to it.” But that is exactly what happened with Domenici’s
complaints, and Gonzales failed to ensure that the allegations were examined
before Iglesias was removed.

      Gonzales also made a series of statements after the removals that we
concluded were inaccurate and misleading, as we discuss in the following
sections.

            1.    Gonzales’s Statements at the March 13 Press Conference

      On March 13, 2007, Gonzales held a brief press conference concerning
the U.S. Attorney removals, partly in an attempt to respond to the perception
that the Department was withholding information about the removals. During
this press conference, Gonzales made several statements about his own role in
the removal process, including that he “was not involved in seeing any memos,
was not involved in any discussions about what was going on.” Gonzales also
stated, “I never saw documents. We never had a discussion about where
things stood.”

       As the facts described in Chapter Three demonstrate, these statements
were inaccurate and misleading. Sampson had periodically briefed Gonzales
about the status of the removal process as it progressed. Moreover, at the
meeting in his conference room on November 27, 2006, Gonzales received a
copy of the 3-page implementation plan and approved the removal plan. Even
if he did not recall the November 27 meeting, it is unclear why Gonzales would
claim that he “never had a discussion about where things stood” since he had
been briefed by Sampson periodically.

      While it is clear that several of Gonzales’s statements at the press
conference were untrue, it is difficult to determine whether Gonzales



                                       341
deliberately provided false information. Gonzales stated that prior to the press
conference he had not gone back to look at his calendars or other documents
to prepare, that the press conference was a hurried reaction to the controversy,
and that he simply did not remember the November 27 meeting at which he
approved the final removal plan. As noted, we found his alleged failure of
memory about a key meeting in his office to remove a group of Presidential
appointees extraordinary, no matter how hurriedly the press conference was
arranged. More importantly, such inaccurate statements from the Attorney
General significantly damaged his credibility and the Department’s credibility
in its response to this controversy.

      As a general matter, Gonzales repeatedly testified that the removals were
not undertaken for an improper or illegal purpose. However, he could not have
known whether that was true because he did not ask Sampson why the U. S.
Attorneys were being removed. Although it is understandable that the Attorney
General would rely on the representations of others in important matters he
had delegated to them, in this situation he was aware that political concerns
may have motivated at least one of the removals. Political leaders in New
Mexico had expressed concerns to him directly about Iglesias regarding his
handling of voter fraud and public corruption matters. Yet, he did not question
whether improper political considerations had resulted in Iglesias’s or any
other U.S. Attorney’s removal.

            2.    Gonzales’s Conversation with Goodling

       Another serious allegation regarding the Attorney General’s statements
after the removals concerned a conversation he had with Monica Goodling in
his office on March 15, 2007. The conversation took place after Congress had
indicated to Gonzales that it proposed to subpoena Goodling and others to
testify about the removals, and after Gonzales had directed the Department’s
Office of Professional Responsibility to investigate the circumstances of the
removals. In congressional testimony in April and May 2007, Gonzales
repeatedly asserted that out of deference to the ongoing internal investigation
he had not discussed the facts of the removals with anyone in the Department.

       This turned out to be untrue. When Goodling testified before the House
Judiciary Committee on May 23, 2007, pursuant to a grant of immunity, she
disclosed her March 15 conversation with Gonzales. Goodling testified that the
conversation with Gonzales had made her uncomfortable because she was
concerned at the time that she and Gonzales might have to testify about the
U.S. Attorney removals at some point. Goodling testified that she was
distraught and went to the Attorney General to seek a transfer to another
component of the Department. Goodling said that after that part of the
conversation, Gonzales was “just trying to chat” and said “‘let me tell you what
I can remember.’” According to Goodling, Gonzales laid out his general
recollection of some of the events concerning the U.S. Attorney removals, and


                                      342
then asked her if she had any reaction to what he said. Goodling said that
Gonzales also mentioned that he thought that everybody who was on the
removal list was there for performance-related reasons, and Gonzales said he
had been upset with McNulty because he thought McNulty wrongly testified
that Cummins was removed only to give Griffin a chance to serve. Goodling
said that while there was more to her discussion with Gonzales, she could not
recall anything further. Goodling also said she did not believe that Gonzales
was trying to shape her recollection of events. As noted above, we were not
able to interview Goodling about this or other matters.

       Gonzales emphatically denied to us that he had tried to influence
Goodling’s testimony. He said that Goodling came to his office in an extremely
distraught state, saying that she was paralyzed and could not do her work.
Gonzales said he asked her why and she said something about having had the
same information that Sampson had (referring to information that the White
House was involved with the removal process earlier than had been disclosed
by the Department). Gonzales said he tried to console Goodling and said that
no one intentionally had done anything wrong. He said he wanted to reassure
her and began to tell her what he knew about what had happened with regard
to the U.S. Attorney removals, although he said he did not remember
specifically what he told Goodling about the removals. Gonzales told us he
could not recall discussing McNulty and Cummins with Goodling, but did not
deny that he did.

      Gonzales said that Goodling asked for a transfer to another component
in the Department, and he told her he would consider her request and assured
her that they would get through the current situation. Gonzales said it seemed
that Goodling felt better when she left his office.

       We do not believe the evidence is sufficient to conclude that Gonzales
attempted to influence the recollection of a witness in a pending investigation.
Goodling testified that she did not believe Gonzales was trying to shape her
recollection of events. Moreover, Gonzales did not seek out Goodling to relay
his version of events; rather, she came to see him because she was distraught.
In addition, several witnesses confirmed Goodling’s distraught state of mind at
the time of her conversation with Gonzales. When we asked Gonzales whether
he considered that it might have been inappropriate for him to discuss his
recollections with Goodling, he told us that he did not give it any thought at the
time because he was just trying to help Goodling.

      We believe that Gonzales was, in fact, trying to console Goodling during
this meeting. However, even in his attempt to console her, he should not have
recounted his recollection of the substantive facts of the matter to Goodling.
Regardless of his motive, we question Gonzales’s judgment in recounting what
he believed the facts to be with someone whom he knew to be a prospective
witness in both a Congressional investigation and an internal Department


                                       343
investigation. We also question why he stated to Congress that he had never
discussed the facts of the removals with anyone in the Department, which was
not true.

      B.    Paul McNulty

        As noted above, we found that Deputy Attorney General McNulty had
little involvement in the removal process despite his role as the immediate
supervisor of U.S. Attorneys. McNulty was not even informed about the
removal plan until mid to late October 2006. McNulty said he was surprised
when he learned about the plan, but he did not object to it. McNulty stated
that the removal process was an initiative of the Office of the Attorney General
related to a “personnel matter” that was within the province of the Attorney
General, and therefore he deferred to the Office of the Attorney General in the
matter.

      Yet, like Gonzales, McNulty did not ask questions as to how Sampson
came up with the names on the removal list. McNulty told congressional
investigators that even though he was aware of concerns about each of the U.S.
Attorneys targeted for removal, he was “a softie” when it came to addressing
such concerns with the U.S. Attorneys directly, and said the removal plan was
contrary to the way he would have addressed such concerns. However,
McNulty said he did not express his reservations about the plan to Sampson or
the Attorney General.

      We believe the Deputy Attorney General, the second in command of the
Department of Justice and the immediate supervisor of the U.S. Attorneys,
should have raised his objections forcefully and not been so deferential about
such a significant personnel action involving U.S. Attorneys under his
supervision.

       This is especially true with regard to Iglesias’s removal. As discussed in
Chapter Six, Senator Domenici called McNulty in October 2006 to criticize
Iglesias’s handling of public corruption cases and told McNulty that Iglesias
was “in over his head.” McNulty said he had no specific recollection of
discussing Senator Domenici’s telephone call with Gonzales or Sampson, but
told us that it is the type of contact he would have passed along to them.

      However, like Gonzales, McNulty never investigated the accuracy of
Senator Domenici’s complaints, or the possibility that these complaints could
be related to partisan political considerations and that Iglesias could have been
handling these cases appropriately and in accord with Department policy, the
law, and the evidence. Instead, McNulty distanced himself from the decision to
remove Iglesias, labeling it a “personnel” matter which he considered outside
his “bailiwick.”




                                       344
       Moreover, we also believe McNulty should have disclosed Senator
Domenici’s call during his congressional briefing. McNulty said that he did not
want to raise Senator Domenici’s involvement because he was “concerned
about . . . putting the Senator in a bad light or in a difficult position” and that
he wanted to keep the conversation between Domenici and him about Iglesias
“confidential . . . [I]t was just a courtesy.” McNulty defended his action by
noting that he had disclosed in his briefing generic “congressional concerns”
about Iglesias. We disagree and do not believe that Senator Domenici’s calls
should have been kept confidential or that the Department owed the Senator
any “courtesy” with regard to his complaints about Iglesias, which had led to
Iglesias’s removal. Rather, McNulty owed Congress and the public full and
accurate testimony regarding the matter, and McNulty failed to provide such
testimony as a result of his misguided attempt to shield Senator Domenici from
criticism.

       We also examined the claim raised by Goodling in her congressional
testimony that she believed McNulty had greater knowledge about the history
of the White House’s involvement in the removal than McNulty had told
Congress. Goodling said she had briefed McNulty in the summer of 2006
about the White House’s involvement in Griffin’s appointment.

       McNulty testified to the Senate Judiciary Committee on February 6,
2007, that while he was aware in the summer of 2006 that Griffin was
scheduled to replace Cummins, he did not know how Griffin came to the
Department’s attention. 201 He also stated in his closed briefing of the Senate
Judiciary Committee on February 14, 2007, that the removal process began
within the Department in September or October 2006. McNulty also said at
the briefing that the Department had sent the list to the White House Counsel’s
Office in October 2006 and asked if they had any objection to the names, and
the White House voiced no objections. In fact, as discussed above, this was not
an accurate description of the timing of the removal process or the White
House’s role in the process.

      Because Goodling declined our request for an interview, we were unable
to question her concerning what she told McNulty regarding Griffin or the
White House’s involvement in the removal process. However, we concluded
that McNulty did not intentionally mislead Congress in his testimony. At the

       201 McNulty later clarified this statement in his testimony before the House
Subcommittee on the Judiciary on June 21, 2007. He stated that he had known for months
that “Cummins was asked to move over so that Mr. Griffin would have a chance.” However, he
stated that he did not know exactly how Griffin came to the Department’s attention, and he
noted that Goodling said she was not even particularly aware of how he came to the
Department’s attention. McNulty said, “I just didn't know the specifics of how he came to be
recommended to us. We later learned that Ms. Miers contacted Kyle Sampson, and that's the –
the way.”




                                            345
time he testified in February 2007, he was unaware of the White House’s
earlier involvement in the removals. He stated what he believed about the
process at the time: that the Department came up with the names in the fall of
2006 and the White House did not object. While that was not correct, McNulty
did not know that at the time.

       We also noted that while Goodling was supposed to accompany McNulty
to the closed briefing, McNulty instructed her to remain outside the room
because he was concerned that her status as the Department’s White House
Liaison would raise questions by the Senators. Goodling testified that she
believed McNulty had done so in order to discourage the Senators from asking
questions about the White House’s role in the removals. McNulty said his
concern at the time was that Goodling’s presence would make the removal
process seem “more political” given the fact that Goodling’s position at the
Department was uniquely associated with the Department’s political
appointments. We believe the decision to exclude Goodling was troubling and
reflected an inappropriate focus on appearances. Besides Sampson, Goodling
was the only other person who had in-depth knowledge about the removals and
the level of the White House’s involvement in the process. Had Goodling been
present, it is likely that McNulty would not have provided misleading
information to the Senate about the timing and substance of the White House’s
involvement.

       Moreover, although we determined that McNulty did not intentionally
mislead Congress, he stated in his testimony to the Senate Judiciary
Committee that “we never have and never will” seek to remove a U.S. Attorney
to interfere with an ongoing investigation or in retaliation for prosecution.
However, McNulty did not question Sampson concerning the basis for the
removal recommendations. Especially with respect to Iglesias’s removal,
McNulty should have inquired about the reasons for the removals to ensure
that they were not improper before providing testimony to Congress implying
that he had done so.

      C.    Kyle Sampson

      As discussed above, Sampson was the person most responsible for
creating the removal plan, selecting the U.S. Attorneys to be removed, and
implementing the plan. Yet, after the controversy over the removals erupted,
Sampson attempted to downplay his role, describing himself as the
“aggregator” and denying responsibility for placing several of the U.S. Attorneys
on the list.

      We concluded that from start to finish Sampson mishandled the removal
process. And, as discussed above, he inappropriately advocated bypassing the
Senate confirmation process for replacing U.S. Attorneys through a strategy of




                                      346
“gum[ming] this to death” and “run[ning] out the clock” while appearing to act
in good faith.

       We were also troubled by Sampson’s claims that he did not recall the
reasons for many of the removals or who had recommended that certain U.S.
Attorneys be removed. For example, while Sampson said he did not place
Iglesias on the list at the request of the White House, his recollection on this
issue was varying and vague. We question why Sampson could not recall the
precise reason why he placed Iglesias on the removal list, given the relatively
short passage of time since the incident, and the fact that Iglesias’s name alone
was added, for the first time, to the November 2006 list. Moreover, other
misleading after-the-fact explanations for why Iglesias was placed on the list
caused us to further doubt the candor of Sampson’s explanations. In the end,
we question whether Sampson provided us the full story about Iglesias’s
placement on the list, as well as the reasons for other U.S. Attorney removals.

      As discussed in the sections that follow, we also concluded that Sampson
made various misleading statements about the U.S. Attorney removals to the
White House, Congress, and other Department officials.

              1.     Misleading Statements to the White House

      Sampson’s misleading statements about the U.S. Attorney removals
began as the selection process was unfolding. He misrepresented to the White
House how the selections occurred. In an e-mail to Harriet Miers in January
2006 forwarding a list of names to the White House, Sampson wrote, “I list
these folks based on my review” of the EARS evaluations, and “my interviews
with officials in the Office of the Attorney General, Office of the Deputy Attorney
General, and the Criminal Division.” Sampson thus created the general
impression that the EARS evaluations and his “interviews” of senior
Department officials, including officials in the Criminal Division, formed the
basis of his identification of specific U.S. Attorneys for removal.

      However, Sampson admitted to us that he did not remember speaking to
anyone in the Criminal Division about the performance of U.S. Attorneys,
except “only in the most general terms.” He also acknowledged that he never
reviewed any EARS evaluations. He told us that it would have been better if he
had stated in the e-mail to Miers that it was based on his understanding of
somebody else’s understanding of the reviews of the offices. 202 We believe that
Sampson’s misleading statements to Miers gave the impression that the


       202 However, even that would have been inaccurate because, as we noted in each of the
U.S. Attorney chapters, with the exception of Ryan’s March 2006 EARS evaluation (which had
not yet taken place), each of the EARS evaluations of the removed U.S. Attorneys was largely
positive.




                                            347
Department had engaged in a far more systematic and structured evaluation
process to determine which U.S. Attorneys should be removed.

            2.     Misleading Statements to Congress

       Sampson similarly misled congressional staff in his January 12, 2007,
briefing that the removals were based on EARS evaluations. At this meeting,
Sampson and Acting Assistant Attorney General for the Office of Legislative
Affairs Richard Hertling briefed staff for Senators Patrick Leahy and Dianne
Feinstein about the removals. Sampson told the Senators’ staffs that the
Department had been engaged in a process to identify underperforming U.S.
Attorneys and that the process included a review of the EARS evaluations. The
two staff members for the Senators told us that Sampson initially explained
that the terminations were based on the EARS evaluations, but backtracked
when Feinstein’s counsel pressed him for copies. According to both staff
members, Sampson then explained that some of the removals were based on
EARS evaluations, and some on other factors such as caseloads and
responsiveness to Department policy initiatives.

      According to Hertling, who said he knew little about the controversy at
the time, Sampson attempted to impress upon the congressional staff that the
removals were the result of a process the Department undertook to identify
U.S. Attorneys who were the “weakest performers,” and that the process
included a review of EARS evaluations. Hertling told us that one of the things
that stuck in his mind was Sampson’s “specific reference” to EARS evaluations
as a basis for identifying these particular U.S. Attorneys for termination.

       However, Sampson claimed to us that he mentioned the EARS
evaluations only in connection with Ryan’s removal. He said that he doubted
he would have suggested that the other removals were based on the EARS
evaluations because “that wouldn’t have been accurate.” Yet, based upon the
recollection of the other witnesses at the briefing, including Hertling, we believe
that Sampson misled the congressional staff that EARS evaluations played a
more significant role in the Department’s decision-making process than they
actually did.

      Second, Sampson included misleading statements in the Department’s
response to a February 8, 2007, letter from several Senators asking for
information about the circumstances of Cummins’s resignation and Griffin’s
appointment. Sampson, who drafted the response and circulated it in the
Department and the White House for comment, had the final sign-off on the
language in the response.

       The response, which was sent on February 23, 2007, contained three
misleading statements. The first was the statement that “it was well-known, as
early as December 2004, that Mr. Cummins intended to leave . . . .” As we



                                       348
noted in Chapter Five, we found evidence that in drafting the response
Sampson discovered a small news item in a free weekly Arkansas tabloid
reporting that Cummins might begin exploring career options before the
expiration of President Bush’s second term. However, Cummins told us he did
not intend to resign at that time and was not looking for other employment.
We also found no evidence that anyone at the Department was aware of the
article until February 2007.

       The second misleading statement in the Department’s response was that
“the decision to have Mr. Griffin replace Mr. Cummins was first contemplated
in spring or summer of 2006 [and] the final decision to appoint Mr. Griffin . . .
was made on or about December 15 . . .” This statement is directly
contradicted by the January 9, 2006, e-mail Sampson sent to Miers in which
Griffin is listed as a replacement for Cummins. The second part of the
statement, that the final decision to appoint Griffin was made around
December 15, is also misleading. As noted in Chapter Five, Sampson informed
Goodling on August 18, 2006, that the Attorney General would appoint Griffin
Interim U.S. Attorney following Griffin’s return to the Department.

      The third misleading statement in the Department’s response was that
“The Department is not aware of Karl Rove playing any role in the decision to
appoint Mr. Griffin.” This statement is contradicted by Sampson’s e-mail on
December 19, 2006, to Associate White House Counsel Christopher Oprison in
which Sampson wrote, “I’m not 100 percent sure that Tim was the guy on
which to test drive this authority, but know that getting him appointed was
important to Harriet, Karl, etc.” While Sampson later explained this e-mail by
stating that he “assumed” but did not know that Rove was involved in the
decision to appoint Griffin, we found this explanation unpersuasive and belied
by the evidence.

            3.    Misleading Department Officials

      Sampson also misled Department officials and allowed them to mislead
others about several aspects of the U.S. Attorney removals.

      First, in mid-December 2006 after media reports began questioning the
circumstances of Griffin’s appointment, Sampson drafted talking points for the
Department’s Office of Public Affairs to use to respond to media inquiries. In
these talking points, Sampson wrote that “Griffin was appointed Interim U.S.
Attorney because of the timing of Cummins’s resignation.”

       In fact, as Sampson knew, Cummins had been removed so that Griffin
could take his place. The Department’s talking points left the misleading
impression that Griffin was appointed as Interim U.S. Attorney because of the
unexpected timing of Cummins’s resignation, when in fact Cummins was told
to resign to create a position for Griffin.



                                      349
      Second and more important, Sampson’s failure to disclose what he knew
about the White House’s involvement in the removals caused McNulty and
Principal Associate Deputy Attorney General William Moschella to provide
inaccurate testimony to Congress. Both McNulty and Moschella testified that
based on what they knew at the time, the White House was not involved in the
removals until October 2006 and at that point became involved only to sign off
on the process.

       Sampson was present at staff preparation sessions before both McNulty’s
and Moschella’s congressional testimony where the group discussed what they
should say in their testimony. Several other participants told us that the
question about the White House’s involvement was raised during at least one of
McNulty’s preparation sessions, and McNulty indicated that he would tell
Congress that the White House was involved to sign off on the process because
U.S. Attorneys are Presidential appointments. This was a misleading
statement about the extent and timing of the White House’s role, which
Sampson knew. However, Sampson did not correct McNulty’s mistaken belief
or inform him of the full extent of the White House’s involvement.

      Consequently, in a closed briefing session on February 14, 2007,
McNulty told members of the Senate Judiciary Committee that the U.S.
Attorney removal process began within the Department in September or
October of 2006, and that the Department sent a list to the White House
Counsel’s office in October and asked if they objected to the names. Similarly,
Moschella testified incorrectly before a House Judiciary Subcommittee on
March 6, 2007, based on what he had learned during the preparation sessions
and from McNulty’s testimony, that the process to remove the U.S. Attorneys
began in early October 2006 and that the White House eventually became
involved in the removals, but only to sign off on the proposal because the U.S.
Attorneys were Presidential appointees.

      When we interviewed Sampson, he rationalized his not correcting the
misimpression left at the preparation sessions by arguing that there were two
separate phases of the process – the earlier “thinking” phase and the later
“action” phase, and he said he was focused on the later action phase during
the preparation sessions. We found Sampson’s testimony on this point not
credible. Sampson sent three separate lists of U.S. Attorneys for removal to the
White House for consideration before the fall of 2006. We believe that
Sampson should have been more forthcoming at the preparation sessions
about the White House’s involvement to ensure that McNulty and Moschella
were aware of the facts and did not mislead Congress. Sampson’s failure to do
so resulted in inaccurate and misleading testimony about a critical aspect of
the controversy.

      We concluded that Sampson engaged in misconduct by making
misleading statements and failing to disclose important information to the


                                      350
White House, members of Congress, congressional staff, and Department
officials concerning the reasons for the removals of the U.S. Attorneys and the
extent of White House involvement in the removal process.

      D.    Monica Goodling

      Because Goodling refused to be interviewed by us, there are potential
gaps in our investigation of the reasons for the removal of certain U.S.
Attorneys. As the Department’s White House Liaison, Goodling had significant
contact with White House officials about Department personnel matters, and
Goodling was involved to some extent in the selection of the U.S. Attorneys for
removal. For example, it appears that Goodling instructed EOUSA Director
Battle to call Graves and direct him to resign. As noted above, she said she did
so based on Sampson’s instruction, a claim Sampson denied. Consequently,
we were unable to determine how Goodling came to order Graves’s removal, or
determine the White House’s role in Graves’s forced resignation.

       Based on our investigation, we also found that, like Sampson, Goodling’s
failure to fully disclose what she knew about the White House’s involvement in
the removals contributed to McNulty’s and Moschella’s inaccurate statements
to Congress. Goodling was present for at least part of McNulty’s preparation
sessions and his Senate testimony, as well as Moschella’s preparation session
where the issue of the White House’s involvement was raised. Both McNulty
and Moschella told us that no one at the preparation sessions provided them
with all the facts about the White House’s involvement with the removal plan.
Like Sampson, Goodling never corrected their misimpressions, and
consequently McNulty and Moschella both led Congress to believe the White
House was involved later in the process and only to sign off on a list of names,
which was not true. However, Goodling did not inform them, or anyone else,
that their testimony was incorrect until Sampson’s e-mails surfaced.

       In addition, the evidence shows that Goodling was aware that she had
been less than forthcoming in failing to disclose the White House’s involvement
to other Department officials. For example, when she learned that the
Department planned to provide Sampson’s documents to Congress that showed
earlier and more substantive involvement by the White House in the removals
than Moschella and McNulty had testified to, she became distraught and told
Margolis that her career was over because she had the same information as
Sampson. As noted above, Goodling also met with Gonzales and, according to
Gonzales, indicated that she had the same information that Sampson had,
referring to the information about the timing of the White House’s involvement.

       We also concluded that Goodling was partly responsible for creating the
false impression that Griffin was chosen to replace Cummins because the
USAO’s First Assistant was unavailable because she was on maternity leave.
This information was provided to Senator Pryor’s office and to Brian


                                      351
Roehrkasse, a Department of Justice spokesperson. Sampson told us that
Goodling told Gonzales in December 2006 about the First Assistant being on
maternity leave. However, Goodling clearly knew that the First Assistant’s
maternity leave had nothing to do with Griffin’s appointment as Interim U.S.
Attorney, but she did not correct this misimpression, which was conveyed by
the Department to Senator Pryor.

      We concluded that Goodling engaged in misconduct by failing to disclose
important information and to correct Department officials who were providing
what she knew was misleading information to Congress and the public
concerning the extent of the White House’s involvement in the U.S. Attorney
removal process, and for providing misleading information to Congress and the
Department concerning Griffin’s appointment as Interim U.S. Attorney.

      E.       David Margolis

       We found that Associate Deputy Attorney General Margolis had little
involvement in the selection of which U.S. Attorneys to remove, despite his
position, experience, and knowledge about many U.S. Attorneys.

       In early 2005, Sampson informed Margolis about Miers’s suggestion to
replace all U.S. Attorneys, an idea that both Margolis and Sampson considered
unwise. Margolis endorsed the idea of replacing weak or mediocre U.S.
Attorneys, noting to us that in the past U.S. Attorneys were generally removed
only for misconduct or gross incompetence tantamount to misconduct.

       At that time, Sampson asked Margolis for his opinion concerning the
weakest U.S. Attorneys. Margolis told us that two U.S. Attorneys should be
removed on performance grounds – Ryan and Lampton. In addition, Margolis
said that at that time he also either recommended Chiara for removal or
endorsed her removal. Margolis also gave Sampson the names of
approximately eight additional U.S. Attorneys who warranted a closer look,
either because of general performance, specific conduct, or both. 203

       After discussions in 2005, Margolis was not consulted again on which
U.S. Attorneys should be removed until November 2006, just before the
removal plan was finalized and approved. Margolis was not asked, and did not
follow up with Sampson, about what criteria should be considered in
determining who should be removed or the evaluation process that should lead
to the selections. In addition, although Sampson later claimed that he
understood that Margolis regularly reviewed EARS evaluations, Sampson never
discussed with Margolis what the evaluations revealed about any of the U.S.
Attorneys, except Ryan.

      203   However, none of these eight was among the ones directed to resign in 2006.




                                             352
      In November 2006, when Sampson advised Margolis about the
impending removals, he either showed Margolis a list or read from a list of six
U.S. Attorneys that Sampson indicated were to be removed. Margolis told us
that he was struck more by the names Sampson did not mention than the ones
he did. Margolis asked Sampson why Ryan and Lampton were not on the
removal list, and Sampson responded that he would look into it. Based on
Margolis’s and McNulty’s suggestion, Ryan was subsequently added to the list.

      However, Margolis told us that he did not think to question Sampson
about the six U.S. Attorneys who were on Sampson’s list. Margolis said he was
more focused on the names that were omitted and assumed Sampson had valid
reasons for the six slated for removal.

      Margolis is the senior career attorney in the Department and someone
who had significant knowledge about U.S. Attorneys and their performance.
He was involved in panel interviews for the selection of most U.S. Attorneys,
and as part of his duties handles misconduct allegations involving U.S.
Attorneys. He is highly respected within the Department, and his opinion was
valued because of his experience and stature.

      Yet, prior to the removals, he never questioned Sampson concerning why
the specific U.S. Attorneys slated for removal were chosen or what process was
used to select them. We believe that under these circumstances – an
unprecedented dismissal of a group of U.S. Attorneys at one time allegedly for
performance reasons – Margolis should have raised questions about the list
and the process used to identify the names to ensure there were no improper
reasons and that the Department was following a defensible process for the
removals. But Margolis never raised those issues, and instead focused solely
on seeking to ensure that Ryan was added to the removal list.

       It is noteworthy that while Margolis had endorsed the idea of removing
weak U.S. Attorneys, by his own testimony he was struck by the fact that two
weak performing U.S. Attorneys he had recommended for removal on
performance grounds were not on Sampson’s November 2006 list. Moreover,
none of the other eight U.S. Attorneys who he had originally suggested
warranted a closer look were included on the list. Instead, Sampson’s removal
list contained the names of six other U.S. Attorneys and Margolis did not know
the reasons why as to five of them.

      We recognize that the decision to remove the U.S. Attorneys was not
Margolis’s to make. But given his position, we believe he should have asked
Sampson, McNulty, or other senior Department leaders about the removal
process. This is particularly true given that this removal of U.S. Attorneys was
unprecedented, and it did not appear from the names on Sampson’s list that
the U.S. Attorneys Margolis thought were weak had been included.




                                      353
      In his testimony to congressional investigators, Margolis acknowledged
that he should have taken additional steps when he learned about the removal
plan. Margolis stated:

       I should say that I am a bit exasperated by my role here because
       I’m the only one of all the people involved who knows how to fire a
       United States Attorney or a Marshal based on experience. And I
       was not aggressive enough or vigilant enough, and I should have
       done a number of things, I should have inserted myself. I was too
       passive, and I’d like to, I think—and I hold myself accountable for
       this—that if I had stepped in and said something, that maybe this
       would have been - we would have handled this better . . . . And I’d
       like to think that I know how far a career guy should go and when
       he should defer to the political appointees. But in this case,
       ironically, I think my tentativeness and lack of aggressiveness –
       which I’m not known for lack of aggressiveness. I think it did my
       masters a disservice, and I accept that. That does not mean that
       I’m excluding everybody else from their own responsibility. That’s
       a different issue.
Margolis added that he had become side-tracked by ensuring that certain U.S.
Attorneys such as Ryan were on the removal list, and that he was not vigilant
enough in ensuring that no one was removed for an improper reason.
Moreover, Margolis said he should have asked for the reasons why each of the
U.S. Attorneys was being removed.

      We agree. We believe that given Margolis’s experience, position, and
stature he was too deferential to others on this important and unprecedented
removal of U.S. Attorneys. Had he raised questions, as he acknowledged he
should have, the damage to the Department by the fundamentally flawed
removal process might have been mitigated. 204

       F.     Michael Elston

      One of the most serious allegations stemming from the controversy was
that Michael Elston, the Chief of Staff to Deputy Attorney General McNulty,
attempted to threaten and intimidate three of the fired U.S. Attorneys in order
to keep them from publicly discussing their removals.

      As discussed in more detail in Chapter Three, on January 17, 2007, the
day preceding Attorney General Gonzales’s testimony before the Senate
Judiciary Committee, Elston telephoned McKay and Charlton. According to

       204  We also recognize, however, that Margolis could not have done anything about the
first two removals – Graves and Cummins – because he was neither asked for his opinion nor
informed of the removals at the time.




                                            354
Elston, McNulty asked him to make the call to let McKay and Charlton know
that the Attorney General was not going to testify about who had been removed
or the basis for the removals.

       According to McKay, Elston began the conversation by stating that
people in the Department were surprised they had not seen any “incendiary
comments” from McKay in the press. McKay said that Elston then stated that
the Attorney General would make only general statements in his Senate
testimony about the resignations, would not state that the U.S. Attorneys had
been fired, and would not disclose the reasons for their removal. McKay told
us that he believed that Elston was offering him a quid pro quo: “You keep
quiet, we won’t say anything.” McKay said he replied to Elston that he would
stay quiet not because the Attorney General would not disclose why he had
been fired, but rather because he believed it was his duty to do so.

       Charlton told us that he viewed a similar phone call from Elston as a
veiled threat. Charlton said that Elston told him that the Department’s senior
management had noticed that he had not been commenting in the media, and
he wanted Charlton to know that the Attorney General was not going to
comment on why Charlton had been asked to resign.

       Elston denied calling McKay and Charlton in an attempt to threaten
them to remain silent, and denied offering them any quid pro quo in exchange
for their silence.

      Approximately 1 month later, after a Washington Post article quoted
Cummins as criticizing the Department for stating that the removals of the U.S.
Attorneys were based on their performance, Elston called Cummins. According
to Cummins, Elston expressed dismay that the U.S. Attorneys might appear
before Congress to testify about their removals, which would force the
Department to publicly disclose the reasons for the removals. Cummins
subsequently sent an e-mail describing this conversation with Elston to McKay,
Charlton, Lam, Bogden, and Iglesias, characterizing it as a threatening call.

      Elston disputed Cummins’s characterization of the call. Elston told
congressional investigators he believed that Cummins had misinterpreted his
remarks, which Elston said were more along the lines of saying that it was a
shame that the reasons for the U.S. Attorneys’ removals were being discussed
in the media because it was tarnishing the Department as well as the
reputations of the individual U.S. Attorneys. Elston said he never intended to
send Cummins or anyone else a threatening message.

      While we understand why McKay, Charlton, and Cummins may have
interpreted Elston’s phone calls as a threat, we do not have sufficient evidence
to conclude that Elston intended to threaten them. In an interview with a
reporter the day before he testified before Congress, and his congressional



                                      355
testimony, Cummins did not characterize Elston’s call as a threat. Elston’s
comments appear close to the line, and we do not believe it unreasonable for
McKay, Charlton, and Cummins to have reached the conclusions they did.
Nevertheless, we do not believe the evidence is sufficient to show that his intent
was to threaten or intimidate the three U.S. Attorneys.

       G.      William Moschella

      Moschella testified before the House Judiciary Committee in March 2007
about the reasons for the removal of each U.S. Attorney. He did not become
Principal Associate Deputy Attorney General until October 2006, and we found
no evidence that he was consulted about the removals prior to the
November 27, 2006, meeting at which the Attorney General approved the
removal plan.

      As we discuss above, Moschella’s congressional testimony misstated both
the timing and the nature of the White House involvement in the removal
process. 205 However, Moschella did not know that his testimony about the
timing or the extent of the White House’s involvement was inaccurate.
Moschella only reiterated publicly what he had been told about these issues
and what McNulty had previously told the Senate Judiciary Committee. No one
at the Department – in particular Sampson and Goodling – informed Moschella
that what McNulty said was incorrect. When Moschella subsequently learned
about the inaccuracies in his testimony, after Sampson retrieved his e-mails
and showed them to Moschella and other Department officials, Moschella was
understandably upset and recognized the need to correct the inaccuracies.
Under these circumstances, we concluded that Moschella’s inaccurate
testimony was not his fault and that he should not be criticized for it.


V.     Conclusion

      In sum, we believe that the process used to remove the nine U.S.
Attorneys in 2006 was fundamentally flawed. While Presidential appointees
can be removed for any reason or for no reason, as long as it is not an illegal or

       205  In his testimony before the House Judiciary Subcommittee, Moschella inaccurately
testified that Iglesias’s EARS evaluation had criticized him for “delegating to his First Assistant
the overall running of the office.” However, as previously noted, Moschella obtained this
misimpression from the chart prepared by Goodling for McNulty’s closed briefing of the Senate
Judiciary Committee on February 14, 2006, which contained after-the-fact rationalizations for
many of the removals. In Iglesias’s case, it contained the notation that Iglesias was “an
absentee landlord.” However, the EARS evaluation does not criticize Iglesias; rather it states
that the “First Assistant appropriately oversees the day to day work of the USAO’s senior
management team . . . .” We concluded that this was an honest mistake by Moschella,
attributing the criticism to the EARS report when it was actually contained on the Goodling
chart.




                                               356
improper reason, Department officials publicly justified the removals as the
result of an evaluation that sought to replace underperforming U.S. Attorneys.
In fact, we determined that the process implemented largely by Kyle Sampson,
Chief of Staff to the Attorney General, was unsystematic and arbitrary, with
little oversight by the Attorney General, the Deputy Attorney General, or any
other senior Department official. In choosing which U.S. Attorneys to remove,
Sampson did not adequately consult with the Department officials most
knowledgeable about their performance, or even examine formal evaluations of
each U.S. Attorney’s Office, despite his representations to the contrary.

      We also determined that the U.S. Attorneys were not given an
opportunity to address concerns about their performance or provided the
reasons for their removal, which led to widespread speculation about the true
reasons for their removal, including that they were removed for improper
partisan political reasons. And to make matters worse, after the removals
became public the statements and congressional testimony provided by the
Attorney General, the Deputy Attorney General, Sampson, and other
Department officials about the reasons for the removals were inconsistent,
misleading, and inaccurate in many respects.

      We believe the primary responsibility for these serious failures rest with
senior Department leaders – Attorney General Alberto Gonzales and Deputy
Attorney General Paul McNulty – who abdicated their responsibility to
adequately oversee the process and to ensure that the reasons for removal of
each U.S. Attorney were supportable and not improper. These removals were
not a minor personnel matter – they were an unprecedented removal of a group
of high-level Department officials that was certain to raise concerns if not
handled properly. Yet, neither the Attorney General nor the Deputy Attorney
General provided adequate oversight or supervision of this process. We also
concluded that Sampson bears significant responsibility for the flawed and
arbitrary removal process. Moreover, they and other Department officials are
responsible for failing to provide accurate and truthful statements about the
removals and their role in the process.

       We believe our investigation was able to uncover most of the facts
relating to the reasons for the removal of most of the U.S. Attorneys. However,
as described in this report, there are gaps in our investigation because of the
refusal of certain key witnesses to be interviewed by us, including former White
House officials Karl Rove, Harriet Miers, and William Kelley, former Department
of Justice White House Liaison Monica Goodling, Senator Pete Domenici, and
his Chief of Staff. In addition, the White House would not provide us internal
documents related to the removals of the U.S. Attorneys.

       The most serious allegation that we were not able to fully investigate
related to the removal of David Iglesias, the U.S. Attorney for New Mexico, and
the allegation that he was removed to influence voter fraud and public


                                      357
corruption prosecutions. We recommend that a counsel specially appointed by
the Attorney General assess the facts we have uncovered, work with us to
conduct further investigation, and ultimately determine whether the evidence
demonstrates that any criminal offense was committed with regard to the
removal of Iglesias or any other U.S. Attorney, or the testimony of any witness
related to the U.S. Attorney removals.

      The Department’s removal of the U.S. Attorneys and the controversy it
created severely damaged the credibility of the Department and raised doubts
about the integrity of Department prosecutive decisions. We believe that this
investigation, and final resolution of the issues raised in this report, can help
restore confidence in the Department by fully describing the serious failures in
the process used to remove the U.S. Attorneys and by providing lessons for the
Department in how to avoid such failures in the future.




                                      358
APPENDIX A
                                     THE WHITE HOUSE
                                         WASHINGTON




                                       September 18, 2008



Dear Messrs. Jarrett and Fine:

I am writing to follow-up on our discussions of the last several months. Your offices (the
Department of Justice's ("DO]" or "the Department") Office of the Inspector General (OIG) and
Office of Professional Responsibility (OPR» have requested documents from the White House
for use in the U.S. Attorneys inquiry you are conducting jointly. The White House has provided
some of the requested materials and has declined to provide others . Thank you for the
opportunity to set forth the White House rationale and position on the question of why we have
not thought it appropriate to provide your offices with certain of the materials you requested.

Your inquiry, as we have always understood it from our discussions, is not directed to the White
House (over which your agencies do not have jurisdiction) but as a factual matter involves the
White House to the extent that the factual scope of your inquiry includes communications to and
from the White House . Your office has sought to interview a number of former White House
employees and the White House has encouraged all the identified employees to cooperate with
your inquiry. Additionally, as discussed below, the White House has been willing to make
certain kinds of documents available to your inquiry, but has declined to provide your offices
with unqualified access to all White House U.S. Attorneys-related materials you have requested.

I.   Documents in Possession of the White House

The White House provided to OIG/OPR copies of email communications between the White
House and the Department relating to the Department's decision to seek the resignations of
certain U.S. Attorneys. The White House also provided copies of email communications
between the White House and non-DOl third parties on the subject of the U.S. Attorneys
resignations.

The White House has declined to provide internal documents relating to the U.S. Attorneys
resignations. Those materials, by their very nature, implicate White House confidentiality
interests of a very high order, and such interests are well-established in law. The President needs
confidential advice from those who advise and assist him in the performance of his duties . Their
communications must be candid, and confidentiality is necessary to preserve that candor.
Without it, the advising and decisionrnaking processes of the White House must be expected to
suffer. See In re Sealed Case, 121 F.3d 729, 750, 762 (D.C. Cir. 1997) (discussing "critical role
that confidentiality plays" in the advice of presidential advisors and noting "public and
constitutional interest in preserving the efficacy and quality of presidential decisionrnaking").
Such concerns are only heightened where, as here, the subject of the inquiry - the removal and
nomination of U.S. Attorneys - is committed by the Constitution to the discretion of the
President. U.S. Const. Art. II, § 2; Myers v. United States, 272 U.S . 52, 163-64 (1926).

It is important to note that, in declining to make White House internal documents available, the
White House did not assert executive privilege against OIG and OPR (which are components of
DOl, an executive branch agency). However, the White House internal communications not
provided to OIG/OPR are, in our judgment, covered by the deliberative process and/or
presidential communications components of executive privilege in the event of a demand for
them by Congress.

II.    White House Review Chronology

In the course of your investigation, OIG/OPR became aware that the Office of Counsel to the
President had created a draft chronology of the events relating to the U.S. Attorney resignations.
That chronology developed as a series of drafts in the period beginning March 9,2007 and
ending March 16, 2007. OIG/OPR asked the White House to provide a complete copy of the
draft chronology for its investigation.

The White House declined to make the complete draft chronology available to OIG/OPR. The
draft chronology was prepared immediately after the U.S. Attorneys matter became a major news
story, in order to try to gather, on a preliminary basis, facts and information surrounding the
matter. It was prepared by the Counsel's office for the purpose of assisting and advising senior
White House officials of the facts as we knew them and about how to respond to the controversy.
The draft chronology reflected both preliminary factual information obtained by the Counsel's
office in the course of its review and preliminary judgments by members of the Counsel's office
concerning the relative significance of the gathered information.

Again, although the White House believed (in light of prior DOl published guidance in a
somewhat comparable setting) that the draft chronology would be covered by the presidential
communications, deliberative process, attorney-client and work-product components of
executive privilege in a dispute with Congress, see Assertion ofExecutive Privilege Regarding
White House Counsel's Office Documents, 20 Op . O.L.C . 2, 3 (1996), the White House did not
assert executive privilege against OIG/OPR as a basis for not providing the draft chronology.
Rather, the White House position on the draft chronology was as follows: the White House
recognized and maintained a very strong confidentiality interest in not releasing the draft
chronology. That interest was anchored in the confidentiality concerns noted in Part I above:
those who assist and advise the President must be able to communicate confidentially on subjects
falling within the scope of that service. Additionally, the draft chronology was prepared by
members of the Counsel's office for the express purpose of providing advice about the U.S .
Attorneys controversy as part of the Office's function of advising and assisting in response to a
public, ongoing, and significant controversy.

In our view, to make available to OIG/OPR a draft chronology of this sort, prepared under the
circumstances described above, would threaten a very significant chilling effect for counsel and
White House officials, and complete disclosure would have an adverse impact on the effective
provision oflegal advice within the White House. That impact, as we perceived it, was not
outweighed by OIG/OPR's stated need for the information, at least not to the extent we
understood that need as articulated in our discussions with your offices. Accordingly, we did not
make the draft chronology available in its entirety .

At the same time, the White House recognized that OIG and OPR - which are components of an
executive branch agency - had a genuine, and potentially significant, interest in reviewing those
factual portions of the draft chronology for which OIG/OPR had a substantial need and no other
available source. With these competing interests in mind, the White House attempted to strike a
balance respectful of both concerns. In view of the draft chronology's origins and purpose, we
viewed the situation as in some sense analogous to civil discovery efforts to obtain an opponent's
attorney work-product material. See Hickman v. Taylor, 329 U.S. 495 (1947); Fed. R. Civ. P.
26(b )(3). Accordingly, after several meetings with OIG/OPR to discuss the question of our
respective offices' interests in this matter, the White House provided for OIG/OPR review a
redacted copy of the draft chronology. The unredacted portions made available to OIG/OPR
contained factual information for which the White House understood OIG/OPR to have
expressed a substantial need and for which OIG/OPR had no alternative available source that
could provide the same or equivalent information. As to portions not made available, the
decision not to provide them resulted from our not receiving from OIG/OPR a focused showing
of substantial need for the non-disclosed portions and an understanding that the undisclosed
material (or its equivalent) was unavailable from another source.

In this partial disclosure, as noted above, we sought to balance the needs of your investigation
with the White House's confidentiality interests. Our disclosure was necessarily partial because,
in our judgment, total, unqualified disclosure of all factual portions of the entire draft chronology
would have an adverse impact on the effective provision of legal advice within the White House.
That impact, as we perceived it, was not outweighed by OIG/OPR's need for the undisclosed
information, at least to the extent we understood that need as articulated in our discussions with
your office.

Thank you again for the opportunity to state our position on this matter. In the event your final
report discusses the White House position on document disclosures, I respectfully request that
you include this letter in its entirety as an attachment to the final report.


                                              Sincerely,

                                              (5tw.!--/71Do~
                                              Emmet T. Flood
                                              Deputy Counsel to the President
The Honorable Glenn A. Fine
Inspector General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530


The Honorable H. Marshall Jarrett
Counsel, Office of Professional Responsibility
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
APPENDIX B
iii
      

APPENDIX C
                                                       Department of Justice Management
                                                         January 2003 - December 2007


                      Year 2003                    2004                    2005                    2006                    2007
                     Month J F M A M J J A S O N D J F M A M J J A S O N D J F M A M J J A S O N D J F M A M J J A S O N D J F M A M J J A S O N D



Attorney General                               John Ashcroft                                                                   Alberto Gonzales
                                             Feb 2001 - Feb 2005                                                                Feb 2005 - Sept 2007



Kyle Sampson                                 Counselor to the Attorney General            Dep. Chief of Staff                         Chief of Staff
                                                     Aug 2003 - Feb 2005                       Feb 05 - Sept 05                 Sept 2005 - Mar 2007



Monica Goodling                       DOJ Press Office                    Special Assistant       Deputy Director        Counsel to       White House Liaison and
                                      Feb 2002 - Aug 2004                USAO East. Dist. VA          EOUSA                the AG           Counsel to the AG
                                                                           Sept 04 - Mar 05       Mar 05 - Oct 05      Oct 05 - Apr 06     April 2006 - April 2007


Deputy Attorney General                                              James Comey                                                    Paul McNulty
                                                                   Dec 2003 - Aug 2005                                 Acting Nov 05 Confirmed Mar 06 - Apr 07


Deputy Attorney General                                                                                                                   Michael Elston
Chief of Staff                                                                                                                           Nov 2005 - Jun 2007


Associate Deputy                                                                              David Margolis
Attorney General                                                                                May 1993 -


Principal Associate Deputy                                                                                        William Mercer                           William Moschella
Attorney General                                                                                                    Jun 05 - Jul 06                            Oct 2006 -



Director of EOUSA                                                     Mary Beth Buchanan                                        Michael Battle
                                                                        Jun 2004 - Jun 2005                                   Jun 2005 - Mar 2007
